<html>
<title> - CURITY THROUGH REGULARIZED IMMIGRATION AND A VIBRANT ECONOMY (STRIVE) ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 CURITY THROUGH REGULARIZED IMMIGRATION AND A VIBRANT ECONOMY (STRIVE) 
                              ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1645

                               ----------                              

                           SEPTEMBER 6, 2007

                               ----------                              

                           Serial No. 110-47

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov 



                     U.S. GOVERNMENT PRINTING OFFICE

37-603 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 6, 2007

                                                                   Page

                              TEXT OF BILL

H.R. 1645, the ``Security Through Regularized Immigration and a 
  Vibrant Economy (STRIVE) Act of 2007''.........................     2

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Luis V. Gutierrez, a Representative in Congress 
  from the State of Illinois, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   181
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..   183
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..   185

                               WITNESSES

The Honorable Jeff Flake, a Representative in Congress from the 
  State of Arizona
  Oral Testimony.................................................   189
  Prepared Statement.............................................   191
The Honorable Joe Baca, a Representative in Congress from the 
  State of California
  Oral Testimony.................................................   193
  Prepared Statement.............................................   195
The Honorable Ray LaHood, a Representative in Congress from the 
  State of Illinois
  Oral Testimony.................................................   196
  Prepared Statement.............................................   197
The Honorable Brian Bilbray, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................   199
  Prepared Statement.............................................   201
Mr. Tony Wasilewski, Small Business Owner, Schiller Park, IL
  Oral Testimony.................................................   215
  Prepared Statement.............................................   216
Petty Officer Second Class Eduardo Gonzalez, U.S. Navy, 
  Jacksonville, FL
  Oral Testimony.................................................   217
  Prepared Statement.............................................   219
Reverend Luis Cortes, Jr., President, Esperanza USA
  Oral Testimony.................................................   220
  Prepared Statement.............................................   222
Mr. Joshua Hoyt, Executive Director, Illinois Coalition for 
  Immigrant and Refugee Rights
  Oral Testimony.................................................   231
  Prepared Statement.............................................   232
Ms. Cassandra Q. Butts, Senior Vice President for Domestic 
  Policy, Center for American Progress
  Oral Testimony.................................................   274
  Prepared Statement.............................................   276
Mr. Michael L. Barrera, President and CEO, United States Hispanic 
  Chamber of Commerce, on behalf of Mr. David Lizarraga, Chairman 
  of the Board of Directors, United States Hispanic Chamber of 
  Commerce
  Oral Testimony.................................................   280
  Prepared Statement.............................................   281
Ms. Julie Kirchner, Director of Government Relations, Federation 
  for American Immigration Reform
  Oral Testimony.................................................   283
  Prepared Statement.............................................   285
The Honorable Corey Stewart, Chairman at-Large, Prince William 
  County Board of Supervisors
  Oral Testimony.................................................   302
  Prepared Statement.............................................   303

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   181
Prepared Statement of the Honorable Luis V. Gutierrez, a 
  Representative in Congress from the State of Illinois, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................   182
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, 
  Chairman, Committee on the Judiciary, and Member, Subcommittee 
  on Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   186
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   186

                                APPENDIX

               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Hilda L. Solis, a 
  Representative in Congress from the State of California........   315
Prepared Statement of the United States Commission on 
  International Religious Freedom................................   316
Prepared Statement of the National Council of La Raza (NCLR).....   330


SECURITY THROUGH REGULARIZED IMMIGRATION AND A VIBRANT ECONOMY (STRIVE) 
                              ACT OF 2007

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2007

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Berman, 
Jackson Lee, Davis, Ellison, King, Gallegly, and Goodlatte.
    Also present: Chairman Conyers.
    Staff present: Ur Mendoza Jaddou, Chief Counsel; J. Traci 
Hong, Majority Counsel; George Fishman, Minority Counsel; and 
Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. Now that the Ranking Member has arrived, the 
hearing on the Subcommittee on Immigration, Citizenship, 
Refugees, Border Security, and International Law will come to 
order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and the public to the Committee's 
continuing discussion regarding comprehensive immigration 
reform.
    First, I would like to apologize to everyone who is here. 
At exactly 1:00, when the hearing was to begin, the bells rang 
and we had a series of votes that has delayed us for 1 hour. 
And that is just one of the risks that we face serving in the 
House of Representatives. And I am sorry that it has delayed 
all of you and inconvenienced you.
    Today our hearing will specifically address one 
comprehensive immigration reform bill, H.R.1645, otherwise 
known as the STRIVE Act, or the Security to Regularized 
Immigration in a Vibrant Economy Act of 2007. I would like to 
commend our Subcommittee colleague Representative Luis 
Gutierrez for not only drafting and introducing this bill, but 
also for his service on behalf of comprehensive immigration 
reform in the 110th Congress and in many Congresses before the 
110th.
    [The text of the bill, H.R. 1645, follows:]

<bullet>HR 1645 IH  ___________________________________________________
                               <greek-l>

 deg.

                                                                      I
110th CONGRESS
    1st Session

                                H. R. 1645

To provide for comprehensive immigration reform, and for other 
    purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                             March 22, 2007
Mr. Gutierrez (for himself, Mr. Flake, Mr. Baca, Mr. Lincoln Diaz-
    Balart of Florida, Mr. Emanuel, Mr. Radanovich, Ms. Jackson-Lee of 
    Texas, Mr. LaHood, Mr. Crowley, Mr. Mario Diaz-Balart of Florida, 
    Ms. Giffords, Ms. Ros-Lehtinen, Ms. Schakowsky, Mr. Fortuno, Mr. 
    Becerra, Mr. Cardoza, Mr. Cuellar, Mr. Gonzalez, Mr. Grijalva, Mr. 
    Hinojosa, Mrs. Napolitano, Mr. Ortiz, Mr. Pastor, Mr. Reyes, Mr. 
    Rodriguez, Ms. Roybal-Allard, Mr. Salazar, Mr. Serrano, Mr. Sires, 
    and Ms. Solis) introduced the following bill; which was referred to 
    the Committee on the Judiciary, and in addition to the Committee on 
    Homeland Security, for a period to be subsequently determined by 
    the Speaker, in each case for consideration of such provisions as 
    fall within the jurisdiction of the committee concerned
                               __________

                                 A BILL

To provide for comprehensive immigration reform, and for other 
    purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE; TABLE OF CONTENTS.

    (a) Short Title.--This Act may be cited as the ``Security Through 
Regularized Immigration and a Vibrant Economy Act of 2007'' or as the 
``STRIVE Act of 2007''.
    (b) Table of Contents.--The table of contents for this Act is as 
follows:

    Sec. 1. Short title; table of contents.
    Sec. 2. Reference to the Immigration and Nationality Act.
    Sec. 3. Definitions.
    Sec. 4. Severability.
    Sec. 5. Certification requirements prior to implementation of the 
New Worker Program and the conditional nonimmigrant classification.

                      TITLE I--BORDER ENFORCEMENT

        Subtitle A--Assets for Controlling United States Borders

    Sec. 101. Enforcement personnel.
    Sec. 102. Technological assets.
    Sec. 103. Infrastructure.
    Sec. 104. Ports of entry.
    Sec. 105. Secure communication.
    Sec. 106. Unmanned aerial vehicles.
    Sec. 107. Surveillance technologies programs.

       Subtitle B--Border Security Plans, Strategies, and Reports

    Sec. 111. Surveillance plan.
    Sec. 112. National Strategy for Border Security.
    Sec. 113. Reports on improving the exchange of information on North 
American security.
    Sec. 114. Border Patrol training capacity review.
    Sec. 115. Secure Border Initiative financial accountability.

                  Subtitle C--Southern Border Security

    Sec. 121. Improving the security of Mexico's southern border.
    Sec. 122. Report on deaths at the United States-Mexico border.
    Sec. 123. Cooperation with the Government of Mexico.
    Sec. 124. Temporary National Guard support for securing the 
southern land border of the United States.
    Sec. 125. United States-Mexico Border Enforcement Review 
Commission.

                  Subtitle D--Secure Entry Initiatives

    Sec. 131. Biometric data enhancements.
    Sec. 132. US-VISIT System.
    Sec. 133. Document fraud detection.
    Sec. 134. Improved document integrity.
    Sec. 135. Biometric entry-exit system.
    Sec. 136. Evasion of inspection or violation of arrival, reporting, 
entry, or clearance requirements.

             Subtitle E--Law Enforcement Relief for States

    Sec. 141. Border relief grant program.
    Sec. 142. Northern and southern border prosecution initiative.

                  Subtitle F--Rapid Response Measures

    Sec. 151. Deployment of Border Patrol agents.
    Sec. 152. Border Patrol major assets.
    Sec. 153. Electronic equipment.
    Sec. 154. Personal equipment.
    Sec. 155. Authorization of appropriations.

     Subtitle G--Border Infrastructure and Technology Modernization

    Sec. 161. Definitions.
    Sec. 162. Port of Entry Infrastructure Assessment Study.
    Sec. 163. National Land Border Security Plan.
    Sec. 164. Expansion of commerce security programs.
    Sec. 165. Port of entry technology demonstration program.
    Sec. 166. Authorization of appropriations.

                 Subtitle H--Safe and Secure Detention

    Sec. 171. Definitions.
    Sec. 172. Recording secondary inspection interviews.
    Sec. 173. Procedures governing detention decisions.
    Sec. 174. Legal orientation program.
    Sec. 175. Conditions of detention.
    Sec. 176. Office of Detention Oversight.
    Sec. 177. Secure alternatives program.
    Sec. 178. Less restrictive detention facilities.
    Sec. 179. Authorization of appropriations; effective date.

             Subtitle I--Other Border Security Initiatives

    Sec. 181. Combating human smuggling.
    Sec. 182. Screening of municipal solid waste.
    Sec. 183. Border security on certain Federal land.

                     TITLE II--INTERIOR ENFORCEMENT

 Subtitle A--Reducing the Number of Illegal Aliens in the United States

    Sec. 201. Incarceration of criminal aliens.
    Sec. 202. Encouraging aliens to depart voluntarily.
    Sec. 203. Deterring aliens ordered removed from remaining in the 
United States unlawfully.
    Sec. 204. Prohibition of the sale of firearms to, or the possession 
of firearms by certain aliens.
    Sec. 205. Uniform statute of limitations for certain Immigration, 
naturalization, and peonage offenses.
    Sec. 206. Expedited removal.
    Sec. 207. Field agent allocation.
    Sec. 208. Streamlined processing of background checks conducted for 
immigration benefit applications and petitions.
    Sec. 209. State criminal alien assistance program.
    Sec. 210. Transportation and processing of illegal aliens 
apprehended by State and local law enforcement officers.
    Sec. 211. Reducing illegal immigration and alien smuggling on 
tribal lands.
    Sec. 212. Mandatory address reporting requirements.
    Sec. 213. State and local Enforcement of Federal Immigration laws.
    Sec. 214. Increased criminal penalties related to drunk driving.
    Sec. 215. Law enforcement authority of States and political 
subdivisions and transfer to Federal custody.
    Sec. 216. Laundering of monetary instruments.
    Sec. 217. Increase of Federal detention space and the utilization 
of facilities identified for closures as a result of the Defense Base 
Closure Realignment Act of 1990.
    Sec. 218. Determination of immigration status of individuals 
charged with Federal offenses.
    Sec. 219. Expansion of the Justice Prisoner and Alien Transfer 
System.
    Sec. 220. Cancellation of visas.

                 Subtitle B--Passport and Visa Security

    Sec. 221. Reform of passport fraud offenses.
    Sec. 222. Other immigration reforms.

  Subtitle C--Detention and Removal of Aliens Who Illegally Enter or 
                      Remain in the United States

    Sec. 231. Detention and removal of aliens ordered removed.
    Sec. 232. Increased criminal penalties for immigration violations.
    Sec. 233. Aggravated felony.
    Sec. 234. Increased criminal penalties related to gang violence, 
removal, and alien smuggling.
    Sec. 235. Illegal entry.
    Sec. 236. Illegal reentry.

                   TITLE III--EMPLOYMENT VERIFICATION

    Sec. 301. Employment verification.
    Sec. 302. Clarification of ineligibility for misrepresentation.
    Sec. 303. Antidiscrimination protections.
    Sec. 304. Additional protections.
    Sec. 305. Additional worksite enforcement and fraud detection 
agents.
    Sec. 306. Amendments to the Social Security Act and the Internal 
Revenue Code.

                      TITLE IV--NEW WORKER PROGRAM

    Sec. 401. Nonimmigrant worker.
    Sec. 402. Admission of nonimmigrant workers.
    Sec. 403. Employer obligations.
    Sec. 404. Alien employment management system.
    Sec. 405. Recruitment of United States workers.
    Sec. 406. Numerical limitations.
    Sec. 407. Adjustment to lawful permanent resident status.
    Sec. 408. Requirements for participating countries.
    Sec. 409. Compliance investigators.
    Sec. 410. Standing commission on immigration and labor markets.
    Sec. 411. Admission of nonimmigrants.
    Sec. 412. Agency representation and coordination.
    Sec. 413. Sense of Congress regarding personal protective 
equipment.
    Sec. 414. Rulemaking; effective date.
    Sec. 415. Authorization of appropriations.

                         TITLE V--VISA REFORMS

                     Subtitle A--Backlog Reduction

    Sec. 501. Elimination of existing backlogs.
    Sec. 502. Increasing country limits and exempting family-sponsored 
and employment-based immigrants.
    Sec. 503. Allocation of immigrant visas.
    Sec. 504. Nursing shortage.
    Sec. 505. Expedited adjudication of employer petitions for aliens 
of extraordinary artistic ability.
    Sec. 506. Powerline workers and boilermakers.
    Sec. 507. H-1B visas.
    Sec. 508. United States educated immigrants.
    Sec. 509. Student visa reform.
    Sec. 510. L-1 visa holders subject to visa backlog.
    Sec. 511. Retaining workers subject to green card backlog.
    Sec. 512. Streamlining the adjudication process for established 
employers.
    Sec. 513. Providing premium processing of Employment-Based visa 
petitions.
    Sec. 514. Eliminating procedural delays in labor certification 
process.
    Sec. 515. Visa revalidation.
    Sec. 516. Relief for minor children and widows.
    Sec. 517. Relief for widows and orphans.
    Sec. 518. Sons and daughters of Filipino World War II veterans.
    Sec. 519. Determinations under the Haitian Refugee Immigration 
Fairness Act of 1998.
    Sec. 520. S visas.
    Sec. 521. L visa limitations.
    Sec. 522. Establishment of new fashion model nonimmigrant 
classification.
    Sec. 523. EB-5 regional center program.
    Sec. 524. Return of Talent Program.

Subtitle B--Preservation of Immigration Benefits for Victims of a Major 
                         Disaster or Emergency

    Sec. 531. Short title.
    Sec. 532. Definitions.
    Sec. 533. Special immigrant status.
    Sec. 534. Extension of filing or reentry deadlines.
    Sec. 535. Humanitarian relief for certain surviving spouses and 
children.
    Sec. 536. Recipient of public benefits.
    Sec. 537. Age-out protection.
    Sec. 538. Employment eligibility verification.
    Sec. 539. Naturalization.
    Sec. 540. Discretionary authority.
    Sec. 541. Evidentiary standards and regulations.
    Sec. 542. Identification documents.
    Sec. 543. Waiver of regulations.
    Sec. 544. Notices of change of address.
    Sec. 545. Foreign students and exchange program participants.

           TITLE VI--LEGALIZATION OF UNDOCUMENTED INDIVIDUALS

                 Subtitle A--Conditional Nonimmigrants

    Sec. 601. Conditional nonimmigrants.
    Sec. 602. Adjustment of status for conditional nonimmigrants.
    Sec. 603. Administrative and judicial review.
    Sec. 604. Mandatory disclosure of information.
    Sec. 605. Penalties for false statements in applications.
    Sec. 606. Aliens not subject to direct numerical limitations.
    Sec. 607. Employer protections.
    Sec. 608. Limitations on eligibility.
    Sec. 609. Rulemaking.
    Sec. 610. Authorization of appropriations.

                     Subtitle B--DREAM Act of 2007

    Sec. 621. Short title.
    Sec. 622. Definitions.
    Sec. 623. Restoration of State option to determine residency for 
purposes of higher education benefits.
    Sec. 624. Cancellation of removal and adjustment of status of 
certain long-term residents who entered the United States as children.
    Sec. 625. Conditional permanent resident status.
    Sec. 626. Retroactive benefits under this Act.
    Sec. 627. Exclusive jurisdiction.
    Sec. 628. Penalties for false statements in application.
    Sec. 629. Confidentiality of information.
    Sec. 630. Expedited processing of applications; prohibition on 
fees.
    Sec. 631. Higher education assistance.
    Sec. 632. GAO report.

                     Subtitle C--AgJOBS Act of 2007

    Sec. 641. Short title.
    Sec. 642. Definitions.

 Chapter 1--Pilot Program for Earned Status Adjustment of Agricultural 
                                Workers

                     subchapter a--blue card status

    Sec. 643. Requirements for blue card status.
    Sec. 644. Treatment of aliens granted blue card status.
    Sec. 645. Adjustment to permanent residence.
    Sec. 646. Applications.
    Sec. 647. Waiver of numerical limitations and certain grounds for 
inadmissibility.
    Sec. 648. Administrative and judicial review.
    Sec. 649. Use of information.
    Sec. 650. Regulations, effective date, authorization of 
appropriations.

          subchapter b--correction of social security records

    Sec. 651. Correction of Social Security records.

                Chapter 2--Reform of H-2A Worker Program

    Sec. 652. Amendment to the Immigration and Nationality Act.

                  Chapter 3--Miscellaneous Provisions

    Sec. 653. Determination and use of user fees.
    Sec. 654. Regulations.
    Sec. 655. Reports to Congress.
    Sec. 656. Effective date.

          Subtitle D--Programs to Assist Nonimmigrant Workers

    Sec. 661. Grants to support public education and community 
training.
    Sec. 662. Grant program to assist applicants for naturalization.
    Sec. 663. Strengthening American citizenship.
    Sec. 664. Addressing poverty in Mexico.

                        TITLE VII--MISCELLANEOUS

                 Subtitle A--Increasing Court Personnel

    Sec. 701. Additional immigration personnel.
    Sec. 702. Senior judge participation in the selection of 
magistrates.
    Sec. 703. Study on the appellate process for immigration appeals.
    Sec. 704. Sense of Congress regarding the establishment of an 
immigration court system.

  Subtitle B--Citizenship Assistance for Members of the Armed Services

    Sec. 711. Waiver of requirement for fingerprints for members of the 
Armed Forces.
    Sec. 712. Noncitizen membership in the Armed Forces.
    Sec. 713. Provision of information on naturalization to members of 
the Armed Forces.
    Sec. 714. Provision of information on naturalization to the public.
    Sec. 715. Reports.

                 Subtitle C--Family Humanitarian Relief

    Sec. 721. Adjustment of status for certain nonimmigrant victims of 
terrorism.
    Sec. 722. Cancellation of removal for certain immigrant victims of 
terrorism.
    Sec. 723. Exceptions.
    Sec. 724. Evidence of death.
    Sec. 725. Definitions.

                       Subtitle D--Other Matters

    Sec. 731. Office of Internal Corruption Investigation.
    Sec. 732. Adjustment of status for certain persecuted religious 
minorities.
    Sec. 733. Eligibility of agricultural and forestry workers for 
certain legal assistance.
    Sec. 734. State court interpreter grants.
    Sec. 735. Adequate notice for alternate country of removal.
    Sec. 736. Standards for biometric documents.
    Sec. 737. State Impact Assistance Account.
    Sec. 738. New Worker Program and Conditional Nonimmigrant Fee 
Account.

SEC. 2. REFERENCE TO THE IMMIGRATION AND NATIONALITY ACT.

    Except as otherwise expressly provided, whenever in this Act an 
amendment or repeal is expressed in terms of an amendment to, or repeal 
of, a section or other provision, the reference shall be considered to 
be made to a section or other provision of the Immigration and 
Nationality Act (8 U.S.C. 1101 et seq.).

SEC. 3. DEFINITIONS.

    In this Act:
            (1) Department.--Except as otherwise provided, the term 
        ``Department'' means the Department of Homeland Security.
            (2) Secretary.--Except as otherwise provided, the term 
        ``Secretary'' means the Secretary of Homeland Security.

SEC. 4. SEVERABILITY.

    If any provision of this Act, any amendment made by this Act, or 
the application of such provision or amendment to any person or 
circumstance is held to be invalid for any reason, the remainder of 
this Act, the amendments made by this Act, and the application of the 
provisions of such to any other person or circumstance shall not be 
affected by such holding.

SEC. 5. CERTIFICATION REQUIREMENTS PRIOR TO IMPLEMENTATION OF THE NEW 
                    WORKER PROGRAM AND THE CONDITIONAL NONIMMIGRANT 
                    CLASSIFICATION.

    Notwithstanding any other provision of this Act, the Secretary may 
not implement the New Worker Program established in the amendments made 
by title IV or grant conditional nonimmigrant classification under the 
amendments made by title VI prior to the date that the Secretary 
submits to the President and Congress a certification that the 
following conditions have been met:
            (1) Secure border.--The Secretary has submitted to Congress 
        a report on the status of the implementation of the border 
        surveillance technology improvements described in the Secure 
        Border Initiative, including target dates for the completion of 
        such improvements.
            (2) Secure documents.--That the systems and infrastructure 
        necessary to carry out the improvements to immigration document 
        security required by this Act and the amendments made by this 
        Act, including documents that will be issued under the New 
        Worker Program and to aliens granted conditional nonimmigrant 
        classification, have been developed, tested for reliability and 
        accuracy, and are ready for use, including systems and 
        infrastructure necessary to permit the Director of the Federal 
        Bureau of Investigation to conduct required background checks.
            (3) First phase implementation of the electronic employment 
        eligibility verification system.--The first phase of the 
        Electronic Employment Verification System described in section 
        274A of the Immigration and Nationality Act, as amended by 
        section 301 of this Act, for critical infrastructure employers 
        described in subsection (c)(10)(i) of such section 274A has 
        been implemented.

                      TITLE I--BORDER ENFORCEMENT

        Subtitle A--Assets for Controlling United States Borders

SEC. 101. ENFORCEMENT PERSONNEL.

    (a) Port of Entry Inspectors.--
            (1) Additional inspectors.--In each of the fiscal years 
        2008 through 2012, the Secretary shall, subject to the 
        availability of appropriations, increase by not less than 500 
        the number of positions for full-time active duty port of entry 
        inspectors and provide appropriate training, equipment, and 
        support to such additional inspectors.
            (2) Authorization of appropriations.--There are authorized 
        to be appropriated to the Secretary such sums as may be 
        necessary for each of the fiscal years 2008 through 2012 to 
        carry out paragraph (1).
    (b) Border Patrol Agents.--Section 5202 of the Intelligence Reform 
and Terrorism Prevention Act of 2004 (Public Law 108-458; 118 Stat. 
3734) is amended to read as follows:

``SEC. 5202. INCREASE IN FULL-TIME BORDER PATROL AGENTS.

    ``(a) Annual Increases.--The Secretary of Homeland Security shall, 
subject to the availability of appropriations for such purpose, 
increase the number of positions for full-time active-duty Border 
Patrol agents within the Department of Homeland Security (above the 
number of such positions for which funds were appropriated for the 
preceding fiscal year), by--
            ``(1) 2,000 in fiscal year 2008;
            ``(2) 2,400 in fiscal year 2009;
            ``(3) 2,400 in fiscal year 2010;
            ``(4) 2,400 in fiscal year 2011; and
            ``(5) 2,400 in fiscal year 2012.
    ``(b) Northern Border.--In each of the fiscal years 2008 through 
2012, in addition to the Border Patrol agents assigned along the 
northern border of the United States during the previous fiscal year, 
the Secretary shall assign a number of Border Patrol agents equal to 
not less than 20 percent of the net increase in Border Patrol agents 
during each such fiscal year.
    ``(c) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary for each of fiscal years 
2008 through 2012 to carry out this section.''.
    (c) Investigative Personnel.--
            (1) Immigration and customs enforcement investigators.--
        Section 5203 of the Intelligence Reform and Terrorism 
        Prevention Act of 2004 (Public Law 108-458; 118 Stat. 3734) is 
        amended by striking ``800'' and inserting ``1000''.
            (2) Additional personnel.--In addition to the positions 
        authorized under section 5203 of the Intelligence Reform and 
        Terrorism Prevention Act of 2004, as amended by paragraph (1), 
        during each of the fiscal years 2008 through 2012, the 
        Secretary shall, subject to the availability of appropriations, 
        increase by not less than 200 the number of positions for 
        personnel within the Department assigned to investigate alien 
        smuggling.
            (3) Authorization of appropriations.--There are authorized 
        to be appropriated to the Secretary such sums as may be 
        necessary for each of the fiscal years 2008 through 2012 to 
        carry out this section.
    (d) Deputy United States Marshals.--
            (1) Additional united states marshals.--In each of the 
        fiscal years 2008 through 2012, the Attorney General shall, 
        subject to the availability of appropriations, increase by not 
        less than 50 the number of positions for full-time active duty 
        Deputy United States Marshals that investigate criminal matters 
        related to immigration.
            (2) Authorization of appropriations.--There are authorized 
        to be appropriated to the Attorney General such sums as may be 
        necessary for each of the fiscal years 2008 through 2012 to 
        carry out paragraph (1).
    (e) Recruitment of Former Members of the Armed Forces and Members 
of Reserve Components of the Armed Forces.--
            (1) Requirement for program.--The Secretary, in conjunction 
        with the Secretary of Defense, shall establish a program to 
        actively recruit covered members or former members of the Armed 
        Forces to serve in United States Customs and Border Protection.
            (2) Report on recruitment incentives.--
                    (A) Requirement.--Not later than 60 days after the 
                date of enactment of this Act, the Secretary and the 
                Secretary of Defense shall jointly submit to the 
                appropriate committees of Congress a report assessing 
                the desirability and feasibility of offering an 
                incentive to a covered member or former member of the 
                Armed Forces for the purpose of encouraging such member 
                to serve in United States Customs and Border 
                Protection. The Secretary and the Secretary of Defense 
                shall assume that the cost of any such incentive shall 
                be borne by the Secretary.
                    (B) Content.--The report required by subparagraph 
                (A) shall include--
                            (i) an assessment of the desirability and 
                        feasibility of offering any incentive, 
                        including a monetary incentive, that the 
                        Secretary and the Secretary of Defense jointly 
                        consider appropriate, regardless of whether 
                        such incentive is authorized by law or 
                        regulations on the date of enactment of this 
                        Act;
                            (ii) a detailed assessment of the 
                        desirability and feasibility of such an 
                        incentive that would--
                                    (I) encourage service in United 
                                States Customs and Border Protection by 
                                a covered member or a former member of 
                                the Armed Forces who provided border 
                                patrol or border security assistance to 
                                United States Customs and Border 
                                Protection as part of the member's 
                                duties as a member of the Armed Forces; 
                                and
                                    (II) leverage military training and 
                                experience by accelerating training, or 
                                allowing credit to be applied to 
                                related areas of training, required for 
                                service with United States Customs and 
                                Border Protection;
                            (iii) a description of various monetary and 
                        non-monetary incentives considered for purposes 
                        of the report;
                            (iv) an assessment of the desirability and 
                        feasibility of utilizing any such incentive for 
                        the purpose described in subparagraph (A); and
                            (v) any other matter that the Secretary and 
                        the Secretary of Defense jointly consider 
                        appropriate.
            (3) Definitions.--In this subsection:
                    (A) Appropriate committees of congress.--The term 
                ``appropriate committees of Congress'' means--
                            (i) the Committee on Appropriations, the 
                        Committee on Armed Services, and the Committee 
                        on Homeland Security and Governmental Affairs 
                        of the Senate; and
                            (ii) the Committee on Appropriations, the 
                        Committee on Armed Services, and the Committee 
                        on Homeland Security of the House of 
                        Representatives.
                    (B) Covered member or former member of the armed 
                forces.--The term ``covered member or former member of 
                the Armed Forces'' means an individual--
                            (i) who is a member of a reserve component 
                        of the Armed Forces; or
                            (ii) who is a former member of the Armed 
                        Forces within 2 years of separation from 
                        service in the Armed Forces.

SEC. 102. TECHNOLOGICAL ASSETS.

    (a) Increased Availability of Equipment.--The Secretary and the 
Secretary of Defense shall develop and implement a plan to use 
authorities provided to the Secretary of Defense under chapter 18 of 
title 10, United States Code, to increase the availability and use of 
Department of Defense equipment, including unmanned aerial vehicles, 
tethered aerostat radars, and other surveillance equipment, to assist 
the Secretary in carrying out surveillance activities conducted at or 
near the international land borders of the United States to prevent 
illegal immigration.
    (b) Report.--Not later than 6 months after the date of enactment of 
this Act, the Secretary and the Secretary of Defense shall submit to 
Congress a report that contains--
            (1) a description of the current use of Department of 
        Defense equipment to assist the Secretary in carrying out 
        surveillance of the international land borders of the United 
        States and assessment of the risks to citizens of the United 
        States and foreign policy interests associated with the use of 
        such equipment;
            (2) the plan developed under subsection (b) to increase the 
        use of Department of Defense equipment to assist such 
        surveillance activities; and
            (3) a description of the types of equipment and other 
        support to be provided by the Secretary of Defense under such 
        plan during the 1-year period beginning on the date of the 
        submission of the report.
    (c) Unmanned Aerial Vehicle Pilot Program.--During the 1-year 
period beginning on the date on which the report is submitted under 
subsection (b), the Secretary shall conduct a pilot program to test 
unmanned aerial vehicles for border surveillance along the 
international border between Canada and the United States.
    (d) Construction.--Nothing in this section may be construed as 
altering or amending the prohibition on the use of any part of the Army 
or the Air Force as a posse comitatus under section 1385 of title 18, 
United States Code.
    (e) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary such sums as may be necessary for each of 
the fiscal years 2008 through 2012 to carry out subsection (a).

SEC. 103. INFRASTRUCTURE.

    (a) Construction of Border Control Facilities.--Subject to the 
availability of appropriations, the Secretary shall construct all-
weather roads and acquire additional vehicle barriers and facilities 
necessary to achieve operational control of the international borders 
of the United States.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary such sums as may be necessary for each of 
the fiscal years 2008 through 2012 to carry out subsection (a).

SEC. 104. PORTS OF ENTRY.

    The Secretary is authorized to--
            (1) construct additional ports of entry along the 
        international land borders of the United States, at locations 
        to be determined by the Secretary; and
            (2) make necessary improvements to the ports of entry in 
        existence on the date of enactment of this Act.

SEC. 105. SECURE COMMUNICATION.

    The Secretary shall, as expeditiously as practicable, develop and 
implement a plan to improve the use of satellite communications and 
other technologies to ensure clear and secure 2-way communication 
capabilities--
            (1) among all Border Patrol agents conducting operations 
        between ports of entry;
            (2) between Border Patrol agents and their respective 
        Border Patrol stations;
            (3) between Border Patrol agents and residents in remote 
        areas along the international land borders of the United 
        States; and
            (4) between all appropriate border security agencies of the 
        Department and State, local, and tribal law enforcement 
        agencies.

SEC. 106. UNMANNED AERIAL VEHICLES.

    (a) Unmanned Aerial Vehicles and Associated Infrastructure.--The 
Secretary shall acquire and maintain unmanned aerial vehicles and 
related equipment for use to patrol the international borders of the 
United States, including equipment such as--
            (1) additional sensors;
            (2) critical spares;
            (3) satellite command and control; and
            (4) other necessary equipment for operational support.
    (b) Authorization of Appropriations.--
            (1) In general.--There are authorized to be appropriated to 
        the Secretary for each of the fiscal years 2008 and 2009 such 
        sums as may be necessary to carry out subsection (a).
            (2) Availability of funds.--Amounts appropriated pursuant 
        to the authorization of appropriations in paragraph (1) are 
        authorized to remain available until expended.

SEC. 107. SURVEILLANCE TECHNOLOGIES PROGRAMS.

    (a) Aerial Surveillance Program.--
            (1) In general.--In conjunction with the border 
        surveillance plan developed under section 5201 of the 
        Intelligence Reform and Terrorism Prevention Act of 2004 
        (Public Law 108-458; 8 U.S.C. 1701 note), the Secretary, not 
        later than 90 days after the date of enactment of this Act, 
        shall develop and implement a program to fully integrate and 
        utilize aerial surveillance technologies, including unmanned 
        aerial vehicles, to enhance the security of the international 
        border between the United States and Canada and the 
        international border between the United States and Mexico. The 
        goal of the program shall be to ensure continuous monitoring of 
        each mile of each such border.
            (2) Assessment and consultation requirements.--In 
        developing the program under this subsection, the Secretary 
        shall--
                    (A) consider current and proposed aerial 
                surveillance technologies;
                    (B) assess the feasibility and advisability of 
                utilizing such technologies to address border threats, 
                including an assessment of the technologies considered 
                best suited to address respective threats;
                    (C) consult with the Secretary of Defense regarding 
                any technologies or equipment, which the Secretary may 
                deploy along an international border of the United 
                States; and
                    (D) consult with the Administrator of the Federal 
                Aviation Administration regarding safety, airspace 
                coordination and regulation, and any other issues 
                necessary for implementation of the program.
            (3) Additional requirements.--
                    (A) In general.--The program developed under this 
                subsection shall include the use of a variety of aerial 
                surveillance technologies in a variety of topographies 
                and areas, including populated and unpopulated areas 
                located on or near an international border of the 
                United States, in order to evaluate, for a range of 
                circumstances--
                            (i) the significance of previous 
                        experiences with such technologies in border 
                        security or critical infrastructure protection;
                            (ii) the cost and effectiveness of various 
                        technologies for border security, including 
                        varying levels of technical complexity; and
                            (iii) liability, safety, and privacy 
                        concerns relating to the utilization of such 
                        technologies for border security.
            (4) Continued use of aerial surveillance technologies.--The 
        Secretary may continue the operation of aerial surveillance 
        technologies while assessing the effectiveness of the 
        utilization of such technologies.
            (5) Report to congress.--Not later than 180 days after 
        implementing the program under this subsection, the Secretary 
        shall submit to Congress a report regarding such program. The 
        Secretary shall include in the report a description of such 
        program together with any recommendations that the Secretary 
        finds appropriate for enhancing the program.
            (6) Authorization of appropriations.--There are authorized 
        to be appropriated such sums as may be necessary to carry out 
        this subsection.
    (b) Integrated and Automated Surveillance Program.--
            (1) Requirement for program.--Subject to the availability 
        of appropriations, the Secretary shall establish a program to 
        procure additional unmanned aerial vehicles, cameras, poles, 
        sensors, satellites, radar coverage, and other technologies 
        necessary to achieve operational control of the international 
        borders of the United States and to establish a security 
        perimeter known as a ``virtual fence'' along such international 
        borders to provide a barrier to illegal immigration. Such 
        program shall be known as the Integrated and Automated 
        Surveillance Program.
            (2) Program components.--The Secretary shall ensure, to the 
        maximum extent feasible, that--
                    (A) the technologies utilized in the Integrated and 
                Automated Surveillance Program are integrated and 
                function cohesively in an automated fashion, including 
                the integration of motion sensor alerts and cameras in 
                a manner where a sensor alert automatically activates a 
                corresponding camera to pan and tilt in the direction 
                of the triggered sensor;
                    (B) cameras utilized in the Program do not have to 
                be manually operated;
                    (C) such camera views and positions are not fixed;
                    (D) surveillance video taken by such cameras is 
                able to be viewed at multiple designated communications 
                centers;
                    (E) a standard process is used to collect, catalog, 
                and report intrusion and response data collected under 
                the Program;
                    (F) future remote surveillance technology 
                investments and upgrades for the Program can be 
                integrated with existing systems;
                    (G) performance measures are developed and applied 
                that can evaluate whether the Program is providing 
                desired results and increasing response effectiveness 
                in monitoring and detecting illegal intrusions along 
                the international borders of the United States;
                    (H) plans are developed under the Program to 
                streamline site selection, site validation, and 
                environmental assessment processes to minimize delays 
                of installing surveillance technology infrastructure;
                    (I) standards are developed under the Program to 
                expand the shared use of existing private and 
                governmental structures to install remote surveillance 
                technology infrastructure where possible; and
                    (J) standards are developed under the Program to 
                identify and deploy the use of nonpermanent or mobile 
                surveillance platforms that will increase the 
                Secretary's mobility and ability to identify illegal 
                border intrusions.
            (3) Report to congress.--Not later than 1 year after the 
        initial implementation of the Integrated and Automated 
        Surveillance Program, the Secretary shall submit to Congress a 
        report regarding the Program. The Secretary shall include in 
        the report a description of the Program together with any 
        recommendation that the Secretary finds appropriate for 
        enhancing the program.
            (4) Evaluation of contractors.--
                    (A) Requirement for standards.--The Secretary shall 
                develop appropriate standards to evaluate the 
                performance of any contractor providing goods or 
                services to carry out the Integrated and Automated 
                Surveillance Program.
                    (B) Review by the inspector general.--
                            (i) In general.--The Inspector General of 
                        the Department shall review each new contract 
                        related to the Program that has a value of more 
                        than $5,000,000 in a timely manner, to 
                        determine whether such contract fully complies 
                        with applicable cost requirements, performance 
                        objectives, program milestones, and schedules.
                            (ii) Reports.--The Inspector General shall 
                        report the findings of each review carried out 
                        under clause (i) to the Secretary in a timely 
                        manner. Not later than 30 days after the date 
                        the Secretary receives a report of findings 
                        from the Inspector General, the Secretary shall 
                        submit to the Committee on Homeland Security 
                        and Governmental Affairs of the Senate and the 
                        Committee on Homeland Security of the House of 
                        Representatives a report of such findings and a 
                        description of any the steps that the Secretary 
                        has taken or plans to take in response to such 
                        findings.
            (5) Authorization of appropriations.--There are authorized 
        to be appropriated such sums as may be necessary to carry out 
        this subsection.

       Subtitle B--Border Security Plans, Strategies, and Reports

SEC. 111. SURVEILLANCE PLAN.

    (a) Requirement for Plan.--The Secretary shall develop a 
comprehensive plan for the systematic surveillance of the international 
land and maritime borders of the United States.
    (b) Content.--The plan required by subsection (a) shall include the 
following:
            (1) An assessment of existing technologies employed on the 
        international land and maritime borders of the United States.
            (2) A description of the compatibility of new surveillance 
        technologies with surveillance technologies in use by the 
        Secretary on the date of enactment of this Act.
            (3) A description of how the Commissioner of the United 
        States Customs and Border Protection is working, or is expected 
        to work, with the Under Secretary for Science and Technology of 
        the Department to identify and test surveillance technology.
            (4) A description of the specific surveillance technology 
        to be deployed.
            (5) Identification of any obstacles that may impede such 
        deployment.
            (6) A detailed estimate of all costs associated with such 
        deployment and with continued maintenance of such technologies.
            (7) A description of how the Secretary is working with the 
        Administrator of the Federal Aviation Administration on safety 
        and airspace control issues associated with the use of unmanned 
        aerial vehicles.
            (8) A description of the program to fully integrate and 
        utilize aerial surveillance technologies developed pursuant to 
        section 107(a).
            (9) A description of the Integrated and Automated 
        Surveillance Program established pursuant to section 107(b).
    (c) Submission to Congress.--Not later than 6 months after the date 
of enactment of this Act, the Secretary shall submit to Congress the 
plan required by this section.

SEC. 112. NATIONAL STRATEGY FOR BORDER SECURITY.

    (a) Requirement for Strategy.--The Secretary, in consultation with 
the heads of other appropriate Federal agencies, shall develop a 
National Strategy for Border Security that describes actions to be 
carried out to achieve operational control over all ports of entry into 
the United States and the international land and maritime borders of 
the United States.
    (b) Content.--The National Strategy for Border Security shall 
include the following:
            (1) The implementation schedule for the comprehensive plan 
        for systematic surveillance described in section 111.
            (2) An assessment of the threat posed by terrorists and 
        terrorist groups that may try to infiltrate the United States 
        at locations along the international land and maritime borders 
        of the United States.
            (3) A risk assessment for all United States ports of entry 
        and all portions of the international land and maritime borders 
        of the United States that includes a description of activities 
        being undertaken--
                    (A) to prevent the entry of terrorists, other 
                unlawful aliens, instruments of terrorism, narcotics, 
                and other contraband into the United States; and
                    (B) to protect critical infrastructure at or near 
                such ports of entry or borders.
            (4) An assessment of the legal requirements that prevent 
        achieving and maintaining operational control over the entire 
        international land and maritime borders of the United States.
            (5) An assessment of the most appropriate, practical, and 
        cost-effective means of defending the international land and 
        maritime borders of the United States against threats to 
        security and illegal transit, including intelligence 
        capacities, technology, equipment, personnel, and training 
        needed to address security vulnerabilities.
            (6) An assessment of staffing needs for all border security 
        functions, taking into account threat and vulnerability 
        information pertaining to the borders and the impact of new 
        security programs, policies, and technologies.
            (7) A description of the border security roles and missions 
        of Federal, State, regional, local, and tribal authorities, and 
        recommendations regarding actions the Secretary can carry out 
        to improve coordination with such authorities to enable border 
        security and enforcement activities to be carried out in a more 
        efficient and effective manner.
            (8) An assessment of existing efforts and technologies used 
        for border security and the effect of the use of such efforts 
        and technologies on civil rights, private property rights, 
        privacy rights, and civil liberties, including an assessment of 
        efforts to take into account asylum seekers, trafficking 
        victims, unaccompanied minor aliens, and other vulnerable 
        populations.
            (9) A prioritized list of research and development 
        objectives to enhance the security of the international land 
        and maritime borders of the United States.
            (10) A description of ways to ensure that the free flow of 
        travel and commerce is not diminished by efforts, activities, 
        and programs aimed at securing the international land and 
        maritime borders of the United States.
            (11) An assessment of additional detention facilities and 
        beds that are needed to detain unlawful aliens apprehended at 
        United States ports of entry or along the international land 
        borders of the United States.
            (12) A description of the performance metrics to be used to 
        ensure accountability by the bureaus of the Department in 
        implementing such Strategy.
            (13) A schedule for the implementation of the security 
        measures described in such Strategy, including a prioritization 
        of security measures, realistic deadlines for addressing the 
        security and enforcement needs, an estimate of the resources 
        needed to carry out such measures, and a description of how 
        such resources should be allocated.
    (c) Consultation.--In developing the National Strategy for Border 
Security, the Secretary shall consult with representatives of--
            (1) State, local, and tribal authorities with 
        responsibility for locations along the international land and 
        maritime borders of the United States; and
            (2) appropriate private sector entities, nongovernmental 
        organizations, and affected communities that have expertise in 
        areas related to border security.
    (d) Coordination.--The National Strategy for Border Security shall 
be consistent with the National Strategy for Maritime Security 
developed pursuant to Homeland Security Presidential Directive 13, 
dated December 21, 2004.
    (e) Submission to Congress.--
            (1) Strategy.--Not later than 1 year after the date of 
        enactment of this Act, the Secretary shall submit to Congress 
        the National Strategy for Border Security.
            (2) Updates.--The Secretary shall submit to Congress any 
        update of such Strategy that the Secretary determines is 
        necessary, not later than 30 days after such update is 
        developed.
    (f) Immediate Action.--Nothing in this section or section 111 may 
be construed to relieve the Secretary of the responsibility to take all 
actions necessary and appropriate to achieve and maintain operational 
control over the entire international land and maritime borders of the 
United States.

SEC. 113. REPORTS ON IMPROVING THE EXCHANGE OF INFORMATION ON NORTH 
                    AMERICAN SECURITY.

    (a) Requirement for Reports.--Not later than 1 year after the date 
of enactment of this Act, and annually thereafter, the Secretary of 
State, in coordination with the Secretary and the heads of other 
appropriate Federal agencies, shall submit to Congress a report on 
improving the exchange of information related to the security of North 
America.
    (b) Contents.--Each report submitted under subsection (a) shall 
contain a description of the following:
            (1) Security clearances and document integrity.--The 
        progress made toward the development of common enrollment, 
        security, technical, and biometric standards for the issuance, 
        authentication, validation, and repudiation of secure 
        documents, including--
                    (A) technical and biometric standards based on best 
                practices and consistent with international standards 
                for the issuance, authentication, validation, and 
                repudiation of travel documents, including--
                            (i) passports;
                            (ii) visas; and
                            (iii) permanent resident cards;
                    (B) working with Canada and Mexico to encourage 
                foreign governments to enact laws to combat alien 
                smuggling and trafficking, and laws to forbid the use 
                and manufacture of fraudulent travel documents and to 
                promote information sharing;
                    (C) applying the necessary pressures and support to 
                ensure that other countries meet proper travel document 
                standards and are committed to travel document 
                verification before the citizens of such countries 
                travel internationally, including travel by such 
                citizens to the United States; and
                    (D) providing technical assistance for the 
                development and maintenance of a national database 
                built upon identified best practices for biometrics 
                associated with visa and travel documents.
            (2) Immigration and visa management.--The progress of 
        efforts to share information regarding high-risk individuals 
        who may attempt to enter Canada, Mexico, or the United States, 
        including the progress made--
                    (A) in implementing the Statement of Mutual 
                Understanding on Information Sharing, signed by Canada 
                and the United States in February 2003; and
                    (B) in identifying trends related to immigration 
                fraud, including asylum and document fraud, and to 
                analyze such trends.
            (3) Visa policy coordination and immigration security.--The 
        progress made by Canada, Mexico, and the United States to 
        enhance the security of North America by cooperating on visa 
        policy and identifying best practices regarding immigration 
        security, including the progress made--
                    (A) in enhancing consultation among officials who 
                issue visas at the consulates or embassies of Canada, 
                Mexico, or the United States throughout the world to 
                share information, trends, and best practices on visa 
                flows;
                    (B) in comparing the procedures and policies of 
                Canada and the United States related to visitor visa 
                processing, including--
                            (i) application process;
                            (ii) interview policy;
                            (iii) general screening procedures;
                            (iv) visa validity;
                            (v) quality control measures; and
                            (vi) access to appeal or review;
                    (C) in exploring methods for Canada, Mexico, and 
                the United States to waive visa requirements for 
                nationals and citizens of the same foreign countries;
                    (D) in providing technical assistance for the 
                development and maintenance of a national database 
                built upon identified best practices for biometrics 
                associated with immigration violators;
                    (E) in developing and implementing an immigration 
                security strategy for North America that works toward 
                the development of a common security perimeter by 
                enhancing technical assistance for programs and systems 
                to support advance automated reporting and risk 
                targeting of international passengers;
                    (F) in sharing information on lost and stolen 
                passports on a real-time basis among immigration or law 
                enforcement officials of Canada, Mexico, and the United 
                States; and
                    (G) in collecting 10 fingerprints from each 
                individual who applies for a visa.
            (4) North american visitor overstay program.--The progress 
        made by Canada and the United States in implementing parallel 
        entry-exit tracking systems that, while respecting the privacy 
        laws of both countries, share information regarding third 
        country nationals who have overstayed their period of 
        authorized admission in either Canada or the United States.
            (5) Terrorist watch lists.--The progress made in enhancing 
        the capacity of the United States to combat terrorism through 
        the coordination of counterterrorism efforts, including the 
        progress made--
                    (A) in developing and implementing bilateral 
                agreements between Canada and the United States and 
                between Mexico and the United States to govern the 
                sharing of terrorist watch list data and to 
                comprehensively enumerate the uses of such data by the 
                governments of each country;
                    (B) in establishing appropriate linkages among 
                Canada, Mexico, and the United States Terrorist 
                Screening Center; and
                    (C) in exploring with foreign governments the 
                establishment of a multilateral watch list mechanism 
                that would facilitate direct coordination between the 
                country that identifies an individual as an individual 
                included on a watch list, and the country that owns 
                such list, including procedures that satisfy the 
                security concerns and are consistent with the privacy 
                and other laws of each participating country.
            (6) Money laundering, currency smuggling, and alien 
        smuggling.--The progress made in improving information sharing 
        and law enforcement cooperation in combating organized crime, 
        including the progress made--
                    (A) in combating currency smuggling, money 
                laundering, alien smuggling, and trafficking in 
                alcohol, firearms, and explosives;
                    (B) in determining the feasibility of formulating a 
                firearms trafficking action plan between Mexico and the 
                United States;
                    (C) in developing a joint threat assessment on 
                organized crime between Canada and the United States;
                    (D) in determining the feasibility of formulating a 
                joint threat assessment on organized crime between 
                Mexico and the United States;
                    (E) in developing mechanisms to exchange 
                information on findings, seizures, and capture of 
                individuals transporting undeclared currency; and
                    (F) in developing and implementing a plan to combat 
                the transnational threat of illegal drug trafficking.
            (7) Law enforcement cooperation.--The progress made in 
        enhancing law enforcement cooperation among Canada, Mexico, and 
        the United States through enhanced technical assistance for the 
        development and maintenance of a national database built upon 
        identified best practices for biometrics associated with known 
        and suspected criminals or terrorists, including exploring the 
        formation of law enforcement teams that include personnel from 
        the United States and Mexico, and appropriate procedures for 
        such teams.

SEC. 114. BORDER PATROL TRAINING CAPACITY REVIEW.

    (a) In General.--The Comptroller General of the United States shall 
conduct a review of the basic training provided to Border Patrol agents 
by the Secretary to ensure that such training is provided as 
efficiently and cost-effectively as possible.
    (b) Components of Review.--The review under subsection (a) shall 
include the following components:
            (1) An evaluation of the length and content of the basic 
        training curriculum provided to new Border Patrol agents by the 
        Federal Law Enforcement Training Center, including a 
        description of how such curriculum has changed since September 
        11, 2001, and an evaluation of language and cultural diversity 
        training programs provided within such curriculum.
            (2) A review and a detailed breakdown of the costs incurred 
        by United States Customs and Border Protection and the Federal 
        Law Enforcement Training Center to train 1 new Border Patrol 
        agent.
            (3) A comparison, based on the review and breakdown under 
        paragraph (2), of the costs, effectiveness, scope, and quality, 
        including geographic characteristics, with other similar 
        training programs provided by State and local agencies, 
        nonprofit organizations, universities, and the private sector.
            (4) An evaluation of whether utilizing comparable non-
        Federal training programs, proficiency testing, and long-
        distance learning programs may affect--
                    (A) the cost-effectiveness of increasing the number 
                of Border Patrol agents trained per year;
                    (B) the per agent costs of basic training; and
                    (C) the scope and quality of basic training needed 
                to fulfill the mission and duties of a Border Patrol 
                agent.

SEC. 115. SECURE BORDER INITIATIVE FINANCIAL ACCOUNTABILITY.

    (a) In General.--The Inspector General of the Department shall 
review each contract action relating to the Secure Border Initiative 
having a value of more than $20,000,000, to determine whether each such 
action fully complies with applicable cost requirements, performance 
objectives, program milestones, inclusion of small, minority, and 
women-owned business, and time lines. The Inspector General shall 
complete a review under this subsection with respect to each contract 
action--
            (1) not later than 60 days after the date of the initiation 
        of the action; and
            (2) upon the conclusion of the performance of the contract.
    (b) Inspector General.--
            (1) Action.--If the Inspector General becomes aware of any 
        improper conduct or wrongdoing in the course of conducting a 
        contract review under subsection (a), the Inspector General 
        shall, as expeditiously as practicable, refer information 
        relating to such improper conduct or wrongdoing to the 
        Secretary, or to another appropriate official of the 
        Department, who shall determine whether to temporarily suspend 
        the contractor from further participation in the Secure Border 
        Initiative.
            (2) Report.--Upon the completion of each review described 
        in subsection (a), the Inspector General shall submit to the 
        Secretary a report containing the findings of the review, 
        including findings regarding--
                    (A) cost overruns;
                    (B) significant delays in contract execution;
                    (C) lack of rigorous departmental contract 
                management;
                    (D) insufficient departmental financial oversight;
                    (E) bundling that limits the ability of small 
                businesses to compete; or
                    (F) other high-risk business practices.
    (c) Reports by the Secretary.--
            (1) In general.--Not later than 30 days after the receipt 
        of each report required under subsection (b)(2), the Secretary 
        shall submit a report to the Committee on the Judiciary of the 
        Senate and the Committee on the Judiciary of the House of 
        Representatives, that describes--
                    (A) the findings of the report received from the 
                Inspector General; and
                    (B) the steps the Secretary has taken, or plans to 
                take, to address the problems identified in such 
                report.
            (2) Contracts with foreign companies.--Not later than 60 
        days after the initiation of each contract action with a 
        company whose headquarters are not based in the United States, 
        the Secretary shall submit a report to the Committee on the 
        Judiciary of the Senate and the Committee on the Judiciary of 
        the House of Representatives, regarding the Secure Border 
        Initiative.
    (d) Reports on United States Ports.--Not later that 30 days after 
receiving information regarding a proposed purchase of a contract to 
manage the operations of a United States port by a foreign entity, the 
Committee on Foreign Investment in the United States shall submit a 
report to Congress that describes--
            (1) the proposed purchase;
            (2) any security concerns related to the proposed purchase; 
        and
            (3) the manner in which such security concerns have been 
        addressed.
    (e) Authorization of Appropriations.--In addition to amounts that 
are otherwise authorized to be appropriated to the Office of the 
Inspector General of the Department, there are authorized to be 
appropriated to the Office, to enable the Office to carry out this 
section--
            (1) for fiscal year 2008, not less than 5 percent of the 
        overall budget of the Office for such fiscal year;
            (2) for fiscal year 2009, not less than 6 percent of the 
        overall budget of the Office for such fiscal year; and
            (3) for fiscal year 2010, not less than 7 percent of the 
        overall budget of the Office for such fiscal year.

                  Subtitle C--Southern Border Security

SEC. 121. IMPROVING THE SECURITY OF MEXICO'S SOUTHERN BORDER.

    (a) Technical Assistance.--The Secretary of State, in coordination 
with the Secretary, shall work to cooperate with the head of Foreign 
Affairs Canada and the appropriate officials of the Government of 
Mexico to establish a program--
            (1) to assess the specific needs of the countries of 
        Central America in maintaining the security of the 
        international borders of such countries;
            (2) to use the assessment made under paragraph (1) to 
        determine the financial and technical support needed by the 
        countries of Central America from Canada, Mexico, and the 
        United States to meet such needs;
            (3) to provide technical assistance to the countries of 
        Central America to promote issuance of secure passports and 
        travel documents by such countries; and
            (4) to encourage the countries of Central America--
                    (A) to control alien smuggling and trafficking;
                    (B) to prevent the use and manufacture of 
                fraudulent travel documents; and
                    (C) to share relevant information with Mexico, 
                Canada, and the United States.
    (b) Border Security for the Countries of Central America.--The 
Secretary, in consultation with the Secretary of State, shall work to 
cooperate--
            (1) with the appropriate officials of the governments of 
        the countries of Central America to provide law enforcement 
        assistance to such countries to specifically address 
        immigration issues to increase the ability of such governments 
        to dismantle human smuggling organizations and gain additional 
        control over the international borders between the countries of 
        Central America; and
            (2) with the appropriate officials of the governments of 
        the countries of Central America to establish a program to 
        provide needed equipment, technical assistance, and vehicles to 
        manage, regulate, and patrol such international borders.
    (c) Tracking Central American Gangs.--The Secretary of State, in 
coordination with the Secretary and the Director of the Federal Bureau 
of Investigation, shall work to cooperate with the appropriate 
officials of the governments of other countries of Central America--
            (1) to assess the direct and indirect impact on the United 
        States and Central America of deporting violent criminal 
        aliens;
            (2) to establish a program and database to track 
        individuals involved in Central American gang activities;
            (3) to develop a mechanism that is acceptable to the 
        governments of the countries of Central America and of the 
        United States to notify such a government if an individual 
        suspected of gang activity will be deported to that country 
        prior to the deportation and to provide support for the 
        reintegration of such deportees into that country; and
            (4) to develop an agreement to share all relevant 
        information related to individuals connected with Central 
        American gangs.
    (d) Limitations on Assistance.--Any funds made available to carry 
out this section shall be subject to the limitations contained in 
section 551 of the Foreign Operations, Export Financing, and Related 
Programs Appropriations Act, 2006 (Public Law 109-102; 119 Stat. 2218).

SEC. 122. REPORT ON DEATHS AT THE UNITED STATES-MEXICO BORDER.

    (a) Collection of Statistics.--The Commissioner of the United 
States Customs and Border Protection shall collect statistics relating 
to deaths occurring at the border between the United States and Mexico, 
including--
            (1) the causes of the deaths; and
            (2) the total number of deaths.
    (b) Report.--Not later than 1 year after the date of enactment of 
this Act, and annually thereafter, the Commissioner of United States 
Customs and Border Protection shall submit to the Secretary a report 
that--
            (1) analyzes trends with respect to the statistics 
        collected under subsection (a) during the preceding year; and
            (2) recommends actions to reduce the deaths described in 
        subsection (a).

SEC. 123. COOPERATION WITH THE GOVERNMENT OF MEXICO.

    (a) Cooperation Regarding Border Security.--The Secretary of State, 
in cooperation with the Secretary and representatives of Federal, 
State, and local law enforcement agencies that are involved in border 
security and immigration enforcement efforts, shall work with the 
appropriate officials from the Government of Mexico to improve 
coordination between the United States and Mexico regarding--
            (1) improved border security along the international border 
        between the United States and Mexico;
            (2) the reduction of human trafficking and smuggling 
        between the United States and Mexico;
            (3) the reduction of drug trafficking and smuggling between 
        the United States and Mexico;
            (4) the reduction of gang membership in the United States 
        and Mexico;
            (5) the reduction of violence against women in the United 
        States and Mexico; and
            (6) the reduction of other violence and criminal activity.
    (b) Cooperation Regarding Education on Immigration Laws.--The 
Secretary of State, in cooperation with other appropriate Federal 
officials, shall work with the appropriate officials from the 
Government of Mexico to carry out activities to educate citizens and 
nationals of Mexico regarding eligibility for status as a nonimmigrant 
under Federal law to ensure that the citizens and nationals are not 
exploited while working in the United States.
    (c) Cooperation Regarding Circular Migration.--The Secretary of 
State, in cooperation with the Secretary of Labor and other appropriate 
Federal officials, shall work with the appropriate officials from the 
Government of Mexico to improve coordination between the United States 
and Mexico to encourage circular migration, including assisting in the 
development of economic opportunities and providing job training for 
citizens and nationals in Mexico.
    (d) Consultation Requirement.--Federal, State, and local 
representatives in the United States shall work to cooperate with their 
counterparts in Mexico concerning border security structures along the 
international border between the United States and Mexico, as 
authorized by this title, in order to--
            (1) solicit the views of affected communities;
            (2) lessen tensions; and
            (3) foster greater understanding and stronger cooperation 
        on this and other important security issues of mutual concern.
    (e) Annual Report.--Not later than 180 days after the date of 
enactment of this Act, and annually thereafter, the Secretary of State 
shall submit to Congress a report on the actions taken by the United 
States and Mexico under this section.

SEC. 124. TEMPORARY NATIONAL GUARD SUPPORT FOR SECURING THE SOUTHERN 
                    LAND BORDER OF THE UNITED STATES.

    (a) Authority To Provide Assistance.--
            (1) In general.--With the approval of the Secretary of 
        Defense, the Governor of a State may order any units or 
        personnel of the National Guard of such State to perform annual 
        training duty under section 502(a) of title 32, United States 
        Code, to carry out in any State along the southern land border 
        of the United States the activities authorized in subsection 
        (b), for the purpose of securing such border. Such duty shall 
        not exceed 21 days in any year.
            (2) Support.--With the approval of the Secretary of 
        Defense, the Governor of a State may order any units or 
        personnel of the National Guard of such State to perform duty 
        under section 502(f) of title 32, United States Code, to 
        provide command, control, and continuity of support for units 
        or personnel performing annual training duty under paragraph 
        (1).
    (b) Authorized Activities.--The activities authorized by this 
subsection are any of the following:
            (1) Ground reconnaissance activities.
            (2) Airborne reconnaissance activities.
            (3) Logistical support.
            (4) Provision of translation services and training.
            (5) Administrative support services.
            (6) Technical training services.
            (7) Emergency medical assistance and services.
            (8) Communications services.
            (9) Rescue of aliens in peril.
            (10) Construction of roadways, patrol roads, fences, 
        barriers, and other facilities to secure the southern land 
        border of the United States.
            (11) Ground and air transportation.
    (c) Cooperative Agreements.--Units and personnel of the National 
Guard of a State may perform activities in another State under 
subsection (a) only pursuant to the terms of an emergency management 
assistance compact or other cooperative arrangement entered into 
between Governors of such States for purposes of this section, and only 
with the approval of the Secretary of Defense.
    (d) Coordination of Assistance.--The Secretary of Homeland Security 
shall, in consultation with the Secretary of Defense and the Governors 
of the States concerned, coordinate the performance of activities under 
this section by units and personnel of the National Guard.
    (e) Annual Training.--Annual training duty performed by members of 
the National Guard under subsection (a) shall be appropriate for the 
units and individual members concerned, taking into account the types 
of units and military occupational specialties of individual members 
performing such duty.
    (f) Definitions.--In this section:
            (1) The term ``Governor of a State'' means, in the case of 
        the District of Columbia, the Commanding General of the 
        National Guard of the District of Columbia.
            (2) The term ``State'' means each of the several States, 
        the District of Columbia, the Commonwealth of Puerto Rico, 
        Guam, and the Virgin Islands.
            (3) The term ``State along the southern border of the 
        United States'' means each of the following:
                    (A) The State of Arizona.
                    (B) The State of California.
                    (C) The State of New Mexico.
                    (D) The State of Texas.
    (g) Duration of Authority.--The authority of this section shall 
expire on January 1, 2009.
    (h) Prohibition on Direct Participation in Law Enforcement.--
Activities carried out under the authority of this section shall not 
include the direct participation of a member of the National Guard in a 
search, seizure, arrest, or similar activity.

SEC. 125. UNITED STATES-MEXICO BORDER ENFORCEMENT REVIEW COMMISSION.

    (a) Establishment of Commission.--
            (1) In general.--There is established an independent 
        commission to be known as the United States-Mexico Border 
        Enforcement Review Commission (referred to in this section as 
        the ``Commission'').
            (2) Purposes.--The purposes of the Commission are--
                    (A) to study the overall enforcement and detention 
                strategies, programs and policies of Federal agencies 
                along the United States-Mexico border; and
                    (B) to make recommendations to the President and 
                Congress with respect to such strategies, programs and 
                policies.
            (3) Membership.--The Commission shall be composed of 16 
        voting members, who shall be appointed as follows:
                    (A) The Governors of the States of California, New 
                Mexico, Arizona, and Texas shall each appoint 4 voting 
                members of whom--
                            (i) 1 shall be a local elected official 
                        from the State's border region;
                            (ii) 1 shall be a local law enforcement 
                        official from the State's border region; and
                            (iii) 2 shall be from the State's 
                        communities of academia, religious leaders, 
                        civic leaders or community leaders.
                    (B) 2 nonvoting members, of whom--
                            (i) 1 shall be appointed by the Secretary; 
                        and
                            (ii) 1 shall be appointed by the Attorney 
                        General.
            (4) Qualifications.--
                    (A) In general.--Members of the Commission shall 
                be--
                            (i) individuals with expertise in 
                        migration, border enforcement and protection, 
                        civil and human rights, community relations, 
                        cross-border trade and commerce or other 
                        pertinent qualifications or experience; and
                            (ii) representative of a broad cross 
                        section of perspectives from the region along 
                        the international border between the United 
                        States and Mexico;
                    (B) Political affiliation.--Not more than 2 members 
                of the Commission appointed by each Governor under 
                paragraph (3)(A) may be members of the same political 
                party.
                    (C) Nongovernmental appointees.--An individual 
                appointed as a voting member to the Commission may not 
                be an officer or employee of the Federal Government.
            (5) Deadline for appointment.--All members of the 
        Commission shall be appointed not later than 6 months after the 
        enactment of this Act. If any member of the Commission 
        described in paragraph (3)(A) is not appointed by such date, 
        the Commission shall carry out its duties under this section 
        without the participation of such member.
            (6) Term of service.--The term of office for members shall 
        be for the life of the Commission, or 3 years, whichever is 
        sooner.
            (7) Vacancies.--Any vacancy in the Commission shall not 
        affect its powers, but shall be filled in the same manner in 
        which the original appointment was made.
            (8) Meetings.--
                    (A) Initial meeting.--The Commission shall meet and 
                begin the operations of the Commission as soon as 
                practicable.
                    (B) Subsequent meetings.--After its initial 
                meeting, the Commission shall meet upon the call of the 
                chairman or a majority of its members.
            (9) Quorum.--Nine members of the Commission shall 
        constitute a quorum.
            (10) Chair and vice chair.--The voting members of the 
        Commission shall elect a Chairman and Vice Chairman from among 
        its members. The term of office shall be for the life of the 
        Commission.
    (b) Duties.--The Commission shall review, examine, and make 
recommendations regarding border enforcement policies, strategies, and 
programs, including recommendations regarding--
            (1) the protection of human and civil rights of community 
        residents and migrants along the international border between 
        the United States and Mexico;
            (2) the adequacy and effectiveness of human and civil 
        rights training of enforcement personnel on such border;
            (3) the adequacy of the complaint process within the 
        agencies and programs of the Department that are employed when 
        an individual files a grievance;
            (4) the effect of the operations, technology, and 
        enforcement infrastructure along such border on the--
                    (A) environment;
                    (B) cross border traffic and commerce; and
                    (C) the quality of life of border communities;
            (5) State and local law enforcement involvement in the 
        enforcement of Federal immigration law;
            (6) the adequacy of detention standards and conditions, and 
        the extent to which the standards and conditions are enforced; 
        and
            (7) any other matters regarding border enforcement 
        policies, strategies, and programs the Commission determines 
        appropriate.
    (c) Information and Assistance From Federal Agencies.--
            (1) Information from federal agencies.--The Commission may 
        seek directly from any department or agency of the United 
        States such information, including suggestions, estimates, and 
        statistics, as allowed by law and as the Commission considers 
        necessary to carry out the provisions of this section. Upon 
        request of the Commission, the head of such department or 
        agency shall furnish such information to the Commission.
            (2) Assistance from federal agencies.--The Administrator of 
        General Services shall, on a reimbursable basis, provide the 
        Commission with administrative support and other services for 
        the performance of the Commission's functions. The departments 
        and agencies of the United States may provide the Commission 
        with such services, funds, facilities, staff, and other support 
        services as they determine advisable and as authorized by law.
    (d) Compensation.--
            (1) In general.--Members of the Commission shall serve 
        without pay.
            (2) Reimbursement of expenses.--All members of the 
        Commission shall be reimbursed for reasonable travel expenses 
        and subsistence, and other reasonable and necessary expenses 
        incurred by them in the performance of their duties.
    (e) Report.--Not later than 2 years after the date of the first 
meeting called pursuant to (a)(8)(A), the Commission shall submit a 
report to the President and Congress that contains--
            (1) findings with respect to the duties of the Commission;
            (2) recommendations regarding border enforcement policies, 
        strategies, and programs;
            (3) suggestions for the implementation of the Commission's 
        recommendations; and
            (4) a recommendation as to whether the Commission should 
        continue to exist after the date of termination described in 
        subsection (g), and if so, a description of the purposes and 
        duties recommended to be carried out by the Commission after 
        such date.
    (f) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary to carry out this section.
    (g) Sunset.--Unless the Commission is re-authorized by Congress, 
the Commission shall terminate on the date that is 90 days after the 
date the Commission submits the report described in subsection (e).

                  Subtitle D--Secure Entry Initiatives

SEC. 131. BIOMETRIC DATA ENHANCEMENTS.

    Not later than December 31, 2008, the Secretary shall--
            (1) in consultation with the Attorney General, enhance 
        connectivity between the Automated Biometric Fingerprint 
        Identification System (IDENT) of the Department and the 
        Integrated Automated Fingerprint Identification System (IAFIS) 
        of the Federal Bureau of Investigation to ensure more 
        expeditious data searches; and
            (2) in consultation with the Secretary of State, collect 
        all fingerprints from each alien required to provide 
        fingerprints during the alien's initial enrollment in the 
        integrated entry and exit data system described in section 110 
        of the Illegal Immigration Reform and Immigrant Responsibility 
        Act of 1996 (8 U.S.C. 1365a).

SEC. 132. US-VISIT SYSTEM.

    Not later than 6 months after the date of enactment of this Act, 
the Secretary, in consultation with the heads of other appropriate 
Federal agencies, shall submit to Congress a schedule for--
            (1) equipping all land border ports of entry of the United 
        States with the U.S.-Visitor and Immigrant Status Indicator 
        Technology (US-VISIT) system implemented under the authority of 
        section 110 of the Illegal Immigration Reform and Immigrant 
        Responsibility Act of 1996 (8 U.S.C. 1365a);
            (2) developing and deploying at such ports of entry the 
        exit component of the US-VISIT system; and
            (3) making interoperable all immigration screening systems 
        operated by the Secretary.

SEC. 133. DOCUMENT FRAUD DETECTION.

    (a) Training.--Subject to the availability of appropriations, the 
Secretary shall provide all officers of the United States Customs and 
Border Protection with training in identifying and detecting fraudulent 
travel documents. Such training shall be developed in consultation with 
the head of the Forensic Document Laboratory of United States 
Immigration and Customs Enforcement.
    (b) Forensic Document Laboratory.--The Secretary shall provide all 
United States Customs and Border Protection officers with access to the 
Forensic Document Laboratory.
    (c) Assessment.--
            (1) Requirement for assessment.--The Inspector General of 
        the Department shall conduct an independent assessment of the 
        accuracy and reliability of the Forensic Document Laboratory.
            (2) Report to congress.--Not later than 6 months after the 
        date of enactment of this Act, the Inspector General shall 
        submit to Congress the findings of the assessment required by 
        paragraph (1).
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary such sums as may be necessary for each of 
fiscal years 2008 through 2012 to carry out this section.

SEC. 134. IMPROVED DOCUMENT INTEGRITY.

    (a) In General.--Section 303 of the Enhanced Border Security and 
Visa Entry Reform Act of 2002 (8 U.S.C. 1732) is amended--
            (1) by striking ``Attorney General'' each place it appears 
        and inserting ``Secretary of Homeland Security'';
            (2) in the heading, by striking ``<SUP>entry</SUP> and</SUP> 
        exit</SUP> documents</SUP>'' and inserting ``<SUP>travel</SUP> 
        and</SUP> entry</SUP> documents</SUP> and</SUP> evidence</SUP> 
        of</SUP> status</SUP>'';
            (3) in subsection (b)(1)--
                    (A) by striking ``Not later than October 26, 2004, 
                the'' and inserting ``The''; and
                    (B) by striking ``visas and'' both places it 
                appears and inserting ``visas, evidence of status, 
                and'';
            (4) by redesignating subsection (d) as subsection (e); and
            (5) by inserting after subsection (c) the following:
    ``(d) Other Documents.--Not later than December 31, 2008, every 
document, other than an interim document, issued by the Secretary of 
Homeland Security which may be used as evidence of an alien's 
authorization to travel shall be machine-readable and tamper-resistant, 
and shall incorporate a biometric identifier to allow the Secretary of 
Homeland Security to verify electronically the identity and status of 
the alien.''.

SEC. 135. BIOMETRIC ENTRY-EXIT SYSTEM.

    (a) Collection of Biometric Data From Aliens Departing the United 
States.--Section 215 (8 U.S.C. 1185) is amended--
            (1) by redesignating subsection (c) as subsection (g);
            (2) by moving subsection (g), as redesignated by paragraph 
        (1), to the end; and
            (3) by inserting after subsection (b) the following:
    ``(c) The Secretary of Homeland Security is authorized to require 
aliens departing the United States to provide biometric data and other 
information relating to their immigration status.''.
    (b) Inspection of Applicants for Admission.--Section 235(d) (8 
U.S.C. 1225(d)) is amended by adding at the end the following:
            ``(5) Authority to collect biometric data.--In conducting 
        inspections under subsection (b), immigration officers are 
        authorized to collect biometric data from--
                    ``(A) any applicant for admission or alien seeking 
                to transit through the United States; or
                    ``(B) any lawful permanent resident who is entering 
                the United States and who is not regarded as seeking 
                admission pursuant to section 101(a)(13)(C).''.
    (c) Collection of Biometric Data From Alien Crewmen.--Section 252 
(8 U.S.C. 1282) is amended by adding at the end the following:
    ``(d) An immigration officer is authorized to collect biometric 
data from an alien crewman seeking permission to land temporarily in 
the United States.''.
    (d) Grounds of Inadmissibility.--Section 212 (8 U.S.C. 1182) is 
amended--
            (1) in subsection (a)(7), by adding at the end the 
        following:
                    ``(C) Withholders of biometric data.--Any alien who 
                knowingly fails to comply with a lawful request for 
                biometric data under section 215(c) or 235(d) is 
                inadmissible.''; and
            (2) in subsection (d), by inserting after paragraph (1) the 
        following:
            ``(2) The Secretary of Homeland Security shall determine 
        whether a ground for inadmissibility exists with respect to an 
        alien described in subparagraph (C) of subsection (a)(7) and 
        may waive the application of such subparagraph for an 
        individual alien or a class of aliens, at the discretion of the 
        Secretary.''.
    (e) Implementation.--Section 7208 of the 9/11 Commission 
Implementation Act of 2004 (8 U.S.C. 1365b) is amended--
            (1) in subsection (c), by adding at the end the following:
            ``(3) Implementation.--In fully implementing the automated 
        biometric entry and exit data system under this section, the 
        Secretary is not required to comply with the requirements of 
        chapter 5 of title 5, United States Code (commonly referred to 
        as the Administrative Procedure Act) or any other law relating 
        to rulemaking, information collection, or publication in the 
        Federal Register.''; and
            (2) in subsection (l)--
                    (A) by striking ``There are authorized'' and 
                inserting the following:
            ``(1) In general.--There are authorized''; and
                    (B) by adding at the end the following:
            ``(2) Implementation at all land border ports of entry.--
        There are authorized to be appropriated such sums as may be 
        necessary for each of fiscal years 2008 and 2009 to implement 
        the automated biometric entry and exit data system at all land 
        border ports of entry.''.

SEC. 136. EVASION OF INSPECTION OR VIOLATION OF ARRIVAL, REPORTING, 
                    ENTRY, OR CLEARANCE REQUIREMENTS.

    (a) In General.--Chapter 27 of title 18, United States Code, is 
amended by adding at the end the following:

``Sec. 556. Evasion of inspection or violation of arrival, reporting, 
                    entry, or clearance requirements

    ``(a) Prohibition.--A person at a port of entry or customs or 
immigration checkpoint shall be punished as described in subsection (b) 
if such person attempts to elude or eludes customs, immigration, or 
agriculture inspection or fails to stop at the command of an officer or 
employee of the United States charged with enforcing the immigration, 
customs, or other laws of the United States at a port of entry or 
customs or immigration checkpoint.
    ``(b) Penalties.--A person who commits an offense described in 
subsection (a) shall be--
            ``(1) fined under this title;
            ``(2)(A) imprisoned for not more than 3 years, or both;
            ``(B) imprisoned for not more than 10 years, or both, if in 
        commission of this violation, such person attempts to inflict 
        or inflicts bodily injury (as defined in section 1365(h) of 
        this title); or
            ``(C) imprisoned for any term of years or for life, or 
        both, if death results, and may be sentenced to death; or
            ``(3) both fined and imprisoned under this subsection.
    ``(c) Conspiracy.--If 2 or more persons conspire to commit an 
offense described in subsection (a), and 1 or more of such persons do 
any act to effect the object of the conspiracy, each shall be 
punishable as a principal, except that the sentence of death may not be 
imposed.
    ``(d) Prima Facie Evidence.--For the purposes of seizure and 
forfeiture under applicable law, in the case of use of a vehicle or 
other conveyance in the commission of this offense, or in the case of 
disregarding or disobeying the lawful authority or command of any 
officer or employee of the United States under section 111(b) of this 
title, such conduct shall constitute prima facie evidence of smuggling 
aliens or merchandise.''.
    (b) Conforming Amendment.--The table of sections for chapter 27 of 
title 18, United States Code, is amended by inserting at the end:

    ``556. Evasion of inspection or during violation of arrival, 
reporting, entry, or clearance requirements.''.
    (c) Failure To Obey Border Enforcement Officers.--Section 111 of 
title 18, United States Code, is amended by inserting after subsection 
(b) the following:
    ``(c) Failure To Obey Lawful Orders of Border Enforcement 
Officers.--Whoever willfully disregards or disobeys the lawful 
authority or command of any officer or employee of the United States 
charged with enforcing the immigration, customs, or other laws of the 
United States while engaged in, or on account of, the performance of 
official duties shall be fined under this title or imprisoned for not 
more than 5 years, or both.''.
    (d) Technical Amendments.--
            (1) In general.--Chapter 27 of title 18, United States 
        Code, is amended by redesignating the section 554 added by 
        section 551(a) of the Department of Homeland Security 
        Appropriations Act, 2007 (Public Law 109-295; 120 Stat. 1389) 
        (relating to border tunnels and passages) as section 555.
            (2) Table of sections.--The table of sections for chapter 
        27 of title 18, United States Code, is amended--
                    (A) by striking the following:

    ``554. Border tunnels and passages.''; and
                    (B) inserting the following:

    ``555. Border tunnels and passages.''.
            (3) Criminal forfeiture.--Section 982(a)(6)(A) of title 18, 
        United States Code, is amended by striking ``554'' and 
        inserting ``555''.
            (4) Directive to the united states sentencing commission.--
        Section 551(d) of the Department of Homeland Security 
        Appropriations Act, 2007 (Public Law 109-295; 120 Stat. 1390) 
        is amended in paragraphs (1) and (2)(A) by striking ``554'' and 
        inserting ``555''.

             Subtitle E--Law Enforcement Relief for States

SEC. 141. BORDER RELIEF GRANT PROGRAM.

    (a) Grants Authorized.--
            (1) In general.--The Secretary is authorized to award 
        grants, subject to the availability of appropriations, to an 
        eligible law enforcement agency to provide assistance to such 
        agency to address--
                    (A) criminal activity that occurs in the 
                jurisdiction of such agency by virtue of such agency's 
                proximity to the United States border; and
                    (B) the impact of any lack of security along the 
                United States border.
            (2) Duration.--Grants may be awarded under this subsection 
        during fiscal years 2008 through 2012.
            (3) Competitive basis.--The Secretary shall award grants 
        under this subsection on a competitive basis, except that the 
        Secretary shall give priority to applications from any eligible 
        law enforcement agency serving a community with a population of 
        less than 50,000.
    (b) Use of Funds.--Grants awarded pursuant to subsection (a) may 
only be used to provide additional resources for an eligible law 
enforcement agency to address criminal activity occurring along any 
such border, including--
            (1) to obtain equipment;
            (2) to hire additional personnel;
            (3) to upgrade and maintain law enforcement technology;
            (4) to cover operational costs, including overtime and 
        transportation costs; and
            (5) such other resources as are available to assist that 
        agency.
    (c) Application.--
            (1) In general.--Each eligible law enforcement agency 
        seeking a grant under this section shall submit an application 
        to the Secretary at such time, in such manner, and accompanied 
        by such information as the Secretary may reasonably require.
            (2) Contents.--Each application submitted pursuant to 
        paragraph (1) shall--
                    (A) describe the activities for which assistance 
                under this section is sought; and
                    (B) provide such additional assurances as the 
                Secretary determines to be essential to ensure 
                compliance with the requirements of this section.
    (d) Definitions.--For the purposes of this section:
            (1) Eligible law enforcement agency.--The term ``eligible 
        law enforcement agency'' means a tribal, State, or local law 
        enforcement agency--
                    (A) located in a county that is not more than 100 
                miles from a United States border with--
                            (i) Canada; or
                            (ii) Mexico; or
                    (B) located in a county more than 100 miles from 
                any such border, but where such county has been 
                certified by the Secretary as a High Impact Area.
            (2) High impact area.--The term ``High Impact Area'' means 
        any county designated by the Secretary as such, taking into 
        consideration--
                    (A) whether local law enforcement agencies in that 
                county have the resources to protect the lives, 
                property, safety, or welfare of the residents of that 
                county;
                    (B) the relationship between any lack of security 
                along the United States border and the rise, if any, of 
                criminal activity in that county; and
                    (C) any other unique challenges that local law 
                enforcement face due to a lack of security along the 
                United States border.
    (e) Authorization of Appropriations.--
            (1) In general.--There are authorized to be appropriated 
        $50,000,000 for each of fiscal years 2008 through 2012 to carry 
        out the provisions of this section.
            (2) Division of authorized funds.--Of the amounts 
        authorized under paragraph (1)--
                    (A) \2/3\ shall be set aside for eligible law 
                enforcement agencies located in the 6 States with the 
                largest number of undocumented alien apprehensions; and
                    (B) \1/3\ shall be set aside for areas designated 
                as a High Impact Area under subsection (d).
    (f) Supplement Not Supplant.--Amounts appropriated for grants under 
this section shall be used to supplement and not supplant other State 
and local public funds obligated for the purposes provided under this 
title.
    (g) Enforcement of Federal Immigration Law.--Nothing in this 
section shall be construed to authorize State or local law enforcement 
agencies or their officers to exercise Federal immigration law 
enforcement authority.

SEC. 142. NORTHERN AND SOUTHERN BORDER PROSECUTION INITIATIVE.

    (a) Reimbursement to State and Local Prosecutors for Prosecuting 
Federally Initiated Drug Cases.--The Attorney General shall, subject to 
the availability of appropriations, reimburse State and county 
prosecutors located in States along the Northern or Southern border of 
the United States for prosecuting federally initiated and referred drug 
cases.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated $50,000,000 for each of the fiscal years 2008 through 2013 
to carry out subsection (a).

                  Subtitle F--Rapid Response Measures

SEC. 151. DEPLOYMENT OF BORDER PATROL AGENTS.

    (a) Emergency Deployment of Border Patrol Agents.--
            (1) In general.--If the Governor of a State on an 
        international border of the United States declares an 
        international border security emergency and requests additional 
        agents of the Border Patrol (referred to in this subtitle as 
        ``agents'') from the Secretary, the Secretary, subject to 
        paragraphs (2) and (3), may provide the State with not more 
        than 1,000 additional agents for the purpose of patrolling and 
        defending the international border, in order to prevent 
        individuals from crossing the international border into the 
        United States at any location other than an authorized port of 
        entry.
            (2) Consultation.--Upon receiving a request for agents 
        under paragraph (1), the Secretary, after consultation with the 
        President, shall grant such request to the extent that 
        providing such agents will not significantly impair the 
        Department's ability to provide border security for any other 
        State.
            (3) Collective bargaining.--Emergency deployments under 
        this subsection shall be made in accordance with all applicable 
        collective bargaining agreements and obligations.
    (b) Elimination of Fixed Deployment of Border Patrol Agents.--The 
Secretary shall ensure that agents are not precluded from performing 
patrol duties and apprehending violators of law, except in unusual 
circumstances if the temporary use of fixed deployment positions is 
necessary.

SEC. 152. BORDER PATROL MAJOR ASSETS.

    (a) Control of Border Patrol Assets.--The Border Patrol shall have 
complete and exclusive administrative and operational control over all 
the assets utilized in carrying out its mission, including aircraft, 
watercraft, vehicles, detention space, transportation, and all of the 
personnel associated with such assets.
    (b) Helicopters and Power Boats.--
            (1) Helicopters.--The Secretary shall increase, by not less 
        than 100, the number of helicopters under the control of the 
        Border Patrol. The Secretary shall ensure that appropriate 
        types of helicopters are procured for the various missions 
        being performed.
            (2) Power boats.--The Secretary shall increase, by not less 
        than 250, the number of power boats under the control of the 
        Border Patrol. The Secretary shall ensure that the types of 
        power boats that are procured are appropriate for both the 
        waterways in which they are used and the mission requirements.
            (3) Use and training.--The Secretary shall--
                    (A) establish an overall policy on how the 
                helicopters and power boats procured under this 
                subsection will be used; and
                    (B) implement training programs for the agents who 
                use such assets, including safe operating procedures 
                and rescue operations.
    (c) Motor Vehicles.--
            (1) Quantity.--The Secretary shall establish a fleet of 
        motor vehicles appropriate for use by the Border Patrol that 
        will permit a ratio of not less than 1 police-type vehicle for 
        every 3 agents. These police-type vehicles shall be replaced 
        not less often than once every 3 years. The Secretary shall 
        ensure that there are sufficient numbers and types of other 
        motor vehicles to support the mission of the Border Patrol.
            (2) Features.--All motor vehicles purchased for the Border 
        Patrol shall--
                    (A) be appropriate for the mission of the Border 
                Patrol; and
                    (B) have a panic button and a global positioning 
                system device that is activated solely in emergency 
                situations to track the location of agents in distress.

SEC. 153. ELECTRONIC EQUIPMENT.

    (a) Portable Computers.--The Secretary shall ensure that each 
police-type motor vehicle in the fleet of the Border Patrol is equipped 
with a portable computer with access to all necessary law enforcement 
databases and otherwise suited to the unique operational requirements 
of the Border Patrol.
    (b) Radio Equipment.--The Secretary shall augment the existing 
radio communications system so that all law enforcement personnel 
working in each area where Border Patrol operations are conducted have 
clear and encrypted 2-way radio communication capabilities at all 
times. Each portable communications device shall be equipped with a 
panic button and a global positioning system device that is activated 
solely in emergency situations to track the location of agents in 
distress.
    (c) Handheld Global Positioning System Devices.--The Secretary 
shall ensure that each Border Patrol agent is issued a state-of-the-art 
handheld global positioning system device for navigational purposes.
    (d) Night Vision Equipment.--The Secretary shall ensure that 
sufficient quantities of state-of-the-art night vision equipment are 
procured and maintained to enable each Border Patrol agent working 
during the hours of darkness to be equipped with a portable night 
vision device.

SEC. 154. PERSONAL EQUIPMENT.

    (a) Border Armor.--The Secretary shall ensure that every agent is 
issued high-quality body armor that is appropriate for the climate and 
risks faced by the agent. Each agent shall be permitted to select from 
among a variety of approved brands and styles. Agents shall be strongly 
encouraged, but not required, to wear such body armor whenever 
practicable. All body armor shall be replaced not less often than once 
every 5 years.
    (b) Weapons.--The Secretary shall ensure that agents are equipped 
with weapons that are reliable and effective to protect themselves, 
their fellow agents, and innocent third parties from the threats posed 
by armed criminals. The Secretary shall ensure that the policies of the 
Department authorize all agents to carry weapons that are suited to the 
potential threats that they face.
    (c) Uniforms.--The Secretary shall ensure that all agents are 
provided with all necessary uniform items, including outerwear suited 
to the climate, footwear, belts, holsters, and personal protective 
equipment, at no cost to such agents. Such items shall be replaced at 
no cost to such agents as such items become worn or unserviceable or no 
longer fit properly.

SEC. 155. AUTHORIZATION OF APPROPRIATIONS.

    There are authorized to be appropriated to the Secretary such sums 
as may be necessary for each of the fiscal years 2008 through 2012 to 
carry out this subtitle.

     Subtitle G--Border Infrastructure and Technology Modernization

SEC. 161. DEFINITIONS.

    In this subtitle:
            (1) Commissioner.--The term ``Commissioner'' means the 
        Commissioner of United States Customs and Border Protection.
            (2) Northern border.--The term ``northern border'' means 
        the international border between the United States and Canada.
            (3) Southern border.--The term ``southern border'' means 
        the international border between the United States and Mexico.

SEC. 162. PORT OF ENTRY INFRASTRUCTURE ASSESSMENT STUDY.

    (a) Requirement To Update.--Not later than January 31 of each year, 
the Administrator of General Services shall update the Port of Entry 
Infrastructure Assessment Study prepared by United States Customs and 
Border Protection in accordance with the matter relating to the ports 
of entry infrastructure assessment that is set out in the joint 
explanatory statement in the conference report accompanying H.R. 2490 
of the 106th Congress, 1st session (House of Representatives Rep. No. 
106-319, on page 67) and submit such updated study to Congress.
    (b) Consultation.--In preparing the updated studies required in 
subsection (a), the Administrator of General Services shall consult 
with the Director of the Office of Management and Budget, the 
Secretary, and the Commissioner.
    (c) Content.--Each updated study required in subsection (a) shall--
            (1) identify port of entry infrastructure and technology 
        improvement projects that would enhance border security and 
        facilitate the flow of legitimate commerce if implemented;
            (2) include the projects identified in the National Land 
        Border Security Plan required by section 164; and
            (3) prioritize the projects described in paragraphs (1) and 
        (2) based on the ability of a project to--
                    (A) fulfill immediate security requirements; and
                    (B) facilitate trade across the borders of the 
                United States.
    (d) Project Implementation.--The Commissioner shall implement the 
infrastructure and technology improvement projects described in 
subsection (c) in the order of priority assigned to each project under 
paragraph (3) of such subsection.
    (e) Divergence From Priorities.--The Commissioner may diverge from 
the priority order if the Commissioner determines that significantly 
changed circumstances, such as immediate security needs or changes in 
infrastructure in Mexico or Canada, compellingly alter the need for a 
project in the United States.

SEC. 163. NATIONAL LAND BORDER SECURITY PLAN.

    (a) In General.--Not later than 1 year after the date of enactment 
of this Act, an annually thereafter, the Secretary, after consultation 
with representatives of Federal, State, and local law enforcement 
agencies and private entities that are involved in international trade 
across the northern border or the southern border, shall submit a 
National Land Border Security Plan to Congress.
    (b) Vulnerability Assessment.--
            (1) In general.--The plan required in subsection (a) shall 
        include a vulnerability assessment of each port of entry 
        located on the northern border or the southern border.
            (2) Port security coordinators.--The Secretary may 
        establish 1 or more port security coordinators at each port of 
        entry located on the northern border or the southern border--
                    (A) to assist in conducting a vulnerability 
                assessment at such port; and
                    (B) to provide other assistance with the 
                preparation of the plan required in subsection (a).

SEC. 164. EXPANSION OF COMMERCE SECURITY PROGRAMS.

    (a) Customs-Trade Partnership Against Terrorism.--
            (1) In general.--Not later than 180 days after the date of 
        enactment of this Act, the Commissioner, in consultation with 
        the Secretary, shall develop a plan to expand the programs of 
        the Customs-Trade Partnership Against Terrorism established 
        pursuant to section 211 of the SAFE Port Act (6 U.S.C. 961), 
        including adding additional personnel for such programs, along 
        the northern border and southern border, including the 
        following programs:
                    (A) The Business Anti-Smuggling Coalition.
                    (B) The Carrier Initiative Program.
                    (C) The Americas Counter Smuggling Initiative.
                    (D) The Container Security Initiative established 
                pursuant to section 205 of the SAFE Port Act (6 U.S.C. 
                945).
                    (E) The Free and Secure Trade Initiative.
                    (F) Other industry partnership programs 
                administered by the Commissioner.
            (2) Southern border demonstration program.--Not later than 
        180 days after the date of enactment of this Act, the 
        Commissioner shall implement, on a demonstration basis, at 
        least 1 Customs-Trade Partnership Against Terrorism program, 
        which has been successfully implemented along the northern 
        border, along the southern border.
    (b) Demonstration Program.--Not later than 180 days after the date 
of enactment of this Act, the Commissioner shall establish a 
demonstration program to develop a cooperative trade security system to 
improve supply chain security.

SEC. 165. PORT OF ENTRY TECHNOLOGY DEMONSTRATION PROGRAM.

    (a) Establishment.--The Secretary shall carry out a technology 
demonstration program to--
            (1) test and evaluate new port of entry technologies;
            (2) refine port of entry technologies and operational 
        concepts; and
            (3) train personnel under realistic conditions.
    (b) Technology and Facilities.--
            (1) Technology testing.--Under the technology demonstration 
        program, the Secretary shall test technologies that enhance 
        port of entry operations, including operations related to--
                    (A) inspections;
                    (B) communications;
                    (C) port tracking;
                    (D) identification of persons and cargo;
                    (E) sensory devices;
                    (F) personal detection;
                    (G) decision support; and
                    (H) the detection and identification of weapons of 
                mass destruction.
            (2) Development of facilities.--At a demonstration site 
        selected pursuant to subsection (c)(2), the Secretary shall 
        develop facilities to provide appropriate training to law 
        enforcement personnel who have responsibility for border 
        security, including--
                    (A) cross-training among agencies;
                    (B) advanced law enforcement training; and
                    (C) equipment orientation.
    (c) Demonstration Sites.--
            (1) Number.--The Secretary shall carry out the 
        demonstration program at not less than 3 sites and not more 
        than 5 sites.
            (2) Selection criteria.--To ensure that at least 1 of the 
        facilities selected as a port of entry demonstration site for 
        the demonstration program has the most up-to-date design, 
        contains sufficient space to conduct the demonstration program, 
        has a traffic volume low enough to easily incorporate new 
        technologies without interrupting normal processing activity, 
        and is able to efficiently carry out demonstration and port of 
        entry operations, at least 1 port of entry selected as a 
        demonstration site shall--
                    (A) have been established not more than 15 years 
                before the date of enactment of this Act;
                    (B) consist of not less than 65 acres, with the 
                possibility of expansion to not less than 25 adjacent 
                acres; and
                    (C) have serviced an average of not more than 
                50,000 vehicles per month during the 1-year period 
                ending on the date of enactment of this Act.
    (d) Relationship With Other Agencies.--The Secretary shall permit 
personnel from an appropriate Federal or State agency to utilize a 
demonstration site described in subsection (c) to test technologies 
that enhance port of entry operations, including technologies described 
in subparagraphs (A) through (H) of subsection (b)(1).
    (e) Report.--
            (1) Requirement.--Not later than 1 year after the date of 
        enactment of this Act, and annually thereafter, the Secretary 
        shall submit to Congress a report on the activities carried out 
        at each demonstration site under the technology demonstration 
        program established under this section.
            (2) Content.--The report submitted under paragraph (1) 
        shall include an assessment by the Secretary of the feasibility 
        of incorporating any demonstrated technology for use throughout 
        United States Customs and Border Protection.

SEC. 166. AUTHORIZATION OF APPROPRIATIONS.

    (a) In General.--In addition to any funds otherwise available, 
there are authorized to be appropriated such sums as may be necessary 
for the fiscal years 2008 through 2012 to carry out this subtitle.
    (b) International Agreements.--Amounts appropriated pursuant to the 
authorization of appropriations in subsection (a) may be used for the 
implementation of projects described in the Declaration on Embracing 
Technology and Cooperation to Promote the Secure and Efficient Flow of 
People and Commerce across our Shared Border between the United States 
and Mexico, agreed to March 22, 2002, Monterrey, Mexico or the Smart 
Border Declaration between the United States and Canada, agreed to 
December 12, 2001, Ottawa, Canada that are consistent with the 
provisions of this subtitle.

                 Subtitle H--Safe and Secure Detention

SEC. 171. DEFINITIONS.

    In this subtitle:
            (1) Asylum seeker.--The term ``asylum seeker'' means an 
        applicant for asylum under section 208 of the Immigration and 
        Nationality Act (8 U.S.C. 1158) or for withholding of removal 
        under section 241(b)(3) of that Act (8 U.S.C. 1231(b)(3)) or an 
        alien who indicates an intention to apply for relief under 
        either such section and does not include a person with respect 
        to whom a final adjudication denying an application made under 
        either such section has been entered.
            (2) Credible fear of persecution.--The term ``credible fear 
        of persecution'' has the meaning given that term in section 
        235(b)(1)(B)(v) of the Immigration and Nationality Act (8 
        U.S.C. 1225(b)(1)(B)(v)).
            (3) Detainee.--The term ``detainee'' means an alien in the 
        Department's custody held in a detention facility.
            (4) Detention facility.--The term ``detention facility'' 
        means any Federal facility in which an asylum seeker, an alien 
        detained pending the outcome of a removal proceeding, or an 
        alien detained pending the execution of a final order of 
        removal, is detained for more than 72 hours, or any other 
        facility in which such detention services are provided to the 
        Federal Government by contract, and does not include detention 
        at any port of entry in the United States.
            (5) Reasonable fear of persecution or torture.--The term 
        ``reasonable fear of persecution or torture'' has the meaning 
        described in section 208.31 of title 8, Code of Federal 
        Regulations.
            (6) Standard.--The term ``standard'' means any policy, 
        procedure, or other requirement.
            (7) Vulnerable populations.--The term ``vulnerable 
        populations'' means classes of aliens subject to the 
        Immigration and Nationality Act (8 U.S.C. 1101 et seq.) who 
        have special needs requiring special consideration and 
        treatment by virtue of their vulnerable characteristics, 
        including experiences of, or risk of, abuse, mistreatment, or 
        other serious harms threatening their health or safety. 
        Vulnerable populations include the following:
                    (A) Asylum seekers.
                    (B) Refugees admitted under section 207 of the 
                Immigration and Nationality Act (8 U.S.C. 1157) and 
                individuals seeking such admission.
                    (C) Aliens whose deportation is being withheld 
                under section 243(h) of the Immigration and Nationality 
                Act (as in effect immediately before the effective date 
                of section 307 of the Illegal Immigration Reform and 
                Immigrant Responsibility Act of 1996 (Public Law 104-
                208; 110 Stat. 3009-612)) or section 241(b)(3) of the 
                Immigration and Nationality Act (8 U.S.C. 1231(b)(3)).
                    (D) Aliens granted or seeking protection under 
                article 3 of the Convention Against Torture and other 
                Cruel, Inhumane, or Degrading Treatment or Punishment, 
                done at New York, December 10, 1994.
                    (E) Applicants for relief and benefits under the 
                Immigration and Nationality Act pursuant to the 
                amendments made by the Trafficking Victims Protection 
                Act of 2000 (division A of Public Law 106-386; 114 
                Stat. 1464), including applicants for nonimmigrant 
                status under subparagraph (T) or (U) of section 
                101(a)(15) of the Immigration and Nationality Act (8 
                U.S.C. 1101(a)(15)).
                    (F) Applicants for relief and benefits under the 
                Immigration and Nationality Act pursuant to the 
                amendments made by the Violence Against Women Act of 
                2000 (division B of Public Law 106-386; 114 Stat. 
                1491).
                    (G) Unaccompanied alien children (as defined by 
                462(g) of the Homeland Security Act of 2002 (6 U.S.C. 
                279(g)).

SEC. 172. RECORDING SECONDARY INSPECTION INTERVIEWS.

    (a) In General.--The Secretary shall establish quality assurance 
procedures to ensure the accuracy and verifiability of signed or sworn 
statements taken by employees of the Department exercising expedited 
removal authority under section 235(b) of the Immigration and 
Nationality Act (8 U.S.C. 1225(b)).
    (b) Factors Relating to Sworn Statements.--Where practicable, as 
determined by the sole and unreviewable discretion of the Secretary, 
the quality assurance procedures established pursuant to this section 
shall include taped interviews to ensure the accuracy and verifiability 
of signed or sworn statements taken by employees of the Department.
    (c) Interpreters.--The Secretary shall ensure that a professional 
fluent interpreter is used when the interviewing officer does not speak 
a language understood by the alien and there is no other Federal, 
State, or local government employee available who is able to interpret 
effectively, accurately, and impartially.

SEC. 173. PROCEDURES GOVERNING DETENTION DECISIONS.

    Section 236 (8 U.S.C. 1226) is amended--
            (1) in subsection (a)--
                    (A) in the matter preceding paragraph (1)--
                            (i) in the first sentence by striking 
                        ``Attorney General'' and inserting ``Secretary 
                        of Homeland Security'';
                            (ii) by striking ``(c)'' and inserting 
                        ``(d)''; and
                            (iii) in the second sentence by striking 
                        ``Attorney General'' and inserting 
                        ``Secretary'';
                    (B) in paragraph (2)--
                            (i) in subparagraph (A)--
                                    (I) by striking ``Attorney 
                                General'' and inserting ``Secretary''; 
                                and
                                    (II) by striking ``or'' at the end;
                            (ii) in subparagraph (B), by striking 
                        ``but'' at the end; and
                            (iii) by inserting after subparagraph (B) 
                        the following:
                    ``(C) the alien's own recognizance; or
                    ``(D) a secure alternatives program as provided for 
                in this section; but'';
            (2) by redesignating subsections (b), (c), (d), and (e) as 
        subsections (d), (e), (f), and (h), respectively;
            (3) by inserting after subsection (a) the following new 
        subsections:
    ``(b) Custody Decisions.--
            ``(1) In general.--In the case of a decision under 
        subsection (a) or (d), the following shall apply:
                    ``(A) The decision shall be made in writing and 
                shall be served upon the alien. A decision to continue 
                detention without bond or parole shall specify in 
                writing the reasons for that decision.
                    ``(B) The decision shall be served upon the alien 
                within 72 hours of the alien's detention or, in the 
                case of an alien subject to section 235 or 241(a)(5) 
                who must establish a credible fear of persecution or a 
                reasonable fear of persecution or torture in order to 
                proceed in immigration court, within 72 hours of a 
                positive credible fear of persecution or reasonable 
                fear of persecution or torture determination.
            ``(2) Criteria to be considered.--The criteria to be 
        considered by the Secretary and the Attorney General in making 
        a custody decision shall include--
                    ``(A) whether the alien poses a risk to public 
                safety or national security;
                    ``(B) whether the alien is likely to appear for 
                immigration proceedings; and
                    ``(C) any other relevant factors.
            ``(3) Custody redetermination.--An alien subject to this 
        section may at any time after being served with the Secretary's 
        decision under subsections (a) or (d) request a redetermination 
        of that decision by an immigration judge. All decisions by the 
        Secretary to detain without bond or parole shall be subject to 
        redetermination by an immigration judge within 2 weeks from the 
        time the alien was served with the decision, unless waived by 
        the alien. The alien may request a further redetermination upon 
        a showing of a material change in circumstances since the last 
        redetermination hearing.
    ``(c) Exception for Mandatory Detention.--Subsection (b) shall not 
apply to any alien who is subject to mandatory detention under section 
235(b)(1)(B)(iii)(IV), 236(c), or 236A or who has a final order of 
removal and has no proceedings pending before the Executive Office for 
Immigration Review.'';
            (4) in subsection (d), as redesignated--
                    (A) by striking ``Attorney General'' and inserting 
                ``Secretary''; and
                    (B) by striking ``or parole'' and inserting ``, 
                parole, or decision to release;'';
            (5) in subsection (e), as redesignated--
                    (A) by striking ``Attorney General'' and inserting 
                ``Secretary'' each place it appears; and
                    (B) in paragraph (2), by inserting ``or for 
                humanitarian reasons,'' after ``such an 
                investigation,'';
            (6) in subsection (f), as redesignated--
                    (A) in the matter preceding paragraph (1), by 
                striking ``Attorney General'' and inserting 
                ``Secretary'';
                    (B) in paragraph (1), in subparagraphs (A) and (B), 
                by striking ``Service'' and inserting ``Department of 
                Homeland Security''; and
                    (C) in paragraph (3), by striking ``Service'' and 
                inserting ``Secretary of Homeland Security'';
            (7) by inserting after subsection (f), as redesignated, the 
        following new subparagraph:
    ``(g) Administrative Review.--If an immigration judge's custody 
decision has been stayed by the action of an officer or employee of the 
Department of Homeland Security, the stay shall expire in 30 days, 
unless the Board of Immigration Appeals before that time, and upon 
motion, enters an order continuing the stay.''; and
            (8) in subsection (h), as redesignated--
                    (A) by striking ``Attorney General's'' and 
                inserting ``Secretary of Homeland Security's''; and
                    (B) by striking ``Attorney General'' and inserting 
                ``Secretary''.

SEC. 174. LEGAL ORIENTATION PROGRAM.

    (a) In General.--The Attorney General, in consultation with the 
Secretary, shall ensure that all detained aliens in immigration and 
asylum proceedings receive legal orientation through a program 
administered and implemented by the Executive Office for Immigration 
Review of the Department of Justice.
    (b) Content of Program.--The legal orientation program developed 
pursuant to this section shall be based on the Legal Orientation 
Program carried out by the Executive Office for Immigration Review on 
the date of the enactment of this Act.
    (c) Expansion of Legal Assistance.--The Secretary shall ensure the 
expansion through the United States Citizenship and Immigration Service 
of public-private partnerships that facilitate pro bono counseling and 
legal assistance for asylum seekers awaiting a credible fear of 
persecution interview. The pro bono counseling and legal assistance 
programs developed pursuant to this subsection shall be based on the 
pilot program developed in Arlington, Virginia by the United States 
Citizenship and Immigration Service.

SEC. 175. CONDITIONS OF DETENTION.

    (a) In General.--The Secretary shall ensure that standards 
governing conditions and procedures at detention facilities are fully 
implemented and enforced, and that all detention facilities comply with 
the standards.
    (b) Procedures and Standards.--The Secretary shall promulgate new 
standards, or modify existing detention standards, to improve 
conditions in detention facilities. The improvements shall address at a 
minimum the following policies and procedures:
            (1) Fair and humane treatment.--Procedures to ensure that 
        detainees are not subject to degrading or inhumane treatment 
        such as verbal or physical abuse or harassment, sexual abuse or 
        harassment, or arbitrary punishment.
            (2) Limitations on shackling.--Procedures limiting the use 
        of shackling, handcuffing, solitary confinement, and strip 
        searches of detainees to situations where the use of such 
        techniques is necessitated by security interests or other 
        extraordinary circumstances.
            (3) Investigation of grievances.--Procedures for the prompt 
        and effective investigation of grievances raised by detainees, 
        including review of grievances by officials of the Department 
        who do not work at the same detention facility where the 
        detainee filing the grievance is detained.
            (4) Access to telephones.--Procedures permitting detainees 
        sufficient access to telephones, and the ability to contact, 
        free of charge, legal representatives, the immigration courts, 
        the Board of Immigration Appeals, and the Federal courts 
        through confidential toll-free numbers.
            (5) Location of facilities.--Location of detention 
        facilities, to the extent practicable, near sources of free or 
        low-cost legal representation with expertise in asylum or 
        immigration law.
            (6) Procedures governing transfers of detainees.--
        Procedures governing the transfer of a detainee that take into 
        account--
                    (A) the detainee's access to legal representatives; 
                and
                    (B) the proximity of the facility to the venue of 
                the asylum or removal proceeding.
            (7) Quality of medical care.--Prompt and adequate medical 
        care provided at no cost to the detainee, including dental 
        care, eye care, mental health care, individual and group 
        counseling, medical dietary needs, and other medically 
        necessary specialized care. Medical facilities in all detention 
        facilities used by the Department shall maintain current 
        accreditation by the National Commission on Correctional Health 
        Care (NCCHC). Requirements that each medical facility that is 
        not accredited by the Joint Commission on the Accreditation of 
        Health Care Organizations (JCAHO) will seek to obtain such 
        accreditation. Maintenance of complete medical records for 
        every detainee which shall be made available upon request to a 
        detainee, his legal representative, or other authorized 
        individuals.
            (8) Translation capabilities.--The employment of detention 
        facility staff that, to the extent practicable, are qualified 
        in the languages represented in the population of detainees at 
        a detention facility, and the provision of alternative 
        translation services when necessary.
            (9) Recreational programs and activities.--Daily access to 
        indoor and outdoor recreational programs and activities.
    (c) Special Standards for Noncriminal Detainees.--The Secretary 
shall promulgate new standards, or modifications to existing standards, 
that--
            (1) recognize the special characteristics of noncriminal, 
        nonviolent detainees, and ensure that procedures and conditions 
        of detention are appropriate for a noncriminal population; and
            (2) ensure that noncriminal detainees are separated from 
        inmates with criminal convictions, pretrial inmates facing 
        criminal prosecution, and those inmates exhibiting violent 
        behavior while in detention.
    (d) Special Standards for Vulnerable Populations.--The Secretary 
shall promulgate new standards, or modifications to existing standards, 
that--
            (1) recognize the unique needs of asylum seekers, victims 
        of torture and trafficking, families with children, detainees 
        who do not speak English, detainees with special religious, 
        cultural or spiritual considerations, and other vulnerable 
        populations; and
            (2) ensure that procedures and conditions of detention are 
        appropriate for the populations listed in this subsection.
    (e) Training of Personnel.--
            (1) In general.--The Secretary shall ensure that personnel 
        in detention facilities are given specialized training to 
        better understand and work with the population of detainees 
        held at the facilities where such personnel work. The training 
        should address the unique needs of--
                    (A) asylum seekers;
                    (B) victims of torture or other trauma; and
                    (C) other vulnerable populations.
            (2) Specialized training.--The training required by this 
        subsection shall be designed to better enable personnel to work 
        with detainees from different countries, and detainees who 
        cannot speak English. The training shall emphasize that many 
        detainees have no criminal records and are being held for civil 
        violations.

SEC. 176. OFFICE OF DETENTION OVERSIGHT.

    (a) Establishment of the Office.--
            (1) In general.--There shall be established within the 
        Department an Office of Detention Oversight (in this section 
        referred to as the ``Office'').
            (2) Head of the office.--There shall be at the head of the 
        Office an Administrator who shall be appointed by, and shall 
        report to, the Secretary.
            (3) Schedule.--The Office shall be established and the 
        Administrator of the Office appointed not later than 6 months 
        after the date of enactment of this Act.
    (b) Responsibilities of the Office.--
            (1) Inspections of detention centers.--The Administrator of 
        the Office shall--
                    (A) undertake frequent and unannounced inspections 
                of all detention facilities;
                    (B) develop a procedure for any detainee or the 
                detainee's representative to file a written complaint 
                directly with the Office; and
                    (C) report to the Secretary and to the Assistant 
                Secretary of Homeland Security for United States 
                Immigration and Customs Enforcement all findings of a 
                detention facility's noncompliance with detention 
                standards.
            (2) Investigations.--The Administrator of the Office 
        shall--
                    (A) initiate investigations, as appropriate, into 
                allegations of systemic problems at detention 
                facilities or incidents that constitute serious 
                violations of detention standards;
                    (B) report to the Secretary and the Assistant 
                Secretary of Homeland Security for United States 
                Immigration and Customs Enforcement the results of all 
                investigations; and
                    (C) refer matters, where appropriate, for further 
                action to--
                            (i) the Department of Justice;
                            (ii) the Office of the Inspector General of 
                        the Department;
                            (iii) the Office of Civil Rights and Civil 
                        Liberties of the Department; or
                            (iv) any other relevant office of agency.
            (3) Report to congress.--
                    (A) In general.--The Administrator of the Office 
                shall submit to the Secretary, the Committee on the 
                Judiciary and the Committee on Homeland Security and 
                Governmental Affairs of the Senate, and the Committee 
                on the Judiciary and the Committee on Homeland Security 
                of the House of Representatives an annual report on the 
                Administrator's findings on detention conditions and 
                the results of the investigations carried out by the 
                Administrator.
                    (B) Contents of report.--Each report required by 
                subparagraph (A) shall include--
                            (i) a description of the actions to remedy 
                        findings of noncompliance or other problems 
                        that are taken by the Secretary or the 
                        Assistant Secretary of Homeland Security for 
                        United States Immigration and Customs 
                        Enforcement, and each detention facility found 
                        to be in noncompliance; and
                            (ii) information regarding whether such 
                        actions were successful and resulted in 
                        compliance with detention standards.
            (4) Review of complaints by detainees.--The Administrator 
        of the Office shall establish procedures to receive and review 
        complaints of violations of the detention standards promulgated 
        by the Secretary. The procedures shall protect the anonymity of 
        the claimant, including detainees, employees, or others, from 
        retaliation.
    (c) Cooperation With Other Offices and Agencies.--Whenever 
appropriate, the Administrator of the Office shall cooperate and 
coordinate its activities with--
            (1) the Office of the Inspector General of the Department;
            (2) the Office of Civil Rights and Civil Liberties of the 
        Department;
            (3) the Privacy Officer of the Department;
            (4) the Civil Rights Division of the Department of Justice; 
        or
            (5) any other relevant office or agency.

SEC. 177. SECURE ALTERNATIVES PROGRAM.

    (a) Establishment of Program.--The Secretary shall establish a 
secure alternatives program under which an alien who has been detained 
may be released under enhanced supervision to prevent the alien from 
absconding and to ensure that the alien makes appearances related to 
such detention.
    (b) Program Requirements.--
            (1) Nationwide implementation.--The Secretary shall 
        facilitate the development of the secure alternatives program 
        on a nationwide basis, as a continuation of existing pilot 
        programs such as the Intensive Supervision Appearance Program 
        (ISAP) developed by the Department.
            (2) Utilization of alternatives.--The secure alternatives 
        program shall utilize a continuum of alternatives based on the 
        alien's need for supervision, including placement of the alien 
        with an individual or organizational sponsor, or in a 
        supervised group home.
            (3) Aliens eligible for secure alternatives program.--
                    (A) In general.--Aliens who would otherwise be 
                subject to detention based on a consideration of the 
                release criteria in section 236(b)(2), or who are 
                released pursuant to section 236(e)(2), shall be 
                considered for the secure alternatives program.
                    (B) Design of programs.--Secure alternatives 
                programs shall be designed to ensure sufficient 
                supervision of the population described in subparagraph 
                (A).
            (4) Contracts.--The Secretary shall enter into contracts 
        with qualified nongovernmental entities to implement the secure 
        alternatives program.
            (5) Other considerations.--In designing such program, the 
        Secretary shall--
                    (A) consult with relevant experts; and
                    (B) consider programs that have proven successful 
                in the past, including the Appearance Assistance 
                Program developed by the Vera Institute and the 
                Intensive Supervision Appearance Program (ISAP) 
                developed by the Department.

SEC. 178. LESS RESTRICTIVE DETENTION FACILITIES.

    (a) Construction.--The Secretary shall facilitate the construction 
or use of secure but less restrictive detention facilities.
    (b) Criteria.--In developing detention facilities pursuant to this 
section, the Secretary shall--
            (1) consider the design, operation, and conditions of 
        existing secure but less restrictive detention facilities, such 
        as the Department's detention facilities in Broward County, 
        Florida, and Berks County, Pennsylvania;
            (2) to the extent practicable, construct or use detention 
        facilities where--
                    (A) movement within and between indoor and outdoor 
                areas of the facility is subject to minimal 
                restrictions;
                    (B) detainees have ready access to social, 
                psychological, and medical services;
                    (C) detainees with special needs, including those 
                who have experienced trauma or torture, have ready 
                access to services and treatment addressing their 
                needs;
                    (D) detainees have ready access to meaningful 
                programmatic and recreational activities;
                    (E) detainees are permitted contact visits with 
                legal representatives, family members, and others;
                    (F) detainees have access to private toilet and 
                shower facilities;
                    (G) prison-style uniforms or jumpsuits are not 
                required; and
                    (H) special facilities are provided to families 
                with children.
    (c) Facilities for Families With Children.--For situations where 
release or secure alternatives programs are not an option, the 
Secretary shall ensure that special detention facilities are 
specifically designed to house parents with their minor children, 
including ensuring that--
            (1) procedures and conditions of detention are appropriate 
        for families with minor children; and
            (2) living and sleeping quarters for parents and minor 
        children are not physically separated.
    (d) Placement in Nonpunitive Facilities.--Priority for placement in 
less restrictive facilities shall be given to asylum seekers, families 
with minor children, other vulnerable populations, and nonviolent 
criminal detainees.
    (e) Procedures and Standards.--Where necessary, the Secretary shall 
promulgate new standards, or modify existing detention standards, to 
promote the development of less restrictive detention facilities.

SEC. 179. AUTHORIZATION OF APPROPRIATIONS; EFFECTIVE DATE.

    (a) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as are necessary to carry out this subtitle.
    (b) Effective Date.--This subtitle and the amendments made by this 
subtitle shall take effect on the date that is 6 months after the date 
of enactment of this Act.

             Subtitle I--Other Border Security Initiatives

SEC. 181. COMBATING HUMAN SMUGGLING.

    (a) Requirement for Plan.--The Secretary shall develop and 
implement a plan to improve coordination among United States 
Immigration and Customs Enforcement and United States Customs and 
Border Protection and any other Federal, State, local, or tribal 
authorities, as determined appropriate by the Secretary, to improve 
coordination efforts to combat human smuggling.
    (b) Content.--In developing the plan required by subsection (a), 
the Secretary shall consider--
            (1) the interoperability of databases utilized to prevent 
        human smuggling;
            (2) adequate and effective personnel training;
            (3) methods and programs to effectively target networks 
        that engage in such smuggling;
            (4) effective utilization of--
                    (A) visas for victims of trafficking and other 
                crimes; and
                    (B) investigatory techniques, equipment, and 
                procedures that prevent, detect, and prosecute 
                international money laundering and other operations 
                that are utilized in smuggling;
            (5) joint measures, with the Secretary of State, to enhance 
        intelligence sharing and cooperation with foreign governments 
        whose citizens are preyed on by human smugglers; and
            (6) other measures that the Secretary considers appropriate 
        to combat human smuggling.
    (c) Report.--Not later than 1 year after implementing the plan 
described in subsection (a), the Secretary shall submit to Congress a 
report on such plan, including any recommendations for legislative 
action to improve efforts to combating human smuggling.
    (d) Savings Provision.--Nothing in this section may be construed to 
provide additional authority to any State or local entity to enforce 
Federal immigration laws.

SEC. 182. SCREENING OF MUNICIPAL SOLID WASTE.

    (a) Definitions.--In this section:
            (1) Commercial motor vehicle.--The term ``commercial motor 
        vehicle'' has the meaning given the term in section 31101 of 
        title 49, United States Code.
            (2) Commissioner.--The term ``Commissioner'' means the 
        Commissioner of United States Customs and Border Protection.
            (3) Municipal solid waste.--The term ``municipal solid 
        waste'' includes sludge (as defined in section 1004 of the 
        Solid Waste Disposal Act (42 U.S.C. 6903)).
    (b) Report to Congress.--Not later than 90 days after the date of 
enactment of this Act, the Commissioner shall submit to Congress a 
report that--
            (1) indicates whether the methodologies and technologies 
        used by United States Customs and Border Protection to screen 
        for and detect the presence of chemical, nuclear, biological, 
        and radiological weapons in municipal solid waste are as 
        effective as the methodologies and technologies used by United 
        States Customs and Border Protection to screen for such weapons 
        in other items of commerce entering the United States through 
        commercial motor vehicle transport; and
            (2) if the report indicates that the methodologies and 
        technologies used to screen municipal solid waste are less 
        effective than the methodologies and technologies used to 
        screen other items of commerce, identifies the actions that 
        United States Customs and Border Protection will take to 
        achieve the same level of effectiveness in the screening of 
        municipal solid waste, including actions necessary to meet the 
        need for additional screening technologies.
    (c) Impact on Commercial Motor Vehicles.--If the Commissioner fails 
to fully implement an action identified under subsection (b)(2) before 
the earlier of the date that is 180 days after the date on which the 
report under subsection (b) is required to be submitted or the date 
that is 180 days after the date on which the report is submitted, the 
Secretary shall deny entry into the United States of any commercial 
motor vehicle carrying municipal solid waste until the Secretary 
certifies to Congress that the methodologies and technologies used by 
United States Customs and Border Protection to screen for and detect 
the presence of chemical, nuclear, biological, and radiological weapons 
in municipal solid waste are as effective as the methodologies and 
technologies used by United States Customs and Border Protection to 
screen for such weapons in other items of commerce entering into the 
United States through commercial motor vehicle transport.

SEC. 183. BORDER SECURITY ON CERTAIN FEDERAL LAND.

    (a) Definitions.--In this section:
            (1) Protected land.--The term ``protected land'' means land 
        under the jurisdiction of the Secretary concerned.
            (2) Secretary concerned.--The term ``Secretary concerned'' 
        means--
                    (A) with respect to land under the jurisdiction of 
                the Secretary of Agriculture, the Secretary of 
                Agriculture; and
                    (B) with respect to land under the jurisdiction of 
                the Secretary of the Interior, the Secretary of the 
                Interior.
    (b) Support for Border Security Needs.--
            (1) In general.--To gain operational control over the 
        international land borders of the United States and to prevent 
        the entry of terrorists, unlawful aliens, narcotics, and other 
        contraband into the United States, the Secretary, in 
        cooperation with the Secretary concerned, shall provide--
                    (A) increased United States Customs and Border 
                Protection personnel to secure protected land along the 
                international land borders of the United States;
                    (B) Federal land resource training for United 
                States Customs and Border Protection agents dedicated 
                to protected land; and
                    (C) unmanned aerial vehicles, aerial assets, remote 
                video surveillance camera systems, and sensors on 
                protected land that is directly adjacent to the 
                international land border of the United States, with 
                priority given to units of the National Park System.
            (2) Coordination.--In providing training for United States 
        Customs and Border Protection agents under paragraph (1)(B), 
        the Secretary shall coordinate with the Secretary concerned to 
        ensure that the training is appropriate to the mission of the 
        National Park Service, the United States Fish and Wildlife 
        Service, the Forest Service, or the relevant agency of the 
        Department of the Interior or the Department of Agriculture to 
        minimize the adverse impact on natural and cultural resources 
        from border protection activities.
    (c) Inventory of Costs and Activities.--The Secretary concerned 
shall develop and submit to the Secretary an inventory of costs 
incurred by the Secretary concerned relating to illegal border 
activity, including the cost of equipment, training, recurring 
maintenance, construction of facilities, restoration of natural and 
cultural resources, recapitalization of facilities, and operations.
    (d) Recommendations.--The Secretary shall--
            (1) develop joint recommendations with the National Park 
        Service, the United States Fish and Wildlife Service, and the 
        Forest Service for an appropriate cost recovery mechanism 
        relating to items identified in subsection (c); and
            (2) not later than March 31, 2008, submit to the Committee 
        on the Judiciary and the Committee on Energy and Natural 
        Resources of the Senate and the Committee on the Judiciary and 
        the Committee on Natural Resources of the House of 
        Representatives the recommendations developed under paragraph 
        (1).
    (e) Border Protection Strategy.--The Secretary, the Secretary of 
the Interior, and the Secretary of Agriculture shall jointly develop a 
border protection strategy that supports the border security needs of 
the United States in the manner that best protects--
            (1) units of the National Park System;
            (2) National Forest System land;
            (3) land under the jurisdiction of the United States Fish 
        and Wildlife Service; and
            (4) other relevant land under the jurisdiction of the 
        Secretary of the Interior or the Secretary of Agriculture.

                     TITLE II--INTERIOR ENFORCEMENT

 Subtitle A--Reducing the Number of Illegal Aliens in the United States

SEC. 201. INCARCERATION OF CRIMINAL ALIENS.

    (a) Institutional Removal Program.--
            (1) Continuation.--The Secretary shall continue to operate 
        the Institutional Removal Program (referred to in this section 
        as the ``Program'') or shall develop and implement another 
        program to--
                    (A) identify removable criminal aliens in Federal 
                and State correctional facilities;
                    (B) ensure that such aliens are not released into 
                the community; and
                    (C) remove such aliens from the United States after 
                the completion of their sentences, in accordance with 
                section 241 of the Immigration and Nationality Act (8 
                U.S.C. 1231), as amended by section 231 of this Act.
            (2) Expansion.--The Secretary may extend the scope of the 
        Program to all States.
    (b) Technology Usage.--Technology, such as videoconferencing, shall 
be used to the maximum extent practicable to make the Program available 
in remote locations. Mobile access to Federal databases of aliens, such 
as the Automated Biometric Fingerprint Identification System (IDENT), 
and live scan technology shall be used to the maximum extent 
practicable to make these resources available to State and local law 
enforcement agencies in remote locations.
    (c) Report to Congress.--Not later than 6 months after the date of 
enactment of this Act, and annually thereafter, the Secretary shall 
submit to Congress a report on the participation of States in the 
Program and in any other program carried out pursuant to subsection 
(a).
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary in each of the fiscal years 
2008 through 2012 to carry out this section.

SEC. 202. ENCOURAGING ALIENS TO DEPART VOLUNTARILY.

    (a) In General.--Section 240B (8 U.S.C. 1229c) is amended--
            (1) in subsection (a)--
                    (A) by amending paragraph (1) to read as follows:
            ``(1) In general.--If an alien is not removable under 
        paragraph (2)(A)(iii) or (4) of section 237(a)--
                    ``(A) the Secretary of Homeland Security may permit 
                the alien to voluntarily depart the United States at 
                the alien's own expense under this subsection instead 
                of being subject to proceedings under section 240; or
                    ``(B) the Attorney General may permit the alien to 
                voluntarily depart the United States at the alien's own 
                expense under this subsection after the initiation of 
                removal proceedings under section 240 and before the 
                conclusion of such proceedings before an immigration 
                judge.'';
                    (B) in paragraph (2), by amending subparagraph (A) 
                to read as follows:
                    ``(A) In general.--
                            ``(i) Instead of removal.--Subject to 
                        subparagraph (B), permission to voluntarily 
                        depart under paragraph (1)(A) shall not be 
                        valid for any period in excess of 120 days. The 
                        Secretary may require an alien permitted to 
                        voluntarily depart under paragraph (1)(A) to 
                        post a voluntary departure bond, to be 
                        surrendered upon proof that the alien has 
                        departed the United States within the time 
                        specified.'';
                            ``(ii) Before the conclusion of removal 
                        proceedings.--Permission to voluntarily depart 
                        under paragraph (1)(B) shall not be valid for 
                        any period longer than 60 days, and may be 
                        granted only after a finding that the alien has 
                        the means to depart the United States and 
                        intends to do so. An immigration judge may 
                        require an alien to voluntarily depart under 
                        paragraph (1)(B) to post a voluntary departure 
                        bond, in an amount necessary to ensure that the 
                        alien will depart, to be surrendered upon proof 
                        that the alien has departed the United States 
                        within the time specified. An immigration judge 
                        may waive the requirement to post a voluntary 
                        departure bond in individual cases upon a 
                        finding that the alien has presented compelling 
                        evidence that the posting of a bond will pose a 
                        serious financial hardship and the alien has 
                        presented credible evidence that such a bond is 
                        unnecessary to guarantee timely departure.''; 
                        and
                    (C) by striking paragraph (3);
            (2) by amending subsection (c) to read as follows:
    ``(c) Conditions on Voluntary Departure.--
            ``(1) Voluntary departure agreement.--Voluntary departure 
        under this section may only be granted as part of an 
        affirmative agreement by the alien.
            ``(2) Concessions by the secretary.--In connection with the 
        alien's agreement to depart voluntarily under paragraph (1)(A), 
        the Secretary of Homeland Security may agree to a reduction in 
        the period of inadmissibility under subparagraph (A) or (B)(i) 
        of section 212(a)(9).
            ``(3) Advisals.--Agreements relating to voluntary departure 
        granted during removal proceedings under section 240, or at the 
        conclusion of such proceedings, shall be presented on the 
        record before the immigration judge. The immigration judge 
        shall advise the alien of the consequences of a voluntary 
        departure agreement before accepting such agreement.
            ``(4) Failure to comply with agreement.--If an alien agrees 
        to voluntary departure under this section and fails to depart 
        the United States within the time allowed for voluntary 
        departure or fails to comply with any other terms of the 
        agreement (including failure to timely post any required bond), 
        the alien is--
                    ``(A) ineligible for the benefits of the agreement;
                    ``(B) subject to the penalties described in 
                subsection (d); and
                    ``(C) subject to an alternate order of removal if 
                voluntary departure was granted under subsection 
                (a)(1)(B) or (b).
            ``(5) Voluntary departure period not affected.--Except as 
        expressly agreed to by the Secretary in writing in the exercise 
        of the Secretary's discretion before the expiration of the 
        period allowed for voluntary departure, no motion, appeal, 
        application, petition, or petition for review shall affect, 
        reinstate, enjoin, delay, stay, or toll the alien's obligation 
        to depart from the United States during the period agreed to by 
        the alien and the Secretary.''; and
            (3) by amending subsection (d) to read as follows:
    ``(d) Penalties for Failure To Depart.--If an alien is permitted to 
voluntarily depart under this section and fails to voluntarily depart 
from the United States within the time period specified or otherwise 
violates the terms of a voluntary departure agreement, the alien will 
be subject to the following penalties:
            ``(1) Civil penalty.--The alien shall be liable for a civil 
        penalty of $3,000. The order allowing voluntary departure shall 
        specify the amount of the penalty, which shall be acknowledged 
        by the alien on the record. If the Secretary thereafter 
        establishes that the alien failed to depart voluntarily within 
        the time allowed, no further procedure will be necessary to 
        establish the amount of the penalty, and the Secretary may 
        collect the civil penalty at any time thereafter and by 
        whatever means provided by law. An alien will be ineligible for 
        any benefits under this chapter until this civil penalty is 
        paid.
            ``(2) Ineligibility for relief.--The alien shall be 
        ineligible during the time the alien remains in the United 
        States and for a period of 10 years after the alien's departure 
        for any further relief under this section and sections 240A, 
        245, 248, and 249. The order permitting the alien to depart 
        voluntarily shall inform the alien of the penalties under this 
        subsection.''; and
            (4) by amending subsection (e) to read as follows:
    ``(e) Eligibility.--
            ``(1) Prior grant of voluntary departure.--An alien shall 
        not be permitted to voluntarily depart under this section if 
        the Secretary of Homeland Security or the Attorney General 
        previously permitted the alien to depart voluntarily under this 
        section on or after the date of the enactment of the STRIVE Act 
        of 2007.
            ``(2) Rulemaking.--The Secretary may promulgate regulations 
        to limit eligibility or impose additional conditions for 
        voluntary departure under subsection (a)(1)(A) for any class of 
        aliens.''.
    (b) Effective Date.--The amendments made by this section shall 
apply with respect to all orders granting voluntary departure under 
section 240B of the Immigration and Nationality Act (8 U.S.C. 1229c) 
made on or after the date that is 180 days after the date of enactment 
of this Act.

SEC. 203. DETERRING ALIENS ORDERED REMOVED FROM REMAINING IN THE UNITED 
                    STATES UNLAWFULLY.

    Section 212(a)(9)(A) (8 U.S.C. 1182(a)(9)(A)) is amended--
            (1) in clause (i), by striking ``seeks admission within 5 
        years of the date of such removal (or within 20 years'' and 
        inserting ``seeks admission not later than 5 years after the 
        date of the alien's removal (or not later than 20 years after 
        the alien's removal''; and
            (2) in clause (ii), by striking ``seeks admission within 10 
        years of the date of such alien's departure or removal (or 
        within 20 years of'' and inserting ``seeks admission not later 
        than 10 years after the date of the alien's departure or 
        removal (or not later than 20 years after''.

SEC. 204. PROHIBITION OF THE SALE OF FIREARMS TO, OR THE POSSESSION OF 
                    FIREARMS BY CERTAIN ALIENS.

    Section 922 of title 18, United States Code, is amended--
            (1) in subsection (d)(5)--
                    (A) in subparagraph (A), by striking ``or'' at the 
                end;
                    (B) in subparagraph (B), by striking ``(y)(2)'' and 
                all that follows and inserting ``(y), is in a 
                nonimmigrant classification; or''; and
                    (C) by adding at the end the following:
                    ``(C) has been paroled into the United States under 
                section 212(d)(5) of the Immigration and Nationality 
                Act (8 U.S.C. 1182(d)(5));'';
            (2) in subsection (g)(5)--
                    (A) in subparagraph (A), by striking ``or'' at the 
                end;
                    (B) in subparagraph (B), by striking ``(y)(2)'' and 
                all that follows and inserting ``(y), is in a 
                nonimmigrant classification; or''; and
                    (C) by adding at the end the following:
                    ``(C) has been paroled into the United States under 
                section 212(d)(5) of the Immigration and Nationality 
                Act (8 U.S.C. 1182(d)(5));''; and
            (3) in subsection (y)--
                    (A) in the heading, by striking ``Admitted Under 
                Nonimmigrant Visas'' and inserting ``in a Nonimmigrant 
                Classification'';
                    (B) in paragraph (1), by amending subparagraph (B) 
                to read as follows:
                    ``(B) the term `nonimmigrant classification' 
                includes all classes of nonimmigrant aliens described 
                in section 101(a)(15) of the Immigration and 
                Nationality Act (8 U.S.C. 1101(a)(15)), or otherwise 
                described in the immigration laws (as defined in 
                section 101(a)(17) of such Act).'';
                    (C) in paragraph (2), by striking ``has been 
                lawfully admitted to the United States under a 
                nonimmigrant visa'' and inserting ``is in a 
                nonimmigrant classification''; and
                    (D) in paragraph (3)(A), by striking ``Any 
                individual who has been admitted to the United States 
                under a nonimmigrant visa may receive a waiver from the 
                requirements of subsection (g)(5)'' and inserting ``Any 
                alien in a nonimmigrant classification may receive a 
                waiver from the requirements of subsection (g)(5)(B)''.

SEC. 205. UNIFORM STATUTE OF LIMITATIONS FOR CERTAIN IMMIGRATION, 
                    NATURALIZATION, AND PEONAGE OFFENSES.

    (a) In General.--Section 3291 of title 18, United States Code, is 
amended to read as follows:

``Sec. 3291. Immigration, naturalization, and peonage offenses

    ``No person shall be prosecuted, tried, or punished for a violation 
of any section of chapters 69 (relating to nationality and citizenship 
offenses), 75 (relating to passport, visa, and immigration offenses), 
or 77 (relating to peonage, slavery, and trafficking in persons), for 
an attempt or conspiracy to violate any such section, for a violation 
of any criminal provision under section 243, 266, 274, 275, 276, 277, 
or 278 of the Immigration and Nationality Act (8 U.S.C. 1253, 1306, 
1324, 1325, 1326, 1327, and 1328), or for an attempt or conspiracy to 
violate any such section, unless the indictment is returned or the 
information filed not later than 10 years after the commission of the 
offense.''.
    (b) Clerical Amendment.--The table of sections for chapter 213 of 
title 18, United States Code, is amended by striking the item relating 
to section 3291 and inserting the following:

    ``3291. Immigration, naturalization, and peonage offenses.''.

SEC. 206. EXPEDITED REMOVAL.

    (a) In General.--Section 238 (8 U.S.C. 1228) is amended--
            (1) by striking the section heading and inserting 
        ``<SUP>expedited</SUP> removal</SUP> of</SUP> criminal</SUP> 
        aliens</SUP>'';
            (2) in subsection (a), by striking the subsection heading 
        and inserting: ``Expedited Removal From Correctional 
        Facilities.--'';
            (3) in subsection (b), by striking the subsection heading 
        and inserting: ``Removal of Criminal Aliens.--'';
            (4) in subsection (b), by striking paragraphs (1) and (2) 
        and inserting the following:
            ``(1) In general.--The Secretary of Homeland Security may, 
        in the case of an alien described in paragraph (2), determine 
        the deportability of such alien and issue an order of removal 
        pursuant to the procedures set forth in this subsection or 
        section 240.
            ``(2) Aliens described.--An alien is described in this 
        paragraph if the alien--
                    ``(A) has not been lawfully admitted to the United 
                States for permanent residence; and
                    ``(B) was convicted of any criminal offense 
                establishing deportability under subparagraph (A)(iii) 
                or (D)(i) of section 237(a)(2).''; and
            (5) by redesignating the subsection (c) that relates to 
        judicial removal as subsection (d).
    (b) Effective Date.--The amendments made by this section shall take 
effect on the date of enactment of this Act and shall apply to all 
aliens apprehended or convicted on or after such date.

SEC. 207. FIELD AGENT ALLOCATION.

    (a) In General.--Section 103(f) (8 U.S.C. 1103(f)) is amended to 
read as follows:
    ``(f) Minimum Number of Agents in States.--
            ``(1) In general.--The Secretary of Homeland Security shall 
        allocate to each State--
                    ``(A) not fewer than 40 full-time active duty 
                agents of the Bureau of Immigration and Customs 
                Enforcement to--
                            ``(i) investigate immigration violations; 
                        and
                            ``(ii) ensure the departure of all 
                        removable aliens; and
                    ``(B) not fewer than 15 full-time active duty 
                agents of United States Citizenship and Immigration 
                Services to carry out immigration and naturalization 
                adjudication functions.
            ``(2) Waiver.--The Secretary may waive the application of 
        paragraph (1) for any State with a population of less than 
        2,000,000, as most recently reported by the Bureau of the 
        Census.''.
    (b) Effective Date.--The amendment made by subsection (a) shall 
take effect on the date that is 90 days after the date of the enactment 
of this Act.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary to carry out this section.

SEC. 208. STREAMLINED PROCESSING OF BACKGROUND CHECKS CONDUCTED FOR 
                    IMMIGRATION BENEFIT APPLICATIONS AND PETITIONS.

    (a) Information Sharing; Interagency Task Force.--Section 105 (8 
U.S.C. 1105) is amended by adding at the end the following:
    ``(e) Interagency Task Force.--
            ``(1) In general.--The Secretary of Homeland Security shall 
        establish an interagency task force to resolve cases in which 
        an application or petition for an immigration benefit conferred 
        under this Act has been delayed due to an outstanding 
        background check investigation for more than 2 years after the 
        date on which such application or petition was initially filed.
            ``(2) Membership.--The interagency task force established 
        under paragraph (1) shall include representatives from Federal 
        agencies with immigration, law enforcement, or national 
        security responsibilities under this Act.''.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to the Director of the Federal Bureau of Investigation 
such sums as are necessary for each fiscal year, 2008 through 2012 for 
enhancements to existing systems for conducting background and security 
checks necessary to support immigration security and orderly processing 
of applications.
    (c) Report on Background and Security Checks.--
            (1) In general.--Not later than 180 days after the date of 
        the enactment of this Act, the Director of the Federal Bureau 
        of Investigation shall submit to the Committee on the Judiciary 
        of the Senate and the Committee on the Judiciary of the House 
        of Representatives a report on the background and security 
        checks conducted by the Federal Bureau of Investigation on 
        behalf of United States Citizenship and Immigration Services.
            (2) Content.--The report required under paragraph (1) shall 
        include--
                    (A) a description of the background and security 
                check program;
                    (B) a statistical breakdown of the background and 
                security check delays associated with different types 
                of immigration applications;
                    (C) a statistical breakdown of the background and 
                security check delays by applicant country of origin; 
                and
                    (D) the steps that the Director of the Federal 
                Bureau of Investigations is taking to expedite 
                background and security checks that have been pending 
                for more than 180 days.
    (d) Ensuring Accountability in Background Check Determinations.--
            (1) In general.--Chapter 4 of title III (8 U.S.C. 1501 et 
        seq.) is amended by adding at the end the following:

``SEC. 362. CONSTRUCTION.

    ``(a) In General.--Nothing in this Act (other than section 
241(b)(3)) or in any other provision of law (other than the Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, done at New York, December 10, 1994, subject to any 
reservations, understandings, declarations, and provisos contained in 
the resolution of ratification of the Convention, as implemented by 
section 2242 of the Foreign Affairs Reform and Restructuring Act of 
1998 (Public Law 105-277; 8 U.S.C. 1231 note)) may be construed to 
require the Secretary of Homeland Security or the Attorney General to 
grant any application for asylum, adjustment of status, or 
naturalization, or grant any relief from removal under the immigration 
laws to--
            ``(1) any alien with respect to whom a national security, 
        criminal, or other investigation or case is open or pending 
        (including the issuance of an arrest warrant, detainer, or 
        indictment) that is material to the alien's eligibility for the 
        status or benefit sought; or
            ``(2) any alien for whom all law enforcement and other 
        background checks have not been conducted and resolved or the 
        information related to such background checks have not provided 
        to or assessed by the reviewing official.
    ``(b) Timeframes.--Notwithstanding subsection (a), the Secretary of 
Homeland Security may not delay adjudication or document issuance 
beyond 180 days due to an outstanding background or security check 
unless the Secretary certifies that such background and security check 
may establish that the alien poses a risk to national security or 
public safety. The decision to delay shall be reviewed every 180 days, 
and such decision may not be delegated below the level of Assistant 
Secretary. An alien has no right to review or appeal the Secretary's 
decision to delay adjudication or issuance of documentation under this 
section, but remains entitled to interim work authorization.''.
            (2) Rulemaking.--The Secretary of Homeland Security shall 
        promulgate regulations that describe the conditions under which 
        interim work authorization under paragraph (1) shall be issued.
            (3) Annual report to congress.--The Secretary of Homeland 
        Security, the Attorney General, the Secretary of State, and the 
        Secretary of Labor shall submit an annual report to Congress 
        that includes--
                    (A) the number of cases in which paragraph (1) or 
                (2) of subsection (a) is invoked during the reporting 
                period;
                    (B) the total number of pending cases in each 
                category at the end of the reporting period;
                    (C) the resolution of cases finally decided during 
                the reporting period; and
                    (D) statistics on interim employment authorizations 
                issued under this section.
    (e) Clerical Amendment.--The table of contents is amended by 
inserting after the item relating to section 361 the following:

    ``Sec. 362. Construction.''.
    (f) Enhanced Transparency of Clearance Process.--
            (1) Establishment.--The Secretary and the Attorney General 
        shall each establish an Office of the Public Advocate for 
        Immigration Clearances within the Department and the Department 
        of Justice, respectively. Each Office shall be headed by a 
        Public Advocate.
            (2) Duties.--Each Public Advocate shall--
                    (A) serve as a public liaison for their respective 
                Department for identifying and resolving delays in 
                immigration processing caused by background check 
                investigations; and
                    (B) serve on the Interagency Task Force established 
                under subsection (e) of section 105 of the Immigration 
                and Nationality Act (8 U.S.C. 1105), as added by 
                subsection (a).

SEC. 209. STATE CRIMINAL ALIEN ASSISTANCE PROGRAM.

    (a) Authorization of Appropriations.--Section 241(i)(5)(C) (8 
U.S.C. 1231(i)(5)(C)) is amended by striking ``2011'' and inserting 
``2012''.
    (b) Reimbursement of States for Preconviction Costs Relating to the 
Incarceration of Illegal Aliens.--Section 241(i)(3)(A) (8 U.S.C. 
1231(i)(3)(A)) is amended by inserting ``charged with or'' before 
``convicted''.
    (c) Reimbursement of States for Indirect Costs Relating to the 
Incarceration of Illegal Aliens.--Section 501 of the Immigration Reform 
and Control Act of 1986 (8 U.S.C. 1365) is amended--
            (1) by amending subsection (a) to read as follows:
    ``(a) Reimbursement of States.--Subject to the amounts provided in 
advance in appropriation Acts, the Secretary of Homeland Security shall 
reimburse a State for--
            ``(1) the costs incurred by the State for the imprisonment 
        of any illegal alien or Cuban national who is convicted of a 
        felony by such State; and
            ``(2) the indirect costs related to the imprisonment 
        described in paragraph (1).''; and
            (2) by amending subsections (c) through (e) to read as 
        follows:
    ``(c) Manner of Allotment of Reimbursements.--Reimbursements under 
this section shall be allotted in a manner that gives special 
consideration for any State that--
            ``(1) shares a border with Mexico or Canada; or
            ``(2) includes within the State an area in which a large 
        number of undocumented aliens reside relative to the general 
        population of that area.
    ``(d) Definitions.--In this section:
            ``(1) Indirect costs.--The term `indirect costs' includes--
                    ``(A) court costs, county attorney costs, detention 
                costs, and criminal proceedings expenditures that do 
                not involve going to trial;
                    ``(B) indigent defense costs; and
                    ``(C) unsupervised probation costs.
            ``(2) State.--The term `State' has the meaning given such 
        term in section 101(a)(36) of the Immigration and Nationality 
        Act (8 U.S.C. 1101(a)(36)).
    ``(e) Authorization of Appropriations.--There are authorized to be 
appropriated $200,000,000 for each of the fiscal years 2008 through 
2012 to carry out subsection (a)(2).''.

SEC. 210. TRANSPORTATION AND PROCESSING OF ILLEGAL ALIENS APPREHENDED 
                    BY STATE AND LOCAL LAW ENFORCEMENT OFFICERS.

    (a) In General.--The Secretary shall provide sufficient 
transportation and officers to take illegal aliens apprehended by State 
and local law enforcement officers into custody for processing at a 
detention facility operated by the Department.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary for each of fiscal years 
2008 through 2012 to carry out this section.

SEC. 211. REDUCING ILLEGAL IMMIGRATION AND ALIEN SMUGGLING ON TRIBAL 
                    LANDS.

    (a) Grants Authorized.--The Secretary may award grants to Indian 
tribes with lands adjacent to an international border of the United 
States that have been adversely affected by illegal immigration.
    (b) Use of Funds.--Grants awarded under subsection (a) may be used 
for--
            (1) law enforcement activities;
            (2) health care services;
            (3) environmental restoration; and
            (4) the preservation of cultural resources.
    (c) Report.--Not later than 180 days after the date of the 
enactment of this Act, the Secretary shall submit a report to the 
Committee on the Judiciary of the Senate and the Committee on the 
Judiciary of the House of Representatives that--
            (1) describes the level of access of Border Patrol agents 
        on tribal lands;
            (2) describes the extent to which enforcement of 
        immigration laws may be improved by enhanced access to tribal 
        lands;
            (3) contains a strategy for improving such access through 
        cooperation with tribal authorities; and
            (4) identifies grants provided by the Department for Indian 
        tribes, either directly or through State or local grants, 
        relating to border security expenses.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary for each of the fiscal years 
2008 through 2012 to carry out this section.

SEC. 212. MANDATORY ADDRESS REPORTING REQUIREMENTS.

    (a) Clarifying Address Reporting Requirements.--Section 265 (8 
U.S.C. 1305) is amended--
            (1) in subsection (a)--
                    (A) by striking ``notify the Attorney General in 
                writing'' and inserting ``submit written or electronic 
                notification to the Secretary of Homeland Security, in 
                a manner approved by the Secretary,'';
                    (B) by striking ``the Attorney General may 
                require'' and inserting ``the Secretary may require''; 
                and
                    (C) by adding at the end the following: ``If the 
                alien is involved in proceedings before an immigration 
                judge or in an administrative appeal of such 
                proceedings, the alien shall submit to the Attorney 
                General the alien's current address and a telephone 
                number, if any, at which the alien may be contacted.'';
            (2) in subsection (b), by striking ``Attorney General'' 
        each place such term appears and inserting ``Secretary of 
        Homeland Security'';
            (3) in subsection (c), by striking ``given to such parent'' 
        and inserting ``given by such parent''; and
            (4) by adding at the end the following:
    ``(d) Address To Be Provided.--
            ``(1) In general.--Except as otherwise provided by the 
        Secretary under paragraph (2), an address provided by an alien 
        under this section shall be the alien's current residential 
        mailing address, and shall not be a post office box or other 
        nonresidential mailing address or the address of an attorney, 
        representative, labor organization, or employer.
            ``(2) Specific requirements.--The Secretary may provide 
        specific requirements with respect to--
                    ``(A) designated classes of aliens and special 
                circumstances, including aliens who are employed at a 
                remote location; and
                    ``(B) the reporting of address information by 
                aliens who are incarcerated in a Federal, State, or 
                local correctional facility.
            ``(3) Detention.--An alien who is being detained by the 
        Secretary under this Act is not required to report the alien's 
        current address under this section during the time the alien 
        remains in detention, but shall be required to notify the 
        Secretary of the alien's address under this section at the time 
        of the alien's release from detention.
    ``(e) Use of Most Recent Address Provided by the Alien.--
            ``(1) In general.--Notwithstanding any other provision of 
        law, the Secretary may provide for the appropriate coordination 
        and cross referencing of address information provided by an 
        alien under this section with other information relating to the 
        alien's address under other Federal programs, including--
                    ``(A) any information pertaining to the alien, 
                which is submitted in any application, petition, or 
                motion filed under this Act with the Secretary of 
                Homeland Security, the Secretary of State, or the 
                Secretary of Labor;
                    ``(B) any information available to the Attorney 
                General with respect to an alien in a proceeding before 
                an immigration judge or an administrative appeal or 
                judicial review of such proceeding;
                    ``(C) any information collected with respect to 
                nonimmigrant foreign students or exchange program 
                participants under section 641 of the Illegal 
                Immigration Reform and Immigrant Responsibility Act of 
                1996 (8 U.S.C. 1372); and
                    ``(D) any information collected from State or local 
                correctional agencies pursuant to the State Criminal 
                Alien Assistance Program.
            ``(2) Reliance.--The Secretary may rely on the most recent 
        address provided by the alien under this section or section 264 
        to send to the alien any notice, form, document, or other 
        matter pertaining to Federal immigration laws, including 
        service of a notice to appear. The Attorney General and the 
        Secretary may rely on the most recent address provided by the 
        alien under section 239(a)(1)(F) to contact the alien about 
        pending removal proceedings.
            ``(3) Obligation.--The alien's provision of an address for 
        any other purpose under the Federal immigration laws does not 
        excuse the alien's obligation to submit timely notice of the 
        alien's address to the Secretary under this section (or to the 
        Attorney General under section 239(a)(1)(F) with respect to an 
        alien in a proceeding before an immigration judge or an 
        administrative appeal of such proceeding).
    ``(f) Requirement for Database.--The Secretary of Homeland Security 
shall establish an electronic database to timely record and preserve 
addresses provided under this section.''.
    (b) Conforming Changes With Respect to Registration Requirements.--
Chapter 7 of title II (8 U.S.C. 1301 et seq.) is amended--
            (1) in section 262(c), by striking ``Attorney General'' and 
        inserting ``Secretary of Homeland Security'';
            (2) in section 263(a), by striking ``Attorney General'' and 
        inserting ``Secretary of Homeland Security''; and
            (3) in section 264--
                    (A) in subsections (a), (b), (c), and (d), by 
                striking ``Attorney General'' each place it appears and 
                inserting ``Secretary of Homeland Security''; and
                    (B) in subsection (f)--
                            (i) by striking ``Attorney General is 
                        authorized'' and inserting ``Secretary of 
                        Homeland Security and Attorney General are 
                        authorized''; and
                            (ii) by striking ``Attorney General or the 
                        Service'' and inserting ``Secretary or the 
                        Attorney General''.
    (c) Effect on Eligibility for Immigration Benefits.--If an alien 
fails to comply with section 262, 263, or 265 of the Immigration and 
Nationality Act (8 U.S.C. 1302, 1303, and 1305) or section 264.1 of 
title 8, Code of Federal Regulations, or removal orders or voluntary 
departure agreements based on any such section for acts committed prior 
to the enactment of this Act such failure shall not affect the 
eligibility of the alien to apply for a benefit under the Immigration 
and Nationality Act (8 U.S.C. 1101 et seq.).
    (d) Technical Amendments.--Section 266 (8 U.S.C. 1306 ) is amended 
by striking ``Attorney General'' each place it appears and inserting 
``Secretary of Homeland Security''.
    (e) Effective Dates.--
            (1) In general.--Except as provided in paragraph (2), the 
        amendments made by this section shall take effect on the date 
        of the enactment of this Act.
            (2) Exceptions.--The amendments made by paragraphs (1)(A), 
        (1)(B), (2), and (3) of subsection (a) shall take effect as if 
        enacted on March 1, 2003.

SEC. 213. STATE AND LOCAL ENFORCEMENT OF FEDERAL IMMIGRATION LAWS.

    (a) In General.--Section 287(g) (8 U.S.C. 1357(g)) is amended--
            (1) in paragraph (2), by adding at the end ``If such 
        training is provided by a State or political subdivision of a 
        State to an officer or employee of such State or political 
        subdivision of a State, the cost of such training (including 
        applicable overtime costs) shall be reimbursed by the Secretary 
        of Homeland Security.''; and
            (2) in paragraph (4), by adding at the end ``The cost of 
        any equipment required to be purchased under such written 
        agreement and necessary to perform the functions under this 
        subsection shall be reimbursed by the Secretary of Homeland 
        Security.''.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary such sums as may be necessary to carry 
out this section and the amendments made by this section.

SEC. 214. INCREASED CRIMINAL PENALTIES RELATED TO DRUNK DRIVING.

    (a) Inadmissibility.--Section 212(a)(2) (8 U.S.C. 1182(a)(2)) is 
amended--
            (1) by redesignating subparagraph (F) as subparagraph (J); 
        and
            (2) by inserting after subparagraph (E) the following:
                    ``(F) Drunk drivers.--Any alien who has been 
                convicted of 3 offenses for driving under the influence 
                and at least 1 of the offenses is a felony under 
                Federal or State law, for which the alien was sentenced 
                to more than 1 year imprisonment, is inadmissible.''.
    (b) Deportability.--Section 237(a)(2) (8 U.S.C. 1227(a)(2)) is 
amended by adding at the end the following:
                    ``(F) Drunk drivers.--Unless the Secretary of 
                Homeland Security or the Attorney General waives the 
                application of this subparagraph, any alien who has 
                been convicted of 3 offenses for driving under the 
                influence and at least 1 of the offenses is a felony 
                under Federal or State law, for which the alien was 
                sentenced to more than 1 year imprisonment, is 
                deportable.''.
    (c) Judicial Advisal.--
            (1) In general.--A court shall not accept a guilty plea for 
        driving under the influence unless the court has administered 
        to the defendant, on the record, the following adivsal:
        ``If you are not a citizen of the United States, you are 
        advised that conviction for driving under the influence, 
        including conviction by entry of any plea, even if the 
        conviction is later expunged, may result in deportation, 
        exclusion from admission to the United States, or denial of 
        naturalization pursuant to the laws of the United States.''.
            (2) Failure to advise.--Upon request, the court shall allow 
        the defendant a reasonable amount of additional time to 
        consider the appropriateness of the plea in light of the 
        advisement set out in paragraph (1). If the court fails to 
        advise the defendant in accordance with paragraph (1) and the 
        defendant shows that conviction of the offense to which the 
        defendant pleaded guilty may result in the defendant's 
        deportation, exclusion from the United States, or denial of 
        naturalization pursuant to the laws of the United States, the 
        court, upon a motion by the defendant, shall vacate the 
        judgment and permit the defendant to withdraw the plea and 
        enter a plea of not guilty. If the record does not show that 
        the court provided the required advisement, it shall be 
        presumed that the defendant did not receive the advisement. The 
        defendant shall not be required to disclose his or her 
        immigration status at any time.
    (d) Conforming Amendment.--Section 212(h) (8 U.S.C. 1182(h)) is 
amended--
            (1) in the subsection heading, by striking ``Subsection 
        (a)(2)(A)(i)(I), (II), (B), (D),and (E)'' and inserting 
        ``Certain Provisions in Subsection (a)(2)''; and
            (2) in the matter preceding paragraph (1), by striking 
        ``and (E)'' and inserting ``(E), and (F)''.
    (e) Effective Date.--The amendments made by this section shall take 
effect on the date of the enactment of this Act and shall apply to 
convictions entered on or after such date.

SEC. 215. LAW ENFORCEMENT AUTHORITY OF STATES AND POLITICAL 
                    SUBDIVISIONS AND TRANSFER TO FEDERAL CUSTODY.

    Title II (8 U.S.C. 1151 et seq.) is amended by adding after section 
240C the following:

``SEC. 240D. LAW ENFORCEMENT AUTHORITY OF STATES AND POLITICAL 
                    SUBDIVISIONS AND TRANSFER OF ALIENS TO FEDERAL 
                    CUSTODY.

    ``(a) Authority.--Notwithstanding any other provision of law, law 
enforcement personnel of a State, or a political subdivision of a 
State, have the inherent authority of a sovereign entity to 
investigate, apprehend, arrest, detain, or transfer to Federal custody 
(including the transportation across State lines to detention centers) 
an alien for the purpose of assisting in the enforcement of the 
criminal provisions of the immigration laws of the United States in the 
normal course of carrying out the law enforcement duties of such 
personnel. This State authority has never been displaced or preempted 
by a Federal law.
    ``(b) Transfer.--If the head of a law enforcement entity of a State 
(or a political subdivision of the State), exercising authority with 
respect to the detention of an alien convicted of a criminal offense, 
submits a request to the Secretary of Homeland Security, the Secretary 
shall--
            ``(1) determine the immigration status of the offender; and
            ``(2) report to the requesting agency whether the 
        Department of Homeland Security intends to take custody of the 
        offender for violations of Federal immigration laws, with an 
        approximate timeframe for the transfer of custody.
    ``(c) Reimbursement.--The Secretary of Homeland Security is 
authorized to use funds appropriated pursuant to the authorization of 
appropriations in section 241(i)(5) to reimburse a State, or a 
political subdivision of a State for activities described in 
subparagraph (a) or (b).
    ``(d) Requirement for Appropriate Security.--The Secretary of 
Homeland Security shall ensure that--
            ``(1) aliens incarcerated in a Federal facility pursuant to 
        this section are held in facilities which provide an 
        appropriate level of security; and
            ``(2) if practicable, aliens detained solely for civil 
        violations of Federal immigration law are separated within a 
        facility or facilities.
    ``(e) Requirement for Schedule.--In carrying out this section, the 
Secretary of Homeland Security shall establish a regular circuit and 
schedule for the prompt transportation of apprehended aliens from the 
custody of those States, and political subdivisions of States, which 
routinely submit requests described in subsection (b), into Federal 
custody.
    ``(f) Authority for Contracts.--
            ``(1) In general.--The Secretary of Homeland Security may 
        enter into contracts or cooperative agreements with appropriate 
        State and local law enforcement and detention agencies to 
        implement this section.
            ``(2) Determination by secretary.--Before entering into a 
        contract or cooperative agreement with a State or political 
        subdivision of a State under paragraph (1), the Secretary shall 
        determine whether the State, or if appropriate, the political 
        subdivision in which the agencies are located, has in place any 
        formal or informal policy that violates section 642 of the 
        Illegal Immigration Reform and Immigrant Responsibility Act of 
        1996 (8 U.S.C. 1373). The Secretary shall not allocate any of 
        the funds made available under this section to any State or 
        political subdivision that has in place a policy that violates 
        such section.
    ``(g) Construction.--Nothing in this section shall be construed to 
require law enforcement personnel of a State or a political subdivision 
to assist in the enforcement of the immigration laws of the United 
States.
    ``(h) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary to carry out this 
section.''.

SEC. 216. LAUNDERING OF MONETARY INSTRUMENTS.

    Section 1956(c)(7)(D) of title 18, United States Code, is amended--
            (1) by inserting ``section 1590 (relating to trafficking 
        with respect to peonage, slavery, involuntary servitude, or 
        forced labor),'' after ``section 1363 (relating to destruction 
        of property within the special maritime and territorial 
        jurisdiction),''; and
            (2) by inserting ``section 274(a) of the Immigration and 
        Nationality Act (8 U.S.C.1324(a)) (relating to bringing in and 
        harboring certain aliens),'' after ``section 590 of the Tariff 
        Act of 1930 (19 U.S.C. 1590) (relating to aviation 
        smuggling),''.

SEC. 217. INCREASE OF FEDERAL DETENTION SPACE AND THE UTILIZATION OF 
                    FACILITIES IDENTIFIED FOR CLOSURES AS A RESULT OF 
                    THE DEFENSE BASE CLOSURE REALIGNMENT ACT OF 1990.

    (a) Construction or Acquisition of Detention Facilities.--
            (1) In general.--Subject to the availability of 
        appropriations, the Secretary shall construct or acquire, in 
        addition to existing facilities for the detention of aliens, at 
        least 20 detention facilities in the United States that have 
        the capacity to detain a combined total of not less than 20,000 
        individuals at any time for aliens detained pending removal or 
        a decision on removal of such aliens from the United States.
            (2) Requirement to construct or acquire.--Subject to the 
        availability of appropriations, the Secretary shall construct 
        or acquire additional detention facilities in the United States 
        to accommodate the detention beds required by section 5204(a) 
        of the Intelligence Reform and Terrorism Protection Act of 2004 
        (Public Law 108-458; 118 Stat. 3734).
            (3) Use of alternate detention facilities.--Subject to the 
        availability of appropriations, the Secretary shall fully 
        utilize all possible options to cost effectively increase 
        available detention capacities, and shall utilize detention 
        facilities that are owned and operated by the Federal 
        Government if the use of such facilities is cost effective.
            (4) Use of installations under base closure laws.--In 
        acquiring additional detention facilities under this 
        subsection, the Secretary shall consider the transfer of 
        appropriate portions of military installations approved for 
        closure or realignment under the Defense Base Closure and 
        Realignment Act of 1990 (part A of title XXIX of Public Law 
        101-510; 10 U.S.C. 2687 note) for use in accordance with this 
        subsection.
            (5) Determination of location.--The location of any 
        detention facility constructed or acquired in accordance with 
        this subsection shall be determined, with the concurrence of 
        the Secretary, by the senior officer responsible for Detention 
        and Removal Operations in the Department. The detention 
        facilities shall be located so as to enable the officers and 
        employees of the Department to increase to the maximum extent 
        practicable the annual rate and level of removals of illegal 
        aliens from the United States.
    (b) Annual Report to Congress.--Not later than 1 year after the 
date of the enactment of this Act, and annually thereafter, in 
consultation with the heads of other appropriate Federal agencies, the 
Secretary shall submit to Congress an assessment of the additional 
detention facilities and bed space needed to detain unlawful aliens 
apprehended at the United States ports of entry or along the 
international land borders of the United States.
    (c) Technical and Conforming Amendment.--Section 241(g)(1) (8 
U.S.C. 1231(g)(1)) is amended by striking ``may expend'' and inserting 
``shall expend''.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary to carry out this section.

SEC. 218. DETERMINATION OF IMMIGRATION STATUS OF INDIVIDUALS CHARGED 
                    WITH FEDERAL OFFENSES.

    (a) Responsibility of United States Attorneys.--Beginning not later 
than 2 years after the date of enactment of this Act, the office of the 
United States Attorney that is prosecuting a criminal case in a Federal 
court--
            (1) shall determine, not later than 30 days after filing 
        the initial pleadings in the case, whether each defendant in 
        the case is lawfully present in the United States (subject to 
        subsequent legal proceedings to determine otherwise);
            (2)(A) if the defendant is determined to be an alien 
        lawfully present in the United States, shall notify the court 
        in writing of the determination and the current status of the 
        alien under the Immigration and Nationality Act (8 U.S.C. 1101 
        et seq.); and
            (B) if the defendant is determined not to be lawfully 
        present in the United States, shall notify the court in writing 
        of the determination, the defendant's alien status, and, to the 
        extent possible, the country of origin or legal residence of 
        the defendant;
            (3) ensure that the information described in paragraph (2) 
        is included in the case file and the criminal records system of 
        the office of the United States attorney; and
            (4) provide notice to the alien and the counsel for the 
        alien of any such determination and any such submission to the 
        court.
    (b) Guidelines.--A determination made under subsection (a)(1) shall 
be made in accordance with guidelines of the Executive Office for 
Immigration Review of the Department of Justice.
    (c) Responsibilities of Federal Courts.--
            (1) Modifications of records and case managements 
        systems.--Not later than 2 years after the date of enactment of 
        this Act, all Federal courts that hear criminal cases, or 
        appeals of criminal cases, shall modify their criminal records 
        and case management systems, in accordance with guidelines 
        which the Director of the Administrative Office of the United 
        States Courts shall establish, so as to enable accurate 
        reporting of information described in subsection (a)(2).
            (2) Data entries.--Beginning not later than 2 years after 
        the date of enactment of this Act, each Federal court described 
        in paragraph (1) shall enter into its electronic records the 
        information contained in each notification to the court under 
        subsection (a)(2).
    (d) Construction.--Nothing in this section may be construed to 
provide a basis for admitting evidence to a jury or releasing 
information to the public regarding an alien's immigration status.
    (e) Annual Report to Congress.--The Director of the Administrative 
Office of the United States Courts shall include, in the annual report 
filed with Congress under section 604 of title 28, United States Code--
            (1) statistical information on criminal trials of aliens in 
        the courts and criminal convictions of aliens in the lower 
        courts and upheld on appeal, including the type of crime in 
        each case and including information on the legal status of the 
        aliens; and
            (2) recommendations on whether additional court resources 
        are needed to accommodate the volume of criminal cases brought 
        against aliens in the Federal courts.
    (f) Authorization of Appropriations.--
            (1) In general.--There are authorized to be appropriated 
        for each of fiscal years 2008 through 2012, such sums as may be 
        necessary to carry out this section.
            (2) Availability of funds.--Funds appropriated pursuant to 
        the authorization of appropriations in this subsection in any 
        fiscal year shall remain available until expended.

SEC. 219. EXPANSION OF THE JUSTICE PRISONER AND ALIEN TRANSFER SYSTEM.

    Not later than 60 days after the date of enactment of this Act, the 
Attorney General shall issue a directive to expand the Justice Prisoner 
and Alien Transfer System so that such System provides additional 
services with respect to aliens who are illegally present in the United 
States. Such expansion should include--
            (1) increasing the daily operations of such System with 
        buses and air hubs in 3 geographic regions;
            (2) allocating a set number of seats for such aliens for 
        each metropolitan area;
            (3) allowing metropolitan areas to trade or give some of 
        the seats allocated to the area under such System for such 
        aliens to other areas in their region based on the 
        transportation needs of each area; and
            (4) requiring an annual report that analyzes the number of 
        seats that each metropolitan area is allocated under such 
        System for such aliens and modifies such allocation if 
        necessary.

SEC. 220. CANCELLATION OF VISAS.

    Section 222(g) (8 U.S.C. 1202(g)) is amended--
            (1) in paragraph (1)--
                    (A) by striking ``Attorney General'' and inserting 
                ``Secretary of Homeland Security''; and
                    (B) by inserting ``and any other nonimmigrant visa 
                issued by the United States that is in the possession 
                of the alien'' after ``such visa''; and
            (2) in paragraph (2)(A), by striking ``(other than the visa 
        described in paragraph (1)) issued in a consular office located 
        in the country of the alien's nationality'' and inserting 
        ``(other than a visa described in paragraph (1)) issued in a 
        consular office located in the country of the alien's 
        nationality or foreign residence''.

                 Subtitle B--Passport and Visa Security

SEC. 221. REFORM OF PASSPORT FRAUD OFFENSES.

    (a) Trafficking in Passports.--Section 1541 of title 18, United 
States Code, is amended to read as follows:

``Sec. 1541. Trafficking in passports

    ``(a) Multiple Passports.--Any person who, during any period of 3 
years or less, knowingly--
            ``(1) and without lawful authority produces, issues, or 
        transfers 10 or more passports;
            ``(2) forges, counterfeits, alters, or falsely makes 10 or 
        more passports;
            ``(3) secures, possesses, uses, receives, buys, sells, or 
        distributes 10 or more passports, knowing the passports to be 
        forged, counterfeited, altered, falsely made, stolen, procured 
        by fraud, or produced or issued without lawful authority; or
            ``(4) completes, mails, prepares, presents, signs, or 
        submits 10 or more applications for a United States passport, 
        knowing the applications to contain any false statement or 
        representation,
shall be fined under this title, imprisoned not more than 20 years, or 
both.
    ``(b) Passport Materials.--Any person who knowingly and without 
lawful authority produces, buys, sells, possesses, or uses any official 
material (or counterfeit of any official material) used to make a 
passport, including any distinctive paper, seal, hologram, image, text, 
symbol, stamp, engraving, or plate, shall be fined under this title, 
imprisoned not more than 20 years, or both.''.
    (b) False Statement in an Application for a Passport.--Section 1542 
of title 18, United States Code, is amended to read as follows:

``Sec. 1542. False statement in an application for a passport

    ``(a) In General.--Whoever knowingly makes any false statement or 
representation in an application for a United States passport, or 
mails, prepares, presents, or signs an application for a United States 
passport knowing the application to contain any false statement or 
representation, shall be fined under this title, imprisoned not more 
than 15 years, or both.
    ``(b) Venue.--
            ``(1) In general.--An offense under subsection (a) may be 
        prosecuted in any district--
                    ``(A) in which the false statement or 
                representation was made or the application for a United 
                States passport was prepared or signed; or
                    ``(B) in which or to which the application was 
                mailed or presented.
            ``(2) Acts occurring outside the united states.--An offense 
        under subsection (a) involving an application for a United 
        States passport prepared and adjudicated outside the United 
        States may be prosecuted in the district in which the resultant 
        passport was or would have been produced.
    ``(c) Savings Clause.--Nothing in this section may be construed to 
limit the venue otherwise available under sections 3237 and 3238 of 
this title.''.
    (c) Forgery and Unlawful Production of a Passport.--Section 1543 of 
title 18, United States Code, is amended to read as follows:

``Sec. 1543. Forgery and unlawful production of a passport

    ``(a) Forgery.--Any person who knowingly--
            ``(1) forges, counterfeits, alters, or falsely makes any 
        passport; or
            ``(2) transfers any passport knowing it to be forged, 
        counterfeited, altered, falsely made, stolen, or to have been 
        produced or issued without lawful authority,
shall be fined under this title, imprisoned not more than 15 years, or 
both.
    ``(b) Unlawful Production.--Any person who knowingly and without 
lawful authority--
            ``(1) produces, issues, authorizes, or verifies a passport 
        in violation of the laws, regulations, or rules governing the 
        issuance of the passport;
            ``(2) produces, issues, authorizes, or verifies a United 
        States passport for or to any person knowing or in reckless 
        disregard of the fact that such person is not entitled to 
        receive a passport; or
            ``(3) transfers or furnishes a passport to any person for 
        use by any person other than the person for whom the passport 
        was issued or designed,
shall be fined under this title, imprisoned not more than 15 years, or 
both.''.
    (d) Misuse of a Passport.--Section 1544 of title 18, United States 
Code, is amended to read as follows:

``Sec. 1544. Misuse of a passport

    ``Any person who knowingly--
            ``(1) uses any passport issued or designed for the use of 
        another;
            ``(2) uses any passport in violation of the conditions or 
        restrictions therein contained, or in violation of the laws, 
        regulations, or rules governing the issuance and use of the 
        passport;
            ``(3) secures, possesses, uses, receives, buys, sells, or 
        distributes any passport knowing it to be forged, 
        counterfeited, altered, falsely made, procured by fraud, or 
        produced or issued without lawful authority; or
            ``(4) violates the terms and conditions of any safe conduct 
        duly obtained and issued under the authority of the United 
        States,
shall be fined under this title, imprisoned not more than 15 years, or 
both.''.
    (e) Schemes to Defraud Aliens.--Section 1545 of title 18, United 
States Code, is amended to read as follows:

``Sec. 1545. Schemes to defraud aliens

    ``(a) In General.--Any person who knowingly executes a scheme or 
artifice, in connection with any matter that is authorized by or arises 
under Federal immigration laws or any matter the offender claims or 
represents is authorized by or arises under Federal immigration laws, 
to--
            ``(1) defraud any person; or
            ``(2) obtain or receive money or anything else of value 
        from any person by means of false or fraudulent pretenses, 
        representations, or promises,
shall be fined under this title, imprisoned not more than 15 years, or 
both.
    ``(b) Misrepresentation.--Any person who knowingly and falsely 
represents that such person is an attorney or an accredited 
representative (as that term is defined in section 1292.1 of title 8, 
Code of Federal Regulations (or any successor regulation to such 
section)) in any matter arising under Federal immigration laws shall be 
fined under this title, imprisoned not more than 15 years, or both.''.
    (f) Immigration and Visa Fraud.--Section 1546 of title 18, United 
States Code, is amended--
            (1) by amending the section heading to read as follows:

``Sec. 1546. Immigration and visa fraud'';

        and
            (2) by striking subsections (b) and (c) and inserting the 
        following:
    ``(b) In General.--Any person who knowingly--
            ``(1) uses any immigration document issued or designed for 
        the use of another;
            ``(2) forges, counterfeits, alters, or falsely makes any 
        immigration document;
            ``(3) completes, mails, prepares, presents, signs, or 
        submits any immigration document knowing it to contain any 
        materially false statement or representation;
            ``(4) secures, possesses, uses, transfers, receives, buys, 
        sells, or distributes any immigration document knowing it to be 
        forged, counterfeited, altered, falsely made, stolen, procured 
        by fraud, or produced or issued without lawful authority;
            ``(5) adopts or uses a false or fictitioius name to evade 
        or to attempt to evade the immigration laws; or
            ``(6) transfers or furnishes, without lawful authority, an 
        immigration document to another person for use by a person 
        other than the person for whom the pasport was issued or 
        disgned,
shall be fined under this title, imprisoned not more 15 years, or both.
    ``(c) Trafficking.--Any person who, during any period of 3 years or 
less, knowingly--
            ``(1) and without lawful authority produces, issues, or 
        transfers 10 or more immigration documents;
            ``(2) forges, counterfeits, alters, or falsely makes 10 or 
        more immigration documents;
            ``(3) secures, possesses, uses, buys, sells, or distributes 
        10 or more immigration documents, knowing the immigration 
        documents to be forged, counterfeited, altered, stolen, falsely 
        made, procured by fraud, or produced or issued without lawful 
        authority; or
            ``(4) completes, mails, prepares, presents, signs, or 
        submits 10 or more immigration documents knowing the documents 
        to contain any materially false statement or representation,
shall be fined under this title, imprisoned not more than 20 years, or 
both.
    ``(d) Immigration Document Materials.--Any person who knowingly and 
without lawful authority produces, buys, sells, possesses, or uses any 
official material (or counterfeit of any official material) used to 
make immigration documents, including any distinctive paper, seal, 
hologram, image, text, symbol, stamp, engraving, or plate, shall be 
fined under this title, imprisoned not more than 20 years, or both.
    ``(e) Employment Documents.--Any person who uses--
            ``(1) an identification document, knowing (or having reason 
        to know) that the document was not issued lawfully for the use 
        of the possessor;
            ``(2) an identification document knowing (or having reason 
        to know) that the document is false; or
            ``(3) a false attestation,
for the purpose of satisfying a requirement of section 274A(b) of the 
Immigration and Nationality Act (8 U.S.C. 1324a(b)), shall be fined 
under this title, imprisoned not more than 5 years, or both.''.
    (g) Alternative Imprisonment Maximum for Certain Offenses.--Section 
1547 of title 18, United States Code, is amended--
            (1) in the matter preceding paragraph (1), by striking 
        ``(other than an offense under section 1545)'';
            (2) in paragraph (1), by striking ``15'' and inserting 
        ``20''; and
            (3) in paragraph (2), by striking ``20'' and inserting 
        ``25''.
    (h) Attempts, Conspiracies, Jurisdiction, and Definitions.--Chapter 
75 of title 18, United States Code, is amended by adding after section 
1547 the following:

``Sec. 1548. Attempts and conspiracies

    ``Any person who attempts or conspires to violate any section of 
this chapter shall be punished in the same manner as a person who 
completed a violation of that section.

``Sec. 1549. Additional jurisdiction

    ``(a) In General.--Any person who commits an offense under this 
chapter within the special maritime and territorial jurisdiction of the 
United States shall be punished as provided under this chapter.
    ``(b) Extraterritorial Jurisdiction.--Any person who commits an 
offense under this chapter outside the United States shall be punished 
as provided under this chapter if--
            ``(1) the offense involves a United States passport or 
        immigration document (or any document purporting to be such a 
        document) or any matter, right, or benefit arising under or 
        authorized by Federal immigration laws;
            ``(2) the offense is in or affects foreign commerce;
            ``(3) the offense affects, jeopardizes, or poses a 
        significant risk to the lawful administration of Federal 
        immigration laws, or the national security of the United 
        States;
            ``(4) the offense is committed to facilitate an act of 
        international terrorism (as defined in section 2331) or a drug 
        trafficking crime (as defined in section 929(a)(2)) that 
        affects or would affect the national security of the United 
        States;
            ``(5) the offender is a national of the United States or an 
        alien lawfully admitted for permanent residence (as those terms 
        are defined in section 101(a) of the Immigration and 
        Nationality Act (8 U.S.C. 1101(a))); or
            ``(6) the offender is a stateless person whose habitual 
        residence is in the United States.

``Sec. 1550. Authorized law enforcement activities

    ``Nothing in this chapter shall prohibit any lawfully authorized 
investigative, protective, or intelligence activity of a law 
enforcement agency of the United States, a State, or a political 
subdivision of a State, or an intelligence agency of the United States, 
or any activity authorized under title V of the Organized Crime Control 
Act of 1970 (Public Law 91-452; 84 Stat. 933).

``Sec. 1551. Definitions

    ``As used in this chapter:
            ``(1) The term `application for a United States passport' 
        includes any document, photograph, or other piece of evidence 
        submitted in support of an application for a United States 
        passport.
            ``(2) The term `immigration document'--
                    ``(A) means any application, petition, affidavit, 
                declaration, attestation, form, visa, identification 
                card, alien registration document, employment 
                authorization document, border crossing card, 
                certificate, permit, order, license, stamp, 
                authorization, grant of authority, or other official 
                document, arising under or authorized by the 
                immigration laws of the United States; and
                    ``(B) includes any document, photograph, or other 
                piece of material evidence attached or submitted in 
                support of an immigration document described in 
                subparagraph (A).
            ``(3) The term `immigration laws' includes--
                    ``(A) the laws described in section 101(a)(17) of 
                the Immigration and Nationality Act (8 U.S.C. 
                1101(a)(17));
                    ``(B) the laws relating to the issuance and use of 
                passports; and
                    ``(C) the regulations prescribed under the 
                authority of any law described in subparagraph (A) or 
                (B).
            ``(4) A person does not exercise `lawful authority' if the 
        person abuses or improperly exercises lawful authority the 
        person otherwise holds.
            ``(5) The term `passport' means--
                    ``(A) a travel document attesting to the identity 
                and nationality of the bearer that is issued under the 
                authority of the Secretary of State, a foreign 
                government, or an international organization; or
                    ``(B) any instrument purporting to be a document 
                described in subparagraph (A).
            ``(6) The term `produce' means to make, prepare, assemble, 
        issue, print, authenticate, or alter.
            ``(7) The term `to present' means to offer or submit for 
        official processing, examination, or adjudication. Any such 
        presentation continues until the official processing, 
        examination, or adjudication is complete.
            ``(8) The `use' of a passport or an immigration document 
        referred to in section 1541(a), 1543(b), 1544, 1546(a), and 
        1546(b) of this chapter includes--
                    ``(A) any officially authorized use;
                    ``(B) use to travel;
                    ``(C) use to demonstrate identity, residence, 
                nationality, citizenship, or immigration status;
                    ``(D) use to seek or maintain employment; or
                    ``(E) use in any matter within the jurisdiction of 
                the Federal government or of a State government.''.
    (i) Clerical Amendment.--The table of sections for chapter 75 of 
title 18, United States Code, is amended to read as follows:

    ``Sec.
    ``1541. Trafficking in passports.
    ``1542. False statement in an application for a passport.
    ``1543. Forgery and unlawful production of a passport.
    ``1544. Misuse of a passport.
    ``1545. Schemes to defraud aliens.
    ``1546. Immigration and visa fraud.
    ``1547. Alternative imprisonment maximum for certain offenses.
    ``1548. Attempts and conspiracies.
    ``1549. Additional jurisdiction.
    ``1550. Authorized law enforcement activities.
    ``1551. Definitions.''.

SEC. 222. OTHER IMMIGRATION REFORMS.

    (a) Directive to the United States Sentencing Commission.--
            (1) In general.--Pursuant to the authority under section 
        994 of title 28, United States Code, the United States 
        Sentencing Commission shall promulgate or amend the sentencing 
        guidelines, policy statements, and official commentaries 
        related to passport fraud offenses, including the offenses 
        described in chapter 75 of title 18, United States Code, as 
        amended by section 221, to reflect the serious nature of such 
        offenses.
            (2) Report.--Not later than 1 year after the date of the 
        enactment of this Act, the United States Sentencing Commission 
        shall submit to the Committee on the Judiciary of the Senate 
        and the Committee on the Judiciary of the House of 
        Representatives a report on the implementation of this 
        subsection.
    (b) Release and Detention Prior to Disposition.--
            (1) Detention.--Section 3142(e) of title 18, United States 
        Code, is amended to read as follows:
    ``(e) Detention.--(1) If, after a hearing pursuant to the 
provisions of subsection (f) of this section, the judicial officer 
finds that no condition or combination of conditions will reasonably 
assure the appearance of the person as required and the safety of any 
other person and the community, such judicial officer shall order the 
detention of the person before trial.
    ``(2) In a case described in subsection (f)(1) of this section, a 
rebuttable presumption arises that no condition or combination of 
conditions will reasonably assure the safety of any other person and 
the community if such judicial officer finds that--
            ``(A) the person has been convicted of a Federal offense 
        that is described in subsection (f)(1) of this section, or of a 
        State or local offense that would have been an offense 
        described in subsection (f)(1) of this section if a 
        circumstance giving rise to Federal jurisdiction had existed;
            ``(B) the offense described in subparagraph (A) of this 
        paragraph was committed while the person was on release pending 
        trial for a Federal, State, or local offense; and
            ``(C) a period of not more than five years has elapsed 
        since the date of conviction, or the release of the person from 
        imprisonment, for the offense described in subparagraph (A) of 
        this paragraph, whichever is later.
    ``(3) Subject to rebuttal by the person, it shall be presumed that 
no condition or combination of conditions will reasonably assure the 
appearance of the person as required and the safety of the community if 
the judicial officer finds that there is probable cause to believe that 
the person committed an offense for which a maximum term of 
imprisonment of ten years or more is prescribed in the Controlled 
Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances 
Import and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 
46, an offense under section 924(c), 956(a), or 2332b of this title, or 
an offense listed in section 2332b(g)(5)(B) of this title for which a 
maximum term of imprisonment of 10 years or more is prescribed, or an 
offense involving a minor victim under section 1201, 1591, 2241, 2242, 
2244(a)(1), 2245, 2251, 2251A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 
2252A(a)(1), 2252A(a)(2), 2252A(a)(3), 2252A(a)(4), 2260, 2421, 2422, 
2423, or 2425 of this title.''.
    (c) Protection for Legitimate Refugees and Asylum Seekers.--
            (1) Protection for legitimate refugees and asylum 
        seekers.--The Attorney General, in consultation with the 
        Secretary of Homeland Security, shall develop binding 
        prosecution guidelines for Federal prosecutors to ensure that 
        any prosecution of an alien seeking entry into the United 
        States by fraud is consistent with the United States treaty 
        obligations under Article 31(1) of the Convention Relating to 
        the Status of Refugees, done at Geneva July 28, 1951 (as made 
        applicable by the Protocol Relating to the Status of Refugees, 
        done at New York January 31, 1967 (19 UST 6223)).
            (2) No private right of action.--The guidelines developed 
        pursuant to paragraph (1), and any internal office procedures 
        related to such guidelines, are intended solely for the 
        guidance of attorneys of the United States. This subsection, 
        such guidelines, and the process for developing such guidelines 
        are not intended to, do not, and may not be relied upon to 
        create any right or benefit, substantive or procedural, 
        enforceable at law by any party in any administrative, civil, 
        or criminal matter.
            (3) Waiver.--The Secretary may grant a waiver from 
        prosecution under chapter 75 of title 18, United States Code, 
        as amended by section 211 of this Act, to a person--
                    (A) seeking protection, classification, or status 
                under section 208 or 241(b)(3) of the Immigration and 
                Nationality Act, or relief under the Convention against 
                Torture and Other Cruel, Inhuman or Degrading Treatment 
                or Punishment done at New York, December 10, 1994, 
                pursuant to title 8, Code of Federal Regulations;
                    (B) referred for a credible fear interview, a 
                reasonable fear interview, or an asylum-only hearing 
                under section 235 of the Immigration and Nationality 
                Act or title 8, Code of Federal Regulations; or
                    (C) has filed an application for classification or 
                status under paragraph (15)(T), (15)(U), (27)(J), or 
                (51) of section 101(a) of the Immigration and 
                Nationality Act, section 216(c)(4)(C), 240A(b)(2), or 
                section 244(a)(3) of such Act.
    (d) Diplomatic Security Service.--Section 37(a)(1) of the State 
Department Basic Authorities Act of 1956 (22 U.S.C. 2709(a)(1)) is 
amended to read as follows:
            ``(1) conduct investigations concerning--
                    ``(A) illegal passport or visa issuance or use;
                    ``(B) identity theft or document fraud affecting or 
                relating to the programs, functions, and authorities of 
                the Department of State;
                    ``(C) violations of chapter 77 of title 18, United 
                States Code; and
                    ``(D) Federal offenses committed within the special 
                maritime and territorial jurisdiction defined in 
                paragraph (9) of section 7 of title 18, United States 
                Code;''.

  Subtitle C--Detention and Removal of Aliens Who Illegally Enter or 
                      Remain in the United States

SEC. 231. DETENTION AND REMOVAL OF ALIENS ORDERED REMOVED.

    (a) In General.--Section 241(a) (8 U.S.C. 1231(a)) is amended--
            (1) in paragraph (1)(A), by striking ``Attorney General'' 
        and inserting ``Secretary of Homeland Security'';
            (2) in paragraphs (3), (4), (5), (6), and (7), by striking 
        ``Attorney General'' each place it appears and inserting 
        ``Secretary'';
            (3) in paragraph (1)--
                    (A) by amending subparagraph (C) to read as 
                follows:
                    ``(C) Extension of removal period.--
                            ``(i) In general.--The Secretary shall 
                        extend the removal period for more than a 
                        period of 90 days and the alien may remain in 
                        detention during such extended period if, 
                        during the removal period--
                                    ``(I) the alien--
    ``(aa) fails or refuses to make timely application in good faith 
    for travel or other documents necessary for the alien to depart the 
    United States; or
    ``(bb) conspires or acts to prevent the removal of the alien 
    subject to an order of removal; and
                                    ``(II) the Secretary makes a 
                                certification described in paragraph 
                                (8)(B) for such alien.
                            ``(ii) Stay of removal.--An alien seeking a 
                        stay of removal from an immigration judge, a 
                        Federal judge, or the Board of Immigration 
                        Appeals shall not be deemed under any provision 
                        of law to be conspiring or acting to prevent 
                        the removal of the alien.
                            ``(iii) Review.--The procedures described 
                        in paragraph (8)(E) shall apply to actions 
                        taken under this subparagraph.''; and
                    (B) by adding at the end the following:
                    ``(D) Tolling of period.--If, at the time described 
                in clause (i), (ii), or (iii) of subparagraph (B), the 
                alien is not in the custody of the Secretary under the 
                authority of this Act, the removal period shall not 
                begin until the alien is taken into such custody. If 
                the Secretary lawfully transfers custody of the alien 
                during the removal period to another Federal agency or 
                to a State or local government agency in connection 
                with the official duties of such agency, the removal 
                period shall be tolled until the date on which the 
                alien is returned to the custody of the Secretary.'';
            (4) by amending paragraph (2) to read as follows:
            ``(2) Detention.--During the removal period, the Secretary 
        shall detain the alien. Under no circumstances during the 
        removal period shall the Secretary release an alien who has 
        been found inadmissible under section 212(a)(2) or 212(a)(3)(B) 
        or deportable under section 237(a)(2) or 1227(a)(4)(B). If a 
        court, the Board of Immigration Appeals, or an immigration 
        judge orders a stay of removal of an alien who is subject to an 
        administratively final order of removal, the Secretary, in the 
        exercise of discretion, may detain or supervise the alien 
        during the pendency of such stay of removal, subject to the 
        limitations set forth in subparagraphs (3), (6), and (8).'';
            (5) in paragraph (3)--
                    (A) in the matter preceding subparagraph (A), by 
                striking ``If'' and inserting ``Subject to the 
                requirements of paragraphs (6) and (8), if''; and
                    (B) by striking subparagraph (D) and inserting the 
                following:
                    ``(D) to obey reasonable restrictions on the 
                alien's conduct or activities, or to perform 
                affirmative acts prescribed by the Secretary--
                            ``(i) to prevent the alien from absconding; 
                        or
                            ``(ii) to protect the community;
                    ``(E) if appropriate--
                            ``(i) to utilize an electronic monitoring 
                        device;
                            ``(ii) to complete parole and probation 
                        requirements for aliens with outstanding 
                        obligations under Federal or State law; and
                    ``(F) to comply with any other conditions of such 
                supervision that the Secretary determines is 
                appropriate.'';
            (6) in paragraph (6), by inserting ``, subject to the 
        provisions of paragraph (8)'' after ``beyond the removal 
        period'';
            (7) by redesignating paragraph (7) as paragraph (11);
            (8) by inserting after paragraph (6) the following:
            ``(7) Parole.--
                    ``(A) In general.--If an alien detained pursuant to 
                paragraph (6) is an applicant for admission and is 
                released from detention, such release shall be 
                considered to be made as an exercise of the Secretary's 
                parole authority under 212(d)(5). Notwithstanding 
                section 212(d)(5), the Secretary may provide that the 
                alien shall not be returned to custody unless--
                            ``(i) the alien violates the conditions of 
                        the alien's parole under this section;
                            ``(ii) the alien's removal becomes 
                        reasonably foreseeable; or
                            ``(iii) the alien violates the conditions 
                        set out in paragraph (3).
                    ``(B) Not an admission.--Under no circumstance 
                shall an alien paroled under this section be considered 
                admitted to the United States.
            ``(8) Additional rules for detention or release of aliens 
        beyond removal period.--
                    ``(A) Detention after removal period.--The 
                Secretary is authorized to detain an alien who has 
                effected an entry into the United States--
                            ``(i) for not more than 90 days beyond the 
                        removal period if the Secretary is seeking to 
                        make a certification described in subparagraph 
                        (B) for the alien; or
                            ``(ii) for more than 90 days beyond the 
                        removal period if the Secretary has made a 
                        certification described in subparagraph (B) for 
                        the alien, subject to the conditions set out in 
                        this paragraph.
                    ``(B) Certification.--A certification described in 
                this subparagraph is a written certification made by 
                the Secretary in which the Secretary determines--
                            ``(i) that the alien is significantly 
                        likely to be removed in the reasonably 
                        foreseeable future;
                            ``(ii) that the alien has failed to make a 
                        timely application, in good faith, for travel 
                        documents or has otherwise conspired or acted 
                        to prevent the removal of the alien;
                            ``(iii) that the alien would have been 
                        removed if the alien had not--
                                    ``(I) failed or refused to make all 
                                reasonable efforts to comply with the 
                                removal order;
                                    ``(II) failed or refused to fully 
                                cooperate with the efforts of the 
                                Secretary to establish the alien's 
                                identity and carry out the removal 
                                order, including failing to submit a 
                                timely application, in good faith, for 
                                travel or other documents necessary for 
                                the alien's departure from the United 
                                States; or
                                    ``(III) conspired or acted to 
                                prevent such removal;
                            ``(iv) in consultation with the Secretary 
                        of Health and Human Services, that the alien 
                        has a highly contagious disease that poses a 
                        threat to public safety, in which case the 
                        alien may be quarantined in a civil medical 
                        facility;
                            ``(v) on the basis of information available 
                        to the Secretary (including classified and 
                        national security information), regardless of 
                        the grounds upon which the alien was ordered 
                        removed and pursuant to a written certification 
                        under section 236A, that there is reason to 
                        believe that the release of the alien would 
                        threaten the national security of the United 
                        States; or
                            ``(vi) that the release of the alien would 
                        threaten the safety of the community, 
                        notwithstanding conditions of release designed 
                        to ensure the safety of the community or any 
                        person and the alien--
                                    ``(I) has been convicted of 1 or 
                                more aggravated felonies (as defined in 
                                section 101(a)(43)(A)), or of 1 or more 
                                attempts or conspiracies to commit any 
                                such aggravated felonies for which the 
                                alien served an aggregate term of 
                                imprisonment of at least 5 years and 
                                the alien is likely to engage in acts 
                                of violence in the future; or
                                    ``(II) because of a mental 
                                condition or personality disorder 
                                (certified under section 232(b)) and 
                                behavior associated with that condition 
                                or disorder, is likely to engage in 
                                acts of violence in the future, in 
                                which case the alien may be referred 
                                for review and evaluation for civil 
                                commitment pursuant to the civil 
                                commitment statute of the State in 
                                which the alien resides.
                    ``(C) Delegation.--Notwithstanding any other 
                provision of law, the Secretary may not delegate the 
                authority to make a certification described in 
                subparagraph (B) to any official lower than the 
                Assistant Secretary for Immigration and Customs 
                Enforcement.
                    ``(D) Administrative review.--
                            ``(i) In general.--The Secretary shall 
                        establish an administrative review process to 
                        permit an alien to appeal a decision by the 
                        Secretary to detain the alien after the removal 
                        period under subparagraph (A) or to extend the 
                        removal period for the alien under paragraph 
                        (1)(C).
                            ``(ii) Review.--An immigration judge shall 
                        review a determination by the Secretary to 
                        detain an alien under subparagraph (A) or 
                        paragraph (1)(C). An immigration judge shall 
                        uphold such determination of the Secretary if 
                        the Secretary establishes at a hearing, by 
                        clear and convincing evidence, that such 
                        detention is authorized under subparagraph (A) 
                        or paragraph (1)(C). In making this 
                        determination, the court shall disclose, if 
                        otherwise discoverable, to the alien, the 
                        counsel of the alien, or both, under procedures 
                        and standards set forth in the Classified 
                        Information Procedures Act (18 U.S.C. App.), 
                        any evidence that the Secretary relied on in 
                        making a determination under this section 
                        unless the court finds that such disclosure 
                        would not assist in determining any legal or 
                        factual issue pertinent to the case. The 
                        decision of the immigration judge shall not be 
                        subject to appeal, but shall be reviewable in a 
                        habeas corpus proceeding under section 2241 of 
                        title 28, United States Code.
                    ``(E) Renewal of extended detention.--
                            ``(i) Renewal of detention.--The Secretary 
                        may renew a certification under subparagraph 
                        (B) every 180 days after providing the alien 
                        with an opportunity to submit documents or 
                        other evidence in support of release. Unless 
                        the Secretary determines that continued 
                        detention under subparagraph (A) or paragraph 
                        (1)(C) is warranted, the Secretary shall 
                        release the alien subject to the conditions of 
                        supervision described in paragraph (3).
                            ``(ii) Review.--Any renewal of a 
                        certification under clause (i) shall be subject 
                        to review as described in subparagraph (E) and 
                        any such review shall be completed before the 
                        date that is 180 days after the date the 
                        alien's detention was continued under 
                        subparagraph (A) or paragraph (1)(C) or the 
                        date of the previous renewal of such detention 
                        under clause (i).
                    ``(F) Applicability.--This paragraph and paragraphs 
                (6) and (7) shall apply to any alien returned to 
                custody under paragraph (9) as if the removal period 
                terminated on the day of the redetention.
            ``(9) Redetention.--The Secretary may not detain any alien 
        subject to a final removal order who has previously been 
        released from custody unless--
                    ``(A) the alien fails to comply with the conditions 
                of departure applicable to the alien;
                    ``(B) the alien fails to continue to satisfy the 
                conditions of supervision under paragraph (3); or
                    ``(C) upon reconsideration, the Secretary makes a 
                certification for the alien described in paragraph 
                (8)(B).
            ``(10) Judicial review.--Without regard to the place of 
        confinement, judicial review of any action or decision made 
        pursuant to paragraph (6), (7), or (8) shall be available 
        exclusively in a habeas corpus proceeding brought in a United 
        States district court in the judicial district in which the 
        alien is detained or in which the alien's removal proceeding 
        was initiated.''.
    (b) Effective Date.--The amendments made by this section--
            (1) shall take effect on the date of the enactment of this 
        Act; and
            (2) shall apply to--
                    (A) any alien subject to a final administrative 
                removal, deportation, or exclusion order that was 
                issued before, on, or after the date of the enactment 
                of this Act; and
                    (B) any act or condition occurring or existing 
                before, on, or after the date of the enactment of this 
                Act.

SEC. 232. INCREASED CRIMINAL PENALTIES FOR IMMIGRATION VIOLATIONS.

    (a) Pending Proceedings.--Section 204(b) (8 U.S.C. 1154(b)) is 
amended by adding at the end ``A petition may not be approved under 
this section if the petitioner has been found removable from the United 
States.''.
    (b) Conditional Permanent Resident Status.--
            (1) In general.--Section 216(e) (8 U.S.C. 1186a(e)) is 
        amended by inserting ``if the alien applied for the removal of 
        condition not less than 90 days before applying for 
        naturalization'' before the period at the end.
            (2) Certain alien entrepreneurs.--Section 216A(e) (8 U.S.C. 
        1186b(e)) is amended by inserting ``if the alien applied for 
        the removal of condition not less than 90 days before applying 
        for naturalization'' before the period at the end.
    (c) Concurrent Naturalization and Removal Proceedings.--Section 318 
(8 U.S.C. 1429) is amended to read as follows:

``SEC. 318. PREREQUISITE TO NATURALIZATION; BURDEN OF PROOF.

    ``(a) In General.--Except as otherwise provided in this title, no 
person shall be naturalized unless the person has been lawfully 
admitted to the United States for permanent residence in accordance 
with all applicable provisions of this Act. The burden of proof shall 
be upon such person to show that the person entered the United States 
lawfully, and the time, place, and manner of such entry into the United 
States, but in presenting such proof the person shall be entitled to 
the production of the person's's immigrant visa, if any, or of other 
entry document, if any, and of any other documents and records, not 
considered by the Secretary of Homeland Security to be confidential, 
pertaining to such entry, in the custody of the Department of Homeland 
Security.
    ``(b) Other Proceedings.--Notwithstanding the provisions of section 
405(b), and except as provided in sections 328 and 329, no person shall 
be naturalized against whom there is outstanding a final finding of 
deportability pursuant to a warrant of arrest issued under the 
provisions of this or any other Act and no application for 
naturalization shall be considered by the Secretary of Homeland 
Security or any court if there is pending against the applicant any 
removal proceeding or other proceeding to determine the applicant's 
inadmissibility or deportability, or to determine whether the 
applicant's lawful permanent resident status should be rescinded, if 
the removal proceeding or other proceeding was commenced before a final 
agency decision on naturalization made pursuant to a hearing requested 
under section 336(a). The findings of the Secretary in terminating 
removal proceedings or canceling the removal of an alien under this Act 
shall not be binding upon the Secretary in determining whether such 
person has established eligibility for naturalization under this 
title.''.
    (d) District Court Jurisdiction.--Section 336(b) (8 U.S.C. 1447(b)) 
is amended to read as follows:
    ``(b) Request for Hearing Before District Court.--If a final 
administrative decision is not rendered under section 335 before the 
end of the 180-day period beginning on the date on which the 
examination is conducted under such section, the applicant may apply to 
the United States district court for the district in which the 
applicant resides for a hearing on the matter. Such court has 
jurisdiction over the matter and may--
            ``(1) determine the matter; or
            ``(2) remand the matter, with appropriate instructions, to 
        the Secretary of Homeland Security, to determine the matter.''.
    (e) Effective Date.--The amendments made by this section--
            (1) shall apply to any act that occurred on or after the 
        date of enactment of this Act; and
            (2) shall apply to any application for naturalization or 
        any case or matter under the immigration laws filed on or after 
        such date of enactment.

SEC. 233. AGGRAVATED FELONY.

    (a) Definition of Aggravated Felony.--Section 101(a)(43) (8 U.S.C. 
1101(a)(43)) is amended--
            (1) in the matter preceding subparagraph (A), by striking 
        ``The term `aggravated felony' means--'' and inserting 
        ``Notwithstanding any other provision of law, the term 
        `aggravated felony' applies to an offense described in this 
        paragraph, whether in violation of Federal or State law, and to 
        such an offense in violation of the law of a foreign country 
        for which the term of imprisonment was completed within the 
        previous 15 years, and regardless of whether the conviction was 
        entered before, on, or after September 30, 1996 and means--'';
            (2) in subparagraph (N), by striking ``paragraph (1)(A) or 
        (2) of'' and inserting ``paragraph (1)(A), (2), or (4) of''; 
        and
            (3) by striking the undesignated matter following 
        subparagraph (U).
    (b) Effective Date and Application.--
            (1) In general.--The amendments made by subsection (a) 
        shall--
                    (A) take effect on the date of enactment of this 
                Act; and
                    (B) apply to any act that occurred on or after the 
                date of enactment of this Act.
            (2) Application of iiraira amendments.--The amendments to 
        section 101 (a)(43) of the Immigration and Nationality Act made 
        by section 321 of the Illegal Immigration Reform and Immigrant 
        Responsibility Act of 1996 (division C of Public Law 104-208; 
        110 Stat. 3009-627) shall continue to apply, whether the 
        conviction was entered before, on, or after September 30, 1996.

SEC. 234. INCREASED CRIMINAL PENALTIES RELATED TO GANG VIOLENCE, 
                    REMOVAL, AND ALIEN SMUGGLING.

    (a) Criminal Street Gangs.--
            (1) Inadmissibility.--Section 212(a)(2) (8 U.S.C. 
        1182(a)(2)) is amended--
                    (A) by redesignating subparagraph (F) as 
                subparagraph (J); and
                    (B) by inserting after subparagraph (E) the 
                following:
                    ``(F) Members of criminal street gangs.--Unless the 
                Secretary of Homeland Security or the Attorney General 
                waives the application of this subparagraph, any alien 
                who has been convicted of a crime under section 521 of 
                title 18, United States Code, is inadmissible.''.
            (2) Deportability.--Section 237(a)(2) (8 U.S.C. 1227(a)(2)) 
        is amended by adding at the end the following:
                    ``(F) Members of criminal street gangs.--Unless the 
                Secretary of Homeland Security or the Attorney General 
                waives the application of this subparagraph, any alien 
                who has been convicted of a crime under section 521 of 
                title 18, United States Code, is deportable.''.
            (3) Temporary protected status.--Section 244 (8 U.S.C. 
        1254a) is amended--
                    (A) by striking ``Attorney General'' each place it 
                appears and inserting ``Secretary of Homeland 
                Security'';
                    (B) in subsection (c)(2)(B)--
                            (i) in clause (i), by striking ``, or'' at 
                        the end;
                            (ii) in clause (ii), by striking the period 
                        at the end and inserting ``; or''; and
                            (iii) by adding at the end the following:
                            ``(iii) the alien has been convicted of a 
                        crime under section 521 of title 18, United 
                        States Code.''; and
                    (C) in subsection (d)--
                            (i) by striking paragraph (3); and
                            (ii) in paragraph (4), by adding at the end 
                        the following: ``The Secretary of Homeland 
                        Security shall detain an alien provided 
                        temporary protected status under this section 
                        if the alien is subject to detention under 
                        section 236(c)(1).''.
    (b) Penalties Related to Removal.--Section 243 (8 U.S.C. 1253) is 
amended--
            (1) in subsection (a)(1)--
                    (A) in the matter preceding subparagraph (A), by 
                inserting ``212(a) or'' after ``section''; and
                    (B) in the matter following subparagraph (D)--
                            (i) by striking ``or imprisoned not more 
                        than four years'' and inserting ``and 
                        imprisoned for not more than 5 years''; and
                            (ii) by striking ``, or both''; and
            (2) in subsection (b), by striking ``not more than $1000 or 
        imprisoned for not more than one year, or both'' and inserting 
        ``under title 18, United States Code, and imprisoned for not 
        more than 5 years (or for not more than 10 years if the alien 
        is removable under paragraph (1)(E), (2), or (4) of section 
        237(a)).''.
    (c) Alien Smuggling and Related Offenses.--
            (1) In general.--Section 274 (8 U.S.C. 1324) is amended--
                    (A) by striking the section heading and all that 
                follows through subsection (a)(1)(B)(iii);
                    (B) by striking subsection (a)(1)(C) and all that 
                follows through the end;
                    (C) by redesignating subsection (a)(1)(B)(iv) as 
                subparagraph (G) and indenting such subparagraph (G) 
                four ems from the left margin;
                    (D) by amending subparagraph (G), as redesignated 
                by subparagraph (C), by striking ``in the case of a 
                violation of subparagraph (A) (i), (ii), (iii), (iv), 
                or (v) resulting'' and inserting ``if the offense 
                resulted'';
                    (E) by inserting before subparagraph (G), as 
                redesignated by subparagraph (C), the following:

``SEC. 274. ALIEN SMUGGLING AND RELATED OFFENSES.

    ``(a) Criminal Offenses and Penalties.--
            ``(1) Prohibited activities.--Except as provided in 
        paragraph (3), a person shall be punished as provided under 
        paragraph (2), if the person--
                    ``(A) encourages, directs, or induces a person to 
                come to or enter the United States, or to cross the 
                border to the United States, knowing or in reckless 
                disregard of the fact that such person is an alien who 
                lacks lawful authority to come to, enter, or cross the 
                border to the United States;
                    ``(B) encourages, directs, or induces a person to 
                come to or enter the United States, or to cross the 
                border to the United States, at a place other than a 
                designated port of entry or place other than as 
                designated by the Secretary of Homeland Security, 
                knowing or in reckless disregard of the fact that such 
                person is an alien and regardless of whether such alien 
                has official permission or lawful authority to be in 
                the United States;
                    ``(C) transports, moves, harbors, conceals, or 
                shields from detection a person outside of the United 
                States knowing or in reckless disregard of the fact 
                that such person is an alien in unlawful transit from 1 
                country to another or on the high seas, under 
                circumstances in which the alien is seeking to enter 
                the United States without official permission or legal 
                authority;
                    ``(D) encourages or induces a person to reside in 
                the United States, knowing or in reckless disregard of 
                the fact that such person is an alien who lacks lawful 
                authority to reside in the United States;
                    ``(E) transports or moves a person in the United 
                States, knowing or in reckless disregard of the fact 
                that such person is an alien who lacks lawful authority 
                to enter or be in the United States, if the 
                transportation or movement will further the alien's 
                illegal entry into or illegal presence in the United 
                States;
                    ``(F) harbors, conceals, or shields from detection 
                a person in the United States, knowing or in reckless 
                disregard of the fact that such person is an alien who 
                lacks lawful authority to be in the United States; or
                    ``(G) conspires or attempts to commit any of the 
                acts described in subparagraphs (A) through (F).
            ``(2) Criminal penalties.--A person who violates any 
        provision under paragraph (1)--
                    ``(A) except as provided in subparagraphs (C) 
                through (G), if the offense was not committed for 
                commercial advantage, profit, or private financial 
                gain, shall be fined under title 18, United States 
                Code, imprisoned for not more than 5 years, or both;
                    ``(B) except as provided in subparagraphs (C) 
                through (G), if the offense was committed for 
                commercial advantage, profit, or private financial 
                gain--
                            ``(i) if the violation is the offender's 
                        first violation under this subparagraph, shall 
                        be fined under such title, imprisoned for not 
                        more than 15 years, or both; or
                            ``(ii) if the violation is the offender's 
                        second or subsequent violation of this 
                        subparagraph, shall be fined under such title, 
                        imprisoned for not more than 20 years, or both;
                    ``(C) if the offense furthered or aided the 
                commission of any other offense against the United 
                States or any State that is punishable by imprisonment 
                for more than 1 year, shall be fined under such title, 
                imprisoned for not more than 20 years, or both;
                    ``(D) shall be fined under such title, imprisoned 
                not more than 20 years, or both, if the offense created 
                a substantial and foreseeable risk of death, a 
                substantial and foreseeable risk of serious bodily 
                injury (as defined in section 2119(2) of title 18, 
                United States Code), or inhumane conditions to another 
                person, including--
                            ``(i) transporting the person in an engine 
                        compartment, storage compartment, or other 
                        confined space;
                            ``(ii) transporting the person at an 
                        excessive speed or in excess of the rated 
                        capacity of the means of transportation; or
                            ``(iii) transporting the person in, 
                        harboring the person in, or otherwise 
                        subjecting the person to crowded or dangerous 
                        conditions;
                    ``(E) if the offense caused serious bodily injury 
                (as defined in section 2119(2) of title 18, United 
                States Code) to any person, shall be fined under such 
                title, imprisoned for not more than 30 years, or both;
                    ``(F) shall be fined under such title and 
                imprisoned for not more than 30 years if the offense 
                involved an alien who the offender knew was--
                            ``(i) engaged in terrorist activity (as 
                        defined in section 212(a)(3)(B)); or
                            ``(ii) intending to engage in terrorist 
                        activity; and''
                    (F) by inserting after subparagraph (G), as 
                redesignated by subparagraph (C), the following:
            ``(4) Limitation.--It is not a violation of subparagraph 
        (D), (E), or (F) of paragraph (1)--
                    ``(A) for a religious denomination having a bona 
                fide nonprofit, religious organization in the United 
                States, or the agents or officers of such denomination 
                or organization, to encourage, invite, call, allow, or 
                enable an alien who is present in the United States to 
                perform the vocation of a minister or missionary for 
                the denomination or organization in the United States 
                as a volunteer who is not compensated as an employee, 
                notwithstanding the provision of room, board, travel, 
                medical assistance, and other basic living expenses, 
                provided the minister or missionary has been a member 
                of the denomination for at least 1 year; or
                    ``(B) for an individual or organization acting 
                without compensation or expectation of compensation and 
                not previously convicted of a violation of this 
                section, to--
                            ``(i) provide, or attempt to provide, an 
                        alien who is present in the United States with 
                        humanitarian assistance, including medical 
                        care, housing, counseling, victim services, and 
                        food; or
                            ``(ii) transport the alien to a location 
                        where such assistance can be rendered.
            ``(5) Extraterritorial jurisdiction.--There is 
        extraterritorial Federal jurisdiction over the offenses 
        described in this subsection.''; and
                    (G) by striking subsections (b) through (e) and 
                inserting the following:
    ``(b) Employment of Unauthorized Aliens.--
            ``(1) Criminal offense and penalties.--Any person who, 
        during any 12-month period, knowingly employs 10 or more 
        individuals with actual knowledge or in reckless disregard of 
        the fact that the individuals are aliens described in paragraph 
        (2), shall be fined under title 18, United States Code, 
        imprisoned for not more than 10 years, or both.
            ``(2) Definition.--An alien described in this paragraph is 
        an alien who--
                    ``(A) is an unauthorized alien (as defined in 
                section 274A);
                    ``(B) is present in the United States without 
                lawful authority; and
                    ``(C) has been brought into the United States in 
                violation of this subsection.
    ``(c) Seizure and Forfeiture.--
            ``(1) In general.--Any conveyance used to commit or 
        facilitate the commission of a violation of this section, the 
        gross proceeds of such violation, and any property traceable to 
        such property or proceeds, shall be subject to forfeiture.
            ``(2) Applicable procedures.--Seizures and forfeitures 
        under this subsection shall be governed by the provisions of 
        chapter 46 of title 18, United States Code, relating to civil 
        forfeitures, except that such duties as are imposed upon the 
        Secretary of the Treasury under the customs laws described in 
        section 981(d) shall be performed by such officers, agents, and 
        other persons as may be designated for that purpose by the 
        Secretary of Homeland Security.
            ``(3) Prima facie evidence in determinations of 
        violations.--In determining whether a violation of subsection 
        (a) has occurred, prima facie evidence that an alien involved 
        in the alleged violation lacks lawful authority to come to, 
        enter, or reside in the United States, or that such alien had 
        come to, entered, or resided in the United States in violation 
        of law shall include--
                    ``(A) any order, finding, or determination 
                concerning the alien's status or lack of status made by 
                a Federal judge or administrative adjudicator 
                (including an immigration judge or immigration officer) 
                during any judicial or administrative proceeding 
                authorized under Federal immigration law;
                    ``(B) official records of the Department of 
                Homeland Security, the Department of Justice, or the 
                Department of State concerning the alien's status or 
                lack of status; and
                    ``(C) testimony by an immigration officer having 
                personal knowledge of the facts concerning the alien's 
                status or lack of status.
    ``(d) Authority to Arrest.--No officer or person shall have 
authority to make any arrests for a violation of any provision of this 
section except--
            ``(1) officers and employees designated by the Secretary of 
        Homeland Security, either individually or as a member of a 
        class; and
            ``(2) other officers responsible for the enforcement of 
        Federal criminal laws.
    ``(e) Admissibility of Videotaped Witness Testimony.--
Notwithstanding any provision of the Federal Rules of Evidence, the 
videotaped or otherwise audiovisually preserved deposition of a witness 
to a violation of subsection (a) who has been deported or otherwise 
expelled from the United States, or is otherwise unavailable to 
testify, may be admitted into evidence in an action brought for that 
violation if--
            ``(1) the witness was available for cross examination at 
        the deposition by the party, if any, opposing admission of the 
        testimony; and
            ``(2) the deposition otherwise complies with the Federal 
        Rules of Evidence.
    ``(f) Outreach Program.--
            ``(1) In general.--The Secretary of Homeland Security, in 
        consultation with the Attorney General and the Secretary of 
        State, as appropriate, shall--
                    ``(A) develop and implement an outreach program to 
                educate people in and out of the United States about 
                the penalties for bringing in and harboring aliens in 
                violation of this section; and
                    ``(B) establish the American Local and Interior 
                Enforcement Needs (ALIEN) Task Force to identify and 
                respond to the use of Federal, State, and local 
                transportation infrastructure to further the 
                trafficking of unlawful aliens within the United 
                States.
            ``(2) Field offices.--The Secretary of Homeland Security, 
        after consulting with State and local government officials, 
        shall establish such field offices as may be necessary to carry 
        out this subsection.
            ``(3) Authorization of appropriations.--There are 
        authorized to be appropriated such sums are necessary for the 
        fiscal years 2008 through 2012 to carry out this subsection.''.
            (2) Clerical amendment.--The table of contents is amended 
        by striking the item relating to section 274 and inserting the 
        following:

    ``Sec. 274. Alien smuggling and related offenses.''.
    (d) Prohibiting Carrying or Using a Firearm During and in Relation 
to an Alien Smuggling Crime.--Section 924(c) of title 18, United States 
Code, is amended--
            (1) in paragraph (1)--
                    (A) in subparagraph (A), by inserting ``, alien 
                smuggling crime,'' after ``any crime of violence'';
                    (B) in subparagraph (A), by inserting ``, alien 
                smuggling crime,'' after ``such crime of violence'';
                    (C) in subparagraph (D)(ii), by inserting ``, alien 
                smuggling crime,'' after ``crime of violence''; and
            (2) by adding at the end the following:
    ``(6) For purposes of this subsection, the term `alien smuggling 
crime' means any felony punishable under section 274(a), 277, or 278 of 
the Immigration and Nationality Act (8 U.S.C. 1324(a), 1327, and 
1328).''.

SEC. 235. ILLEGAL ENTRY.

    (a) In General.--Section 275 (8 U.S.C. 1325) is amended to read as 
follows:

``SEC. 275. ILLEGAL ENTRY.

    ``(a) In General.--
            ``(1) Criminal offenses.--An alien shall be subject to the 
        penalties set forth in paragraph (2) if the alien--
                    ``(A) knowingly enters or crosses the border into 
                the United States at any time or place other than as 
                designated by the Secretary of Homeland Security;
                    ``(B) knowingly eludes examination or inspection by 
                an immigration officer (including failing to stop at 
                the command of such officer), or a customs or 
                agriculture inspection at a port of entry; or
                    ``(C) knowingly enters or crosses the border to the 
                United States by means of a willfully false or 
                misleading representation or the knowing concealment of 
                a material fact (including such representation or 
                concealment in the context of arrival, reporting, 
                entry, or clearance requirements of the customs laws, 
                immigration laws, agriculture laws, or shipping laws).
            ``(2) Criminal penalties.--Any alien who violates any 
        provision under paragraph (1)--
                    ``(A) shall, for the first violation, be fined 
                under title 18, United States Code, imprisoned not more 
                than 6 months, or both;
                    ``(B) shall, for a second or subsequent violation, 
                or following an order of voluntary departure, be fined 
                under such title, imprisoned not more than 2 years, or 
                both;
                    ``(C) if the violation occurred after the alien had 
                been convicted of 3 or more misdemeanors or for a 
                felony, shall be fined under such title, imprisoned not 
                more than 5 years, or both;
                    ``(D) if the violation occurred after the alien had 
                been convicted of a felony for which the alien received 
                a term of imprisonment of not less than 30 months, 
                shall be fined under such title, imprisoned not more 
                than 10 years, or both; and
                    ``(E) if the violation occurred after the alien had 
                been convicted of a felony for which the alien received 
                a term of imprisonment of not less than 60 months, such 
                alien shall be fined under such title, imprisoned not 
                more than 15 years, or both.
            ``(3) Prior convictions.--The prior convictions described 
        in subparagraphs (C) through (E) of paragraph (2) are elements 
        of the offenses described in that paragraph and the penalties 
        in such subparagraphs shall apply only in cases in which the 
        conviction or convictions that form the basis for the 
        additional penalty are--
                    ``(A) alleged in the indictment or information; and
                    ``(B) proven beyond a reasonable doubt at trial or 
                admitted by the defendant.
            ``(4) Attempt.--Whoever attempts to commit any offense 
        under this section shall be punished in the same manner as for 
        a completion of such offense.
    ``(b) Improper Time or Place; Civil Penalties.--Any alien who is 
apprehended while entering, attempting to enter, or knowingly crossing 
or attempting to cross the border to the United States at a time or 
place other than as designated by immigration officers shall be subject 
to a civil penalty, in addition to any criminal or other civil 
penalties that may be imposed under any other provision of law, in an 
amount equal to--
            ``(1) not less than $50 or more than $250 for each such 
        entry, crossing, attempted entry, or attempted crossing; or
            ``(2) twice the amount specified in paragraph (1) if the 
        alien had previously been subject to a civil penalty under this 
        subsection.''.
    (b) Clerical Amendment.--The table of contents is amended by 
striking the item relating to section 275 and inserting the following:

    ``Sec. 275. Illegal entry.''.

SEC. 236. ILLEGAL REENTRY.

    Section 276 (8 U.S.C. 1326) is amended to read as follows:

``SEC. 276. REENTRY OF REMOVED ALIENS.

    ``(a) Reentry After Removal.--Any alien who has been denied 
admission, excluded, deported, or removed, or who has departed the 
United States while an order of exclusion, deportation, or removal is 
outstanding, and subsequently enters, attempts to enter, crosses the 
border to, attempts to cross the border to, or is at any time found in 
the United States, shall be fined under title 18, United States Code, 
imprisoned not more than 2 years, or both.
    ``(b) Reentry of Criminal Offenders.--Notwithstanding the penalty 
provided in subsection (a), if an alien described in that subsection--
            ``(1) was convicted for 3 or more misdemeanors or a felony 
        before such removal or departure, the alien shall be fined 
        under title 18, United States Code, imprisoned not more than 10 
        years, or both;
            ``(2) was convicted for a felony before such removal or 
        departure for which the alien was sentenced to a term of 
        imprisonment of not less than 30 months, the alien shall be 
        fined under such title, imprisoned not more than 15 years, or 
        both;
            ``(3) was convicted for a felony before such removal or 
        departure for which the alien was sentenced to a term of 
        imprisonment of not less than 60 months, the alien shall be 
        fined under such title, imprisoned not more than 20 years, or 
        both;
            ``(4) was convicted for 3 felonies before such removal or 
        departure, the alien shall be fined under such title, 
        imprisoned not more than 20 years, or both; or
            ``(5) was convicted, before such removal or departure, for 
        murder, rape, kidnaping, or a felony offense described in 
        chapter 77 (relating to peonage and slavery) or 113B (relating 
        to terrorism) of such title, the alien shall be fined under 
        such title, imprisoned not more than 20 years, or both.
    ``(c) Reentry After Repeated Removal.--Any alien who has been 
denied admission, excluded, deported, or removed 3 or more times and 
thereafter enters, attempts to enter, crosses the border to, attempts 
to cross the border to, or is at any time found in the United States, 
shall be fined under title 18, United States Code, imprisoned not more 
than 10 years, or both.
    ``(d) Proof of Prior Convictions.--The prior convictions described 
in subsection (b) are elements of the crimes described in that 
subsection, and the penalties in that subsection shall apply only in 
cases in which the conviction or convictions that form the basis for 
the additional penalty are--
            ``(1) alleged in the indictment or information; and
            ``(2) proven beyond a reasonable doubt at trial or admitted 
        by the defendant.
    ``(e) Affirmative Defenses.--It shall be an affirmative defense to 
a violation of this section that--
            ``(1) prior to the alleged violation, the alien had sought 
        and received the express consent of the Secretary of Homeland 
        Security to reapply for admission into the United States;
            ``(2) with respect to an alien previously denied admission 
        and removed, the alien--
                    ``(A) was not required to obtain such advance 
                consent under this Act or any prior Act; and
                    ``(B) had complied with all other laws and 
                regulations governing the alien's admission into the 
                United States;
            ``(3) the prior order of removal was based on charges filed 
        against the alien before the alien reached 18 years of age; or
            ``(4) the alien has been found eligible for protection from 
        removal pursuant to section 208.
    ``(f) Limitation on Collateral Attack on Underlying Removal 
Order.--In a criminal proceeding under this section, an alien may not 
challenge the validity of any prior removal order concerning the alien 
unless the alien demonstrates by clear and convincing evidence that--
            ``(1) the alien exhausted all administrative remedies that 
        may have been available to seek relief against the order;
            ``(2) the removal proceedings at which the order was issued 
        improperly deprived the alien of the opportunity for judicial 
        review; and
            ``(3) the entry of the order was fundamentally unfair.
    ``(g) Reentry of Alien Removed Prior to Completion of Term of 
Imprisonment.--Any alien removed pursuant to section 241(a)(4) who 
enters, attempts to enter, crosses the border to, attempts to cross the 
border to, or is at any time found in, the United States shall be 
incarcerated for the remainder of the sentence of imprisonment which 
was pending at the time of deportation without any reduction for parole 
or supervised release unless the alien affirmatively demonstrates that 
the Secretary of Homeland Security has expressly consented to the 
alien's reentry. Such alien shall be subject to such other penalties 
relating to the reentry of removed aliens as may be available under 
this section or any other provision of law.
    ``(h) Limitation.--It is not aiding and abetting a violation of 
this section for an individual, acting without compensation or the 
expectation of compensation, to--
            ``(1) provide, or attempt to provide, an alien with 
        humanitarian assistance, including emergency medical care, 
        food; or
            ``(2) transport the alien to a location where such 
        assistance can be rendered.''.

                   TITLE III--EMPLOYMENT VERIFICATION

SEC. 301. EMPLOYMENT VERIFICATION.

    (a) In General.--Section 274A (8 U.S.C. 1324a) is amended to read 
as follows:

``SEC. 274A. EMPLOYMENT VERIFICATION.

    ``(a) Making Employment of Unauthorized Aliens Unlawful.--
            ``(1) In general.--It is unlawful for an employer--
                    ``(A) to hire, recruit, or refer for a fee an alien 
                for employment in the United States knowing or with 
                reckless disregard that the alien is an unauthorized 
                alien with respect to such employment; or
                    ``(B) to hire in the United States an individual 
                unless such employer meets the requirements of 
                subsections (b) and (c).
            ``(2) Continuing employment.--It is unlawful for an 
        employer, after lawfully hiring an alien for employment, to 
        continue to employ the alien in the United States knowing that 
        the alien is (or has become) an unauthorized alien with respect 
        to such employment.
            ``(3) Use of labor through contract.--An employer who uses 
        a contract, subcontract, or exchange entered into, 
        renegotiated, or extended after the date of the enactment of 
        the STRIVE Act of 2007, to obtain the labor of an alien in the 
        United States knowing or with reckless disregard that the alien 
        is an unauthorized alien with respect to performing such labor, 
        shall be considered to have hired the alien for employment in 
        the United States in violation of paragraph (1)(A).
            ``(4) Order of internal review and certification of 
        compliance.--
                    ``(A) Authority to require certification.--If the 
                Secretary has reasonable cause to believe that an 
                employer has failed to comply with this section, the 
                Secretary is authorized, at any time, to require that 
                the employer certify that the employer is in compliance 
                with this section or has instituted a program to come 
                into compliance with the section.
                    ``(B) Content of certification.--Not later than 60 
                days after the date an employer receives a request for 
                a certification under subparagraph (A) the employer 
                shall certify under penalty of perjury that--
                            ``(i) the employer is in compliance with 
                        the requirements of subsections (b) and (c); or
                            ``(ii) that the employer has instituted a 
                        program to come into compliance with such 
                        requirements.
                    ``(C) Extension.--The 60-day period referred to in 
                subparagraph (B), may be extended by the Secretary for 
                good cause, at the request of the employer.
                    ``(D) Publication.--The Secretary is authorized to 
                publish in the Federal Register standards or methods 
                for certification under subparagraph (A) and for 
                specific recordkeeping practices with respect to such 
                certification, and procedures for the audit of any 
                records related to such certification.
            ``(5) Defense.--
                    ``(A) In general.--Subject to subparagraph (B), an 
                employer that establishes that the employer has 
                complied in good faith, notwithstanding a technical or 
                procedural failure, with the requirements of 
                subsections (b) and (c) with respect to the hiring of 
                an individual has established an affirmative defense 
                that the employer has not violated paragraph (1)(B) 
                with respect to such hiring.
                    ``(B) Exception.--Until the date that an employer 
                is required to participate in the Electronic Employment 
                Verification System under subsection (c), the employer 
                may establish an affirmative defense under subparagraph 
                (A) without a showing of compliance with subsection 
                (c).
            ``(6) No authorization of national identification cards.--
        Nothing in this title may be construed to authorize, directly 
        or indirectly, the issuance, use, or establishment of a 
        national identification card or a national identification 
        system.
    ``(b) Document Verification Requirements.--An employer hiring an 
individual for employment in the United States shall verify that the 
individual is eligible for such employment by meeting the following 
requirements:
            ``(1) Attestation by employer.--
                    ``(A) Requirements.--
                            ``(i) In general.--The employer shall 
                        attest, under penalty of perjury and on a form 
                        prescribed by the Secretary, that the employer 
                        has verified the identity and eligibility for 
                        employment of the individual by examining a 
                        document described in subparagraph (B).
                            ``(ii) Signature requirements.--An 
                        attestation required by clause (i) may be 
                        manifested by a handwritten or electronic 
                        signature.
                            ``(iii) Standards for examination.--An 
                        employer has complied with the requirement of 
                        this paragraph with respect to examination of a 
                        document if the document examined reasonably 
                        appears on its face to be genuine and relates 
                        to the individual whose identity and 
                        eligibility for employment in the United States 
                        is being verified. Nothing in this paragraph 
                        may be construed as requiring the employer to 
                        solicit the production of any other document or 
                        as requiring the individual to produce such 
                        other document.
                    ``(B) Employment and identification documents.--A 
                document described in this subparagraph is--
                            ``(i) in the case of an individual who is a 
                        national of the United States--
                                    ``(I) a United States passport;
                                    ``(II) a biometric, machine 
                                readable, tamper-resistant Social 
                                Security card, as described in section 
                                205(c)(2)(G) of the Social Security Act 
                                (42 U.S.C. 405(c)(2)(G)); or
                                    ``(III) a driver's license or 
                                identity card issued by a State, the 
                                Commonwealth of the Northern Mariana 
                                Islands, or an outlying possession of 
                                the United States that satisfies the 
                                requirements of Division B of Public 
                                Law 109-13 (119 Stat. 302);
                            ``(ii) in the case of an alien who is 
                        lawfully admitted for permanent residence in 
                        the United States--
                                    ``(I) a permanent resident card, as 
                                specified by the Secretary; or
                                    ``(II) a biometric, machine 
                                readable, tamper-resistant Social 
                                Security card, as described in section 
                                205(c)(2)(G) of the Social Security Act 
                                (42 U.S.C. 405(c)(2)(G));
                            ``(iii) in the case of an alien who is not 
                        lawfully admitted for permanent residence and 
                        who is authorized under this Act or by the 
                        Secretary to be employed in the United States--
                                    ``(I) an employment authorization 
                                card, as specified by the Secretary, 
                                that--
    ``(aa) contains a photograph of the individual or other identifying 
    information, including name, date of birth, gender, and address; 
    and
    ``(bb) contains security features to make the document resistant to 
    tampering, counterfeiting, and fraudulent use; or
                                    ``(II) a biometric, machine 
                                readable, tamper-resistant Social 
                                Security card, as described in section 
                                205(c)(2)(G) of the Social Security Act 
                                (42 U.S.C. 405(c)(2)(G));
                            ``(iv) in the case of an individual who is 
                        unable to obtain a document described in clause 
                        (i), (ii), or (iii), a document designated by 
                        the Secretary that--
                                    ``(I) contains a photograph of the 
                                individual or other identifying 
                                information, including name, date of 
                                birth, gender, and address; and
                                    ``(II) contains security features 
                                to make the document resistant to 
                                tampering, counterfeiting, and 
                                fraudulent use; or
                            ``(v) until the date that an employer is 
                        required to participate in the Electronic 
                        Employment Verification System under subsection 
                        (c) or is participating in such System on a 
                        voluntary basis, a document, or a combination 
                        of documents, of such type that, as of the date 
                        of the enactment of the STRIVE Act of 2007, the 
                        Secretary had established by regulation were 
                        sufficient for purposes of this section.
                    ``(C) Special rule for minors.--Notwithstanding 
                subparagraph (B), a minor who is under the age of 18 
                and who is unable to produce an identity document 
                described in clause (i) through (v) of subparagraph (B) 
                is exempt from producing such a document if--
                            ``(i) a parent or legal guardian of the 
                        minor completes a form prescribed by the 
                        Secretary, and in the space for the minor's 
                        signature, the parent or legal guardian writes 
                        the words, `minor under age 18';
                            ``(ii) a parent or legal guardian of the 
                        minor completes a form prescribed by the 
                        Secretary, the `Preparer/Translator 
                        certification'; and
                            ``(iii) the employer of the minor writes in 
                        a form prescribed by the Secretary, in the 
                        space after the words `Document Identification 
                        #' the words, `minor under age 18'.
                    ``(D) Special rule for individuals with 
                disabilities.--Notwithstanding subparagraph (B), an 
                individual with a disability (as defined in section 3 
                of the Americans with Disabilities Act of 1990 (42 
                U.S.C. 12102)) who is unable to produce an identity 
                document described in clause (i) through (v) of 
                subparagraph (B), and who is being placed into 
                employment by a nonprofit organization or association 
                or as part of a rehabilitation program, and an 
                individual who demonstrates mental retardation whether 
                or not the individual participates in an employment 
                placement program through a nonprofit organization or 
                association or as part of a rehabilitation program, is 
                exempt from producing such a document if--
                            ``(i) a parent or legal guardian of the 
                        individual, or a representative from the 
                        nonprofit organization, association, or 
                        rehabilitation program placing the individual 
                        into a position of employment completes a form 
                        prescribed by the Secretary, and in the space 
                        for the covered individual's signature, writes 
                        the words, `special placement';
                            ``(ii) a parent or legal guardian of the 
                        individual or the program representative, 
                        completes a form prescribed by the Secretary, 
                        the `Preparer/Translator certification'; and
                            ``(iii) the employer of the covered 
                        individual writes in a form prescribed by the 
                        Secretary, in the space after the words 
                        `Document Identification #' the words, `special 
                        placement'.
                    ``(E) Authority to prohibit use of certain 
                documents.--
                            ``(i) Authority.--If the Secretary finds 
                        that a document or class of documents described 
                        in clause (i) through (v) of subparagraph (B) 
                        is not reliable to establish identity or 
                        eligibility for employment (as the case may be) 
                        or is being used fraudulently to an 
                        unacceptable degree, the Secretary is 
                        authorized to prohibit, or impose conditions 
                        on, the use of such document or class of 
                        documents for purposes of this subsection.
                            ``(ii) Requirement for publication.--The 
                        Secretary shall publish notice of any findings 
                        under clause (i) in the Federal Register.
            ``(2) Attestation of individual.--
                    ``(A) In general.--The individual shall attest, 
                under penalty of perjury on a form prescribed by the 
                Secretary, that the individual is--
                            ``(i) a national of the United States;
                            ``(ii) an alien lawfully admitted for 
                        permanent residence; or
                            ``(iii) an alien who is authorized under 
                        this Act or by the Secretary to be employed in 
                        the United States.
                    ``(B) Signature for examination.--An attestation 
                required by subparagraph (A) may be manifested by a 
                handwritten or electronic signature.
                    ``(C) Penalties.--An individual who falsely 
                represents that the individual is eligible for 
                employment in the United States in an attestation 
                required by subparagraph (A) shall, for each such 
                violation, be subject to a fine of not more than 
                $5,000, a term of imprisonment not to exceed 3 years, 
                or both.
            ``(3) Retention of attestation.--The employer shall retain 
        an attestation described in paragraph (1) or (2) for an 
        individual, either in electronic, paper, microfiche, or 
        microfilm form, and make such attestations available for 
        inspection by an officer of the Department of Homeland 
        Security, any other person designated by the Secretary, the 
        Special Counsel for Immigration-Related Unfair Employment 
        Practices of the Department of Justice, or the Secretary of 
        Labor--
                    ``(A) during a period beginning on the date of the 
                hiring of the individual and ending on the date that is 
                the later of--
                            ``(i) 3 years after the date of such 
                        hiring; or
                            ``(ii) 1 year after the date the 
                        individual's employment is terminated; or
                    ``(B) during a shorter period determined by the 
                Secretary, if the Secretary reduces the period 
                described in subparagraph (A) for the employer or a 
                class of employers that includes the employer.
            ``(4) Document retention and recordkeeping requirements.--
                    ``(A) Retention of documents.--Notwithstanding any 
                other provision of law, an employer shall retain, for 
                the applicable period described in paragraph (3), the 
                following documents:
                            ``(i) In general.--A paper, microfiche, 
                        microfilm, or electronic copy of each document 
                        described in paragraph (1)(B) presented by an 
                        individual that is designated as a copied 
                        document.
                            ``(ii) Other documents.--A record of any 
                        action taken, and copies of any correspondence 
                        written or received, with respect to the 
                        verification of an individual's identity or 
                        eligibility for employment in the United 
                        States, including records received through the 
                        Electronic Employment Verification System under 
                        subsection (c).
                    ``(B) Use of retained documents.--An employer shall 
                use copies retained under clause (i) or (ii) of 
                subparagraph (A) only for the purposes of complying 
                with the requirements of this subsection, except as 
                otherwise permitted under law.
            ``(5) Penalties.--An employer that fails to comply with the 
        requirement of this subsection shall be subject to the 
        penalties described in subsection (d)(4)(B).
    ``(c) Electronic Employment Verification System.--
            ``(1) Requirement for system.--The Secretary, in 
        cooperation with the Commissioner of Social Security, shall 
        implement an Electronic Employment Verification System 
        (referred to in this subsection as the `System') as described 
        in this subsection.
            ``(2) Technology standard to verify employment 
        eligibility.--
                    ``(A) In general.--The Secretary based upon 
                recommendations from the Director of the National 
                Institute of Standards and Technology, shall not later 
                than 180 days after the date of the enactment of the 
                STRIVE Act of 2007 develop and certify a technology 
                standard as described in this subparagraph. The 
                Secretary shall have discretion to extend the 180-day 
                period if the Secretary determines that such extension 
                will result in substantial improvement of the System.
                    ``(B) Integrated.--Notwithstanding any other 
                provision of Federal law, the technology standard 
                developed shall be the technological basis for a cross-
                agency, cross-platform electronic system that is a 
                cost-effective, efficient, fully integrated means to 
                share immigration and Social Security information 
                necessary to confirm the employment eligibility of all 
                individuals seeking employment.
                    ``(C) Report.--Not later than 18 months after the 
                date of the enactment of the STRIVE Act of 2007, the 
                Secretary and the Director of the National Institute of 
                Standards and Technology shall jointly submit to 
                Congress a report describing the development, 
                implementation, efficacy, and privacy implications of 
                the technology standard and the System.
            ``(3) Identity and employment eligibility verification.--An 
        employer shall verify the identity and eligibility for 
        employment of an individual hired by the employer through the 
        System as follows:
                    ``(A) Initial inquiry.--The employer shall submit 
                an inquiry through the System to seek confirmation of 
                the individual's identity and eligibility for 
                employment in the United States not later than 5 
                working days after the date such employment actually 
                commences.
                    ``(B) Initial determination.--The Secretary, 
                through the System, shall respond to an inquiry 
                described in subparagraph (A) not later than 1 working 
                day after such inquiry is submitted. Such response 
                shall be a determination that--
                            ``(i) confirms the individual's identity 
                        and eligibility for employment in the United 
                        States; or
                            ``(ii) the System is tentatively unable to 
                        confirm the individual's identity or 
                        eligibility for employment (referred to in this 
                        section as a `tentative nonconfirmation').
                    ``(C) Manual verification.--
                            ``(i) Requirement.--If the System provides 
                        a tentative nonconfirmation with respect to an 
                        individual, the Secretary shall--
                                    ``(I) provide the individual an 
                                opportunity to submit information to 
                                verify the individual's identity and 
                                eligibility for employment as described 
                                in subparagraph (D); and
                                    ``(II) conduct a manual 
                                verification to determine the 
                                individual's identity and eligibility 
                                for employment.
                            ``(ii) Determination.--Not later than 30 
                        days after the last day that an individual may 
                        submit information under subparagraph (D) the 
                        Secretary, through the System, shall provide to 
                        the employer the results of the manual 
                        verification required by clause (i). Such 
                        results shall be a determination that--
                                    ``(I) confirms the individual's 
                                identity and eligibility for employment 
                                in the United States; or
                                    ``(II) the System is unable to 
                                confirm the individual's identity or 
                                eligibility for employment (referred to 
                                in this section as a `final 
                                nonconfirmation').
                    ``(D) Submission of information.--An individual who 
                is the subject of a tentative nonconfirmation may 
                submit to the Secretary, through the System, 
                information to confirm such individual's identity or 
                eligibility for employment or to otherwise contest such 
                tentative nonconfirmation not later that 15 days after 
                the individual receives notice of such tentative 
                nonconfirmation.
                    ``(E) Extension.--The 15-day period referred to in 
                subparagraph (D) may be extended by the Secretary for 
                good cause at the request of the individual.
                    ``(F) Default confirmation and revocation.--If the 
                Secretary, through the System, fails to provide a 
                determination described in clause (i) or (ii) of 
                subparagraph (B) or subclause (I) or (II) of 
                subparagraph (C)(ii) for an individual within the 
                period described in such subparagraph, the Secretary 
                shall, through the System, deem that the individual's 
                identity and eligibility for employment are confirmed 
                through the System and provide notice of such 
                confirmation to the employer.
                    ``(G) Revocation.--In the case of a default 
                confirmation in subclause (F), the Secretary reserves 
                the right to revoke such default confirmation if the 
                Secretary later determines the individual is, in fact, 
                not eligible to work. The Secretary shall provide 
                notice of such revocation and final nonconfirmation to 
                the employer. The individual shall have the right to 
                administrative review under paragraph (19) and judicial 
                review under paragraph (20) of such final 
                nonconfirmation.
                    ``(H) Prohibitiion on termination for tentative 
                nonconfirmation.--An employer may not terminate the 
                employment of an individual based on tentative 
                nonconfirmation.
                    ``(I) Termination of employee.--If an employer 
                receives a final nonconfirmation with respect to an 
                individual, the employer shall terminate the employment 
                of such individual.
                    ``(J) Administrative and judicial review.--If the 
                Secretary, through the System, provides a final 
                nonconfirmation with respect to an individual, the 
                individual shall have the right to administrative 
                review under paragraph (19) and judicial review under 
                paragraph (20) of such final nonconfirmation.
                    ``(K) Right to review and correct system 
                information.--The Secretary, in consultation with the 
                Commissioner of Social Security, shall establish 
                procedures to permit an individual to verify the 
                individual's eligibility for employment in the United 
                States prior to obtaining or changing employment, to 
                view the individual's own records in the System in 
                order to ensure the accuracy of such records, and to 
                correct or update the information used by the System 
                regarding the individual.
                    ``(L) Reverification.--
                            ``(i) In general.--It is an unfair 
                        immigration-related employment practice under 
                        section 274B for an employer to reverify an 
                        individual's identity and employment 
                        eligibility unless--
                                    ``(I) the individual's work 
                                authorization expires as described in 
                                section 274a.2(b)(1)(vii) of title 8, 
                                Code of Federal Regulation or a 
                                subsequent similar regulation, in which 
                                case--
    ``(aa) not later than 30 days prior to the expiration of the 
    individual's work authorization, the Secretary shall notify the 
    employer of such expiration and of the employer's need to reverify 
    the individual's employment eligibility; and
    ``(bb) the individual may present, and the employer shall accept, a 
    receipt for the application for a replacement document, extension 
    of work authorization, or a document described in clause (i) 
    through (v) of subparagraph (B) of subsection (b)(1) in lieu of the 
    required document by the expiration date in order to comply with 
    any requirement to examine documentation imposed by this section, 
    and the individual shall present the required document within 90 
    days from the date the employment authorization expires. If the 
    actual document or replacement document is to be issued by United 
    States Citizenship and Immigration Services and the application is 
    still under review 60 days after the employment authorization 
    expiration date, United States Citizenship and Immigration Services 
    shall by the 60th day after the expiration date of the employment 
    authorization, issue a letter for the applicant to take to the 
    employer which shall automatically grant the individual an 
    additional 90 days to present the document or replacement document; 
    and
                                    ``(II) the employer has actual or 
                                constructive knowledge that the 
                                individual is not authorized to work in 
                                the United States; or
                                    ``(III) unless otherwise required 
                                by law.
                            ``(ii) Continuing employment.--An employer 
                        may not verify an individual's employment 
                        eligibility if the individual is continuing in 
                        his or her employment as described in section 
                        274a.2(b)(1)(viii) of title 8, Code of Federal 
                        Regulation or any subsequent similar 
                        regulation.
                            ``(iii) Special rule for critical 
                        infrastructure.--Upon the implementation of the 
                        System, the Secretary shall require all 
                        agencies and departments of the United States 
                        (including the Armed Forces), a State 
                        government (including a State employment agency 
                        before making a referral), or any other 
                        employer if it employs individuals working in a 
                        location that is a Federal, State, or local 
                        government building, a military base, a nuclear 
                        energy site, a weapon site, or an airport, to 
                        complete a one time reverification of all 
                        individuals current employed at these 
                        facilities.
            ``(4) Design and operation of system.--The Secretary, in 
        consultation with the Commissioner of Social Security, shall 
        design and operate the System--
                    ``(A) to maximize reliability and ease of use by 
                employers in a manner that protects and maintains the 
                privacy and security of the information maintained in 
                the System;
                    ``(B) to permit an employer to submit an inquiry to 
                the System through the Internet or other electronic 
                media or over a telephone line;
                    ``(C) to respond to each inquiry made by an 
                employer;
                    ``(D) to maintain a record of each such inquiry and 
                each such response;
                    ``(E) to track and record any occurrence when the 
                System is unable to receive such an inquiry;
                    ``(F) to include appropriate administrative, 
                technical, and physical safeguards to prevent 
                unauthorized disclosure of personal information during 
                use, transmission, storage, or disposal of that 
                information, including the use of encryption, carrying 
                out periodic testing of the System to detect, prevent, 
                and respond to vulnerabilities or other failures, and 
                utilizing periodic security updates;
                    ``(G) to allow for monitoring of the use of the 
                System and provide an audit capability;
                    ``(H) to have reasonable safeguards, developed in 
                consultation with the Attorney General, to prevent 
                employers from engaging in unlawful discriminatory 
                practices;
                    ``(I) to permit an employer to submit the 
                attestations required by subsection (b); and
                    ``(J) to permit an employer to utilize any 
                technology that is consistent with this section and 
                with any regulation or guidance from the Secretary to 
                streamline the procedures to comply with the 
                attestation and employment eligibility verification 
                requirements contained in this section.
            ``(5) Limitation on data elements stored.--The System and 
        any databases created by the Commissioner of Social Security or 
        the Secretary for use in the System shall store only the 
        minimum data about each individual for whom an inquiry was made 
        through the System to facilitate the successful operation of 
        the System, and in no case shall the data stored be other 
        than--
                    ``(A) the individual's full legal name;
                    ``(B) the individual's date of birth;
                    ``(C) the individual's social security account 
                number or employment authorization status 
                identification number;
                    ``(D) the address of the employer making the 
                inquiry and the dates of any prior inquiries concerning 
                the identity and authorization of the individual by the 
                employer or any other employer and the address of such 
                employer;
                    ``(E) a record of each prior determination 
                regarding the individual's identity and employment 
                eligibility issued through the System; and
                    ``(F) in the case of the individual who 
                successfully contested or appealed a tentative 
                nonconfirmation or final nonconfirmation, explanatory 
                information concerning the successful resolution of any 
                erroneous data or confusion regarding the identity or 
                eligibility for employment of the individual, including 
                the source of that error.
            ``(6) Responsibilities of the commissioner of social 
        security.--The Commissioner of Social Security shall establish 
        a reliable, secure method to provide through the System, within 
        the time periods required by subparagraphs (B) and (C) of 
        paragraph (2)--
                    ``(A) a determination of whether the name and 
                social security account number provided, with respect 
                to an individual, in an inquiry by an employer, match 
                such information maintained by the Commissioner in 
                order to confirm the validity of the information 
                provided;
                    ``(B) a determination of whether such social 
                security account number was issued to the individual;
                    ``(C) a determination of whether such social 
                security account number is valid for employment in the 
                United States; and
                    ``(D) a determination described in subparagraph (B) 
                or (C) of paragraph (2), in a manner that ensures that 
                other information maintained by the Commissioner is not 
                disclosed or released to employers through the System.
            ``(7) Responsibilities of the secretary.--The Secretary 
        shall establish a reliable, secure method to provide, through 
        the System, within the time periods required by subparagraphs 
        (B) and (C) of paragraph (2)--
                    ``(A) a determination of whether the name and alien 
                identification or authorization number provided, with 
                respect to an individual, in an inquiry by an employer 
                match such information maintained by the Secretary in 
                order to confirm the validity of the information 
                provided;
                    ``(B) a determination of whether such number was 
                issued to the individual;
                    ``(C) a determination of whether the individual is 
                authorized to be employed in the United States; and
                    ``(D) any other related information that the 
                Secretary determines is appropriate.
            ``(8) Privacy impact assessment.--The Commissioner of 
        Social Security and the Secretary shall each complete a privacy 
        impact assessment as described in section 208 of the E-
        Government Act of 2002 (Public Law 107-347; 44 U.S.C. 3501 
        note) with regard to the System.
            ``(9) Training.--The Commissioner of Social Security and 
        the Secretary shall provide appropriate training materials to 
        employers participating in the System to ensure that such 
        employers are able to utilize the System in compliance with the 
        requirements of this section.
            ``(10) Hotline.--The Secretary shall establish a fully 
        staffed 24-hour hotline that shall receive inquiries from 
        individuals or employers concerning determinations made by the 
        System and shall identify for an individual, at the time of 
        inquiry, the particular data that resulted in a determination 
        that the System was unable to verify the individual's identity 
        or eligibility for employment.
            ``(11) Participation.--
                    ``(A) Requirements for participation.--Except as 
                provided in subparagraphs (D) and (E), the Secretary 
                shall require employers to participate in the System as 
                follows:
                            ``(i) Critical employers.--Not later than 1 
                        year after the date of enactment of the STRIVE 
                        Act of 2007, the Secretary shall require all 
                        agencies and departments of the United States 
                        (including the Armed Forces), a State 
                        government (including a State employment agency 
                        before making a referral), or any other 
                        employer if it employs individuals working in a 
                        location that is a Federal, State, or local 
                        government building, a military base, a nuclear 
                        energy site, a weapon site, or an airport, but 
                        only to the extent of such individuals, to 
                        participate in the System, with respect to all 
                        individuals hired after the date the Secretary 
                        requires such participation.
                            ``(ii) Large employers.--Not later than 2 
                        years after the date of enactment of the STRIVE 
                        Act of 2007 the Secretary shall require an 
                        employer with 5,000 or more employees in the 
                        United States to participate in the System, 
                        with respect to all employees hired by the 
                        employer after the date the Secretary requires 
                        such participation.
                            ``(iii) Mid-sized employers.--Not later 
                        than 3 years after the date of enactment of the 
                        STRIVE Act of 2007 the Secretary shall require 
                        an employer with less than 5,000 employees and 
                        1,000 or more employees in the United States to 
                        participate in the System, with respect to all 
                        employees hired by the employer after the date 
                        the Secretary requires such participation.
                            ``(iv) Small employers.--Not later than 4 
                        years after the date of the enactment of the 
                        STRIVE Act of 2007, the Secretary shall require 
                        all employers with less than 1,000 employees in 
                        the United States to participate in the System, 
                        with respect to all employees hired by the 
                        employer after the date the Secretary requires 
                        such participation.
                    ``(B) Requirement to publish.--The Secretary shall 
                publish in the Federal Register the requirements for 
                participation in the System for employers described in 
                clauses (i) through (iv) of subparagraph (A) prior to 
                the effective date of such requirements.
                    ``(C) Other participation in system.--
                            ``(i) Voluntary participation.--
                        Notwithstanding subparagraph (A), the Secretary 
                        has the authority to permit any employer that 
                        is not required to participate in the System 
                        under subparagraph (A) to participate in the 
                        System on a voluntary basis.
                            ``(ii) Employers not required to 
                        participate.--Notwithstanding subparagraph (A) 
                        employers are not required to verify the 
                        identify or employment eligibility through the 
                        System for--
                                    ``(I) an individual performing 
                                casual employment for the employer and 
                                who provides domestic service in a 
                                private home that is sporadic, 
                                irregular, or intermittent;
                                    ``(II) a worker provided to the 
                                employer by a person providing contract 
                                services, such as a temporary agency; 
                                or
                                    ``(III) an independent contractor, 
                                performing services for the employer.
                            ``(iii) Relationship to other 
                        requirements.--Nothing in clause (ii) may be 
                        construed to effect the requirements for the 
                        contracting party who employs a worker referred 
                        to in subclause (II) of such clause or an 
                        employer of an independent contractor referred 
                        to in subclause (III) of such clause to 
                        participate in the System with respect to such 
                        worker or independent contractor under this 
                        subsection.
                    ``(D) Waiver.--
                            ``(i) Authority to provide a waiver.--The 
                        Secretary is authorized to waive or delay the 
                        participation requirements of subparagraph (A) 
                        with respect to any employer or class of 
                        employers if the Secretary provides notice to 
                        Congress of such waiver prior to the date such 
                        waiver is granted.
                            ``(ii) Requirement to provide a waiver.--
                        The Secretary shall waive or delay the 
                        participation requirements of subparagraph (A) 
                        with respect to any employer or class of 
                        employers until the date that the Comptroller 
                        General of the United States submits the 
                        initial certification described in paragraph 
                        (17)(E) and shall waive or delay such 
                        participation during a year if the Comptroller 
                        General fails to submit a certification of 
                        paragraph (17)(E) for such year.
                    ``(E) Consequence of failure to participate.--If an 
                employer is required to participate in the System and 
                fails to comply with the requirements of the System 
                with respect to an individual--
                            ``(i) such failure shall be treated as a 
                        violation of subsection (a)(1)(B); and
                            ``(ii) a rebuttable presumption is created 
                        that the employer has violated subsection 
                        (a)(1)(A), however, such presumption may not 
                        apply to a prosecution under subsection (e)(1).
            ``(12) Employer requirements.--
                    ``(A) In general.--An employer that participates in 
                the System, with respect to the hiring of an individual 
                for employment in the United States, shall--
                            ``(i) notify the individual of the use of 
                        the System and that the System may be used for 
                        immigration enforcement purposes;
                            ``(ii) obtain from the individual the 
                        documents required by subsection (b)(1) and 
                        record on the form designated by the 
                        Secretary--
                                    ``(I) the individual's social 
                                security account number; and
                                    ``(II) in the case of an individual 
                                who does not attest that the individual 
                                is a national of the United States 
                                under subsection (b)(2), such 
                                identification or authorization number 
                                that the Secretary shall require;
                            ``(iii) retain such form in electronic, 
                        paper, microfilm, or microfiche form and make 
                        such form available for inspection for the 
                        periods and in the manner described in 
                        subsection (b)(3); and
                            ``(iv) safeguard any information collected 
                        for purposes of the System and protect any 
                        means of access to such information to ensure 
                        that such information is not used for any 
                        purpose other than to determine the identity 
                        and employment eligibility of the individual 
                        and to protect the confidentiality of such 
                        information, including ensuring that such 
                        information is not provided to any person other 
                        than a person that carries out the employer's 
                        responsibilities under this subsection.
                    ``(B) Schedule.--
                            ``(i) Replacement documents.--An employer 
                        shall accept a receipt for the application for 
                        a replacement document or a document described 
                        in subparagraph (B) of subsection (b)(1) in 
                        lieu of the required document in order to 
                        comply with any requirement to examine 
                        documentation imposed by this section, in the 
                        following circumstances:
                                    ``(I) The individual is unable to 
                                provide the required document within 
                                the time specified in this section 
                                because the document was lost, stolen, 
                                or damaged.
                                    ``(II) The individual presents a 
                                receipt for the application for the 
                                document within the time specified in 
                                this section.
                                    ``(III) The individual presents the 
                                document within 90 days of the hire. If 
                                the actual document or replacement 
                                document is to be issued by the United 
                                States Citizenship and Immigration 
                                Services and the application is still 
                                under review 60 days after receipt of 
                                the application, United States 
                                Citizenship and Immigration Services 
                                shall, not later than the 60th day 
                                after receipt of the application, issue 
                                a letter for the applicant to take to 
                                the employer which shall automatically 
                                grant the individual an additional 90 
                                days from the original deadline in 
                                subsection (b)(6)(A)(i)(II) to present 
                                the document or replacement document; 
                                and
                            ``(ii) Prohibition on acceptance of a 
                        receipt for short-term employment.--An employer 
                        may not accept a receipt in lieu of the 
                        required document if the individual is hired 
                        for a duration of less than 10 working days.
                    ``(C) Confirmation or nonconfirmation.--
                            ``(i) Retention.--If an employer receives a 
                        determination through the System under 
                        paragraph (3) for an individual, the employer 
                        shall retain either an electronic, paper, or 
                        microfiche form record of such confirmation for 
                        the period required by subsection (b)(4)(A).
                            ``(ii) Nonconfirmation and verification.--
                                    ``(I) Nonconfirmation.--If an 
                                employer receives a tentative 
                                nonconfirmation with respect to an 
                                individual, the employer shall retain 
                                either an electronic or paper record of 
                                such nonconfirmation for the period 
                                required by subsection (b)(4)(A) and 
                                inform such individual not later than 
                                10 working days after the issuance of 
                                such notice in the manner prescribed by 
                                the Secretary that includes information 
                                regarding the individual's right to 
                                submit information to contest the 
                                tentative nonconfirmation under 
                                paragraph (2)(D) and the address and 
                                telephone numbers established by the 
                                Commissioner and the Secretary to 
                                obtain information on how to submit 
                                such information.
                                    ``(II) No contest.--If the 
                                individual does not contest the 
                                tentative nonconfirmation notice within 
                                15 working days of receiving notice 
                                from the individual's employer, the 
                                notice shall become final and the 
                                employer shall retain either an 
                                electronic or paper record of such 
                                final nonconfirmation for the period 
                                required by subsection (b)(4)(A). An 
                                individual's failure to contest a 
                                tentative nonconfirmation may not be 
                                the basis for determining that the 
                                employer acted in a knowing (as defined 
                                in section 274a.1 of title 8, Code of 
                                Federal Regulations, or any 
                                corresponding similar regulation) 
                                manner.
                                    ``(III) Contest.--If the individual 
                                contests the tentative nonconfirmation 
                                notice under subclause (I), the 
                                individual shall submit appropriate 
                                information to contest such notice to 
                                the System within 15 working days of 
                                receiving notice from the individual's 
                                employer and shall utilize the 
                                verification process developed under 
                                paragraph (2)(C)(ii). Such individual 
                                shall acknowledge receipt of such 
                                notice in writing.
                                    ``(IV) Effective period of 
                                tentative nonconfirmation.--A tentative 
                                nonconfirmation notice shall remain in 
                                effect until such notice becomes final 
                                under clause (II) or a final 
                                confirmation notice or final 
                                nonconfirmation notice is issued by the 
                                System.
                                    ``(V) Prohibition.--An employer may 
                                not terminate the employment of an 
                                individual based on a tentative 
                                nonconfirmation notice until such 
                                notice becomes final under clause (II) 
                                or a final nonconfirmation notice is 
                                issued for the individual by the 
                                System. Nothing in this clause shall 
                                apply to termination of employment for 
                                any reason other than because of such a 
                                tentative nonconfirmation.
                                    ``(VI) Recording of conclusion on 
                                form.--If a final confirmation or 
                                nonconfirmation is provided by the 
                                System regarding an individual, the 
                                employer shall record on the form 
                                designated by the Secretary the 
                                appropriate code that is provided under 
                                the System to indicate a confirmation 
                                or nonconfirmation of the identity and 
                                employment eligibility of the 
                                individual.
                    ``(D) Consequences of nonconfirmation.--If an 
                employer has received a final nonconfirmation with 
                respect to an individual, the employer shall terminate 
                the employment of the individual. If the employer 
                continues to employ the individual after receiving 
                final nonconfirmation, a rebuttable presumption is 
                created that the employer has violated paragraphs 
                (1)(A) and (2) of subsection (a). Such presumption may 
                not apply to a prosecution under subsection (e)(1).
            ``(13) Prohibition of unlawful accessing and obtaining of 
        information.--
                    ``(A) In general.--It shall be unlawful for any 
                individual other than an employee of the Social 
                Security Administration or the Department of Homeland 
                Security specifically charged with maintaining the 
                System to intentionally and knowingly--
                            ``(i) access the System or the databases 
                        utilized to verify identity or employment 
                        eligibility for the System for any purpose 
                        other than verifying identity or employment 
                        eligibility or modifying the System pursuant to 
                        law or regulation; or
                            ``(ii) obtain the information concerning an 
                        individual stored in the System or the 
                        databases utilized to verify identity or 
                        employment eligibility for the System for any 
                        purpose other than verifying identity or 
                        employment authorization or modifying the 
                        System pursuant to law or regulation.
                    ``(B) Penalties.--
                            ``(i) Unlawful access.--Any individual who 
                        unlawfully accesses the System or the databases 
                        as described in subparagraph (A)(i) shall be 
                        fined no more than $1,000 per individual or 
                        sentenced to no more than 6 months imprisonment 
                        or both per individual whose file was 
                        compromised.
                            ``(ii) Unlawful use.--Any individual who 
                        unlawfully obtains information stored in the 
                        System in the database utilized to verify 
                        identity or employment eligibility for the 
                        System and uses the information to commit 
                        identity theft for financial gain or to evade 
                        security or to assist another in gaining 
                        financially or evading security, shall be fined 
                        no more than $10,000 per individual or 
                        sentenced to no more than 1 year of 
                        imprisonment or both per individual whose 
                        information was obtained and misappropriated.
            ``(14) Protection from liability.--No employer that 
        participates in the System and complies in good faith with the 
        attestation in subsection (b)(1) shall be liable under any law 
        for any employment-related action taken with respect to an 
        individual in good faith reliance on information provided by 
        the System regarding that individual.
            ``(15) Limitation on use of the system.--Notwithstanding 
        any other provision of law, nothing in this subsection shall be 
        construed to permit or allow any department, bureau, or other 
        agency of the United States to utilize any information, 
        database, or other records used in the System for any purpose 
        other than as provided for under this subsection.
            ``(16) Access to database.--No officer or employee of any 
        agency or department of the United States, other than such an 
        officer or employee who is responsible for the verification of 
        employment eligibility or for the evaluation of an employment 
        eligibility verification program at the Social Security 
        Administration, the Department of Homeland Security, and the 
        Department of Labor, may have access to any information, 
        database, or other records utilized by the System.
            ``(17) Modification authority.--The Secretary, after notice 
        is submitted to Congress and provided to the public in the 
        Federal Register, is authorized to modify the requirements of 
        this subsection, including requirements with respect to 
        completion of forms, method of storage, attestations, copying 
        of documents, signatures, methods of transmitting information, 
        and other operational and technical aspects to improve the 
        efficiency, accuracy, and security of the System.
            ``(18) Annual study and report.--
                    ``(A) Requirement for study.--The Comptroller 
                General of the United States shall conduct an annual 
                study of the System as described in this paragraph.
                    ``(B) Purpose of the study.--The Comptroller 
                General shall, for each year, undertake a study to 
                determine whether the System meets the following 
                requirements:
                            ``(i) Demonstrated accuracy of the 
                        databases.--New information and information 
                        changes submitted by an individual to the 
                        System is updated in all of the relevant 
                        databases not later than 3 working days after 
                        submission in at least 99 percent of all cases.
                            ``(ii) Low error rates and delays in 
                        verification.--
                                    ``(I) Incorrect tentative 
                                nonconfirmation notices.--That, during 
                                a year, not more than 1 percent of all 
                                tentative nonconfirmations provided 
                                through the System during such year are 
                                incorrect.
                                    ``(II) Incorrect final 
                                nonconfirmation notices.--That, during 
                                a year, not more than 3 percent of all 
                                final nonconfirmations provided through 
                                the System during such year are 
                                incorrect.
                                    ``(III) Rates of incorrect 
                                tentative nonconfirmation notices.--
                                That, during a year, the number of 
                                incorrect tentative nonconfirmations 
                                provided through the System for 
                                individuals who are not nationals of 
                                the United States is not more than 300 
                                percent more than the number of such 
                                incorrect notices provided for 
                                nationals of the United States.
                                    ``(IV) Rates of incorrect final 
                                nonconfirmation notices.--That, during 
                                a year, the number of incorrect final 
                                nonconfirmations provided through the 
                                System for individuals who are not 
                                nationals of the United States is not 
                                more than 300 percent more than the 
                                number of such incorrect notices 
                                provided for nationals of the United 
                                States during such year.
                            ``(iii) Measurable employer compliance with 
                        system requirements.--
                                    ``(I) No discrimination based on 
                                system operations.--The System has not 
                                and will not result in increased 
                                discrimination or cause reasonable 
                                employers to conclude that individuals 
                                of certain races or ethnicities are 
                                more likely to have difficulties when 
                                offered employment caused by the 
                                operation of the System.
                                    ``(II) Requirement for independent 
                                study.--The determination described in 
                                subclause (I) shall be based on an 
                                independent study commissioned by the 
                                Comptroller General in each phase of 
                                expansion of the System.
                            ``(iv) Protection of workers' private 
                        information.--At least 97 percent of employers 
                        who participate in the System are in full 
                        compliance with the privacy requirements 
                        described in this subsection.
                            ``(v) Adequate agency staffing and 
                        funding.--The Secretary and Commissioner of 
                        Social Security have sufficient funding to meet 
                        all of the deadlines and requirements of this 
                        subsection.
                    ``(C) Consultation.--In conducting a study under 
                this paragraph, the Comptroller General shall consult 
                with representatives of business, labor, immigrant 
                communities, State governments, privacy advocates, and 
                appropriate departments of the United States.
                    ``(D) Requirement for reports.--Not later than 21 
                months after the date of the enactment of the STRIVE 
                Act of 2007, and annually thereafter, the Comptroller 
                General shall submit to the Secretary and to Congress a 
                report containing the findings of the study carried out 
                under this paragraph.
                    ``(E) Certification.--If the Comptroller General 
                determines that the System meets the requirements set 
                out in clauses (i) through (v) of subparagraph (B) for 
                a year, the Comptroller shall certify such 
                determination and submit such certification to Congress 
                with the report required by subparagraph (D).
            ``(19) Administrative review.--
                    ``(A) In general.--An individual who is terminated 
                from employment as a result of a final nonconfirmation 
                may, not later than 60 days after the date of such 
                termination, file an appeal of such final 
                nonconfirmation.
                    ``(B) Procedures.--The Secretary and Commissioner 
                of Social Security shall develop procedures to review 
                appeals filed under subparagraph (A) and to make final 
                determinations on such appeals.
                    ``(C) Review for errors.--If a final determination 
                on an appeal filed under subparagraph (A) results in a 
                confirmation of an individual's eligibility for 
                employment in the United States, the administrative 
                review process shall require the Secretary to determine 
                if the final nonconfirmation issued for the individual 
                was the result of--
                            ``(i) an error or negligence on the part of 
                        an employee or official operating or 
                        responsible for the System;
                            ``(ii) the decision rules, processes, or 
                        procedures utilized by the System; or
                            ``(iii) erroneous system information that 
                        was not the result of acts or omissions of the 
                        individual.
                    ``(D) Compensation for error.--
                            ``(i) In general.--If the Secretary makes a 
                        determination under subparagraph (C) that the 
                        final nonconfirmation issued for an individual 
                        was not caused by an act or omission of the 
                        individual, the Secretary shall compensate the 
                        individual for lost wages.
                            ``(ii) Calculation of lost wages.--Lost 
                        wages shall be calculated based on the wage 
                        rate and work schedule that prevailed prior to 
                        termination. The individual shall be 
                        compensated for wages lost beginning on the 
                        first scheduled work day after employment was 
                        terminated and ending 180 days after completion 
                        of the administrative review process described 
                        in this paragraph or the day after the 
                        individual is reinstated or obtains employment 
                        elsewhere, whichever occurs first.
                    ``(E) Limitation on compensation.--For purposes of 
                determining an individual's compensation for the loss 
                of employment, such compensation shall not include any 
                period in which the individual was ineligible for 
                employment in the United States.
                    ``(F) Source of funds.--Compensation or 
                reimbursement provided under this paragraph shall not 
                be provided from funds appropriated in annual 
                appropriations Acts to the Secretary for the Department 
                of Homeland Security.
            ``(20) Judicial review.--
                    ``(A) In general.--After the Secretary makes a 
                final determination on an appeal filed by an individual 
                under paragraph (19), the individual may obtain 
                judicial review of such determination in a civil action 
                commenced not later than 90 days after notice of such 
                decision, or such further time as the Secretary may 
                allow.
                    ``(B) Report.--Not later than 180 days after the 
                date of enactment of the STRIVE Act of 2007, the 
                Director of the Federal Judicial Center shall submit to 
                Congress a report on judicial review of an 
                administrative decision on a final nonconfirmation. The 
                report shall contain recommendations on jurisdiction 
                and procedures that shall be instituted to seek 
                adequate and timely review of such decision.
                    ``(C) Compensation for error.--
                            ``(i) In general.--In cases in which such 
                        judicial review reverses the final 
                        determination of the Secretary made under 
                        paragraph (19), the court shall compensate the 
                        individual for lost wages.
                            ``(ii) Calculation of lost wages.--Lost 
                        wages shall be calculated based on the wage 
                        rate and work schedule that prevailed prior to 
                        termination. The individual shall be 
                        compensated for wages lost beginning on the 
                        first scheduled work day after employment was 
                        terminated and ending 180 days after completion 
                        of the judicial review described in this 
                        paragraph or the day after the individual is 
                        reinstated or obtains employment elsewhere, 
                        whichever occurs first.
            ``(21) Enforcement of violations.--No private right of 
        action shall exist for any claim based on a violation of this 
        section. The Government of the United States shall have 
        exclusive enforcement authority over violations of this section 
        and shall use only the powers, penalties, and mechanisms found 
        in this section. This paragraph shall apply to all cases in 
        which a final judgment has not been entered prior to or on the 
        date of enactment of the STRIVE Act of 2007.
            ``(22) Safe harbor for contractors.--A person shall not be 
        liable for a violation of paragraph (1)(A), (1)(B), or (2) of 
        subsection (a) with respect to the hiring or continuation of 
        employment of an unauthorized alien by a subcontractor of that 
        person unless the person knew that the subcontractor hired or 
        continued to employ such alien in violation of such a 
        paragraph.
            ``(23) Statutory construction.--Nothing in this subsection 
        shall affect any existing rights and obligations of employers 
        or employees under other Federal, State, or local laws.
    ``(d) Compliance.--
            ``(1) Complaints and investigations.--The Secretary shall 
        establish procedures--
                    ``(A) for a person to file a complaint regarding a 
                potential violation of paragraph (1)(A), (1)(B), or (2) 
                of subsection (a);
                    ``(B) for the investigation of any such complaint 
                that the Secretary determines is appropriate to 
                investigate; and
                    ``(C) for the investigation of such other violation 
                of paragraph (1)(A), (1)(B), or (2) of subsection (a) 
                that the Secretary determines is appropriate.
            ``(2) Authority in investigations.--
                    ``(A) In general.--In conducting investigations and 
                hearings under this subsection, officers and employees 
                of the Department of Homeland Security, if designated 
                by the Secretary, may compel by subpoena the attendance 
                of witnesses and the production of evidence at any 
                designated place in an investigation or case under this 
                subsection.
                    ``(B) Failure to cooperate.--In case of refusal to 
                obey a subpoena lawfully issued under subparagraph (A), 
                the Secretary may request that the Attorney General 
                apply in an appropriate district court of the United 
                States for an order requiring compliance with such 
                subpoena, and any failure to obey such order may be 
                punished by such court as contempt.
                    ``(C) Department of labor.--The Secretary of Labor 
                shall have the investigative authority provided under 
                section 11(a) of the Fair Labor Standards Act of 1938 
                (29 U.S.C. 211(a)) to ensure compliance with the 
                provisions of this section, or any regulation or order 
                issued under this section.
            ``(3) Compliance procedures.--
                    ``(A) Prepenalty notice.--If the Secretary has 
                reasonable cause to believe that there has been a 
                violation of a requirement of this section and 
                determines that further proceedings related to such 
                violation are warranted, the Secretary shall issue to 
                the employer concerned a written notice of the 
                Secretary's intention to issue a claim for a fine or 
                other penalty. Such notice shall--
                            ``(i) describe the violation;
                            ``(ii) specify the laws and regulations 
                        allegedly violated;
                            ``(iii) disclose the material facts which 
                        establish the alleged violation; and
                            ``(iv) inform such employer that the 
                        employer shall have a reasonable opportunity to 
                        make representations as to why a claim for a 
                        monetary or other penalty should not be 
                        imposed.
                    ``(B) Remission or mitigation of penalties.--
                            ``(i) Petition by employer.--If an employer 
                        receives written notice of a fine or other 
                        penalty in accordance with subparagraph (A), 
                        the employer may file within 45 days from 
                        receipt of such notice, with the Secretary a 
                        petition for the remission or mitigation of 
                        such fine or penalty, or a petition for 
                        termination of the proceedings. The petition 
                        may include any relevant evidence or proffer of 
                        evidence the employer wishes to present, and 
                        shall be filed and considered in accordance 
                        with procedures to be established by the 
                        Secretary.
                            ``(ii) Review by secretary.--If the 
                        Secretary finds that such fine or other penalty 
                        was incurred erroneously, or finds the 
                        existence of such mitigating circumstances as 
                        to justify the remission or mitigation of such 
                        fine or penalty, the Secretary may remit or 
                        mitigate such fine or other penalty on the 
                        terms and conditions as the Secretary 
                        determines are reasonable and just, or order 
                        termination of any proceedings related to the 
                        notice. Such mitigating circumstances may 
                        include good faith compliance and participation 
                        in, or agreement to participate in, the System, 
                        if not otherwise required.
                            ``(iii) Applicability.--This subparagraph 
                        may not apply to an employer that has or is 
                        engaged in a pattern or practice of violations 
                        of paragraph (1)(A), (1)(B), or (2) of 
                        subsection (a) or of any other requirements of 
                        this section.
                    ``(C) Penalty claim.--After considering evidence 
                and representations offered by the employer pursuant to 
                subparagraph (B), the Secretary shall determine whether 
                there was a violation and promptly issue a written 
                final determination setting forth the findings of fact 
                and conclusions of law on which the determination is 
                based and the appropriate penalty.
            ``(4) Civil penalties.--
                    ``(A) Hiring or continuing to employ unauthorized 
                aliens.--Any employer that violates paragraph (1)(A) or 
                (2) of subsection (a) shall pay civil penalties as 
                follows:
                            ``(i) Pay a civil penalty of not less than 
                        $500 and not more than $4,000 for each 
                        unauthorized alien with respect to each such 
                        violation.
                            ``(ii) If the employer has previously been 
                        fined 1 time within the preceding 12 months 
                        under this subparagraph, pay a civil penalty of 
                        not less than $4,000 and not more than $10,000 
                        for each unauthorized alien with respect to 
                        each such violation.
                            ``(iii) If the employer has previously been 
                        fined more than 1 time within the preceding 12 
                        months under this subparagraph or has failed to 
                        comply with a previously issued and final order 
                        related to any such provision, pay a civil 
                        penalty of not less than $6,000 and not more 
                        than $20,000 for each unauthorized alien with 
                        respect to each such violation.
                    ``(B) Record keeping or verification practices.--
                Any employer that violates or fails to comply with 
                paragraph (1)(B) of subsection (a) shall pay a civil 
                penalty as follows:
                            ``(i) Pay a civil penalty of not less than 
                        $200 and not more than $2,000 for each such 
                        violation or failure.
                            ``(ii) If the employer has previously been 
                        fined 1 time within the preceding 12 months 
                        under this subparagraph, pay a civil penalty of 
                        not less than $400 and not more than $4,000 for 
                        each such violation of failure.
                            ``(iii) If the employer has previously been 
                        fined more than 1 time within the preceding 12 
                        months under this subparagraph or has failed to 
                        comply with a previously issued and final order 
                        related to such requirements, pay a civil 
                        penalty of $6,000 for each such violation or 
                        failure.
                            ``(iv) Special rule governing paperwork 
                        violation.--In the case where an employer 
                        commits a violation of this section that is 
                        deemed to be purely a paperwork violation where 
                        the Secretary fails to establish any intent to 
                        hire an individual who is not unauthorized for 
                        employment in the United States, the Secretary 
                        shall permit the employer to correct such 
                        paperwork error within 30 days of receiving 
                        notice from the Secretary of such violation.
                    ``(C) Other penalties.--Notwithstanding 
                subparagraphs (A) and (B), the Secretary may impose 
                additional penalties for violations, including cease 
                and desist orders, specially designed compliance plans 
                to prevent further violations, suspended fines to take 
                effect in the event of a further violation, and in 
                appropriate cases, the civil penalty described in 
                subsection (f)(2).
                    ``(D) Reduction of penalties.--Notwithstanding 
                subparagraphs (A), (B), and (C), the Secretary is 
                authorized to reduce or mitigate penalties imposed upon 
                employers, based upon factors including the employer's 
                hiring volume, compliance history, good-faith 
                implementation of a compliance program, participation 
                in a temporary worker program, and voluntary disclosure 
                of violations of this subsection to the Secretary.
            ``(5) Judicial review.--
                    ``(A) In general.--An employer adversely affected 
                by a final determination may, within 45 days after the 
                date the final determination is issued, obtain judicial 
                review of such determination.
                    ``(B) Report.--Not later than 180 days after the 
                date of enactment of the STRIVE Act of 2007, the 
                Director of the Federal Judicial Center shall submit to 
                Congress a report on judicial review of a final 
                determination. The report shall contain recommendations 
                on jurisdiction and procedures that shall be instituted 
                to seek adequate and timely review of such decision.
            ``(6) Enforcement of orders.--If an employer fails to 
        comply with a final determination issued against that employer 
        under this subsection, and the final determination is not 
        subject to review as provided in paragraph (5), the Attorney 
        General may file suit to enforce compliance with the final 
        determination, not earlier than 46 days and not later than 90 
        days, after the date the final determination is issued, in any 
        appropriate district court of the United States. The burden 
        shall remain on the employer to show that the final 
        determination was not supported by a preponderance of the 
        evidence.
            ``(7) Recovery of costs and attorneys' fees.--In any appeal 
        brought under paragraph (5) or suit brought under paragraph 
        (6), the employer shall be entitled to recover from the 
        Secretary reasonable costs and attorneys' fees if such employer 
        prevails on the merits of the case. The award of attorneys' 
        fees shall not exceed $50,000. Such amount shall be subject to 
        annual inflation adjustments per the United States Consumer 
        Price Index - All Urban Consumers (CPI-U) compiled by the 
        Bureau of Labor Statistics. Any costs and attorneys' fees 
        assessed against the Secretary shall be charged against the 
        operating expenses of the Department of Homeland Security for 
        the fiscal year in which the assessment is made, and shall not 
        be reimbursed from any other source.
    ``(e) Criminal Penalties and Injunctions for Pattern or Practice 
Violations.--
            ``(1) Criminal penalty.--An employer that engages in a 
        pattern or practice of knowing violations of paragraph (1)(A) 
        or (2) of subsection (a) shall be fined not more than $20,000 
        for each unauthorized alien with respect to whom such a 
        violation occurs, imprisoned for not more than 3 years for the 
        entire pattern or practice, or both.
            ``(2) Enjoining of pattern or practice violations.--If the 
        Secretary or the Attorney General has reasonable cause to 
        believe that an employer is engaged in a pattern or practice of 
        employment in violation of paragraph (1)(A) or (2) of 
        subsection (a), the Attorney General may bring a civil action 
        in the appropriate district court of the United States 
        requesting such relief, including a permanent or temporary 
        injunction, restraining order, or other order against the 
        employer, as the Secretary deems necessary.
    ``(f) Adjustment for Inflation.--All penalties and limitations on 
the recovery of costs and attorney's fees in this section shall be 
increased every 4 years beginning January 2010 to reflect the 
percentage increase in the consumer price index for all urban consumers 
(all items; United States city average) for the 48 month period ending 
with September of the year preceding the year such adjustment is made. 
Any adjustment under this subparagraph shall be rounded to the nearest 
dollar.
    ``(g) Prohibition of Indemnity Bonds.--
            ``(1) Prohibition.--It is unlawful for an employer, in the 
        hiring of an individual, to require the individual to post a 
        bond or security, to pay or agree to pay an amount, or 
        otherwise to provide a financial guaranty or indemnity, against 
        any potential liability arising under this section relating to 
        such hiring of the individual.
            ``(2) Civil penalty.--Any employer which is determined, 
        after notice and opportunity for mitigation of the monetary 
        penalty under subsection (d), to have violated paragraph (1) 
        shall be subject to a civil penalty of $10,000 for each 
        violation and to an administrative order requiring the return 
        of any amounts received in violation of such paragraph to the 
        individual.
    ``(h) Prohibition on Award of Government Contracts, Grants, and 
Agreements.--
            ``(1) Employers with no contracts, grants, or agreements.--
                    ``(A) In general.--If an employer who does not hold 
                a Federal contract, grant, or cooperative agreement is 
                determined by the Secretary to be a repeat violator of 
                this section the employer shall be debarred from the 
                receipt of a Federal contract, grant, or cooperative 
                agreement for a period of 5 years. The Secretary or the 
                Attorney General shall advise the Administrator of 
                General Services of such a debarment, and the 
                Administrator of General Services shall list the 
                employer on the List of Parties Excluded from Federal 
                Procurement and Nonprocurement Programs for a period of 
                5 years.
                    ``(B) Waiver.--The Administrator of General 
                Services, in consultation with the Secretary and the 
                Attorney General, may waive operation of this 
                subsection or may limit the duration or scope of the 
                debarment.
            ``(2) Employers with contracts, grants, or agreements.--
                    ``(A) In general.--An employer who holds a Federal 
                contract, grant, or cooperative agreement and is 
                determined by the Secretary to be a repeat violator of 
                this section or is convicted of a crime under this 
                section, shall be debarred from the receipt of new 
                Federal contracts, grants, or cooperative agreements 
                for a period of 5 years.
                    ``(B) Notice to agencies.--Prior to debarring the 
                employer under subparagraph (A), the Secretary, in 
                cooperation with the Administrator of General Services, 
                shall advise any agency or department holding a 
                contract, grant, or cooperative agreement with the 
                employer of the Government's intention to debar the 
                employer from the receipt of new Federal contracts, 
                grants, or cooperative agreements for a period of 5 
                years.
                    ``(C) Waiver.--After consideration of the views of 
                any agency or department that holds a contract, grant, 
                or cooperative agreement with the employer, the 
                Secretary may, in lieu of debarring the employer from 
                the receipt of new Federal contracts, grants, or 
                cooperative agreements for a period of 5 years, waive 
                operation of this subsection, limit the duration or 
                scope of the debarment, or may refer to an appropriate 
                lead agency the decision of whether to debar the 
                employer, for what duration, and under what scope in 
                accordance with the procedures and standards prescribed 
                by the Federal Acquisition Regulation. However, any 
                proposed debarment predicated on an administrative 
                determination of liability for civil penalty by the 
                Secretary or the Attorney General shall not be 
                reviewable in any debarment proceeding.
                    ``(D) Review.--The decision of whether to debar or 
                take alternate action under this paragraph shall be 
                reviewable pursuant to section 9, Federal Acquisition 
                Regulation.
            ``(3) Suspension.--Indictments for violations of this 
        section or adequate evidence of actions that could form the 
        basis for debarment under this subsection shall be considered a 
        cause for suspension under the procedures and standards for 
        suspension prescribed by the Federal Acquisition Regulation.
            ``(4) Repeat violator defined.--In this subsection, the 
        term `repeat violator' means, with respect to an employer, that 
        the employer has violated paragraph (1)(A), (1)(B), or (2) of 
        subsection (a) more than 1 time and that such violations were 
        discovered as a result of more than 1 separate investigation of 
        the employer. A violation of such paragraph (1)(B) that is 
        inadvertent and unrelated to a violation of subsection 
        (a)(1)(A) and (a)(2) may not be considered to be a violation of 
        such paragraph (1)(B) for the purposes of this paragraph.
    ``(i) Miscellaneous Provisions.--
            ``(1) Documentation.--In providing documentation or 
        endorsement of authorization of aliens (other than aliens 
        lawfully admitted for permanent residence) eligible to be 
        employed in the United States, the Secretary shall provide that 
        any limitations with respect to the period or type of 
        employment or employer shall be conspicuously stated on the 
        documentation or endorsement.
            ``(2) Preemption.--The provisions of this section preempt 
        any State or local law from--
                    ``(A) imposing civil or criminal sanctions upon 
                employers who employ or otherwise do business with 
                unauthorized aliens;
                    ``(B) requiring, authorizing, or permitting the use 
                of a federally mandated employment verification system 
                for any other purpose other than the one mandated in 
                Federal law, including verifying status of renters, 
                determining eligibility for receipt of benefits, 
                enrollment in school, obtaining or retaining a business 
                license or other license provided by the unit of 
                government, or conducting a background check; and
                    ``(C) requiring employers to use an employment 
                verification system, unless otherwise mandated by 
                Federal law, for purposes such as--
                            ``(i) as a condition of receiving a 
                        government contract;
                            ``(ii) as a condition of receiving a 
                        business license; or
                            ``(iii) as a penalty.
    ``(j) Definitions.--In this section--
            ``(1) Employer.--The term `employer' means any person or 
        entity, including any entity of the Government of the United 
        States, hiring an individual for employment in the United 
        States.
            ``(2) Independent contractor.--The term `independent 
        contractor' includes a person who carries on independent 
        business, contracts to do a piece of work according to the 
        person's own means and methods, and are subject to control only 
        as to results. Whether a person is an independent contractor, 
        regardless of any self-designation, will be determined on a 
        case-by-case basis. Factors to be considered in that 
        determination include whether the person--
                    ``(A) supplies the tools or materials;
                    ``(B) makes services available to the general 
                public;
                    ``(C) works for a number of clients at the same 
                time;
                    ``(D) has an opportunity for profit or loss as a 
                result of labor or services provided;
                    ``(E) invests in facilities to carry out the work;
                    ``(F) directs the order or sequence in which the 
                work is to be done; and
                    ``(G) determines the hours during which the work is 
                to be done.
            ``(3) Secretary.--Except as otherwise provided, the term 
        `Secretary' means the Secretary of Homeland Security.
            ``(4) Unauthorized alien.--The term `unauthorized alien' 
        means, with respect to the employment of an alien at a 
        particular time, that the alien is not at that time either--
                    ``(A) an alien lawfully admitted for permanent 
                residence; or
                    ``(B) authorized to be so employed by this Act or 
                by the Secretary.''.
    (b) Antifraud Measures for Social Security Cards.--
            (1) In general.--Section 205(c)(2)(G) of the Social 
        Security Act (42 U.S.C. 405(c)(2)(G)) is amended--
                    (A) by inserting ``(i)'' after ``(G)'';
                    (B) by striking ``banknote paper'' and inserting 
                ``durable plastic or similar material''; and
                    (C) by adding at the end the following new clauses:
                            ``(ii) Each social security card issued 
                        under this subparagraph shall include an 
                        encrypted machine-readable electronic 
                        identification strip which shall be unique to 
                        the individual to whom the card is issued. The 
                        Commissioner shall develop such electronic 
                        identification strip in consultation with the 
                        Secretary of Homeland Security, so as to enable 
                        employers to use such strip in accordance with 
                        section 274A(a)(1)(B) of the Immigration and 
                        Nationality Act (8 U.S.C. 1324a(a)(1)(B)) to 
                        obtain access to the Electronic Employment 
                        Verification System established by subsection 
                        (c) of this title.
                            ``(iii) Each social security card issued 
                        under this subparagraph shall--
                                    ``(I) contain physical security 
                                features designed to prevent tampering, 
                                counterfeiting, or duplication of the 
                                card for fraudulent purposes;
                                    ``(II) be consistent with the 
                                biometric standards for documents 
                                described in section 737 of this Act; 
                                and
                                    ``(III) contain a disclaimer 
                                stating the following: `This card shall 
                                not be used for the purpose of 
                                identification.
                            ``(iv) The Commissioner shall provide for 
                        the issuance (or reissuance) to each individual 
                        who--
                                    ``(I) has been assigned a Social 
                                Security account number under 
                                subparagraph (B),
                                    ``(II) has attained the minimum age 
                                applicable, in the jurisdiction in 
                                which such individual engages in 
                                employment, for legally engaging in 
                                such employment, and
                                    ``(III) files application for such 
                                card under this clause in such form and 
                                manner as shall be prescribed by the 
                                Commissioner, a Social Security card 
                                which meets the preceding requirements 
                                of this subparagraph and which includes 
                                a recent digitized photograph of the 
                                individual to whom the card is issued.
                            ``(v) The Commissioner shall maintain an 
                        ongoing effort to develop measures in relation 
                        to the Social Security card and the issuance 
                        thereof to preclude fraudulent use thereof.''.
            (2) Sharing of information with the secretary of homeland 
        security.--Section 205(c)(2) of such Act is amended by adding 
        at the end the following new subparagraph:
                    ``(I) Upon the issuance of a Social Security 
                account number under subparagraph (B) to any individual 
                or the issuance of a Social Security card under 
                subparagraph (G) to any individual, the Commissioner of 
                Social Security shall transmit to the Secretary of 
                Homeland Security such information received by the 
                Commissioner in the individual's application for such 
                number or such card as such Secretary determines 
                necessary and appropriate for administration of the 
                STRIVE Act of 2007. Such information shall be used 
                solely for inclusion in the Electronic Employment 
                Eligibility Verification System established pursuant to 
                title III of such Act.''.
            (3) Effective dates.--The amendment made by paragraph (1) 
        shall apply with respect to Social Security cards issued 2 
        years after the date of the enactment of this Act. The 
        amendment made by paragraph (2) shall apply with respect to the 
        issuance of Social Security account numbers and Social Security 
        cards after 2 years after the date of the enactment of this 
        Act.
    (c) Conforming Amendments.--
            (1) Amendments.--
                    (A) Repeal of basic pilot.--Sections 401, 402, 403, 
                404, and 405 of the Illegal Immigration Reform and 
                Immigrant Responsibility Act of 1996 (division C of 
                Public Law 104-208; 8 U.S.C. 1324a note) are repealed.
                    (B) Repeal of reporting requirements.--
                            (i) Report on earnings of aliens not 
                        authorized to work.--Subsection (c) of section 
                        290 (8 U.S.C. 1360) is repealed.
                            (ii) Report on fraudulent use of social 
                        security account numbers.--Subsection (b) of 
                        section 414 of the Illegal Immigration Reform 
                        and Immigrant Responsibility Act of 1996 
                        (division C of Public Law 104-208; 8 U.S.C. 
                        1360 note) is repealed.
                    (C) Repeal of definition.--Paragraph (1)(F) of 
                section 1961 of title 18, United States Code, is 
                repealed.
            (2) Construction.--Nothing in this subsection or in 
        subsection (c) of section 274A, as amended by subsection (a), 
        may be construed to limit the authority of the Secretary to 
        allow or continue to allow the participation of employers who 
        participated in the basic pilot program under such sections 
        401, 402, 403, 404, and 405 of the Illegal Immigration Reform 
        and Immigrant Responsibility Act of 1996 (division C of Public 
        Law 104-208; 8 U.S.C. 1324a note) in the Electronic Employment 
        Verification System established pursuant to such subsection 
        (d).
    (d) Technical Amendments.--
            (1) Definition of unauthorized alien.--Sections 218(i)(1) 
        (8 U.S.C. 1188(i)(1)), 245(c)(8) (8 U.S.C. 1255(c)(8)), 
        274(a)(3)(B)(i) (8 U.S.C. 1324(a)(3)(B)(i)), and 274B(a)(1) (8 
        U.S.C. 1324b(a)(1)) are amended by striking ``274A(h)(3)'' and 
        inserting ``274A(h)''.
            (2) Document requirements.--Section 274B (8 U.S.C. 1324b) 
        is amended--
                    (A) in subsections (a)(6) and (g)(2)(B), by 
                striking ``274A(b)'' and inserting ``274A(d)''; and
                    (B) in subsection (g)(2)(B)(ii), by striking 
                ``274A(b)(5)'' and inserting ``274A(d)(9)''.
    (e) Office of Electronic Verification.--
            (1) In general.--The Secretary shall establish the Office 
        of Electronic Verification within the Office of Screening 
        Coordination of the Department.
            (2) Responsibilities.--The head of the Office of Electronic 
        Verification shall work with the Commissioner of Social 
        Security--
                    (A) to ensure the information maintained in the 
                Electronic Employment Verification System established 
                in subsection (c) of section 274A of the Immigration 
                and Nationality Act, as amended by subsection (a), is 
                updated in a manner that promotes maximum accuracy;
                    (B) to ensure a process is provided for correcting 
                erroneous information continued in such System;
                    (C) to ensure that the data received from field 
                offices of United States Customs and Border Protection 
                or from other points of contact between aliens and the 
                Department of Homeland Security is registered in all 
                relevant databases;
                    (D) to ensure that the data received from field 
                offices of the Social Security Administration and other 
                points of contact between nationals of the United 
                States and the Social Security Administration is 
                registered within all relevant databases;
                    (E) to ensure that the Department has a sufficient 
                number of personnel to conduct manual verifications 
                described in paragraph (2)(ii) of such subsection (c);
                    (F) to establish and promote telephone help lines 
                accessible to employers and individuals 24-hours a day 
                that provide information regarding the functioning of 
                such System or specific issues related to the issuance 
                of a tentative nonconfirmations issued by the System;
                    (G) to establish an outreach and education program 
                to ensure that all new employers are fully informed of 
                their responsibilities under such System;
                    (H) to conduct random audits of individual's files 
                in the Government's database each year to determine 
                accuracy rates and require corrections of errors in a 
                timely manner; and
                    (I) to provide to the employer anti-discrimination 
                notices issued by the Office of Special Counsel for 
                Immigration-Related Unfair Employment Practices of the 
                Civil Rights Division of the Department of Justice.
    (f) Requirement for Reports.--Not later than 2 years after the date 
of enactment of this Act, and annually thereafter, the Comptroller 
General of the United States shall submit to the Secretary and to 
Congress a report on the impact of the Electronic Employment 
Verification System described in section 274A(c) of the Immigration and 
Nationality Act, as amended by subsection (a), on employers and 
employees in the United States. Each such report shall include the 
following:
            (1) An assessment of the impact of the System on the 
        employment of aliens who are not eligible for employment in the 
        United States, including whether the System has indirectly 
        caused an increase in exploitation of unauthorized workers.
            (2) An assessment of the accuracy of the databases utilized 
        by the System and of the timeliness and accuracy of the 
        responses provided through the System to employers.
            (3) An assessment of the privacy and confidentiality of the 
        System and of the overall security of the System with respect 
        to cybertheft and theft or misuse of private data.
            (4) An assessment of whether the System is being 
        implemented in a nondiscriminatory and nonretaliatory manner.
            (5) An assessment of the most common causes for the 
        erroneous issuance of nonconfirmations by the System and 
        recommendations to correct such causes.
            (6) Recommendations regarding a funding scheme for the 
        maintenance of the System which may include minimal costs to 
        employers or individuals.
            (7) The recommendations of the Comptroller General 
        regarding whether or not the System should be modified prior to 
        further expansion.
    (g) Effective Date.--The amendments made by subsections (a), (b), 
and (c) shall take effect on the date that is 180 days after the date 
of the enactment of this Act.

SEC. 302. CLARIFICATION OF INELIGIBILITY FOR MISREPRESENTATION.

    Section 212(a)(6)(C)(ii)(I) (8 U.S.C. 1182(a)(6)(C)(ii)(I)), is 
amended by striking ``citizen'' and inserting ``national''.

SEC. 303. ANTIDISCRIMINATION PROTECTIONS.

    (a) Application of Prohibition of Discrimination to Verification 
System.--Section 274B(a)(1) (8 U.S.C. 1324b(a)(1)) is amended by 
inserting ``, the verification of the individual's eligibility for 
employment through the Electronic Employment Verification System 
described in section 274A(c),'' after ``the individual for 
employment''.
    (b) Classes of Aliens as Protected Individuals.--Section 
274B(a)(3)(B) (8 U.S.C. 1324b(a)(3)(B)) is amended to read as follows--
                    ``(B) is an alien who is--
                            ``(i) lawfully admitted for permanent 
                        residence;
                            ``(ii) granted the status of an alien 
                        lawfully admitted for temporary residence under 
                        section 210(a) or 245A(a);
                            ``(iii) admitted as a refugee under section 
                        207;
                            ``(iv) granted asylum under section 208;
                            ``(v) granted the nonimmigrant status under 
                        section 101(a)(15)(H)(ii)(c);
                            ``(vi) granted temporary protected status 
                        under section 244; or
                            ``(vii) granted parole under section 
                        212(d)(5).''.
    (c) Requirements for Electronic Employment Verification.--Section 
274B(a) (8 U.S.C. 1324b(a)) is amended by adding at the end the 
following:
            ``(7) Antidiscrimination requirements of the electronic 
        employment verification system.--It is an unfair immigration-
        related employment practice for a person or other entity, in 
        the course of the Electronic Employment Verification System 
        described in section 274A(c)--
                    ``(A) to terminate the employment of an individual 
                due to a tentative nonconfirmation issued by such 
                System, with respect to that individual;
                    ``(B) to use the System for screening of an 
                applicant for employment prior to making the individual 
                an offer of employment;
                    ``(C) to reverify the employment authorization of 
                current employees beyond the time period set out in 
                274A(c)(2); or
                    ``(D) to use the System selectively to exclude 
                certain individuals from consideration for employment 
                as a result of a perceived likelihood that additional 
                verification will be required, beyond what is required 
                for most job applicants.''.
    (d) Increase in Civil Money Penalties.--Section 274B(g)(2) (8 
U.S.C. 1324b(g)(2)) is amended--
            (1) in subparagraph (B)(iv)--
                    (A) in subclause (I), by striking ``$250 and not 
                more than $1,000'' and inserting ``$2,000 and not more 
                than $4,000'';
                    (B) in subclause (II), by striking ``$2,000 and not 
                more than $5,000'' and inserting ``$4,000 and not more 
                than $10,000'';
                    (C) in subclause (III), by striking ``$3,000 and 
                not more than $10,000'' and inserting ``$6,000 and not 
                more than $20,000'';
                    (D) in subclause (IV), by striking ``$100 and not 
                more than $1,000'' and inserting ``$500 and not more 
                than $5,000.''
    (e) Increased Funding of Information Campaign.--Section 274B(l)(3) 
(8 U.S.C. 1324b(l)(3)) is amended by inserting ``and an additional 
$40,000,000 for each of fiscal years 2008 through 2010'' before the 
period at the end.
    (f) Effective Date.--The amendments made by this title shall take 
effect on the date of the enactment of this Act and shall apply to 
violations occurring on or after such date.

SEC. 304. ADDITIONAL PROTECTIONS.

    Section 274B (8 U.S.C. 1324b) is amended--
            (1) in subsection (a), by amending paragraph (1) to read as 
        follows:
            ``(1) In general.--It is an unfair immigration-related 
        employment practice for a person or other entity to 
        discriminate against any individual (other than an unauthorized 
        alien defined in section 274A(h)(3)) with respect to--
                    ``(A) the hiring, or recruitment or referral for a 
                fee, of the individual for employment or the 
                discharging of the individual from employment--
                            ``(i) because of such individual's national 
                        origin; or
                            ``(ii) in the case of a protected 
                        individual, because of such individual's 
                        citizenship status; or
                    ``(B) the compensation, terms, or conditions of the 
                employment of the individual.'';
            (2) in subsection (a)(6), by striking ``if made for the 
        purpose or with the intent of discriminating against an 
        individual in violation of paragraph (1)'' and inserting ``in 
        violation of paragraph (1), subject to additional information 
        and compliance assistance being provided to employers to assist 
        them in complying with the law'';
            (3) in subsection (d)--
                    (A) in paragraph (1), by striking ``and, based on 
                such an investigation and subject to paragraph (3), 
                file a complaint before such a judge'' and inserting 
                ``Any such investigation shall begin not later than 180 
                days after the alleged discriminatory act. Any such 
                complaint filed with an administrative law judge shall 
                be filed not later than 1 year after the commencement 
                of the independent investigation.''; and
                    (B) by striking paragraph (3); and
            (4) in subsection (g)(2)(B)(iii), by inserting ``, and to 
        provide such other relief as the administrative law judge 
        determines appropriate to make the individual whole'' before 
        the semicolon at the end.

SEC. 305. ADDITIONAL WORKSITE ENFORCEMENT AND FRAUD DETECTION AGENTS.

    (a) Increase in Number of Personnel.--The Secretary shall, subject 
to the availability of appropriations for such purpose, annually 
increase, by not less than 2,200, the number of personnel of the Bureau 
of Immigration and Customs Enforcement during the 5-year period 
beginning on the date of the enactment of this Act.
    (b) Use of Personnel.--The Secretary shall ensure that not less 
than 25 percent of all the hours expended by personnel of the Bureau of 
Immigration and Customs Enforcement shall be used to enforce compliance 
with sections 274A and 274C of the Immigration and Nationality Act (8 
U.S.C. 1324a and 1324c).
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary for each of the fiscal years 2007 through 
2011 such sums as may be necessary to carry out this section.

SEC. 306. AMENDMENTS TO THE SOCIAL SECURITY ACT AND THE INTERNAL 
                    REVENUE CODE.

    (a) Social Security Act.--Section 205(c)(2) of the Social Security 
Act (42 U.S.C. 405(c)(2)) is amended by adding at the end the following 
new subparagraphs:
                    ``(I)(i) The Commissioner of Social Security shall, 
                subject to the provisions of title III of the STRIVE 
                Act of 2007, establish a reliable, secure method to 
                provide through the Electronic Employment Verification 
                System established pursuant to section 274A(c) of the 
                Immigration and Nationality Act (referred to in this 
                subparagraph as the `System'), within the time periods 
                required by such subsection--
                            ``(I) a determination of whether the name, 
                        date of birth, employer identification number, 
                        and social security account number of an 
                        individual provided in an inquiry made to the 
                        System by an employer is consistent with such 
                        information maintained by the Commissioner in 
                        order to confirm the validity of the 
                        information provided;
                            ``(II) a determination of the citizenship 
                        status associated with such name and social 
                        security account number, according to the 
                        records maintained by the Commissioner;
                            ``(III) a determination of whether the name 
                        and number belongs to an individual who is 
                        deceased, according to the records maintained 
                        by the Commissioner;
                            ``(IV) a determination of whether the name 
                        and number is blocked in accordance with clause 
                        (ii); and
                            ``(V) a confirmation or a nonconfirmation 
                        described in such subsection (c), in a manner 
                        that ensures that other information maintained 
                        by the Commissioner is not disclosed or 
                        released to employers through the System.
                    ``(ii) The Commissioner of Social Security shall 
                prevent the fraudulent or other misuse of a social 
                security account number by establishing procedures 
                under which an individual who has been assigned a 
                social security account number may block the use of 
                such number under the System and remove such block.
                    ``(J) In assigning social security account numbers 
                to aliens who are authorized to work in the United 
                States under section 218A of the Immigration and 
                Nationality Act, the Commissioner of Social Security 
                shall, to the maximum extent practicable, assign such 
                numbers by employing the enumeration procedure 
                administered jointly by the Commissioner, the Secretary 
                of State, and the Secretary.''.
    (b) Disclosure of Certain Taxpayer Identity Information.--
            (1) In general.--Section 6103(l) of the Internal Revenue 
        Code of 1986 is amended by adding at the end the following new 
        paragraph:
            ``(21) Disclosure of certain taxpayer identity information 
        by social security administration to department of homeland 
        security.--
                    ``(A) In general.--From taxpayer identity 
                information which has been disclosed to the Social 
                Security Administration and upon written request by the 
                Secretary of Homeland Security, the Commissioner of 
                Social Security shall disclose directly to officers, 
                employees, and contractors of the Department of 
                Homeland Security the following information:
                            ``(i) Disclosure of employer no-match 
                        notices.--Taxpayer identity information of each 
                        person who has filed an information return 
                        required by reason of section 6051 during 
                        calendar year 2006, 2007, or 2008 which 
                        contains--
                                    ``(I) more than 100 names and 
                                taxpayer identifying numbers of 
                                employees (within the meaning of such 
                                section) that did not match the records 
                                maintained by the Commissioner of 
                                Social Security; or
                                    ``(II) more than 10 names of 
                                employees (within the meaning of such 
                                section) with the same taxpayer 
                                identifying number.
                            ``(ii) Disclosure of information regarding 
                        use of duplicate employee taxpayer identifying 
                        information.--Taxpayer identity information of 
                        each person who has filed an information return 
                        required by reason of section 6051 which the 
                        Commissioner of Social Security has reason to 
                        believe, based on a comparison with information 
                        submitted by the Secretary of Homeland 
                        Security, contains evidence of identity fraud 
                        due to the multiple use of the same taxpayer 
                        identifying number (assigned under section 
                        6109) of an employee (within the meaning of 
                        section 6051).
                            ``(iii) Disclosure of information regarding 
                        nonparticipating employers.--Taxpayer identity 
                        information of each person who has filed an 
                        information return required by reason of 
                        section 6051 which the Commissioner of Social 
                        Security has reason to believe, based on a 
                        comparison with information submitted by the 
                        Secretary of Homeland Security, contains 
                        evidence of such person's failure to register 
                        and participate in the Electronic Employment 
                        Verification System authorized under section 
                        274A(c) of the Immigration and Nationality Act 
                        (hereafter in this paragraph referred to as the 
                        `System').
                            ``(iv) Disclosure of information regarding 
                        new employees of nonparticipating employers.--
                        Taxpayer identity information of all employees 
                        (within the meaning of section 6051) hired 
                        after the date a person identified in clause 
                        (iii) is required to participate in the System 
                        under section 274A(c)(10) of the Immigration 
                        and Nationality Act.
                            ``(v) Disclosure of information regarding 
                        employees of certain designated employers.--
                        Taxpayer identity information of all employees 
                        (within the meaning of section 6051) of each 
                        person who is required to participate in the 
                        System under such section 274A(c)(10) of the 
                        Immigration and Nationality Act.
                            ``(vi) Disclosure of new hire taxpayer 
                        identity information.--Taxpayer identity 
                        information of each person participating in the 
                        System and taxpayer identity information of all 
                        employees (within the meaning of section 6051) 
                        of such person hired during the period 
                        beginning with the later of--
                                    ``(I) the date such person begins 
                                to participate in the System; or
                                    ``(II) the date of the request 
                                immediately preceding the most recent 
                                request under this clause,
                        ending with the date of the most recent request 
                        under this clause.
                    ``(B) Restriction on disclosure.--The Commissioner 
                of Social Security shall disclose taxpayer identity 
                information under subparagraph (A) only for purposes 
                of, and to the extent necessary in--
                            ``(i) establishing and enforcing employer 
                        participation in the System;
                            ``(ii) carrying out, including through 
                        civil administrative and civil judicial 
                        proceedings, of sections 212, 217, 235, 237, 
                        238, 274A, 274B, and 274C of the Immigration 
                        and Nationality Act; and
                            ``(iii) the civil operation of the Alien 
                        Terrorist Removal Court.
                    ``(C) Reimbursement.--The Commissioner of Social 
                Security shall prescribe a reasonable fee schedule for 
                furnishing taxpayer identity information under this 
                paragraph and collect such fees in advance from the 
                Secretary of Homeland Security.
                    ``(D) Termination.--This paragraph shall not apply 
                to any request made after the date which is 3 years 
                after the date of the enactment of this paragraph.''.
            (2) Compliance by dhs contractors with confidentiality 
        safeguards.--
                    (A) In general.--Section 6103(p) of such Code is 
                amended by adding at the end the following new 
                paragraph:
            ``(9) Disclosure to dhs contractors.--Notwithstanding any 
        other provision of this section, no return or return 
        information shall be disclosed to any contractor of the 
        Department of Homeland Security unless the Secretary of 
        Homeland Security, to the satisfaction of the Secretary--
                    ``(A) has requirements in effect which require each 
                such contractor which would have access to returns or 
                return information to provide safeguards (within the 
                meaning of paragraph (4)) to protect the 
                confidentiality of such returns or return information;
                    ``(B) agrees to conduct an on-site review every 3 
                years (mid-point review in the case of contracts or 
                agreements of less than 1 year in duration) of each 
                contractor to determine compliance with such 
                requirements;
                    ``(C) submits the findings of the most recent 
                review conducted under subparagraph (B) to the 
                Secretary as part of the report required by paragraph 
                (4)(E); and
                    ``(D) certifies to the Secretary for the most 
                recent annual period that such contractor is in 
                compliance with all such requirements.
        The certification required by subparagraph (D) shall include 
        the name and address of each contractor, a description of the 
        contract or agreement with such contractor, and the duration of 
        such contract or agreement.''.
            (3) Conforming amendments.--
                    (A) Section 6103(a)(3) of such Code is amended by 
                striking ``or (20)'' and inserting ``(20), or (21)''.
                    (B) Section 6103(p)(3)(A) of such Code is amended 
                by adding at the end the following new sentence: ``The 
                Commissioner of Social Security shall provide to the 
                Secretary such information as the Secretary may require 
                in carrying out this paragraph with respect to return 
                information inspected or disclosed under the authority 
                of subsection (l)(21).''.
                    (C) Section 6103(p)(4) of such Code is amended--
                            (i) by striking ``or (17)'' both places it 
                        appears and inserting ``(17), or (21)''; and
                            (ii) by striking ``or (20)'' each place it 
                        appears and inserting ``(20), or (21)''.
                    (D) Section 6103(p)(8)(B) of such Code is amended 
                by inserting ``or paragraph (9)'' after ``subparagraph 
                (A)''.
                    (E) Section 7213(a)(2) of such Code is amended by 
                striking ``or (20)'' and inserting ``(20), or (21)''.
    (c) Authorization of Appropriations.--
            (1) In general.--There are authorized to be appropriated to 
        the Secretary such sums as are necessary to carry out the 
        amendments made by this section.
            (2) Limitation on verification responsibilities of 
        commissioner of social security.--The Commissioner of Social 
        Security is authorized to perform activities with respect to 
        carrying out the Commissioner's responsibilities in this title 
        or the amendments made by this title, but only to the extent 
        the Secretary has provided, in advance, funds to cover the 
        Commissioner's full costs in carrying out such 
        responsibilities. In no case shall funds from the Federal Old-
        Age and Survivors Insurance Trust Fund or the Federal 
        Disability Insurance Trust Fund be used to carry out such 
        responsibilities.
    (d) Effective Dates.--
            (1) Social security act.--The amendments made by subsection 
        (a) shall take effect on the date that is 180 days after the 
        date of the enactment of this Act.
            (2) Internal revenue code.--
                    (A) In general.--The amendments made by subsection 
                (b) shall apply to disclosures made after the date of 
                the enactment of this Act.
                    (B) Certifications.--The first certification under 
                section 6103(p)(9)(D) of the Internal Revenue Code of 
                1986, as added by subsection (b)(2), shall be made with 
                respect to calendar year 2007.

                      TITLE IV--NEW WORKER PROGRAM

SEC. 401. NONIMMIGRANT WORKER.

    Section 101(a)(15)(H) (8 U.S.C. 1101(a)(15)(H)) is amended to read 
as follows:
                    ``(H) an alien--
                            ``(i)(b) subject to section 212(j)(2)--
                                    ``(aa) who is coming temporarily to 
                                the United States to perform services 
                                (other than services described in 
                                clause (ii)(a) or subparagraph (O) or 
                                (P)) in a specialty occupation 
                                described in section 214(i)(1) or as a 
                                fashion model;
                                    ``(bb) who meets the requirements 
                                for the occupation specified in section 
                                214(i)(2) or, in the case of a fashion 
                                model, is of distinguished merit and 
                                ability; and
                                    ``(cc) with respect to whom the 
                                Secretary of Labor determines and 
                                certifies to the Secretary of Homeland 
                                Security that the intending employer 
                                has filed an application with the 
                                Secretary in accordance with section 
                                212(n)(1);
                            ``(b1)(aa) who is entitled to enter the 
                        United States under the provisions of an 
                        agreement listed in section 214(g)(8)(A);
                            ``(bb) who is engaged in a specialty 
                        occupation described in section 214(i)(3); and
                            ``(cc) with respect to whom the Secretary 
                        of Labor determines and certifies to the 
                        Secretary of Homeland Security and the 
                        Secretary of State that the intending employer 
                        has filed an attestation with the Secretary of 
                        Labor in accordance with section 212(t)(1); or
                            ``(c)(aa) who is coming temporarily to the 
                        United States to perform services as a 
                        registered nurse;
                            ``(bb) who meets the qualifications 
                        described in section 212(m)(1); and
                            ``(cc) with respect to whom the Secretary 
                        of Labor determines and certifies to the 
                        Secretary of Homeland Security that an 
                        unexpired attestation is on file and in effect 
                        under section 212(m)(2) for the facility (as 
                        defined in section 212(m)(6)) for which the 
                        alien will perform the services; or
                            ``(ii)(a) who--
                            ``(aa) has a residence in a foreign country 
                        which the alien has no intention of abandoning; 
                        and
                            ``(bb) is coming temporarily to the United 
                        States to perform agricultural labor or 
                        services (as defined by the Secretary of 
                        Labor), including agricultural labor (as 
                        defined in section 3121(g) of the Internal 
                        Revenue Code of 1986), agriculture (as defined 
                        in section 3(f) of the Fair Labor Standards Act 
                        of 1938 (29 U.S.C. 203(f))), and the pressing 
                        of apples for cider on a farm, of a temporary 
                        or seasonal nature;
                            ``(b) who--
                                    ``(aa) has a residence in a foreign 
                                country which the alien has no 
                                intention of abandoning;
                                    ``(bb) is coming temporarily to the 
                                United States to perform 
                                nonagricultural work or services of a 
                                temporary or seasonal nature (if 
                                unemployed persons capable of 
                                performing such work or services cannot 
                                be found in the United States), 
                                excluding medical school graduates 
                                coming to the United States to perform 
                                services as members of the medical 
                                profession; or
                            ``(c) who--
                                    ``(aa) is coming temporarily to the 
                                United States to initially perform 
                                temporary labor or services other than 
                                the labor or services described in 
                                clause (i)(b), (i)(b1), (i)(c), 
                                (ii)(a), or (iii), subparagraph (D), 
                                (E), (I), (L), (O), (P), or (R), or 
                                section 214(e) (if United States 
                                workers who are able, willing, and 
                                qualified to perform such labor or 
                                services cannot be found in the United 
                                States); and
                                    ``(bb) meets the requirements of 
                                section 218A, including the filing of a 
                                petition under such section on behalf 
                                of the alien;
                            ``(iii) who--
                                    ``(a) has a residence in a foreign 
                                country which the alien has no 
                                intention of abandoning; and
                                    ``(b) is coming temporarily to the 
                                United States as a trainee (other than 
                                to receive graduate medical education 
                                or training) in a training program that 
                                is not designed primarily to provide 
                                productive employment; or
                            ``(iv) who--
                                    ``(a) is the spouse or a minor 
                                child of an alien described in this 
                                subparagraph; and
                                    ``(b) is accompanying or following 
                                to join such alien.''.

SEC. 402. ADMISSION OF NONIMMIGRANT WORKERS.

    (a) New Workers.--Chapter 2 of title II (8 U.S.C. 1181 et seq.) is 
amended by inserting after section 218 the following:

``SEC. 218A. ADMISSION OF H-2C NONIMMIGRANTS.

    ``(a) Authorization.--The Secretary of State may grant a temporary 
visa to an H-2C nonimmigrant who demonstrates an intent to perform 
labor or services in the United States (other than the labor or 
services described in clause (i)(b), (i)(b1), (i)(c), (ii)(a), or (iii) 
of section 101(a)(15)(H), subparagraph (D), (E), (I), (L), (O), (P), or 
(R) of section 101(a)(15), or section 214(e) (if United States workers 
who are able, willing, and qualified to perform such labor or services 
cannot be found in the United States).
    ``(b) Requirements for Admission.--An alien shall be eligible for 
H-2C nonimmigrant status if the alien meets the following requirements:
            ``(1) Eligibility to work.--The alien shall establish that 
        the alien is capable of performing the labor or services 
        required for an occupation described in section 
        101(a)(15)(H)(ii)(c).
            ``(2) Evidence of employment offer.--The alien's evidence 
        of employment shall be provided in accordance with the 
        requirements issued by the Secretary of State, in consultation 
        with the Secretary of Labor. In carrying out this paragraph, 
        the Secretary may consider evidence from employers, employer 
        associations, and labor representatives.
            ``(3) Fee.--The alien shall pay a $500 visa issuance fee in 
        addition to the cost of processing and adjudicating such 
        application. Nothing in this paragraph shall be construed to 
        affect consular procedures for charging reciprocal fees.
            ``(4) Medical examination.--The alien shall undergo a 
        medical examination (including a determination of immunization 
        status), at the alien's expense, that conforms to generally 
        accepted standards of medical practice.
            ``(5) Application content and waiver.--
                    ``(A) Application form.--The alien shall submit to 
                the Secretary of State a completed application, which 
                contains evidence that the requirements under 
                paragraphs (1) and (2) have been met.
                    ``(B) Content.--In addition to any other 
                information that the Secretary requires to determine an 
                alien's eligibility for H-2C nonimmigrant status, the 
                Secretary of State shall require an alien to provide 
                information concerning the alien's--
                            ``(i) physical and mental health;
                            ``(ii) criminal history and gang 
                        membership;
                            ``(iii) immigration history; and
                            ``(iv) involvement with groups or 
                        individuals that have engaged in terrorism, 
                        genocide, persecution, or who seek the 
                        overthrow of the United States Government.
                    ``(C) Knowledge.--The alien shall include with the 
                application submitted under this paragraph a signed 
                certification in which the alien certifies that--
                            ``(i) the alien has read and understands 
                        all of the questions and statements on the 
                        application form;
                            ``(ii) the alien certifies under penalty of 
                        perjury under the laws of the United States 
                        that the application, and any evidence 
                        submitted with it, are all true and correct; 
                        and
                            ``(iii) the applicant authorizes the 
                        release of any information contained in the 
                        application and any attached evidence for law 
                        enforcement purposes.
    ``(c) Grounds of Inadmissibility.--
            ``(1) In general.--In determining an alien's admissibility 
        as an H-2C nonimmigrant--
                    ``(A) paragraphs (5), (6) (except subparagraph 
                (E)), (7), (9), and (10)(B) of section 212(a) may not 
                apply with respect to conduct that occurred before the 
                effective date of the STRIVE Act;
                    ``(B) the Secretary of Homeland Security may not 
                waive the application of--
                            ``(i) subparagraph (A), (B), (C), (D)(ii), 
                        (E), (G), (H), or (I) of section 212(a)(2);
                            ``(ii) section 212(a)(3); or
                            ``(iii) subparagraph (A), (C) or (D) of 
                        section 212(a)(10);
                    ``(C) the Secretary of State may waive the 
                application of any provision of section 212(a) not 
                listed in subparagraph (B) on behalf of an individual 
                alien--
                            ``(i) for humanitarian purposes;
                            ``(ii) to ensure family unity; or
                            ``(iii) if such a waiver is otherwise in 
                        the public interest;
                    ``(D) nothing in this paragraph shall be construed 
                as affecting the authority of the Secretary other than 
                under this paragraph to waive the provisions of section 
                212(a).
            ``(2) Renewal of authorized admission and subsequent 
        admissions.--An alien seeking renewal of authorized admission 
        or subsequent admission as an H-2C nonimmigrant shall establish 
        that the alien is not inadmissible under section 212(a).
            ``(3) Background checks.--The Secretary of Homeland 
        Security shall not admit, and the Secretary of State shall not 
        issue a visa to, an alien seeking H-2C nonimmigrant status 
        unless all appropriate background checks have been completed.
    ``(d) Period of Authorized Admission.--
            ``(1) Authorized period.--The initial period of authorized 
        admission as an H-2C nonimmigrant shall be 3 years.
            ``(2) Renewal.--Before the expiration of the initial period 
        under paragraph (1), an H-2C nonimmigrant may submit an 
        application to the Secretary of Homeland Security to extend H-
        2C nonimmigrant status for 1 additional 3-year period. The 
        Secretary may not require an applicant under this paragraph to 
        depart the United States as a condition for granting such 
        extension.
            ``(3) International commuters.--An alien who maintains 
        actual residence and place of abode outside the United States 
        and commutes into the United States to work as an H-2C 
        nonimmigrant, is not subject to the time limitations under 
        paragraphs (1) and (2).
            ``(4) Loss of employment.--
                    ``(A) In general.--
                            ``(i) Period of unemployment.--Subject to 
                        clause (ii) and subsection (c), the period of 
                        authorized admission of an H-2C nonimmigrant 
                        shall terminate if the alien is unemployed for 
                        60 or more consecutive days.
                            ``(ii) Exception.--The period of authorized 
                        admission of an H-2C nonimmigrant shall not 
                        terminate if the alien is unemployed for 60 or 
                        more consecutive days if the alien submits 
                        documentation to the Secretary of Homeland 
                        Security that establishes that such 
                        unemployment was caused by--
                                    ``(I) a period of physical or 
                                mental disability of the alien or the 
                                spouse, son, daughter, or parent (as 
                                defined in section 101 of the Family 
                                and Medical Leave Act of 1993 (29 
                                U.S.C. 2611)) of the alien;
                                    ``(II) a period of vacation, 
                                medical leave, maternity leave, or 
                                similar leave from employment 
                                authorized by employer policy, State 
                                law, or Federal law; or
                                    ``(III) any other period of 
                                temporary unemployment that is the 
                                direct result of a major disaster or 
                                emergency (as defined under section 532 
                                of the STRIVE Act.
                    ``(B) Return to foreign residence.--Any alien whose 
                period of authorized admission terminates under 
                subparagraph (A) shall be required to leave the United 
                States.
                    ``(C) Period of visa validity.--Any alien, whose 
                period of authorized admission terminates under 
                subparagraph (A), who leaves the United States under 
                subparagraph (B), may reenter the United States as an 
                H-2C nonimmigrant to work for an employer, if the alien 
                has complied with the requirements of subsection (b).
            ``(5) Visits outside the united states.--
                    ``(A) In general.--Under regulations established by 
                the Secretary of Homeland Security, an H-2C 
                nonimmigrant--
                            ``(i) may travel outside of the United 
                        States; and
                            ``(ii) may be readmitted without having to 
                        obtain a new visa if the period of authorized 
                        admission has not expired.
                    ``(B) Effect on period of authorized admission.--
                Time spent outside the United States under subparagraph 
                (A) shall not extend the period of authorized admission 
                in the United States.
            ``(6) Bars to extension or admission.--An alien may not be 
        granted H-2C nonimmigrant status, or an extension of such 
        status, if--
                    ``(A) the alien has violated any material term or 
                condition of such status granted previously, including 
                failure to comply with the change of address reporting 
                requirements under section 265;
                    ``(B) the alien is inadmissible as a nonimmigrant; 
                or
                    ``(C) the granting of such status or extension of 
                such status would allow the alien to exceed 6 years as 
                an H-2C nonimmigrant, unless the alien has resided and 
                been physically present outside the United States for 
                at least 1 year after the expiration of such H-2C 
                nonimmigrant status.
    ``(e) Evidence of Nonimmigrant Status.--Each H-2C nonimmigrant 
shall be issued documentary evidence of nonimmigrant status, which--
            ``(1) shall be machine-readable, tamper-resistant, and 
        allow for biometric authentication;
            ``(2) shall, during the alien's authorized period of 
        admission under subsection (f), serve as a valid entry document 
        for the purpose of applying for admission to the United 
        States--
                    ``(A) instead of a passport and visa if the alien--
                            ``(i) is a national of a foreign territory 
                        contiguous to the United States; and
                            ``(ii) is applying for admission at a land 
                        border port of entry; and
                    ``(B) in conjunction with a valid passport, if the 
                alien is applying for admission at an air or sea port 
                of entry;
            ``(3) may be accepted during the period of its validity by 
        an employer as evidence of employment authorization and 
        identity under section 274A(b)(1)(B); and
            ``(4) shall be issued to the H-2C nonimmigrant by the 
        Secretary of Homeland Security promptly after final 
        adjudication of such status or, at the discretion of the 
        Secretary of Homeland Security, may be issued by the Secretary 
        of State at a consulate instead of a visa.
    ``(f) Penalties for Failure To Depart.--If an H-2C nonimmigrant 
fails to depart the United States by the date that the alien's 
authorized admission as an H-2C nonimmigrant concludes, the visa of the 
alien shall be void under section 222(g)(1) and the alien shall be 
ineligible to be readmitted to the United States under section 
222(g)(2). The alien may be removed if found to be within 1 or more of 
the classes of deportable aliens described in section 237.
    ``(g) Penalty for Illegal Entry or Overstay.--Any alien who 
unlawfully enters, attempts to enter, or crosses the border after the 
date of the enactment of this section, and is physically present in the 
United States after such date in violation of the immigration laws of 
the United States, may not receive, for a period of 10 years--
            ``(1) any relief under section 240A(a), 240A(b)(1), or 
        240B; or
            ``(2) nonimmigrant status under section 101(a)(15) (except 
        subparagraphs (T) and (U)).
    ``(h) Portability.--A nonimmigrant alien described in this section, 
who was previously issued a visa or otherwise provided H-2C 
nonimmigrant status, may accept a new offer of employment with a 
subsequent employer, if--
            ``(1) the employer complies with section 218B; and
            ``(2) the alien, after lawful admission to the United 
        States, did not work without authorization.
    ``(i) Change of Address.--An H-2C nonimmigrant shall comply with 
the change of address reporting requirements under section 265 through 
electronic or paper notification.
    ``(j) Collection of Fees.--All fees other than the application 
filing fee collected under this section shall be deposited in the 
Treasury in accordance with section 286(w).''.
    (b) Clerical Amendment.--The table of contents Immigration and 
Nationality Act (8 U.S.C. 1101 et seq.) is amended by inserting after 
the item relating to section 218 the following:

    ``Sec. 218A. Admission of H-2C nonimmigrants.''.

SEC. 403. EMPLOYER OBLIGATIONS.

    (a) In General.--Title II (8 U.S.C. 1201 et seq.) is amended by 
inserting after section 218A, as added by section 402, the following:

``SEC. 218B. EMPLOYER OBLIGATIONS.

    ``(a) General Requirements.--Each employer who employs an H-2C 
nonimmigrant shall--
            ``(1) file a petition in accordance with subsection (b); 
        and
            ``(2) be required to pay--
                    ``(A) an application filing fee for each alien, 
                based on the cost of carrying out the processing duties 
                under this subsection; and
                    ``(B) a secondary fee, to be deposited in the 
                Treasury in accordance with section 286(w), of--
                            ``(i) $250, in the case of an employer 
                        employing 25 employees or less;
                            ``(ii) $500, in the case of an employer 
                        employing between 26 and 150 employees;
                            ``(iii) $750, in the case of an employer 
                        employing between 151 and 500 employees; or
                            ``(iv) $1,000, in the case of an employer 
                        employing more than 500 employees. pay the 
                        appropriate fee.
    ``(b) Required Procedure.--Except where the Secretary of Labor has 
determined that there is a shortage of United States workers in the 
occupation and area of intended employment to which the H-2C 
nonimmigrant is sought, each employer of H-2C nonimmigrants shall 
comply with the following requirements:
            ``(1) Efforts to recruit united states workers.--During the 
        period beginning not later than 90 days before the date on 
        which a petition is filed under subsection (a)(1), and ending 
        on the date that is 14 days before to such filing date, the 
        employer involved shall recruit United States workers for the 
        position for which the H-2C nonimmigrant is sought under the 
        petition, by--
                    ``(A) submitting a copy of the job opportunity, 
                including a description of the wages and other terms 
                and conditions of employment and the minimum education, 
                training, experience and other requirements of the job, 
                to the State Employment Service Agency that serves the 
                area of employment in the State in which the employer 
                is located;
                    ``(B) authorizing the employment service agency of 
                the State to post the job opportunity on the Internet 
                website established under section 405 of the STRIVE 
                Act, with local job banks, and with unemployment 
                agencies and other labor referral and recruitment 
                sources pertinent to the job involved;
                    ``(C) authorizing the employment service agency of 
                the State to notify--
                            ``(i) labor organizations in the State in 
                        which the job is located; and
                            ``(ii) if applicable, the office of the 
                        local union which represents the employees in 
                        the same or substantially equivalent job 
                        classification of the job opportunity;
                    ``(D) posting the availability of the job 
                opportunity for which the employer is seeking a worker 
                in conspicuous locations at the place of employment for 
                all employees to see;
                    ``(E) advertising the availability of the job 
                opportunity for which the employer is seeking a worker 
                in a publication with the highest circulation in the 
                labor market that is likely to be patronized by a 
                potential worker for not fewer than 10 consecutive 
                days; and
                    ``(F) based on recommendations by the local job 
                service, advertising the availability of the job 
                opportunity in professional, trade, or ethnic 
                publications that are likely to be patronized by a 
                potential worker.
            ``(2) Efforts to employ united states workers.--An employer 
        that seeks to employ an H-2C nonimmigrant shall first offer the 
        job to any eligible United States worker who applies, is 
        qualified for the job and is available at the time of need, 
        notwithstanding any other valid employment criteria.
    ``(c) Petition.--A petition to hire an H-2C nonimmigrant under this 
section shall be filed with the Secretary of Labor and shall include an 
attestation by the employer of the following:
            ``(1) Protection of united states workers.--The employment 
        of an H-2C nonimmigrant--
                    ``(A) will not adversely affect the wages and 
                working conditions of workers in the United States 
                similarly employed; and
                    ``(B) did not and will not cause the separation 
                from employment of a United States worker employed by 
                the employer within the 180-day period beginning 90 
                days before the date on which the petition is filed.
            ``(2) Wages.--
                    ``(A) In general.--The H-2C nonimmigrant will be 
                paid not less than the greater of--
                            ``(i) the actual wage level paid by the 
                        employer to all other individuals with similar 
                        experience and qualifications for the specific 
                        employment in question; or
                            ``(ii) the prevailing wage level for the 
                        occupational classification in the area of 
                        employment, taking into account experience and 
                        skill levels of employees.
                    ``(B) Calculation.--The wage levels under 
                subparagraph (A) shall be calculated based on the best 
                information available at the time of the filing of the 
                application.
                    ``(C) Prevailing wage level.--For purposes of 
                subparagraph (A)(ii), the prevailing wage level shall 
                be determined in accordance as follows:
                            ``(i) If the job opportunity is covered by 
                        a collective bargaining agreement between a 
                        union and the employer, the prevailing wage 
                        shall be the wage rate set forth in the 
                        collective bargaining agreement.
                            ``(ii) If the job opportunity is not 
                        covered by such an agreement and it is on a 
                        project that is covered by a wage determination 
                        under a provision of subchapter IV of chapter 
                        31 of title 40, United States Code, or the 
                        Service Contract Act of 1965 (41 U.S.C. 351 et 
                        seq.), the prevailing wage level shall be the 
                        appropriate statutory wage.
                            ``(iii)(I) If the job opportunity is not 
                        covered by such an agreement and it is not on a 
                        project that is covered by a wage determination 
                        under a provision of subchapter IV of chapter 
                        31 of title 40, United States Code, or the 
                        Service Contract Act of 1965 (41 U.S.C. 351 et 
                        seq.), the prevailing wage level shall be based 
                        on published wage data for the occupation from 
                        the Bureau of Labor Statistics, including the 
                        Occupational Employment Statistics survey, 
                        Current Employment Statistics data, National 
                        Compensation Survey, and Occupational 
                        Employment Projections program. If the Bureau 
                        of Labor Statistics does not have wage data 
                        applicable to such occupation, the employer may 
                        base the prevailing wage level on another wage 
                        survey approved by the Secretary of Labor.
                            ``(II) The Secretary shall promulgate 
                        regulations applicable to approval of such 
                        other wage surveys that require, among other 
                        things, that the Bureau of Labor Statistics 
                        determine such surveys are statistically 
                        viable.
            ``(3) Working conditions.--All workers in the occupation at 
        the place of employment at which the H-2C nonimmigrant will be 
        employed will be provided the working conditions and benefits 
        that are normal to workers similarly employed in the area of 
        intended employment.
            ``(4) Labor dispute.--There is not a strike, lockout, or 
        work stoppage in the course of a labor dispute in the 
        occupation at the place of employment at which the H-2C 
        nonimmigrant will be employed. If such strike, lockout, or work 
        stoppage occurs following submission of the petition, the 
        employer will provide notification in accordance with 
        regulations promulgated by the Secretary of Labor.
            ``(5) Provision of insurance.--If the position for which 
        the H-2C nonimmigrant is sought is not covered by the State 
        workers' compensation law, the employer will provide, at no 
        cost to the H-2C nonimmigrant, insurance covering injury and 
        disease arising out of, and in the course of, the worker's 
        employment, which will provide benefits at least equal to those 
        provided under the State workers' compensation law for 
        comparable employment.
            ``(6) Notice to employees.--
                    ``(A) In general.--The employer has provided notice 
                of the filing of the petition to the bargaining 
                representative of the employer's employees in the 
                occupational classification and area of employment for 
                which the H-2C nonimmigrant is sought.
                    ``(B) No bargaining representative.--If there is no 
                such bargaining representative, the employer has--
                            ``(i) posted a notice of the filing of the 
                        petition in a conspicuous location at the place 
                        or places of employment for which the H-2C 
                        nonimmigrant is sought; or
                            ``(ii) electronically disseminated such a 
                        notice to the employer's employees in the 
                        occupational classification for which the H-2C 
                        nonimmigrant is sought.
            ``(7) Recruitment.--Except where the Secretary of Labor has 
        determined that there is a shortage of United States workers in 
        the occupation and area of intended employment for which the H-
        2C nonimmigrant is sought--
                    ``(A) there are not sufficient workers who are 
                able, willing, and qualified, and who will be available 
                at the time and place needed, to perform the labor or 
                services involved in the petition; and
                    ``(B) good faith efforts have been taken to recruit 
                United States workers, in accordance with regulations 
                promulgated by the Secretary of Labor, which efforts 
                included--
                            ``(i) the completion of recruitment during 
                        the period beginning on the date that is 90 
                        days before the date on which the petition was 
                        filed with the Department of Homeland Security 
                        and ending on the date that is 14 days before 
                        such filing date; and
                            ``(ii) the actual wage paid by the employer 
                        for the occupation in the areas of intended 
                        employment was used in conducting recruitment.
            ``(8) Ineligibility.--The employer is not currently 
        ineligible from using the H-2C nonimmigrant program described 
        in this section.
            ``(9) Bonafide offer of employment.--The job for which the 
        H-2C nonimmigrant is sought is a bona fide job--
                    ``(A) for which the employer needs labor or 
                services;
                    ``(B) which has been and is clearly open to any 
                United States worker; and
                    ``(C) for which the employer will be able to place 
                the H-2C nonimmigrant on the payroll.
            ``(10) Public availability and records retention.--A copy 
        of each petition filed under this section and documentation 
        supporting each attestation, in accordance with regulations 
        promulgated by the Secretary of Labor, will--
                    ``(A) be provided to every H-2C nonimmigrant 
                employed under the petition;
                    ``(B) be made available for public examination at 
                the employer's place of business or work site;
                    ``(C) be made available to the Secretary of Labor 
                during any audit; and
                    ``(D) remain available for examination for 5 years 
                after the date on which the petition is filed.
            ``(11) Notification upon separation from or transfer of 
        employment.--The employer will notify the Secretary of Labor 
        and the Secretary of Homeland Security of an H-2C 
        nonimmigrant's separation from employment or transfer to 
        another employer not more than 3 business days after the date 
        of such separation or transfer, in accordance with regulations 
        promulgated by the Secretary of Homeland Security.
            ``(12) Actual need for labor or services.--The petition was 
        filed not more than 60 days before the date on which the 
        employer needed labor or services for which the H-2C 
        nonimmigrant is sought.
    ``(d) Audit of Attestations.--
            ``(1) Referrals by secretary of homeland security.--The 
        Secretary of Homeland Security shall refer all approved 
        petitions for H-2C nonimmigrants to the Secretary of Labor for 
        potential audit.
            ``(2) Audits authorized.--The Secretary of Labor may audit 
        any approved petition referred pursuant to paragraph (1), in 
        accordance with regulations promulgated by the Secretary of 
        Labor.
    ``(e) Ineligible Employers.--
            ``(1) In general.--The Secretary of Labor shall not approve 
        an employer's petitions, applications, certifications, or 
        attestations under any immigrant or nonimmigrant program if the 
        Secretary of Labor determines, after notice and an opportunity 
        for a hearing, that the employer submitting such documents--
                    ``(A) has, with respect to the attestations 
                required under subsection (b)--
                            ``(i) misrepresented a material fact;
                            ``(ii) made a fraudulent statement; or
                            ``(iii) failed to comply with the terms of 
                        such attestations; or
                    ``(B) failed to cooperate in the audit process in 
                accordance with regulations promulgated by the 
                Secretary of Labor.
            ``(2) Length of ineligibility.--An employer described in 
        paragraph (1) shall be ineligible to participate in the labor 
        certification programs of the Secretary of Labor for not less 
        than the time period determined by the Secretary, not to exceed 
        3 years.
            ``(3) Employers in high unemployment areas.--The Secretary 
        of Labor may not approve any employer's petition under 
        subsection (b) if the work to be performed by the H-2C 
        nonimmigrant is not agriculture based and is located in a 
        metropolitan or micropolitan statistical area (as defined by 
        the Office of Management and Budget) in which the unemployment 
        rate for workers who have not completed any education beyond a 
        high school diploma during the most recently completed 6-month 
        period averaged more than 9.0 percent.
    ``(f) Regulation of Foreign Labor Contractors.--
            ``(1) Coverage.--Notwithstanding any other provision of 
        law--
                    ``(A) an H-2C nonimmigrant is prohibited from being 
                treated as an independent contractor; and
                    ``(B) no person may treat an H-2C nonimmigrant as 
                an independent contractor.
            ``(2) Applicability of laws.--An H-2C nonimmigrant shall 
        not be denied any right or any remedy under Federal, State, or 
        local labor or employment law that would be applicable to a 
        United States worker employed in a similar position with the 
        employer because of the alien's status as a nonimmigrant 
        worker.
            ``(3) Tax responsibilities.--With respect to each employed 
        H-2C nonimmigrant, an employer shall comply with all applicable 
        Federal, State, and local tax and revenue laws.
    ``(g) Whistleblower Protection.--
            ``(1) Prohibited activities.--It shall be unlawful for an 
        employer or a labor contractor of an H-2C nonimmigrant to 
        intimidate, threaten, restrain, coerce, retaliate, discharge, 
        or in any other manner, discriminate against an employee or 
        former employee because the employee or former employee--
                    ``(A) discloses information to the employer or any 
                other person that the employee or former employee 
                reasonably believes demonstrates a violation of this 
                Act, the STRIVE Act, or any other Federal labor or 
                employment law; or
                    ``(B) cooperates or seeks to cooperate in an 
                investigation or other proceeding concerning compliance 
                with the requirements of this Act, the STRIVE Act, or 
                any other Federal labor or employment law.
            ``(2) Rulemaking.--The Secretary of Labor and the Secretary 
        of Homeland Security shall jointly promulgate regulations that 
        establish a process by which a nonimmigrant alien described in 
        section 101(a)(15)(H) who files a nonfrivolous complaint (as 
        defined by the Federal Rules of Civil Rules) regarding a 
        violation of this Act, the STRIVE Act, or any other Federal 
        labor or employment law, or any other rule or regulation 
        pertaining to such laws and is otherwise eligible to remain and 
        work in the United States may be allowed to seek other 
        appropriate employment in the United States--
                    ``(A) for a period not to exceed the maximum period 
                of stay authorized for that nonimmigrant 
                classification; or
                    ``(B) until the conclusion of the proceedings 
                governing the complaint.
    ``(h) Labor Recruiters.--
            ``(1) In general.--Each employer that engages in foreign 
        labor contracting activity and each foreign labor contractor 
        shall ascertain and disclose, to each such worker who is 
        recruited for employment at the time of the worker's 
        recruitment--
                    ``(A) the place of employment;
                    ``(B) the compensation for the employment;
                    ``(C) a description of employment activities;
                    ``(D) the period of employment;
                    ``(E) any other employee benefit to be provided and 
                any costs to be charged for each benefit;
                    ``(F) any travel or transportation expenses to be 
                assessed;
                    ``(G) the existence of any labor organizing effort, 
                strike, lockout, or other labor dispute at the place of 
                employment;
                    ``(H) the existence of any arrangement with any 
                owner, employer, foreign contractor, or its agent where 
                such person receives a commission from the provision of 
                items or services to workers;
                    ``(I) the extent to which workers will be 
                compensated through workers' compensation, private 
                insurance, or otherwise for injuries or death, 
                including--
                            ``(i) work related injuries and death 
                        during the period of employment;
                            ``(ii) the name of the State workers' 
                        compensation insurance carrier or the name of 
                        the policyholder of the private insurance;
                            ``(iii) the name and the telephone number 
                        of each person who must be notified of an 
                        injury or death; and
                            ``(iv) the time period within which such 
                        notice must be given;
                    ``(J) any education or training to be provided or 
                required, including--
                            ``(i) the nature and cost of such training;
                            ``(ii) the entity that will pay such costs; 
                        and
                            ``(iii) whether the training is a condition 
                        of employment, continued employment, or future 
                        employment; and
                    ``(K) a statement, in a form specified by the 
                Secretary of Labor, describing the protections of this 
                Act for workers recruited abroad.
            ``(2) False or misleading information.--No foreign labor 
        contractor or employer who engages in foreign labor contracting 
        activity shall knowingly provide materially false or misleading 
        information to any worker concerning any matter required to be 
        disclosed in paragraph (1).
            ``(3) Languages.--The information required to be disclosed 
        under paragraph (1) shall be provided in writing in English or, 
        as necessary and reasonable, in the language of the worker 
        being recruited. The Secretary of Labor shall make forms 
        available in English, Spanish, and other languages, as 
        necessary, which may be used in providing workers with 
        information required under this section.
            ``(4) Fees.--A person conducting a foreign labor 
        contracting activity shall not assess any fee to a worker for 
        such foreign labor contracting activity.
            ``(5) Terms.--No employer or foreign labor contractor 
        shall, without justification, violate the terms of any 
        agreement made by that contractor or employer regarding 
        employment under this program.
            ``(6) Travel costs.--If the foreign labor contractor or 
        employer charges the employee for transportation such 
        transportation costs shall be reasonable.
            ``(7) Other worker protections.--
                    ``(A) Notification.--Not less frequently than once 
                every 2 years, each employer shall notify the Secretary 
                of Labor of the identity of any foreign labor 
                contractor engaged by the employer in any foreign labor 
                contractor activity for, or on behalf of, the employer.
                    ``(B) Registration of foreign labor contractors.--
                            ``(i) In general.--No person shall engage 
                        in foreign labor recruiting activity unless 
                        such person has a certificate of registration 
                        from the Secretary of Labor specifying the 
                        activities that such person is authorized to 
                        perform. An employer who retains the services 
                        of a foreign labor contractor shall only use 
                        those foreign labor contractors who are 
                        registered under this subparagraph.
                            ``(ii) Issuance.--The Secretary shall 
                        promulgate regulations to establish an 
                        efficient electronic process for the 
                        investigation and approval of an application 
                        for a certificate of registration of foreign 
                        labor contractors not later than 14 days after 
                        such application is filed, including--
                                    ``(I) requirements under paragraphs 
                                (1), (4), and (5) of section 102 of the 
                                Migrant and Seasonal Agricultural 
                                Worker Protection Act (29 U.S.C. 1812);
                                    ``(II) an expeditious means to 
                                update registrations and renew 
                                certificates; and
                                    ``(III) any other requirements that 
                                the Secretary may prescribe.
                            ``(iii) Term.--Unless suspended or revoked, 
                        a certificate under this subparagraph shall be 
                        valid for 2 years.
                            ``(iv) Refusal to issue; revocation; 
                        suspension.--In accordance with regulations 
                        promulgated by the Secretary of Labor, the 
                        Secretary may refuse to issue or renew, or may 
                        suspend or revoke, a certificate of 
                        registration under this subparagraph if--
                                    ``(I) the application or holder of 
                                the certification has knowingly made a 
                                material misrepresentation in the 
                                application for such certificate;
                                    ``(II) the applicant for, or holder 
                                of, the certification is not the real 
                                party in interest in the application or 
                                certificate of registration and the 
                                real party in interest--
    ``(aa) is a person who has been refused issuance or renewal of a 
    certificate;
    ``(bb) has had a certificate suspended or revoked; or
    ``(cc) does not qualify for a certificate under this paragraph; or
                                    ``(III) the applicant for or holder 
                                of the certification has failed to 
                                comply with this Act.
                    ``(C) Remedy for violations.--An employer engaging 
                in foreign labor contracting activity and a foreign 
                labor contractor that violates the provisions of this 
                subsection shall be subject to remedies for foreign 
                labor contractor violations under subsections (k) and 
                (l). If a foreign labor contractor acting as an agent 
                of an employer violates any provision of this 
                subsection, the employer shall be subject to remedies 
                under subsections (k) and (l). An employer that 
                violates a provision of this subsection relating to 
                employer obligations shall be subject to remedies under 
                subsections (k) and (l).
                    ``(D) Employer notification.--An employer shall 
                notify the Secretary of Labor if the employer becomes 
                aware of a violation of this subsection by a foreign 
                labor recruiter.
                    ``(E) Written agreements.--A foreign labor 
                contractor may not violate the terms of any written 
                agreements made with an employer relating to any 
                contracting activity or worker protection under this 
                subsection.
                    ``(F) Bonding requirement.--The Secretary of Labor 
                may require a foreign labor contractor to post a bond 
                in an amount sufficient to ensure the protection of 
                individuals recruited by the foreign labor contractor. 
                The Secretary may consider the extent to which the 
                foreign labor contractor has sufficient ties to the 
                United States to adequately enforce this subsection.
    ``(i) Waiver of Rights Prohibited.--An H-2C nonimmigrant may not be 
required to waive any rights or protections under this Act. Nothing 
under this subsection shall be construed to affect the interpretation 
of other laws.
    ``(j) No Threatening of Employees.--It shall be a violation of this 
section for an employer who has filed an attestation with the 
Department of Labor as part of the petition process under this section 
to threaten the alien beneficiary of such a petition with the 
withdrawal of such a petition in retaliation for the beneficiary's 
exercise of a right protected by this Act.
    ``(k) Enforcement.--
            ``(1) In general.--The Secretary of Labor shall promulgate 
        regulations for the receipt, investigation, and disposition of 
        complaints by an aggrieved person respecting a violation of 
        this section.
            ``(2) Filing deadline.--No investigation or hearing shall 
        be conducted on a complaint concerning a violation under this 
        section unless the complaint was filed not later than 12 months 
        after the date of such violation.
            ``(3) Reasonable basis.--The Secretary of Labor shall 
        conduct an investigation under this subsection if there is 
        reasonable basis to believe that a violation of this section 
        has occurred. The process established under this subsection 
        shall provide that, not later than 30 days after a complaint is 
        filed, the Secretary shall determine if there is reasonable 
        cause to find such a violation.
            ``(4) Notice and hearing.--
                    ``(A) In general.--Not later than 60 days after the 
                Secretary of Labor makes a determination of reasonable 
                basis under paragraph (3), the Secretary shall issue a 
                notice to the interested parties and offer an 
                opportunity for a hearing on the complaint, in 
                accordance with section 556 of title 5, United States 
                Code.
                    ``(B) Complaint.--If the Secretary of Labor, after 
                receiving a complaint under this subsection, does not 
                offer the aggrieved person or organization an 
                opportunity for a hearing under subparagraph (A), the 
                Secretary shall notify the aggrieved person or 
                organization of such determination and the aggrieved 
                person or organization may seek a hearing on the 
                complaint under procedures established by the Secretary 
                which comply with the requirements of section 556.
                    ``(C) Hearing deadline.--Not later than 60 days 
                after the date of a hearing under this paragraph, the 
                Secretary of Labor shall make a finding on the matter 
                in accordance with paragraph (5).
            ``(5) Attorneys' fees.--A complainant who prevails with 
        respect to a claim under this subsection shall be entitled to 
        an award of reasonable attorneys' fees and costs.
            ``(6) Power of the secretary.--The Secretary may bring an 
        action in any court of competent jurisdiction--
                    ``(A) to seek remedial action, including injunctive 
                relief;
                    ``(B) to recover the damages described in 
                subsection (i); or
                    ``(C) to ensure compliance with terms and 
                conditions described in subsection (g).
            ``(7) Solicitor of labor.--Except as provided in section 
        518(a) of title 28, United States Code, the Solicitor of Labor 
        may appear for and represent the Secretary of Labor in any 
        civil litigation brought under this subsection. All such 
        litigation shall be subject to the direction and control of the 
        Attorney General.
            ``(8) Procedures in addition to other rights of 
        employees.--The rights and remedies provided to workers under 
        this section are in addition to any other contractual or 
        statutory rights and remedies of the workers, and are not 
        intended to alter or affect such rights and remedies.
    ``(l) Penalties.--
            ``(1) In general.--If, after notice and an opportunity for 
        a hearing, the Secretary of Labor finds a violation of 
        subsection (b), (e), (f), or (g), the Secretary may impose 
        administrative remedies and penalties, including--
                    ``(A) back wages;
                    ``(B) benefits; and
                    ``(C) civil monetary penalties.
            ``(2) Civil penalties.--The Secretary of Labor may impose, 
        as a civil penalty--
                    ``(A) for a violation of any of subsections (b) 
                through (g)--
                            ``(i) a fine in an amount not to exceed 
                        $2,000 per violation per affected worker;
                            ``(ii) if the violation was willful, a fine 
                        in an amount not to exceed $5,000 per violation 
                        per affected worker;
                            ``(iii) if the violation was willful and if 
                        in the course of such violation a United States 
                        worker was harmed, a fine in an amount not to 
                        exceed $25,000 per violation per affected 
                        worker; and
                    ``(B) for a violation of subsection (h)--
                            ``(i) a fine in an amount not less than 
                        $500 and not more than $4,000 per violation per 
                        affected worker;
                            ``(ii) if the violation was willful, a fine 
                        in an amount not less than $2,000 and not more 
                        than $5,000 per violation per affected worker; 
                        and
                            ``(iii) if the violation was willful and if 
                        in the course of such violation a United States 
                        worker was harmed, a fine in an amount not less 
                        than $6,000 and not more than $35,000 per 
                        violation per affected worker.
            ``(3) Use of civil penalties.--All penalties collected 
        under this subsection shall be deposited in the Treasury in 
        accordance with section 286(w).
            ``(4) Criminal penalties.--If a willful and knowing 
        violation of subsection (g) causes extreme physical or 
        financial harm to an individual, the person in violation of 
        such subsection may be imprisoned for not more than 6 months, 
        fined in an amount not more than $35,000, or both.
    ``(m) Increased Penalties.--Any employer of an H-2C nonimmigrant 
that is subject to a fine under section 16 of the Fair Labor Standards 
Act of 1938 (29 U.S.C. 216) or the Occupational Safety and Health Act 
of 1970 (29 U.S.C. 666) for a violation affecting such alien, shall be 
required to pay a fine equal to twice the fine that would otherwise be 
assessed under such sections.
    ``(n) Definitions.--In this section and in sections 218A, 218C, and 
218D:
            ``(1) Aggrieved person.--term `aggrieved person' means a 
        person adversely affected by an alleged violation of this 
        section, including--
                    ``(A) a worker whose job, wages, or working 
                conditions are adversely affected by the violation; and
                    ``(B) a representative for workers whose jobs, 
                wages, or working conditions are adversely affected by 
                the violation who brings a complaint on behalf of such 
                worker.
            ``(2) Area of employment.--The terms `area of employment' 
        and `area of intended employment' mean the area within normal 
        commuting distance of the worksite or physical location at 
        which the work of the H-2C worker is or will be performed. If 
        such worksite or location is within a Metropolitan Statistical 
        Area, any place within such area is deemed to be within the 
        area of employment.
            ``(3) Eligible individual.--The term `eligible individual' 
        means, with respect to employment, an individual who is not an 
        unauthorized alien (as defined in section 274A) with respect to 
        that employment.
            ``(4) Employ; employee; employer.--The terms `employ', 
        `employee', and `employer' have the meanings given such terms 
        in section 3 of the Fair Labor Standards Act of 1938 (29 U.S.C. 
        203).
            ``(5) Foreign labor contractor.--The term `foreign labor 
        contractor' means any person who for any compensation or other 
        valuable consideration paid or promised to be paid, performs 
        any foreign labor contracting activity.
            ``(6) Foreign labor contracting activity.--The term 
        `foreign labor contracting activity' means recruiting, 
        soliciting, hiring, employing, or furnishing, an individual who 
        resides outside of the United States for employment in the 
        United States as a nonimmigrant alien described in section 
        101(a)(15)(H)(ii)(c).
            ``(7) H-2C nonimmigrant.--The term `H-2C nonimmigrant' 
        means a nonimmigrant described in section 101(a)(15)(H)(ii)(c).
            ``(8) Separation from employment.--The term `separation 
        from employment' means the worker's loss of employment, other 
        than through a discharge for inadequate performance, violation 
        of workplace rules, cause, voluntary departure, voluntary 
        retirement, or the expiration of a grant or contract. The term 
        does not include any situation in which the worker is offered, 
        as an alternative to such loss of employment, a similar 
        employment opportunity with the same employer at equivalent or 
        higher compensation and benefits than the position from which 
        the employee was discharged, regardless of whether the employee 
        accepts the offer. Nothing in this paragraph shall limit an 
        employee's rights under a collective bargaining agreement or 
        other employment contract.
            ``(9) United states worker.--The term `United States 
        worker' means an employee who is--
                    ``(A) a citizen or national of the United States; 
                or
                    ``(B) an alien who is--
                            ``(i) lawfully admitted for permanent 
                        residence;
                            ``(ii) admitted as a refugee under section 
                        207;
                            ``(iii) granted asylum under section 208; 
                        or
                            ``(iv) otherwise authorized, under this Act 
                        or by the Secretary of Homeland Security, to be 
                        employed in the United States.''.
    (b) Clerical Amendment.--The table of contents is amended by 
inserting after the item relating to section 218A, as added by section 
402, the following:

    ``Sec. 218B. Employer obligations.''.

SEC. 404. ALIEN EMPLOYMENT MANAGEMENT SYSTEM.

    (a) In General.--Title II (8 U.S.C. 1151 et seq.) is amended by 
inserting after section 218B, as added by section 403, the following:

``SEC. 218C. ALIEN EMPLOYMENT MANAGEMENT SYSTEM.

    ``(a) Establishment.--The Secretary of Homeland Security, in 
consultation with the Secretary of Labor, the Secretary of State, and 
the Commissioner of Social Security, shall develop and implement a 
program (referred to in this section as the `alien employment 
management system') to manage and track the employment of aliens 
described in sections 218A and 218D.
    ``(b) Requirements.--The alien employment management system shall--
            ``(1) collect sufficient information from employers to 
        enable the Secretary of Homeland Security to determine--
                    ``(A) if the nonimmigrant is employed;
                    ``(B) which employers have hired an H-2C 
                nonimmigrant;
                    ``(C) the number of H-2C nonimmigrants that an 
                employer is authorized to hire and is currently 
                employing;
                    ``(D) the occupation, industry, and length of time 
                that an H-2C nonimmigrant has been employed in the 
                United States;
            ``(2) allow employers to request approval of multiple H-2C 
        nonimmigrant workers; and
            ``(3) permit employers to submit applications under this 
        section in an electronic form.''.
    (b) Clerical Amendment.--The table of contents for the Immigration 
and Nationality Act (8 U.S.C. 1101 et seq.) is amended by inserting 
after the item relating to section 218B, as added by section 403, the 
following:

    ``Sec. 218C. Alien employment management system.''.

SEC. 405. RECRUITMENT OF UNITED STATES WORKERS.

    (a) Electronic Job Registry.--The Secretary of Labor shall 
establish a publicly accessible Web page on the Internet website of the 
Department of Labor that provides a single Internet link to each State 
workforce agency's statewide electronic registry of jobs available 
throughout the United States to United States workers.
    (b) Recruitment of United States Workers.--
            (1) Posting.--An employer shall attest that the employer 
        has posted an employment opportunity at a prevailing wage level 
        (as described in section 218B(b)(2)(C) of the Immigration and 
        Nationality Act).
            (2) Records.--An employer shall maintain records for not 
        less than 1 year after the date on which an H-2C nonimmigrant 
        is hired that describe the reasons for not hiring any of the 
        United States workers who may have applied for such position.
    (c) Oversight and Maintenance of Records.--The Secretary of Labor 
shall promulgate regulations regarding the maintenance of electronic 
job registry records for the purpose of audit or investigation.
    (d) Access to Electronic Job Registry.--The Secretary of Labor 
shall ensure that job opportunities advertised on an electronic job 
registry established under this section are accessible--
            (1) by the State workforce agencies, which may further 
        disseminate job opportunity information to other interested 
        parties; and
            (2) through the Internet, for access by workers, employers, 
        labor organizations, and other interested parties.

SEC. 406. NUMERICAL LIMITATIONS.

    Section 214(g)(1) (8 U.S.C. 1184(g)) is amended--
            (1) by striking ``(beginning with fiscal year 1992)'';
            (2) in subparagraph (B), by striking the period at the end 
        and inserting ``; and''; and
            (3) by adding at the end the following:
                    ``(C) under section 101(a)(15)(H)(ii)(c), may not 
                exceed--
                            ``(i) 400,000 for the first fiscal year in 
                        which the program is implemented;
                            ``(ii) in any subsequent fiscal year, 
                        subject to clause (iii)--
                                    ``(I) if the total number of visas 
                                allocated for that fiscal year are 
                                allotted within the first quarter of 
                                that fiscal year, then an additional 20 
                                percent of the allocated number shall 
                                be made available immediately and the 
                                allocated amount for the following 
                                fiscal year shall increase by 20 
                                percent of the original allocated 
                                amount in the prior fiscal year;
                                    ``(II) if the total number of visas 
                                allocated for that fiscal year are 
                                allotted within the second quarter of 
                                that fiscal year, then an additional 15 
                                percent of the allocated number shall 
                                be made available immediately and the 
                                allocated amount for the following 
                                fiscal year shall increase by 15 
                                percent of the original allocated 
                                amount in the prior fiscal year;
                                    ``(III) if the total number of 
                                visas allocated for that fiscal year 
                                are allotted within the third quarter 
                                of that fiscal year, then an additional 
                                10 percent of the allocated number 
                                shall be made available immediately and 
                                the allocated amount for the following 
                                fiscal year shall increase by 10 
                                percent of the original allocated 
                                amount in the prior fiscal year;
                                    ``(IV) if the total number of visas 
                                allocated for that fiscal year are 
                                allotted within the last quarter of 
                                that fiscal year, the allocated amount 
                                for the following fiscal year shall 
                                increase by 10 percent of the original 
                                allocated amount in the prior fiscal 
                                year; and
                                    ``(V) with the exception of the 
                                first subsequent fiscal year to the 
                                fiscal year in which the program is 
                                implemented, if fewer visas were 
                                allotted the previous fiscal year than 
                                the number of visas allocated for that 
                                year and the reason was not due to 
                                processing delays or delays in 
                                promulgating regulations, then the 
                                allocated amount for the following 
                                fiscal year shall decrease by 10 
                                percent of the allocated amount in the 
                                prior fiscal year; and
                            ``(iii) 600,000 for any fiscal year.''.

SEC. 407. ADJUSTMENT TO LAWFUL PERMANENT RESIDENT STATUS.

    Section 245 of the Immigration and Nationality Act (8 U.S.C. 1255) 
is amended by adding at the end the following:
    ``(n)(1) For purposes of adjustment of status under subsection (a), 
employment-based immigrant visas shall be made available to an alien 
having nonimmigrant status described in section 101(a)(15)(H)(ii)(c) 
upon the filing of a petition for such a visa--
            ``(A) by the alien's employer; or
            ``(B) by the alien, if the alien has been employed as an H-
        2C nonimmigrant in the United States for a cumulative total of 
        5 years.
    ``(2) An alien applying for adjustment of status under paragraph 
(1)(B) shall--
            ``(A) pay an application fee of $500 which shall be 
        credited to the State Impact Assistance Account established 
        under section 286(x), in addition to the fee established by the 
        Secretary of Homeland Security to process an application for 
        adjustment of status;
            ``(B) be physically present in the United States;
            ``(C) establish evidence of employment; and
            ``(D)(i) meet the requirements under section 312; or
            ``(ii) be satisfactorily pursuing a course of study to 
        achieve such an understanding of English and knowledge and 
        understanding of the history and government of the United 
        States.
    ``(3)(A) Notwithstanding any other provision of this section, an 
alien described in paragraph (1)(B) shall be considered, at the time of 
obtaining the status of an alien lawfully admitted for permanent 
residence, to have obtained such status on a conditional basis for a 
period not to exceed two years subject to the provisions of this 
subsection.
    ``(B) In order for the conditional basis established under this 
subsection for an alien to be removed, the alien shall submit to the 
Secretary, during the 90-day period before the second anniversary of 
the alien's obtaining the status of lawful admission for permanent 
residence, a petition which requests the removal of such conditional 
basis and states, under penalty of perjury, the facts and information 
described in subparagraph (G).
    ``(C) In the case of an alien with permanent resident status on a 
conditional basis under this subsection, if no petition is filed with 
respect to the alien in accordance with the provisions of this 
paragraph, status shall be terminated.
    ``(D) In any removal proceeding with respect to an alien whose 
permanent resident status is terminated under subparagraph (B), the 
burden of proof shall be on the alien to establish compliance with the 
conditions of this subsection.
    ``(E) If the Secretary determines that such facts and information 
are true, the Secretary shall so notify the parties involved and shall 
remove the conditional basis of the party effective as of the second 
anniversary of the alien's obtaining the status of lawful admission for 
permanent residence
    ``(F) If the Secretary determines that such facts and information 
are not true, the Secretary shall so notify the parties involved and, 
shall terminate the permanent resident status of an alien as of the 
date of the determination.
    ``(G) Each petition under this paragraph for removal of conditional 
status shall contain the following facts and information:
            ``(i) Evidence of continued employment.
            ``(ii) Evidence of employment in an area that is not a high 
        unemployment area described in section 218B.
            ``(iii) Evidence of compliance with--
                    ``(I) section 602(g) of the STRIVE Act of 2007, 
                regarding payment of income taxes
                    ``(II) section 602(h) of such Act, regarding basic 
                citizenship skills
                    ``(III) section 602(i) of such Act, regarding 
                security and law enforcement background checks;
                    ``(IV) section 602(j) of such Act, regarding 
                military selective service; and
                    ``(V) section 602(k) of such Act, regarding 
                treatment of conditional nonimmigrant dependents.
    ``(4) An alien shall demonstrate evidence of employment in 
accordance with section 602(a)(3) of the STRIVE Act. It is the sense of 
the Congress that the requirement under this paragraph should be 
interpreted and implemented in a manner that recognizes and takes into 
account the difficulties encountered by aliens in obtaining evidence of 
employment. Such alien shall prove, by a preponderance of the evidence, 
that the alien has satisfied the requirements of this subsection. An 
alien may meet such burden of proof by producing sufficient evidence to 
demonstrate such employment as a matter of reasonable inference.
    ``(5) An alien who demonstrates that the alien meets the 
requirements of section 312 may be considered to have satisfied the 
requirements of that section for purposes of becoming naturalized as a 
citizen of the United States under title III.
    ``(6) Filing a petition under paragraph (1) on behalf of an alien 
or otherwise seeking permanent residence in the United States for such 
alien shall not constitute evidence of the alien's ineligibility for 
nonimmigrant status under section 101(a)(15)(H)(ii)(c).
    ``(7) The limitation regarding the period of authorized stay under 
section 218D(9)(d) shall not apply to an H-2C nonimmigrant if--
            ``(A) a labor certification petition filed under section 
        203(b) on behalf of such alien is pending;
            ``(B) an immigrant visa petition filed under section 204(b) 
        on behalf of such alien is pending; or
            ``(C) an application for adjustment of status under 
        paragraph (1)(B) is pending.
    ``(8) The Secretary of Homeland Security shall extend the stay of 
an alien who qualifies for an exemption under paragraph (6) in 1-year 
increments until a final decision is made on the alien's lawful 
permanent residence.
    ``(9) Nothing in this subsection shall be construed to prevent an 
alien having nonimmigrant status described in section 
101(a)(15)(H)(ii)(c) from filing an application for adjustment of 
status under this section in accordance with any other provision of 
law.''.

SEC. 408. REQUIREMENTS FOR PARTICIPATING COUNTRIES.

    (a) In General.--The Secretary of State, in cooperation with the 
Secretary and the Attorney General, shall negotiate with each home 
country of aliens described in section 101(a)(15)(H)(ii)(c) of the 
Immigration and Nationality Act, as added by section 401, to enter into 
a bilateral agreement with the United States that conforms to the 
requirements under subsection (b).
    (b) Requirements of Bilateral Agreements.--Each agreement 
negotiated under subsection (a) shall require the participating home 
country to--
            (1) accept the return of nationals who are ordered removed 
        from the United States within 3 days of such removal;
            (2) cooperate with the United States Government to--
                    (A) identify, track, and reduce gang membership, 
                violence, and human trafficking and smuggling; and
                    (B) control illegal immigration;
            (3) provide the United States Government with--
                    (A) passport information and criminal records of 
                aliens who are seeking admission to, or are present in, 
                the United States; and
                    (B) admission and entry data to facilitate United 
                States entry-exit data systems;
            (4) educate nationals of the home country regarding United 
        States temporary worker programs to ensure that such nationals 
        are not exploited; and
            (5) evaluate means to provide housing incentives in the 
        alien's home country for returning workers.

SEC. 409. COMPLIANCE INVESTIGATORS.

    The Secretary of Labor, subject to the availability of 
appropriations for such purpose, shall annually increase, by not less 
than 2,000, the number of positions for compliance investigators 
dedicated to enforcing compliance with this title, and the amendments 
made by this title.

SEC. 410. STANDING COMMISSION ON IMMIGRATION AND LABOR MARKETS.

    (a) Establishment of Commission.--
            (1) In general.--There is established an independent 
        Federal agency within the Executive Branch to be known as the 
        Standing Commission on Immigration and Labor Markets (referred 
        to in this section as the ``Commission'').
            (2) Purposes.--The purposes of the Commission are--
                    (A) to study the new worker program established 
                under this title to admit H-2C nonimmigrants (referred 
                to in this section as the ``Program'');
                    (B) to make recommendations to the President and 
                Congress with respect to the Program.
            (3) Membership.--The Commission shall be composed of--
                    (A) 6 voting members--
                            (i) who shall be appointed by the 
                        President, with the advice and consent of the 
                        Senate, not later than 6 months after the 
                        establishment of the Program;
                            (ii) who shall serve for 3-year staggered 
                        terms, which can be extended for 1 additional 
                        3-year term;
                            (iii) who shall select a Chair from among 
                        the voting members to serve a 2-year term, 
                        which can be extended for 1 additional 2-year 
                        term;
                            (iv) who shall have expertise in economics, 
                        demography, labor, business, or immigration or 
                        other pertinent qualifications or experience;
                            (v) who may not be an employee of the 
                        Federal Government or of any State or local 
                        government; and
                            (vi) not more than 3 of whom may be members 
                        of the same political party.
                    (B) 7 ex-officio members, including--
                            (i) the Secretary;
                            (ii) the Secretary of State;
                            (iii) the Attorney General;
                            (iv) the Secretary of Labor;
                            (v) the Secretary of Commerce;
                            (vi) the Secretary of Health and Human 
                        Services; and
                            (vii) the Secretary of Agriculture.
            (4) Vacancies.--Any vacancy in the Commission shall be 
        filled in the same manner as the original appointment.
            (5) Meetings.--
                    (A) Initial meeting.--The Commission shall meet and 
                begin carrying out the duties described in subsection 
                (b) as soon as practicable.
                    (B) Subsequent meetings.--After its initial 
                meeting, the Commission shall meet upon the call of the 
                Chair or a majority of its members.
                    (C) Quorum.--Four voting members of the Commission 
                shall constitute a quorum.
    (b) Duties of the Commission.--The Commission shall--
            (1) examine and analyze--
                    (A) the development and implementation of the 
                Program;
                    (B) the criteria for the admission of temporary 
                workers under the Program;
                    (C) the formula for determining the annual 
                numerical limitations of the Program;
                    (D) the impact of the Program on immigration;
                    (E) the impact of the Program on the economy, 
                unemployment rate, wages, workforce, and businesses of 
                the United States; and
                    (F) any other matters regarding the Program that 
                the Commission considers appropriate;
            (2) not later than February 1, 2009, and every 2 years 
        thereafter, submit a report to the President and Congress 
        that--
                    (A) contains the findings of the analysis conducted 
                under paragraph (1);
                    (B) makes recommendations regarding the necessary 
                adjustments to the numerical limits of the Program in 
                section 214(g)(1)(C) of the Immigration and Nationality 
                Act, as added by section 406, to meet the labor market 
                needs of the United States; and
                    (C) makes other recommendations regarding the 
                Program, including legislative or administrative 
                action, that the Commission determines to be in the 
                national interest.
            (3) upon receiving a request from Congress, examine, 
        analyze, and report findings or recommendations regarding any 
        other employment-based immigration and visa program.
    (c) Information and Assistance From Federal Agencies.--
            (1) Information.--The head of any Federal department or 
        agency that receives a request from the Commission for 
        information, including suggestions, estimates, and statistics, 
        as the Commission considers necessary to carry out the 
        provisions of this section, shall furnish such information to 
        the Commission, to the extent allowed by law.
            (2) Assistance.--
                    (A) General services administration.--The 
                Administrator of General Services shall, on a 
                reimbursable basis, provide the Commission with 
                administrative support and other services for the 
                performance of the Commission's functions.
                    (B) Other federal agencies.--The departments and 
                agencies of the United States may provide the 
                Commission with such services, funds, facilities, 
                staff, and other support services as the heads of such 
                departments and agencies determine advisable and 
                authorized by law.
    (d) Personnel Matters.--
            (1) Staff.--
                    (A) Appointment and compensation.--The Chair, in 
                accordance with rules agreed upon by the Commission, 
                may appoint and fix the compensation of a staff 
                director and such other personnel as may be necessary 
                to enable the Commission to carry out its functions.
                    (B) Federal employees.--
                            (i) In general.--Except as provided under 
                        clause (ii), the executive director and any 
                        personnel of the Commission who are employees 
                        shall be considered to be employees under 
                        section 2105 of title 5, United States Code, 
                        for purposes of chapters 63, 81, 83, 84, 85, 
                        87, 89,and 90 of such title.
                            (ii) Commission members .--Clause (i) shall 
                        not apply to members of the Commission.
            (2) Detailees.--Any employee of the Federal Government may 
        be detailed to the Commission without reimbursement from the 
        Commission. Such detailee shall retain the rights, status, and 
        privileges of his or her regular employment without 
        interruption.
            (3) Consultant services.--The Commission may procure the 
        services of experts and consultants in accordance with section 
        3109 of title 5, United States Code, at rates not to exceed the 
        daily rate paid a person occupying a position at level IV of 
        the Executive Schedule under section 5315 of such title 5.
    (e) Compensation and Travel Expenses.--
            (1) Compensation.--Each voting member of the Commission may 
        be compensated at a rate not to exceed the daily equivalent of 
        the annual rate of basic pay in effect for a position at level 
        IV of the Executive Schedule under section 5315 of title 5, 
        United States Code, for each day during which that member is 
        engaged in the actual performance of the duties of the 
        Commission.
            (2) Travel expenses.--Members of the Commission shall be 
        allowed travel expenses, including per diem in lieu of 
        subsistence, in the same manner as persons employed 
        intermittently in the Government service are allowed expenses 
        under section 5703(b) of title 5, United States Code, while 
        away from their homes or regular places of business in the 
        performance of services for the Commission.
    (f) Determination of New Levels of Program Visas.--The numeric 
levels for visas under the Program shall be set automatically for the 
first fiscal year beginning after the report is submitted under 
subsection (b)(2) based on the numeric levels determined in the most 
recent fiscal year, as adjusted by section 214(g)(1)(C) of the 
Immigration and Nationality Act, unless Congress enacts legislation 
before September 30, 2009, that--
            (1) establishes the baseline numeric levels of Program 
        visas for such fiscal year; and
            (2) makes amendments, as necessary, to such section 
        214(g)(1)(C).
    (g) Funding.--Fees and fines deposited into the New Worker and 
Conditional Nonimmigrants Fee Account under section 286(w)(3)(B) of the 
Immigration and Nationality Act may be used by the Commission to carry 
out its duties under this section.

SEC. 411. ADMISSION OF NONIMMIGRANTS.

    (a) Presumption of Nonimmigrant Status.--Section 214(b) (8 U.S.C. 
1184(b)) is amended by striking ``and other than'' and inserting ``a 
nonimmigrant described in section 101(a)(15)(H)(ii)(c)), and''.
    (b) Evidence To Abandon Foreign Residence.--Section 214(h) (8 
U.S.C. 1184(h)) is amended by striking ``H(i)(b) or (c),'' and 
inserting ``(H)(i)(b), H(i)(c), (H)(ii)(c),''.

SEC. 412. AGENCY REPRESENTATION AND COORDINATION.

    Section 274A(e) (8 U.S.C. 1324a(e)) is amended--
            (1) in paragraph (2)--
                    (A) in subparagraph (A), by striking the comma at 
                the end and inserting a semicolon;
                    (B) in subparagraph (B), by striking ``, and'' and 
                inserting a semicolon;
                    (C) in subparagraph (C), by striking ``paragraph 
                (2).'' And inserting ``paragraph (1); and''; and
                    (D) by inserting after subparagraph (C) the 
                following:
                    ``(D) United States Immigration and Customs 
                Enforcement officials may not misrepresent to employees 
                or employers that they are a member of any agency or 
                organization that provides domestic violence services, 
                enforces health and safety law or other labor laws, 
                provides health care services, or any other services 
                intended to protect life and safety.''; and
            (2) by adding at the end the following:
            ``(10) Coordination.--An investigation under paragraph 
        (1)(C) shall be coordinated with the appropriate regional 
        office of the National Labor Relations Board, the Department of 
        Labor, and all relevant State and local agencies that are 
        charged with enforcing workplace standards. Evidence gathered 
        from such agencies shall be considered in determining whether 
        the entity under investigation has violated subsection (a).''.

SEC. 413. SENSE OF CONGRESS REGARDING PERSONAL PROTECTIVE EQUIPMENT.

    (a) In General.--It is the sense of the Congress that the Secretary 
of Labor, not later than 90 days after the date of the enactment of 
this Act, should amend section 1910.132(a) of title 29, Code of Federal 
Regulations, to require employers to provide personal protective 
equipment to employees at no cost. Any future regulation promulgated 
under such section should require such equipment be provided to 
employees at no cost.
    (b) Defined Term.--In this section, the term ``personal protective 
equipment'' has the meaning given the term in section 1910.132(a) of 
title 29, Code of Federal Regulations (or any corresponding similar 
regulation or ruling).

SEC. 414. RULEMAKING; EFFECTIVE DATE.

    (a) Rulemaking.--Not later than 6 months after the date of 
enactment of the STRIVE Act, the Secretary of Labor shall promulgate 
regulations, in accordance with the notice and comment provisions of 
section 553 of title 5, United States Code, to carry out the provisions 
of sections 218A and 218B of the Immigration and Nationality Act, as 
added by this title.
    (b) Effective Date.--The amendments made by sections 402, 403, and 
404 shall take effect on the date that is 1 year after the date of the 
enactment of this Act with regard to aliens, who, on such effective 
date, are in the foreign country where they maintain residence.

SEC. 415. AUTHORIZATION OF APPROPRIATIONS.

    There are authorized to be appropriated such sums as may be 
necessary to carry out this title.

                         TITLE V--VISA REFORMS

                     Subtitle A--Backlog Reduction

SEC. 501. ELIMINATION OF EXISTING BACKLOGS.

    (a) Family-Sponsored Immigrants.--Section 201(c) (8 U.S.C. 1151(c)) 
is amended to read as follows:
    ``(c) Worldwide Level of Family-Sponsored Immigrants.--The 
worldwide level of family-sponsored immigrants under this subsection 
for a fiscal year is equal to the sum of--
            ``(1) 480,000;
            ``(2) the difference between the maximum number of visas 
        authorized to be issued under this subsection during the 
        previous fiscal year and the number of visas issued during the 
        previous fiscal year;
            ``(3) the difference between--
                    ``(A) the maximum number of visas authorized to be 
                issued under this subsection during fiscal years 2001 
                through 2005 minus the number of visas issued under 
                this subsection during those fiscal years; and
                    ``(B) the number of visas calculated under 
                subparagraph (A) that were issued after fiscal year 
                2005.''.
    (b) Employment-Based Immigrants.--Section 201(d) (8 U.S.C. 1151(d)) 
is amended to read as follows:
    ``(d) Worldwide Level of Employment-Based Immigrants.--
            ``(1) In general.--The worldwide level of employment-based 
        immigrants under this subsection for a fiscal year is equal to 
        the sum of--
                    ``(A) 290,000;
                    ``(B) the difference between the maximum number of 
                visas authorized to be issued under this subsection 
                during the previous fiscal year and the number of visas 
                issued during the previous fiscal year; and
                    ``(C) the difference between--
                            ``(i) the maximum number of visas 
                        authorized to be issued under this subsection 
                        during fiscal years 2001 through 2005 and the 
                        number of visa numbers issued under this 
                        subsection during those fiscal years; and
                            ``(ii) the number of visas calculated under 
                        clause (i) that were issued after fiscal year 
                        2005.
            ``(2) Visas for spouses and children.--
                    ``(A) In general.--Except as provided in 
                subparagraph (B), immigrant visas issued on or after 
                October 1, 2004, to spouses and children of employment-
                based immigrants shall not be counted against the 
                numerical limitation set forth in paragraph (1).
                    ``(B) Numerical limitation.--The total number of 
                visas issued under paragraph (A) may not exceed 800,000 
                during any fiscal year.''.
    (c) Exception to Nondiscrimination.--Section 202(a)(1)(A) (8 U.S.C. 
1152(a)(1)(A)) is amended by striking ``201(b)(2)(A)(i)'' and inserting 
``201(b), 201(d)(2)(A)''.

SEC. 502. INCREASING COUNTRY LIMITS AND EXEMPTING FAMILY-SPONSORED AND 
                    EMPLOYMENT-BASED IMMIGRANTS.

    Section 202(a)(2) (8 U.S.C. 1152(a)(2)) is amended by striking 
``may not exceed 7 percent'' and all that follows and inserting ``, 
except for aliens described in subsections (b) and (d)(2)(A) of section 
201, may not exceed 10 percent (in the case of a single foreign state) 
or 5 percent (in the case of a dependent area) of the total number of 
such visas made available under such subsections in that fiscal 
year.''.

SEC. 503. ALLOCATION OF IMMIGRANT VISAS.

    (a) Preference Allocation for Family-Sponsored Immigrants.--Section 
203(a) (8 U.S.C. 1153(a)) is amended to read as follows:
    ``(a) Preference Allocations for Family-Sponsored Immigrants.--
Aliens subject to the worldwide level set forth in section 201(c) for 
family-sponsored immigrants shall be allocated visas as follows:
            ``(1) Unmarried sons and daughters of citizens.--Qualified 
        immigrants who are the unmarried sons or daughters of citizens 
        of the United States shall be allocated visas in a quantity not 
        to exceed the sum of--
                    ``(A) 10 percent of such worldwide level; and
                    ``(B) any visas not required for the class 
                specified in paragraph (4).
            ``(2) Spouses and unmarried sons and daughters of permanent 
        resident aliens.--
                    ``(A) In general.--Visas in a quantity not to 
                exceed 50 percent of such worldwide level plus any 
                visas not required for the class specified in paragraph 
                (1) shall be allocated to qualified immigrants who 
                are--
                            ``(i) the spouses or children of an alien 
                        lawfully admitted for permanent residence; or
                            ``(ii) the unmarried sons or daughters of 
                        an alien lawfully admitted for permanent 
                        residence.
                    ``(B) Minimum percentage.--Visas allocated to 
                individuals described in subparagraph (A)(i) shall 
                constitute not less than 77 percent of the visas 
                allocated under this paragraph.
            ``(3) Married sons and daughters of citizens.--Qualified 
        immigrants who are the married sons and daughters of citizens 
        of the United States shall be allocated visas in a quantity not 
        to exceed the sum of--
                    ``(A) 10 percent of such worldwide level; and
                    ``(B) any visas not required for the classes 
                specified in paragraphs (1) and (2).
            ``(4) Brothers and sisters of citizens.--Qualified 
        immigrants who are the brothers or sisters of a citizen of the 
        United States who is at least 21 years of age shall be 
        allocated visas in a quantity not to exceed 30 percent of the 
        worldwide level.''.
    (b) Preference Allocation for Employment-Based Immigrants.--Section 
203(b) (8 U.S.C. 1153(b)) is amended--
            (1) in paragraph (1), by striking ``28.6 percent'' and 
        inserting ``15 percent'';
            (2) in paragraph (2)(A), by striking ``28.6 percent'' and 
        inserting ``15 percent'';
            (3) in paragraph (3)(A)--
                    (A) by striking ``28.6 percent'' and inserting ``35 
                percent''; and
                    (B) by striking clause (iii);
            (4) by striking paragraph (4);
            (5) by redesignating paragraph (5) as paragraph (4);
            (6) in paragraph (4)(A), as redesignated, by striking ``7.1 
        percent'' and inserting ``5 percent'';
            (7) by inserting after paragraph (4), as redesignated, the 
        following:
            ``(5) Other workers.--
                    ``(A) In general.--Visas shall be made available, 
                in a number not to exceed 30 percent of such worldwide 
                level, plus any visa numbers not required for the 
                classes specified in paragraphs (1) through (4), to 
                qualified immigrants who are capable, at the time of 
                petitioning for classification under this paragraph, of 
                performing unskilled labor that is not of a temporary 
                or seasonal nature, for which qualified workers are 
                determined to be unavailable in the United States.
                    ``(B) Priority in allocating visas.--In allocating 
                visas under subparagraph (A) for each of the fiscal 
                years 2007 through 2017, the Secretary shall reserve 30 
                percent of such visas for qualified immigrants who were 
                physically present in the United States before January 
                7, 2004.''; and
            (8) by striking paragraph (6).
    (c) Special Immigrants Not Subject to Numerical Limitations.--
Section 201(b)(1)(A) (8 U.S.C. 1151(b)(1)(A)) is amended by striking 
``subparagraph (A) or (B) of''.
    (d) Temporary Increase in Number of Iraqi and Afghan Translators 
Who May Be Provided Status as Special Immigrants.--Section 1059(c)(1) 
of the National Defense Authorization Act for Fiscal Year 2006 (8 
U.S.C. 1101 note) is amended by striking ``during any fiscal year shall 
not exceed 50.'' and inserting the following: ``may not exceed--
                    ``(A) 300 during each of the fiscal years 2007, 
                2008, and 2009; and
                    ``(B) 50 during any subsequent fiscal year.''.
    (e) Conforming Amendments.--
            (1) Definition of special immigrant.--Section 101(a)(27)(M) 
        (8 U.S.C. 1101(a)(27)(M)) is amended by striking ``subject to 
        the numerical limitations of section 203(b)(4),''.
            (2) Repeal of temporary reduction in workers' visas.--
        Section 203(e) of the Nicaraguan Adjustment and Central 
        American Relief Act (Public Law 105-100; 8 U.S.C. 1153 note) is 
        repealed.

SEC. 504. NURSING SHORTAGE.

    (a) Exception to Direct Numerical Limitations.--Section 201(b)(1) 
(8 U.S.C. 1151(b)(1)) is amended by adding at the end the following:
            ``(F)(i) During the period beginning on the date of the 
        enactment the STRIVE Act and ending on September 30, 2017, an 
        alien--
                    ``(I) who is otherwise described in section 203(b); 
                and
                    ``(II) who is seeking admission to the United 
                States to perform labor in shortage occupations 
                designated by the Secretary of Labor for blanket 
                certification under section 212(a)(5)(A) due to the 
                lack of sufficient United States workers able, willing, 
                qualified, and available for such occupations and for 
                which the employment of aliens will not adversely 
                affect the terms and conditions of similarly employed 
                United States workers.
            ``(ii) During the period described in clause (i), the 
        spouse or dependents of an alien described in clause (i), if 
        accompanying or following to join such alien.''.
    (b) Exception to Nondiscrimination Requirements.--Section 
202(a)(1)(A) (8 U.S.C. 1152(a)(1)(A)) is amended by striking 
``201(b)(2)(A)(i)'' and inserting ``201(b)''.
    (c) Exception to Per Country Levels for Family-Sponsored and 
Employment-Based Immigrants.--Section 202(a)(2) (8 U.S.C. 1152(a)(2)), 
as amended by section 502, is further amended by inserting ``, except 
for aliens described in section 201(b),'' after ``any fiscal year''.
    (d) Increasing the Domestic Supply of Nurses and Physical 
Therapists.--Not later than January 1, 2007, the Secretary of Health 
and Human Services shall--
            (1) submit to Congress a report on the source of newly 
        licensed nurses and physical therapists in each State, which 
        report shall--
                    (A) include the past 3 years for which data are 
                available;
                    (B) provide separate data for each occupation and 
                for each State;
                    (C) separately identify those receiving their 
                initial license and those licensed by endorsement from 
                another State;
                    (D) within those receiving their initial license in 
                each year, identify the number who received their 
                professional education in the United States and those 
                who received such education outside the United States; 
                and
                    (E) to the extent possible, identify, by State of 
                residence and country of education, the number of 
                nurses and physical therapists who were educated in any 
                of the 5 countries (other than the United States) from 
                which the most nurses and physical therapists arrived;
                    (F) identify the barriers to increasing the supply 
                of nursing faculty, domestically trained nurses, and 
                domestically trained physical therapists;
                    (G) recommend strategies to be followed by Federal 
                and State governments that would be effective in 
                removing such barriers, including strategies that 
                address barriers to advancement to become registered 
                nurses for other health care workers, such as home 
                health aides and nurses assistants;
                    (H) recommend amendments to Federal legislation 
                that would increase the supply of nursing faculty, 
                domestically trained nurses, and domestically trained 
                physical therapists;
                    (I) recommend Federal grants, loans, and other 
                incentives that would provide increases in nurse 
                educators, nurse training facilities, and other steps 
                to increase the domestic education of new nurses and 
                physical therapists;
                    (J) identify the effects of nurse emigration on the 
                health care systems in their countries of origin; and
                    (K) recommend amendments to Federal law that would 
                minimize the effects of health care shortages in the 
                countries of origin from which immigrant nurses 
                arrived;
            (2) enter into a contract with the National Academy of 
        Sciences Institute of Medicine to determine the level of 
        Federal investment under titles VII and VIII of the Public 
        Health Service Act necessary to eliminate the domestic nursing 
        and physical therapist shortage not later than 7 years from the 
        date on which the report is published; and
            (3) collaborate with other agencies, as appropriate, in 
        working with ministers of health or other appropriate officials 
        of the 5 countries from which the most nurses and physical 
        therapists arrived, to--
                    (A) address health worker shortages caused by 
                emigration;
                    (B) ensure that there is sufficient human resource 
                planning or other technical assistance needed to reduce 
                further health worker shortages in such countries.
    (e) Authority of Consular Officer To Grant Preference Status.--
Section 204(b) of the Immigration and Nationality Act (8 U.S.C. 
1154(b)) is amended--
            (1) by striking ``(b)'' and inserting ``(b)(1)''; and
            (2) by adding at the end the following:
            ``(2) Notwithstanding paragraph (1), for individual 
        beneficiaries outside of the United States seeking 
        classification under section 203(b) who will perform labor in 
        shortage occupations designated by the Secretary of Labor for 
        blanket certification under section 212(a)(5)(A) as lacking 
        sufficient United States workers able, willing, qualified, and 
        available for such occupations and for which the employment of 
        aliens will not adversely affect the terms and conditions of 
        similarly employed United States workers, a consular officer, 
        upon petition of the importing employer, shall have authority 
        to determine eligibility if the officer determines that the 
        facts stated in the petition are true and the alien is eligible 
        for the preference. The consular officer shall also have 
        authority to grant the preference status.''.

SEC. 505. EXPEDITED ADJUDICATION OF EMPLOYER PETITIONS FOR ALIENS OF 
                    EXTRAORDINARY ARTISTIC ABILITY.

    Section 214(c) (8 U.S.C. 1184(c)) is amended--
            (1) by striking ``Attorney General'' each place it appears 
        and inserting ``Secretary of Homeland Security''; and
            (2) in paragraph (6)(D)--
                    (A) by striking ``Any person'' and inserting ``(i) 
                Except as provided in clause (ii), any person''; and
                    (B) adding at the end the following:
            ``(ii) The Secretary of Homeland Security shall adjudicate 
        each petition for an alien with extraordinary ability in the 
        arts (as described in section 101(a)(15)(O)(i)), an alien 
        accompanying such an alien (as described in clauses (ii) and 
        (iii) of section 101(a)(15)(O)), or an alien described in 
        section 101(a)(15)(P) not later than 30 days after--
                    ``(I) the date on which the petitioner submits the 
                petition with a written advisory opinion, letter of no 
                objection, or request for a waiver; or
                    ``(II) the date on which the 15-day period 
                described in clause (i) has expired, if the petitioner 
                has had an opportunity, as appropriate, to supply 
                rebuttal evidence.
            ``(iii) If a petition described in clause (ii) is not 
        adjudicated before the end of the 30-day period described in 
        clause (ii) and the petitioner is a qualified nonprofit 
        organization or an individual or entity petitioning primarily 
        on behalf of a qualified nonprofit organization, the Secretary 
        of Homeland Security shall provide the petitioner with the 
        premium-processing services referred to in section 286(u), 
        without a fee.''.

SEC. 506. POWERLINE WORKERS AND BOILERMAKERS.

    Section 214(e) (8 U.S.C. 1184(e)) is amended by adding at the end 
the following:
    ``(7) A citizen of Canada shall be admitted in the same manner and 
under the same authority as a citizen of Canada described in paragraph 
(2) if the citizen--
            ``(A) is a powerline worker or boilermaker;
            ``(B) has received significant training; and
            ``(C) seeks admission to the United States to perform 
        powerline repair and maintenance services or boilermaker repair 
        or maintenance services.''.

SEC. 507. H-1B VISAS.

    (a) In General.--Section 214(g)(5) (8 U.S.C. 1184(g)(5)) is 
amended--
            (1) in subparagraph (B)--
                    (A) by striking ``nonprofit research'' and 
                inserting ``nonprofit'';
                    (B) by inserting ``Federal, State, or local'' 
                before ``governmental''; and
                    (C) by striking ``or'' at the end;
            (2) in subparagraph (C)--
                    (A) by striking ``until the number of aliens who 
                are exempted from such numerical limitation during such 
                fiscal year exceeds 20,000.'' and inserting ``or has 
                been awarded a medical specialty certification based on 
                post-doctoral training and experience in the United 
                States.''; and
                    (B) by striking the period at the end and inserting 
                ``; or''; and
            (3) by adding at the end the following:
            ``(D) has earned a master's or higher degree in science, 
        technology, engineering, or mathematics from an institution of 
        higher education outside of the United States.''.
    (b) Applicability.--The amendments made by subsection (a) shall 
apply to any petition or visa application pending on the date of 
enactment of this Act and any petition or visa application filed on or 
after such date.
    (c) Market-Based Visa Limits.--Section 214(g) (8 U.S.C. 1184(g)) is 
amended--
            (1) in paragraph (1)--
                    (A) in the matter preceding subparagraph (A), by 
                striking ``(beginning with fiscal year 1992)''; and
                    (B) by amending subparagraph (A) to read as 
                follows:
                    ``(A) under section 101(a)(15)(H)(i)(b), may not 
                exceed--
                            ``(i) 115,000 in fiscal year 2007; and
                            ``(ii) the sum of 115,000 and the number 
                        calculated under paragraph (9) in fiscal year 
                        2008 and each subsequent fiscal year;''.
            (2) in paragraph (8)--
                    (A) in subparagraph (B), by striking clause (iv); 
                and
                    (B) by striking subparagraph (D);
            (3) by redesignating paragraphs (9), (10), and (11) as 
        paragraphs (10), (11), and (12), respectively; and
            (4) by inserting after paragraph (8) the following:
            ``(9) If the numerical limitation in paragraph (1)(A)--
                    ``(A) is reached during a given fiscal year, the 
                numerical limitation under paragraph (1)(A) for the 
                subsequent fiscal year shall be equal to 120 percent of 
                the numerical limitation of the given fiscal year, not 
                to exceed 180,000; or
                    ``(B) is not reached during a given fiscal year, 
                the numerical limitation under paragraph (1)(A) for the 
                subsequent fiscal year shall be equal to the numerical 
                limitation of the given fiscal year.''.

SEC. 508. UNITED STATES EDUCATED IMMIGRANTS.

    (a) Exemption From Numerical Limitations.--
            (1) In general.--Section 201(b)(1) (8 U.S.C. 1151(b)(1)), 
        as amended by section 504(a), is further amended by adding at 
        the end the following:
            ``(G) Aliens who have earned a master's or higher degree 
        from an accredited university in the United States.
            ``(H) Aliens who have been awarded medical specialty 
        certification based on post-doctoral training and experience in 
        the United States preceding their application for an immigrant 
        visa under section 203(b).
            ``(I) Aliens who will perform labor in shortage occupations 
        designated by the Secretary of Labor for blanket certification 
        under section 212(a)(5)(A) as lacking sufficient United States 
        workers able, willing, qualified, and available for such 
        occupations and for which the employment of aliens will not 
        adversely affect the terms and conditions of similarly employed 
        United States workers.
            ``(J) Aliens who have earned a master's degree or higher in 
        science, technology, engineering, or math and have been working 
        in a related field in the United States in a nonimmigrant 
        status during the 3-year period preceding their application for 
        an immigrant visa under section 203(b).
            ``(K) Aliens described in subparagraph (A) or (B) of 
        section 203(b)(1) or who have received a national interest 
        waiver under section 203(b)(2)(B).
            ``(L) The spouse and minor children of an alien described 
        in subparagraph (G), (H), (I), (J), or (K).''.
            (2) Applicability.--The amendment made by paragraph (1) 
        shall apply to any visa application--
                    (A) pending on the date of the enactment of this 
                Act; or
                    (B) filed on or after such date of enactment.
    (b) Labor Certifications.--Section 212(a)(5)(A)(ii) (8 U.S.C. 
1182(a)(5)(A)(ii)) is amended--
            (1) in subclause (I), by striking ``, or'' and inserting a 
        semicolon;
            (2) in subclause (II), by striking the period at the end 
        and inserting ``; or''; and
            (3) by adding at the end the following:
                                    ``(III) is a member of the 
                                professions and has a master's degree 
                                or higher from an accredited university 
                                in the United States or has been 
                                awarded medical specialty certification 
                                based on post-doctoral training and 
                                experience in the United States.''.
    (c) Attestation by Healthcare Workers.--
            (1) Requirement for attestation.--Section 212(a)(5) (8 
        U.S.C. 1182(a)(5)) is amended by adding at the end the 
        following:
                    ``(E) Healthcare workers with other obligations.--
                            ``(i) In general.--An alien who seeks to 
                        enter the United States for the purpose of 
                        performing labor as a physician or other 
                        healthcare worker is inadmissible unless the 
                        alien submits to the Secretary of Homeland 
                        Security or the Secretary of State, as 
                        appropriate, an attestation that the alien is 
                        not seeking to enter the United States for such 
                        purpose during any period in which the alien 
                        has an outstanding obligation to the government 
                        of the alien's country of origin or the alien's 
                        country of residence.
                            ``(ii) Obligation defined.--In this 
                        subparagraph, the term `obligation' means an 
                        obligation incurred as part of a valid, 
                        voluntary individual agreement in which the 
                        alien received financial assistance to defray 
                        the costs of education or training to qualify 
                        as a physician or other healthcare worker in 
                        consideration for a commitment to work as a 
                        physician or other healthcare worker in the 
                        alien's country of origin or the alien's 
                        country of residence.
                            ``(iii) Waiver.--The Secretary of Homeland 
                        Security may waive a finding of inadmissibility 
                        under clause (i) if the Secretary determines 
                        that--
                                    ``(I) the obligation was incurred 
                                by coercion or other improper means;
                                    ``(II) the alien and the government 
                                of the country to which the alien has 
                                an outstanding obligation have reached 
                                a valid, voluntary agreement, pursuant 
                                to which the alien's obligation has 
                                been deemed satisfied, or the alien has 
                                shown to the satisfaction of the 
                                Secretary that the alien has been 
                                unable to reach such an agreement 
                                because of coercion or other improper 
                                means; or
                                    ``(III) the obligation should not 
                                be enforced due to other extraordinary 
                                circumstances, including undue hardship 
                                that would be suffered by the alien in 
                                the absence of a waiver.''.
            (2) Effective date and application.--
                    (A) Effective date.--The amendment made by 
                paragraph (1) shall become effective 180 days after the 
                date of the enactment of this Act.
                    (B) Application by the secretary.--The Secretary 
                shall begin to carry out section 212(a)(5)(E) of the 
                Immigration and Nationality Act, as added by paragraph 
                (1), not later than the effective date described in 
                subparagraph (A), including the requirement for the 
                attestation and the granting of a waiver described in 
                such section, regardless of whether regulations to 
                implement such section have been promulgated.

SEC. 509. STUDENT VISA REFORM.

    (a) In General.--
            (1) Nonimmigrant classification.--Section 101(a)(15)(F) (8 
        U.S.C. 1101(a)(15)(F)) is amended to read as follows:
            ``(F) an alien--
                    ``(i) who--
                            ``(I) is a bona fide student qualified to 
                        pursue a full course of study in mathematics, 
                        engineering, technology, or the sciences 
                        leading to a bachelors or graduate degree and 
                        who seeks to enter the United States for the 
                        purpose of pursuing such a course of study 
                        consistent with section 214(m) at an 
                        institution of higher education (as defined by 
                        section 101(a) of the Higher Education Act of 
                        1965 (20 U.S.C. 1001(a))) in the United States, 
                        particularly designated by the alien and 
                        approved by the Secretary of Homeland Security, 
                        after consultation with the Secretary of 
                        Education, which institution or place of study 
                        shall have agreed to report to the Secretary 
                        the termination of attendance of each 
                        nonimmigrant student, and if any such 
                        institution of learning or place of study fails 
                        to make reports promptly the approval shall be 
                        withdrawn; or
                            ``(II) is engaged in temporary employment 
                        for optional practical training related to such 
                        alien's area of study following completion of 
                        the course of study described in subclause (I) 
                        for a period or periods of not more than 24 
                        months;
                    ``(ii) who--
                            ``(I) has a residence in a foreign country 
                        which the alien has no intention of abandoning, 
                        who is a bona fide student qualified to pursue 
                        a full course of study, and who seeks to enter 
                        the United States temporarily and solely for 
                        the purpose of pursuing such a course of study 
                        consistent with section 214(m) at an 
                        established college, university, seminary, 
                        conservatory, academic high school, elementary 
                        school, or other academic institution or in a 
                        language training program in the United States, 
                        particularly designated by the alien and 
                        approved by the Secretary of Homeland Security, 
                        after consultation with the Secretary of 
                        Education, which institution or place of study 
                        shall have agreed to report to the Secretary 
                        the termination of attendance of each 
                        nonimmigrant student, and if any such 
                        institution of learning or place of study fails 
                        to make reports promptly the approval shall be 
                        withdrawn; or
                            ``(II) is engaged in temporary employment 
                        for optional practical training related to such 
                        alien's area of study following completion of 
                        the course of study described in subclause (I) 
                        for a period or periods of not more than 24 
                        months;
                    ``(iii) who is the spouse or minor child of an 
                alien described in clause (i) or (ii) if accompanying 
                or following to join such an alien;
                    ``(iv) who--
                            ``(I) is a national of Canada or Mexico, 
                        who maintains actual residence and place of 
                        abode in the country of nationality, who is 
                        described in clause (i) or (ii) except that the 
                        alien's qualifications for and actual course of 
                        study may be full or part-time, and who 
                        commutes to the United States institution or 
                        place of study from Canada or Mexico; or
                            ``(II) is engaged in temporary employment 
                        for optional practical training related to such 
                        the student's area of study following 
                        completion of the course of study described in 
                        subclause (I) for a period or periods of not 
                        more than 24 months; or
                    ``(v) who--
                            ``(I) maintains actual residence and place 
                        of abode in the alien's country of nationality; 
                        and
                            ``(II) is described in clause (i), except 
                        that the alien's actual course of study may 
                        involve a distance learning program, for which 
                        the alien is temporarily visiting the United 
                        States for a period of up to 30 days.''.
            (2) Admission.--Section 214(b) (8 U.S.C. 1184(b)) is 
        amended by inserting ``(F)(i),'' before ``(L) or (V)''.
            (3) Conforming amendment.--Section 214(m)(1) (8 U.S.C. 
        1184(m)(1)) is amended, in the matter preceding subparagraph 
        (A), by striking ``(i) or (iii)'' and inserting ``(i), (ii), 
        (iv), or (v)''.
    (b) Off-Campus Work Authorization for Foreign Students.--
            (1) In general.--Aliens admitted as nonimmigrant students 
        described in section 101(a)(15)(F), as amended by subsection 
        (a), (8 U.S.C. 1101(a)(15)(F)) may be employed in an off-campus 
        position unrelated to the alien's field of study if--
                    (A) the alien has enrolled full-time at the 
                educational institution and is maintaining good 
                academic standing;
                    (B) the employer provides the educational 
                institution and the Secretary of Labor with an 
                attestation that the employer--
                            (i) has spent at least 21 days recruiting 
                        United States citizens to fill the position; 
                        and
                            (ii) will pay the alien and other similarly 
                        situated workers at a rate equal to not less 
                        than the greater of--
                                    (I) the actual wage level for the 
                                occupation at the place of employment; 
                                or
                                    (II) the prevailing wage level for 
                                the occupation in the area of 
                                employment; and
                    (C) the alien will not be employed more than--
                            (i) 20 hours per week during the academic 
                        term; or
                            (ii) 40 hours per week during vacation 
                        periods and between academic terms.
            (2) Disqualification.--If the Secretary of Labor determines 
        that an employer has provided an attestation under paragraph 
        (1)(B) that is materially false or has failed to pay wages in 
        accordance with the attestation, the employer, after notice and 
        opportunity for a hearing, shall be disqualified from employing 
        an alien student under paragraph (1).

SEC. 510. L-1 VISA HOLDERS SUBJECT TO VISA BACKLOG.

    Section 214(c)(2) (8 U.S.C. 1184(c)(2)) is amended by adding at the 
end the following:
    ``(G) The limitations contained in subparagraph (D) with respect to 
the duration of authorized stay shall not apply to any nonimmigrant 
alien previously issued a visa or otherwise provided nonimmigrant 
status under section 101(a)(15)(L) on whose behalf a petition under 
section 204(b) to accord the alien immigrant status under section 
203(b), or an application for labor certification (if such 
certification is required for the alien to obtain status under such 
section 203(b)) has been filed, if 365 days or more have elapsed since 
such filing. The Secretary of Homeland Security shall extend the stay 
of an alien who qualifies for an exemption under this subparagraph 
until such time as a final decision is made on the alien's lawful 
permanent residence.''.

SEC. 511. RETAINING WORKERS SUBJECT TO GREEN CARD BACKLOG.

    (a) Adjustment of Status.--
            (1) In general.--Section 245 (8 U.S.C. 1255) is amended by 
        adding at the end the following:
    ``(n) Adjustment of Status for Employment-Based Immigrants.--
            ``(1) Eligibility.--The Secretary of Homeland Security 
        shall promulgate regulations to provide for the filing of an 
        application for adjustment of status by an alien (and any 
        eligible dependents of such alien), regardless of whether an 
        immigrant visa is immediately available at the time the 
        application is filed, if the alien--
                    ``(A) has an approved petition under subparagraph 
                (E) or (F) of section 204(a)(1); or
                    ``(B) at the discretion of the Secretary, has a 
                pending petition under subparagraph (E) or (F) of 
                section 204(a)(1).
            ``(2) Visa availability.--An application filed pursuant to 
        paragraph (1) may not be approved until an immigrant visa 
        becomes available.
            ``(3) Fees.--If an application is filed pursuant to 
        paragraph (1), the beneficiary of such application shall pay a 
        supplemental fee of $500. Such fee may not be charged to any 
        dependent accompanying or following to join such beneficiary.
            ``(4) Extension of employment authorization and advanced 
        parole document.--
                    ``(A) In general.--The Secretary of Homeland 
                Security shall provide employment authorization and 
                advanced parole documents, in 3-year increments, to 
                beneficiaries of an application for adjustment of 
                status based on a petition that is filed or, at the 
                discretion of the Secretary, pending, under 
                subparagraph (E) or (F) of section 204(a)(1).
                    ``(B) Fee adjustments.--Application fees under this 
                subsection may be adjusted in accordance with the 3-
                year period of validity assigned to the employment 
                authorization or advanced parole documents under 
                subparagraph (A).''.
    (b) Use of Fees.--Section 286 (8 U.S.C. 1356) is amended--
            (1) in subsection (m)--
                    (A) by striking ``Notwithstanding any other 
                provisions of law,'' and inserting the following:
    ``(c) Immigration Examinations Fee Account.--
            ``(1) In general.--Notwithstanding any other provision of 
        law, all fees collected under section 245(n)(3) and'';
                    (B) by striking ``: Provided, however, That all'' 
                and inserting the following:
            ``(2) Virgin islands; guam.--All''; and
                    (C) by striking ``: Provided further, That fees'' 
                and inserting the following:
            ``(3) Cost recovery.--Fees''.
            (2) in subsection (n)--
                    (A) by striking ``(n) All deposits'' and inserting 
                the following:
            ``(4) Use of funds.--
                    ``(A) In general.--Except as provided under 
                subparagraph (B), all deposits''; and
                    (B) adding at the end the following:
                    ``(C) Supplemental fee for adjustment of status of 
                employment-based immigrants.--Any amounts deposited 
                into the Immigration Examinations Fee Account that were 
                collected under section 245(n)(3) shall remain 
                available until expended by the Secretary of Homeland 
                Security for backlog reduction and clearing security 
                background check delays.'';
            (3) in subsection (o), by striking ``(o) The Attorney 
        General'' and inserting the following:
            ``(5) Annual financial report to congress.--The Attorney 
        General''; and
            (4) in subsection (p), by striking ``(p) The provisions set 
        forth in subsections (m), (n), and (o) of this section'' and 
        inserting the following:
            ``(6) Applicability.--The provisions set forth in this 
        subsection shall''.

SEC. 512. STREAMLINING THE ADJUDICATION PROCESS FOR ESTABLISHED 
                    EMPLOYERS.

    Section 214(c) (8. U.S.C. 1184) is amended by adding at the end the 
following:
    ``(15) Not later than 180 days after the date of the enactment of 
the STRIVE Act, the Secretary of Homeland Security shall establish a 
pre-certification procedure for employers who file multiple petitions 
described in this subsection or section 203(b). Such precertification 
procedure shall enable an employer to avoid repeatedly submitting 
documentation that is common to multiple petitions and establish 
through a single filing criteria relating to the employer and the 
offered employment opportunity.''.

SEC. 513. PROVIDING PREMIUM PROCESSING OF EMPLOYMENT-BASED VISA 
                    PETITIONS.

    (a) In General.--Pursuant to section 286(u) of the Immigration and 
Nationality Act (8 U.S.C. 1356(u)), the Secretary of Homeland Security 
shall establish and collect a fee for premium processing of employment-
based immigrant petitions.
    (b) Appeals.--Pursuant to such section 286(u), the Secretary of 
Homeland Security shall establish and collect a fee for premium 
processing of an administrative appeal of any decision on a permanent 
employment-based immigrant petition.

SEC. 514. ELIMINATING PROCEDURAL DELAYS IN LABOR CERTIFICATION PROCESS.

    (a) Prevailing Wage Rate.--
            (1) Requirement to provide.--The Secretary of Labor shall 
        provide prevailing wage determinations to employers seeking a 
        labor certification for aliens pursuant to part 656 of title 
        20, Code of Federal Regulations (or any successor regulation). 
        The Secretary of Labor may not delegate this function to any 
        agency of a State.
            (2) Schedule for determination.--Except as provided in 
        paragraph (3), the Secretary of Labor shall provide a response 
        to an employer's request for a prevailing wage determination 
        not later than 20 calendar days after the date the Secretary of 
        Labor receives such a request. If the Secretary of Labor fails 
        to reply during such 20-day period, the wage proposed by the 
        employer shall be the valid prevailing wage rate.
            (3) Use of surveys.--The Secretary of Labor shall accept an 
        alternative wage survey provided by the employer unless the 
        Secretary of Labor determines that the wage component of the 
        Occupational Employment Statistics Survey is more accurate for 
        the occupation in the labor market area.
    (b) Placement of Job Order.--The Secretary of Labor shall maintain 
a website with links to the official website of each workforce agency 
of a State, and such official website shall contain instructions on the 
filing of a job order in order to satisfy the job order requirements of 
section 656.17(e)(1) of title 20, Code of Federal Regulations (or any 
successor regulation).
    (c) Technical Corrections.--The Secretary of Labor shall establish 
a process by which employers seeking certification under section 
212(a)(5) of the Immigration and Nationality Act (8 U.S.C. 1182(a)(5)), 
as amended by section 508(b), may make technical corrections to 
applications in order to avoid requiring employers to conduct 
additional recruitment to correct an initial technical error. A 
technical error shall include any error that would not have a material 
effect on the validity of the employer's recruitment of able, willing, 
and qualified United States workers.
    (d) Administrative Appeals.--Motions to reconsider, and 
administrative appeals of, a denial of a permanent labor certification 
application, shall be decided by the Secretary of Labor not later than 
60 days after the date of the filing of such motion or such appeal.
    (e) Applications Under Previous System.--Not later than 180 days 
after the date of the enactment of this Act, the Secretary of Labor 
shall process and issue decisions on all applications for permanent 
alien labor certification that were filed before March 28, 2005.
    (f) Effective Date.--This section shall take effect 90 days after 
the date of the enactment of this Act, whether or not the Secretary of 
Labor has amended the regulations under part 656 of title 20, Code of 
Federal Regulations, to implement such changes.

SEC. 515. VISA REVALIDATION.

    (a) In General.--Section 222 (8 U.S.C. 1202) is amended by adding 
at the end the following:
    ``(i) The Secretary of State shall permit an alien granted a 
nonimmigrant visa under subparagraph (E), (H), (I), (L), (O), or (P) of 
section 101(a)(15) to apply for a renewal of such visa within the 
United States if--
            ``(1) such visa is valid or did not expire more than 12 
        months before the date of such application;
            ``(2) the alien is seeking a nonimmigrant visa under the 
        same subparagraph under which the alien had previously received 
        a visa; and
            ``(3) the alien has complied with the immigration laws and 
        regulations of the United States.''.
    (b) Conforming Amendment.--Section 222(h) of such Act is amended, 
in the matter preceding subparagraph (1), by inserting ``and except as 
provided under subsection (i),'' after ``Act''.

SEC. 516. RELIEF FOR MINOR CHILDREN AND WIDOWS.

    (a) In General.--Section 201(b)(2) (8 U.S.C. 1151(b)(2)) is amended 
to read as follows:
            ``(2)(A)(i) Aliens admitted under section 211(a) on the 
        basis of a prior issuance of a visa under section 203(a) to 
        their accompanying parent who is an immediate relative.
            ``(ii) In this subparagraph, the term `immediate relative' 
        means a child, spouse, or parent of a citizen of the United 
        States (and each child of such child, spouse, or parent who is 
        accompanying or following to join the child, spouse, or 
        parent), except that, in the case of parents, such citizens 
        shall be at least 21 years of age.
            ``(iii) An alien who was the spouse of a citizen of the 
        United States for not less than 2 years at the time of the 
        citizen's death or, if married for less than 2 years at the 
        time of the citizen's death, proves by a preponderance of the 
        evidence that the marriage was entered into in good faith and 
        not solely for the purpose of obtaining an immigration benefit 
        and was not legally separated from the citizen at the time of 
        the citizen's death, and each child of such alien, shall be 
        considered, for purposes of this subsection, to remain an 
        immediate relative after the date of the citizen's death if the 
        spouse files a petition under section 204(a)(1)(A)(ii) before 
        the earlier of--
                    ``(I) 2 years after such date; or
                    ``(II) the date on which the spouse remarries.
            ``(iv) In this clause, an alien who has filed a petition 
        under clause (iii) or (iv) of section 204(a)(1)(A) remains an 
        immediate relative if the United States citizen spouse or 
        parent loses United States citizenship on account of the abuse.
            ``(B) Aliens born to an alien lawfully admitted for 
        permanent residence during a temporary visit abroad.''.
    (b) Petition.--Section 204(a)(1)(A)(ii) (8 U.S.C. 
1154(a)(1)(A)(ii)) is amended by striking ``in the second sentence of 
section 201(b)(2)(A)(i) also'' and inserting ``in section 
201(b)(2)(A)(iii) or an alien child or alien parent described in the 
201(b)(2)(A)(iv)''.
    (c) Retention of Immediate Relative Status.--
            (1) In general.--In applying clause (iii) of section 
        201(b)(2)(A) of the Immigration and Nationality Act, as added 
        by subsection (a), to an alien whose citizen relative died 
        before the date of the enactment of this Act, the alien 
        relative, notwithstanding the deadlines specified in such 
        clause, may file the classification petition under section 
        204(a)(1)(A)(ii) of such Act not later than 2 years after the 
        date of the enactment of this Act.
            (2) Eligibility for parole.--If an alien was excluded, 
        deported, removed or departed voluntarily before the date of 
        the enactment of this Act based solely upon the alien's lack of 
        classification as an immediate relative (as defined by 
        201(b)(2)(A)(ii) of the Immigration and Nationality Act) due to 
        the citizen's death--
                    (A) such alien shall be eligible for parole into 
                the United States pursuant to the Attorney General's 
                discretionary authority under section 212(d)(5) of such 
                Act; and
                    (B) such alien's application for adjustment of 
                status shall be considered notwithstanding section 
                212(a)(9) of such Act.
    (d) Adjustment of Status.--
            (1) In general.--Section 245 (8 U.S.C. 1255), as amended by 
        sections 407 and 511, is further amended by adding at the end 
        the following:
    ``(o) Application for Adjustment of Status by Surviving Spouses, 
Parents, and Children.--
            ``(1) In general.--Any alien described in paragraph (2) who 
        applies for adjustment of status before the death of the 
        qualifying relative, may have such application adjudicated as 
        if such death had not occurred.
            ``(2) Alien described.--An alien described in this 
        paragraph is an alien who--
                    ``(A) is an immediate relative (as described in 
                section 201(b)(2)(A));
                    ``(B) is a family-sponsored immigrant (as described 
                in subsection (a) or (d) of section 203);
                    ``(C) is a derivative beneficiary of an employment-
                based immigrant under section 203(b) (as described in 
                section 203(d)); or
                    ``(D) is a derivative beneficiary of a diversity 
                immigrant (as described in section 203(c)).''.
            (2) Transition period.--
                    (A) In general.--Notwithstanding a denial of an 
                application for adjustment of status for an alien whose 
                qualifying relative died before the date of the 
                enactment of this Act, such application may be renewed 
                by the alien through a motion to reopen, without fee, 
                if such motion is filed not later than 2 years after 
                such date of enactment.
                    (B) Eligibility for parole.--If an alien was 
                excluded, deported, removed or departed voluntarily 
                before the date of the enactment of this Act--
                            (i) such alien shall be eligible for parole 
                        into the United States pursuant to the Attorney 
                        General's discretionary authority under section 
                        212(d)(5) of the Immigration and Nationality 
                        Act; and
                            (ii) such alien's application for 
                        adjustment of status shall be considered 
                        notwithstanding section 212(a)(9) of such Act.
    (e) Processing of Immigrant Visas.--
            (1) In general.--Section 204(b) (8 U.S.C. 1154), as amended 
        by section 204(b) of this Act, is further amended--
                    (A) by striking ``After an investigation'' and 
                inserting the following:
            ``(1) In general.--After an investigation''; and
                    (B) by adding at the end the following:
            ``(2) Death of qualifying relative.--
                    ``(A) In general.--Any alien described in paragraph 
                (2) whose qualifying relative died before the 
                completion of immigrant visa processing may have an 
                immigrant visa application adjudicated as if such death 
                had not occurred. An immigrant visa issued before the 
                death of the qualifying relative shall remain valid 
                after such death.
                    ``(B) Alien described.--An alien described in this 
                paragraph is an alien who--
                            ``(i) is an immediate relative (as 
                        described in section 201(b)(2)(A));
                            ``(ii) is a family-sponsored immigrant (as 
                        described in subsection (a) or (d) of section 
                        203);
                            ``(iii) is a derivative beneficiary of an 
                        employment-based immigrant under section 203(b) 
                        (as described in section 203(d)); or
                            ``(iv) is a derivative beneficiary of a 
                        diversity immigrant (as described in section 
                        203(c)).''.
            (2) Transition period.--
                    (A) In general.--Notwithstanding a denial or 
                revocation of an application for an immigrant visa for 
                an alien whose qualifying relative died before the date 
                of the enactment of this Act, such application may be 
                renewed by the alien through a motion to reopen, 
                without fee, if such motion is filed not later than 2 
                years after such date of enactment.
                    (B) Inapplicability of bars.--Notwithstanding 
                section 212(a)(9) of the Immigration and Nationality 
                Act (8 U.S.C. 1182(a)(9)), the Secretary shall consider 
                the application for an immigrant visa submitted by an 
                alien who was excluded, deported, removed, or departed 
                voluntarily before the date of the enactment of this 
                Act.
    (f) Naturalization.--Section 319(a) (8 U.S.C. 1429(a)) is amended 
by inserting ``(or, if the spouse is deceased, the spouse was a citizen 
of the United States)'' after ``citizen of the United States''.

SEC. 517. RELIEF FOR WIDOWS AND ORPHANS.

    (a) New Special Immigrant Category.--
            (1) Certain children and women at risk of harm.--Section 
        101(a)(27) (8 U.S.C. 1101(a)(27)) is amended--
                    (A) in subparagraph (L), by adding a semicolon at 
                the end;
                    (B) in subparagraph (M), by striking the period at 
                the end and inserting ``; or''; and
                    (C) by adding at the end the following:
                    ``(N) subject to subsection (j), an immigrant who 
                is not present in the United States--
                            ``(i) who is--
                                    ``(I) referred to a consular, 
                                immigration, or other designated 
                                official by a United States Government 
                                agency, an international organization, 
                                or recognized nongovernmental entity 
                                designated by the Secretary of State 
                                for purposes of such referrals; and
                                    ``(II) determined by such official 
                                to be a minor under 18 years of age (as 
                                determined under subsection (j)(5))--
    ``(aa) for whom no parent or legal guardian is able to provide 
    adequate care;
    ``(bb) who faces a credible fear of harm related to his or her age;
    ``(cc) who lacks adequate protection from such harm; and
    ``(dd) for whom it has been determined to be in his or her best 
    interests to be admitted to the United States; or
                            ``(ii) who is--
                                    ``(I) referred to a consular or 
                                immigration official by a United States 
                                Government agency, an international 
                                organization or recognized 
                                nongovernmental entity designated by 
                                the Secretary of State for purposes of 
                                such referrals; and
                                    ``(II) determined by such official 
                                to be a female who has--
    ``(aa) a credible fear of harm related to her sex; and
    ``(bb) a lack of adequate protection from such harm.''.
            (2) Statutory construction.--Section 101 (8 U.S.C. 1101) is 
        amended by adding at the end the following:
    ``(j)(1) No natural parent or prior adoptive parent of any alien 
provided special immigrant status under subsection (a)(27)(N)(i) shall 
thereafter, by virtue of such parentage, be accorded any right, 
privilege, or status under this Act.
    ``(2)(A) No alien who qualifies for a special immigrant visa under 
subsection (a)(27)(N)(ii) may apply for derivative status or petition 
for any spouse who is represented by the alien as missing, deceased, or 
the source of harm at the time of the alien's application and 
admission. The Secretary of Homeland Security may waive this 
requirement for an alien who demonstrates that the alien's 
representations regarding the spouse were bona fide.
    ``(B) An alien who qualifies for a special immigrant visa under 
subsection (a)(27)(N) may apply for derivative status or petition for 
any sibling under the age of 18 years or children under the age of 18 
years of any such alien, if accompanying or following to join the 
alien. For purposes of this subparagraph, a determination of age shall 
be made using the age of the alien on the date the petition is filed 
with the Department of Homeland Security.
    ``(3) An alien who qualifies for a special immigrant visa under 
subsection (a)(27)(N) shall be treated in the same manner as a refugee 
solely for purposes of section 412.
    ``(4) The provisions of paragraphs (4), (5), and (7)(A) of section 
212(a) shall not be applicable to any alien seeking admission to the 
United States under subsection (a)(27)(N), and the Secretary of 
Homeland Security may waive any other provision of such section (other 
than paragraph 2(C) or subparagraph (A), (B), (C), or (E) of paragraph 
(3)) with respect to such an alien for humanitarian purposes, to assure 
family unity, or when it is otherwise in the public interest. Any such 
waiver by the Secretary shall be in writing and shall be granted only 
on an individual basis following an investigation. The Secretary shall 
submit an annual report to Congress on the number of waivers granted 
under this paragraph during the previous fiscal year and a summary of 
the reasons for granting such waivers.
    ``(5) For purposes of subsection (a)(27)(N)(i)(II), a determination 
of age shall be made using the age of the alien on the date on which 
the alien was referred to the consular, immigration, or other 
designated official.
    ``(6) The Secretary of Homeland Security shall waive any 
application fee for a special immigrant visa for an alien described in 
section 101(a)(27)(N).''.
            (3) Expedited process.--Not later than 45 days after the 
        date of referral to a consular, immigration, or other 
        designated official (as described in section 101(a)(27)(N) of 
        the Immigration and Nationality Act, as added by paragraph 
        (1))--
                    (A) special immigrant status shall be adjudicated; 
                and
                    (B) if special immigrant status is granted, the 
                alien shall be paroled into the United States pursuant 
                to section 212(d)(5) of that Act (8 U.S.C. 1182(d)(5)) 
                and allowed to apply for adjustment of status to 
                permanent residence under section 245 of that Act (8 
                U.S.C. 1255) not later than 1 year after the alien's 
                arrival in the United States.
            (4) Report to congress.--Not later than 1 year after the 
        date of the enactment of this Act, the Secretary shall submit a 
        report to the Committee on the Judiciary of the Senate and the 
        Committee on the Judiciary of the House of Representatives that 
        includes--
                    (A) data related to the implementation of this 
                section and the amendments made by this section;
                    (B) data regarding the number of placements of 
                females and children who faces a credible fear of harm 
                as referred to in section 101(a)(27)(N) of the 
                Immigration and Nationality Act, as added by paragraph 
                (1); and
                    (C) any other information that the Secretary 
                considers appropriate.
            (5) Authorization of appropriations.--There are authorized 
        to be appropriated such sums as may be necessary to carry out 
        this subsection and the amendments made by this subsection.
    (b) Requirements for Aliens.--
            (1) Requirement before entry into the united states.--
                    (A) Database search.--An alien may not be admitted 
                to the United States unless the Secretary has ensured 
                that a search of each database maintained by an agency 
                or department of the United States has been conducted 
                to determine whether such alien is ineligible to be 
                admitted to the United States on criminal, security, or 
                related grounds.
                    (B) Cooperation and schedule.--The Secretary and 
                the head of each appropriate agency or department of 
                the United States shall cooperate to ensure that each 
                database search required under subparagraph (A) is 
                completed not later than 45 days after the date on 
                which an alien files a petition seeking a special 
                immigration visa under section 101(a)(27)(N) of the 
                Immigration and Nationality Act, as added by subsection 
                (a)(1).
            (2) Requirement after entry into the united states.--
                    (A) Requirement to submit fingerprints.--
                            (i) In general.--Not later than 30 days 
                        after the date that an alien enters the United 
                        States, the alien shall be fingerprinted and 
                        submit to the Secretary such fingerprints and 
                        any other personal biometric data required by 
                        the Secretary.
                            (ii) Other requirements.--The Secretary may 
                        prescribe regulations that permit fingerprints 
                        submitted by an alien under section 262 of the 
                        Immigration and Nationality Act (8 U.S.C. 1302) 
                        or any other provision of law to satisfy the 
                        requirement to submit fingerprints of clause 
                        (i).
                    (B) Database search.--The Secretary shall ensure 
                that a search of each database that contains 
                fingerprints that is maintained by an agency or 
                department of the United States be conducted to 
                determine whether such alien is ineligible for an 
                adjustment of status under any provision of the 
                Immigration and Nationality Act (8 U.S.C. 1101 et seq.) 
                on criminal, security, or related grounds.
                    (C) Cooperation and schedule.--The Secretary and 
                the head of each appropriate agency or department of 
                the United States shall work cooperatively to ensure 
                that each database search required by subparagraph (B) 
                is completed not later than 180 days after the date on 
                which the alien enters the United States.
                    (D) Administrative and judicial review.--
                            (i) In general.--There may be no review of 
                        a determination by the Secretary, after a 
                        search required by subparagraph (B), that an 
                        alien is ineligible for an adjustment of 
                        status, under any provision of the Immigration 
                        and Nationality Act (8 U.S.C. 1101 et seq.) on 
                        criminal, security, or related grounds except 
                        as provided in this subparagraph.
                            (ii) Administrative review.--An alien may 
                        appeal a determination described in clause (i) 
                        through the Administrative Appeals Office of 
                        the Bureau of Citizenship and Immigration 
                        Services. The Secretary shall ensure that a 
                        determination on such appeal is made not later 
                        than 60 days after the date that the appeal is 
                        filed.
                            (iii) Judicial review.--There may be no 
                        judicial review of a determination described in 
                        clause (i).

SEC. 518. SONS AND DAUGHTERS OF FILIPINO WORLD WAR II VETERANS.

    Section 201(b)(1) (8 U.S.C. 1151(b)(1)), as amended by sections 504 
and 508, is further amended by adding at the end the following:
            ``(M) Aliens who are eligible for a visa under paragraph 
        (1) or (3) of section 203(a) and are the son or daughter of a 
        citizen of the United States who was naturalized pursuant to 
        section 405 of the Immigration Act of 1990 (8 U.S.C. 1440 
        note).''.

SEC. 519. DETERMINATIONS UNDER THE HAITIAN REFUGEE IMMIGRATION FAIRNESS 
                    ACT OF 1998.

    (a) In General.--Section 902(d) of the Haitian Refugee Immigration 
Fairness Act of 1998 (8 U.S.C. 1255 note) is amended by adding at the 
end the following:
            ``(3) Determinations with respect to children.--
                    ``(A) Use of application filing date.--
                Determinations made under this subsection as to whether 
                an individual is a child of a parent shall be made 
                using the age and status of the individual on October 
                21, 1998.
                    ``(B) Application submission by parent.--
                Notwithstanding paragraph (1)(C), an application under 
                this subsection filed based on status as a child may be 
                filed for the benefit of such child by a parent or 
                guardian of the child, if the child is physically 
                present in the United States on such filing date.''.
    (b) New Applications and Motions To Reopen.--
            (1) New applications.--Notwithstanding section 902(a)(1)(A) 
        of the Haitian Refugee Immigration Fairness Act of 1998, an 
        alien who is eligible for adjustment of status under such Act 
        may submit an application for adjustment of status under such 
        Act not later than the later of--
                    (A) 2 years after the date of the enactment of this 
                Act; or
                    (B) 1 year after the date on which final 
                regulations are promulgated to implement this section 
                and the amendment made by subsection (a).
            (2) Motions to reopen.--The Secretary shall establish 
        procedures for the reopening and reconsideration of 
        applications for adjustment of status under the Haitian Refugee 
        Immigration Fairness Act of 1998 that are affected by the 
        amendment made by subsection (a).
            (3) Relationship of application to certain orders.--Section 
        902(a)(3) of the Haitian Refugee Immigration Fairness Act of 
        1998 shall apply to an alien present in the United States who 
        has been ordered excluded, deported, removed, or ordered to 
        depart voluntarily, and who files an application under 
        paragraph (1) or a motion under paragraph (2), in the same 
        manner as such section 902(a)(3) applied to aliens filing 
        applications for adjustment of status under such Act prior to 
        April 1, 2000.
    (c) Inadmissibility Determination.--Section 902 of the Haitian 
Refugee Immigration Fairness Act of 1998 (8 U.S.C. 1255 note) is 
amended in subsections (a)(1)(B) and (d)(1)(D) by inserting 
``(6)(C)(i),'' after ``(6)(A),''.

SEC. 520. S VISAS.

    (a) Expansion of S Visa Classification.--Section 101(a)(15)(S) (8 
U.S.C. 1101(a)(15)(S)) is amended--
            (1) in clause (i)--
                    (A) by striking ``Attorney General'' each place it 
                appears and inserting ``Secretary of Homeland 
                Security'';
                    (B) in subclause (I), by inserting before the 
                semicolon, ``, including a criminal enterprise 
                undertaken by a foreign government, its agents, 
                representatives, or officials'';
                    (C) in subclause (III), by inserting ``if the 
                information concerns a criminal enterprise undertaken 
                by an individual or organization that is not a foreign 
                government, its agents, representatives, or 
                officials,'' before ``whose''; and
                    (D) by striking ``or'' at the end; and
            (2) in clause (ii)--
                    (A) by striking ``Attorney General'' and inserting 
                ``Secretary of Homeland Security''; and
                    (B) by striking ``1956,'' and all that follows 
                through ``the alien;'' and inserting the following: 
                ``1956; or
                    ``(iii) the Secretary of Homeland Security and the 
                Secretary of State, in consultation with the Director 
                of Central Intelligence, jointly determine--
                            ``(I) is in possession of critical reliable 
                        information concerning the activities of 
                        governments or organizations, or their agents, 
                        representatives, or officials, with respect to 
                        weapons of mass destruction and related 
                        delivery systems, if such governments or 
                        organizations are at risk of developing, 
                        selling, or transferring such weapons or 
                        related delivery systems; and
                            ``(II) is willing to supply or has 
                        supplied, fully and in good faith, information 
                        described in subclause (I) to appropriate 
                        persons within the United States Government; 
                        and
                if the Secretary of Homeland Security (or with respect 
                to clause (ii), the Secretary of State and the 
                Secretary of Homeland Security jointly) considers it to 
                be appropriate, the spouse, children, married and 
                unmarried sons and daughters, and parents of an alien 
                described in clause (i), (ii), or (iii) if 
                accompanying, or following to join, the alien;''.
    (b) Numerical Limitation.--Section 214(k)(1) (8 U.S.C. 1184(k)(1)) 
is amended to read as follows:
    ``(1) The number of aliens who may be provided a visa as 
nonimmigrants under section 101(a)(15)(S) in any fiscal year may not 
exceed 1,000.''.
    (c) Reports.--
            (1) Content.--Section 214(k)(4) (8 U.S.C. 1184(k)(4)) is 
        amended--
                    (A) in the matter preceding subparagraph (A)--
                            (i) by striking ``Attorney General'' and 
                        inserting ``Secretary of Homeland Security''; 
                        and
                            (ii) by striking ``concerning'' and 
                        inserting ``that includes'';
                    (B) in subparagraph (D), by striking ``and'' at the 
                end;
                    (C) in subparagraph (E), by striking the period at 
                the end and inserting ``; and''; and
                    (D) by adding at the end the following:
            ``(F) if the total number of such nonimmigrants admitted is 
        fewer than 25 percent of the total number provided for under 
        paragraph (1)--
                    ``(i) the reasons for the reduced number of such 
                nonimmigrants;
                    ``(ii) the efforts made by the Secretary of 
                Homeland Security to admit such nonimmigrants; and
                    ``(iii) any extenuating circumstances that 
                contributed to the reduced number of such 
                nonimmigrants.''.
            (2) Form of report.--Section 214(k) (8 U.S.C. 1184(k)) is 
        amended by adding at the end the following:
            ``(5) To the extent required by law and if it is in the 
        interests of national security or the security of such 
        nonimmigrants that are admitted, as determined by the Secretary 
        of Homeland Security--
                    ``(A) the information contained in a report 
                described in paragraph (4) may be classified; and
                    ``(B) the Secretary of Homeland Security shall, to 
                the extent feasible, submit a non-classified version of 
                the report to the Committee on the Judiciary of the 
                House of Representatives and the Committee on the 
                Judiciary of the Senate.''.

SEC. 521. L VISA LIMITATIONS.

    Section 214(c)(2) (8 U.S.C. 1184(c)(2)) is amended--
            (1) by striking ``Attorney General'' each place it appears 
        and inserting ``Secretary of Homeland Security'';
            (2) in subparagraph (E), by striking ``In the case of an 
        alien spouse admitted under section 101(a)(15)(L), who'' and 
        inserting ``Except as provided in subparagraph (H), if an alien 
        spouse admitted under section 101(a)(15)(L)''; and
            (3) by adding at the end the following:
            ``(G)(i) If the beneficiary of a petition under this 
        subsection is coming to the United States to open, or be 
        employed in, a new facility, the petition may be approved for a 
        period not to exceed 12 months only if the employer operating 
        the new facility has--
                    ``(I) a business plan;
                    ``(II) sufficient physical premises to carry out 
                the proposed business activities; and
                    ``(III) the financial ability to commence doing 
                business immediately upon the approval of the petition.
            ``(ii) An extension of the approval period under clause (i) 
        may not be granted until the importing employer submits to the 
        Secretary of Homeland Security--
                    ``(I) evidence that the importing employer meets 
                the requirements of this subsection;
                    ``(II) evidence that the beneficiary meets the 
                requirements of section 101(a)(15)(L);
                    ``(III) a statement summarizing the original 
                petition;
                    ``(IV) evidence that the importing employer has 
                fully complied with the business plan submitted under 
                clause (i);
                    ``(V) evidence of the truthfulness of any 
                representations made in connection with the filing of 
                the original petition;
                    ``(VI) evidence that the importing employer, during 
                the previous 12 months, has been doing business at the 
                new facility through regular, systematic, and 
                continuous provision of goods or services, or has 
                otherwise been taking commercially reasonable steps to 
                establish the new facility as a commercial enterprise;
                    ``(VII) a statement of the duties the beneficiary 
                has performed at the new facility during the preceding 
                12-month period and the duties the beneficiary will 
                perform at the new facility during the extension period 
                approved under this clause;
                    ``(VIII) a statement describing the staffing at the 
                new facility, including the number of employees and the 
                types of positions held by such employees;
                    ``(IX) evidence of wages paid to employees if the 
                beneficiary will be employed in a managerial or 
                executive capacity;
                    ``(X) evidence of the financial status of the new 
                facility; and
                    ``(XI) any other evidence or data prescribed by the 
                Secretary.
            ``(iii) Notwithstanding subclauses (I) through (VI) of 
        clause (ii) and subject to the maximum period of authorized 
        admission set forth in subparagraph (D), the Secretary of 
        Homeland Security may approve a subsequently filed petition on 
        behalf of the beneficiary to continue employment at the 
        facility described in this subsection for a period beyond the 
        initially granted 12-month period if the importing employer 
        demonstrates that the failure to satisfy any of the 
        requirements described in those subclauses was directly caused 
        by extraordinary circumstances beyond the control of the 
        importing employer.
            ``(H)(i) The Secretary of Homeland Security may not 
        authorize the spouse of an alien described under section 
        101(a)(15)(L), who is a dependent of a beneficiary under 
        subparagraph (G), to engage in employment in the United States 
        during the initial 12-month period described in subparagraph 
        (G)(i).
            ``(ii) A spouse described in clause (i) may be provided 
        employment authorization upon the approval of an extension 
        under subparagraph (G)(ii).
            ``(I) For purposes of determining the eligibility of an 
        alien for classification under section 101(a)(15)(L), the 
        Secretary of Homeland Security shall establish a program to 
        work cooperatively with the Secretary of State to verify a 
        company or facility's existence in the United States and 
        abroad.''.

SEC. 522. ESTABLISHMENT OF NEW FASHION MODEL NONIMMIGRANT 
                    CLASSIFICATION.

    (a) In General.--
            (1) New classification.--Section 101(a)(15)(O) (8 U.S.C. 
        1101(a)(15)(O)) is amended--
                    (A) in clause (i), by striking ``or'' at the end;
                    (B) in clause (ii), by striking ``or'' at the end;
                    (C) by redesignating clause (iii) as clause (iv);
                    (D) in clause (iv), as redesignated, by striking 
                ``clause (i) or (ii)'' and inserting ``clause (i), 
                (ii), or (iii)''; and
                    (E) by inserting after clause (ii) the following:
                            ``(iii) is a fashion model who is of 
                        distinguished merit and ability and who is 
                        seeking to enter the United States temporarily 
                        to perform fashion modeling services that 
                        involve events or productions which have a 
                        distinguished reputation or that are performed 
                        for an organization or establishment that has a 
                        distinguished reputation for, or a record of, 
                        utilizing prominent modeling talent; or''.
            (2) Numerical limitation.--Section 214(a)(2)(A) (8 U.S.C. 
        1184(a)(2)(A)) is amended by adding at the end the following: 
        ``The number of aliens who may be issued visas or otherwise 
        provided nonimmigrant status under section 101(a)(15)(O)(iii) 
        in any fiscal year may not exceed 1,000.''.
    (b) Elimination of H-1B Classification for Fashion Models.--Section 
101(a)(15)(H)(i)(b) (8 U.S.C. 1101(a)(15)(H)(i)(b)) is amended--
            (1) in item (aa), by striking ``or as a fashion model''; 
        and
            (2) in item (bb), by striking ``or, in the case of a 
        fashion model, is of distinguished merit and ability''.
    (c) Effective Dates.--
            (1) Implementation of new fashion model nonimmigrant 
        classification.--Not later than 60 days after the date of the 
        enactment of this Act, the Secretary shall promulgate 
        regulations to carry out the amendments made by subsection (a). 
        Nothing in this section shall be construed as preventing an 
        alien who is a fashion model from obtaining nonimmigrant status 
        under section 101(a)(15)(O)(i) of the Immigration and 
        Nationality Act (8 U.S.C. 1101(a)(15)(O)(i)) if such alien is 
        otherwise qualified for such status.
            (2) Elimination of h-1b classification for fashion 
        models.--The amendments made by subsection (b)--
                    (A) shall apply on the effective date of the 
                regulations promulgated under paragraph (1); and
                    (B) shall not apply to the classification of an 
                alien under section 101(a)(15)(H)(i)(b) of the 
                Immigration and Nationality Act (8 U.S.C. 
                1101(a)(15)(H)(i)(b)) as a fashion model pursuant to a 
                petition for such classification that was filed before 
                such effective date.

SEC. 523. EB-5 REGIONAL CENTER PROGRAM.

    (a) Concurrent Processing for Employement Creation Immigrants.--
Section 245 (8 U.S.C. 1255), as amended by section 511, is further 
amended by adding at the end the following:
    ``(o) Concurrent Processing for Employement Creation Immigrants.--
If, at the time an alien fils a petition for classification under 
section 203(b)(5), approval of the petition would make a visa 
immediately available to the alien beneficiary, the alien beneficiary's 
application for adjustment of status under this section shall be 
considered properly filed whether submitted concurrently with, or 
subsequent to, such petition.''.
    (b) Regional Center Designation Fees.--Section 610 of the 
Departments of Commerce, Justice, and State, the Judiciary, and Related 
Agencies Appropriations Act, 1993 (8 U.S.C. 1153 note) is amended--
            (1) in subsection (b), by striking ``for 15 years''; and
            (2) by adding at the end the following:
    ``(e) In addition to any other fees authorized by law, the 
Secretary of Homeland Security shall impose a $2,500 fee to apply for 
designation as a regional center under this section. Fees collected 
under this subsection shall be deposited in the Treasury in accordance 
with section 286(w) of the Immigration and Nationality Act (8 U.S.C. 
1356(w)).''.
    (c) Immigrant Entrepreneur Regional Center Account.--
            (1) Establishment.--Section 286 (8 U.S.C. 1356) is amended 
        by adding at the end the following:
    ``(y) Immigrant Entrepreneur Regional Center Account.--
            ``(1) In general.--There is established in the general fund 
        of the Treasury a separate account, which shall be known as the 
        `Immigrant Entrepreneur Regional Center Account'. 
        Notwithstanding any other provision of law, there shall be 
        deposited as offsetting receipts into the account all fees 
        collected under section 610(e) of the Departments of Commerce, 
        Justice, and State, the Judiciary, and Related Agencies 
        Appropriations Act, 1993 (8 U.S.C. 1153 note).
            ``(2) Use of fees.--Fees deposited in the account 
        established under paragraph (1) may only be used to carry out 
        the EB-5 immigrant investor program.''.
            (2) Effective date.--The amendment made by paragraph (1)--
                    (A) shall take effect on the date on which 
                regulations are published to carry out this section and 
                the amendments made by this section; and
                    (B) shall apply to regional center applications 
                filed on or after such date.

SEC. 524. RETURN OF TALENT PROGRAM.

    (a) Short Title.--This section may be cited as the ``Return of 
Talent Act''.
    (b) Establishment.--
            (1) In general.--Title III (8 U.S.C. 1401 et seq.) is 
        amended by inserting after section 317 the following:

``SEC. 317A. TEMPORARY ABSENCE OF PERSONS PARTICIPATING IN THE RETURN 
                    OF TALENT PROGRAM.

    ``(a) In General.--The Secretary of Homeland Security, in 
consultation with the Secretary of State, shall establish the Return of 
Talent Program to permit eligible aliens to temporarily return to the 
alien's country of citizenship in order to make a material contribution 
to that country if the country is engaged in post-conflict or natural 
disaster reconstruction activities, for a period not longer than 2 
years, unless an exception is granted under subsection (d).
    ``(b) Eligible Alien.--An alien is eligible to participate in the 
Return of Talent Program established under subsection (a) if the alien 
meets the special immigrant description under section 101(a)(27)(N).
    ``(c) Family Members.--The spouse, parents, siblings, and any minor 
children of an alien who participates in the Return of Talent Program 
established under subsection (a) may return to such alien's country of 
citizenship with the alien and reenter the United States with the 
alien.
    ``(d) Extension of Time.--The Secretary of Homeland Security may 
extend the 2-year period referred to in subsection (a) upon a showing 
that circumstances warrant that an extension is necessary for post-
conflict or natural disaster reconstruction efforts.
    ``(e) Residency Requirements.--An immigrant described in section 
101(a)(27)(N) who participates in the Return of Talent Program 
established under subsection (a), and the spouse, parents, siblings, 
and any minor children who accompany such immigrant to that immigrant's 
country of citizenship, shall be considered, during such period of 
participation in the program--
            ``(1) for purposes of section 316(a), physically present 
        and residing in the United States for purposes of 
        naturalization within the meaning of that section; and
            ``(2) for purposes of section 316(b), to meet the 
        continuous residency requirements in that section.
    ``(f) Oversight and Enforcement.--The Secretary of Homeland 
Security, in consultation with the Secretary of State, shall oversee 
and enforce the requirements of this section.''.
            (2) Table of contents.--The table of contents (8 U.S.C. 
        1101 et seq.) is amended by inserting after the item relating 
        to section 317 the following:

    ``317A. Temporary absence of persons participating in the Return of 
Talent Program.''.
    (c) Eligible Immigrants.--Section 101(a)(27) (8 U.S.C. 1101(a)(27)) 
is amended--
            (1) in subparagraph (L), by inserting a semicolon after 
        ``Improvement Act of 1998'';
            (2) in subparagraph (M), by striking the period and 
        inserting ``; or''; and
            (3) by adding at the end the following:
            ``(N) an immigrant who--
                    ``(i) has been lawfully admitted to the United 
                States for permanent residence;
                    ``(ii) demonstrates an ability and willingness to 
                make a material contribution to the post-conflict or 
                natural disaster reconstruction in the alien's country 
                of citizenship; and
                    ``(iii) as determined by the Secretary of State in 
                consultation with the Secretary of Homeland Security--
                            ``(I) is a citizen of a country in which 
                        Armed Forces of the United States are engaged, 
                        or have engaged in the 10 years preceding such 
                        determination, in combat or peacekeeping 
                        operations;
                            ``(II) is a citizen of a country where 
                        authorization for United Nations peacekeeping 
                        operations was initiated by the United Nations 
                        Security Council during the 10 years preceding 
                        such determination; or
                            ``(III) is a citizen of a country which 
                        received, during the preceding 2 years, funding 
                        from the Office of Foreign Disaster Assistance 
                        of the United States Agency for International 
                        Development in response to a declared disaster 
                        in such country by the United States 
                        Ambassador, the Chief of the U.S. Mission, or 
                        the appropriate Assistant Secretary of State, 
                        that is beyond the ability of such country's 
                        response capacity and warrants a response by 
                        the United States Government.''.
    (d) Report to Congress.--Not later than 2 years after the date of 
the enactment of this Act, the Secretary, in consultation with the 
Secretary of State, shall submit a report to Congress that describes--
            (1) the countries of citizenship of the participants in the 
        Return of Talent Program established under section 317A of the 
        Immigration and Nationality Act, as added by subsection (b);
            (2) the post-conflict or natural disaster reconstruction 
        efforts that benefitted, or were made possible, through 
        participation in the program; and
            (3) any other information that the Secretary determines to 
        be appropriate.
    (e) Regulations.--Not later than 6 months after the date of the 
enactment of this Act, the Secretary shall promulgate regulations to 
carry out this section and the amendments made by this section.
    (f) Authorization of Appropriations.--There are authorized to be 
appropriated to United States Citizenship and Immigration Services, 
such sums as may be necessary to carry out this section and the 
amendments made by this section.

Subtitle B--Preservation of Immigration Benefits for Victims of a Major 
                         Disaster or Emergency

SEC. 531. SHORT TITLE.

    This subtitle may be cited as the ``Major Disaster and Emergency 
Victims Immigration Benefits Preservation Act''.

SEC. 532. DEFINITIONS.

    In this subtitle:
            (1) Application of definitions from the immigration and 
        nationality act.--Except as otherwise specifically provided in 
        this subtitle, the definitions in the Immigration and 
        Nationality Act shall apply in the administration of this 
        subtitle.
            (2) Direct result of a major disaster or emergency.--The 
        term ``direct result of a major disaster or emergency''--
                    (A) means physical damage, disruption of 
                communications or transportation, forced or voluntary 
                evacuation, business closures, or other circumstances 
                directly caused by a major disaster or emergency; and
                    (B) does not include collateral or consequential 
                economic effects in or on the United States or global 
                economies.
            (3) Emergency.--The term ``emergency'' has the meaning 
        given the term in section 102(1) of the Robert T. Stafford 
        Disaster Relief and Emergency Assistance Act (42 U.S.C. 
        5122(1)).
            (4) Last business day.--The term ``last business day'' 
        means the last business day preceding a major disaster or 
        emergency. For purposes of Hurricane Katrina and Hurricane 
        Rita, the last business day is August 26, 2005.
            (5) Major disaster.--The term ``major disaster'' has the 
        meaning given the term in section 102(2) of the Robert T. 
        Stafford Disaster Relief and Emergency Assistance Act (42 
        U.S.C. 5122(2)) and includes Hurricane Katrina and Hurricane 
        Rita.

SEC. 533. SPECIAL IMMIGRANT STATUS.

    (a) Provision of Status.--
            (1) In general.--For purposes of the Immigration and 
        Nationality Act (8 U.S.C. 1101 et seq.), the Secretary may 
        provide an alien described in subsection (b) with the status of 
        a special immigrant under section 101(a)(27) of such Act (8 
        U.S.C. 1101(a)(27)) if the alien--
                    (A) files a petition with the Secretary under 
                section 204 of such Act (8 U.S.C. 1154) for 
                classification under section 203(b)(4) of such Act (8 
                U.S.C. 1153(b)(4));
                    (B) is otherwise eligible to receive an immigrant 
                visa; and
                    (C) is otherwise admissible to the United States 
                for permanent residence.
            (2) Inapplicable provision.--In determining admissibility 
        under paragraph (1)(C), the grounds for inadmissibility 
        specified in section 212(a)(4) of such Act (8 U.S.C. 
        1182(a)(4)) shall not apply.
    (b) Aliens Described.--
            (1) Principal aliens.--An alien is described in this 
        subsection if--
                    (A) the alien was the beneficiary of--
                            (i) a petition that was filed with the 
                        Secretary on or before the last business day--
                                    (I) under section 204 of the 
                                Immigration and Nationality Act (8 
                                U.S.C. 1154) to classify the alien as a 
                                family-sponsored immigrant under 
                                section 203(a) of such Act (8 U.S.C. 
                                1153(a)) or as an employment-based 
                                immigrant under section 203(b) of such 
                                Act (8 U.S.C. 1153(b)); or
                                    (II) under section 214(d) of such 
                                Act (8 U.S.C. 1184(d)) to authorize the 
                                issuance of a nonimmigrant visa to the 
                                alien under section 101(a)(15)(K) of 
                                such Act (8 U.S.C. 1101(a)(15)(K)); or
                            (ii) an application for labor certification 
                        under section 212(a)(5)(A) of such Act (8 
                        U.S.C. 1182(a)(5)(A)) that was filed under 
                        regulations of the Secretary of Labor on or 
                        before the last business day; and
                    (B) such petition or application was revoked or 
                terminated before or after its approval, solely due 
                to--
                            (i) the death or disability of the 
                        petitioner, applicant, or alien beneficiary as 
                        a direct result of a major disaster or 
                        emergency; or
                            (ii) loss of employment as a direct result 
                        of a major disaster or emergency.
            (2) Spouses and children.--
                    (A) In general.--An alien is described in this 
                subsection if--
                            (i) the alien, as of the last business day, 
                        was the spouse or child of a principal alien 
                        described in paragraph (1); and
                            (ii) the alien--
                                    (I) is accompanying such principal 
                                alien; or
                                    (II) is following to join such 
                                principal alien within a reasonable 
                                period after a major disaster or 
                                emergency, as determined by the 
                                Attorney General.
                    (B) Construction.--
                            (i) Death disregarded.--In construing the 
                        terms ``accompanying'' and ``following to 
                        join'' in subparagraph (A)(ii), the death of a 
                        principal alien described in paragraph 
                        (1)(B)(i) shall be disregarded.
                            (ii) Reasonable period.--The reasonable 
                        period described in subparagraph (A)(ii)(II), 
                        as applied to Hurricane Katrina and Hurricane 
                        Rita, shall end 90 days after the date of the 
                        enactment of this Act.
            (3) Grandparents or legal guardians of orphans.--An alien 
        is described in this subsection if the alien is a grandparent 
        or legal guardian of a child whose parents died as a direct 
        result of a major disaster or emergency, if either of the 
        deceased parents was, as of the last business day, a citizen or 
        national of the United States or an alien lawfully admitted for 
        permanent residence in the United States.
    (c) Priority Date.--Immigrant visas made available under this 
section shall be issued to aliens in the order in which a petition on 
behalf of each such alien is filed with the Secretary under subsection 
(a)(1), except that if an alien was assigned a priority date with 
respect to a petition described in subsection (b)(1)(A)(i), the alien 
may maintain that priority date.
    (d) Numerical Limitations.--In applying sections 201 through 203 of 
the Immigration and Nationality Act (8 U.S.C. 1151-1153) in any fiscal 
year, aliens eligible to be provided status under this section shall be 
treated as special immigrants who are not described in subparagraph 
(A), (B), (C), or (K) of section 101(a)(27) of such Act (8 U.S.C. 
1101(a)(27)).

SEC. 534. EXTENSION OF FILING OR REENTRY DEADLINES.

    (a) Automatic Extension of Nonimmigrant Status.--
            (1) In general.--Notwithstanding section 214 of the 
        Immigration and Nationality Act (8 U.S.C. 1184), an alien 
        described in paragraph (2) who was lawfully present in the 
        United States as a nonimmigrant on the last business day, may, 
        unless otherwise determined by the Secretary in the Secretary's 
        discretion, lawfully remain in the United States in the same 
        nonimmigrant status until the latest of--
                    (A) the date on which such lawful nonimmigrant 
                status would have otherwise terminated absent the 
                enactment of this subsection;
                    (B) 1 year after the death or onset of disability 
                described in paragraph (2); or
                    (C) 3 months after the date of the enactment of 
                this Act, for victims of Hurricane Katrina or Hurricane 
                Rita.
            (2) Aliens described.--
                    (A) Principal aliens.--An alien is described in 
                this paragraph if the alien was disabled as a direct 
                result of a major disaster or emergency.
                    (B) Spouses and children.--An alien is described in 
                this paragraph if the alien, as of the last business 
                day, was the spouse or child of--
                            (i) a principal alien described in 
                        subparagraph (A); or
                            (ii) an alien who died as a direct result 
                        of a major disaster or emergency.
            (3) Authorized employment.--During the period in which a 
        principal alien or alien spouse is in lawful nonimmigrant 
        status under paragraph (1), the alien may be provided an 
        ``employment authorized'' endorsement or other appropriate 
        document signifying authorization of employment.
    (b) New Deadlines for Extension or Change of Nonimmigrant Status.--
            (1) Filing delays.--
                    (A) In general.--If an alien, who was lawfully 
                present in the United States as a nonimmigrant on the 
                last business day, was prevented from filing a timely 
                application for an extension or change of nonimmigrant 
                status as a direct result of a major disaster or 
                emergency, the alien's application may be considered 
                timely filed if it is filed within a reasonable period, 
                as determined by the Secretary, after the application 
                would have otherwise been due. For victims of Hurricane 
                Katrina or Hurricane Rita, this period shall end 3 
                months after the date of the enactment of this Act.
                    (B) Circumstances preventing timely action.--For 
                purposes of subparagraph (A), circumstances preventing 
                an alien from timely acting are--
                            (i) office closures;
                            (ii) mail or courier service cessations or 
                        delays;
                            (iii) other closures, cessations, or delays 
                        affecting case processing or travel necessary 
                        to satisfy legal requirements;
                            (iv) mandatory evacuation and relocation; 
                        or
                            (v) other circumstances, including medical 
                        problems or financial hardship.
            (2) Departure delays.--
                    (A) In general.--If an alien, who was lawfully 
                present in the United States as a nonimmigrant on the 
                last business day, is unable to timely depart the 
                United States as a direct result of a major disaster or 
                emergency, the alien shall not be considered to have 
                been unlawfully present in the United States during the 
                period beginning on the last business day, and ending 
                on the date of the alien's departure, if such departure 
                occurred within a reasonable period, as determined by 
                the Secretary. If a victim of Hurricane Katrina or 
                Hurricane Rita departs the United States not later than 
                3 months after the date of the enactment of this Act, 
                such departure shall be considered to have been within 
                a reasonable period under this subparagraph.
                    (B) Circumstances preventing timely action.--For 
                purposes of subparagraph (A), circumstances preventing 
                an alien from timely acting are--
                            (i) office closures;
                            (ii) transportation cessations or delays;
                            (iii) other closures, cessations, or delays 
                        affecting case processing or travel necessary 
                        to satisfy legal requirements;
                            (iv) mandatory evacuation and relocation; 
                        or
                            (v) other circumstances, including medical 
                        problems or financial hardship.
    (c) Diversity Immigrants.--Section 204(a)(1)(I)(ii)(II) (8 U.S.C. 
1154(a)(1)(I)(ii)(II)), is amended to read as follows:
    ``(II) An immigrant visa made available under subsection 203(c) for 
fiscal year 1998, or for a subsequent fiscal year, may be issued, or 
adjustment of status under section 245(a) based upon the availability 
of such visa may be granted, to an eligible qualified alien who has 
properly applied for such visa or adjustment in the fiscal year for 
which the alien was selected notwithstanding the end of such fiscal 
year. Such visa or adjustment of status shall be counted against the 
worldwide level set forth in subsection 201(e) for the fiscal year for 
which the alien was selected.''.
    (d) Extension of Filing Period.--If an alien is unable to timely 
file an application to register or reregister for temporary protected 
status under section 244 of the Immigration and Nationality Act (8 
U.S.C. 1254a) as a direct result of a major disaster or emergency, the 
alien's application may be considered timely filed if it is filed not 
later than 90 days after it otherwise would have been due.
    (e) Voluntary Departure.--
            (1) In general.--Notwithstanding section 240B of the 
        Immigration and Nationality Act (8 U.S.C. 1229c), if a period 
        for voluntary departure under such section expired during the 
        period beginning on the last business day and ending within a 
        reasonable period, as determined by the Attorney General, and 
        the alien was unable to voluntarily depart before the 
        expiration date as a direct result of a major disaster or 
        emergency, such voluntary departure period is deemed to have 
        been extended for an additional 60 days. For purposes of 
        Hurricane Katrina and Hurricane Rita, the reasonable period 
        shall be deemed to have ended on December 31, 2005.
            (2) Circumstances preventing departure.--For purposes of 
        this subsection, circumstances preventing an alien from 
        voluntarily departing the United States are--
                    (A) office closures;
                    (B) transportation cessations or delays;
                    (C) other closures, cessations, or delays affecting 
                case processing or travel necessary to satisfy legal 
                requirements;
                    (D) mandatory evacuation and removal; and
                    (E) other circumstances, including medical problems 
                or financial hardship.
    (f) Current Nonimmigrant Visa Holders.--
            (1) In general.--An alien, who was lawfully present in the 
        United States on the last business day, as a nonimmigrant under 
        section 101(a)(15)(H) of the Immigration and Nationality Act (8 
        U.S.C. 1101(a)(15)(H)) and lost employment as a direct result 
        of a major disaster or emergency may accept new employment upon 
        the filing by a prospective employer of a new petition on 
        behalf of such nonimmigrant not later than 1 year after such 
        major disaster or emergency. For victims of Hurricane Katrina 
        or Hurricane Rita, this period shall be extended until August 
        29, 2007.
            (2) Continuation of employment authorization.--Employment 
        authorization shall continue for such alien until the new 
        petition is adjudicated. If the new petition is denied, such 
        employment shall cease.
            (3) Savings provision.--Nothing in this subsection shall be 
        construed to limit eligibility for portability under section 
        214(n) of the Immigration and Nationality Act (8 U.S.C. 
        1184(n)).

SEC. 535. HUMANITARIAN RELIEF FOR CERTAIN SURVIVING SPOUSES AND 
                    CHILDREN.

    (a) Treatment as Immediate Relatives.--
            (1) Spouses.--Notwithstanding the second sentence of 
        section 201(b)(2)(A)(i) of the Immigration and Nationality Act 
        (8 U.S.C. 1151(b)(2)(A)(i)), if an alien was the spouse of a 
        citizen of the United States at the time of the citizen's death 
        and was not legally separated from the citizen at the time of 
        the citizen's death, and the citizen died as a direct result of 
        a major disaster or emergency, the alien (and each child of the 
        alien) may be considered, for purposes of section 201(b) of 
        such Act, to remain an immediate relative after the date of the 
        citizen's death if the alien files a petition under section 
        204(a)(1)(A)(ii) of such Act not later than 2 years after such 
        date and only until the date on which the alien remarries. For 
        purposes of such section 204(a)(1)(A)(ii), an alien granted 
        relief under this paragraph shall be considered an alien spouse 
        described in the second sentence of section 201(b)(2)(A)(i) of 
        such Act.
            (2) Children.--
                    (A) In general.--In the case of an alien who was 
                the child of a citizen of the United States at the time 
                of the citizen's death, if the citizen died as a direct 
                result of a major disaster or emergency, the alien may 
                be considered, for purposes of section 201(b) of the 
                Immigration and Nationality Act (8 U.S.C. 1151(b)), to 
                remain an immediate relative after the date of the 
                citizen's death (regardless of subsequent changes in 
                age or marital status), but only if the alien files a 
                petition under subparagraph (B) not later than 2 years 
                after such date.
                    (B) Petitions.--An alien described in subparagraph 
                (A) may file a petition with the Secretary for 
                classification of the alien under section 
                201(b)(2)(A)(i) of the Immigration and Nationality Act 
                (8 U.S.C. 1151(b)(2)(A)(i)), which shall be considered 
                a petition filed under section 204(a)(1)(A) of such Act 
                (8 U.S.C. 1154(a)(1)(A)).
    (b) Spouses, Children, Unmarried Sons and Daughters of Lawful 
Permanent Resident Aliens.--
            (1) In general.--Any spouse, child, or unmarried son or 
        daughter of an alien described in paragraph (3) who is included 
        in a petition for classification as a family-sponsored 
        immigrant under section 203(a)(2) of the Immigration and 
        Nationality Act (8 U.S.C. 1153(a)(2)), which was filed by such 
        alien before the last business day, may be considered (if the 
        spouse, child, son, or daughter has not been admitted or 
        approved for lawful permanent residence by such date) a valid 
        petitioner for preference status under such section with the 
        same priority date as that assigned before the death described 
        in paragraph (3)(A). No new petition shall be required to be 
        filed. Such spouse, child, son, or daughter may be eligible for 
        deferred action and work authorization.
            (2) Self-petitions.--Any spouse, child, or unmarried son or 
        daughter of an alien described in paragraph (3) who is not a 
        beneficiary of a petition for classification as a family-
        sponsored immigrant under section 203(a)(2) of the Immigration 
        and Nationality Act may file a petition for such classification 
        with the Secretary, if the spouse, child, son, or daughter was 
        present in the United States on the last business day. Such 
        spouse, child, son, or daughter may be eligible for deferred 
        action and work authorization.
            (3) Aliens described.--An alien is described in this 
        paragraph if the alien--
                    (A) died as a direct result of a major disaster or 
                emergency; and
                    (B) on the day of such death, was lawfully admitted 
                for permanent residence in the United States.
    (c) Applications for Adjustment of Status by Surviving Spouses and 
Children of Employment-Based Immigrants.--
            (1) In general.--Any alien who was, on the last business 
        day, the spouse or child of an alien described in paragraph 
        (2), and who applied for adjustment of status before the death 
        described in paragraph (2)(A), may have such application 
        adjudicated as if such death had not occurred.
            (2) Aliens described.--An alien is described in this 
        paragraph if the alien--
                    (A) died as a direct result of a major disaster or 
                emergency; and
                    (B) on the day before such death, was--
                            (i) an alien lawfully admitted for 
                        permanent residence in the United States by 
                        reason of having been allotted a visa under 
                        section 203(b) of the Immigration and 
                        Nationality Act (8 U.S.C. 1153(b)); or
                            (ii) an applicant for adjustment of status 
                        to that of an alien described in clause (i), 
                        and admissible to the United States for 
                        permanent residence.
    (d) Applications by Surviving Spouses and Children of Refugees and 
Asylees.--
            (1) In general.--Any alien who, on the last business day, 
        was the spouse or child of an alien described in paragraph (2), 
        may have his or her eligibility to be admitted under section 
        207(c)(2)(A) or 208(b)(3)(A) of the Immigration and Nationality 
        Act (8 U.S.C. 1157(c)(2)(A), 1158(b)(3)(A)) considered as if 
        the alien's death had not occurred.
            (2) Aliens described.--An alien is described in this 
        paragraph if the alien--
                    (A) died as a direct result of a major disaster or 
                emergency; and
                    (B) on the day before such death, was--
                            (i) an alien admitted as a refugee under 
                        section 207 of the Immigration and Nationality 
                        Act (8 U.S.C. 1157); or
                            (ii) granted asylum under section 208 of 
                        such Act (8 U.S.C. 1158).
    (e) Waiver of Public Charge Grounds.--In determining the 
admissibility of any alien accorded an immigration benefit under this 
section, the grounds for inadmissibility specified in section 212(a)(4) 
of the Immigration and Nationality Act (8 U.S.C. 1182(a)(4)) shall not 
apply.

SEC. 536. RECIPIENT OF PUBLIC BENEFITS.

    An alien shall not be inadmissible under section 212(a)(4) of the 
Immigration and Nationality Act (8 U.S.C. 1182(a)(4)) or deportable 
under section 237(a)(5) of such Act (8 U.S.C. 1227(a)(5)) on the basis 
that the alien received any public benefit as a direct result of a 
major disaster or emergency.

SEC. 537. AGE-OUT PROTECTION.

    In administering the immigration laws, the Secretary and the 
Attorney General may grant any application or benefit notwithstanding 
the applicant or beneficiary (including a derivative beneficiary of the 
applicant or beneficiary) reaching an age that would render the alien 
ineligible for the benefit sought, if the alien's failure to meet the 
age requirement occurred as a direct result of a major disaster or 
emergency.

SEC. 538. EMPLOYMENT ELIGIBILITY VERIFICATION.

    (a) In General.--The Secretary may suspend or modify any 
requirement under section 274A(b) of the Immigration and Nationality 
Act (8 U.S.C. 1324a(b)) or subtitle A of title IV of the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 (8 U.S.C. 
1324a note), either generally or with respect to particular persons, 
class of persons, geographic areas, or economic sectors, to the extent 
to which the Secretary determines necessary or appropriate to respond 
to major disasters or emergencies.
    (b) Notification.--If the Secretary suspends or modifies any 
requirement under section 274A(b) of the Immigration and Nationality 
Act pursuant to subsection (a), the Secretary shall send notice of such 
decision, including the reasons for the suspension or modification, 
to--
            (1) the Committee on the Judiciary of the Senate; and
            (2) the Committee on the Judiciary of the House of 
        Representatives.
    (c) Sunset Date.--The authority under subsection (a) shall expire 
on August 26, 2008.

SEC. 539. NATURALIZATION.

    The Secretary may, with respect to applicants for naturalization in 
any district of the United States Citizenship and Immigration Services 
affected by a major disaster or emergency, administer the provisions of 
Title III of the Immigration and Nationality Act (8 U.S.C. 1401 et 
seq.) notwithstanding any provision of such title relating to the 
jurisdiction of an eligible court to administer the oath of allegiance, 
or requiring residence to be maintained or any action to be taken in 
any specific district or State within the United States.

SEC. 540. DISCRETIONARY AUTHORITY.

    The Secretary or the Attorney General may waive violations of the 
immigration laws committed by an alien--
            (1) who was in lawful status on the last business day; and
            (2) whose failure to comply with the immigration laws--
                    (A) was a direct result of a major disaster or 
                emergency;
                    (B) occurred within a period to be determined by 
                the Attorney General; and
                    (C) for the victims of Hurricane Katrina or 
                Hurricane Rita, occurred on or before March 1, 2006.

SEC. 541. EVIDENTIARY STANDARDS AND REGULATIONS.

    The Secretary shall establish appropriate evidentiary standards for 
demonstrating, for purposes of this subtitle, that a major disaster or 
emergency directly resulted in--
            (1) death;
            (2) disability; or
            (3) loss of employment due to physical damage to, or 
        destruction of, a business.

SEC. 542. IDENTIFICATION DOCUMENTS.

    (a) Temporary Identification.--The Secretary shall have the 
authority to instruct any Federal agency to issue temporary 
identification documents to individuals affected by a major disaster or 
emergency. Such documents shall be acceptable for identification 
purposes under any Federal law until 1 year after the relevant major 
disaster or emergency. For victims of Hurricane Katrina or Hurricane 
Rita, such documents shall be valid until August 29, 2007.
    (b) Issuance.--An agency may not issue identity documents under 
this section after January 1, 2006.
    (c) No Compulsion To Accept or Carry Identification Documents.--
Nationals of the United States shall not be compelled to accept or 
carry documents issued under this section.
    (d) No Proof of Citizenship.--Identity documents issued under this 
section shall not constitute proof of citizenship or immigration 
status.

SEC. 543. WAIVER OF REGULATIONS.

    The Secretary shall carry out the provisions of this subtitle as 
expeditiously as possible. The Secretary is not required to promulgate 
regulations before implementing this subtitle. The requirements of 
chapter 5 of title 5, United States Code (commonly referred to as the 
``Administrative Procedure Act'') or any other law relating to rule 
making, information collection, or publication in the Federal Register, 
shall not apply to any action to implement this subtitle to the extent 
the Secretary, the Secretary of Labor, or the Secretary of State 
determine that compliance with such requirement would impede the 
expeditious implementation of such Act.

SEC. 544. NOTICES OF CHANGE OF ADDRESS.

    (a) In General.--If a notice of change of address otherwise 
required to be submitted to the Secretary by an alien described in 
subsection (b) relates to a change of address occurring during the 
period beginning on the last business day, and ending on a date to be 
determined by the Secretary, the alien may submit such notice. For 
victims of Hurricane Katrina or Hurricane Rita, such period shall end 
on the date of the enactment of this Act.
    (b) Aliens Described.--An alien is described in this subsection if 
the alien--
            (1) resided, on the last business day, within a district of 
        the United States that was declared by the President to be 
        affected by a major disaster or emergency; and
            (2) is required, under section 265 of the Immigration and 
        Nationality Act (8 U.S.C. 1305) or any other provision of law, 
        to notify the Secretary in writing of a change of address.

SEC. 545. FOREIGN STUDENTS AND EXCHANGE PROGRAM PARTICIPANTS.

    (a) In General.--The nonimmigrant status of an alien described in 
subsection (b) shall be deemed to have been maintained during the 
period beginning on the last business day, and ending on a date to be 
determined by the Attorney General, if on such later date, the alien is 
enrolled in a course of study, or participating in a designated 
exchange visitor program, sufficient to satisfy the terms and 
conditions of the alien's nonimmigrant status on the last business day. 
For victims of Hurricane Katrina or Hurricane Rita, the relevant period 
shall be deemed to have ended on September 15, 2006.
    (b) Aliens Described.--An alien is described in this subsection if 
the alien--
            (1) was, on the last business day, lawfully present in the 
        United States in the status of a nonimmigrant described in 
        subparagraph (F), (J), or (M) of section 101(a)(15) of the 
        Immigration and Nationality Act (8 U.S.C. 1101(a)(15)); and
            (2) fails to satisfy a term or condition of such status as 
        a direct result of a major disaster or emergency.

           TITLE VI--LEGALIZATION OF UNDOCUMENTED INDIVIDUALS

                 Subtitle A--Conditional Nonimmigrants

SEC. 601. CONDITIONAL NONIMMIGRANTS.

    (a) In General.--Notwithstanding any other provision of law, 
including section 244(h) of the Immigration and Nationality Act (8 
U.S.C. 1254a(h)), the Secretary may classify an alien as a conditional 
nonimmigrant or conditional nonimmigrant dependent if the alien--
            (1) submits an application for such classification; and
            (2) meets the requirements of this section.
    (b) Presence in the United States.--
            (1) In general.--The alien shall establish that the alien--
                    (A) was present in the United States before June 1, 
                2006;
                    (B) has been continuously present in the United 
                States since the date described in subparagraph (A); 
                and
                    (C) was not legally present in the United States on 
                that date under any classification described in section 
                101(a)(15) of the Immigration and Nationality Act (8 
                U.S.C. 1101(a)(15)) or any other nonimmigrant status 
                made available under a treaty or other multinational 
                agreement that has been ratified by the Senate.
            (2) Continuous presence.--For purposes of this subsection, 
        an absence from the United States without authorization for a 
        continuous period of more than 180 days between June 1, 2006, 
        and the beginning of the application period for classification 
        as a conditional nonimmigrant shall constitute a break in 
        continuous physical presence.
    (c) Conditional Nonimmigrant Dependents.--Notwithstanding any other 
provision of law, the Secretary shall classify the spouse or child of a 
conditional nonimmigrant as a conditional nonimmigrant dependent, or 
provide the spouse or child with a conditional nonimmigrant dependent 
visa if--
            (1) the spouse or child meets the applicable eligibility 
        requirements under this section; or
            (2) the alien was, before the date on which this Act was 
        introduced in Congress, the spouse or child of an alien who was 
        subsequently classified as a conditional nonimmigrant under 
        this section, or is eligible for such classification, if--
                    (A) the termination of the relationship with such 
                spouse or parent was connected to domestic violence; 
                and
                    (B) the spouse or child has been battered or 
                subjected to extreme cruelty by the spouse or parent 
                who is a conditional nonimmigrant.
    (d) Other Criteria.--
            (1) In general.--An alien may be classified as a 
        conditional nonimmigrant or conditional nonimmigrant dependent 
        if the Secretary determines that the alien--
                    (A) is not inadmissible to the United States under 
                section 212(a) of the Immigration and Nationality Act 
                (8 U.S.C. 1182(a)), except as provided in paragraph 
                (2);
                    (B) has not ordered, incited, assisted, or 
                otherwise participated in the persecution of any person 
                on account of race, religion, nationality, membership 
                in a particular social group, or political opinion; and
                    (C) is not an alien--
                            (i) who has been convicted by final 
                        judgment of a particularly serious crime and 
                        constitutes a danger to the community of the 
                        United States;
                            (ii) for whom there are reasonable grounds 
                        for believing that the alien has committed a 
                        particularly serious crime outside the United 
                        States before arriving in the United States; or
                            (iii) for whom there are reasonable grounds 
                        for regarding the alien as a danger to the 
                        security of the United States; and
                    (D) has been convicted of a felony or 3 or more 
                misdemeanors under Federal or State law.
            (2) Grounds of inadmissibility.--In determining an alien's 
        admissibility under paragraph (1)(A)--
                    (A) paragraphs (5), (6) (excluding subparagraph 
                (E)), (7), (9), and (10)(B) of section 212(a) of such 
                Act shall not apply;
                    (B) the Secretary may not waive--
                            (i) subparagraph (A), (B), (C), (D)(ii), 
                        (E), (G), (H), or (I) of section 212(a)(2) of 
                        such Act (relating to criminals);
                            (ii) section 212(a)(3) of such Act 
                        (relating to security and related grounds); or
                            (iii) subparagraph (A), (C), or (D) of 
                        section 212(a)(10) of such Act (relating to 
                        polygamists and child abductors);
                    (C) the Secretary may waive the application of any 
                provision of section 212(a) of such Act not listed in 
                subparagraph (B) on behalf of an individual alien for 
                humanitarian purposes, to ensure family unity, or if 
                such waiver is otherwise in the public interest; and
                    (D) nothing in this paragraph shall be construed as 
                affecting the authority of the Secretary other than 
                under this paragraph to waive the provisions of section 
                212(a) of such Act.
            (3) Applicability of other provisions.--Sections 240B(d) 
        and 241(a)(5) of the Immigration and Nationality Act (8 U.S.C. 
        1229c(d) and 1231(a)(5)) shall not apply to an alien who is 
        applying for classification under this section for conduct that 
        occurred before the date on which this Act was introduced in 
        Congress.
    (e) Attestation of Employment.--The Secretary may not classify an 
alien as a conditional nonimmigrant unless the alien--
            (1) attests, under penalty of perjury, that the alien--
                    (A) was employed full time, part time, or 
                seasonally in the United States or was self-employed 
                before June 1, 2006, and has been employed in the 
                United States since that date; or
                    (B) was otherwise physically present before June 1, 
                2006, under the limitations described in subsections 
                (b) and (c) of section 602; and
            (2) submits evidence that the Secretary determines to be 
        necessary to establish prima facie evidence of employment or 
        physical presence in the United States.
    (f) Security and Law Enforcement Background Checks.--
            (1) Submission of fingerprints.--The Secretary may not 
        classify an alien as a conditional nonimmigrant or a 
        conditional nonimmigrant dependent unless the alien submits 
        fingerprints in accordance with procedures established by the 
        Secretary.
            (2) Background checks.--The Secretary shall utilize 
        fingerprints and other biometric data provided by the alien to 
        conduct a background check of such alien to search for 
        criminal, national security, or other law enforcement actions 
        that would render the alien ineligible for classification under 
        this section.
            (3) Expeditious processing.--The background checks required 
        under paragraph (2) shall be conducted as expeditiously as 
        possible.
    (g) Period of Authorized Stay; Application Fee and Fine.--
            (1) Period of authorized stay.--
                    (A) In general.--Except as provided under 
                subparagraph (C), the period of authorized stay for a 
                conditional nonimmigrant or a conditional nonimmigrant 
                dependent shall be 6 years from the date on which such 
                status is conferred.
                    (B) Limitation.--The Secretary may not adjust or 
                change the status of a conditional nonimmigrant or a 
                conditional nonimmigrant dependent to any other 
                immigrant or nonimmigrant classification until the 
                termination of the 6-year period described in 
                subparagraph (A).
                    (C) Extension.--The Secretary may only extend the 
                period described in subparagraph (A) to accommodate the 
                processing of an application for adjustment of status 
                under section 602.
            (2) Application fee and fines.--
                    (A) Application fee.--The Secretary shall impose a 
                fee for filing an application under this section. Such 
                fee shall be sufficient to cover the administrative and 
                other expenses incurred in connection with the review 
                of such applications.
                    (B) Fines.--
                            (i) In general.--Except as provided under 
                        clause (ii), an alien filing an application 
                        under this section shall submit to the 
                        Secretary, in addition to the fee required 
                        under subparagraph (A), a fine of $500.
                            (ii) Exception.--An alien who is younger 
                        than 21 years of age shall not be required to 
                        pay a fine under this paragraph.
                    (C) Disposition of fees and fines.--
                            (i) Fees.--Fees collected under this 
                        paragraph shall be deposited into the 
                        Immigration Examination Fee Account and remain 
                        available as provided under subsections (m) and 
                        (n) of section 286.
                            (ii) Fines.--Fines collected under this 
                        paragraph shall be deposited into the New 
                        Worker Program and Conditional Nonimmigrant Fee 
                        Account established under section 286(w).
    (h) Treatment of Applicants.--
            (1) In general.--An alien who files an application under 
        this section to become a conditional nonimmigrant or a 
        conditional nonimmigrant dependent--
                    (A) shall be granted employment authorization 
                pending final adjudication of the alien's application;
                    (B) shall be granted permission to travel abroad;
                    (C) may not be detained for immigration purposes, 
                determined inadmissible or deportable, or removed 
                pending final adjudication of the alien's application, 
                unless the alien, due to conduct or criminal 
                conviction, becomes ineligible for conditional 
                nonimmigrant classification; and
                    (D) may not be considered an unauthorized alien (as 
                defined in section 274A(h)(3) of the Immigration and 
                Nationality Act (8 U.S.C. 1324a(h)(3))) until 
                employment authorization under subparagraph (A) is 
                denied.
            (2) Document of authorization.--The Secretary shall provide 
        each alien described in paragraph (1) with a counterfeit-
        resistant document of authorization that--
                    (A) meets all current requirements established by 
                the Secretary for travel documents, including the 
                requirements under section 403 of the Illegal 
                Immigration Reform and Immigrant Responsibility Act of 
                1996 (8 U.S.C. 1324a note); and
                    (B) reflects the benefits and status set forth in 
                paragraph (1).
            (3) Before application period.--If an alien is apprehended 
        between the date of the enactment of this Act and the date on 
        which regulations are promulgated to implement this section, 
        and the alien can establish prima facie eligibility as a 
        conditional nonimmigrant or a conditional nonimmigrant 
        dependent, the Secretary shall provide the alien with a 
        reasonable opportunity to file an application under this 
        section after such regulations are promulgated.
            (4) During certain proceedings.--Notwithstanding any 
        provision of the Immigration and Nationality Act, if an 
        immigration judge determines that an alien who is in removal 
        proceedings has made a prima facie case of eligibility for 
        classification as a conditional nonimmigrant or a conditional 
        nonimmigrant dependent, the judge shall administratively close 
        such proceedings and permit the alien a reasonable opportunity 
        to apply for such classification.
            (5) Relationships of application to certain orders.--
                    (A) In general.--An alien who is present in the 
                United States and has been ordered excluded, deported, 
                removed, or ordered to depart voluntarily from the 
                United States under any provision of the Immigration 
                and Nationality Act--
                            (i) notwithstanding such order, may apply 
                        for classification as a conditional 
                        nonimmigrant or conditional nonimmigrant 
                        dependent under this subtitle; and
                            (ii) shall not be required to file a 
                        separate motion to reopen, reconsider, or 
                        vacate the exclusion, deportation, removal, or 
                        voluntary departure order.
                    (B) Application granted.--If the Secretary grants 
                the application described in subparagraph (A)(i), the 
                Secretary shall cancel the order described in 
                subparagraph (A).
                    (C) Application denied.--If the Secretary renders a 
                final administrative decision to deny the application 
                described in subparagraph (A)(i), the order described 
                in subparagraph (A) shall be effective and enforceable 
                to the same extent as if the application had not been 
                made.
    (i) Classification.--If the Secretary determines that an alien is 
eligible for classification as a conditional nonimmigrant or 
conditional nonimmigrant dependent, the alien shall be entitled to all 
benefits described in subsection (h)(1). The Secretary may authorize 
the use of a document described in subsection (h)(2) as evidence of 
such classification or may issue additional documentation as evidence 
of classification as a conditional nonimmigrant or conditional 
nonimmigrant dependent.
    (j) Termination of Benefits.--
            (1) In general.--Any benefit provided to an alien seeking 
        classification as a conditional nonimmigrant or conditional 
        nonimmigrant dependent, or who is classified as such, under 
        this section shall terminate if--
                    (A) the Secretary determines that the alien is 
                ineligible for such classification and all review 
                procedures under section 603 have been exhausted or 
                waived by the alien;
                    (B) the alien is found removable from the United 
                States under section 237 of the Immigration and 
                Nationality Act (8 U.S.C. 1227);
                    (C) the alien has used documentation issued under 
                this section for unlawful or fraudulent purposes; or
                    (D) in the case of the spouse or child of an alien 
                applying for classification as a conditional 
                nonimmigrant or classified as a conditional 
                nonimmigrant under this section, the benefits for the 
                principal alien are terminated.
    (k) Dissemination of Information on Conditional Nonimmigrant 
Program.--During the 12-month period immediately after the issuance of 
regulations implementing this section, the Secretary, in cooperation 
with entities approved by the Secretary, shall broadly disseminate 
information respecting conditional nonimmigrant or conditional 
nonimmigrant dependent classification under this section and the 
requirements to be satisfied to obtain such classification. The 
Secretary shall disseminate information to employers and labor unions 
to advise them of the rights and protections available to them and to 
workers who file applications under this section. Such information 
shall be broadly disseminated, in the principal languages, as 
determined by the Secretary, spoken by aliens who would qualify for 
classification under this section, including to television, radio, and 
print media to which such aliens would have access.

SEC. 602. ADJUSTMENT OF STATUS FOR CONDITIONAL NONIMMIGRANTS.

    (a) Requirements.--
            (1) In general.--Notwithstanding any other provision of 
        law, including section 244(h) of the Immigration and 
        Nationality Act (8 U.S.C. 1254a(h)), the Secretary may adjust 
        the status of a conditional nonimmigrant or a conditional 
        nonimmigrant dependent to that of an alien lawfully admitted 
        for permanent residence if the conditional nonimmigrant or 
        conditional nonimmigrant dependent satisfies the applicable 
        requirements under this subsection.
            (2) Completion of employment or education requirement.--A 
        conditional nonimmigrant applying for adjustment of status 
        under this section shall establish that during the 6-year 
        period immediately preceding the application for adjustment of 
        status, he or she--
                    (A) has been employed full-time, part-time, or 
                seasonally in the United States;
                    (B) has been self-employed in the United States; or
                    (C) has met the education requirements under 
                subsection (c).
            (3) Evidence of employment.--
                    (A) Conclusive documents.--An alien may 
                conclusively establish employment status in compliance 
                with paragraph (2) by submitting records to the 
                Secretary that demonstrate such employment, and have 
                been maintained by the Social Security Administration, 
                the Internal Revenue Service, or any other Federal, 
                State, or local government agency.
                    (B) Other documents.--An alien who is unable to 
                submit a document described in subparagraph (A) may 
                satisfy the requirement under paragraph (1) by 
                submitting to the Secretary at least 2 other types of 
                reliable documents that provide evidence of employment, 
                including--
                            (i) bank records;
                            (ii) business records;
                            (iii) employer records;
                            (iv) records of a labor union, day labor 
                        center, or organization that assists workers in 
                        employment;
                            (v) sworn affidavits from nonrelatives who 
                        have direct knowledge of the alien's work, that 
                        contain--
                                    (I) the name, address, and 
                                telephone number of the affiant;
                                    (II) the nature and duration of the 
                                relationship between the affiant and 
                                the alien; and
                                    (III) other verification or 
                                information; and
                            (vi) remittance records.
                    (C) Additional documents and restrictions.--The 
                Secretary may--
                            (i) designate additional documents to 
                        evidence employment in the United States; and
                            (ii) set such terms and conditions on the 
                        use of affidavits as is necessary to verify and 
                        confirm the identity of any affiant or 
                        otherwise prevent fraudulent submissions.
            (4) Sense of congress.--It is the sense of the Congress 
        that the requirement under this subsection should be 
        interpreted and implemented in a manner that recognizes and 
        takes into account the difficulties encountered by aliens in 
        obtaining evidence of employment due to the undocumented status 
        of the alien.
            (5) Burden of proof.--An alien described in paragraph (1) 
        who is applying for adjustment of status under this section 
        shall prove, by a preponderance of the evidence, that the alien 
        has satisfied the requirements of this subsection. An alien may 
        meet such burden of proof by producing sufficient evidence to 
        demonstrate such employment as a matter of reasonable 
        inference.
            (6) Portability.--An alien shall not be required to 
        complete the employment requirements under this section with a 
        single employer.
    (b) Exceptions and Special Rules.--
            (1) Exceptions based on age.--The employment requirements 
        under this section shall not apply--
                    (A) to any alien who is classified as a conditional 
                nonimmigrant dependent who was younger than 21 years of 
                age on the date of the enactment of this Act; or
                    (B) to any alien who is 65 years of age or older on 
                the date of the enactment of this Act.
            (2) Disabilities; pregnancy.--The employment requirements 
        under this section shall be reduced for an alien who cannot 
        demonstrate employment based on a physical or mental disability 
        (as defined under section 3(2) of the Americans with 
        Disabilities Act of 1990 (42 U.S.C. 12102(2)) or as a result of 
        pregnancy if such condition is evidenced by the submission of 
        documentation prescribed by the Secretary.
    (c) Application Procedure and Fee.--
            (1) In general.--The Secretary shall promulgate regulations 
        establishing procedures for submitting an application for 
        adjustment of status under this section. The Secretary shall 
        impose a fee for filing an application for adjustment of status 
        under this section which shall be sufficient to cover the 
        administrative and other expenses incurred in connection with 
        the review of such applications.
            (2) Fines.--
                    (A) In general.--Except as provided under 
                subparagraph (B), an alien filing an application for 
                adjustment of status under this section shall pay a 
                $1500 fine to the Secretary, in addition to the fee 
                required under paragraph (1).
                    (B) Exception.--An alien who is classified as a 
                conditional nonimmigrant dependent who was under 21 
                years of age on the date of enactment of this Act shall 
                not be required to pay a fine under this paragraph.
            (3) State impact assistance fee.--
                    (A) In general.--In addition to any other amounts 
                required to be paid under this subsection, a 
                conditional nonimmigrant shall submit a State impact 
                assistance fee equal to $500 with the application for 
                adjustment filed under this section.
                    (B) Use of fee.--Fees collected under subparagraph 
                (A) shall be deposited in the State Impact Assistance 
                Account and shall remain available under 286(x) of the 
                Immigration and Nationality Act.
            (4) Deposit of fees.--Fees collected under this paragraph 
        shall be deposited into the Immigration Examination Fee Account 
        and shall remain available as provided under subsections (m) 
        and (n) of section 286 of the Immigration and Nationality Act 
        (8 U.S.C. 1356).
            (5) Deposit of fines.--Fines collected under this paragraph 
        shall be deposited into the New Worker Program and Conditional 
        Nonimmigrant Fee Account and shall remain available as provided 
        under section 286(w) of the Immigration and Nationality Act.
    (d) Admissible Under Immigration Laws.--A conditional nonimmigrant 
or conditional nonimmigrant dependent applying for adjustment of status 
under this section shall establish that he or she is not inadmissible 
under section 212(a), except for any provision under that section that 
is not applicable or waived under paragraph (2) or (3) of section 
601(d). For purposes of an application filed under this section, any 
prior waiver of inadmissibility granted to an alien under section 
601(d)(2(C) shall remain in effect with respect to the specific conduct 
considered by the Secretary at the time of classification under section 
601.
    (e) Legal Reentry.--
            (1) In general.--A conditional nonimmigrant applying for 
        adjustment of status under this section shall physically depart 
        the United States and after such departure, be admitted to the 
        United States as a conditional nonimmigrant or applicant for 
        conditional nonimmigrant status, as evidenced by documentation 
        issued by the Secretary. A record of such admission shall be 
        created by the Secretary through the US-VISIT exit and entry 
        system, or any other system maintained by the Secretary to 
        create a record of a lawful entry.
            (2) Departure and reentry.--A conditional nonimmigrant 
        seeking to establish lawful admission under paragraph (1)(B) 
        may seek admission to the United States at any port of entry at 
        which the US-VISIT exit and entry system, or any other system 
        maintained by the Secretary to record lawful admission, is in 
        operation. Departure and subsequent lawful admission to the 
        United States shall occur not later than 90 days before the 
        conditional nonimmigrant files an application for adjustment to 
        lawful permanent resident status under this section.
            (3) Exemptions.--Paragraph (2) shall not apply to an alien 
        who, on the date on which the application for adjustment of 
        status is filed under this section--
                    (A) has served in the Armed Forces of the United 
                States;
                    (B) has a son or daughter who has served or is 
                serving in the Armed Forces of the United States;
                    (C) has a pending or approved application under 
                section 244 of the Immigration and Nationality Act (8 
                U.S.C. 1254a), the Nicaraguan Adjustment and Central 
                American Relief Act (Public Law 105-100), or the 
                Haitian Refugee Immigration Fairness Act of 1998 
                (Public Law 105-277);
                    (D) is at least 65 years of age;
                    (E) is younger than 21 years of age;
                    (F) suffers from an ongoing physical or mental 
                disability (as defined in section 3(2) of the Americans 
                with Disabilities Act of 1990 (42 U.S.C. 12102));
                    (G) is a single parent head of household; or
                    (H) cannot comply with such paragraph due to 
                extreme hardship to the alien or an immediate family 
                member, as determined by the Secretary.
            (4) Failure to establish lawful admission to the united 
        states.--Unless exempted under paragraph (3), a conditional 
        nonimmigrant who fails to depart and reenter the United States 
        in accordance with paragraph (1) may not become a lawful 
        permanent resident under this section.
    (f) Medical Examination.--A conditional nonimmigrant or a 
conditional nonimmigrant dependent shall undergo an appropriate medical 
examination (including a determination of immunization status) that 
conforms to generally accepted professional standards of medical 
practice.
    (g) Payment of Income Taxes.--
            (1) In general.--Not later than the date on which status is 
        adjusted under this section, a conditional nonimmigrant or 
        conditional nonimmigrant dependent shall satisfy any applicable 
        Federal tax liability by establishing that--
                    (A) no such tax liability exists;
                    (B) all outstanding liabilities have been paid; or
                    (C) the conditional nonimmigrant has entered into, 
                and is in compliance with, an agreement for payment of 
                all outstanding liabilities with the Internal Revenue 
                Service.
            (2) Applicable federal tax liability.--For purposes of 
        paragraph (1), the term ``applicable Federal tax liability'' 
        means liability for Federal taxes, including penalties and 
        interest, owed for any year during the period of employment 
        required under subsection (a)(2) for which the statutory period 
        for assessment of any deficiency for such taxes has not 
        expired.
            (3) IRS cooperation.--The Secretary of the Treasury shall 
        establish rules and procedures under which the Commissioner of 
        Internal Revenue shall provide documentation to--
                    (A) a conditional nonimmigrant or conditional 
                nonimmigrant dependent, upon request, to establish the 
                payment of all taxes required under this subsection; or
                    (B) the Secretary, upon request, regarding the 
                payment of Federal taxes by an alien applying for a 
                benefit under this section.
            (4) Compliance.--The alien may satisfy proof of compliance 
        with this subsection by submitting documentation that 
        establishes that--
                    (A) no such tax liability exists;
                    (B) all outstanding liabilities have been met; or
                    (C) the alien has entered into, and is in 
                compliance with, an agreement for payment of all 
                outstanding liabilities with the Internal Revenue 
                Service.
    (h) Basic Citizenship Skills.--
            (1) In general.--Except as provided under paragraph (2), a 
        conditional nonimmigrant or conditional nonimmigrant dependent 
        shall establish that he or she--
                    (A) meets the requirements under section 312 of the 
                Immigration and Nationality Act (8 U.S.C. 1423); or
                    (B) is satisfactorily pursuing a course of study to 
                achieve such an understanding of English and knowledge 
                and understanding of the history and Government of the 
                United States.
            (2) Relation to naturalization examination.--A conditional 
        nonimmigrant or conditional nonimmigrant dependent who 
        demonstrates that he or she meets the requirements under such 
        section 312 may be considered to have satisfied the 
        requirements of that section for purposes of becoming 
        naturalized as a citizen of the United States under title III 
        of the Immigration and Nationality Act (8 U.S.C. 1401 et seq.).
            (3) Exceptions.--
                    (A) Mandatory.--Paragraph (1) shall not apply to 
                any person who is unable to comply with those 
                requirements because of a physical or developmental 
                disability or mental impairment as described in section 
                312(b)(1) of the Immigration and Nationality Act.
                    (B) Discretionary.--The Secretary may waive all or 
                part of paragraph (1) for a conditional nonimmigrant 
                who is at least 65 years of age on the date on which an 
                application is filed for adjustment of status under 
                this section.
    (i) Security and Law Enforcement Background Checks.--The Secretary 
shall conduct a security and law enforcement background check in 
accordance with procedures described in section 601(f).
    (j) Military Selective Service.--If a conditional nonimmigrant or 
conditional nonimmigrant dependent is within the age period required 
under the Military Selective Service Act (50 U.S.C. App. 451 et seq.), 
the conditional nonimmigrant shall establish proof of registration 
under that Act.
    (k) Treatment of Conditional Nonimmigrant Dependents.--
            (1) Adjustment of status.--Notwithstanding any other 
        provision of law, the Secretary may--
                    (A) adjust the status of a conditional nonimmigrant 
                dependent to that of a person admitted for lawful 
                permanent residence if the principal conditional 
                nonimmigrant spouse or parent has been found eligible 
                for adjustment of status under this section;
                    (B) adjust the status of a conditional nonimmigrant 
                dependent who was the spouse or child of an alien who 
                was classified as a conditional nonimmigrant or was 
                eligible for such classification under section 601, to 
                that of a person admitted for permanent residence if--
                            (i) the termination of the relationship 
                        with such spouse or parent was connected to 
                        domestic violence; and
                            (ii) the spouse or child has been battered 
                        or subjected to extreme cruelty by the spouse 
                        or parent.
            (2) Application of other law.--In processing applications 
        under this subsection on behalf of aliens who have been 
        battered or subjected to extreme cruelty, the Secretary shall 
        apply--
                    (A) the provisions under section 204(a)(1)(J) of 
                the Immigration and Nationality Act (8 U.S.C. 
                1154(a)(1)(J)); and
                    (B) the protections, prohibitions, and penalties 
                under section 384 of the Illegal Immigration Reform and 
                Immigrant Responsibility Act of 1996 (8 U.S.C. 1367).
    (l) Back of the Line.--An alien may not adjust status to that of a 
lawful permanent resident status under the Development, Relief, and 
Education for Alien Minors Act of 2007 until that earlier of--
            (1) 30 days after an immigrant visa becomes available for 
        petitions filed under sections 201, 202, and 203 that were 
        filed before the date of enactment of the STRIVE Act of 2007; 
        or
            (2) 8 years after the enactment of the Development, Relief, 
        and Education for Alien Minors Act of 2007.
    (m) Ineligibility for Public Benefits.--For purposes of section 403 
of the Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (8 U.S.C. 1613), an alien whose status has been adjusted under 
this section shall not be eligible for any Federal means-tested public 
benefit unless the alien meets the alien eligibility criteria for such 
benefit under title IV of such Act (8 U.S.C. 1601 et seq.).

SEC. 603. ADMINISTRATIVE AND JUDICIAL REVIEW.

    (a) Administrative Review.--
            (1) Single level of administrative appellate review.--The 
        Secretary shall establish an appellate review process within 
        United States Citizenship and Immigration Services to provide 
        for a single level of administrative appellate review of a 
        final determination respecting an application for 
        classification or adjustment of status under this subtitle.
            (2) Standard for review.--Administrative appellate review 
        under paragraph (1) shall be based solely upon the 
        administrative record established at the time of the 
        determination on the application and upon the presentation of 
        additional or newly discovered evidence during the time of the 
        pending appeal.
    (b) Judicial Review.--
            (1) In general.--The circuit courts of appeal of the United 
        States shall have jurisdiction to review the denial of an 
        application for classification or adjustment of status under 
        this subtitle. Notwithstanding any other provision of law, the 
        standard for review of such a denial shall be governed by 
        paragraph (2).
            (2) Standard for judicial review.--Judicial review of a 
        denial of an application under this subtitle shall be based 
        solely upon the administrative record established at the time 
        of the review. The findings of fact and other determinations 
        contained in the record shall be conclusive unless the 
        applicant can establish abuse of discretion or findings that 
        are directly contrary to clear and convincing facts contained 
        in the record, considered as a whole.
            (3) Jurisdiction of courts.--
                    (A) In general.--Notwithstanding any other 
                provision of law, the district courts of the United 
                States shall have jurisdiction over any cause or claim 
                arising from a pattern or practice of the Secretary in 
                the operation or implementation of this subtitle that 
                is arbitrary, capricious, or otherwise contrary to law, 
                and may order any appropriate relief.
                    (B) Remedies.--A district court may order any 
                appropriate relief under subparagraph (A) if the court 
                determines that--
                            (i) resolution of such cause or claim will 
                        serve judicial and administrative efficiency; 
                        or
                            (ii) a remedy would otherwise not be 
                        reasonably available or practicable.
    (c) Stay of Removal.--An alien seeking administrative or judicial 
review under this section may not be removed from the United States 
until a final decision is rendered establishing that the alien is 
ineligible for classification or adjustment of status under this 
subtitle unless such removal is based on criminal or national security 
grounds.

SEC. 604. MANDATORY DISCLOSURE OF INFORMATION.

    (a) Mandatory Disclosure.--The Secretary and the Secretary of State 
shall provide a duly recognized law enforcement entity that submits a 
written request with the information furnished pursuant to an 
application filed under this subtitle, and any other information 
derived from such furnished information, in connection with a criminal 
investigation or prosecution or a national security investigation or 
prosecution, of an individual suspect or group of suspects.
    (b) Limitations.--Except as otherwise provided under this section, 
no Federal agency, or any officer, employee, or agent of such agency, 
may--
            (1) use the information furnished by the applicant pursuant 
        to an application for benefits under this subtitle for any 
        purpose other than to make a determination on the application;
            (2) make any publication through which the information 
        furnished by any particular applicant can be identified; or
            (3) permit anyone other than the sworn officers and 
        employees of such agency to examine individual applications.
    (c) Criminal Penalty.--Any person who knowingly uses, publishes, or 
permits information to be examined in violation of this section shall 
be fined not more than $10,000.

SEC. 605. PENALTIES FOR FALSE STATEMENTS IN APPLICATIONS.

    (a) Criminal Penalty.--
            (1) Violation.--It shall be unlawful for any person--
                    (A) to file, or assist in filing, an application 
                for benefits under this subtitle; and
                            (i) to knowingly and willfully falsify, 
                        misrepresent, conceal, or cover up a material 
                        fact;
                            (ii) to make any false, fictitious, or 
                        fraudulent statements or representations; or
                            (iii) to make or use any false writing or 
                        document knowing the same to contain any false, 
                        fictitious, or fraudulent statement or entry; 
                        or
                    (B) to create or supply a false writing or document 
                for use in making such an application.
            (2) Penalty.--Any person who violates paragraph (1) shall 
        be fined in accordance with title 18, United States Code, 
        imprisoned not more than 5 years, or both.
    (b) Inadmissibility.--An alien who is convicted of violating 
subsection (a) shall be considered to be inadmissible to the United 
States on the ground described in section 212(a)(6)(C)(i) of the 
Immigration and Nationality Act (8 U.S.C. 1182(a)(6)(C)(i)).
    (c) Exception.--Notwithstanding subsections (a) and (b), any alien 
or other entity (including an employer or union) that submits an 
employment record that contains incorrect data used by the alien to 
obtain such employment, shall not, on that ground, be determined to 
have violated this section.

SEC. 606. ALIENS NOT SUBJECT TO DIRECT NUMERICAL LIMITATIONS.

    Section 201(b)(1) (8 U.S.C. 1151(b)(1)), as amended by title V, is 
further amended--
            (1) in subparagraph (A), by striking ``subparagraph (A) or 
        (B) of''; and
            (2) by adding at the end the following:
            ``(N) Aliens whose status is adjusted from that of a 
        conditional nonimmigrant or conditional nonimmigrant 
        dependent.''.

SEC. 607. EMPLOYER PROTECTIONS.

    (a) Immigration Status of Alien.--Employers of aliens applying for 
conditional nonimmigrant or conditional nonimmigrant dependent 
classification or adjustment of status under section 601 or 602 shall 
not be subject to civil and criminal tax liability relating directly to 
the employment of such alien before receiving employment authorization 
under this subtitle.
    (b) Provision of Employment Records.--Employers that provide 
unauthorized aliens with copies of employment records or other evidence 
of employment pursuant to an application for conditional nonimmigrant 
or conditional nonimmigrant dependent classification or adjustment of 
status under section 601 or 602 or any other application or petition 
pursuant to any other immigration law, shall not be subject to civil 
and criminal liability under section 274A of the Immigration and 
Nationality Act (8 U.S.C. 1324a) for employing such unauthorized 
aliens.
    (c) Applicability of Other Law.--Nothing in this section may be 
used to shield an employer from liability under section 274B of the 
Immigration and Nationality Act (8 U.S.C. 1324b) or any other labor or 
employment law.

SEC. 608. LIMITATIONS ON ELIGIBILITY.

    (a) In General.--An alien is not ineligible for any immigration 
benefit under any provision of this title, or any amendment made by 
this title, solely on the basis that the alien violated section 1543, 
1544, or 1546 of title 18, United States Code, or any amendments made 
by this Act, during the period beginning on the date of the enactment 
of this Act and ending on the date on which the alien applies for any 
benefits under this title.
    (b) Prosecution.--An alien who commits a violation of section 1543, 
1544, or 1546 of such title or any amendments made by this Act, during 
the period beginning on the date of the enactment of this Act and 
ending on the date that the alien applies for eligibility for such 
benefit may be prosecuted for the violation if the alien's application 
for such benefit is denied.

SEC. 609. RULEMAKING.

    The Secretary shall promulgate regulations regarding the timely 
filing and processing of applications for benefits under this subtitle.

SEC. 610. AUTHORIZATION OF APPROPRIATIONS.

    (a) In General.--There are authorized to be appropriated to the 
Secretary such sums as may be necessary to carry out this subtitle and 
the amendments made by this subtitle.
    (b) Availability of Funds.--Funds appropriated pursuant to 
subsection (a) shall remain available until expended.
    (c) Sense of Congress.--It is the sense of the Congress that funds 
authorized to be appropriated under subsection (a) should be directly 
appropriated so as to facilitate the orderly and timely commencement of 
the processing of applications filed under sections 601 and 602.

                     Subtitle B--DREAM Act of 2007

SEC. 621. SHORT TITLE.

    This subtitle may be cited as the ``Development, Relief, and 
Education for Alien Minors Act of 2007'' or the ``DREAM Act of 2007''.

SEC. 622. DEFINITIONS.

    In this subtitle:
            (1) Institution of higher education.--The term 
        ``institution of higher education'' has the meaning given that 
        term in section 101 of the Higher Education Act of 1965 (20 
        U.S.C. 1001).
            (2) Uniformed services.--The term ``uniformed services'' 
        has the meaning given that term in section 101(a) of title 10, 
        United States Code.

SEC. 623. RESTORATION OF STATE OPTION TO DETERMINE RESIDENCY FOR 
                    PURPOSES OF HIGHER EDUCATION BENEFITS.

    (a) In General.--Section 505 of the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996 (8 U.S.C. 1623) is repealed.
    (b) Effective Date.--The repeal under subsection (a) shall take 
effect as if included in the enactment of the Illegal Immigration 
Reform and Immigrant Responsibility Act of 1996 (division C of Public 
Law 104-208; 110 Stat. 3009-546).

SEC. 624. CANCELLATION OF REMOVAL AND ADJUSTMENT OF STATUS OF CERTAIN 
                    LONG-TERM RESIDENTS WHO ENTERED THE UNITED STATES 
                    AS CHILDREN.

    (a) Special Rule for Certain Long-Term Residents Who Entered the 
United States as Children.--
            (1) In general.--Notwithstanding any other provision of law 
        and except as otherwise provided in this subtitle, the 
        Secretary may cancel removal of, and adjust to the status of an 
        alien lawfully admitted for permanent residence, subject to the 
        conditional basis described in section 625, an alien who is 
        inadmissible or deportable from the United States, if the alien 
        demonstrates that--
                    (A) the alien has been physically present in the 
                United States for a continuous period of not less than 
                5 years immediately preceding the date of enactment of 
                this Act, and had not yet reached the age of 16 years 
                at the time of initial entry;
                    (B) the alien has been a person of good moral 
                character since the time of application;
                    (C) the alien--
                            (i) is not inadmissible under paragraph 
                        (2), (3), (6)(E), or (10)(C) of section 212(a) 
                        of the Immigration and Nationality Act (8 
                        U.S.C. 1182(a)); and
                            (ii) is not deportable under paragraph 
                        (1)(E), (2), or (4) of section 237(a) of the 
                        Immigration and Nationality Act (8 U.S.C. 
                        1227(a));
                    (D) the alien, at the time of application, has been 
                admitted to an institution of higher education in the 
                United States, or has earned a high school diploma or 
                obtained a general education development certificate in 
                the United States; and
                    (E) the alien has never been under a final 
                administrative or judicial order of exclusion, 
                deportation, or removal, unless the alien--
                            (i) has remained in the United States under 
                        color of law after such order was issued; or
                            (ii) received the order before attaining 
                        the age of 16 years.
            (2) Waiver.--Notwithstanding paragraph (1), the Secretary 
        may waive the ground of ineligibility under section 
        212(a)(6)(E) of the Immigration and Nationality Act and the 
        ground of deportability under paragraph (1)(E) of section 
        237(a) of that Act for humanitarian purposes or family unity or 
        when it is otherwise in the public interest.
            (3) Procedures.--The Secretary shall provide a procedure by 
        regulation allowing eligible individuals to apply affirmatively 
        for the relief available under this subsection without being 
        placed in removal proceedings.
    (b) Termination of Continuous Period.--For purposes of this 
section, any period of continuous residence or continuous physical 
presence in the United States of an alien who applies for cancellation 
of removal under this section shall not terminate when the alien is 
served a notice to appear under section 239(a) of the Immigration and 
Nationality Act (8 U.S.C. 1229(a)).
    (c) Treatment of Certain Breaks in Presence.--
            (1) In general.--An alien shall be considered to have 
        failed to maintain continuous physical presence in the United 
        States under subsection (a) if the alien has departed from the 
        United States for any period in excess of 90 days or for any 
        periods in the aggregate exceeding 180 days.
            (2) Extensions for exceptional circumstances.--The 
        Secretary may extend the time periods described in paragraph 
        (1) if the alien demonstrates that the failure to timely return 
        to the United States was due to exceptional circumstances. The 
        exceptional circumstances determined sufficient to justify an 
        extension should be no less compelling than serious illness of 
        the alien, or death or serious illness of a parent, 
        grandparent, sibling, or child.
    (d) Exemption From Numerical Limitations.--Nothing in this section 
may be construed to apply a numerical limitation on the number of 
aliens who may be eligible for cancellation of removal or adjustment of 
status under this section.
    (e) Rulemaking.--
            (1) Proposed regulations.--Not later than 180 days after 
        the date of enactment of this Act, the Secretary shall publish 
        regulations implementing this section. Such regulations shall 
        be effective immediately on an interim basis, but are subject 
        to change and revision after public notice and opportunity for 
        a period for public comment.
            (2) Interim, final regulations.--Within a reasonable time 
        after publication of the interim regulations in accordance with 
        paragraph (1), the Secretary shall publish final regulations 
        implementing this section.
    (f) Removal of Alien.--The Secretary may not remove any alien who 
has a pending application for conditional status under this subtitle.

SEC. 625. CONDITIONAL PERMANENT RESIDENT STATUS.

    (a) In General.--
            (1) Conditional basis for status.--Notwithstanding any 
        other provision of law, and except as provided in section 626, 
        an alien whose status has been adjusted under section 624 to 
        that of an alien lawfully admitted for permanent residence 
        shall be considered to have obtained such status on a 
        conditional basis subject to the provisions of this section. 
        Such conditional permanent resident status shall be valid for a 
        period of 6 years, subject to termination under subsection (b).
            (2) Notice of requirements.--
                    (A) At time of obtaining permanent residence.--At 
                the time an alien obtains permanent resident status on 
                a conditional basis under paragraph (1), the Secretary 
                shall provide for notice to the alien regarding the 
                provisions of this section and the requirements of 
                subsection (c) to have the conditional basis of such 
                status removed.
                    (B) Effect of failure to provide notice.--The 
                failure of the Secretary to provide a notice under this 
                paragraph--
                            (i) shall not affect the enforcement of the 
                        provisions of this Act with respect to the 
                        alien; and
                            (ii) shall not give rise to any private 
                        right of action by the alien.
    (b) Termination of Status.--
            (1) In general.--The Secretary shall terminate the 
        conditional permanent resident status of any alien who obtained 
        such status under this subtitle, if the Secretary determines 
        that the alien--
                    (A) ceases to meet the requirements of subparagraph 
                (B) or (C) of section 624(a)(1);
                    (B) has become a public charge; or
                    (C) has received a dishonorable or other than 
                honorable discharge from the uniformed services.
            (2) Return to previous immigration status.--Any alien whose 
        conditional permanent resident status is terminated under 
        paragraph (1) shall return to the immigration status the alien 
        had immediately prior to receiving conditional permanent 
        resident status under this subtitle.
    (c) Requirements of Timely Petition for Removal of Condition.--
            (1) In general.--In order for the conditional basis of 
        permanent resident status obtained by an alien under subsection 
        (a) to be removed, the alien shall file with the Secretary, in 
        accordance with paragraph (3), a petition which--
                    (A) requests the removal of such conditional basis; 
                and
                    (B) provides, under penalty of perjury, the facts 
                and information needed by the Secretary to make the 
                determination described in paragraph (2)(A).
            (2) Adjudication of petition to remove condition.--
                    (A) In general.--If a petition is filed in 
                accordance with paragraph (1) for an alien, the 
                Secretary shall make a determination as to whether the 
                alien meets the requirements set forth in subparagraphs 
                (A) through (E) of subsection (d)(1).
                    (B) Removal of conditional basis if favorable 
                determination.--If the Secretary determines that the 
                alien meets such requirements, the Secretary shall 
                notify the alien of such determination and immediately 
                remove the conditional basis of the status of the 
                alien.
                    (C) Termination if adverse determination.--If the 
                Secretary determines that the alien does not meet such 
                requirements, the Secretary shall notify the alien of 
                such determination and terminate the conditional 
                permanent resident status of the alien as of the date 
                of the determination.
            (3) Time to file petition.--
                    (A) In general.--An alien may petition to remove 
                the conditional basis to lawful resident status during 
                the period beginning 180 days before and ending 2 years 
                after the date that is 6 years after--
                            (i) the date of the granting of conditional 
                        permanent resident status; or
                            (ii) any other expiration date of the 
                        conditional permanent resident status as 
                        extended by the Secretary in accordance with 
                        this subtitle.
                    (B) Status.--The alien shall be deemed in 
                conditional permanent resident status in the United 
                States during the period in which a petition under 
                subparagraph (A) is pending.
    (d) Details of Petition.--
            (1) Contents of petition.--Each petition for an alien under 
        subsection (c)(1) shall contain information to permit the 
        Secretary to determine whether each of the following 
        requirements is met:
                    (A) The alien has demonstrated good moral character 
                during the entire period the alien has been a 
                conditional permanent resident.
                    (B) The alien is in compliance with section 
                624(a)(1)(C).
                    (C) The alien has not abandoned the alien's 
                residence in the United States. The Secretary shall 
                presume that the alien has abandoned such residence if 
                the alien is absent from the United States for more 
                than 365 days, in the aggregate, during the period of 
                conditional residence, unless the alien demonstrates 
                that the alien has not abandoned the alien's residence. 
                An alien who is absent from the United States due to 
                active service in the uniformed services has not 
                abandoned the alien's residence in the United States 
                during the period of such service.
                    (D) The alien has completed at least 1 of the 
                following:
                            (i) The alien has acquired a degree from an 
                        institution of higher education in the United 
                        States or has completed at least 2 years, in 
                        good standing, in a program for a bachelor's 
                        degree or higher degree in the United States.
                            (ii) The alien has served in the uniformed 
                        services for at least 2 years and, if 
                        discharged, has received an honorable 
                        discharge.
                    (E) The alien has provided a list of each secondary 
                school (as that term is defined in section 9101 of the 
                Elementary and Secondary Education Act of 1965 (20 
                U.S.C. 7801)) that the alien attended in the United 
                States.
            (2) Hardship exception.--
                    (A) In general.--The Secretary may remove the 
                conditional status of an alien if the alien--
                            (i) satisfies the requirements of 
                        subparagraphs (A), (B), and (C) of paragraph 
                        (1);
                            (ii) demonstrates compelling circumstances 
                        for the inability to complete the requirements 
                        described in paragraph (1)(D); and
                            (iii) demonstrates that the alien's removal 
                        from the United States would result in 
                        exceptional and extremely unusual hardship to 
                        the alien or the alien's spouse, parent, or 
                        child who is a citizen or a lawful permanent 
                        resident of the United States.
                    (B) Extension.--Upon a showing of good cause, the 
                Secretary may extend the period of conditional resident 
                status for the purpose of completing the requirements 
                described in paragraph (1)(D).
    (e) Treatment of Period for Purposes of Naturalization.--For 
purposes of title III of the Immigration and Nationality Act (8 U.S.C. 
1401 et seq.), an alien who is in the United States as a lawful 
permanent resident on a conditional basis under this section shall be 
considered to have been admitted as an alien lawfully admitted for 
permanent residence and to be in the United States as an alien lawfully 
admitted to the United States for permanent residence. The alien may 
not apply for naturalization until the conditional basis is removed.

SEC. 626. RETROACTIVE BENEFITS UNDER THIS ACT.

    If, on the date of the enactment of this Act, an alien has 
satisfied all the requirements of subparagraphs (A) through (E) of 
section 624(a)(1) and section 625(d)(1)(D), the Secretary may adjust 
the status of the alien to that of a conditional resident in accordance 
with section 624. The alien may petition for removal of such condition 
at the end of the conditional residence period in accordance with 
section 625(c) if the alien has met the requirements of subparagraphs 
(A), (B), and (C) of section 625(d)(1) during the entire period of 
conditional residence.

SEC. 627. EXCLUSIVE JURISDICTION.

    (a) In General.--The Secretary shall have exclusive jurisdiction to 
determine eligibility for relief under this subtitle, except if the 
alien has been placed into deportation, exclusion, or removal 
proceedings either prior to or after filing an application for relief 
under this Act, in which case the Attorney General shall have exclusive 
jurisdiction and shall assume all the powers and duties of the 
Secretary until proceedings are terminated, or if a final order of 
deportation, exclusion, or removal is entered the Secretary shall 
resume all powers and duties delegated to the Secretary under this 
subtitle.
    (b) Stay of Removal of Certain Aliens Enrolled in Primary or 
Secondary School.--The Attorney General shall stay the removal 
proceedings of any alien who--
            (1) meets all the requirements of subparagraphs (A), (B), 
        (C), and (E) of section 624(a)(1);
            (2) is at least 12 years of age; and
            (3) is enrolled full time in a primary or secondary school.
    (c) Employment.--An alien whose removal is stayed pursuant to 
subsection (b) may be engaged in employment in the United States 
consistent with the Fair Labor Standards Act (29 U.S.C. 201 et seq.) 
and State and local laws governing minimum age for employment.
    (d) Lift of Stay.--The Attorney General shall lift the stay granted 
pursuant to subsection (b) if the alien--
            (1) is no longer enrolled in a primary or secondary school; 
        or
            (2) ceases to meet the requirements of subsection (b)(1).

SEC. 628. PENALTIES FOR FALSE STATEMENTS IN APPLICATION.

    Any person who files an application for relief under this subtitle 
and willfully and knowingly falsifies, misrepresents, or conceals a 
material fact or makes any false or fraudulent statement or 
representation, or makes or uses any false writing or document knowing 
the same to contain any false or fraudulent statement or entry, shall 
be fined in accordance with title 18, United States Code, imprisoned 
not more than 5 years, or both.

SEC. 629. CONFIDENTIALITY OF INFORMATION.

    (a) Prohibition.--Except as provided in subsection (b), no officer 
or employee of the United States may--
            (1) use the information furnished by the applicant pursuant 
        to an application filed under this Act to initiate removal 
        proceedings against any persons identified in the application;
            (2) make any publication whereby the information furnished 
        by any particular individual pursuant to an application under 
        this Act can be identified; or
            (3) permit anyone other than an officer or employee of the 
        United States Government or, in the case of applications filed 
        under this Act with a designated entity, that designated 
        entity, to examine applications filed under this Act.
    (b) Required Disclosure.--The Secretary or the Attorney General 
shall provide the information furnished under this section, and any 
other information derived from such furnished information, to--
            (1) a duly recognized law enforcement entity in connection 
        with an investigation or prosecution of an offense described in 
        paragraph (2) or (3) of section 212(a) of the Immigration and 
        Nationality Act (8 U.S.C. 1182(a)), when such information is 
        requested in writing by such entity; or
            (2) an official coroner for purposes of affirmatively 
        identifying a deceased individual (whether or not such 
        individual is deceased as a result of a crime).
    (c) Penalty.--Any person who knowingly uses, publishes, or permits 
information to be examined in violation of this section shall be fined 
not more than $10,000.

SEC. 630. EXPEDITED PROCESSING OF APPLICATIONS; PROHIBITION ON FEES.

    Regulations promulgated under this subtitle shall provide that 
applications under this subtitle will be considered on an expedited 
basis and without a requirement for the payment by the applicant of any 
additional fee for such expedited processing.

SEC. 631. HIGHER EDUCATION ASSISTANCE.

    Notwithstanding any provision of the Higher Education Act of 1965 
(20 U.S.C. 1001 et seq.), with respect to assistance provided under 
title IV of such Act (20 U.S.C. 1070 et seq.), an alien who adjusts 
status to that of a lawful permanent resident under this subtitle shall 
only be eligible for the following assistance under such title:
            (1) Student loans under parts B, D, and E of such title IV 
        (20 U.S.C. 1071 et seq., 1087a et seq., 1087aa et seq.), 
        subject to the requirements of such parts.
            (2) Federal work-study programs under part C of such title 
        IV (42 U.S.C. 2751 et seq.), subject to the requirements of 
        such part.
            (3) Services under such title IV (20 U.S.C. 1070 et seq.), 
        subject to the requirements for such services.

SEC. 632. GAO REPORT.

    Not later than 7 years after the date of the enactment of this Act, 
the Comptroller General of the United States shall submit a report to 
the Committee on the Judiciary of the Senate and the Committee on the 
Judiciary of the House of Representatives that sets forth--
            (1) the number of aliens who were eligible for cancellation 
        of removal and adjustment of status under section 624(a);
            (2) the number of aliens who applied for adjustment of 
        status under section 624(a);
            (3) the number of aliens who were granted adjustment of 
        status under section 624(a); and
            (4) the number of aliens whose conditional permanent 
        resident status was removed under section 625.

                     Subtitle C--AgJOBS Act of 2007

SEC. 641. SHORT TITLE.

    This subtitle may be cited as the ``Agricultural Job Opportunities, 
Benefits, and Security Act of 2007'' or the ``AgJOBS Act of 2007''.

SEC. 642. DEFINITIONS.

    In this subtitle:
            (1) Agricultural employment.--The term ``agricultural 
        employment'' means any service or activity that is considered 
        to be agricultural under section 3(f) of the Fair Labor 
        Standards Act of 1938 (29 U.S.C. 203(f)) or agricultural labor 
        under section 3121(g) of the Internal Revenue Code of 1986 or 
        the performance of agricultural labor or services described in 
        section 101(a)(15)(H)(ii)(a) of the Immigration and Nationality 
        Act (8 U.S.C. 1101(a)(15)(H)(ii)(a)).
            (2) Blue card status.--The term ``blue card status'' means 
        the status of an alien who has been lawfully admitted into the 
        United States for temporary residence under section 101(a).
            (3) Department.--The term ``Department'' means the 
        Department of Homeland Security.
            (4) Employer.--The term ``employer'' means any person or 
        entity, including any farm labor contractor and any 
        agricultural association, that employs workers in agricultural 
        employment.
            (5) Secretary.--Except as otherwise provided, the term 
        ``Secretary'' means the Secretary of Homeland Security.
            (6) Temporary.--A worker is employed on a ``temporary'' 
        basis when the employment is intended not to exceed 10 months.
            (7) Work day.--The term ``work day'' means any day in which 
        the individual is employed 5.75 or more hours in agricultural 
        employment.

 CHAPTER 1--PILOT PROGRAM FOR EARNED STATUS ADJUSTMENT OF AGRICULTURAL 
                                WORKERS

                     Subchapter A--Blue Card Status

SEC. 643. REQUIREMENTS FOR BLUE CARD STATUS.

    (a) Requirement To Grant Blue Card Status.--Notwithstanding any 
other provision of law, the Secretary shall, pursuant to the 
requirements of this section, grant blue card status to an alien who 
qualifies under this section if the Secretary determines that the 
alien--
            (1) has performed agricultural employment in the United 
        States for at least 863 hours or 150 work days during the 24-
        month period ending on December 31, 2006;
            (2) applied for such status during the 18-month application 
        period beginning on the first day of the seventh month that 
        begins after the date of enactment of this Act;
            (3) is otherwise admissible to the United States under 
        section 212 of the Immigration and Nationality Act (8 U.S.C. 
        1182), except as otherwise provided under section 647(b); and
            (4) has not been convicted of any felony or a misdemeanor, 
        an element of which involves bodily injury, threat of serious 
        bodily injury, or harm to property in excess of $500.
    (b) Authorized Travel.--An alien who is granted blue card status is 
authorized to travel outside the United States (including commuting to 
the United States from a residence in a foreign country) in the same 
manner as an alien lawfully admitted for permanent residence.
    (c) Authorized Employment.--The Secretary shall provide an alien 
who is granted blue card status an employment authorized endorsement or 
other appropriate work permit, in the same manner as an alien lawfully 
admitted for permanent residence.
    (d) Termination of Blue Card Status.--
            (1) In general.--The Secretary may terminate blue card 
        status granted to an alien under this section only if the 
        Secretary determines that the alien is deportable.
            (2) Grounds for termination of blue card status.--Before 
        any alien becomes eligible for adjustment of status under 
        section 645, the Secretary may deny adjustment to permanent 
        resident status and provide for termination of the blue card 
        status granted such alien under paragraph (1) if--
                    (A) the Secretary finds, by a preponderance of the 
                evidence, that the adjustment to blue card status was 
                the result of fraud or willful misrepresentation (as 
                described in section 212(a)(6)(C)(i) of the Immigration 
                and Nationality Act (8 U.S.C. 1182(a)(6)(C)(i)); or
                    (B) the alien--
                            (i) commits an act that makes the alien 
                        inadmissible to the United States as an 
                        immigrant, except as provided under section 
                        647(b);
                            (ii) is convicted of a felony or 3 or more 
                        misdemeanors committed in the United States;
                            (iii) is convicted of an offense, an 
                        element of which involves bodily injury, threat 
                        of serious bodily injury, or harm to property 
                        in excess of $500; or
                            (iv) fails to perform the agricultural 
                        employment required under section 645(a)(1)(A) 
                        unless the alien was unable to work in 
                        agricultural employment due to the 
                        extraordinary circumstances described in 
                        section 645(a)(3).
    (e) Record of Employment.--
            (1) In general.--Each employer of an alien granted blue 
        card status under this section shall annually--
                    (A) provide a written record of employment to the 
                alien; and
                    (B) provide a copy of such record to the Secretary.
            (2) Sunset.--The obligation under paragraph (1) shall 
        terminate on the date that is 6 years after the date of the 
        enactment of this Act.
    (f) Required Features of Identity Card.--The Secretary shall 
provide each alien granted blue card status, and the spouse and any 
child of each such alien residing in the United States, with a card 
that contains--
            (1) an encrypted, machine-readable, electronic 
        identification strip that is unique to the alien to whom the 
        card is issued;
            (2) biometric identifiers, including fingerprints and a 
        digital photograph; and
            (3) physical security features designed to prevent 
        tampering, counterfeiting, or duplication of the card for 
        fraudulent purposes.
    (g) Fine.--An alien granted blue card status shall pay a fine of 
$100 to the Secretary.
    (h) Maximum Number.--The Secretary may not issue more than 
1,500,000 blue cards during the 5-year period beginning on the date of 
the enactment of this Act.

SEC. 644. TREATMENT OF ALIENS GRANTED BLUE CARD STATUS.

    (a) In General.--Except as otherwise provided under this section, 
an alien granted blue card status shall be considered to be an alien 
lawfully admitted for permanent residence for purposes of any law other 
than any provision of the Immigration and Nationality Act (8 U.S.C. 
1101 et seq.).
    (b) Delayed Eligibility for Certain Federal Public Benefits.--An 
alien granted blue card status shall not be eligible, by reason of such 
status, for any form of assistance or benefit described in section 
403(a) of the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996 (8 U.S.C. 1613(a)) until 5 years after the 
date on which the alien is granted an adjustment of status under 
section 645.
    (c) Terms of Employment.--
            (1) Prohibition.--No alien granted blue card status may be 
        terminated from employment by any employer during the period of 
        blue card status except for just cause.
            (2) Treatment of complaints.--
                    (A) Establishment of process.--The Secretary shall 
                establish a process for the receipt, initial review, 
                and disposition of complaints by aliens granted blue 
                card status who allege that they have been terminated 
                without just cause. No proceeding shall be conducted 
                under this paragraph with respect to a termination 
                unless the Secretary determines that the complaint was 
                filed not later than 6 months after the date of the 
                termination.
                    (B) Initiation of arbitration.--If the Secretary 
                finds that an alien has filed a complaint in accordance 
                with subparagraph (A) and there is reasonable cause to 
                believe that the alien was terminated from employment 
                without just cause, the Secretary shall initiate 
                binding arbitration proceedings by requesting the 
                Federal Mediation and Conciliation Service to appoint a 
                mutually agreeable arbitrator from the roster of 
                arbitrators maintained by such Service for the 
                geographical area in which the employer is located. The 
                procedures and rules of such Service shall be 
                applicable to the selection of such arbitrator and to 
                such arbitration proceedings. The Secretary shall pay 
                the fee and expenses of the arbitrator, subject to the 
                availability of appropriations for such purpose.
                    (C) Arbitration proceedings.--The arbitrator shall 
                conduct the proceeding under this paragraph in 
                accordance with the policies and procedures promulgated 
                by the American Arbitration Association applicable to 
                private arbitration of employment disputes. The 
                arbitrator shall make findings respecting whether the 
                termination was for just cause. The arbitrator may not 
                find that the termination was for just cause unless the 
                employer so demonstrates by a preponderance of the 
                evidence. If the arbitrator finds that the termination 
                was not for just cause, the arbitrator shall make a 
                specific finding of the number of days or hours of work 
                lost by the employee as a result of the termination. 
                The arbitrator shall have no authority to order any 
                other remedy, including reinstatement, back pay, or 
                front pay to the affected employee. Not later than 30 
                days after the date of the conclusion of the 
                arbitration proceeding, the arbitrator shall transmit 
                the findings in the form of a written opinion to the 
                parties to the arbitration and the Secretary. Such 
                findings shall be final and conclusive, and no official 
                or court of the United States shall have the power or 
                jurisdiction to review any such findings.
                    (D) Effect of arbitration findings.--If the 
                Secretary receives a finding of an arbitrator that an 
                employer has terminated the employment of an alien who 
                is granted blue card status without just cause, the 
                Secretary shall credit the alien for the number of days 
                or hours of work not performed during such period of 
                termination for the purpose of determining if the alien 
                meets the qualifying employment requirement of section 
                645(a).
                    (E) Treatment of attorney's fees.--Each party to an 
                arbitration under this paragraph shall bear the cost of 
                their own attorney's fees for the arbitration.
                    (F) Nonexclusive remedy.--The complaint process 
                provided for in this paragraph is in addition to any 
                other rights an employee may have in accordance with 
                applicable law.
                    (G) Effect on other actions or proceedings.--Any 
                finding of fact or law, judgment, conclusion, or final 
                order made by an arbitrator in the proceeding before 
                the Secretary shall not be conclusive or binding in any 
                separate or subsequent action or proceeding between the 
                employee and the employee's current or prior employer 
                brought before an arbitrator, administrative agency, 
                court, or judge of any State or the United States, 
                regardless of whether the prior action was between the 
                same or related parties or involved the same facts, 
                except that the arbitrator's specific finding of the 
                number of days or hours of work lost by the employee as 
                a result of the employment termination may be referred 
                to the Secretary pursuant to subparagraph (D).
            (3) Civil penalties.--
                    (A) In general.--If the Secretary finds, after 
                notice and opportunity for a hearing, that an employer 
                of an alien granted blue card status has failed to 
                provide the record of employment required under section 
                643(e) or has provided a false statement of material 
                fact in such a record, the employer shall be subject to 
                a civil money penalty in an amount not to exceed $1,000 
                per violation.
                    (B) Limitation.--The penalty applicable under 
                subparagraph (A) for failure to provide records shall 
                not apply unless the alien has provided the employer 
                with evidence of employment authorization granted under 
                this section.

SEC. 645. ADJUSTMENT TO PERMANENT RESIDENCE.

    (a) In General.--Except as provided in subsection (b), the 
Secretary shall adjust the status of an alien granted blue card status 
to that of an alien lawfully admitted for permanent residence if the 
Secretary determines that the following requirements are satisfied:
            (1) Qualifying employment.--
                    (A) In general.--Subject to subparagraph (B), the 
                alien has performed at least--
                            (i) 5 years of agricultural employment in 
                        the United States for at least 100 work days 
                        per year, during the 5-year period beginning on 
                        the date of the enactment of this Act; or
                            (ii) 3 years of agricultural employment in 
                        the United States for at least 150 work days 
                        per year, during the 3-year period beginning on 
                        the date of the enactment of this Act.
                    (B) 4-year period of employment.--An alien shall be 
                considered to meet the requirements of subparagraph (A) 
                if the alien has performed 4 years of agricultural 
                employment in the United States for at least 150 work 
                days during 3 years of those 4 years and at least 100 
                work days during the remaining year, during the 4-year 
                period beginning on the date of the enactment of this 
                Act.
            (2) Proof.--An alien may demonstrate compliance with the 
        requirement under paragraph (1) by submitting--
                    (A) the record of employment described in section 
                643(e); or
                    (B) such documentation as may be submitted under 
                section 646(c).
            (3) Extraordinary circumstances.--In determining whether an 
        alien has met the requirement of paragraph (1)(A), the 
        Secretary may credit the alien with not more than 12 additional 
        months to meet the requirement of that subparagraph if the 
        alien was unable to work in agricultural employment due to--
                    (A) pregnancy, injury, or disease, if the alien can 
                establish such pregnancy, disabling injury, or disease 
                through medical records;
                    (B) illness, disease, or other special needs of a 
                minor child, if the alien can establish such illness, 
                disease, or special needs through medical records; or
                    (C) severe weather conditions that prevented the 
                alien from engaging in agricultural employment for a 
                significant period of time.
            (4) Application period.--The alien applies for adjustment 
        of status not later than 7 years after the date of the 
        enactment of this Act.
            (5) Fine.--The alien pays a fine of $400 to the Secretary.
    (b) Grounds for Denial of Adjustment of Status.--The Secretary may 
deny an alien granted blue card status an adjustment of status under 
this section and provide for termination of such blue card status if--
            (1) the Secretary finds by a preponderance of the evidence 
        that the adjustment to blue card status was the result of fraud 
        or willful misrepresentation, as described in section 
        212(a)(6)(C)(i) of the Immigration and Nationality Act (8 
        U.S.C. 1182(a)(6)(C)(i)); or
            (2) the alien--
                    (A) commits an act that makes the alien 
                inadmissible to the United States under section 212 of 
                the Immigration and Nationality Act (8 U.S.C. 1182), 
                except as provided under section 647(b);
                    (B) is convicted of a felony or 3 or more 
                misdemeanors committed in the United States; or
                    (C) is convicted of an offense, an element of which 
                involves bodily injury, threat of serious bodily 
                injury, or harm to property in excess of $500.
    (c) Grounds for Removal.--Any alien granted blue card status who 
does not apply for adjustment of status under this section before the 
expiration of the application period described in subsection (a)(4) or 
who fails to meet the other requirements of subsection (a) by the end 
of the application period, is deportable and may be removed under 
section 240 of the Immigration and Nationality Act (8 U.S.C. 1229a).
    (d) Payment of Taxes.--
            (1) In general.--Not later than the date on which an 
        alien's status is adjusted under this section, the alien shall 
        establish that the alien does not owe any applicable Federal 
        tax liability by establishing that--
                    (A) no such tax liability exists;
                    (B) all such outstanding tax liabilities have been 
                paid; or
                    (C) the alien has entered into an agreement for 
                payment of all outstanding liabilities with the 
                Internal Revenue Service.
            (2) Applicable federal tax liability.--In paragraph (1) the 
        term ``applicable Federal tax liability'' means liability for 
        Federal taxes, including penalties and interest, owed for any 
        year during the period of employment required under subsection 
        (a)(1) for which the statutory period for assessment of any 
        deficiency for such taxes has not expired.
            (3) IRS cooperation.--The Secretary of the Treasury shall 
        establish rules and procedures under which the Commissioner of 
        Internal Revenue shall provide documentation to an alien upon 
        request to establish the payment of all taxes required by this 
        subsection.
    (e) Spouses and Minor Children.--
            (1) In general.--Notwithstanding any other provision of 
        law, the Secretary shall confer the status of lawful permanent 
        resident on the spouse and minor child of an alien granted any 
        adjustment of status under subsection (a), including any 
        individual who was a minor child on the date such alien was 
        granted blue card status, if the spouse or minor child applies 
        for such status, or if the principal alien includes the spouse 
        or minor child in an application for adjustment of status to 
        that of a lawful permanent resident.
            (2) Treatment of spouses and minor children.--
                    (A) Granting of status and removal.--The Secretary 
                may grant derivative status to the alien spouse and any 
                minor child residing in the United States of an alien 
                granted blue card status and shall not remove such 
                derivative spouse or child during the period that the 
                alien granted blue card status maintains such status, 
                except as provided in paragraph (3). A grant of 
                derivative status to such a spouse or child under this 
                subparagraph shall not decrease the number of aliens 
                who may receive blue card status under subsection (h) 
                of section 643.
                    (B) Travel.--The derivative spouse and any minor 
                child of an alien granted blue card status may travel 
                outside the United States in the same manner as an 
                alien lawfully admitted for permanent residence.
                    (C) Employment.--The derivative spouse of an alien 
                granted blue card status may apply to the Secretary for 
                a work permit to authorize such spouse to engage in any 
                lawful employment in the United States while such alien 
                maintains blue card status.
            (3) Grounds for denial of adjustment of status and 
        removal.--The Secretary may deny an alien spouse or child 
        adjustment of status under paragraph (1) and may remove such 
        spouse or child under section 240 of the Immigration and 
        Nationality Act (8 U.S.C. 1229a) if the spouse or child--
                    (A) commits an act that makes the alien spouse or 
                child inadmissible to the United States under section 
                212 of such Act (8 U.S.C. 1182), except as provided 
                under section 647(b);
                    (B) is convicted of a felony or 3 or more 
                misdemeanors committed in the United States; or
                    (C) is convicted of an offense, an element of which 
                involves bodily injury, threat of serious bodily 
                injury, or harm to property in excess of $500.

SEC. 646. APPLICATIONS.

    (a) Submission.--The Secretary shall provide that--
            (1) applications for blue card status under section 643 may 
        be submitted--
                    (A) to the Secretary if the applicant is 
                represented by an attorney or a nonprofit religious, 
                charitable, social service, or similar organization 
                recognized by the Board of Immigration Appeals under 
                section 292.2 of title 8, Code of Federal Regulations; 
                or
                    (B) to a qualified designated entity if the 
                applicant consents to the forwarding of the application 
                to the Secretary; and
            (2) applications for adjustment of status under section 645 
        shall be filed directly with the Secretary.
    (b) Qualified Designated Entity Defined.--In this section, the term 
``qualified designated entity'' means--
            (1) a qualified farm labor organization or an association 
        of employers designated by the Secretary; or
            (2) any such other person designated by the Secretary if 
        that Secretary determines such person is qualified and has 
        substantial experience, demonstrated competence, and has a 
        history of long-term involvement in the preparation and 
        submission of applications for adjustment of status under 
        section 209, 210, or 245 of the Immigration and Nationality Act 
        (8 U.S.C. 1159, 1160, and 1255), the Act entitled ``An Act to 
        adjust the status of Cuban refugees to that of lawful permanent 
        residents of the United States, and for other purposes'', 
        approved November 2, 1966 (Public Law 89-732; 8 U.S.C. 1255 
        note), Public Law 95-145 (8 U.S.C. 1255 note), or the 
        Immigration Reform and Control Act of 1986 (Public Law 99-603; 
        100 Stat. 3359) or any amendment made by that Act.
    (c) Proof of Eligibility.--
            (1) In general.--An alien may establish that the alien 
        meets the requirement of section 643(a)(1) or 645(a)(1) through 
        government employment records or records supplied by employers 
        or collective bargaining organizations, and other reliable 
        documentation as the alien may provide. The Secretary shall 
        establish special procedures to properly credit work in cases 
        in which an alien was employed under an assumed name.
            (2) Documentation of work history.--
                    (A) Burden of proof.--An alien applying for status 
                under section 643(a) or 645(a) has the burden of 
                proving by a preponderance of the evidence that the 
                alien has worked the requisite number of hours or days 
                required under section 643(a)(1) or 645(a)(1), as 
                applicable.
                    (B) Timely production of records.--If an employer 
                or farm labor contractor employing such an alien has 
                kept proper and adequate records respecting such 
                employment, the alien's burden of proof under 
                subparagraph (A) may be met by securing timely 
                production of those records under regulations to be 
                promulgated by the Secretary.
                    (C) Sufficient evidence.--An alien may meet the 
                burden of proof under subparagraph (A) to establish 
                that the alien has performed the days or hours of work 
                required by section 643(a)(1) or 645(a)(1) by producing 
                sufficient evidence to show the extent of that 
                employment as a matter of just and reasonable 
                inference.
    (d) Applications Submitted to Qualified Designated Entities.--
            (1) Requirements.--Each qualified designated entity shall 
        agree--
                    (A) to forward to the Secretary an application 
                submitted to that entity pursuant to subsection 
                (a)(1)(B) if the applicant has consented to such 
                forwarding;
                    (B) not to forward to the Secretary any such 
                application if the applicant has not consented to such 
                forwarding; and
                    (C) to assist an alien in obtaining documentation 
                of the alien's work history, if the alien requests such 
                assistance.
            (2) No authority to make determinations.--No qualified 
        designated entity may make a determination required by this 
        subtitle to be made by the Secretary.
    (e) Limitation on Access to Information.--Files and records 
collected or compiled by a qualified designated entity for the purposes 
of this section are confidential and the Secretary shall not have 
access to such a file or record relating to an alien without the 
consent of the alien, except as allowed by a court order issued 
pursuant to subsection (f).
    (f) Confidentiality of Information.--
            (1) In general.--Except as otherwise provided in this 
        section, the Secretary or any other official or employee of the 
        Department or a bureau or agency of the Department is 
        prohibited from--
                    (A) using information furnished by the applicant 
                pursuant to an application filed under this subtitle, 
                the information provided by an applicant to a qualified 
                designated entity, or any information provided by an 
                employer or former employer for any purpose other than 
                to make a determination on the application or for 
                imposing the penalties described in subsection (g);
                    (B) making any publication in which the information 
                furnished by any particular individual can be 
                identified; or
                    (C) permitting a person other than a sworn officer 
                or employee of the Department or a bureau or agency of 
                the Department or, with respect to applications filed 
                with a qualified designated entity, that qualified 
                designated entity, to examine individual applications.
            (2) Required disclosures.--The Secretary shall provide the 
        information furnished under this subtitle or any other 
        information derived from such furnished information to--
                    (A) a duly recognized law enforcement entity in 
                connection with a criminal investigation or 
                prosecution, if such information is requested in 
                writing by such entity; or
                    (B) an official coroner, for purposes of 
                affirmatively identifying a deceased individual, 
                whether or not the death of such individual resulted 
                from a crime.
            (3) Construction.--
                    (A) In general.--Nothing in this subsection shall 
                be construed to limit the use, or release, for 
                immigration enforcement purposes or law enforcement 
                purposes, of information contained in files or records 
                of the Department pertaining to an application filed 
                under this section, other than information furnished by 
                an applicant pursuant to the application, or any other 
                information derived from the application, that is not 
                available from any other source.
                    (B) Criminal convictions.--Notwithstanding any 
                other provision of this subsection, information 
                concerning whether the alien applying for blue card 
                status under section 643 or an adjustment of status 
                under section 645 has been convicted of a crime at any 
                time may be used or released for immigration 
                enforcement or law enforcement purposes.
            (4) Crime.--Any person who knowingly uses, publishes, or 
        permits information to be examined in violation of this 
        subsection shall be subject to a fine in an amount not to 
        exceed $10,000.
    (g) Penalties for False Statements in Applications.--
            (1) Criminal penalty.--Any person who--
                    (A) files an application for blue card status under 
                section 643 or an adjustment of status under section 
                645 and knowingly and willfully falsifies, conceals, or 
                covers up a material fact or makes any false, 
                fictitious, or fraudulent statements or 
                representations, or makes or uses any false writing or 
                document knowing the same to contain any false, 
                fictitious, or fraudulent statement or entry; or
                    (B) creates or supplies a false writing or document 
                for use in making such an application,
                shall be fined in accordance with title 18, United 
                States Code, imprisoned not more than 5 years, or both.
            (2) Inadmissibility.--An alien who is convicted of a crime 
        under paragraph (1) shall be considered to be inadmissible to 
        the United States on the ground described in section 
        212(a)(6)(C)(i) of the Immigration and Nationality Act (8 
        U.S.C. 1182(a)(6)(C)(i)).
    (h) Eligibility for Legal Services.--Section 504(a)(11) of Public 
Law 104-134 (110 Stat. 1321-53 et seq.) shall not be construed to 
prevent a recipient of funds under the Legal Services Corporation Act 
(42 U.S.C. 2996 et seq.) from providing legal assistance directly 
related to an application for blue card status under section 643 or an 
adjustment of status under section 645.
    (i) Application Fees.--
            (1) Fee schedule.--The Secretary shall provide for a 
        schedule of fees that--
                    (A) shall be charged for the filing of an 
                application for blue card status under section 643 or 
                for an adjustment of status under section 645; and
                    (B) may be charged by qualified designated entities 
                to help defray the costs of services provided to such 
                applicants.
            (2) Prohibition on excess fees by qualified designated 
        entities.--A qualified designated entity may not charge any fee 
        in excess of, or in addition to, the fees authorized under 
        paragraph (1)(B) for services provided to applicants.
            (3) Disposition of fees.--
                    (A) In general.--There is established in the 
                general fund of the Treasury a separate account, which 
                shall be known as the ``Agricultural Worker Immigration 
                Status Adjustment Account''. Notwithstanding any other 
                provision of law, there shall be deposited as 
                offsetting receipts into the account all fees collected 
                under paragraph (1)(A).
                    (B) Use of fees for application processing.--
                Amounts deposited in the ``Agricultural Worker 
                Immigration Status Adjustment Account'' shall remain 
                available to the Secretary until expended for 
                processing applications for blue card status under 
                section 643 or an adjustment of status under section 
                645.

SEC. 647. WAIVER OF NUMERICAL LIMITATIONS AND CERTAIN GROUNDS FOR 
                    INADMISSIBILITY.

    (a) Numerical Limitations Do Not Apply.--The numerical limitations 
of sections 201 and 202 of the Immigration and Nationality Act (8 
U.S.C. 1151 and 1152) shall not apply to the adjustment of aliens to 
lawful permanent resident status under section 645.
    (b) Waiver of Certain Grounds of Inadmissibility.--In the 
determination of an alien's eligibility for status under section 101(a) 
or an alien's eligibility for adjustment of status under section 
645(b)(2)(A) the following rules shall apply:
            (1) Grounds of exclusion not applicable.--The provisions of 
        paragraphs (5), (6)(A), (7), and (9) of section 212(a) of the 
        Immigration and Nationality Act (8 U.S.C. 1182(a)) shall not 
        apply.
            (2) Waiver of other grounds.--
                    (A) In general.--Except as provided in subparagraph 
                (B), the Secretary may waive any other provision of 
                such section 212(a) in the case of individual aliens 
                for humanitarian purposes, to ensure family unity, or 
                if otherwise in the public interest.
                    (B) Grounds that may not be waived.--Paragraphs 
                (2)(A), (2)(B), (2)(C), (3), and (4) of such section 
                212(a) may not be waived by the Secretary under 
                subparagraph (A).
                    (C) Construction.--Nothing in this paragraph shall 
                be construed as affecting the authority of the 
                Secretary other than under this subparagraph to waive 
                provisions of such section 212(a).
            (3) Special rule for determination of public charge.--An 
        alien is not ineligible for blue card status under section 643 
        or an adjustment of status under section 645 by reason of a 
        ground of inadmissibility under section 212(a)(4) of the 
        Immigration and Nationality Act (8 U.S.C. 1182(a)(4)) if the 
        alien demonstrates a history of employment in the United States 
        evidencing self-support without reliance on public cash 
        assistance.
    (c) Temporary Stay of Removal and Work Authorization for Certain 
Applicants.--
            (1) Before application period.--Effective on the date of 
        enactment of this Act, the Secretary shall provide that, in the 
        case of an alien who is apprehended before the beginning of the 
        application period described in section 643(a)(2) and who can 
        establish a nonfrivolous case of eligibility for blue card 
        status (but for the fact that the alien may not apply for such 
        status until the beginning of such period), until the alien has 
        had the opportunity during the first 30 days of the application 
        period to complete the filing of an application for blue card 
        status, the alien--
                    (A) may not be removed; and
                    (B) shall be granted authorization to engage in 
                employment in the United States and be provided an 
                employment authorized endorsement or other appropriate 
                work permit for such purpose.
            (2) During application period.--The Secretary shall provide 
        that, in the case of an alien who presents a nonfrivolous 
        application for blue card status during the application period 
        described in section 643(a)(2), including an alien who files 
        such an application within 30 days of the alien's apprehension, 
        and until a final determination on the application has been 
        made in accordance with this section, the alien--
                    (A) may not be removed; and
                    (B) shall be granted authorization to engage in 
                employment in the United States and be provided an 
                employment authorized endorsement or other appropriate 
                work permit for such purpose.

SEC. 648. ADMINISTRATIVE AND JUDICIAL REVIEW.

    (a) In General.--There shall be no administrative or judicial 
review of a determination respecting an application for blue card 
status under section 643 or adjustment of status under section 645 
except in accordance with this section.
    (b) Administrative Review.--
            (1) Single level of administrative appellate review.--The 
        Secretary shall establish an appellate authority to provide for 
        a single level of administrative appellate review of such a 
        determination.
            (2) Standard for review.--Such administrative appellate 
        review shall be based solely upon the administrative record 
        established at the time of the determination on the application 
        and upon such additional or newly discovered evidence as may 
        not have been available at the time of the determination.
    (c) Judicial Review.--
            (1) Limitation to review of removal.--There shall be 
        judicial review of such a determination only in the judicial 
        review of an order of removal under section 242 of the 
        Immigration and Nationality Act (8 U.S.C. 1252).
            (2) Standard for judicial review.--Such judicial review 
        shall be based solely upon the administrative record 
        established at the time of the review by the appellate 
        authority and the findings of fact and determinations contained 
        in such record shall be conclusive unless the applicant can 
        establish abuse of discretion or that the findings are directly 
        contrary to clear and convincing facts contained in the record 
        considered as a whole.

SEC. 649. USE OF INFORMATION.

    Beginning not later than the first day of the application period 
described in section 643(a)(2), the Secretary, in cooperation with 
qualified designated entities (as that term is defined in section 
646(b)), shall broadly disseminate information respecting the benefits 
that aliens may receive under this subtitle and the requirements that 
an alien is required to meet to receive such benefits.

SEC. 650. REGULATIONS, EFFECTIVE DATE, AUTHORIZATION OF APPROPRIATIONS.

    (a) Regulations.--The Secretary shall issue regulations to 
implement this subtitle not later than the first day of the seventh 
month that begins after the date of enactment of this Act.
    (b) Effective Date.--This subtitle shall take effect on the date 
that regulations required by subsection (a) are issued, regardless of 
whether such regulations are issued on an interim basis or on any other 
basis.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary such sums as may be necessary to 
implement this subtitle, including any sums needed for costs associated 
with the initiation of such implementation, for fiscal years 2007 and 
2008.

          Subchapter B--Correction of Social Security Records

SEC. 651. CORRECTION OF SOCIAL SECURITY RECORDS.

    (a) In General.--Section 208(e)(1) of the Social Security Act (42 
U.S.C. 408(e)(1)) is amended--
            (1) in subparagraph (B)(ii), by striking ``or'' at the end;
            (2) in subparagraph (C), by inserting ``or'' at the end;
            (3) by inserting after subparagraph (C) the following:
            ``(D) who is granted blue card status under the 
        Agricultural Job Opportunity, Benefits, and Security Act of 
        2007,''; and
            (4) by striking ``1990.'' and inserting ``1990, or in the 
        case of an alien described in subparagraph (D), if such conduct 
        is alleged to have occurred before the date on which the alien 
        was granted blue card status.''.
    (b) Effective Date.--The amendments made by subsection (a) shall 
take effect on the first day of the seventh month that begins after the 
date of the enactment of this Act.

                CHAPTER 2--REFORM OF H-2A WORKER PROGRAM

SEC. 652. AMENDMENT TO THE IMMIGRATION AND NATIONALITY ACT.

    (a) In General.--Title II of the Immigration and Nationality Act (8 
U.S.C. 1151 et seq.) is amended by striking section 218 and inserting 
the following:

``SEC. 218. H-2A EMPLOYER APPLICATIONS.

    ``(a) Applications to the Secretary of Labor.--
            ``(1) In general.--No alien may be admitted to the United 
        States as an H-2A worker, or otherwise provided status as an H-
        2A worker, unless the employer has filed with the Secretary of 
        Labor an application containing--
                    ``(A) the assurances described in subsection (b);
                    ``(B) a description of the nature and location of 
                the work to be performed;
                    ``(C) the anticipated period (expected beginning 
                and ending dates) for which the workers will be needed; 
                and
                    ``(D) the number of job opportunities in which the 
                employer seeks to employ the workers.
            ``(2) Accompanied by job offer.--Each application filed 
        under paragraph (1) shall be accompanied by a copy of the job 
        offer describing the wages and other terms and conditions of 
        employment and the bona fide occupational qualifications that 
        shall be possessed by a worker to be employed in the job 
        opportunity in question.
    ``(b) Assurances for Inclusion in Applications.--The assurances 
referred to in subsection (a)(1) are the following:
            ``(1) Job opportunities covered by collective bargaining 
        agreements.--With respect to a job opportunity that is covered 
        under a collective bargaining agreement:
                    ``(A) Union contract described.--The job 
                opportunity is covered by a union contract which was 
                negotiated at arm's length between a bona fide union 
                and the employer.
                    ``(B) Strike or lockout.--The specific job 
                opportunity for which the employer is requesting an H-
                2A worker is not vacant because the former occupant is 
                on strike or being locked out in the course of a labor 
                dispute.
                    ``(C) Notification of bargaining representatives.--
                The employer, at the time of filing the application, 
                has provided notice of the filing under this paragraph 
                to the bargaining representative of the employer's 
                employees in the occupational classification at the 
                place or places of employment for which aliens are 
                sought.
                    ``(D) Temporary or seasonal job opportunities.--The 
                job opportunity is temporary or seasonal.
                    ``(E) Offers to united states workers.--The 
                employer has offered or will offer the job to any 
                eligible United States worker who applies and is 
                equally or better qualified for the job for which the 
                nonimmigrant is, or the nonimmigrants are, sought and 
                who will be available at the time and place of need.
                    ``(F) Provision of insurance.--If the job 
                opportunity is not covered by the State workers' 
                compensation law, the employer will provide, at no cost 
                to the worker, insurance covering injury and disease 
                arising out of, and in the course of, the worker's 
                employment which will provide benefits at least equal 
                to those provided under the State's workers' 
                compensation law for comparable employment.
            ``(2) Job opportunities not covered by collective 
        bargaining agreements.--With respect to a job opportunity that 
        is not covered under a collective bargaining agreement:
                    ``(A) Strike or lockout.--The specific job 
                opportunity for which the employer has applied for an 
                H-2A worker is not vacant because the former occupant 
                is on strike or being locked out in the course of a 
                labor dispute.
                    ``(B) Temporary or seasonal job opportunities.--The 
                job opportunity is temporary or seasonal.
                    ``(C) Benefit, wage, and working conditions.--The 
                employer will provide, at a minimum, the benefits, 
                wages, and working conditions required by section 218A 
                to all workers employed in the job opportunities for 
                which the employer has applied for an H-2A worker under 
                subsection (a) and to all other workers in the same 
                occupation at the place of employment.
                    ``(D) Nondisplacement of united states workers.--
                The employer did not displace and will not displace a 
                United States worker employed by the employer during 
                the period of employment and for a period of 30 days 
                preceding the period of employment in the occupation at 
                the place of employment for which the employer has 
                applied for an H-2A worker.
                    ``(E) Requirements for placement of the 
                nonimmigrant with other employers.--The employer will 
                not place the nonimmigrant with another employer 
                unless--
                            ``(i) the nonimmigrant performs duties in 
                        whole or in part at 1 or more worksites owned, 
                        operated, or controlled by such other employer;
                            ``(ii) there are indicia of an employment 
                        relationship between the nonimmigrant and such 
                        other employer; and
                            ``(iii) the employer has inquired of the 
                        other employer as to whether, and has no actual 
                        knowledge or notice that, during the period of 
                        employment and for a period of 30 days 
                        preceding the period of employment, the other 
                        employer has displaced or intends to displace a 
                        United States worker employed by the other 
                        employer in the occupation at the place of 
                        employment for which the employer seeks 
                        approval to employ H-2A workers.
                    ``(F) Statement of liability.--The application form 
                shall include a clear statement explaining the 
                liability under subparagraph (E) of an employer if the 
                other employer described in such subparagraph displaces 
                a United States worker as described in such 
                subparagraph.
                    ``(G) Provision of insurance.--If the job 
                opportunity is not covered by the State workers' 
                compensation law, the employer will provide, at no cost 
                to the worker, insurance covering injury and disease 
                arising out of and in the course of the worker's 
                employment which will provide benefits at least equal 
                to those provided under the State's workers' 
                compensation law for comparable employment.
                    ``(H) Employment of united states workers.--
                            ``(i) Recruitment.--The employer has taken 
                        or will take the following steps to recruit 
                        United States workers for the job opportunities 
                        for which the H-2A nonimmigrant is, or H-2A 
                        nonimmigrants are, sought:
                                    ``(I) Contacting former workers.--
                                The employer shall make reasonable 
                                efforts through the sending of a letter 
                                by United States Postal Service mail, 
                                or otherwise, to contact any United 
                                States worker the employer employed 
                                during the previous season in the 
                                occupation at the place of intended 
                                employment for which the employer is 
                                applying for workers and has made the 
                                availability of the employer's job 
                                opportunities in the occupation at the 
                                place of intended employment known to 
                                such previous workers, unless the 
                                worker was terminated from employment 
                                by the employer for a lawful job-
                                related reason or abandoned the job 
                                before the worker completed the period 
                                of employment of the job opportunity 
                                for which the worker was hired.
                                    ``(II) Filing a job offer with the 
                                local office of the state employment 
                                security agency.--Not later than 28 
                                days before the date on which the 
                                employer desires to employ an H-2A 
                                worker in a temporary or seasonal 
                                agricultural job opportunity, the 
                                employer shall submit a copy of the job 
                                offer described in subsection (a)(2) to 
                                the local office of the State 
                                employment security agency which serves 
                                the area of intended employment and 
                                authorize the posting of the job 
                                opportunity on `America's Job Bank' or 
                                other electronic job registry, except 
                                that nothing in this subclause shall 
                                require the employer to file an 
                                interstate job order under section 653 
                                of title 20, Code of Federal 
                                Regulations.
                                    ``(III) Advertising of job 
                                opportunities.--Not later than 14 days 
                                before the date on which the employer 
                                desires to employ an H-2A worker in a 
                                temporary or seasonal agricultural job 
                                opportunity, the employer shall 
                                advertise the availability of the job 
                                opportunities for which the employer is 
                                seeking workers in a publication in the 
                                local labor market that is likely to be 
                                patronized by potential farm workers.
                                    ``(IV) Emergency procedures.--The 
                                Secretary of Labor shall, by 
                                regulation, provide a procedure for 
                                acceptance and approval of applications 
                                in which the employer has not complied 
                                with the provisions of this 
                                subparagraph because the employer's 
                                need for H-2A workers could not 
                                reasonably have been foreseen.
                            ``(ii) Job offers.--The employer has 
                        offered or will offer the job to any eligible 
                        United States worker who applies and is equally 
                        or better qualified for the job for which the 
                        nonimmigrant is, or nonimmigrants are, sought 
                        and who will be available at the time and place 
                        of need.
                            ``(iii) Period of employment.--The employer 
                        will provide employment to any qualified United 
                        States worker who applies to the employer 
                        during the period beginning on the date on 
                        which the H-2A worker departs for the 
                        employer's place of employment and ending on 
                        the date on which 50 percent of the period of 
                        employment for which the H-2A worker who is in 
                        the job was hired has elapsed, subject to the 
                        following requirements:
                                    ``(I) Prohibition.--No person or 
                                entity shall willfully and knowingly 
                                withhold United States workers before 
                                the arrival of H-2A workers in order to 
                                force the hiring of United States 
                                workers under this clause.
                                    ``(II) Complaints.--Upon receipt of 
                                a complaint by an employer that a 
                                violation of subclause (I) has 
                                occurred, the Secretary of Labor shall 
                                immediately investigate. The Secretary 
                                of Labor shall, within 36 hours of the 
                                receipt of the complaint, issue 
                                findings concerning the alleged 
                                violation. If the Secretary of Labor 
                                finds that a violation has occurred, 
                                the Secretary of Labor shall 
                                immediately suspend the application of 
                                this clause with respect to that 
                                certification for that date of need.
                                    ``(III) Placement of united states 
                                workers.--Before referring a United 
                                States worker to an employer during the 
                                period described in the matter 
                                preceding subclause (I), the Secretary 
                                of Labor shall make all reasonable 
                                efforts to place the United States 
                                worker in an open job acceptable to the 
                                worker, if there are other job offers 
                                pending with the job service that offer 
                                similar job opportunities in the area 
                                of intended employment.
                            ``(iv) Statutory construction.--Nothing in 
                        this subparagraph shall be construed to 
                        prohibit an employer from using such legitimate 
                        selection criteria relevant to the type of job 
                        that are normal or customary to the type of job 
                        involved so long as such criteria are not 
                        applied in a discriminatory manner.
    ``(c) Applications by Associations on Behalf of Employer Members.--
            ``(1) In general.--An agricultural association may file an 
        application under subsection (a) on behalf of 1 or more of its 
        employer members that the association certifies in its 
        application has or have agreed in writing to comply with the 
        requirements of this section and sections 218A, 218B, and 218C.
            ``(2) Treatment of associations acting as employers.--If an 
        association filing an application under paragraph (1) is a 
        joint or sole employer of the temporary or seasonal 
        agricultural workers requested on the application, the 
        certifications granted under subsection (e)(2)(B) to the 
        association may be used for the certified job opportunities of 
        any of its producer members named on the application, and such 
        workers may be transferred among such producer members to 
        perform the agricultural services of a temporary or seasonal 
        nature for which the certifications were granted.
    ``(d) Withdrawal of Applications.--
            ``(1) In general.--An employer may withdraw an application 
        filed pursuant to subsection (a), except that if the employer 
        is an agricultural association, the association may withdraw an 
        application filed pursuant to subsection (a) with respect to 1 
        or more of its members. To withdraw an application, the 
        employer or association shall notify the Secretary of Labor in 
        writing, and the Secretary of Labor shall acknowledge in 
        writing the receipt of such withdrawal notice. An employer who 
        withdraws an application under subsection (a), or on whose 
        behalf an application is withdrawn, is relieved of the 
        obligations undertaken in the application.
            ``(2) Limitation.--An application may not be withdrawn 
        while any alien provided status under section 
        101(a)(15)(H)(ii)(a) pursuant to such application is employed 
        by the employer.
            ``(3) Obligations under other statutes.--Any obligation 
        incurred by an employer under any other law or regulation as a 
        result of the recruitment of United States workers or H-2A 
        workers under an offer of terms and conditions of employment 
        required as a result of making an application under subsection 
        (a) is unaffected by withdrawal of such application.
    ``(e) Review and Approval of Applications.--
            ``(1) Responsibility of employers.--The employer shall make 
        available for public examination, within 1 working day after 
        the date on which an application under subsection (a) is filed, 
        at the employer's principal place of business or worksite, a 
        copy of each such application (and such accompanying documents 
        as are necessary).
            ``(2) Responsibility of the secretary of labor.--
                    ``(A) Compilation of list.--The Secretary of Labor 
                shall compile, on a current basis, a list (by employer 
                and by occupational classification) of the applications 
                filed under subsection (a). Such list shall include the 
                wage rate, number of workers sought, period of intended 
                employment, and date of need. The Secretary of Labor 
                shall make such list available for examination in the 
                District of Columbia.
                    ``(B) Review of applications.--The Secretary of 
                Labor shall review such an application only for 
                completeness and obvious inaccuracies. Unless the 
                Secretary of Labor finds that the application is 
                incomplete or obviously inaccurate, the Secretary of 
                Labor shall certify that the intending employer has 
                filed with the Secretary of Labor an application as 
                described in subsection (a). Such certification shall 
                be provided within 7 days of the filing of the 
                application.''

``SEC. 218A. H-2A EMPLOYMENT REQUIREMENTS.

    ``(a) Preferential Treatment of Aliens Prohibited.--Employers 
seeking to hire United States workers shall offer the United States 
workers no less than the same benefits, wages, and working conditions 
that the employer is offering, intends to offer, or will provide to H-
2A workers. Conversely, no job offer may impose on United States 
workers any restrictions or obligations which will not be imposed on 
the employer's H-2A workers.
    ``(b) Minimum Benefits, Wages, and Working Conditions.--Except in 
cases where higher benefits, wages, or working conditions are required 
by the provisions of subsection (a), in order to protect similarly 
employed United States workers from adverse effects with respect to 
benefits, wages, and working conditions, every job offer which shall 
accompany an application under section 218(b)(2) shall include each of 
the following benefit, wage, and working condition provisions:
            ``(1) Requirement to provide housing or a housing 
        allowance.--
                    ``(A) In general.--An employer applying under 
                section 218(a) for H-2A workers shall offer to provide 
                housing at no cost to all workers in job opportunities 
                for which the employer has applied under that section 
                and to all other workers in the same occupation at the 
                place of employment, whose place of residence is beyond 
                normal commuting distance.
                    ``(B) Type of housing.--In complying with 
                subparagraph (A), an employer may, at the employer's 
                election, provide housing that meets applicable Federal 
                standards for temporary labor camps or secure housing 
                that meets applicable local standards for rental or 
                public accommodation housing or other substantially 
                similar class of habitation, or in the absence of 
                applicable local standards, State standards for rental 
                or public accommodation housing or other substantially 
                similar class of habitation. In the absence of 
                applicable local or State standards, Federal temporary 
                labor camp standards shall apply.
                    ``(C) Family housing.--If it is the prevailing 
                practice in the occupation and area of intended 
                employment to provide family housing, family housing 
                shall be provided to workers with families who request 
                it.
                    ``(D) Workers engaged in the range production of 
                livestock.--The Secretary of Labor shall issue 
                regulations that address the specific requirements for 
                the provision of housing to workers engaged in the 
                range production of livestock.
                    ``(E) Limitation.--Nothing in this paragraph shall 
                be construed to require an employer to provide or 
                secure housing for persons who were not entitled to 
                such housing under the temporary labor certification 
                regulations in effect on June 1, 1986.
                    ``(F) Charges for housing.--
                            ``(i) Charges for public housing.--If 
                        public housing provided for migrant 
                        agricultural workers under the auspices of a 
                        local, county, or State government is secured 
                        by an employer, and use of the public housing 
                        unit normally requires charges from migrant 
                        workers, such charges shall be paid by the 
                        employer directly to the appropriate individual 
                        or entity affiliated with the housing's 
                        management.
                            ``(ii) Deposit charges.--Charges in the 
                        form of deposits for bedding or other similar 
                        incidentals related to housing shall not be 
                        levied upon workers by employers who provide 
                        housing for their workers. An employer may 
                        require a worker found to have been responsible 
                        for damage to such housing which is not the 
                        result of normal wear and tear related to 
                        habitation to reimburse the employer for the 
                        reasonable cost of repair of such damage.
                    ``(G) Housing allowance as alternative.--
                            ``(i) In general.--If the requirement set 
                        out in clause (ii) is satisfied, the employer 
                        may provide a reasonable housing allowance 
                        instead of offering housing under subparagraph 
                        (A). Upon the request of a worker seeking 
                        assistance in locating housing, the employer 
                        shall make a good faith effort to assist the 
                        worker in identifying and locating housing in 
                        the area of intended employment. An employer 
                        who offers a housing allowance to a worker, or 
                        assists a worker in locating housing which the 
                        worker occupies, pursuant to this clause shall 
                        not be deemed a housing provider under section 
                        203 of the Migrant and Seasonal Agricultural 
                        Worker Protection Act (29 U.S.C. 1823) solely 
                        by virtue of providing such housing allowance. 
                        No housing allowance may be used for housing 
                        which is owned or controlled by the employer.
                            ``(ii) Certification.--The requirement of 
                        this clause is satisfied if the Governor of the 
                        State certifies to the Secretary of Labor that 
                        there is adequate housing available in the area 
                        of intended employment for migrant farm workers 
                        and H-2A workers who are seeking temporary 
                        housing while employed in agricultural work. 
                        Such certification shall expire after 3 years 
                        unless renewed by the Governor of the State.
                            ``(iii) Amount of allowance.--
                                    ``(I) Nonmetropolitan counties.--If 
                                the place of employment of the workers 
                                provided an allowance under this 
                                subparagraph is a nonmetropolitan 
                                county, the amount of the housing 
                                allowance under this subparagraph shall 
                                be equal to the statewide average fair 
                                market rental for existing housing for 
                                nonmetropolitan counties for the State, 
                                as established by the Secretary of 
                                Housing and Urban Development pursuant 
                                to section 8(c) of the United States 
                                Housing Act of 1937 (42 U.S.C. 
                                1437f(c)), based on a 2-bedroom 
                                dwelling unit and an assumption of 2 
                                persons per bedroom.
                                    ``(II) Metropolitan counties.--If 
                                the place of employment of the workers 
                                provided an allowance under this 
                                paragraph is in a metropolitan county, 
                                the amount of the housing allowance 
                                under this subparagraph shall be equal 
                                to the statewide average fair market 
                                rental for existing housing for 
                                metropolitan counties for the State, as 
                                established by the Secretary of Housing 
                                and Urban Development pursuant to 
                                section 8(c) of the United States 
                                Housing Act of 1937 (42 U.S.C. 
                                1437f(c)), based on a 2-bedroom 
                                dwelling unit and an assumption of 2 
                                persons per bedroom.
            ``(2) Reimbursement of transportation.--
                    ``(A) To place of employment.--A worker who 
                completes 50 percent of the period of employment of the 
                job opportunity for which the worker was hired shall be 
                reimbursed by the employer for the cost of the worker's 
                transportation and subsistence from the place from 
                which the worker came to work for the employer (or 
                place of last employment, if the worker traveled from 
                such place) to the place of employment.
                    ``(B) From place of employment.--A worker who 
                completes the period of employment for the job 
                opportunity involved shall be reimbursed by the 
                employer for the cost of the worker's transportation 
                and subsistence from the place of employment to the 
                place from which the worker, disregarding intervening 
                employment, came to work for the employer, or to the 
                place of next employment, if the worker has contracted 
                with a subsequent employer who has not agreed to 
                provide or pay for the worker's transportation and 
                subsistence to such subsequent employer's place of 
                employment.
                    ``(C) Limitation.--
                            ``(i) Amount of reimbursement.--Except as 
                        provided in clause (ii), the amount of 
                        reimbursement provided under subparagraph (A) 
                        or (B) to a worker or alien shall not exceed 
                        the lesser of--
                                    ``(I) the actual cost to the worker 
                                or alien of the transportation and 
                                subsistence involved; or
                                    ``(II) the most economical and 
                                reasonable common carrier 
                                transportation charges and subsistence 
                                costs for the distance involved.
                            ``(ii) Distance traveled.--No reimbursement 
                        under subparagraph (A) or (B) shall be required 
                        if the distance traveled is 100 miles or less, 
                        or the worker is not residing in employer-
                        provided housing or housing secured through an 
                        allowance as provided in paragraph (1)(G).
                    ``(D) Early termination.--If the worker is laid off 
                or employment is terminated for contract impossibility 
                (as described in paragraph (4)(D)) before the 
                anticipated ending date of employment, the employer 
                shall provide the transportation and subsistence 
                required by subparagraph (B) and, notwithstanding 
                whether the worker has completed 50 percent of the 
                period of employment, shall provide the transportation 
                reimbursement required by subparagraph (A).
                    ``(E) Transportation between living quarters and 
                worksite.--The employer shall provide transportation 
                between the worker's living quarters and the employer's 
                worksite without cost to the worker, and such 
                transportation will be in accordance with applicable 
                laws and regulations.
            ``(3) Required wages.--
                    ``(A) In general.--An employer applying for workers 
                under section 218(a) shall offer to pay, and shall pay, 
                all workers in the occupation for which the employer 
                has applied for workers, not less (and is not required 
                to pay more) than the greater of the prevailing wage in 
                the occupation in the area of intended employment or 
                the adverse effect wage rate. No worker shall be paid 
                less than the greater of the hourly wage prescribed 
                under section 6(a)(1) of the Fair Labor Standards Act 
                of 1938 (29 U.S.C. 206(a)(1)) or the applicable State 
                minimum wage.
                    ``(B) Limitation.--Effective on the date of the 
                enactment of the Agricultural Job Opportunities, 
                Benefits, and Security Act of 2007 and continuing for 3 
                years thereafter, no adverse effect wage rate for a 
                State may be more than the adverse effect wage rate for 
                that State in effect on January 1, 2003, as established 
                by section 655.107 of title 20, Code of Federal 
                Regulations.
                    ``(C) Required wages after 3-year freeze.--
                            ``(i) First adjustment.--If Congress does 
                        not set a new wage standard applicable to this 
                        section before the first March 1 that is not 
                        less than 3 years after the date of enactment 
                        of this section, the adverse effect wage rate 
                        for each State beginning on such March 1 shall 
                        be the wage rate that would have resulted if 
                        the adverse effect wage rate in effect on 
                        January 1, 2003, had been annually adjusted, 
                        beginning on March 1, 2006, by the lesser of--
                                    ``(I) the 12-month percentage 
                                change in the Consumer Price Index for 
                                All Urban Consumers between December of 
                                the second preceding year and December 
                                of the preceding year; and
                                    ``(II) 4 percent.
                            ``(ii) Subsequent annual adjustments.--
                        Beginning on the first March 1 that is not less 
                        than 4 years after the date of enactment of 
                        this section, and each March 1 thereafter, the 
                        adverse effect wage rate then in effect for 
                        each State shall be adjusted by the lesser of--
                                    ``(I) the 12-month percentage 
                                change in the Consumer Price Index for 
                                All Urban Consumers between December of 
                                the second preceding year and December 
                                of the preceding year; and
                                    ``(II) 4 percent.
                    ``(D) Deductions.--The employer shall make only 
                those deductions from the worker's wages that are 
                authorized by law or are reasonable and customary in 
                the occupation and area of employment. The job offer 
                shall specify all deductions not required by law which 
                the employer will make from the worker's wages.
                    ``(E) Frequency of pay.--The employer shall pay the 
                worker not less frequently than twice monthly, or in 
                accordance with the prevailing practice in the area of 
                employment, whichever is more frequent.
                    ``(F) Hours and earnings statements.--The employer 
                shall furnish to the worker, on or before each payday, 
                in 1 or more written statements--
                            ``(i) the worker's total earnings for the 
                        pay period;
                            ``(ii) the worker's hourly rate of pay, 
                        piece rate of pay, or both;
                            ``(iii) the hours of employment which have 
                        been offered to the worker (broken out by hours 
                        offered in accordance with and over and above 
                        the \3/4\ guarantee described in paragraph (4);
                            ``(iv) the hours actually worked by the 
                        worker;
                            ``(v) an itemization of the deductions made 
                        from the worker's wages; and
                            ``(vi) if piece rates of pay are used, the 
                        units produced daily.
                    ``(G) Report on wage protections.--Not later than 
                December 31, 2009, the Comptroller General of the 
                United States shall prepare and transmit to the 
                Secretary of Labor, the Committee on the Judiciary of 
                the Senate, and Committee on the Judiciary of the House 
                of Representatives, a report that addresses--
                            ``(i) whether the employment of H-2A or 
                        unauthorized aliens in the United States 
                        agricultural workforce has depressed United 
                        States farm worker wages below the levels that 
                        would otherwise have prevailed if alien farm 
                        workers had not been employed in the United 
                        States;
                            ``(ii) whether an adverse effect wage rate 
                        is necessary to prevent wages of United States 
                        farm workers in occupations in which H-2A 
                        workers are employed from falling below the 
                        wage levels that would have prevailed in the 
                        absence of the employment of H-2A workers in 
                        those occupations;
                            ``(iii) whether alternative wage standards, 
                        such as a prevailing wage standard, would be 
                        sufficient to prevent wages in occupations in 
                        which H-2A workers are employed from falling 
                        below the wage level that would have prevailed 
                        in the absence of H-2A employment;
                            ``(iv) whether any changes are warranted in 
                        the current methodologies for calculating the 
                        adverse effect wage rate and the prevailing 
                        wage; and
                            ``(v) recommendations for future wage 
                        protection under this section.
                    ``(H) Commission on wage standards.--
                            ``(i) Establishment.--There is established 
                        the Commission on Agricultural Wage Standards 
                        under the H-2A program (in this subparagraph 
                        referred to as the `Commission').
                            ``(ii) Composition.--The Commission shall 
                        consist of 10 members as follows:
                                    ``(I) Four representatives of 
                                agricultural employers and 1 
                                representative of the Department of 
                                Agriculture, each appointed by the 
                                Secretary of Agriculture.
                                    ``(II) Four representatives of 
                                agricultural workers and 1 
                                representative of the Department of 
                                Labor, each appointed by the Secretary 
                                of Labor.
                            ``(iii) Functions.--The Commission shall 
                        conduct a study that shall address--
                                    ``(I) whether the employment of H-
                                2A or unauthorized aliens in the United 
                                States agricultural workforce has 
                                depressed United States farm worker 
                                wages below the levels that would 
                                otherwise have prevailed if alien farm 
                                workers had not been employed in the 
                                United States;
                                    ``(II) whether an adverse effect 
                                wage rate is necessary to prevent wages 
                                of United States farm workers in 
                                occupations in which H-2A workers are 
                                employed from falling below the wage 
                                levels that would have prevailed in the 
                                absence of the employment of H-2A 
                                workers in those occupations;
                                    ``(III) whether alternative wage 
                                standards, such as a prevailing wage 
                                standard, would be sufficient to 
                                prevent wages in occupations in which 
                                H-2A workers are employed from falling 
                                below the wage level that would have 
                                prevailed in the absence of H-2A 
                                employment;
                                    ``(IV) whether any changes are 
                                warranted in the current methodologies 
                                for calculating the adverse effect wage 
                                rate and the prevailing wage rate; and
                                    ``(V) recommendations for future 
                                wage protection under this section.
                            ``(iv) Final report.--Not later than 
                        December 31, 2009, the Commission shall submit 
                        a report to the Congress setting forth the 
                        findings of the study conducted under clause 
                        (iii).
                            ``(v) Termination date.--The Commission 
                        shall terminate upon submitting its final 
                        report.
            ``(4) Guarantee of employment.--
                    ``(A) Offer to worker.--The employer shall 
                guarantee to offer the worker employment for the hourly 
                equivalent of at least \3/4\ of the work days of the 
                total period of employment, beginning with the first 
                work day after the arrival of the worker at the place 
                of employment and ending on the expiration date 
                specified in the job offer. For purposes of this 
                subparagraph, the hourly equivalent means the number of 
                hours in the work days as stated in the job offer and 
                shall exclude the worker's Sabbath and Federal 
                holidays. If the employer affords the United States or 
                H-2A worker less employment than that required under 
                this paragraph, the employer shall pay such worker the 
                amount which the worker would have earned had the 
                worker, in fact, worked for the guaranteed number of 
                hours.
                    ``(B) Failure to work.--Any hours which the worker 
                fails to work, up to a maximum of the number of hours 
                specified in the job offer for a work day, when the 
                worker has been offered an opportunity to do so, and 
                all hours of work actually performed (including 
                voluntary work in excess of the number of hours 
                specified in the job offer in a work day, on the 
                worker's Sabbath, or on Federal holidays) may be 
                counted by the employer in calculating whether the 
                period of guaranteed employment has been met.
                    ``(C) Abandonment of employment, termination for 
                cause.--If the worker voluntarily abandons employment 
                before the end of the contract period, or is terminated 
                for cause, the worker is not entitled to the `\3/4\ 
                guarantee' described in subparagraph (A).
                    ``(D) Contract impossibility.--If, before the 
                expiration of the period of employment specified in the 
                job offer, the services of the worker are no longer 
                required for reasons beyond the control of the employer 
                due to any form of natural disaster, including a flood, 
                hurricane, freeze, earthquake, fire, drought, plant or 
                animal disease or pest infestation, or regulatory 
                drought, before the guarantee in subparagraph (A) is 
                fulfilled, the employer may terminate the worker's 
                employment. In the event of such termination, the 
                employer shall fulfill the employment guarantee in 
                subparagraph (A) for the work days that have elapsed 
                from the first work day after the arrival of the worker 
                to the termination of employment. In such cases, the 
                employer will make efforts to transfer the United 
                States worker to other comparable employment acceptable 
                to the worker. If such transfer is not effected, the 
                employer shall provide the return transportation 
                required in paragraph (2)(D).
            ``(5) Motor vehicle safety.--
                    ``(A) Mode of transportation subject to coverage.--
                            ``(i) In general.--Except as provided in 
                        clauses (iii) and (iv), this subsection applies 
                        to any H-2A employer that uses or causes to be 
                        used any vehicle to transport an H-2A worker 
                        within the United States.
                            ``(ii) Defined term.--In this paragraph, 
                        the term `uses or causes to be used'--
                                    ``(I) applies only to 
                                transportation provided by an H-2A 
                                employer to an H-2A worker, or by a 
                                farm labor contractor to an H-2A worker 
                                at the request or direction of an H-2A 
                                employer; and
                                    ``(II) does not apply to--
    ``(aa) transportation provided, or transportation arrangements 
    made, by an H-2A worker, unless the employer specifically requested 
    or arranged such transportation; or
    ``(bb) car pooling arrangements made by H-2A workers themselves, 
    using 1 of the workers' own vehicles, unless specifically requested 
    by the employer directly or through a farm labor contractor.
                            ``(iii) Clarification.--Providing a job 
                        offer to an H-2A worker that causes the worker 
                        to travel to or from the place of employment, 
                        or the payment or reimbursement of the 
                        transportation costs of an H-2A worker by an H-
                        2A employer, shall not constitute an 
                        arrangement of, or participation in, such 
                        transportation.
                            ``(iv) Agricultural machinery and equipment 
                        excluded.--This subsection does not apply to 
                        the transportation of an H-2A worker on a 
                        tractor, combine, harvester, picker, or other 
                        similar machinery or equipment while such 
                        worker is actually engaged in the planting, 
                        cultivating, or harvesting of agricultural 
                        commodities or the care of livestock or poultry 
                        or engaged in transportation incidental 
                        thereto.
                            ``(v) Common carriers excluded.--This 
                        subsection does not apply to common carrier 
                        motor vehicle transportation in which the 
                        provider holds itself out to the general public 
                        as engaging in the transportation of passengers 
                        for hire and holds a valid certification of 
                        authorization for such purposes from an 
                        appropriate Federal, State, or local agency.
                    ``(B) Applicability of standards, licensing, and 
                insurance requirements.--
                            ``(i) In general.--When using, or causing 
                        to be used, any vehicle for the purpose of 
                        providing transportation to which this 
                        subparagraph applies, each employer shall--
                                    ``(I) ensure that each such vehicle 
                                conforms to the standards prescribed by 
                                the Secretary of Labor under section 
                                401(b) of the Migrant and Seasonal 
                                Agricultural Worker Protection Act (29 
                                U.S.C. 1841(b)) and other applicable 
                                Federal and State safety standards;
                                    ``(II) ensure that each driver has 
                                a valid and appropriate license, as 
                                provided by State law, to operate the 
                                vehicle; and
                                    ``(III) have an insurance policy or 
                                a liability bond that is in effect 
                                which insures the employer against 
                                liability for damage to persons or 
                                property arising from the ownership, 
                                operation, or causing to be operated, 
                                of any vehicle used to transport any H-
                                2A worker.
                            ``(ii) Amount of insurance required.--The 
                        level of insurance required shall be determined 
                        by the Secretary of Labor pursuant to 
                        regulations to be issued under this subsection.
                            ``(iii) Effect of workers' compensation 
                        coverage.--If the employer of any H-2A worker 
                        provides workers' compensation coverage for 
                        such worker in the case of bodily injury or 
                        death as provided by State law, the following 
                        adjustments in the requirements of subparagraph 
                        (B)(i)(III) relating to having an insurance 
                        policy or liability bond apply:
                                    ``(I) No insurance policy or 
                                liability bond shall be required of the 
                                employer, if such workers are 
                                transported only under circumstances 
                                for which there is coverage under such 
                                State law.
                                    ``(II) An insurance policy or 
                                liability bond shall be required of the 
                                employer for circumstances under which 
                                coverage for the transportation of such 
                                workers is not provided under such 
                                State law.
    ``(c) Compliance With Labor Laws.--An employer shall assure that, 
except as otherwise provided in this section, the employer will comply 
with all applicable Federal, State, and local labor laws, including 
laws affecting migrant and seasonal agricultural workers, with respect 
to all United States workers and alien workers employed by the 
employer, except that a violation of this assurance shall not 
constitute a violation of the Migrant and Seasonal Agricultural Worker 
Protection Act (29 U.S.C. 1801 et seq.).
    ``(d) Copy of Job Offer.--The employer shall provide to the worker, 
not later than the day the work commences, a copy of the employer's 
application and job offer described in section 218(a), or, if the 
employer will require the worker to enter into a separate employment 
contract covering the employment in question, such separate employment 
contract.
    ``(e) Range Production of Livestock.--Nothing in this section, 
section 218, or section 218B shall preclude the Secretary of Labor and 
the Secretary from continuing to apply special procedures and 
requirements to the admission and employment of aliens in occupations 
involving the range production of livestock.

``SEC. 218B. PROCEDURE FOR ADMISSION AND EXTENSION OF STAY OF H-2A 
                    WORKERS.

    ``(a) Petitioning for Admission.--An employer, or an association 
acting as an agent or joint employer for its members, that seeks the 
admission into the United States of an H-2A worker may file a petition 
with the Secretary. The petition shall be accompanied by an accepted 
and currently valid certification provided by the Secretary of Labor 
under section 218(e)(2)(B) covering the petitioner.
    ``(b) Expedited Adjudication by the Secretary.--The Secretary shall 
establish a procedure for expedited adjudication of petitions filed 
under subsection (a) and within 7 working days shall, by fax, cable, or 
other means assuring expedited delivery, transmit a copy of notice of 
action on the petition to the petitioner and, in the case of approved 
petitions, to the appropriate immigration officer at the port of entry 
or United States consulate (as the case may be) where the petitioner 
has indicated that the alien beneficiary (or beneficiaries) will apply 
for a visa or admission to the United States.
    ``(c) Criteria for Admissibility.--
            ``(1) In general.--An H-2A worker shall be considered 
        admissible to the United States if the alien is otherwise 
        admissible under this section, section 218, and section 218A, 
        and the alien is not ineligible under paragraph (2).
            ``(2) Disqualification.--An alien shall be considered 
        inadmissible to the United States and ineligible for 
        nonimmigrant status under section 101(a)(15)(H)(ii)(a) if the 
        alien has, at any time during the past 5 years--
                    ``(A) violated a material provision of this 
                section, including the requirement to promptly depart 
                the United States when the alien's authorized period of 
                admission under this section has expired; or
                    ``(B) otherwise violated a term or condition of 
                admission into the United States as a nonimmigrant, 
                including overstaying the period of authorized 
                admission as such a nonimmigrant.
            ``(3) Waiver of ineligibility for unlawful presence.--
                    ``(A) In general.--An alien who has not previously 
                been admitted into the United States pursuant to this 
                section, and who is otherwise eligible for admission in 
                accordance with paragraphs (1) and (2), shall not be 
                deemed inadmissible by virtue of section 212(a)(9)(B). 
                If an alien described in the preceding sentence is 
                present in the United States, the alien may apply from 
                abroad for H-2A status, but may not be granted that 
                status in the United States.
                    ``(B) Maintenance of waiver.--An alien provided an 
                initial waiver of ineligibility pursuant to 
                subparagraph (A) shall remain eligible for such waiver 
                unless the alien violates the terms of this section or 
                again becomes ineligible under section 212(a)(9)(B) by 
                virtue of unlawful presence in the United States after 
                the date of the initial waiver of ineligibility 
                pursuant to subparagraph (A).
    ``(d) Period of Admission.--
            ``(1) In general.--The alien shall be admitted for the 
        period of employment in the application certified by the 
        Secretary of Labor pursuant to section 218(e)(2)(B), not to 
        exceed 10 months, supplemented by a period of not more than 1 
        week before the beginning of the period of employment for the 
        purpose of travel to the worksite and a period of 14 days 
        following the period of employment for the purpose of departure 
        or extension based on a subsequent offer of employment, except 
        that--
                    ``(A) the alien is not authorized to be employed 
                during such 14-day period except in the employment for 
                which the alien was previously authorized; and
                    ``(B) the total period of employment, including 
                such 14-day period, may not exceed 10 months.
            ``(2) Construction.--Nothing in this subsection shall limit 
        the authority of the Secretary to extend the stay of the alien 
        under any other provision of this Act.
    ``(e) Abandonment of Employment.--
            ``(1) In general.--An alien admitted or provided status 
        under section 101(a)(15)(H)(ii)(a) who abandons the employment 
        which was the basis for such admission or status shall be 
        considered to have failed to maintain nonimmigrant status as an 
        H-2A worker and shall depart the United States or be subject to 
        removal under section 237(a)(1)(C)(i).
            ``(2) Report by employer.--The employer, or association 
        acting as agent for the employer, shall notify the Secretary 
        not later than 7 days after an H-2A worker prematurely abandons 
        employment.
            ``(3) Removal by the secretary.--The Secretary shall 
        promptly remove from the United States any H-2A worker who 
        violates any term or condition of the worker's nonimmigrant 
        status.
            ``(4) Voluntary termination.--Notwithstanding paragraph 
        (1), an alien may voluntarily terminate his or her employment 
        if the alien promptly departs the United States upon 
        termination of such employment.
    ``(f) Replacement of Alien.--
            ``(1) In general.--Upon presentation of the notice to the 
        Secretary required by subsection (e)(2), the Secretary of State 
        shall promptly issue a visa to, and the Secretary shall admit 
        into the United States, an eligible alien designated by the 
        employer to replace an H-2A worker--
                    ``(A) who abandons or prematurely terminates 
                employment; or
                    ``(B) whose employment is terminated after a United 
                States worker is employed pursuant to section 
                218(b)(2)(H)(iii), if the United States worker 
                voluntarily departs before the end of the period of 
                intended employment or if the employment termination is 
                for a lawful job-related reason.
            ``(2) Construction.--Nothing in this subsection is intended 
        to limit any preference required to be accorded United States 
        workers under any other provision of this Act.
    ``(g) Identification Document.--
            ``(1) In general.--Each alien authorized to be admitted 
        under section 101(a)(15)(H)(ii)(a) shall be provided an 
        identification and employment eligibility document to verify 
        eligibility for employment in the United States and verify the 
        alien's identity.
            ``(2) Requirements.--No identification and employment 
        eligibility document may be issued which does not meet the 
        following requirements:
                    ``(A) The document shall be capable of reliably 
                determining whether--
                            ``(i) the individual with the 
                        identification and employment eligibility 
                        document whose eligibility is being verified is 
                        in fact eligible for employment;
                            ``(ii) the individual whose eligibility is 
                        being verified is claiming the identity of 
                        another person; and
                            ``(iii) the individual whose eligibility is 
                        being verified is authorized to be admitted 
                        into, and employed in, the United States as an 
                        H-2A worker.
                    ``(B) The document shall be in a form that is 
                resistant to counterfeiting and to tampering.
                    ``(C) The document shall--
                            ``(i) be compatible with other databases of 
                        the Secretary for the purpose of excluding 
                        aliens from benefits for which they are not 
                        eligible and determining whether the alien is 
                        unlawfully present in the United States; and
                            ``(ii) be compatible with law enforcement 
                        databases to determine if the alien has been 
                        convicted of criminal offenses.
    ``(h) Extension of Stay of H-2A Aliens in the United States.--
            ``(1) Extension of stay.--If an employer seeks approval to 
        employ an H-2A alien who is lawfully present in the United 
        States, the petition filed by the employer or an association 
        pursuant to subsection (a), shall request an extension of the 
        alien's stay and a change in the alien's employment.
            ``(2) Limitation on filing a petition for extension of 
        stay.--A petition may not be filed for an extension of an 
        alien's stay--
                    ``(A) for a period of more than 10 months; or
                    ``(B) to a date that is more than 3 years after the 
                date of the alien's last admission to the United States 
                under this section.
            ``(3) Work authorization upon filing a petition for 
        extension of stay.--
                    ``(A) In general.--An alien who is lawfully present 
                in the United States may commence the employment 
                described in a petition under paragraph (1) on the date 
                on which the petition is filed.
                    ``(B) Definition.--For purposes of subparagraph 
                (A), the term `file' means sending the petition by 
                certified mail via the United States Postal Service, 
                return receipt requested, or delivered by guaranteed 
                commercial delivery which will provide the employer 
                with a documented acknowledgment of the date of receipt 
                of the petition.
                    ``(C) Handling of petition.--The employer shall 
                provide a copy of the employer's petition to the alien, 
                who shall keep the petition with the alien's 
                identification and employment eligibility document as 
                evidence that the petition has been filed and that the 
                alien is authorized to work in the United States.
                    ``(D) Approval of petition.--Upon approval of a 
                petition for an extension of stay or change in the 
                alien's authorized employment, the Secretary shall 
                provide a new or updated employment eligibility 
                document to the alien indicating the new validity date, 
                after which the alien is not required to retain a copy 
                of the petition.
            ``(4) Limitation on employment authorization of aliens 
        without valid identification and employment eligibility 
        document.--An expired identification and employment eligibility 
        document, together with a copy of a petition for extension of 
        stay or change in the alien's authorized employment that 
        complies with the requirements of paragraph (1), shall 
        constitute a valid work authorization document for a period of 
        not more than 60 days beginning on the date on which such 
        petition is filed, after which time only a currently valid 
        identification and employment eligibility document shall be 
        acceptable.
            ``(5) Limitation on an individual's stay in status.--
                    ``(A) Maximum period.--The maximum continuous 
                period of authorized status as an H-2A worker 
                (including any extensions) is 3 years.
                    ``(B) Requirement to remain outside the united 
                states.--
                            ``(i) In general.--Subject to clause (ii), 
                        in the case of an alien outside the United 
                        States whose period of authorized status as an 
                        H-2A worker (including any extensions) has 
                        expired, the alien may not again apply for 
                        admission to the United States as an H-2A 
                        worker unless the alien has remained outside 
                        the United States for a continuous period equal 
                        to at least \1/5\ the duration of the alien's 
                        previous period of authorized status as an H-2A 
                        worker (including any extensions).
                            ``(ii) Exception.--Clause (i) shall not 
                        apply in the case of an alien if the alien's 
                        period of authorized status as an H-2A worker 
                        (including any extensions) was for a period of 
                        not more than 10 months and such alien has been 
                        outside the United States for at least 2 months 
                        during the 12 months preceding the date the 
                        alien again is applying for admission to the 
                        United States as an H-2A worker.
    ``(i) Special Rules for Aliens Employed as Sheepherders, Goat 
Herders, or Dairy Workers.--Notwithstanding any provision of the 
Agricultural Job Opportunities, Benefits, and Security Act of 2007, an 
alien admitted under section 101(a)(15)(H)(ii)(a) for employment as a 
sheepherder, goat herder, or dairy worker--
            ``(1) may be admitted for an initial period of 12 months;
            ``(2) subject to subsection (j)(5), may have such initial 
        period of admission extended for a period of up to 3 years; and
            ``(3) shall not be subject to the requirements of 
        subsection (h)(5) (relating to periods of absence from the 
        United States).
    ``(j) Adjustment to Lawful Permanent Resident Status for Aliens 
Employed as Sheepherders, Goat Herders, or Dairy Workers.--
            ``(1) Eligible alien.--For purposes of this subsection, the 
        term `eligible alien' means an alien--
                    ``(A) having nonimmigrant status under section 
                101(a)(15)(H)(ii)(a) based on employment as a 
                sheepherder, goat herder, or dairy worker;
                    ``(B) who has maintained such nonimmigrant status 
                in the United States for a cumulative total of 36 
                months (excluding any period of absence from the United 
                States); and
                    ``(C) who is seeking to receive an immigrant visa 
                under section 203(b)(3)(A)(iii).
            ``(2) Classification petition.--In the case of an eligible 
        alien, the petition under section 204 for classification under 
        section 203(b)(3)(A)(iii) may be filed by--
                    ``(A) the alien's employer on behalf of the 
                eligible alien; or
                    ``(B) the eligible alien.
            ``(3) No labor certification required.--Notwithstanding 
        section 203(b)(3)(C), no determination under section 
        212(a)(5)(A) is required with respect to an immigrant visa 
        described in paragraph (1)(C) for an eligible alien.
            ``(4) Effect of petition.--The filing of a petition 
        described in paragraph (2) or an application for adjustment of 
        status based on the approval of such a petition shall not 
        constitute evidence of an alien's ineligibility for 
        nonimmigrant status under section 101(a)(15)(H)(ii)(a).
            ``(5) Extension of stay.--The Secretary shall extend the 
        stay of an eligible alien having a pending or approved 
        classification petition described in paragraph (2) in 1-year 
        increments until a final determination is made on the alien's 
        eligibility for adjustment of status to that of an alien 
        lawfully admitted for permanent residence.
            ``(6) Construction.--Nothing in this subsection shall be 
        construed to prevent an eligible alien from seeking adjustment 
        of status in accordance with any other provision of law.

``SEC. 218C. WORKER PROTECTIONS AND LABOR STANDARDS ENFORCEMENT.

    ``(a) Enforcement Authority.--
            ``(1) Investigation of complaints.--
                    ``(A) Aggrieved person or third-party complaints.--
                The Secretary of Labor shall establish a process for 
                the receipt, investigation, and disposition of 
                complaints respecting a petitioner's failure to meet a 
                condition specified in section 218(b), or an employer's 
                misrepresentation of material facts in an application 
                under section 218(a). Complaints may be filed by any 
                aggrieved person or organization (including bargaining 
                representatives). No investigation or hearing shall be 
                conducted on a complaint concerning such a failure or 
                misrepresentation unless the complaint was filed not 
                later than 12 months after the date of the failure, or 
                misrepresentation, respectively. The Secretary of Labor 
                shall conduct an investigation under this subparagraph 
                if there is reasonable cause to believe that such a 
                failure or misrepresentation has occurred.
                    ``(B) Determination on complaint.--Under such 
                process, the Secretary of Labor shall provide, within 
                30 days after the date such a complaint is filed, for a 
                determination as to whether or not a reasonable basis 
                exists to make a finding described in subparagraph (C), 
                (D), (E), or (G). If the Secretary of Labor determines 
                that such a reasonable basis exists, the Secretary of 
                Labor shall provide for notice of such determination to 
                the interested parties and an opportunity for a hearing 
                on the complaint, in accordance with section 556 of 
                title 5, United States Code, within 60 days after the 
                date of the determination. If such a hearing is 
                requested, the Secretary of Labor shall make a finding 
                concerning the matter not later than 60 days after the 
                date of the hearing. In the case of similar complaints 
                respecting the same applicant, the Secretary of Labor 
                may consolidate the hearings under this subparagraph on 
                such complaints.
                    ``(C) Failures to meet conditions.--If the 
                Secretary of Labor finds, after notice and opportunity 
                for a hearing, a failure to meet a condition of 
                paragraph (1)(A), (1)(B), (1)(D), (1)(F), (2)(A), 
                (2)(B), or (2)(G) of section 218(b), a substantial 
                failure to meet a condition of paragraph (1)(C), 
                (1)(E), (2)(C), (2)(D), (2)(E), or (2)(H) of section 
                218(b), or a material misrepresentation of fact in an 
                application under section 218(a)--
                            ``(i) the Secretary of Labor shall notify 
                        the Secretary of such finding and may, in 
                        addition, impose such other administrative 
                        remedies (including civil money penalties in an 
                        amount not to exceed $1,000 per violation) as 
                        the Secretary of Labor determines to be 
                        appropriate; and
                            ``(ii) the Secretary may disqualify the 
                        employer from the employment of aliens 
                        described in section 101(a)(15)(H)(ii)(a) for a 
                        period of 1 year.
                    ``(D) Willful failures and willful 
                misrepresentations.--If the Secretary of Labor finds, 
                after notice and opportunity for hearing, a willful 
                failure to meet a condition of section 218(b), a 
                willful misrepresentation of a material fact in an 
                application under section 218(a), or a violation of 
                subsection (d)(1)--
                            ``(i) the Secretary of Labor shall notify 
                        the Secretary of such finding and may, in 
                        addition, impose such other administrative 
                        remedies (including civil money penalties in an 
                        amount not to exceed $5,000 per violation) as 
                        the Secretary of Labor determines to be 
                        appropriate;
                            ``(ii) the Secretary of Labor may seek 
                        appropriate legal or equitable relief to 
                        effectuate the purposes of subsection (d)(1); 
                        and
                            ``(iii) the Secretary may disqualify the 
                        employer from the employment of H-2A workers 
                        for a period of 2 years.
                    ``(E) Displacement of united states workers.--If 
                the Secretary of Labor finds, after notice and 
                opportunity for hearing, a willful failure to meet a 
                condition of section 218(b) or a willful 
                misrepresentation of a material fact in an application 
                under section 218(a), in the course of which failure or 
                misrepresentation the employer displaced a United 
                States worker employed by the employer during the 
                period of employment on the employer's application 
                under section 218(a) or during the period of 30 days 
                preceding such period of employment--
                            ``(i) the Secretary of Labor shall notify 
                        the Secretary of such finding and may, in 
                        addition, impose such other administrative 
                        remedies (including civil money penalties in an 
                        amount not to exceed $15,000 per violation) as 
                        the Secretary of Labor determines to be 
                        appropriate; and
                            ``(ii) the Secretary may disqualify the 
                        employer from the employment of H-2A workers 
                        for a period of 3 years.
                    ``(F) Limitations on civil money penalties.--The 
                Secretary of Labor shall not impose total civil money 
                penalties with respect to an application under section 
                218(a) in excess of $90,000.
                    ``(G) Failures to pay wages or required benefits.--
                If the Secretary of Labor finds, after notice and 
                opportunity for a hearing, that the employer has failed 
                to pay the wages, or provide the housing allowance, 
                transportation, subsistence reimbursement, or guarantee 
                of employment, required under section 218A(b), the 
                Secretary of Labor shall assess payment of back wages, 
                or other required benefits, due any United States 
                worker or H-2A worker employed by the employer in the 
                specific employment in question. The back wages or 
                other required benefits under section 218A(b) shall be 
                equal to the difference between the amount that should 
                have been paid and the amount that actually was paid to 
                such worker.
            ``(2) Statutory construction.--Nothing in this section 
        shall be construed as limiting the authority of the Secretary 
        of Labor to conduct any compliance investigation under any 
        other labor law, including any law affecting migrant and 
        seasonal agricultural workers, or, in the absence of a 
        complaint under this section, under section 218 or 218A.
    ``(b) Rights Enforceable by Private Right of Action.--H-2A workers 
may enforce the following rights through the private right of action 
provided in subsection (c), and no other right of action shall exist 
under Federal or State law to enforce such rights:
            ``(1) The providing of housing or a housing allowance as 
        required under section 218A(b)(1).
            ``(2) The reimbursement of transportation as required under 
        section 218A(b)(2).
            ``(3) The payment of wages required under section 
        218A(b)(3) when due.
            ``(4) The benefits and material terms and conditions of 
        employment expressly provided in the job offer described in 
        section 218(a)(2), not including the assurance to comply with 
        other Federal, State, and local labor laws described in section 
        218A(c), compliance with which shall be governed by the 
        provisions of such laws.
            ``(5) The guarantee of employment required under section 
        218A(b)(4).
            ``(6) The motor vehicle safety requirements under section 
        218A(b)(5).
            ``(7) The prohibition of discrimination under subsection 
        (d)(2).
    ``(c) Private Right of Action.--
            ``(1) Mediation.--Upon the filing of a complaint by an H-2A 
        worker aggrieved by a violation of rights enforceable under 
        subsection (b), and within 60 days of the filing of proof of 
        service of the complaint, a party to the action may file a 
        request with the Federal Mediation and Conciliation Service to 
        assist the parties in reaching a satisfactory resolution of all 
        issues involving all parties to the dispute. Upon a filing of 
        such request and giving of notice to the parties, the parties 
        shall attempt mediation within the period specified in 
        subparagraph (B).
                    ``(A) Mediation services.--The Federal Mediation 
                and Conciliation Service shall be available to assist 
                in resolving disputes arising under subsection (b) 
                between H-2A workers and agricultural employers without 
                charge to the parties.
                    ``(B) 90-day limit.--The Federal Mediation and 
                Conciliation Service may conduct mediation or other 
                nonbinding dispute resolution activities for a period 
                not to exceed 90 days beginning on the date on which 
                the Federal Mediation and Conciliation Service receives 
                the request for assistance unless the parties agree to 
                an extension of this period of time.
                    ``(C) Authorization.--
                            ``(i) In general.--Subject to clause (ii), 
                        there are authorized to be appropriated to the 
                        Federal Mediation and Conciliation Service 
                        $500,000 for each fiscal year to carry out this 
                        section.
                            ``(ii) Mediation.--Notwithstanding any 
                        other provision of law, the Director of the 
                        Federal Mediation and Conciliation Service is 
                        authorized to conduct the mediation or other 
                        dispute resolution activities from any other 
                        appropriated funds available to the Director 
                        and to reimburse such appropriated funds when 
                        the funds are appropriated pursuant to this 
                        authorization, such reimbursement to be 
                        credited to appropriations currently available 
                        at the time of receipt.
            ``(2) Maintenance of civil action in district court by 
        aggrieved person.--An H-2A worker aggrieved by a violation of 
        rights enforceable under subsection (b) by an agricultural 
        employer or other person may file suit in any district court of 
        the United States having jurisdiction over the parties, without 
        regard to the amount in controversy, without regard to the 
        citizenship of the parties, and without regard to the 
        exhaustion of any alternative administrative remedies under 
        this Act, not later than 3 years after the date the violation 
        occurs.
            ``(3) Election.--An H-2A worker who has filed an 
        administrative complaint with the Secretary of Labor may not 
        maintain a civil action under paragraph (2) unless a complaint 
        based on the same violation filed with the Secretary of Labor 
        under subsection (a)(1) is withdrawn before the filing of such 
        action, in which case the rights and remedies available under 
        this subsection shall be exclusive.
            ``(4) Preemption of state contract rights.--Nothing in this 
        Act shall be construed to diminish the rights and remedies of 
        an H-2A worker under any other Federal or State law or 
        regulation or under any collective bargaining agreement, except 
        that no court or administrative action shall be available under 
        any State contract law to enforce the rights created by this 
        Act.
            ``(5) Waiver of rights prohibited.--Agreements by employees 
        purporting to waive or modify their rights under this Act shall 
        be void as contrary to public policy, except that a waiver or 
        modification of the rights or obligations in favor of the 
        Secretary of Labor shall be valid for purposes of the 
        enforcement of this Act. The preceding sentence may not be 
        construed to prohibit agreements to settle private disputes or 
        litigation.
            ``(6) Award of damages or other equitable relief.--
                    ``(A) If the court finds that the respondent has 
                intentionally violated any of the rights enforceable 
                under subsection (b), it shall award actual damages, if 
                any, or equitable relief.
                    ``(B) Any civil action brought under this section 
                shall be subject to appeal as provided in chapter 83 of 
                title 28, United States Code.
            ``(7) Workers' compensation benefits; exclusive remedy.--
                    ``(A) Notwithstanding any other provision of this 
                section, where a State's workers' compensation law is 
                applicable and coverage is provided for an H-2A worker, 
                the workers' compensation benefits shall be the 
                exclusive remedy for the loss of such worker under this 
                section in the case of bodily injury or death in 
                accordance with such State's workers' compensation law.
                    ``(B) The exclusive remedy prescribed in 
                subparagraph (A) precludes the recovery under paragraph 
                (6) of actual damages for loss from an injury or death 
                but does not preclude other equitable relief, except 
                that such relief shall not include back or front pay or 
                in any manner, directly or indirectly, expand or 
                otherwise alter or affect--
                            ``(i) a recovery under a State workers' 
                        compensation law; or
                            ``(ii) rights conferred under a State 
                        workers' compensation law.
            ``(8) Tolling of statute of limitations.--If it is 
        determined under a State workers' compensation law that the 
        workers' compensation law is not applicable to a claim for 
        bodily injury or death of an H-2A worker, the statute of 
        limitations for bringing an action for actual damages for such 
        injury or death under subsection (c) shall be tolled for the 
        period during which the claim for such injury or death under 
        such State workers' compensation law was pending. The statute 
        of limitations for an action for actual damages or other 
        equitable relief arising out of the same transaction or 
        occurrence as the injury or death of the H-2A worker shall be 
        tolled for the period during which the claim for such injury or 
        death was pending under the State workers' compensation law.
            ``(9) Preclusive effect.--Any settlement by an H-2A worker 
        and an H-2A employer or any person reached through the 
        mediation process required under subsection (c)(1) shall 
        preclude any right of action arising out of the same facts 
        between the parties in any Federal or State court or 
        administrative proceeding, unless specifically provided 
        otherwise in the settlement agreement.
            ``(10) Settlements.--Any settlement by the Secretary of 
        Labor with an H-2A employer on behalf of an H-2A worker of a 
        complaint filed with the Secretary of Labor under this section 
        or any finding by the Secretary of Labor under subsection 
        (a)(1)(B) shall preclude any right of action arising out of the 
        same facts between the parties under any Federal or State court 
        or administrative proceeding, unless specifically provided 
        otherwise in the settlement agreement.
    ``(d) Discrimination Prohibited.--
            ``(1) In general.--It is a violation of this subsection for 
        any person who has filed an application under section 218(a), 
        to intimidate, threaten, restrain, coerce, blacklist, 
        discharge, or in any other manner discriminate against an 
        employee (which term, for purposes of this subsection, includes 
        a former employee and an applicant for employment) because the 
        employee has disclosed information to the employer, or to any 
        other person, that the employee reasonably believes evidences a 
        violation of section 218 or 218A or any rule or regulation 
        pertaining to section 218 or 218A, or because the employee 
        cooperates or seeks to cooperate in an investigation or other 
        proceeding concerning the employer's compliance with the 
        requirements of section 218 or 218A or any rule or regulation 
        pertaining to either of such sections.
            ``(2) Discrimination against h-2a workers.--It is a 
        violation of this subsection for any person who has filed an 
        application under section 218(a), to intimidate, threaten, 
        restrain, coerce, blacklist, discharge, or in any manner 
        discriminate against an H-2A employee because such worker has, 
        with just cause, filed a complaint with the Secretary of Labor 
        regarding a denial of the rights enumerated and enforceable 
        under subsection (b) or instituted, or caused to be instituted, 
        a private right of action under subsection (c) regarding the 
        denial of the rights enumerated under subsection (b), or has 
        testified or is about to testify in any court proceeding 
        brought under subsection (c).
    ``(e) Authorization To Seek Other Appropriate Employment.--The 
Secretary of Labor and the Secretary shall establish a process under 
which an H-2A worker who files a complaint regarding a violation of 
subsection (d) and is otherwise eligible to remain and work in the 
United States may be allowed to seek other appropriate employment in 
the United States for a period not to exceed the maximum period of stay 
authorized for such nonimmigrant classification.
    ``(f) Role of Associations.--
            ``(1) Violation by a member of an association.--An employer 
        on whose behalf an application is filed by an association 
        acting as its agent is fully responsible for such application, 
        and for complying with the terms and conditions of sections 218 
        and 218A, as though the employer had filed the application 
        itself. If such an employer is determined, under this section, 
        to have committed a violation, the penalty for such violation 
        shall apply only to that member of the association unless the 
        Secretary of Labor determines that the association or other 
        member participated in, had knowledge, or reason to know, of 
        the violation, in which case the penalty shall be invoked 
        against the association or other association member as well.
            ``(2) Violations by an association acting as an employer.--
        If an association filing an application as a sole or joint 
        employer is determined to have committed a violation under this 
        section, the penalty for such violation shall apply only to the 
        association unless the Secretary of Labor determines that an 
        association member or members participated in or had knowledge, 
        or reason to know of the violation, in which case the penalty 
        shall be invoked against the association member or members as 
        well.

``SEC. 218D. DEFINITIONS.

    ``For purposes of this section and section 218, 218A, 218B, and 
218C:
            ``(1) Agricultural employment.--The term `agricultural 
        employment' means any service or activity that is considered to 
        be agricultural under section 3(f) of the Fair Labor Standards 
        Act of 1938 (29 U.S.C. 203(f)) or agricultural labor under 
        section 3121(g) of the Internal Revenue Code of 1986 or the 
        performance of agricultural labor or services described in 
        section 101(a)(15)(H)(ii)(a).
            ``(2) Bona fide union.--The term `bona fide union' means 
        any organization in which employees participate and which 
        exists for the purpose of dealing with employers concerning 
        grievances, labor disputes, wages, rates of pay, hours of 
        employment, or other terms and conditions of work for 
        agricultural employees. Such term does not include an 
        organization formed, created, administered, supported, 
        dominated, financed, or controlled by an employer or employer 
        association or its agents or representatives.
            ``(3) Displace.--The term `displace', in the case of an 
        application with respect to 1 or more H-2A workers by an 
        employer, means laying off a United States worker from a job 
        for which the H-2A worker or workers is or are sought.
            ``(4) Eligible.--The term `eligible', when used with 
        respect to an individual, means an individual who is not an 
        unauthorized alien (as defined in section 274A).
            ``(5) Employer.--The term `employer' means any person or 
        entity, including any farm labor contractor and any 
        agricultural association, that employs workers in agricultural 
        employment.
            ``(6) H-2A employer.--The term `H-2A employer' means an 
        employer who seeks to hire 1 or more nonimmigrant aliens 
        described in section 101(a)(15)(H)(ii)(a).
            ``(7) H-2A worker.--The term `H-2A worker' means a 
        nonimmigrant described in section 101(a)(15)(H)(ii)(a).
            ``(8) Job opportunity.--The term `job opportunity' means a 
        job opening for temporary or seasonal full-time employment at a 
        place in the United States to which United States workers can 
        be referred.
            ``(9) Laying off.--
                    ``(A) In general.--The term `laying off', with 
                respect to a worker--
                            ``(i) means to cause the worker's loss of 
                        employment, other than through a discharge for 
                        inadequate performance, violation of workplace 
                        rules, cause, voluntary departure, voluntary 
                        retirement, contract impossibility (as 
                        described in section 218A(b)(4)(D)), or 
                        temporary suspension of employment due to 
                        weather, markets, or other temporary 
                        conditions; but
                            ``(ii) does not include any situation in 
                        which the worker is offered, as an alternative 
                        to such loss of employment, a similar 
                        employment opportunity with the same employer 
                        (or, in the case of a placement of a worker 
                        with another employer under section 
                        218(b)(2)(E), with either employer described in 
                        such section) at equivalent or higher 
                        compensation and benefits than the position 
                        from which the employee was discharged, 
                        regardless of whether or not the employee 
                        accepts the offer.
                    ``(B) Statutory construction.--Nothing in this 
                paragraph is intended to limit an employee's rights 
                under a collective bargaining agreement or other 
                employment contract.
            ``(10) Regulatory drought.--The term `regulatory drought' 
        means a decision subsequent to the filing of the application 
        under section 218 by an entity not under the control of the 
        employer making such filing which restricts the employer's 
        access to water for irrigation purposes and reduces or limits 
        the employer's ability to produce an agricultural commodity, 
        thereby reducing the need for labor.
            ``(11) Seasonal.--Labor is performed on a `seasonal' basis 
        if--
                    ``(A) ordinarily, it pertains to or is of the kind 
                exclusively performed at certain seasons or periods of 
                the year; and
                    ``(B) from its nature, it may not be continuous or 
                carried on throughout the year.
            ``(12) Secretary.--Except as otherwise provided, the term 
        `Secretary' means the Secretary of Homeland Security.
            ``(13) Temporary.--A worker is employed on a `temporary' 
        basis where the employment is intended not to exceed 10 months.
            ``(14) United states worker.--The term `United States 
        worker' means any worker, whether a national of the United 
        States, an alien lawfully admitted for permanent residence, or 
        any other alien, who is authorized to work in the job 
        opportunity within the United States, except an alien admitted 
        or otherwise provided status under section 
        101(a)(15)(H)(ii)(a).''.
    (b) Table of Contents.--The table of contents of the Immigration 
and Nationality Act (8 U.S.C. 1101 et seq.) is amended by striking the 
item relating to section 218 and inserting the following:

    ``Sec. 218. H-2A employer applications.
    ``Sec. 218A. H-2A employment requirements.
    ``Sec. 218B. Procedure for admission and extension of stay of H-2A 
workers.
    ``Sec. 218C. Worker protections and labor standards enforcement.
    ``Sec. 218D. Definitions.''.

                  CHAPTER 3--MISCELLANEOUS PROVISIONS

SEC. 653. DETERMINATION AND USE OF USER FEES.

    (a) Schedule of Fees.--The Secretary shall establish and 
periodically adjust a schedule of fees for the employment of aliens 
pursuant to the amendment made by section 652(a) of this Act and a 
collection process for such fees from employers. Such fees shall be the 
only fees chargeable to employers for services provided under such 
amendment.
    (b) Determination of Schedule.--
            (1) In general.--The schedule under subsection (a) shall 
        reflect a fee rate based on the number of job opportunities 
        indicated in the employer's application under section 218 of 
        the Immigration and Nationality Act, as amended by section 652 
        of this Act, and sufficient to provide for the direct costs of 
        providing services related to an employer's authorization to 
        employ aliens pursuant to the amendment made by section 652(a) 
        of this Act, to include the certification of eligible 
        employers, the issuance of documentation, and the admission of 
        eligible aliens.
            (2) Procedure.--
                    (A) In general.--In establishing and adjusting such 
                a schedule, the Secretary shall comply with Federal 
                cost accounting and fee setting standards.
                    (B) Publication and comment.--The Secretary shall 
                publish in the Federal Register an initial fee schedule 
                and associated collection process and the cost data or 
                estimates upon which such fee schedule is based, and 
                any subsequent amendments thereto, pursuant to which 
                public comment shall be sought and a final rule issued.
    (c) Use of Proceeds.--Notwithstanding any other provision of law, 
all proceeds resulting from the payment of the fees pursuant to the 
amendment made by section 652(a) of this Act shall be available without 
further appropriation and shall remain available without fiscal year 
limitation to reimburse the Secretary, the Secretary of State, and the 
Secretary of Labor for the costs of carrying out sections 218 and 218B 
of the Immigration and Nationality Act, as amended and added, 
respectively, by section 652 of this Act, and the provisions of this 
Act.

SEC. 654. REGULATIONS.

    (a) Requirement for the Secretary To Consult.--The Secretary shall 
consult with the Secretary of Labor and the Secretary of Agriculture 
during the promulgation of all regulations to implement the duties of 
the Secretary under this Act and the amendments made by this Act.
    (b) Requirement for the Secretary of State To Consult.--The 
Secretary of State shall consult with the Secretary, the Secretary of 
Labor, and the Secretary of Agriculture on all regulations to implement 
the duties of the Secretary of State under this Act and the amendments 
made by this Act.
    (c) Requirement for the Secretary of Labor To Consult.--The 
Secretary of Labor shall consult with the Secretary of Agriculture and 
the Secretary on all regulations to implement the duties of the 
Secretary of Labor under this Act and the amendments made by this Act.
    (d) Deadline for Issuance of Regulations.--All regulations to 
implement the duties of the Secretary, the Secretary of State, and the 
Secretary of Labor created under sections 218, 218A, 218B, 218C, and 
218D of the Immigration and Nationality Act, as amended or added by 
section 652 of this Act, shall take effect on the effective date of 
section 652 and shall be issued not later than 1 year after the date of 
enactment of this Act.

SEC. 655. REPORTS TO CONGRESS.

    (a) Annual Report.--Not later than September 30 of each year, the 
Secretary shall submit a report to Congress that identifies, for the 
previous year--
            (1) the number of job opportunities approved for employment 
        of aliens admitted under section 101(a)(15)(H)(ii)(a) of the 
        Immigration and Nationality Act (8 U.S.C. 
        1101(a)(15)(H)(ii)(a)), and the number of workers actually 
        admitted, disaggregated by State and by occupation;
            (2) the number of such aliens reported to have abandoned 
        employment pursuant to subsection 218B(e)(2) of such Act;
            (3) the number of such aliens who departed the United 
        States within the period specified in subsection 218B(d) of 
        such Act;
            (4) the number of aliens who applied for adjustment of 
        status pursuant to section 643(a);
            (5) the number of such aliens whose status was adjusted 
        under section 643(a);
            (6) the number of aliens who applied for permanent 
        residence pursuant to section 643(c); and
            (7) the number of such aliens who were approved for 
        permanent residence pursuant section 645(c).
    (b) Implementation Report.--Not later than 180 days after the date 
of the enactment of this Act, the Secretary shall prepare and submit to 
Congress a report that describes the measures being taken and the 
progress made in implementing this Act.

SEC. 656. EFFECTIVE DATE.

    Except as otherwise provided, sections 652 and 653 shall take 
effect 1 year after the date of the enactment of this Act.

          Subtitle D--Programs to Assist Nonimmigrant Workers

SEC. 661. GRANTS TO SUPPORT PUBLIC EDUCATION AND COMMUNITY TRAINING.

    (a) Grants Authorized.--The Assistant Attorney General, Office of 
Justice Programs, may award grants to qualified non-profit community 
organizations to educate, train, and support non-profit agencies, 
immigrant communities, and other interested entities regarding the 
provisions of this Act and the amendments made by this Act.
    (b) Use of Funds.--
            (1) In general.--Grants awarded under this section shall be 
        used--
                    (A) for public education, training, technical 
                assistance, government liaison, and all related costs 
                (including personnel and equipment) incurred by the 
                grantee in providing services related to this Act; and
                    (B) to educate, train, and support nonprofit 
                organizations, immigrant communities, and other 
                interested parties regarding this Act and the 
                amendments made by this Act and on matters related to 
                its implementation.
            (2) Education.--In addition to the purposes described in 
        paragraph (1), grants awarded under this section shall be used 
        to--
                    (A) educate immigrant communities and other 
                interested entities regarding--
                            (i) the individuals and organizations that 
                        can provide authorized legal representation in 
                        immigration matters under regulations 
                        prescribed by the Secretary; and
                            (ii) the dangers of securing legal advice 
                        and assistance from those who are not 
                        authorized to provide legal representation in 
                        immigration matters;
                    (B) educate interested entities regarding the 
                requirements for obtaining nonprofit recognition and 
                accreditation to represent immigrants under regulations 
                prescribed by the Secretary;
                    (C) provide nonprofit agencies with training and 
                technical assistance on the recognition and 
                accreditation process; and
                    (D) educate nonprofit community organizations, 
                immigrant communities, and other interested entities 
                regarding--
                            (i) the process for obtaining benefits 
                        under this Act or under an amendment made by 
                        this Act; and
                            (ii) the availability of authorized legal 
                        representation for low-income persons who may 
                        qualify for benefits under this Act or under an 
                        amendment made by this Act.
    (c) Diversity.--The Assistant Attorney General shall ensure, to the 
extent possible, that the nonprofit community organizations receiving 
grants under this section serve geographically diverse locations and 
ethnically diverse populations who may qualify for benefits under the 
Act.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated to the Office of Justice Programs of the Department of 
Justice such sums as may be necessary for each of the fiscal years 2008 
through 2010 to carry out this section.

SEC. 662. GRANT PROGRAM TO ASSIST APPLICANTS FOR NATURALIZATION.

    (a) Purpose.--The purpose of this section is to establish a grant 
program within United States Citizenship and Immigration Services that 
provides funding to community-based organizations, including community-
based legal service organizations, as appropriate, to develop and 
implement programs to assist eligible applicants for naturalization.
    (b) Definitions.--In this section:
            (1) Community-based organization.--The term ``community-
        based organization'' means a nonprofit, tax-exempt 
        organization, including a faith-based organization, whose staff 
        has experience and expertise in meeting the legal, social, 
        educational, cultural educational, or cultural needs of 
        immigrants, refugees, persons granted asylum, or persons 
        applying for such statuses.
            (2) IEACA grant.--The term ``IEACA grant'' means an Initial 
        Entry, Adjustment, and Citizenship Assistance Grant authorized 
        under subsection (c).
    (c) Establishment of Initial Entry, Adjustment, and Citizenship 
Assistance Grant Program.--
            (1) Grants authorized.--The Secretary, working through the 
        Director of United States Citizenship and Immigration Services, 
        may award IEACA grants to community-based organizations.
            (2) Use of funds.--Grants awarded under this section may be 
        used for the design and implementation of programs to provide 
        the following services:
                    (A) Initial application.--Assistance and 
                instruction, including legal assistance, to aliens 
                making initial application for conditional nonimmigrant 
                or conditional nonimmigrant depedent classification 
                under section 601. Such assistance may include 
                assisting applicants in--
                            (i) screening to assess prospective 
                        applicants' potential eligibility for 
                        participating in such program;
                            (ii) filling out applications for such 
                        program;
                            (iii) gathering proof of identification, 
                        employment, residence, and tax payment;
                            (iv) gathering proof of relationships of 
                        eligible family members;
                            (v) applying for any waivers for which 
                        applicants and qualifying family members may be 
                        eligible; and
                            (vi) any other assistance that the 
                        Secretary or grantee considers useful to aliens 
                        who are interested in filing applications for 
                        treatment under section 601.
                    (B) Adjustment of status.--Assistance and 
                instruction, including legal assistance, to aliens 
                seeking to adjust their status in accordance with 
                section 602 of this Act or section 245 of the 
                Immigration and Nationality Act (8 U.S.C. 1255).
                    (C) Citizenship.--Assistance and instruction to 
                applicants on--
                            (i) the rights and responsibilities of 
                        United States citizenship;
                            (ii) English as a second language;
                            (iii) civics; or
                            (iv) applying for United States 
                        citizenship.
            (3) Duration and renewal.--
                    (A) Duration.--Subject to subparagraph (B), each 
                grant awarded under this section shall be awarded for a 
                period of not more than 3 years.
                    (B) Renewal.--The Secretary may renew any grant 
                awarded under this section in 1-year increments.
            (4) Application for grants.--Each entity desiring an IEACA 
        grant under this section shall submit an application to the 
        Secretary at such time, in such manner, and accompanied by such 
        information as the Secretary may require.
            (5) Eligible organizations.--A community-based organization 
        applying for a grant under this section to provide services 
        described in subparagraph (A), (B), or (C)(iv) of paragraph (2) 
        may not receive such a grant unless the organization is--
                    (A) recognized by the Board of Immigration Appeals 
                under section 292.2 of title 8, Code of Federal 
                Regulations; or
                    (B) otherwise directed by an attorney.
            (6) Selection of grantees.--Grants awarded under this 
        section shall be awarded on a competitive basis.
            (7) Geographic distribution of grants.--The Secretary shall 
        approve applications under this section in a manner that 
        ensures, to the greatest extent practicable, that--
                    (A) not less than 50 percent of the funding for 
                grants under this section are awarded to programs 
                located in the 10 States with the highest percentage of 
                residents who were born in foreign countries; and
                    (B) not less than 20 percent of the funding for 
                grants under this section are awarded to programs 
                located in States that are not described in 
                subparagraph (A).
            (8) Ethnic diversity.--The Secretary shall ensure that 
        community-based organizations receiving grants under this 
        section provide services to an ethnically diverse population, 
        to the greatest extent possible.
    (d) Liaison Between USCIS and Grantees.--The Secretary shall 
establish a liaison between United States Citizenship and Immigration 
Services and the community of providers of services under this section 
to assure quality control, efficiency, and greater client willingness 
to come forward.
    (e) Reports to Congress.--Not later than 180 days after the date of 
enactment of this Act, and July 1 of each subsequent year, the 
Secretary shall submit a report to Congress that includes information 
regarding--
            (1) the status of the implementation of this section;
            (2) the grants issued pursuant to this section; and
            (3) the activities carried out with such grants.
    (f) Source of Grant Funds.--
            (1) Application fees.--The Secretary may use funds made 
        available under section 601(g)(2)(A) of this Act and section 
        218A(b)(3) of the Immigration and Nationality Act, as added by 
        this Act, to carry out this section.
            (2) Authorization of appropriations.--
                    (A) Amounts authorized.--In addition to the amounts 
                made available under paragraph (1), there are 
                authorized to be appropriated such additional sums as 
                may be necessary for each of fiscal years 2008 through 
                2012 to carry out this section.
                    (B) Availability.--Any amounts appropriated 
                pursuant to the authorization of appropriations in 
                subparagraph (A) shall remain available until expended.
    (g) Distribution of Fees and Fines.--
            (1) H-2C visa fees.--Notwithstanding section 218A(j) of the 
        Immigration and Nationality Act, as added by section 402, 2 
        percent of the fees collected under section 218A of such Act 
        shall be made available for grants under the Initial Entry, 
        Adjustment, and Citizenship Assistance Grant Program 
        established under this section.
            (2) Conditional nonimmigrant visa fees and fines.--
        Notwithstanding section 601(g)(2), 2 percent of the fees and 
        fines collected under section 601 shall be made available for 
        grants under the Initial Entry, Adjustment, and Citizenship 
        Assistance Grant Program established under this section.

SEC. 663. STRENGTHENING AMERICAN CITIZENSHIP.

    (a) Short Title.--This section may be cited as the ``Strengthening 
American Citizenship Act of 2007''.
    (b) Definitions.--In this section:
            (1) Legal resident.--The term ``legal resident'' means a 
        lawful permanent resident or a lawfully admitted alien who, in 
        order to adjust status to that of a lawful permanent resident, 
        demonstrates a knowledge of the English language or 
        satisfactory pursuit of a course of study to acquire such 
        knowledge of the English language.
            (2) Oath of allegiance.--The term ``Oath of Allegiance'' 
        means the binding oath (or affirmation) of allegiance required 
        to be naturalized as a citizen of the United States.
    (c) English Fluency.--
            (1) Education grants.--
                    (A) Establishment.--The Chief of the Office of 
                Citizenship of the Department (referred to in this 
                paragraph as the ``Chief'') shall establish a grant 
                program to provide grants, in an amount not to exceed 
                $500, to assist legal residents of the United States 
                who declare an intent to apply for citizenship in the 
                United States to meet the requirements under section 
                312 of the Immigration and Nationality Act (8 U.S.C. 
                1423).
                    (B) Use of funds.--Grant funds awarded under this 
                paragraph shall be paid directly to an accredited 
                institution of higher education or other qualified 
                educational institution (as determined by the Chief) 
                for tuition, fees, books, and other educational 
                resources required by a course on the English language 
                in which the legal resident is enrolled.
                    (C) Application.--A legal resident desiring a grant 
                under this paragraph shall submit an application to the 
                Chief at such time, in such manner, and accompanied by 
                such information as the Chief may reasonably require.
                    (D) Priority.--If insufficient funds are available 
                to award grants to all qualified applicants, the Chief 
                shall give priority based on the financial need of the 
                applicants.
                    (E) Notice.--The Secretary, upon relevant 
                registration of a legal resident with the Department, 
                shall notify such legal resident of the availability of 
                grants under this paragraph for legal residents who 
                declare an intent to apply for United States 
                citizenship.
            (2) Faster citizenship for english fluency.--Section 316 (8 
        U.S.C. 1427) is amended by adding at the end the following:
    ``(g) A lawful permanent resident of the United States who 
demonstrates English fluency, in accordance with regulations prescribed 
by the Secretary of Homeland Security, in consultation with the 
Secretary of State, will satisfy the residency requirement under 
subsection (a) upon the completion of 4 years of continuous legal 
residency in the United States.''.
            (3) Savings provision.--Nothing in this subsection shall be 
        construed to--
                    (A) modify the English language requirements for 
                naturalization under section 312(a)(1) of the 
                Immigration and Nationality Act (8 U.S.C. 1423(a)(1)); 
                or
                    (B) influence the naturalization test redesign 
                process of the Office of Citizenship (except for the 
                requirement under subsection (h)(2)).
    (d) American Citizenship Grant Program.--
            (1) In general.--The Secretary shall establish a 
        competitive grant program to provide financial assistance for--
                    (A) efforts by entities (including veterans and 
                patriotic organizations) certified by the Office of 
                Citizenship to promote the patriotic integration of 
                prospective citizens into the American way of life by 
                providing civics, history, and English as a second 
                language courses, with a specific emphasis on 
                attachment to principles of the Constitution of the 
                United States, the heroes of American history 
                (including military heroes), and the meaning of the 
                Oath of Allegiance; and
                    (B) other activities approved by the Secretary to 
                promote the patriotic integration of prospective 
                citizens and the implementation of the Immigration and 
                Nationality Act (8 U.S.C. 1101 et seq.), including 
                grants--
                            (i) to promote an understanding of the form 
                        of government and history of the United States; 
                        and
                            (ii) to promote an attachment to the 
                        principles of the Constitution of the United 
                        States and the well being and happiness of the 
                        people of the United States.
            (2) Acceptance of gifts.--The Secretary may accept and use 
        gifts from the United States Citizenship Foundation, if the 
        foundation is established under subsection (e), for grants 
        under this subsection.
            (3) Authorization of appropriations.--There are authorized 
        to be appropriated such sums as may be necessary to carry out 
        this subsection.
    (e) Funding for the Office of Citizenship.--
            (1) Authorization.--The Secretary, acting through the 
        Director of the Bureau of Citizenship and Immigration Services, 
        may establish the United States Citizenship Foundation 
        (referred to in this subsection as the ``Foundation''), an 
        organization duly incorporated in the District of Columbia, 
        exclusively for charitable and educational purposes to support 
        the functions of the Office of Citizenship.
            (2) Dedicated funding.--
                    (A) In general.--Not less than 1.5 percent of the 
                funds made available to the Bureau of Citizenship and 
                Immigration Services from fees shall be dedicated to 
                the functions of the Office of Citizenship, which shall 
                include the patriotic integration of prospective 
                citizens into--
                            (i) American common values and traditions, 
                        including an understanding of American history 
                        and the principles of the Constitution of the 
                        United States; and
                            (ii) civic traditions of the United States, 
                        including the Pledge of Allegiance, respect for 
                        the flag of the United States, and voting in 
                        public elections.
                    (B) Sense of congress.--It is the sense of the 
                Congress that dedicating increased funds to the Office 
                of Citizenship should not result in an increase in fees 
                charged by the Bureau of Citizenship and Immigration 
                Services.
            (3) Gifts.--
                    (A) To foundation.--The Foundation may solicit, 
                accept, and make gifts of money and other property in 
                accordance with section 501(c)(3) of the Internal 
                Revenue Code of 1986.
                    (B) From foundation.--The Office of Citizenship may 
                accept gifts from the Foundation to support the 
                functions of the Office.
            (4) Authorization of appropriations.--There are authorized 
        to be appropriated such sums as may be necessary to carry out 
        the mission of the Office of Citizenship, including the 
        functions described in paragraph (2)(A).
    (f) Restriction on Use of Funds.--No funds appropriated to carry 
out a program under subsection (d) or (e) may be used to organize 
individuals for the purpose of political activism or advocacy.
    (g) Reporting Requirement.--
            (1) In general.--The Chief of the Office of Citizenship 
        shall submit an annual report to the Committee on Health, 
        Education, Labor, and Pensions of the Senate, the Committee on 
        the Judiciary of the Senate, the Committee on Education and 
        Labor of the House of Representatives, and the Committee on the 
        Judiciary of the House of Representatives.
            (2) Contents.--The report submitted under paragraph (1) 
        shall include--
                    (A) a list of the entities that have received funds 
                from the Office of Citizenship during the reporting 
                period under this section and the amount of funding 
                received by each such entity;
                    (B) an evaluation of the extent to which grants 
                received under this section successfully promoted an 
                understanding of--
                            (i) the English language; and
                            (ii) American history and government, 
                        including the heroes of American history, the 
                        meaning of the Oath of Allegiance, and an 
                        attachment to the principles of the 
                        Constitution of the United States; and
                    (C) information about the number of legal residents 
                who were able to achieve the knowledge described under 
                paragraph (2) as a result of the grants provided under 
                this section.
    (h) Establishment of New Citizens Award Program.--
            (1) Establishment.--There is established a new citizens 
        award program to recognize citizens who--
                    (A) have made an outstanding contribution to the 
                United States; and
                    (B) were naturalized during the 10-year period 
                ending on the date of such recognition.
            (2) Presentation authorized.--
                    (A) In general.--The President is authorized to 
                present a medal, in recognition of outstanding 
                contributions to the United States, to citizens 
                described in paragraph (1).
                    (B) Maximum number of awards.--Not more than 10 
                citizens may receive a medal under this subsection in 
                any calendar year.
            (3) Design and striking.--The Secretary of the Treasury 
        shall strike a medal with suitable emblems, devices, and 
        inscriptions, to be determined by the President.
            (4) National medals.--The medals struck pursuant to this 
        subsection are national medals for purposes of chapter 51 of 
        title 31, United States Code.
    (i) Naturalization Ceremonies.--
            (1) In general.--The Secretary, in consultation with the 
        Director of the National Park Service, the Archivist of the 
        United States, and other appropriate Federal officials, shall 
        develop and implement a strategy to enhance the public 
        awareness of naturalization ceremonies.
            (2) Venues.--In developing the strategy under this 
        subsection, the Secretary shall consider the use of outstanding 
        and historic locations as venues for select naturalization 
        ceremonies.
            (3) Reporting requirement.--The Secretary shall submit an 
        annual report to Congress that includes--
                    (A) the content of the strategy developed under 
                this subsection; and
                    (B) the progress made towards the implementation of 
                such strategy.

SEC. 664. ADDRESSING POVERTY IN MEXICO.

    (a) Findings.--Congress finds the following:
            (1) There is a strong correlation between economic freedom 
        and economic prosperity.
            (2) Trade policy, fiscal burden of government, government 
        intervention in the economy, monetary policy, capital flows and 
        foreign investment, banking and finance, wages and prices, 
        property rights, regulation, and informal market activity are 
        key factors in economic freedom.
            (3) Poverty in Mexico, including rural poverty, can be 
        mitigated through strengthened economic freedom within Mexico.
            (4) Strengthened economic freedom in Mexico can be a major 
        influence in mitigating illegal immigration.
            (5) Advancing economic freedom within Mexico is an 
        important part of any comprehensive plan to understanding the 
        sources of poverty and the path to economic prosperity.
    (b) Grant Authorized.--The Secretary of State may award a grant to 
a land grant university in the United States to establish a national 
program for a broad, university-based, Mexican rural poverty mitigation 
program.
    (c) Functions of Mexican Rural Poverty Mitigation Program.--The 
program established pursuant to subsection (b) shall--
            (1) match a land grant university in the United States with 
        the lead Mexican public university in each of Mexico's 31 
        states to provide state-level coordination of rural poverty 
        programs in Mexico;
            (2) establish relationships and coordinate programmatic 
        ties between universities in the United States and universities 
        in Mexico to address the issue of rural poverty in Mexico;
            (3) establish and coordinate relationships with key leaders 
        in the United States and Mexico to explore the effect of rural 
        poverty on illegal immigration of Mexicans into the United 
        States; and
            (4) address immigration and border security concerns 
        through a university-based, binational approach for long-term 
        institutional change.
    (d) Use of Funds.--
            (1) Authorized uses.--Grant funds awarded under this 
        section may be used--
                    (A) for education, training, technical assistance, 
                and any related expenses (including personnel and 
                equipment) incurred by the grantee in implementing a 
                program described in subsection (a); and
                    (B) to establish an administrative structure for 
                such program in the United States.
            (2) Limitations.--Grant funds awarded under this section 
        may not be used for activities, responsibilities, or related 
        costs incurred by entities in Mexico.
    (e) Authorization of Appropriations.--There are authorized to be 
appropriated such funds as may be necessary to carry out this section.

                        TITLE VII--MISCELLANEOUS

                 Subtitle A--Increasing Court Personnel

SEC. 701. ADDITIONAL IMMIGRATION PERSONNEL.

    (a) Department of Homeland Security.--In each of fiscal years 2008 
through 2012, the Secretary shall, subject to the availability of 
appropriations for such purpose, increase by not less than 100 the 
number of positions for attorneys in the Office of General Counsel of 
the Department to represent the Department in immigration matters.
    (b) Department of Justice.--
            (1) Litigation attorneys.--In each of fiscal years 2008 
        through 2012, the Attorney General shall, subject to the 
        availability of appropriations for such purpose, increase by 
        not less than 50 the number of positions for attorneys in the 
        Office of Immigration Litigation of the Department of Justice.
            (2) United states attorneys.--In each of fiscal years 2008 
        through 2012, the Attorney General shall, subject to the 
        availability of appropriations for such purpose, increase by 
        not less than 50 the number of positions for attorneys in the 
        United States Attorneys' office to litigate immigration cases 
        in the Federal courts.
            (3) Immigration judges.--In each of fiscal years 2008 
        through 2012, the Attorney General shall, subject to the 
        availability of appropriations for such purpose--
                    (A) increase by not less than 20 the number of 
                positions for full-time immigration judges; and
                    (B) increase by not less than 80 the number of 
                positions for personnel to support the immigration 
                judges described in subparagraph (A).
            (4) Staff attorneys.--In each of fiscal years 2008 through 
        2012, the Attorney General shall, subject to the availability 
        of appropriations for such purpose--
                    (A) increase by not less than 10 the number of 
                positions for full-time staff attorneys in the Board of 
                Immigration Appeals; and
                    (B) increase by not less than 10 the number of 
                positions for personnel to support the staff attorneys 
                described in subparagraph (A).
    (c) Administrative Office of the United States Courts.--In each of 
the fiscal years 2008 through 2012, the Director of the Administrative 
Office of the United States Courts shall, subject to the availability 
of appropriations, increase by not less than 50 the number of positions 
for attorneys in the Federal Defenders Program to litigate criminal 
immigration cases in the Federal courts.
    (d) Authorization of Appropriations.--There are authorized to be 
appropriated for each of fiscal years 2008 through 2012 such sums as 
may be necessary to carry out this section.

SEC. 702. SENIOR JUDGE PARTICIPATION IN THE SELECTION OF MAGISTRATES.

    Section 631(a) of title 28, United States Code, is amended by 
striking ``Northern Mariana Islands'' the first place it appears and 
inserting ``Northern Mariana Islands, including any judge in regular 
active service and any judge who has retired from regular active 
service under section 371(b) of this title,''.

SEC. 703. STUDY ON THE APPELLATE PROCESS FOR IMMIGRATION APPEALS.

    (a) In General.--Not later than 180 days after the date of 
enactment of this Act, the Director of the Federal Judicial Center 
shall conduct a study on the appellate process for immigration appeals.
    (b) Requirements.--In conducting the study under subsection (a), 
the Director shall consider the possibility of consolidating all 
appeals from the Board of Immigration Appeals and habeas corpus 
petitions in immigration cases into 1 United States Court of Appeals.
    (c) Factors To Consider.--In conducting the study under subsection 
(a), the Director, in consultation with the Attorney General, the 
Secretary, and the Judicial Conference of the United States, shall 
consider--
            (1) the resources needed for each alternative, including 
        judges, attorneys, and other support staff, case management 
        techniques, including technological requirements, physical 
        infrastructure, and other procedural and logistical issues as 
        appropriate;
            (2) the impact of each alternative on various circuits, 
        including the caseload of each circuit and the caseload per 
        panel in each circuit;
            (3) the possibility of utilizing case management techniques 
        to reduce the impact of any consolidation option, such as 
        requiring certificates of reviewability, similar to procedures 
        employed in habeas corpus proceedings and existing summary 
        dismissal procedures in local rules of the Courts of Appeals;
            (4) the effect of the reforms made by this subtitle on the 
        ability of the circuit courts to adjudicate such appeals;
            (5) potential impact, if any, on litigants; and
            (6) other reforms to improve adjudication of immigration 
        matters, including appellate review of motions to reopen and 
        reconsider, and attorney fee awards with respect to review of 
        final orders of removal.

SEC. 704. SENSE OF CONGRESS REGARDING THE ESTABLISHMENT OF AN 
                    IMMIGRATION COURT SYSTEM.

    (a) Finding.--The Congress finds that the United States tradition 
as a nation of laws and a nation of immigrants is best served by an 
effective, fair, and well-staffed immigration court system that upholds 
the rule of law and ensures that individuals and families receive fair 
treatment.
    (b) Sense of Congress.--It is the sense of the Congress that an 
effective and fair immigration court system should be established.

  Subtitle B--Citizenship Assistance for Members of the Armed Services

SEC. 711. WAIVER OF REQUIREMENT FOR FINGERPRINTS FOR MEMBERS OF THE 
                    ARMED FORCES.

    Notwithstanding any other provision of law or any regulation, the 
Secretary shall use the fingerprints provided by an individual at the 
time the individual enlists in the Armed Forces to satisfy any 
requirement for fingerprints as part of an application to become a 
naturalized citizen of the United States, if the individual--
            (1) may be naturalized pursuant to section 328 or 329 of 
        the Immigration and Nationality Act (8 U.S.C. 1439 and 1440);
            (2) was fingerprinted in accordance with the requirements 
        of the Secretary of Defense at the time the individual enlisted 
        in the Armed Forces; and
            (3) submits the application to become a naturalized citizen 
        of the United States not later than 12 months after the date 
        the individual enlisted in the Armed Forces.

SEC. 712. NONCITIZEN MEMBERSHIP IN THE ARMED FORCES.

    Section 329 (8 U.S.C. 1440) is amended--
            (1) in subsection (b), by striking ``subsection (a)'' and 
        inserting ``subsection (a), (d), or (e)''; and
            (2) by adding at the end the following:
    ``(d)(1) Notwithstanding any other provision of law, except for 
provisions relating to revocation of citizenship under subsection (c), 
an individual who is not a citizen of the United States shall not be 
denied the opportunity to apply for membership in the United States 
Armed Forces. Such an individual who becomes an active duty member of 
the United States Armed Forces shall, consistent with this section and 
with the approval of the individual's commanding officer, be granted 
United States citizenship after performing at least 2 years of 
honorable and satisfactory service on active duty. Not later than 90 
days after such requirements are met with respect to an individual, 
such individual shall be granted United States citizenship.
    ``(2) An individual described in paragraph (1) shall be naturalized 
without regard to the requirements of this title, if the individual--
            ``(A) filed an application for naturalization in accordance 
        with such procedures to carry out this subsection as may be 
        established by regulation by the Secretary of Homeland Security 
        or the Secretary of Defense;
            ``(B) demonstrates to the individual's commanding officer 
        proficiency in the English language, good moral character, and 
        knowledge of the Federal Government and United States history, 
        consistent with the requirements of this Act; and
            ``(C) takes the oath required under section 337 and 
        participates in an oath administration ceremony in accordance 
        with this Act.
    ``(e) Notwithstanding any other provision of law, except for 
provisions relating to revocation of citizenship under subsection (c), 
an individual who is not a citizen of the United States who serves 
under orders on active duty as an enlisted member or warrant officer of 
the Armed Forces of the United States in a combat zone (as that term is 
defined in section 112(c) of the Internal Revenue Code of 1986) shall 
be granted United States citizenship effective as of the commencement 
of such service in the combat zone without regard to the requirements 
of this title if the individual files an application for naturalization 
in accordance with such procedures to carry out this subsection as may 
be established by regulation by the Secretary of Homeland Security and 
Secretary of Defense.''.

SEC. 713. PROVISION OF INFORMATION ON NATURALIZATION TO MEMBERS OF THE 
                    ARMED FORCES.

    The Secretary shall--
            (1) provide information to members of the Armed Forces and 
        the families of such members through a dedicated toll-free 
        telephone service related to naturalization pursuant to section 
        328 or 329 of the Immigration and Nationality Act (8 U.S.C. 
        1439 and 1440), including the status of an application for such 
        naturalization;
            (2) ensure that the telephone service required by paragraph 
        (1) is operated by employees of the Department who--
                    (A) have received specialized training on the 
                naturalization process for members of the Armed Forces 
                and the families of such members; and
                    (B) are physically located in the same unit as the 
                military processing unit that adjudicates applications 
                for naturalization pursuant to such section 328 or 329; 
                and
            (3) implement a quality control program to monitor, on a 
        regular basis, the accuracy and quality of information provided 
        by the employees who operate the telephone service required by 
        paragraph (1), including the breadth of the knowledge related 
        to the naturalization process of such employees.

SEC. 714. PROVISION OF INFORMATION ON NATURALIZATION TO THE PUBLIC.

    Not later than 30 days after the date that a modification to any 
law or regulation related to the naturalization process becomes 
effective, the Secretary shall update the appropriate application form 
for naturalization, the instructions and guidebook for obtaining 
naturalization, and the Internet website maintained by the Secretary to 
reflect such modification.

SEC. 715. REPORTS.

    (a) Adjudication Process.--Not later than 120 days after the date 
of enactment of this Act, the Comptroller General of the United States 
shall submit to the appropriate congressional committees a report on 
the entire process for the adjudication of an application for 
naturalization filed pursuant to section 328 or 329 of the Immigration 
and Nationality Act (8 U.S.C. 1439 and 1440), including the process 
that begins at the time the application is mailed to, or received by 
the Secretary, regardless of whether the Secretary determines that such 
application is complete, through the final disposition of such 
application. Such report shall include a description of--
            (1) the methods of the Secretary to process and adjudicate 
        such applications;
            (2) the effectiveness of the chain of authority, 
        supervision, and training of employees of the Government or of 
        other entities, including contract employees, who have any role 
        in such process or adjudication; and
            (3) the ability of the Secretary to use technology to 
        facilitate or accomplish any aspect of such process or 
        adjudication.
    (b) Implementation.--
            (1) Study.--The Comptroller General of the United States 
        shall conduct a study on the implementation of this subtitle by 
        the Secretary, including studying any technology that may be 
        used to improve the efficiency of the naturalization process 
        for members of the Armed Forces.
            (2) Report.--Not later than 180 days after the date that 
        the Comptroller General submits the report required by 
        subsection (a), the Comptroller General shall submit to the 
        appropriate congressional committees a report on the study 
        required by paragraph (1). The report shall include any 
        recommendations of the Comptroller General for improving the 
        implementation of this subtitle by the Secretary.
    (c) Appropriate Congressional Committees Defined.--In this section, 
the term ``appropriate congressional committees'' means--
            (1) the Committee on Armed Services and the Committee on 
        the Judiciary of the Senate; and
            (2) the Committee on Armed Services and the Committee on 
        the Judiciary of the House of Representatives.

                 Subtitle C--Family Humanitarian Relief

SEC. 721. ADJUSTMENT OF STATUS FOR CERTAIN NONIMMIGRANT VICTIMS OF 
                    TERRORISM.

    (a) Adjustment of Status.--
            (1) In general.--The status of any alien described in 
        subsection (b) shall be adjusted by the Secretary to that of an 
        alien lawfully admitted for permanent residence, if the alien--
                    (A) applies for such adjustment not later than 2 
                years after the date on which the Secretary promulgates 
                final regulations to implement this section; and
                    (B) is otherwise admissible to the United States 
                for permanent residence, except in determining such 
                admissibility the grounds for inadmissibility specified 
                in paragraphs (4), (5), (6)(A), (7)(A), and (9)(B) of 
                section 212(a) of the Immigration and Nationality Act 
                (8 U.S.C. 1182(a)) shall not apply.
            (2) Rules in applying certain provisions.--In the case of 
        an alien described in subsection (b) who is applying for 
        adjustment of status under this section--
                    (A) the provisions of section 241(a)(5) of the 
                Immigration and Nationality Act (8 U.S.C. 1231(a)(5)) 
                shall not apply; and
                    (B) the Secretary may grant the alien a waiver on 
                the grounds of inadmissibility under subparagraphs (A) 
                and (C) of section 212(a)(9) of such Act (8 U.S.C. 
                1182(a)(9)).
            (3) Relationship of application to certain orders.--
                    (A) Application permitted.--An alien present in the 
                United States who has been ordered excluded, deported, 
                removed, or ordered to depart voluntarily from the 
                United States under any provision of the Immigration 
                and Nationality Act (8 U.S.C. 1101 et seq.) may, 
                notwithstanding such order, apply for adjustment of 
                status under paragraph (1).
                    (B) Motion not required.--An alien described in 
                subparagraph (A) may not be required, as a condition of 
                submitting or granting such application, to file a 
                separate motion to reopen, reconsider, or vacate such 
                order.
                    (C) Effect of decision.--If the Secretary adjusts 
                the status of an alien described in subparagraph (A) 
                under paragraph (1), the Secretary shall cancel the 
                order referred to in subparagraph (A) with respect to 
                such alien. If the Secretary renders a final 
                administrative decision to deny such alien's 
                application for an adjustment of status under paragraph 
                (1), the order referred to in subparagraph (A) with 
                respect to such alien shall be effective and 
                enforceable to the same extent as if the application 
                had not been made.
    (b) Aliens Eligible for Adjustment of Status.--A alien described in 
this subsection is an alien who--
            (1) was lawfully present in the United States as a 
        nonimmigrant alien described in section 101(a)(15) of the 
        Immigration and Nationality Act (8 U.S.C. 1101(a)(15)) on 
        September 10, 2001;
            (2) was, on such date, the spouse, child, dependent son, or 
        dependent daughter of an alien who--
                    (A) was lawfully present in the United States as a 
                nonimmigrant alien described in such section 101(a)(15) 
                on such date; and
                    (B) died as a direct result of a specified 
                terrorist activity; and
            (3) was deemed to be a beneficiary under the September 11th 
        Victim Compensation Fund of 2001 (49 U.S.C. 40101 note; title 
        IV of Public Law 107-42).
    (c) Stay of Removal and Work Authorization.--
            (1) In general.--The Secretary shall establish, by 
        regulation, a process by which an alien subject to a final 
        order of removal may seek a stay of such order based on the 
        filing of an application under subsection (a).
            (2) During certain proceedings.--Notwithstanding any 
        provision of the Immigration and Nationality Act (8 U.S.C. 1101 
        et seq.), the Secretary shall not order any alien to be removed 
        from the United States, if the alien is in removal proceedings 
        under any provision of such Act and has applied for adjustment 
        of status under subsection (a), except where the Secretary has 
        rendered a final administrative determination to deny the 
        application.
            (3) Work authorization.--The Secretary shall authorize an 
        alien who has applied for adjustment of status under subsection 
        (a) to engage in employment in the United States during the 
        pendency of such application.
    (d) Availability of Administrative Review.--The Secretary shall 
provide to applicants for adjustment of status under subsection (a) the 
same right to, and procedures for, administrative review as are 
provided to--
            (1) applicants for adjustment of status under section 245 
        of the Immigration and Nationality Act (8 U.S.C. 1255); or
            (2) aliens subject to removal proceedings under section 240 
        of such Act (8 U.S.C. 1229a).

SEC. 722. CANCELLATION OF REMOVAL FOR CERTAIN IMMIGRANT VICTIMS OF 
                    TERRORISM.

    (a) In General.--Subject to the provisions of the Immigration and 
Nationality Act (8 U.S.C. 1101 et seq.), other than subsections (b)(1), 
(d)(1), and (e) of section 240A of such Act (8 U.S.C. 1229b), the 
Secretary shall, under such section 240A, cancel the removal of, and 
adjust to the status of an alien to that of an alien lawfully admitted 
for permanent residence, an alien described in subsection (b), if the 
alien applies for such relief.
    (b) Aliens Eligible for Cancellation of Removal.--An alien 
described in subsection (a) is an alien who--
            (1) was, on September 10, 2001, the spouse, child, 
        dependent son, or dependent daughter of an alien who died as a 
        direct result of a specified terrorist activity; and
            (2) was deemed to be a beneficiary under the September 11th 
        Victim Compensation Fund of 2001 (49 U.S.C. 40101 note; title 
        IV of Public Law 107-42).
    (c) Stay of Removal; Work Authorization.--
            (1) In general.--The Secretary shall provide by regulation 
        for an alien subject to a final order of removal to seek a stay 
        of such order based on the filing of an application under 
        subsection (a).
            (2) Work authorization.--The Secretary shall authorize an 
        alien who has applied for cancellation of removal under 
        subsection (a) to engage in employment in the United States 
        during the pendency of such application.
    (d) Motions To Reopen Removal Proceedings.--
            (1) In general.--Notwithstanding any limitation imposed by 
        law on motions to reopen removal proceedings (except 
        limitations premised on an alien's conviction of an aggravated 
        felony (as defined in section 101(a)(43) of the Immigration and 
        Nationality Act (8 U.S.C. 1101(a)(43))), any alien who has 
        become eligible for cancellation of removal as a result of 
        enactment of this section may file 1 motion to reopen removal 
        proceedings to apply for such relief.
            (2) Filing period.--The Secretary shall designate a 
        specific time period in which all such motions to reopen are 
        required to be filed. The period shall begin not later than 60 
        days after the date of enactment of this Act and shall extend 
        for a period not to exceed 240 days.

SEC. 723. EXCEPTIONS.

    Notwithstanding any other provision of this subtitle, an alien may 
not be provided relief under this subtitle if the alien is--
            (1) inadmissible under paragraph (2) or (3) of section 
        212(a) of the Immigration and Nationality Act (8 U.S.C. 
        1182(a)), or deportable under paragraph (2) or (4) of section 
        237(a) of such Act (8 U.S.C. 1227(a)), including any individual 
        culpable for a specified terrorist activity; or
            (2) a family member of an alien described in paragraph (1).

SEC. 724. EVIDENCE OF DEATH.

    For purposes of this subtitle, the Secretary shall use the 
standards established under section 426 of the Uniting and 
Strengthening America by Providing Appropriate Tools Required to 
Intercept and Obstruct Terrorism (USA PATRIOT ACT) Act of 2001 (115 
Stat. 362) to determine whether the death of an individual occurred as 
a direct result of a specified terrorist activity.

SEC. 725. DEFINITIONS.

    (a) Application of Immigration and Nationality Act Definitions.--
Except as otherwise specifically provided in this subtitle, the 
definitions used in the Immigration and Nationality Act (8 U.S.C. 1101 
et seq.), other than the definitions applicable exclusively to title 
III of such Act, shall apply in the administration of this subtitle.
    (b) Specified Terrorist Activity Defined.--In this subtitle, the 
term ``specified terrorist activity'' means any terrorist activity 
conducted against the Government or the people of the United States on 
September 11, 2001.

                       Subtitle D--Other Matters

SEC. 731. OFFICE OF INTERNAL CORRUPTION INVESTIGATION.

    (a) Internal Corruption and Benefits Fraud.--Section 453 of the 
Homeland Security Act of 2002 (6 U.S.C. 273) is amended--
            (1) by striking ``the Bureau of'' each place it appears and 
        inserting ``United States'';
            (2) in subsection (a)--
                    (A) by striking paragraph (1) and inserting the 
                following:
            ``(1) establishing the Office of Internal Corruption 
        Investigation, which shall--
                    ``(A) receive, process, administer, and investigate 
                criminal and noncriminal allegations of misconduct, 
                corruption, and fraud involving any employee or 
                contract worker of United States Citizenship and 
                Immigration Services that are not subject to 
                investigation by the Inspector General for the 
                Department;
                    ``(B) ensure that all complaints alleging any 
                violation described in subparagraph (A) are handled and 
                stored in a manner appropriate to their sensitivity;
                    ``(C) have access to all records, reports, audits, 
                reviews, documents, papers, recommendations, or other 
                material available to United States Citizenship and 
                Immigration Services, which relate to programs and 
                operations for which the Director is responsible under 
                this Act;
                    ``(D) request such information or assistance from 
                any Federal, State, or local government agency as may 
                be necessary for carrying out the duties and 
                responsibilities under this section;
                    ``(E) require the production of all information, 
                documents, reports, answers, records, accounts, papers, 
                and other data and documentary evidence necessary to 
                carry out the functions under this section--
                            ``(i) by subpoena, which shall be 
                        enforceable, in the case of contumacy or 
                        refusal to obey, by order of any appropriate 
                        United States district court; or
                            ``(ii) through procedures other than 
                        subpoenas if obtaining documents or information 
                        from Federal agencies;
                    ``(F) administer to, or take from, any person an 
                oath, affirmation, or affidavit, as necessary to carry 
                out the functions under this section, which oath, 
                affirmation, or affidavit, if administered or taken by 
                or before an agent of the Office of Internal Corruption 
                Investigation shall have the same force and effect as 
                if administered or taken by or before an officer having 
                a seal;
                    ``(G) investigate criminal allegations and 
                noncriminal misconduct;
                    ``(H) acquire adequate office space, equipment, and 
                supplies as necessary to carry out the functions and 
                responsibilities under this section; and
                    ``(I) be under the direct supervision of the 
                Director.'';
                    (B) in paragraph (2), by striking ``and'' at the 
                end;
                    (C) in paragraph (3), by striking the period at the 
                end and inserting ``; and''; and
                    (D) by adding at the end the following:
            ``(4) establishing the Office of Immigration Benefits Fraud 
        Investigation, which shall--
                    ``(A) conduct administrative investigations, 
                including site visits, to address immigration benefit 
                fraud;
                    ``(B) assist United States Citizenship and 
                Immigration Services provide the right benefit to the 
                right person at the right time;
                    ``(C) track, measure, assess, conduct pattern 
                analysis, and report fraud-related data to the 
                Director; and
                    ``(D) work with counterparts in other Federal 
                agencies on matters of mutual interest or information-
                sharing relating to immigration benefit fraud.''; and
            (3) by adding at the end the following:
    ``(c) Annual Report.--The Director, in consultation with the Office 
of Internal Corruption Investigations, shall submit an annual report to 
the Committee on the Judiciary of the Senate and the Committee on the 
Judiciary of the House of Representatives that describes--
            ``(1) the activities of the Office, including the number of 
        investigations began, completed, pending, turned over to the 
        Inspector General for criminal investigations, and turned over 
        to a United States Attorney for prosecution; and
            ``(2) the types of allegations investigated by the Office 
        during the 12-month period immediately preceding the submission 
        of the report that relate to the misconduct, corruption, and 
        fraud described in subsection (a)(1).''.
    (b) Use of Immigration Fees To Combat Fraud.--Section 286(v)(2)(B) 
(8 U.S.C. 1356(v)(2)(B)) is amended by adding at the end the following: 
``Not less than 20 percent of the funds made available under this 
subparagraph shall be used for activities and functions described in 
paragraphs (1) and (4) of section 453(a) of the Homeland Security Act 
of 2002 (6 U.S.C. 273(a)).''.

SEC. 732. ADJUSTMENT OF STATUS FOR CERTAIN PERSECUTED RELIGIOUS 
                    MINORITIES.

    (a) In General.--The Secretary shall adjust the status of an alien 
to that of an alien lawfully admitted for permanent residence if the 
alien--
            (1) is a persecuted religious minority;
            (2) is admissible to the United States as an immigrant, 
        except as provided in subsection (b);
            (3) had an application for asylum pending on May 1, 2003;
            (4) applies for such adjustment of status;
            (5) was physically present in the United States on the date 
        the application for such adjustment is filed; and
            (6) pays a fee, in an amount determined by the Secretary, 
        for the processing of such application.
    (b) Waiver of Certain Grounds for Inadmissibility.--
            (1) Inapplicable provision.--Section 212(a)(7) of the 
        Immigration and Nationality Act (8 U.S.C. 1182(a)(7)) shall not 
        apply to any adjustment of status under this section.
            (2) Waiver.--The Secretary may waive any other provision of 
        section 212(a) of such Act (except for paragraphs (2) and (3)) 
        if extraordinary and compelling circumstances warrant such an 
        adjustment for humanitarian purposes, to ensure family unity, 
        or if it is otherwise in the public interest.

SEC. 733. ELIGIBILITY OF AGRICULTURAL AND FORESTRY WORKERS FOR CERTAIN 
                    LEGAL ASSISTANCE.

    Section 305 of the Immigration Reform and Control Act of 1986 (8 
U.S.C. 1101 note; Public Law 99-603) is amended--
            (1) by striking ``section 101(a)(15)(H)(ii)(a) of the 
        Immigration and Nationality Act (8 U.S.C. 
        1101(a)(15)(H)(ii)(a))'' and inserting ``item (a) or (b) of 
        section 101(a)(15)(H)(ii) of the Immigration and Nationality 
        Act (8 U.S.C. 1101(a)(15)(H)(ii))''; and
            (2) by inserting ``or forestry'' after ``agricultural''.

SEC. 734. STATE COURT INTERPRETER GRANTS.

    (a) Grants Authorized.--
            (1) In general.--The Administrator of the Office of Justice 
        Programs of the Department of Justice (referred to in this 
        section as the ``Administrator'') shall make grants, in 
        accordance with such regulations as the Attorney General may 
        prescribe, to State courts to develop and implement programs to 
        assist individuals with limited English proficiency to access 
        and understand State court proceedings in which they are a 
        party.
            (2) Technical assistance.--The Administrator shall 
        allocate, for each fiscal year, $500,000 of the amount 
        appropriated pursuant to the authorization of appropriation in 
        subsection (f) to be used to establish a court interpreter 
        technical assistance program to assist State courts receiving 
        grants under this section.
    (b) Use of Grants.--Grants awarded pursuant to subsection (a) may 
be used by State courts to--
            (1) assess regional language demands;
            (2) develop a court interpreter program for the State 
        courts;
            (3) develop, institute, and administer language 
        certification examinations;
            (4) recruit, train, and certify qualified court 
        interpreters;
            (5) pay for salaries, transportation, and technology 
        necessary to implement the court interpreter program developed 
        under paragraph (2); and
            (6) engage in other related activities, as prescribed by 
        the Attorney General.
    (c) Application.--
            (1) In general.--The highest State court of each State 
        desiring a grant under this section shall submit an application 
        to the Administrator at such time, in such manner, and 
        accompanied by such information as the Administrator may 
        reasonably require.
            (2) State courts.--The highest State court of each State 
        submitting an application under paragraph (1) shall include in 
        the application--
                    (A) an identification of each State court in that 
                State which would receive funds from the grant;
                    (B) the amount of funds each State court identified 
                under subparagraph (A) would receive from the grant; 
                and
                    (C) the procedures the highest State court would 
                use to directly distribute grant funds to State courts 
                identified under subparagraph (A).
    (d) State Court Allotments.--
            (1) Base allotment.--From amounts appropriated for each 
        fiscal year pursuant to the authorization of appropriations in 
        subsection (f), the Administrator shall allocate $100,000 to 
        each of the highest State court of each State, which has an 
        application approved under subsection (c).
            (2) Discretionary allotment.--From amounts appropriated for 
        each fiscal year pursuant to the authorization of 
        appropriations in subsection (f), the Administrator shall 
        allocate a total of $5,000,000 to the highest State court of 
        States that have extraordinary needs that must be addressed in 
        order to develop, implement, or expand a State court 
        interpreter program.
            (3) Additional allotment.--In addition to the allocations 
        made under paragraphs (1) and (2), the Administrator shall 
        allocate to each of the highest State court of each State, 
        which has an application approved under subsection (c), an 
        amount equal to the product reached by multiplying--
                    (A) the unallocated balance of the amount 
                appropriated for each fiscal year pursuant to the 
                authorization of appropriations in subsection (f); and
                    (B) the ratio between the number of people over 5 
                years of age who speak a language other than English at 
                home in the State and the number of people over 5 years 
                of age who speak a language other than English at home 
                in all the States that receive an allocation under 
                paragraph (1), as those numbers are determined by the 
                Bureau of the Census.
    (e) Treatment of the District of Columbia.--For purposes of this 
section--
            (1) the District of Columbia shall be treated as a State; 
        and
            (2) the District of Columbia Court of Appeals shall be the 
        highest State court of the District of Columbia.
    (f) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary for each of the fiscal years 
2008 through 2012 to carry out this section.

SEC. 735. ADEQUATE NOTICE FOR ALTERNATE COUNTRY OF REMOVAL.

    Section 241(b)(2) (8 U.S.C. 1231(b)(2)) is amended by adding at the 
end the following new subparagraph:
                    ``(G) Notice of country of removal.--If the 
                Secretary of Homeland Security determines that an alien 
                will be removed to a country that was not designated by 
                the alien under subparagraph (A)(i) of section 241 as 
                amended at the time of the removal hearing, the 
                Secretary shall provide notice of such determination to 
                the alien and provide the alien an opportunity for a 
                hearing before an immigration judge to request 
                protection from removal to that country on the basis 
                that the alien would face persecution or torture in 
                that country.''.

SEC. 736. STANDARDS FOR BIOMETRIC DOCUMENTS.

    Any visa issued by the Secretary of State and any immigration-
related document issued by the Secretary of State or the Secretary 
shall--
            (1) comply with authentication and biometric standards 
        recognized by domestic and international standards 
        organizations;
            (2) be machine-readable and tamper-resistant;
            (3) use biometric identifiers that are consistent with the 
        requirements of section 303 of the Enhanced Border Security and 
        Visa Entry Reform Act of 2002 (8 U.S.C. 1732), and represent 
        the benefits and status set forth in such section;
            (4) comply with the biometric and document identifying 
        standards established by the International Civil Aviation 
        Organization; and
            (5) meet other requirements determined to be necessary by 
        the Secretary of State and the Secretary.

SEC. 737. STATE IMPACT ASSISTANCE ACCOUNT.

    Section 286 (8 U.S.C. 1356), as amended by this Act, is further 
amended by adding at the end the following new subsection:
    ``(x) State Impact Assistance Account.--
            ``(1) Establishment.--There is established in the general 
        fund of the Treasury an account, which shall be known as the 
        `State Impact Assistance Account'.
            ``(2) Source of funds.--Notwithstanding any other provision 
        under this Act, there shall be deposited as offsetting receipts 
        into the State Impact Assistance Account all State impact 
        assistance fees collected under sections 407 and 602 of this 
        Act.
            ``(3) Use of funds.--Amounts deposited into the State 
        Impact Assistance Account may only be used to carry out the 
        State Impact Assistance Grant Program established under 
        paragraph (4).
            ``(4) State impact assistance grant program.--
                    ``(A) Establishment.--The Secretary of Health and 
                Human Services, in consultation with the Secretary of 
                Education, shall establish the State Impact Assistance 
                Grant Program (referred to in this section as the 
                `Program'), under which the Secretary of Health and 
                Human may award grants to States to provide health and 
                education services to noncitizens in accordance with 
                this paragraph.
                    ``(B) State allocations.--The Secretary of Health 
                and Human Services shall annually allocate the amounts 
                available in the State Impact Assistance Account among 
                the States as follows:
                            ``(i) Noncitizen populations.--Eighty 
                        percent of such amounts shall be allocated so 
                        that each State receives the greater of--
                                    ``(I) $5,000,000; or
                                    ``(II) after adjusting for 
                                allocations under subclause (I), the 
                                percentage of the amount to be 
                                distributed under this clause that is 
                                equal to the noncitizen resident 
                                population of the State divided by the 
                                noncitizen resident population of all 
                                States, based on the most recent data 
                                available from the Bureau of the 
                                Census.
                            ``(ii) High growth rates.--Twenty percent 
                        of such amounts shall be allocated among the 20 
                        States with the largest growth rates in 
                        noncitizen resident population, as determined 
                        by the Secretary of Health and Human Services, 
                        so that each such State receives the percentage 
                        of the amount distributed under this clause 
                        that is equal to--
                                    ``(I) the growth rate in the 
                                noncitizen resident population of the 
                                State during the most recent 3-year 
                                period for which data is available from 
                                the Bureau of the Census; divided by
                                    ``(II) the average growth rate in 
                                noncitizen resident population for the 
                                20 States during such 3-year period.
                            ``(iii) Legislative appropriations.--The 
                        use of grant funds allocated to States under 
                        this paragraph shall be subject to 
                        appropriation by the legislature of each State 
                        in accordance with the terms and conditions 
                        under this paragraph.
                    ``(C) Funding for local government.--
                            ``(i) Distribution criteria.--Grant funds 
                        received by States under this paragraph shall 
                        be distributed to units of local government 
                        based on need and function.
                            ``(ii) Minimum distribution.--Except as 
                        provided in clause (iii), a State shall 
                        distribute not less than 30 percent of the 
                        grant funds received under this paragraph to 
                        units of local government not later than 180 
                        days after receiving such funds.
                            ``(iii) Exception.--If an eligible unit of 
                        local government that is available to carry out 
                        the activities described in subparagraph (D) 
                        cannot be found in a State, the State does not 
                        need to comply with clause (ii).
                            ``(iv) Unexpended funds.--Any grant funds 
                        distributed by a State to a unit of local 
                        government that remain unexpended as of the end 
                        of the grant period shall revert to the State 
                        for redistribution to another unit of local 
                        government.
                    ``(D) Use of funds.--States and units of local 
                government shall use grant funds received under this 
                paragraph to provide health services, educational 
                services, and related services to noncitizens within 
                their jurisdiction directly, or through contracts with 
                eligible services providers, including--
                            ``(i) health care providers;
                            ``(ii) local educational agencies; and
                            ``(iii) charitable and religious 
                        organizations.
                    ``(E) State defined.--In this paragraph, the term 
                `State' means each of the several States of the United 
                States, the District of Columbia, the Commonwealth of 
                Puerto Rico, the Virgin Islands, Guam, American Samoa, 
                and the Commonwealth of the Northern Mariana Islands.
                    ``(F) Certification.--In order to receive a payment 
                under this section, the State shall provide the 
                Secretary of Health and Human Services with a 
                certification that the State's proposed uses of the 
                fund are consistent with (D).
                    ``(G) Annual notice to states.--The Secretary of 
                Health and Human Services shall inform the States 
                annually of the amount of funds available to each State 
                under the Program.''.

SEC. 738. NEW WORKER PROGRAM AND CONDITIONAL NONIMMIGRANT FEE ACCOUNT.

    Section 286 (8 U.S.C. 1356), as amended by this Act, is further 
amended by adding at the end the following new subsection:
    ``(y) New Worker Program and Conditional Nonimmigrant Fee 
Account.--
            ``(1) Establishment.--There is established in the general 
        fund of the Treasury an account, which shall be known as the 
        `New Worker Program and Conditional Nonimmigrant Fee Account'.
            ``(2) Deposits.--Notwithstanding any other provision of 
        this Act, there shall be deposited as offsetting receipts into 
        the New Worker Program and Conditional Nonimmigrant Fee 
        Account--
                    ``(A) all fees collected under section 218A; and
                    ``(B) all fines collected under section 
                601(g)(2)(B).
            ``(3) Use of funds.--Of the fees and fines deposited into 
        the New Worker Program and Conditional Nonimmigrant Fee 
        Account--
                    ``(A) 53 percent shall remain available to the 
                Secretary of Homeland Security for efforts related to 
                the adjudication and implementation of the New Worker 
                program and the program for conditional nonimmigrants 
                and any other efforts necessary to carry out the 
                provisions of the STRIVE Act of 2007 and the amendments 
                made by such Act, of which the Secretary shall 
                allocate--
                            ``(i) 10 percent for the border security 
                        efforts described in title I of the STRIVE Act 
                        of 2007;
                            ``(ii) not more than 1 percent for 
                        promotion of public awareness of the program 
                        for conditional nonimmigrants;
                            ``(iii) not more than 1 percent for the 
                        Office of Citizenship to promote civics 
                        integration activities described in section 663 
                        of the STRIVE Act of 2007; and
                            ``(iv) 2 percent for the American 
                        Citizenship Grant Program under section 663 of 
                        the STRIVE Act of 2007;
                    ``(B) 15 percent shall remain available to the 
                Secretary of Labor for the enforcement of labor 
                standards in the geographic and occupational areas in 
                which H-2C visa holders are likely to be employed and 
                for other enforcement efforts under the STRIVE Act of 
                2007, or any amendment made by that Act, including 
                targeted audits of employers that participate in the H-
                2C program;
                    ``(C) 15 percent shall remain available to the 
                Commissioner of Social Security and the Secretary of 
                Homeland Security for the creation and maintenance of 
                the Employment Eligibility Verification System 
                described in section 274A(c);
                    ``(D) 15 percent shall remain available to the 
                Secretary of State to carry out any necessary 
                provisions of the STRIVE Act of 2007, or any amendments 
                made by that Act; and
                    ``(E) 2 percent shall remain available to the 
                Secretary of Health and Human Services for the 
                reimbursement of hospitals serving H-2C workers and 
                conditional nonimmigrants established in the STRIVE Act 
                of 2007 and the amendments made by such Act.''.
                                 <all>



    Ms. Lofgren. Since Representative Gutierrez became a Member 
of Congress in 1992, he has been a champion for immigration 
reform.
    I was personally enormously disappointed when the Senate 
was unable to proceed on comprehensive reform this spring. We 
were prepared on the House side to tackle this important issue, 
but because of Senate inaction we didn't get the chance to 
proceed on hearings or a markup on the STRIVE Act.
    The details matter, though, and today we will get 
information and details on the STRIVE Act. We can't know what 
the future will hold for comprehensive reform, but we can be 
armed with knowledge about the leading legislation in the House 
to meet the immigration challenge.
    Because this hearing is about his bill, I would like to 
yield the balance of my time to my colleague from Illinois that 
he may properly introduce the subject of our hearing today, 
after which we will recognize the Ranking Member for his 
opening statement.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and the public to the Subcommittee's continuing discussion 
regarding comprehensive immigration reform. Today, our hearing will 
specifically address one comprehensive immigration reform bill, H.R. 
1645, otherwise known as the STRIVE Act or the Security Through 
Regularized Immigration and a Vibrant Economy Act of 2007.
    I would like to commend our Subcommittee colleague, Representative 
Luis Gutierrez, for not only drafting and introducing H.R. 1645, but 
also for his service on behalf of comprehensive immigration reform in 
the 110th Congress and in many Congresses before the 110th. Since 
Representative Gutierrez became a Member of Congress in 1992, he has 
been a champion for immigration reform.
    I was personally enormously disappointed when the Senate was unable 
to proceed on comprehensive reform this Spring. We were prepared on the 
House side to tackle this important issue. But, because of Senate 
inaction, we didn't get the chance to proceed on hearings or a mark-up 
on the STRIVE Act.
    The details matter, and today we will get information and details 
on the Strive Act. We can't know what the future will hold for 
comprehensive reform, but we can be armed with knowledge about the 
leading legislation in the House to meet the immigration challenge.
    Because this hearing is about his bill, I would like to yield the 
balance of my time to my colleague from Illinois so that he may 
properly introduce the subject of our hearing today.

    Ms. Lofgren. Mr. Gutierrez?
    Mr. Gutierrez. I want to thank you, Chairwoman Zoe Lofgren, 
for calling this hearing and for all of your hard work and 
efforts to get comprehensive immigration reform passed.
    I also want to thank the witnesses for being here and for 
the support many of you in the audience have shown for the 
STRIVE Act and comprehensive immigration reform. I want to 
especially recognize Tony Wasilewski and Eduardo Gonzalez for 
sharing their personal and heart-wrenching experiences with our 
broken immigration system. You are brave to testify and you are 
doing a great service to your family, to other American 
families facing similar challenges, and to our Nation.
    The U.S. Congress cannot and should not ignore the growing 
immigration crisis in our country. Despite unprecedented 
resources and daily deaths in the desert, we are still unable 
to control our borders. We hold family values as important and 
vital to the moral health of our country, and yet as a Congress 
we are unmoved by the destruction of good families at the hands 
of our Nation's broken immigration system.
    We have a better-educated and retiring workforce, coupled 
with a growing demand for workers, but we have no system in 
place to fill the gaps in our labor force. We also have an 
estimated 12 million or more undocumented immigrants who risk 
life and limb to come to America, are working, contributing and 
assimilating with their families into our communities. In the 
absence of real reform, it appears that some in Congress 
believe that the best strategy is to hope that the undocumented 
will disappear on their own or through by patchwork enforcement 
measures aimed at making life difficult for them. This is 
hardly a workable national security strategy or a sensible, 
fair, just immigration policy.
    It should be no surprise to us that what Congress has done 
and not done over the last several years has resulted in total 
and utter failure on all fronts. In fact, we should be ashamed 
of ourselves for using immigration as a political prop and for 
not fulfilling our constitutional responsibility to take charge 
of U.S. immigration policy. We have failed the American people. 
No wonder state and local communities are struggling to come up 
with their own solutions.
    I can think of few substantive bills that are perfectly 
drafted on the date of introduction. And the 697 pages of the 
STRIVE Act is no exception. However, the STRIVE Act is the best 
place to start as it is bipartisan, has broad support of 
stakeholders invested in real reform and all of the essential 
components of a comprehensive solution that will work to clean 
up the chaos of our current immigration system.
    To my colleagues in Congress I say we need to roll up our 
sleeves, engage friends on both sides of the aisle committed to 
real reform and negotiate a workable solution to the 
immigration crisis that only worsens as we ignore it.
    As to the first panel, I would like to thank my friends for 
coming here. Congressman Flake, who I have enjoyed immensely 
working with in drafting the STRIVE Act. I thank him for being 
here to testify. To Congressman Baca, thank you for all of your 
leadership in the Hispanic Congressional Caucus and the 
Democratic Caucus. And to someone who when then history is 
written about comprehensive immigration reform, Congressman Ray 
LaHood, my colleague, I am proud to say, from the State of 
Illinois. Thank you so much.
    Congressman Bilbray, welcome to you, too. We are on 
opposite sides of this issue, but I hope that one day through 
honest discussion and negotiation of this issue, you and I and 
others can come together to solve what we know is a broken 
immigration system.
    I yield back the balance of my time to the gentlelady, the 
Chairwoman, and I thank her profusely for allowing me to speak 
and address this very august body.
    [The prepared statement of Mr. Guttierrez follows:]
Prepared Statement of the Honorable Luis V. Gutierrez, a Representative 
  in Congress from the State of Illinois, and Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I want to thank the Chairwoman for calling this hearing. I also 
want to thank the witnesses for being here and for the support many of 
you have shown for the STRIVE Act and comprehensive immigration reform. 
I want to especially recognize Tony Wasilewski and Eduardo Gonzalez for 
sharing their personal and heart wrenching experiences with our broken 
immigration system. You are brave to testify and are doing a great 
service to your families, to other American families facing similar 
challenges, and to our nation.
    The U.S. Congress cannot and should not ignore the growing 
immigration crisis in our country. Despite unprecedented resources and 
daily deaths in the desert, we are still unable to control our borders. 
We hold family values as important and vital to the moral health of our 
country, and yet, as a Congress, we are unmoved by the destruction of 
good families at the hands of our nation's broken immigration system. 
We have a better educated and retiring workforce, coupled with a 
growing demand for workers, but we have no system in place to fill the 
gaps in our labor force.
    We also have an estimated twelve million or more undocumented 
immigrants who risked life and limb to come to America, are working, 
contributing and assimilating with their families into our communities. 
In the absence of real reform, it appears that some in Congress believe 
that the best strategy is to hope that the undocumented will disappear 
on their own, forced out by patchwork enforcement measures aimed at 
making life difficult for them.
    This is hardly a workable national security strategy or sensible 
immigration policy. It should be no surprise to us that what Congress 
has done, and not done, over the last several years has resulted in 
total and utter failure on all fronts. In fact, we should be ashamed of 
ourselves for using immigration as a political prop and for not 
fulfilling our constitutional responsibility to take charge of U.S. 
immigration policy. We have failed the American people. No wonder state 
and local communities are struggling to come up with their own 
solutions.
    I can think of few substantive bills that are perfectly drafted on 
the date of introduction. And at 697 pages, the STRIVE Act is no 
exception. However, the STRIVE Act is the best place to start, as it is 
bipartisan, has broad support of stakeholders invested in real reform 
and all the essential components of a comprehensive solution that will 
work to clean up the chaos of our current immigration system.
    To my colleagues in Congress, I say we need to roll up our sleeves, 
engage friends on both sides of the aisle committed to real reform, and 
negotiate a workable solution to the immigration crisis that only 
worsens as we ignore it.
    Thank you again, Madam Chair, and I look forward to the witnesses' 
testimony.

    Ms. Lofgren. Thank you.
    The gentleman yields back.
    I now recognize the Ranking Member for his opening 5-minute 
statement.
    Mr. King. Thank you, Madam Chair.
    My first reflection, I had to listen twice to see if 
Congressman Bilbray was being welcomed to YouTube rather than 
``to you, too.''
    That is part of the reality of our life today, and what we 
are doing here is taking up an issue that I had believed twice 
had been resolved in the Senate this year. I was a bit 
surprised when I received the notice of the hearing on a piece 
of immigration legislation that clearly constitutes amnesty.
    The American people have spoken so forcefully against 
amnesty that the Senate was forced to reject it earlier this 
summer. The 697 pages of legislative text that make up the 
STRIVE Act contain some provisions that are interesting, some 
that beg for more explanation, and some that are troubling, to 
say the least.
    For instance, I am concerned that the bill provides mass 
amnesty for most of the 12 million to 20 million illegal 
immigrants currently in the U.S. It is a two-step process in 
which the illegal immigrants first become conditional non-
immigrants and then after 6 years of work in the U.S. they and 
their spouses and children, who have also been illegally in the 
U.S., become permanent residents.
    I am troubled that supporters of the bill claim that it is 
not amnesty because illegal immigrants are required to pay 
fines and sit through English classes before they can become 
permanent residents, and then with a path to citizenship.
    When a 1986 law had similar requirements, everyone agreed 
it was amnesty, including Ronald Reagan. In fact, even Black's 
Law Dictionary states that the 1986 Immigration Reform and 
Control Act provided amnesty for undocumented aliens already 
present in the country. Yet, IRCA itself required illegal 
immigrants to wait, pay a monetary fine, and learn English.
    The STRIVE Act sells U.S. citizenship for a grand total of 
$2,500. That is within the price range of paying a coyote to 
smuggle the illegal aliens into America in the first place.
    Supporters also claim that STRIVE is not an amnesty because 
conditional illegal immigrants are required to touch back at 
U.S. border port of entry in order to apply for permanent 
residence. Such a scenic bus trip does not erase the fact that 
illegal immigrants have violated the rule of law and have 
received amnesty.
    Current immigration law provides that illegal immigrants 
cannot return to the U.S. for 10 years if they have been here 
illegally for over a year. A provision that waives this penalty 
in order to let illegal immigrants symbolically touch back is 
in and of itself amnesty.
    And, of course, even the bill's touchback requirement can 
be waived for a multitude of reasons, including extreme 
hardship.
    I have heard many times in this Subcommittee and on the 
floor that no one wants to repeat the mistakes of 1986, the 
1986 Immigration Reform and Control Act. But the STRIVE Act 
does just that in many different ways. The bill will help 
create the cottage industry for fraudulent documents and 
promote the same systemic fraud that followed IRCA. The STRIVE 
Act allows illegal immigrants who seek amnesty to show 
fraudulent pay stubs, time sheets and even sworn affidavits and 
remittance records and records of day labor centers to prove 
that they have worked for 6 years as conditional non-immigrants 
in the United States.
    Affidavits are invitations to lie, and pay stubs and time 
sheets are easily forged. That has been proven. In fact, when 
it seemed earlier this year that the Senate would pass an 
amnesty, counterfeit document makers were boasting that they 
could easily supply the requisite documents.
    So, so far I have concentrated only on the amnesty 
component, but there are other components. For instance, the 
recipients of this would receive Social Security benefits based 
on the time they worked in the U.S. illegally. Those who 
receive amnesty will jump to the front of the line and will get 
to stay legally in the United States before and ahead of in 
line the three million people who are waiting outside the 
United States to legally enter.
    Legal immigrant numbers will be dramatically increased, 
nearly doubled, by this bill. A guest worker program will bring 
in 400,000 new workers and their spouses and children in the 
first year, a number that could rise to 600,000 in subsequent 
years. And those guest workers can get green cards at any 
point, as long as their employer is willing to apply for them.
    I mentioned several problematic provisions of the STRIVE 
Act and could mention many more. For now, I look forward to the 
witnesses' testimony, but I would ask this question: Why do the 
proponents of this bill persist in claiming that it is not 
amnesty? Could we just agree that it is and move on with the 
debate of the bill? That is what has held up this debate in 
America now for probably about 4 years.
    And I would just define amnesty. We have done so 
consistently in this Committee. To grant amnesty is to grant a 
pardon to immigration lawbreakers and reward them with the 
objective of their crime. A simple definition. It is solid, it 
holds up under scrutiny.
    And as long as we are talking about the same thing here, I 
do think that we have to have this debate, but I would like to 
have it after the next election because the Senate has spoken. 
This bill has no chance of moving through this, I don't believe 
through this floor. And if it did, I don't believe it has any 
chance of being taken up by the Senate. And so I would identify 
this as a piece of legislation that--it is here for vetting, 
but it is not here for processing.
    We will hear what the witnesses have to say.
    I thank you, Madam Chair, and I yield back the balance of 
my time.
    Ms. Lofgren. The gentleman's time is expired.
    I would now ask if the Chairman of the full Committee, 
Chairman Conyers, wishes to make an opening statement?
    Mr. Conyers. Thank you, Chairwoman Lofgren.
    There are a number of reasons why this is a very important 
hearing. The first is that the Chairman of the Agriculture 
Committee just approached me earlier this morning to tell me 
about the crisis that is going on in farming.
    I don't know if my friends, the witnesses, have heard about 
it, but he says there is an absolute crisis among farmers. And 
you can check with your own States and areas.
    That is that they don't have anybody to deal with the huge 
agricultural production that we engage in in this country. And 
the prices of fruit and vegetables may likely go up 100 percent 
because of our failure to take this positive action. And so he 
has asked, Madam Chairwoman and Mr. King, that we have joint 
hearings with Agriculture and Judiciary on this subject of the 
crisis in the farm community. And I am sorry I didn't get a 
chance to raise it with both of you before now.
    The second thing is that the American people haven't spoken 
about reformed immigration because what happened in the Senate 
is that they did not reach cloture to cut off debate. That is a 
little bit different from the substance of what has happened. 
We need to take that into consideration.
    Number three, we have got this 60-day no-match letter, 
which is going to drive a lot of people--if your Social 
Security number and everything don't match up, you are out. And 
that is going to drive a lot of people who won't have time to 
get it corrected within a 60-day period--it is likely to drive 
them underground.
    Finally, I would just like to point out that this term 
``amnesty'' has been misused more times in this debate over the 
subject matter than any other word I can remember being misused 
over this long a period of time. Amnesty can't mean that you 
pay fines, that you pass a national security check, that you 
have worked for 6 years, that you end up at the end of the line 
to come back. That is not amnesty. That is working your way 
back into reentry.
    And I close with the observation that in 1986, was it the 
Senate--both houses passed a reformed immigration bill. So now 
that you have had my corrective information that clears your 
head, to begin to approach this matter as impartially as you 
can. I have never noticed so much unnecessary anti-immigrant 
bias.
    We need to enforce immigration laws, true. But we also need 
to realize that we are a Nation of immigrations and it is in 
that spirit that I commend the gentlelady, Chairperson Lofgren, 
for holding this hearing. And I thank her for this opportunity.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, Chairman, Committee on the 
   Judiciary, and Member, Subcommittee on Immigration, Citizenship, 
            Refugees, Border Security, and International Law
    Since the Senate failed to move comprehensive immigration reform, 
the white-hot rhetoric of the debate has cooled off a little bit in the 
ensuing months. Yet, the failure of others to act does not absolve us 
from the following undeniable facts:

        <bullet>  Our Nation's immigration system is still in disarray.

        <bullet>  Families coming to our shores looking for a better 
        life are still caught in a tangle of confusing requirements and 
        traps for the unwary.

        <bullet>  Employers still risk serious business disruptions 
        from unannounced round-ups of their employees while our 
        citizens fear the deportation of loved ones living in the 
        United States without documents.

        <bullet>  Businesses that pay good wages still have to compete 
        with disreputable companies that get unfair advantage from 
        underground wages and substandard working conditions.

    We cannot close our eyes to these problems. And, so we must 
continue the long and arduous process toward immigration reform. 
Admittedly, this process will not always be easy and it may not happen 
quickly. the work of Nevertheless, immigration reform is something that 
needs to be addressed whether comprehensively or in its component 
pieces.
    Today, we continue this process by considering the STRIVE Act, a 
That bipartisan measure that seeks sought to strike the right balance 
on immigration reformthe realities of the Senate with what the 
Administration initially said it needed. The bill that failed cloture 
in the Senate was not nearly as progressive as the STRIVE Act, and that 
bill was still attacked as being an ``amnesty'' bill. My colleague, 
Luis Gutierrez, the co-author of the STRIVE Act, along with my 
colleague on the other side of the aisle, Jeff Flake, have walked a 
delicate balance between the ideals of the various immigration 
constituencies and pragmatic legislative realities. Their efforts 
remind us of the moral imperative of the real people--the men, women, 
and children--behind the debate.
    It is because of these real people that we must continue to 
construct an immigration system that is fair, orderly, and controlled.
    It is because of these real people that we must keep families and 
communities foremost in our minds as we carry out our legislative and 
oversight functions.
    And, it is because of those real people that we must look beyond 
the rhetoric, the fear, and the policy battles, and think about the 
America that we can become.

    Ms. Lofgren. I thank the Chairman.
    And in the interest of proceeding to our witnesses, mindful 
of our busy schedules, I would ask that other Members submit 
their statements for the record within five legislative days. 
And without objection, all opening statements will be placed 
into the record. And without objection, the Chair is authorized 
to declare a recess of the hearing at any time.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    I thank Chairwoman Lofgren for convening this important hearing 
regarding H.R. 1645, the ``Security through Regularized Immigration and 
a Vibrant Economy Act of 2007.'' The hearing comes at a critical time 
for our nations when the failure of comprehensive immigration reform 
efforts in the US Senate earlier this year has produced disastrous, 
social, economic, and legal and security consequences I and other 
strong advocates of comprehensive immigration reform have warned about 
in the past. In addition, this hearing comes at a time when our nation 
is facing a moral dilemma which is beginning to even divide families 
and communities because of the very sensitive nature of the immigration 
debate and how it is portrait by its detractors.
    Madam Chair, as one of the principal and long-standing supporters 
of comprehensive immigration reform in the US Congress and an author of 
a comprehensive immigration reform bill, the SAVE AMERICA Act, I do 
hope that today's hearing will serve as a catalyst for pro-reform 
forces in the US Congress and indeed our nation and provide impetus for 
a prompt revival of a vigorous immigration debate that simply could no 
longer be postponed.
    Madam Chair, I should note that the STRIVE Act is a good effort to 
address the complexities and extraordinary challenges a genuine 
immigration reform presents us with. It does so with its provisions for 
increased border protection and interior enforcement, stricter 
penalties for immigration and criminal law violators along with and 
attempt to improve the existing broken employee verification system. It 
also addresses the ever changing needs of our dynamic economy with its 
foreign worker provisions, along with the path to earned legalization 
for those illegally here but who meet the strict eligibility 
requirements. Last but not least, it attempts to preserve essential 
American values as reunification of families which could accomplishes 
with its revisions to the family visa categories.
    Yet the STRIVE Act is but one step in the right direction. The 
recent failure to pass workable comprehensive immigration reform 
legislation has caused and will continue to cause, the most undesired 
consequences for our economy and for individual businesses and 
families.
    The federal government's failure to enact a comprehensive response 
to the immigration problem has fueled the growing frustration of state 
and local governments and resulted in a hodge-podge of state laws and 
local ordinances relating to immigration. As of July 2007, more than 
1400 immigration-related bills have been introduced in the legislatures 
of the several states. Since January of this year, 170 of these bills 
have become law in 41 states and another 12 await gubernatorial 
signature.
    In some instances, as in the case with the Arizona legislature, 
states have passed laws that severely penalize employers who exhibit 
the highest good faith in the hiring of employees. No doubt these news 
laws will be challenged in the courts on the grounds that they violate 
federal or state constitutional provisions.
    Exacerbating the chaos caused by increased state involvement in the 
immigration field is the recent announcement that Immigration and 
Customs Enforcement (ICE) and other federal agencies will focus almost 
exclusively on the ``enforcement'' leg of what thoughtful observers 
recognize as the three-legged comprehensive immigration stool.
    The building of walls and concentrating border patrol agents in 
large metropolitan areas have forced unscrupulous human smugglers to 
shift their routes to isolated desert areas where forbidding terrain 
and merciless heat has caused a spike in human death and injury. 
Escalating the number of raids on businesses and immigrant communities 
has resulted in economic dislocation and the disruption of community 
life, including thousands of minor children being left without proper 
care and vulnerable to disease and neglect.
    In reaction to these disturbing developments I recently wrote a 
letter to President Bush drawing his attention to the fact that the 
raids on communities and businesses are causing the destruction of 
innocent families and small business with disastrous economic, social 
and moral consequences for our communities. I called on President 
Bush's leadership in helping delay the implementation of Immigration 
and Customs Enforcement's final rule on ``Safe Harbor Procedures for 
Employers who receive no-match letters.'' Important stake-holders in 
the immigration debate subsequently reacted in their own way in an 
attempt to block the increased worrisome emphasize on enforcement 
action. Only few days ago, AFL-CIO secured a Temporary Restraining 
Order from the Courts against the implementation of the same rule.
    This new rule is a dramatic shift in the responsibilities and 
burdens placed on employers. Prior to this new rule, employers were not 
required to respond to ``no match'' letters and indeed were advised not 
to take action against these employees since these letters were 
designed to be informational rather than for enforcement. Now, however, 
the new regulation requires employers to not only respond to ``no 
match'' letters, but also to do so within a specified timeframe to 
avoid liability. Failure to respond in such a manner run the risk that 
DHS could impute onto the employer constructive knowledge of employing 
an unauthorized immigrant, which could subject the employer to 
sanctions, civil fines and even criminal prosecution. However, acting 
quicker than the timeframes codified by the safe-harbor procedures 
could subject employers to national origin discrimination and wrongful 
termination claims under the Civil Rights Act of 1964.
    Many of the businesses in my district, among them restaurants, 
hotels, agro-businesses, and construction and landscaping companies 
depend for their survival on the employment of immigrants. Some have 
estimated that employers will seek protection from prosecution under 
the new regulation by terminating hundreds of thousands of workers. 
However, this final regulation was announced despite overwhelming and 
nearly unanimous opposition from business and labor organizations 
alike, which submitted most of the 5,000 comments the Department of 
Homeland Security (DHS) received regarding this proposed rule.
    I should stress that I am not against raids and proper enforcement 
of our immigration laws but the current enforcement regime is doing our 
nation more harm than good, diverting attention and resources from our 
efforts to combat counterterrorism and protect our communities from 
serious crime. Worse yet, the vacuum created by the lack of 
comprehensive reform risks fomenting racism, animosity and violence 
toward persons of Hispanic origin even in regions of our country where 
they were welcomed less than a generation ago. In short, the 
``enforcement-only'' approach'' will not solve the immigration crisis.
    The only effective solution is comprehensive immigration reform. I 
have introduced a bill that would provide such reform, the Save America 
Comprehensive Immigration Act, H.R. 750. It requires the Secretary of 
Homeland Security to impose a 10% surcharge on fees collected for 
employment-based visa petitions. These funds would be used to establish 
much needed employment training programs for our rural and urban areas.
    It has three legalization programs. It would require the Secretary 
of Labor to conduct a national study of American workplaces on the 
exploitation of undocumented alien workers by their employers. It also 
provides the Border Patrol with the personnel, resources, and equipment 
that it needs to secure the border. Our borders will continue to be out 
of control until we have immigration reform that provides more 
opportunities for immigrants to come to this country legally.
    I know that many Americans of goodwill have a different view of the 
problem and advocate different solutions to the immigration challenge 
facing America. That does not make them bad people. It simply means we 
must redouble our efforts to get our message out. It means we need to 
work harder at rebutting the disinformation that is spread by right-
wing pundits, commentators, and politicians. As President John Kennedy 
famously noted:

        ``The great enemy of the truth is very often not the lie--
        deliberate, contrived and dishonest, but the myth, persistent, 
        persuasive, and unrealistic. Belief in myths allows the comfort 
        of opinion without the discomfort of thought.''

    Opponents of comprehensive immigration reform after managing to 
defeat the reform efforts in the US Senate have brought the nation to a 
crisis point which demands the immediate attention and intervention of 
a wide spectrum of stake holders in the reform effort. Now more than 
ever, a comprehensive reform is a necessity and not a luxury for our 
nation.
    The STRIVE Act is a good step in the right direction and hope that 
today's hearing will indeed serve as a catalyst for those of who have 
invested so much in the effort to produce a comprehensive immigration 
reform rally our forces again.
    I support comprehensive immigration reform because only a 
comprehensive solution to the immigration can achieve the multi-faceted 
goals of a humane immigration system. At its best, American immigration 
policy should strengthen the nation's economy, secure its borders, 
protect American workers, and reflect the nation's values and historic 
role as the beacon of hope and opportunity for the world. I welcome the 
opportunity to engage in meaningful dialogue about immigration reform. 
After all, that it what it is going to take to find the common ground 
necessary to move America forward.
    Thank you again, Madam Chair, for convening this meeting and I look 
forward to hearing from our distinguished witnesses. I yield back the 
balance of my time.

    Ms. Lofgren. We are honored to have four of our colleagues 
as witnesses today. We know you well, but not everyone here in 
the witness room necessarily knows you, so I am going to 
introduce each distinguished person.
    Seated first on the panel is Congressman Jeff Flake, who is 
serving his fourth term in Congress representing Arizona's 6th 
Congressional District. Before serving in the House, Mr. Flake 
was the Executive Director of the Foundation for Democracy, a 
foundation monitoring the south African nation of Namibia's 
independence process. Following his work at the foundation, he 
was named the executive director of the Goldwater Institute. He 
graduated from Brigham Young University where he received his 
bachelor's degree in international relations and a master's 
degree in political science. Along with Congressman Gutierrez, 
Congressman Flake is the principal co-author of the STRIVE Act. 
He and his wife Cheryl have five children.
    I would next like to welcome my co-Californian Congressman 
Joe Baca, who has represented California's 43rd District since 
1999. Congressman Baca served as an Army paratrooper between 
1966 and 1968, after which he earned his bachelor's degree from 
California State University--L.A.
    Congressman Baca and his wife Barbara opened their own 
business in San Bernardino in 1989, while raising four 
children. First elected to the California State Assembly in 
1992 and State Senate in 1998, we of course know Congressman 
Baca as a leader on the Agricultural and Financial Services 
Committees. He serves now as the distinguished Chairman of the 
Congressional Hispanic Caucus.
    It is also my pleasure to introduce Congressman Ray LaHood, 
serving his 7th term as the Representative from Illinois' 18th 
District. The grandson of a Lebanese immigrant, Congressman 
LaHood earned his bachelor's degree in education and sociology 
from Bradley University. He began his professional career as a 
junior high school teacher, and after serving in the Illinois 
State House in 1982, he served as the Chief of Staff to House 
Republican leader Bob Michel. A Member of the Appropriations 
Committee, Congressman LaHood and his wife, Kathy, have four 
children and seven grandchildren. And all of us are sad to know 
that Ray has said that this is his last term with us here, and 
it has been a pleasure to serve with him these many years.
    And finally, I am pleased to recognize another co-
Californian, the minority's witness, Congressman Brian Bilbray, 
the Representative from California's 50th District since June 
of 2006. Congressman Bilbray was first elected to Congress in 
1994 but co-chaired the Federation for American Immigration 
Reform between 2001 and his 2006 re-election. In addition to 
his work on the Committee on Oversight and Government Reform, 
Veterans Affairs, and Science and Technology, he is a member of 
the Republican Policy Committee and chairs the Immigration 
Reform Caucus. A native of San Diego, Congressman Bilbray has 
served San Diego County for over two decades as a mayor, as a 
county supervisor, and as a Member of Congress. And I would 
note that I first met Brian when we served on our respective 
county boards of supervisors, myself in Santa Clara and he in 
San Diego. He and his wife Karen have five children and six 
grandchildren. Lucky you.
    So we will begin with your testimony. You know the drill on 
the lights and the 5-minute rule. Obviously, we will not have a 
heavy gavel.
    And we would ask Congressman Flake if you would begin.

  TESTIMONY OF THE HONORABLE JEFF FLAKE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Flake. I thank the Chair. I thank the Chair and 
Committee Members for holding this important hearing.
    I am glad to be back in the Judiciary Committee, if not on 
the Judiciary Committee. I received the equivalent of a no-
match letter in January. So unfortunately I have to be on this 
side.
    I think all of us watched with a lot of frustration the 
process this year, particularly in the Senate, where they 
discussed, came up with a plan, and then came away not being 
able to pass anything to come here to the House. I think that 
we will all, the longer we go, be rueful that nothing--that we 
did no comprehensive reform this year.
    When you look across the country, you recognize that there 
have been 1,400 immigration bills introduced out there across 
the country; 170 laws have been enacted in 41 States, including 
my home state of Arizona. As mentioned, it is kind of a 
patchwork of laws that simply aren't going to work very well 
because, as we know, immigration and labor law is largely 
Federal, and it is inescapable that it has to be the Congress 
that moves here, whether it is the Administration enacting new 
regulations or States moving forward. Until you have 
comprehensive immigration reform of our laws, it is going to be 
difficult to have any semblance of meaningful, workable 
immigration reform.
    Let me just respond to a little of what was said before 
about why don't you just call this an amnesty, that is what it 
is, it is just like the 1986 law. It is not like the 1986 law. 
There are many differences between what is proposed here and 
the 1986 law. The 1986 law had no fines at all. There were some 
processing fees, I think, attached, but no fines.
    There were no work requirements with the 1986 law. Here 
under this piece of legislation, you have to work for 6 years. 
There were no requirements to exit the country and then reenter 
legally. There are those requirements here.
    Most importantly, the 1986 law was not comprehensive. We 
either failed to recognize or failed to have the political 
wherewithal to know that we would need a temporary worker 
program going forward, so we didn't enact one. Therefore, the 
1986 law was out of date the day it was signed into law and we 
didn't have a mechanism for legal workers to come in the 
country in any meaningful number. And so they came illegally.
    And we would have that same problem today if we enacted all 
the enforcement measures we could do without a meaningful 
temporary worker program going forward. That is why this 
legislation was careful to be comprehensive, to have 
enforcement measures, tough border enforcement, tough interior 
enforcement, biometric cards, identifiers that we simply don't 
have today. Employers simply don't have the tools to 
meaningfully enforce the law today unless the Congress moves 
ahead and makes some changes, and that is what this is all 
about.
    And that is why I am glad that this Committee has seen fit 
to hold this hearing and try to move forward.
    Let me just say that out there in the States, we are in a 
very difficult problem. I don't blame my home state of Arizona, 
the State legislature, or others who are moving ahead and 
enacting their own laws and trying to get a handle on this 
situation.
    We are in a bad way in Arizona. We bear a disproportionate 
burden of the Federal Government's failure to have rational 
immigration law and to enforce the law that we have. 
Healthcare, education hit us particularly hard and that is not 
going to change until we have comprehensive reform here.
    That is what this legislation was supposed to do. I say was 
supposed to do, as if the time is passed. I am glad this 
hearing is being held and I hope that we can move forward to 
markup and actually get it this year, but I know it is 
unlikely, frankly, and I think that that is too bad.
    Let me just give very briefly the high points of this 
legislation. I will just sum up.
    As I mentioned, it is tough border enforcement. There is 
interior enforcement with biometric cards so employers will 
finally have the tools, and it sets up a new worker program for 
low skill workers.
    We know when you look at demographics, we are going to need 
a labor force in the future that we simply don't have. And when 
I hear people talk about amnesty, it strikes me that those who 
say let us simply enforce current law are counting on the fact 
that we simply can't enforce this law very quickly.
    Five percent of the workforce out there, about 7 million 
people, are undocumented. That means if you remove them from 
the workforce, there would be severe dislocations and you would 
have severe problems. Everyone on either side of this issue 
knows that. But those who say we can simply enforce the law are 
counting on the fact that it would take years to actually 
remove those who are here, because if you remove them 
immediately, you would have severe dislocation.
    So this notion that this is an amnesty when simply not 
enforcing the current law is not an amnesty strikes me as 
inconsistent. I just don't get the distinction there.
    With that, I will go ahead and yield back and wait for 
questions.
    I thank the Chair.
    [The prepared statement of Mr. Flake follows:]
  Prepared Statement of the Honorable Jeff Flake, a Representative in 
                   Congress from the State of Arizona
    Thank you, Madam Chairwoman, for holding this important hearing to 
examine The Security Through Regularized Immigration and a Vibrant 
Economy Act of 2007 (STRIVE Act), introduced by Congressman Gutierrez 
and myself. I am pleased that the Immigration Subcommittee has turned 
its attention to both this important bill and the important issue of 
comprehensive immigration reform.
    Earlier this year, it was with great disappointment that I watched 
the negotiations on a bipartisan and comprehensive approach to 
immigration reform in the Senate take crucial steps forward only to be 
ground to a halt in June. However, the sentiment that I expressed at 
the time remains all the more valid today--inaction is a victory for no 
one on this issue. When it comes to reforming our broken federal 
immigration system, Congress failing to act is simply not an option.
    This subcommittee is integrally familiar with the many facets of 
the problems caused by our broken immigration system. Our current 
immigration laws are not realistic and there are insurmountable 
obstacles to their enforcement. Among other consequences, our approach 
to immigration policy has yielded a steady stream of immigrants 
crossing the border without inspection or overstaying their visas, an 
estimated 12 million undocumented immigrants within the U.S., a 
bureaucratic and ineffective temporary worker program that is little 
help to a consistent worker shortage, and embarrassing visa processing 
backlogs. While many agree on the problems, Congress has been unable to 
agree upon a solution. With state and local governments stepping up and 
the Administration's upcoming pressure on employers, Congress' 
prolonged inaction is making a bad situation worse.
  state and local officials stepping in due to congressional inaction
    According to a recent analysis, the first half of 2007 saw more 
than 1,400 bills dealing with immigration introduced in state 
legislatures, with 170 laws enacted in 41 states. While the Immigration 
Reform and Control Act of 1986 made it illegal for employers to 
knowingly hire, recruit, or refer for a fee, or continue to employ an 
alien who is not authorized to be so employed, enforcing this 
prohibition has been all but impossible due to the prevalence of 
fraudulent documents and the ease with which undocumented workers could 
obtain them. Tired of waiting for Congress to act, states are trying to 
take matters into their own hands, including my home state of Arizona.
    State laws dealing with immigration issues have generally followed 
a strategy of attempting to encourage immigrants, particularly those 
without proper documentation, to leave the state by making life for 
them untenable. Additionally, state immigration laws also often seek to 
target employers that are suspected of hiring workers that are not 
authorized to work in the U.S. or those providing housing to illegal 
immigrants with strict penalties and sanctions.
    These state immigration laws are being consistently challenged, 
however, with opponents charging violations of the separation of 
powers, federal commerce clause, or due process. Along with court 
challenges, many that are dealing with strict state immigration laws, 
attempting to do what Congress should, have fears that they will lead 
to widespread discrimination by employers. It is unfortunate that an 
increase in penalties for hiring undocumented workers is often not 
coupled with the appropriate tools that employers could use to 
accurately identify those that are authorized to work in the U.S.
    There is no disputing that the responsibility of crafting 
immigration policy falls on the shoulders of Congress, not the states. 
When Congress fails to act, we run the risk of what we are seeing 
currently: a patchwork of differing state laws that will be ineffective 
at providing a comprehensive solution. Rather than encouraging them to 
leave the country, this inconsistent and segmented approach simply 
provides those in the country illegally a long menu of options from 
which to choose instead of complying with federal immigration law. 
Rather than fifty attempts to handle the problem, Congress should move 
forward with a national approach to immigration reform.
          the administration's reforms are an incomplete step
    Not to be outdone by state and local governments stepping into the 
immigration fray due to Congressional inaction, the Administration has 
also announced an aggressive plan to increase border security and 
immigration law enforcement. On August 9th, the Administration 
announced twenty-six specific policy reforms in a number of areas, 
including: border security, interior enforcement, worksite enforcement, 
the guest worker programs, existing immigration, and assimilation. 
While the Administration is to be commended for doing what they can 
with the immigration problem and for attacking the issue in as 
comprehensive manner as possible, these reforms are severely limited in 
scope because they all fall within the bounds of the existing 
immigration laws. One of the new provisions in particular, while an 
aggressive measure intended to enforce the law prohibiting the 
employment of unauthorized workers, could have significant and negative 
unintended consequences as well.
    While still attempting to clear legal hurdles, the Administration 
has finalized regulations proposed in 2006 and held until Congress 
faltered on moving ahead with comprehensive immigration reform. The 
Department of Homeland Security is planning on sending some 140,000 
employers so-called social security ``no match letters.'' These ``no 
match letters'' are generated by the Social Security Administration 
when an employee's name and social security number are not consistent. 
Under the finalized regulations, employers will have ninety days to 
resolve any discrepancies that have resulted in the ``no match letter'' 
or terminate the employee. Otherwise, they will be considered to have 
knowingly hired an unauthorized worker. With an estimated seven million 
unauthorized workers making up roughly five percent of the civilian 
workforce and consistent reports of worker shortages, the business 
community is rightfully wary of stepped up worksite enforcement that is 
not part of a comprehensive solution to our broken immigration system.
    While having to operate within the bounds of existing law, the 
Administration is arguably using the wrong tool for the right problem. 
Outside of questions regarding whether the Department of Homeland 
Security has the necessary authority to require employers to deal with 
``no match letters,'' the Social Security Administration's ``no match 
letters'' were never intended to play a primary role in worksite 
enforcement of immigration laws. As such, there is considerable concern 
about whether the Social Security Administration's database and 
information is up to the challenge, given what is at stake for both 
workers and employers.
    Even if the Social Security Administration's databases and 
information could be used for worksite enforcement with some degree of 
confidence, ``no match letters'' would remain a dubious policy option 
for immigration law enforcement. The ``no match letter'' approach 
targets so-called ``good actor'' employers--employers that are doing 
their paperwork and paying their taxes. An approach to worksite 
enforcement such as this makes trying to follow the rules and obey the 
law a disincentive for employers, who would have a reduced risk of 
being snared in immigration violations or discrimination lawsuits if 
they simply filed no paperwork at all. In addition, this approach is 
too far into the hiring process to be effective for either the employee 
or the employer. Rather than providing a workable and accurate employee 
verification system for employers to use, this approach relies on the 
employee being hired and paperwork being submitted to the Social 
Security Administration before a problem could be detected.
    I would submit that these are the kinds of problems one would 
expect when the agencies are tasked with bootstrapping existing and 
ineffective regulatory tools to fix a problem that demands a 
Congressional solution. More troubling are the persistent rumors that 
the ``no match letter'' approach has been pursued as a likely approach 
that will put U.S. industry in the worst situation possible and thus 
make the immigration issue one that Congress simply cannot ignore. For 
those of us that live near the border, it is hard to believe there are 
still those within the U.S. that believe the situation could get any 
worse.
      comprehensive immigration reform is the only viable solution
    Rather than fifty individual and inconsistent approaches to 
immigration reform muddying the waters or ineffective regulatory tools 
that run the risk of ineffectively addressing only one piece of a 
complex problem, Congress must act. I wholly support enforcing our 
existing laws, but we simply have to face the fact that our existing 
immigration policies have insurmountable obstacles that individual 
state laws or selective regulatory approaches cannot fix and that 
demand Congressional action. The legislation introduced by Congressman 
Gutierrez and myself is a comprehensive approach to fixing our 
immigration system and includes provisions dealing with border 
security, interior enforcement, worker verification, a new worker 
program, visa backlogs, and legalizing the undocumented population.
    The Gutierrez-Flake bill would increase border enforcement through 
increasing enforcement personnel on the border and requiring a thorough 
evaluation of information-sharing, international and federal-state-
local coordination, technology, anti-smuggling, and other border 
security initiatives to ensure that we are doing everything possible to 
bolster border security. The STRIVE Act would strengthen interior 
enforcement by increasing penalties for crimes committed by immigrants, 
including those related to smuggling and gang activities. The bill also 
sets up an employment verification system whereby employers would be 
required to confirm each potential employee's eligibility to work.
    The STRIVE Act would also set up a new worker program for low-
skilled workers, when a U.S. worker cannot be found to fill a needed 
job. It addresses the failures and problems with past worker programs 
and charts a new course that better protects workers, while more 
effectively and efficiently meeting the needs of employers. The STRIVE 
Act also would overhaul the family-based and employment-based 
immigration system to reduce backlogs and inefficiencies. Finally, 
under this legislation, undocumented workers who pay a fine and pass 
extensive and thorough background examinations would be eligible for 
conditional status with work and travel authorization for six years, 
with the conditional ability to adjust their status if they leave the 
country and re-enter legally.
    Madam Chairwoman, I appreciate the opportunity to testify on the 
need for comprehensive immigration reform. I hope that I have made 
clear that whether Congress acts or not, the immigration issue 
continues to progress. For Congress, it is as simple as asking whether 
we want to fix the problem . . . or continue to allow it to get worse.

    Ms. Lofgren. Thank you.
    Congressman Baca?

   TESTIMONY OF THE HONORABLE JOE BACA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Baca. Thank you very much, and thank you for allowing 
me to say a few words.
    As Chair of the Congressional Hispanic Caucus, the CHC, 
under the leadership of our immigration task force, the chair, 
Mr. Gutierrez, has a long and a proud history of working on 
immigration. We thank you.
    I, and the Caucus particularly, want to say thank you for 
your services to us, to our country, and to those 12 million 
undocumented.
    I also want to thank you, Madam Chair, and the Subcommittee 
for having this important hearing today on this vital important 
issue.
    Immigration is critically important not only to the CHC but 
to every immigrant, whether you are Italian, Irish, Black, 
Asian. Our constituents across the country are very much 
concerned that we take action. Whether it is a Hispanic small 
business owner, the family struggling to stay together while 
living in fear or individuals who dream of life in the United 
States only to be confronted with unrealistic processes fraught 
with delays, the communities we represent care about 
immigration reform.
    Our immigration system is broken, and I state our 
immigration system is broken. People are suffering. People are 
suffering. As a result, this is an issue much more than a 
Hispanic or immigrant issue. This issue is about an American 
issue. The fact is, our broken immigration system is hurting 
our economy and making our Nation less secure.
    As such, CHC stands in willingness and responsibility to 
roll up our sleeves and get to work in a bipartisan fashion to 
make real headway for the good of all Americans. We offer our 
help, expertise, and commitment to lead the immigration issue 
on behalf of the community and our constituents.
    As we believe the STRIVE Act is a comprehensive solution, 
and it is a comprehensive solution that best fits immigration 
problems and the political reality that we are in. STRIVE is a 
comprehensive bill that addresses employers, business' needs, 
holds employers accountable, protects employees rights, and 
provides for strong border security.
    STRIVE also addresses a need of farmers through the Ag 
provision. It sets up an employee verification system to help 
our businesses better comply with immigration laws. It benefits 
families by giving more children access to education through 
the Dream Act. It also makes our Nation safer by increasing 
enforcement personnel on the borders and increasing penalties 
for crimes committed by immigrants.
    STRIVE provides a pathway to legalization for qualified 
hardworking immigrants only, and I say hardworking immigrants 
only. It is critically important to emphasize that this is not 
an amnesty, as the gentleman indicated before. Any attempt to 
brand it as such is empty rhetoric and designed to play 
politics with our security.
    It calls for real penalties, for real sacrifices. In fact, 
many of our members who are supportive of the immigrants' 
community might personally wish for a different bill, but at 
the end of the day we feel STRIVE offers the best chance for 
real reform.
    STRIVE helps families stay together and many of us have to 
look at many of the cases in our districts who know the 
heartbreaking realities facing immigrant families who want to 
play by the rules to adjust their status, but are facing 
unrealistic backlogs and inefficiencies in our current visa 
system and are also living in fear.
    Congress has the responsibility to deal with the broken 
immigration system and we cannot ignore the immigration crisis, 
that it will go away or it will solve itself. And that is not 
the solution to the problem. We have to address the problem. It 
is the responsibility of Congress. It is not the responsibility 
of the States. It is ours and we must take action. That is why 
the President of the United States was supporting and is 
supporting comprehensive immigration reform.
    Congress needs to take action and the STRIVE Act offers the 
best solution. It is time to solve the crisis. I urge the 
Subcommittee and Congress to strongly consider the STRIVE Act, 
a solution that is fair and realistic. It is important for our 
security and to help businesses and protect our Nation and our 
proud immigrant history.
    I thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Baca follows:]
   Prepared Statement of the Honorable Joe Baca, a Representative in 
                 Congress from the State of California
<bullet>  Good morning and thank you for allowing me to speak today, as 
the Chair of the Congressional Hispanic Caucus.

<bullet>  The CHC, under the leadership of our Immigration Task Force 
Chair, Rep. Gutierrez, has a long and proud history of working on 
immigration. I particularly want to thank Rep. Gutierrez for his 
service.

<bullet>  I also thank Chairwoman Lofgren and the Subcommittee for this 
important hearing today and for their leadership on this vital issue.

<bullet>  Immigration is critically important to the CHC and our 
constituents across the country. Whether it is the Hispanic small 
business owner, the family struggling to stay together while living in 
fear, or the individual who dreams of a life in the US only to confront 
an unrealistic process fraught with delays--the communities we 
represent care about immigration reform.

<bullet>  Our immigration system is broken, and people are suffering. 
And as a result, this issue is much more than a ``Hispanic'' or 
``immigrant'' issue. This issue has become an American issue.

<bullet>  The fact is our broken immigration system is hurting our 
economy, and making our nation less secure.

<bullet>  As such, the CHC stands with willingness and responsibility 
to roll up our sleeves and get to work in a bipartisan fashion to make 
real headway, for the good of all Americans.

<bullet>  We offer our help, expertise, and commitment to lead on the 
immigration issue on behalf of our community and our constituents.

<bullet>  And we believe that the STRIVE Act is the compromise solution 
that best fits the immigration problem and the political reality we are 
in.

<bullet>  STRIVE is a comprehensive bill that addresses employers and 
business' needs, holds employers accountable, protects employees' 
rights, and provides for strong border security.

<bullet>  STRIVE addresses the needs of farmers through the Ag Jobs 
provision. It sets up an employment verification system to help our 
businesses better comply with immigration laws. It benefits families by 
giving more children access to education through the DREAM Act.

<bullet>  It also makes our nation safer by increasing enforcement 
personnel on the border and increasing penalties for crimes committed 
by immigrants.

<bullet>  STRIVE provides a pathway to legalization for qualified, 
hard-working immigrants only.

<bullet>  It is critically important to emphasize that this is not 
amnesty. Any attempt to brand it as such is empty rhetoric designed to 
play politics with our security.

<bullet>  It calls for real penalties and for real sacrifice. In fact, 
many of our Members who are supportive of the immigrant community might 
personally wish for a different bill.

<bullet>  But, at the end of the day, we feel STRIVE offers our best 
chance at real reform.

<bullet>  STRIVE helps families stay together. Many of us only have to 
look at the case work in our district offices to know the heartbreaking 
realities facing immigrant families who want to play by the rules to 
adjust their status, but are facing the unreasonable backlogs and 
inefficiencies of our current visa system.

<bullet>  Congress has a responsibility to deal with our broken 
immigration system, and we cannot ignore the immigration crisis in 
hopes that it will go away or solve itself.

<bullet>  Congress needs to take action, and the STRIVE Act offers the 
best solution.

<bullet>  It is time to solve this crisis. I urge the Subcommittee and 
the Congress to strongly consider the STRIVE Act as a solution that is 
fair and realistic.

<bullet>  It promotes security, helps business, and protects our 
nation's proud immigrant history. Thank you.

    Ms. Lofgren. Thank you, Congressman Baca.
    Congressman LaHood?

  TESTIMONY OF THE HONORABLE RAY LAHOOD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. LaHood. Thank you, Madam Chair.
    I want to say a special thanks to Congressman Gutierrez for 
announcing that he is running for reelection. I know that he 
wants to be back here and have the opportunity to be a key 
player in immigration reform.
    Luis, I know people in Illinois are thrilled with the fact 
that you will be running for reelection.
    I want to congratulate Congressman Flake for his leadership 
on this issue against real tough odds and a lot of opposition 
from people in his own State.
    The STRIVE Act, I believe, does strike the right balance 
between strengthening borders, increasing penalties for 
violators, rewarding those documented guest workers who have 
navigated the legal channels to be here, and giving a 
conditional path to citizenship to those here illegally.
    Some of you know that my grandparents came here from what 
is now Lebanon. They came in 1895. They settled in Peoria, 
Illinois. They didn't speak one word of English. What they did 
is they played by the rules, and they worked hard.
    This will give those that are here now that same kind of 
opportunity, to play by the rules. We need to create some rules 
that will allow people to stay here, because they have either 
been brought here by what are known as coyotes, or have come 
across the border seeking opportunities.
    Frankly, the idea that 12 million to 20 million illegals 
will be sent back to the country from which they came is 
nonsense. Anyone who proposes that is living in La La Land. 
These people are here doing jobs that Americans don't want. 
They are working in meatpacking plants that I represent in 
Central Illinois. They are working on farms that I represent in 
Central Illinois. They are picking fruits and vegetables; they 
are doing landscaping work; they are building homes in many of 
the States that we represent.
    We have to provide some kind of legal opportunity for 
people to be able to play by the rules and that opportunity 
does not exist today.
    Look, this is a comprehensive approach. The idea that you 
can throw out these code words, and you think if you say 
amnesty loud enough and often enough people are going to 
believe you. This is a comprehensive approach and it goes 
beyond the code words that people like to use that they think 
are going to really influence people's opinions.
    But in Congress, we have done things in a comprehensive 
way. Bankruptcy--it took 6 years. Welfare reform, 6 years. The 
WRDA bill, which is about ready to come out of a conference 
report--it has taken us 6 years to do that. Sarbanes-Oxley--it 
took us 2 years. The transportation bill that we passed 2 years 
ago. The Ag Bill, the farm policy that is being crafted--all in 
a comprehensive way, where people come together, they reach a 
consensus, they don't try and use threatening language. They 
don't try and intimidate other people. They come together to 
work together to solve problems. That is what people sent us 
here to do.
    The STRIVE Act is a good first step to allow us to get to a 
comprehensive approach and to send a message to not only 
employers but people who are living here, ``We are going to 
deal with this problem, we can deal with it.'' And if we set 
aside all of the kind of machinations that go on around here 
and work together, I believe this can happen. I believe it will 
happen. And I think principled people can talk about their 
differences and come together, and I hope that we will do that.
    Again, I want to thank those who have provided the 
leadership and ask those who have differences about how we get 
to the end in terms of providing workers to do those jobs and 
do it in a comprehensive way, put aside the kind of code words 
and threatening language and let us work together to make this 
happen.
    I thank you, Madam Chair, for the opportunity. I thank you 
for holding this hearing. I believe this jumpstarts our 
opportunity. Because the Senate hasn't done it has never 
stopped us in the House before. It shouldn't stop us now. Let 
us move ahead.
    [The prepared statement of Mr. LaHood follows:]
 Prepared Statement of the Honorable Jeff LaHood, a Representative in 
                  Congress from the State of Illinois
    Chairwoman Lofgren, Ranking Member King, members of the 
subcommittee, thank you for allowing me to testify in support of an 
important piece of legislation, H.R. 1645, the STRIVE Act. While the 
national debate on immigration is not at the forefront as it was 
earlier this summer, this is still a very significant issue, and I 
appreciate the opportunity to speak before the subcommittee.
    As you are aware, I am a descendent of Lebanese immigrants. My 
grandparents came to this country in search of better opportunities, 
and settled happily alongside fellow Lebanese immigrants in Central 
Illinois. The fact that I am here, testifying before you today as a 
Member of Congress, exemplifies the contributions immigrants are making 
to the United States. If this nation is accepting of those who wish to 
contribute to society with their skills and knowledge, as it has been 
in the past, it is our duty to provide an appropriate and functional 
process for the transition and assimilation of immigrants.
    I believe we are in agreement about the need to reform our 
immigration laws and enforcement procedures. It is clear we must assure 
the smooth entry of legal immigrants, better target and enforce 
existing visa programs addressing labor shortages, and more effectively 
prevent people from entering our country illegally. We have been 
strengthened by waves of immigrants throughout our history, and we must 
keep the door open and the melting pot working. However, in this era of 
terrorism, we must have far better control of our borders, both to 
protect ourselves from violence and to protect taxpayers from undue 
burdens. We must clarify our immigration policy, laws and procedures, 
and fund the resources to effectively and fairly implement it.
    I believe this legislation at hand--the STRIVE Act--provides a 
realistic and comprehensive approach when dealing with our immigration 
system, which is why I support it. This bill strikes a good balance 
between tackling border enforcement, making the visa system manageable, 
and giving those who have worked hard for a life in the United States 
the opportunity to become US Citizens.
    First, it is important that we secure our borders and stop the 
flood of illegal aliens who come into this country every day. This bill 
will help control this issue by alleviating much of the stress which 
has currently been placed on our borders. In order to strengthen our 
security presence, the STRIVE Act increases the number of border agents 
stationed at our borders by over 11,000 agents. It also increases other 
border personnel, such as port of entry inspectors, immigration and 
customs enforcement investigators, and U.S. Marshals by almost 4,000 
officers. The STRIVE Act even requires the development and 
implementation of new border surveillance technology such as constant 
monitoring by unmanned aerial vehicles. We must remain vigilant in the 
war on terror, and that includes keeping a close eye on our own 
borders.
    Concurrently, this legislation requires the development of a system 
for employers to electronically verify the legality of their employees, 
to ensure the labor they use is of valid origins and does not come from 
illegal aliens using forged documents. The STRIVE Act also strengthens 
penalties for employers who knowingly violate this system and hire 
illegals as employees. With the enforcement of these laws, employers 
will find more incentive to work through the legal channels and it will 
be easier to track documented workers in the United States.
    While it is recognized that most immigrants come to the United 
States with a desire to improve life for themselves and their families, 
we cannot ignore the crime generated from some of the illegal aliens 
living here. Accordingly, this legislation also increases penalties for 
those who illegally enter this country or participate in gang-related 
activity. With further increases in penalties for those who refuse to 
leave voluntarily or violate the terms of their stays, the STRIVE Act 
then authorizes a new immigration court system and new positions for 
DHS attorneys.
    One key reason I am supporting this bill is for the guest worker 
program it establishes. In order to deal with the number of aliens who 
seek any means possible into the United States, this bill sets up a 
program consisting of 400,000 new temporary guest worker visas. This 
will encourage both employers and immigrants to seek a lawful way into 
the United States. Farmers, landscapers, and the service industry will 
benefit greatly from this aspect of the legislation, as they often have 
a difficult time finding Americans who are willing to do the work and 
the jobs that immigrants so eagerly and diligently seek. Too many times 
I have had constituents in my office, asking for help to reform the 
guest worker programs because they cannot find employees from within 
the community and therefore rely on foreign workers.
    Perhaps most importantly, however, this bill addresses the millions 
of immigrants who are currently living and working in this country but 
do not have a path to citizenship. Many of the aliens currently here 
entered the U.S. legally, but have overstayed their visas or gotten 
lost in the application process. These are hard workers who contribute 
to the economy and call the United States home. For those who have been 
here for several years, they have the option to get in line and apply 
for permanent residency. After a rigorous process of paying fines, back 
taxes, providing past documentation, and returning home to their 
country of origin, many will be considered as candidates for 
citizenship. To send all these guest workers and laborers back home 
immediately would be devastating to our economy. Finding a good 
compromise between awarding citizenship and imposing penalties is 
important, and this bill does just that.
    I believe this legislation strikes the right balance between 
strengthening our borders, increasing the penalties for violators, 
rewarding those documented guest workers who have gone through the 
legal channels to be here, and requiring those who entered our country 
illegally to first return home and wait before being considered for 
citizenship. The vast majority of people who come to America do so out 
of a desire to improve their lives and are neither criminals nor a 
threat to our society. While we are beginning to make progress, more 
needs to be done promptly, both to enforce our laws against illegal 
immigration and to ensure the smooth entry of legal immigrants and 
guest workers. It is my hope that we will continue to work together for 
a comprehensive solution to an ever-present issue.
    Thank you, Madame Chairwoman, and Ranking Member King for inviting 
me to present my testimony on behalf of H.R. 1645. I urge the 
subcommittee to support this bill.

    Ms. Lofgren. Thank you, Congressman LaHood.
    Congressman Bilbray?

 TESTIMONY OF THE HONORABLE BRIAN BILBRAY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you very much, Madam Chair. I appreciate 
the chance to testify today.
    Madam Chair, as you know I grew up in a border community. I 
literally was raised in a home that had two houses between us 
and the border. I have spent my whole life watching what 
happens at the border when people in Washington, meaning well, 
make stupid mistakes when it comes to immigration control.
    I served as a lifeguard along the border. I would challenge 
anyone that I am probably the only Member of Congress that has 
rescued illegals when they are drowning, sadly recovered their 
bodies when they didn't make it. And, frankly, as a County 
Supervisor later, watching them being slaughtered on the 
freeways while they did what we call ``Bonsai Charges'' up the 
middle of the freeway after the last piece of legislation that 
was called ``comprehensive.''
    I served as a small mayor along that border, as a County 
Supervisor along with you; in fact, a county of 3 million 
people. And I now serve as Chairman of the Immigration Caucus.
    Let me just tell you, though, we have spent the 1986--since 
the 1986 amnesty proposal, when I was a County Supervisor and 
saw what happened along the border, we have had more people die 
trying to enter this country illegally every year than that was 
killed in the Oklahoma City explosion. Every year we have lost 
more than that. And that started in 1986 with the concept that 
we were going to reward illegal behavior by giving them amnesty 
at that time.
    And that is why I have been so strong on this. I have seen 
the human costs. It is not an abstract to me. I don't live 
2,000 or 3,000 miles from the border. I have seen the real life 
impact when it comes to what we do here in Washington.
    I also want to point out that I am proud that I am a child 
of a first generation immigrant: my mother. She was a war bride 
that came here in 1944, played by the rules, got her 
citizenship as quickly as humanly possible. And believe me, 
every time I go home and go upstairs to mom, she is always 
there to remind me that she played by the rules and everyone 
else should learn by example that this is a Nation of legal 
immigrants, Madam Chair, and legal means a lot in a Nation of 
laws.
    Now, since--you know, the other thing that a lot of people 
may not know, let me just say, I probably spend more time in 
Latin America than any other Member of Congress. I would be 
interested to talk about this. But I see this issue from the 
South looking up, and that is why I feel so strongly on it.
    The border is not an abstract to me. Immigration is not 
something that affects just one little community. It affects 
the entire region. And I would just ask you, with this bill, 
what do you want to accomplish with it? Do you want to stop 
illegal immigration? Because if you want to stop illegal 
immigration, Madam Chair, you do not start off the process of 
stopping illegal behavior by rewarding it.
    And for those who say this is not a reward, I ask you, 
under the STRIVE Act, the proposal that you allow somebody who 
is illegal in the country to enter the program and go through a 
program, are you going to allow everyone in the country, I mean 
in the world, who have never broken our immigration laws, to 
have the same option?
    Actually, the STRIVE Act has an interesting situation with 
the touchback. Now, think about the logic of this. Someone 
shows up from El Salvador and says, ``I have never broken your 
laws, I have never come into your country legally, but I would 
like to come in now.'' We say, ``Sorry. We have a process that 
you have to do.''
    But if someone shows up there from Guatemala who says, ``I 
have been in your country illegally for 10 years. Here is my 
proof. I have broken your laws.'' You say, ``Fine, you get to 
qualify for this program, and only if you can show that you 
have broken the law do you qualify for this program.''
    Madam Chair, when you give a special program and special 
status for someone based on the fact they have violated the 
law, like it or not, it is amnesty. And that is what the 
American people take it as, no matter how much we talk here.
    If it is not amnesty, then offer it to the hundred million 
people out there that would love to come to this country 
legally. But that is not what is being proposed here today.
    Now, there are challenges that we can work on, but rather 
than talk about a 600-page document, why don't we talk about a 
common ground we can work on. H.R.98 by Silvestre Reyes and 
David Dreier talks about--is included in this bill. Let us take 
that part and work on those things that we can find common 
ground on rather than playing to the extremes. Let us remember 
the mainstream of America that says let us make it simple for 
people to know who is illegally in this country and let us go 
to the source of illegal immigration, and that is illegal 
employment, and crack down on the illegal employers.
    And I challenge the majority. Here is your chance to crack 
down on those people that have been profiteering by the blood, 
sweat and I say the deaths of illegal immigrants, crackdown on 
the employers. And H.R.98 is the bill supported by the men and 
women of the Border Patrol who you and I hire and vest with the 
responsibility.
    And I would ask that we consider bringing the Border Patrol 
agents here, and I would admonish both sides here. This is an 
immigration bill. Why don't we bring in the people that would 
have to enforce the law? Would we do an education bill without 
ever talking to an educator? Would we do a military bill 
without every talking to somebody who is a general in the 
military? I ask you that we bring in that.
    So, Madam Chair, this is not the bill at this place. If you 
want to see what happened in the Senate happen again, bring 
this to the floor and see what the American people say. But I 
appreciate the chance.
    But I say again, let us join together, work on H.R.98, and 
then we can talk about moving the agenda together.
    I yield back.
    [The prepared statement of Mr. Bilbray follows:]
Prepared Statement of the Honorable Brian Bilbray, a Representative in 
                 Congress from the State of California
    Chairwoman Lofgren, Ranking Member King, members of the 
subcommittee, thank you for allowing me to participate in today's 
hearing regarding H.R. 1645, the STRIVE Act.
    As you may know, I grew up in a border community--just a few 
block's away from the intersection of the US/Mexico border and the 
Pacific Ocean. My comments today are based on many years of watching 
our changing immigration policy from the perspective of: a local kid 
growing up along the border, a former small town mayor, the former 
Chairman of the Board of County Supervisors in San Diego County, and as 
the Chairman of the Immigration Reform Caucus. I also speak today as 
the son of a legal immigrant. My mother was a war bride, emigrating 
from Australia following World War II. My mother followed the legal 
process, applying for a visa and then waited to receive permission to 
come to the United States.
    Since the beginning of this Congress, the membership of the 
Immigration Reform Caucus has increased by more than 20 percent to 111 
Members. The IRC is a bipartisan organization with more and more 
Members from both parties joining each month. I believe the growth of 
our Caucus this year reflects the concern that Members of Congress have 
with amnesty proposals advocated by President Bush, the Senate and the 
STRIVE Act.
    There is no reason why Congress should not take immediate action to 
secure our borders, strengthen our immigration laws, implement true 
interior enforcement and establish a working employer verification 
system. The immigration status quo is intolerable. Not because our 
immigration laws are broken, but because they are not vigorously 
enforced. Immigration enforcement has failed primarily because 
Administrations for 20 years have not enforced sanctions on employers 
who hire illegal immigrants. The Administration needs to enforce 
employer sanctions systematically, not just sporadically. The 
Administration claims we have a de facto amnesty now. That is true and 
it is the result of the Administration's own lack of determination to 
enforce the law. We do not need amnesty to enforce current law; we need 
to enforce the law to eliminate the need for amnesty. The practice of 
rewarding illegal behavior and ignoring current immigration laws must 
come to an end. No one believes that you can grant an amnesty first and 
enforce the law second.
    The STRIVE Act and similar plans have failed to gain wide support 
from the American people for a very simple reason: Americans do not 
believe that we should reward people for breaking our laws. While I 
believe there are MANY problems with the STRIVE Act, I will highlight a 
few of them.
    The STRIVE Act would grant amnesty to nearly all of the 12 to 20 
million illegal aliens in the United States via many different routes 
not just one amnesty. The bill would grant amnesty to illegal aliens by 
giving those here illegally and continuously since June 1, 2006, 
``conditional nonimmigrant'' status lasting for six years of work here 
in the United States, and would then allow them and their illegal alien 
spouses and children to become lawful permanent residents (LPRs).
    In order to adjust from illegal to legal status the illegal 
immigrant would simply have to pay a fine, undergo a medical exam, pass 
a security background check, agree to pay back taxes for any period, 
complete English language and U.S. history and civics requirements, and 
complete a ``touching back'' (i.e., leaving the United States and being 
readmitted at a port of entry properly equipped) before being granted 
LPR status (the bill allows for several exceptions). These requirements 
are remarkable similar to those required during the 1986 Amnesty. 
Despite these requirements, the citizens of the United State will see 
this legislation for what it is . . . AMNESTY. Additionally the STRIVE 
Act includes the AgJobs bill and DREAM Act with more amnesty 
provisions.
    While the STRIVE Act does make improvements in the area of border 
security such as increased personnel, improved equipment and 
infrastructure, I have concerns that it would undermine the sovereignty 
of the United States. I am concerned that the bill would require the 
State Department and Department of Homeland Security to report annually 
to Congress on the progress made toward ``developing and implementing 
an immigration security strategy for North America that works toward 
the development of a common security perimeter'' for the United States, 
Canada, and Mexico. Additionally, the STRIVE Act requires the 
establishment of a U.S. Mexico Border Enforcement Review Commission, 
which would be charged with making recommendations regarding ``the 
protection of human and civil rights of community residents and 
migrants along the international border,'' the ``adequacy and 
effectiveness of human and civil rights training of enforcement 
personnel on . . . the border,'' the effect of border enforcement 
efforts on the environment and the quality of life of border 
communities, and whether state and local law enforcement should 
cooperate in immigration enforcement. Furthermore, many provisions 
included in the legislation which seem to bolster enforcement and 
border security are already on the books under current laws such as the 
US-VISIT program and the building of a longer, more secure fence and 
infrastructure. These should already be in place under the Secure Fence 
Act of 2006, the Intelligence Reform and Terrorism Prevention Act of 
2004 and the Enhanced Border Security and Visa Entry Reform Act of 
2002.
    The STRIVE Act also concerns me because of the overall costs of a 
massive amnesty. While most illegal immigrants are unable to receive 
benefits and welfare programs due to their illegal status, once they 
have their status adjusted they will be able to receive benefits 
exceeding any possible taxes being paid into the system. Outside 
organizations such as the Heritage Foundation have estimated the costs 
of a massive amnesty on the U.S. taxpayer could be around $30 billion a 
fiscal year.
    Rather than rewarding lawbreakers and punishing potential 
immigrants who are following the law, the Immigration Reform Caucus has 
been working with Congressmen Lamar Smith and Peter King on two border 
security and immigration initiatives--a comprehensive border security 
and immigration reform bill (H.R. 2954, The Secure Borders FIRST ACT) 
and a resolution calling for full enforcement of all current 
immigration laws (H. Res 499, Resolution calling for the Enforcement of 
our Current Laws). These two measures represent a strong `Security 
First-No Amnesty' alternative to the Kennedy-Bush Senate Amnesty bill 
and the STRIVE ACT. The Secure Borders FIRST (For Integrity, Reform, 
Safety and anti-Terrorism) Act of 2007 will mandate operational control 
of all our borders and ensure better enforcement of current U.S. 
immigration laws. The bill also reforms the H-2A Visa program to allow 
for a market-based number of temporary agricultural workers each year. 
The legislation does not provide amnesty, or the legalization of aliens 
illegally residing in the United States. By reforming the H-2A program 
we already have in place, we can better enforce our immigration laws 
while ensuring American farmers have the workforce they need.
    The resolution calls for the enforcement of all immigration laws 
and points out a number of current laws that are not fully enforced. 
This includes implementing both the entry and exit portions of the U.S. 
VISIT program, enforcing the employer sanctions that were enacted as 
part of the Immigration Reform and Control Act of 1986, and increasing 
the number of Border Patrol agents, detention beds and immigration 
investigators. I believe that these are common sense measures the 
Congress should embrace.
    In conclusion, I would just like to remind all Members of Congress 
that in San Diego and Southern California and in many border regions, 
the impact of illegal immigration is very large and growing. Localities 
across the country from Hazelton, Pennsylvania to Escondido, 
California, in my district, have been attempting to deal with the 
problems of illegal immigration on their own due to the failures of the 
Congress to address the problem. Effective enforcement of our current 
laws is vital to our ability to regain control of our country's borders 
and our neighborhoods across the United States. I urge the Committee to 
conduct vigorous oversight of the Administration's efforts to enforce 
of our immigration laws and to take under consideration the two 
thoughtful proposals advanced by Congressmen Smith and King. Thank you 
again for inviting me to participate in today's hearing. I look forward 
to your questions.

    Ms. Lofgren. Thank you.
    Thanks to all of you.
    I don't know--we are an hour late. And I know that because 
all of us have busy schedules, you may, too. So I want to ask 
you whether you are able to stay for questions, and if any of 
you are unable to, I am sure the Committee will understand.
    If not, I will start.
    I wonder, Congressman LaHood, if I could start with you, 
because you represent a district that is rural and in the 
center of the country. You reference the no-match letters. I am 
just wondering, if we do nothing, given the new enforcement 
efforts and the no-match letters that are going on--and, 
actually, the reports we have received from the Border Patrol 
is that we have really tightened up on the border and the 
number of unauthorized crossings is dropping.
    What do you see happening in the economy and in the country 
if there isn't some movement on some of these issues?
    Mr. LaHood. Well, we know that in the agricultural 
community, there is a huge shortage right now, and for those 
that are now in the field trying to harvest the crops that they 
have produced throughout the spring and summer, that there is 
going to be a great deal of difficulty. People are worried 
about the kind of talk that goes on here in Washington and 
people are concerned about it.
    What I have tried to explain to the people back home is 
that we have done a lot on enforcement. The previous majority 
of which I was a Member, obviously, passed an awful lot of 
penalties and tried to address some of the issues having to do 
with illegals, employers who brought people here illegally, and 
some of the other issues.
    But frankly, people in the landscaping business, the 
agricultural business the meatpacking business, want us to do 
something so they will have the workforce available to them in 
a legal way, so they can continue to do the things that they 
know how to do so well.
    Ms. Lofgren. I would like to ask Congressman Flake, we all 
know Arizona is, as you said, sort of ground zero for 
undocumented immigration issues, and yet Arizona elected 
officials have had a fairly forthright stand on coming up with 
comprehensive solutions, yourself, your Senator, Mr. McCain, 
your Governor. And I think about the two hotly contested races 
where immigration was the major issue and Mr. Mitchell and Ms. 
Giffords got elected on the more of the ``We need to have a 
comprehensive-type solution.''
    So what is unique about Arizona that is allowing, even in 
the face of, you know, tremendous challenges that you described 
in your testimony, the elected officials to come forward to say 
we can come up with a solution?
    Mr. Flake. I think in Arizona, because we are on the 
frontline, we understand that it needs to be comprehensive. I 
think in Arizona we understand that even if you were to seal 
the border completely, we would remember that, you know, over 
40 percent of those who are here illegally didn't sneak across 
it. They came legally and have overstayed.
    So it has got to be at the employer level that this is 
going to succeed. And I think we understand there, as well, 
that you have got to give employers the tools if you want real 
enforcement.
    And, lastly, as I mentioned, in Arizona probably more than 
elsewhere, you know, across the country it is 5 percent of the 
workforce is illegal or undocumented, 5 percent, representing 
about 7 million people. Nobody that I have heard--I have not 
seen one deportation bill introduced by anyone saying let us go 
round them up and deport them all tomorrow, and those who say 
that we can move forward, we don't need the labor, are counting 
on the fact that we simply can't enforce the current law 
quickly at all. It will take years to do so.
    And so I think in Arizona we recognize that it has got to 
be a comprehensive solution that involves certainly more border 
security, but also employer enforcement and interior 
enforcement, and then a meaningful temporary worker program 
that actually gives employers access to legal workers who are 
coming.
    Ms. Lofgren. Finally, Mr. Baca, I would note at our very 
first hearing, in Ellis Island, we had the chief of the Border 
Patrol as a witness, and in his testimony he said you will 
never secure the border if you don't have comprehensive 
immigration reform. That was his testimony to us there.
    As Chair of the Hispanic Caucus, I mean, you are not 
sharing the border effort, but the caucuses have the same 
strong commitment to comprehensive reform.
    Can you share with us why this is such a priority for the 
Caucus and the people the Caucus represents?
    Mr. Baca. Thank you, Madam Chair.
    First of all, this bill actually helps immigrants currently 
in the United States legally by legalizing the undocumented 
immigrants that are more likely to earn wages that are 
competitive with today's legal immigrants. Current undocumented 
immigrants would have to go back of the line to earn 
legalization, so they can't jump the line, so it would help 
overall.
    And finally, many legal immigrants today, including 
Hispanics, are struggling to keep their families together in 
the U.S. Parents are being deported while the U.S. citizen 
children are left behind and families across the U.S. are being 
torn apart and are waiting through years of delay to be 
reunited.
    STRIVE helps them and family reunification for hardworking, 
taxpaying families, including legal immigrants here in the 
United States. And many of the individuals that are here come 
here for a better way of life. We know that the enforcement is 
not the answer, the border is not the answer. Comprehensive is 
the answer to many of the individuals that want to be here. And 
for anybody to say that they are going to go in front of the 
line, no, no one is going to go in front of the line.
    We also realize that many of the undocumented have spent 
approximately $57 million for Social Security, they continue to 
pay taxes any time they go to anyone of our stores and revenues 
into our area. They help build our economy.
    By allowing a comprehensive immigration legislation, we 
allow individuals to become taxpayers and pay into our system 
and have the kind of security that we want for our Nation. We 
will know who is here legally and who is not here legally. We 
will know who our neighbors are and should be here. Our country 
would be a lot safer.
    Ms. Lofgren. Thank you, Mr. Baca.
    I note that my time has expired, and I will try to be 
better in the future.
    So I turn now to Ranking Member, Mr. King, for his 
questions.
    Mr. King. Thank you, Madam Chair. I make no such pledge.
    No, certainly I appreciate the rhythm that this Committee 
has had and there are times when it is important to hear the 
balance of the response, and you do so with discretion and I 
appreciate that.
    I am just going to go back up through a number of the 
comments that were made by the witnesses, and maybe I will get 
to a question. I am going to point this out, that legalizing 
people that are here illegally doesn't guarantee any kind of 
security.
    Right now we have border crossers who cross when they 
choose to do so. Now we would give them under this bill one 
more option to cross the border, and that would be now you can 
cross it legally, where today you might be crossing it 
illegally, multiple times.
    I just ask you, if you are smuggling drugs and you happen 
to be one who has also met these other qualifications, would 
you cross the border more or less if you become regularized as 
this bill proposes to do? And I would submit more. It has more 
options to cross the border, more options to cross the border 
with more contraband.
    I have never understood the Administration's position or 
the proponents of this bill as to why we would have more 
security simply by labeling 12 million to 20 million as now 
legal that today are not legal. And the--and I go to Mr. 
Flake's statement. Five percent of the workforce and 7 million 
people. I agree with those numbers.
    But I think to put it in perspective, it works like this, 
that those 7 million people are also matched up against the 69 
million people that are simply not in the workforce. They are 
between the ages of 16 and 74. There are 69 million nonworking 
Americans if you add up the unemployed, those on welfare and 
those that just simply aren't registered to work. That would be 
a working age that we pay unemployment in.
    There are 9.3 million nonworking teenagers in America that 
would easily replace the numbers of the 7 million working 
illegals that are here, and the percentage of work that is 
being done that would be 5 percent of the workforce is the 
illegal workforce, but they are doing 2.2 percent of the work 
because these are low-skilled jobs and we match that up to 
their contribution to the GDP.
    And so 2.2 percent of the work amounts to about 11 minutes 
out of an 8-hour day. You could just shorten your coffee breaks 
to pick up the slack.
    If you wanted to look at the United States from a macro 
view, certainly there are industries that have become so 
dependent on illegal labor that they would be in a crisis if 
tomorrow everybody woke up in a bed where they were legal to 
work in that country.
    I pose this question, I think, to Mr. LaHood. We have 
something in common, Ray, and that is that our grandparents 
came here legally in the United States and abided by the laws 
of the United States. And I have something that troubles me 
greatly about this, because I was raised in a law-enforcement 
family. The Constitution and the Code of Iowa was in our house 
many times, a reverence put down by my father, and I followed 
his fingers along those lines, a reverence for the rule of law. 
And I think that is consistent with the oath we all take.
    And I have a real concern about what message this says 
about reverence for the rule of law. And I happen to have 
interviewed a number of people who live in my district who are 
beneficiaries of the 1986 Amnesty Act. And they are invariably 
in favor of another amnesty act because it was good for them 
and it was good for their family. And their family members also 
support an amnesty of one version or another because they 
believe that that is the path of success for their family. And 
I understand the tone that you bring to this, and I think I 
share a lot of that.
    But if we grant, and I am going to call it amnesty because 
I don't know how else we would define it, but if we waive the 
law for 12 million to 20 million people, and they and their 
family members and their descendants hear the advocacy for how 
good that was for them, what does that do to the essential, 
most central pillar of America exceptionalism, which is the 
rule of law? How would we ever have a culture in the United 
States of respect for the rule of law if a mass of people of 
that number were rewarded for breaking the law?
    Mr. LaHood. Well, the answer to the question is very 
simple, Mr. King. And that is this: We are not going to waive 
the rule of law and we are not going to give them amnesty. We 
are going to say, number one, you admit you are here illegally. 
You pay a fine. You go back to the country from which you came. 
You touch back. And at that point, you are admitting that you 
are here illegally, you are paying a penalty for doing that and 
there is no amnesty. You are pleading guilty to the fact, ``I 
am here illegally, I am paying a fine, I am going back, I am 
touching back to the country from which I came.''
    That is in the STRIVE Act. Those are provisions that, if 
this were passed, would be a part of it.
    Mr. King. I appreciate that----
    Mr. LaHood. I think at that point people do admit that they 
are here illegally, and there is no amnesty because they are 
paying a fine.
    Mr. King. You understand, my definition is to grant a 
pardon and reward them with the objective of their crime, and 
that is really what it is. And the penalty is a less 
consequence than paying a coyote to come into the United 
States.
    But I would just in turn ask Mr. Flake, how would you 
define amnesty?
    Mr. LaHood. Well, let me just say this about the fine. 
$2,500 is a lot of money. It may not be a lot of money to a 
coyote, but it is a lot of money to somebody who is here making 
$12 an hour. That is a lot of money, Steve. It is not 
insignificant.
    It may be to some employer who has got a lot of money, but 
it is not to somebody who has to touch back and pay the fine.
    Mr. Flake. Let me answer that.
    Amnesty in the dictionary, I think Webster's, is ``an 
unconditional pardon for a breach of law.'' Now, this is not an 
unconditional pardon. And if your definition is that they are 
ultimately rewarded with the object of their desire, the other 
day I was driving to Home Depot, and I got a ticket. I paid the 
fine, but I still got to drive to Home Depot. In the end, I got 
the object of my desire. It wasn't very pleasant, but I did.
    Mr. King. Don't forget about YouTube.
    Mr. Flake. Did I get an amnesty? No. I paid a fine.
    And I just--unless you are willing to say we are going to 
deport everyone here tomorrow who is here illegally, I don't 
know how you draw distinction between de facto amnesty that 
that is, and with a process, a laborious process that people 
have to go through in this bill.
    So that would be my answer. Thank you.
    Mr. King. Thanks, Madam Chair.
    It is interesting to have Members of Congress as witnesses 
here. I appreciate your testimony.
    Ms. Lofgren. The gentleman from Illinois, Mr. Gutierrez, is 
recognized for his 5 minutes.
    Mr. Gutierrez. Thank you. Thank you very much.
    I want to thank, again, the gentlelady from California, the 
Chairwoman, for conducting this hearing.
    I guess I just want to make a few points about what I have 
heard from this wonderful, distinguished panel. Number one, 
when we heard earlier from my friend from California, Mr. 
Bilbray, about Silvestre Reyes, well, Silvestre Reyes now is an 
original sponsor of the STRIVE Act, because he feels that that 
is the way to do----
    Ms. Lofgren. And David Drier isn't, but he has still got--
--
    Mr. Gutierrez. I understand that. But Silvestre Reyes is a 
cosponsor, an original cosponsor. He came to testify here 
before this Committee saying, ``That was my position last year, 
this is my position today.''
    I would like to also say that in mentioning the question of 
the Chairwoman, we did invite the Chief of the Border Patrol to 
our first hearing, the first hearing ever on comprehensive 
immigration reform under the leadership of Zoe Lofgren, and we 
went to Ellis Island and we invited him.
    And so the chief of Border Patrol said to us, ``If you want 
to stop and control the borders, you need to have a new worker 
program.'' This is the chief of Border Patrol, the man who is 
in charge of defending our borders each and every day and 
supervising thousands of others who do the same kind of work 
each and every day.
    He said, ``You need to take care of the backlog.'' He said 
to us, ``You need to take care of the backlog. The waits are 
too long.'' There are some people waiting for their son from 
the Philippines, 15, 16, 22 years. It is too long. So people 
come.
    He also addressed the issue to say to us, listen, it was 
only like 3 or 4 percent of the people that he catches that he 
finds are engaged in criminal activity. He said the other 
millions that he turns away are people that are coming here to 
look for work, to be reunified with their family.
    That was the chief of Border Patrol. And we said, well, do 
we make ourselves safer. Do we make ourselves safer in this 
country by approving the STRIVE Act? I think we do because we 
have 12 million people, we don't know where they live, we 
really don't have their fingerprints. They have all kinds of 
identification which really isn't theirs.
    Let us legalize their status, and now we know who they are, 
because at the current rate, going back to what Congressman 
Flake and Congressman LaHood stated earlier, at the current 
rate, last year we had an unprecedented deportation from ICE 
agents. So they deported 180,000 people last year. That is 
unprecedented.
    Well, if there are 10 million, or as I suggest 10 million 
to 12 million, and up to 20 million, as Mr. Bilbray and others 
suggest, it would take us about 80 years at the current rate, 
at this unprecedented rate, to get rid of the undocumented 
workers. That is with no new ones coming into the country.
    So really, we are for safety, because we want to stop new 
undocumented--we want to end illegal immigration. We want to 
end it once and for all.
    And I would just add, the last thing that I thought was 
curious, that if we got rid of all of the undocumented today, 
it would be easy, because it would just take 11 minutes out of 
every other workers time. Well, I guess we are going to start a 
new national service program where I and everyone else 
contribute to America's economy, where I take out 11 minutes to 
go pick grapes and do some butchering somewhere and do 
something, and if all of us contribute those 11 minutes--and I 
think it is just a misnomer to talk about things that way.
    That isn't going to happen. The good thing is, my mom and 
dad, as I am sure everybody's parents probably--you know, my 
mom and dad didn't finish high school, but I got to go to 
college. My kids, one already graduated and the other one--that 
is the American tradition.
    I am going to be very blunt. Who in this country really 
wants their kids to go back into the fields, pesticide-ridden 
fields? Who really wants their kids to go do the kind of work 
immigrants do each and every day in meatpacking plants in this 
country, in hotel rooms, and washing dishes? I am not saying it 
is not honorable work. I am not saying it is not good work. But 
is that really the American tradition, that we take our 
children and say, okay, listen, as part of your national 
service you need to go do these jobs. No.
    The great American tradition is that we allow people to 
come to this country, to do the kind of work at the bottom rung 
and work their way up, so that future generations can go on to 
become Members of Congress, can go on to become doctors and 
lawyers. So that is the great American tradition, much as Mr. 
LaHood spoke about his immigrant background from Lebanon and 
where his grandson went to.
    So I think that is the spirit in which we should deal with 
this issue, and I thank the gentlelady and return the balance 
of my time.
    Ms. Lofgren. The gentleman yields back.
    The gentleman from California, my colleague Mr. Gallegly?
    Mr. Gallegly. Thank you very much, Madam Chairman.
    Ray, I listened with great interest to your testimony. 
Clearly, we all understand we are a Nation of laws. We are a 
Nation of immigrants. In fact, most people in this room can't 
go back more than two or three, maybe four generations at the 
most, and find that their roots come from foreign soil.
    But I found it interesting that you prefaced your remarks 
and you were very proud, or appeared to be very proud, of the 
fact that your grandparents, to quote Ray LaHood, ``played by 
the rules.''
    Now, Ray, the folks you are talking about here today did 
not play by the rules. We have millions of people waiting in 
line, some 8, 10, 12 years. Our office does more work 
processing immigration cases than all the rest of the cases 
combined that we do in our district office. We have folks that 
play by the rules for many years.
    What kind of a message does it send to those that have 
waited in line, like your grandparents, and played by the 
rules, what message does it send to them? Why should we play by 
the rules if someone whose violated the rules long enough, they 
get a fine of $2,500 and touch back. Do they have to touch back 
for 10 years, 8 years, 6 years? Or for 20 minutes?
    What kind of a message does that send, Ray?
    Mr. LaHood. Well, Mr. Gallegly, I will say this. The reason 
I am supporting the STRIVE Act is that it allows for people to 
play by the rules, to create a set of rules that allows people 
to admit guilt, illegality, to pay a fine, to go back, to touch 
back for whatever period of time. And at that point, there is a 
system whereby they can say, ``Hey, I violated the rules, I am 
going to pay my fine, I am going to play by the rules now.'' 
That is what the STRIVE Act does----
    Mr. Gallegly. Well, pardon me, Ray, though, that----
    Mr. LaHood [continuing]. It gives people an opportunity to 
play by the rules. Right now----
    Mr. Gallegly. That doesn't answer the question.
    Mr. LaHood [continuing]. Part of the answer to the question 
is, many of the people, as Congressman Flake said, came here 
legally. They have over stayed their time now, and----
    Mr. Gallegly [continuing]. And are illegal.
    Mr. LaHood. That is exactly right. And we want to give them 
an opportunity, because they are contributing to America, to 
the fiber of America, to the employment, to the economy of 
America.
    Look, if you send all these people back, what is it going 
to do to America? Part of the American economy is going to 
collapse, particularly the agricultural economy, the 
meatpacking economy, the service economy, because there aren't 
going to be enough Americans to do these jobs.
    Mr. Bilbray. Congressman, I think the issue is, what are 
the rules? What are the rules that we are setting up?
    Mr. Gallegly. Reclaiming my time.
    We are a Nation of laws. And clearly you are changing the 
rules, but you are changing the rules for people that weren't 
playing by the rules, to say that you now can play by the 
rules, and it does send a wrong message.
    Let me get back to my good friend Jeff from Arizona. Jeff 
says we don't--in fact, Luis says it would take 80 years to 
remove those that are illegally in the country today through 
due process, and we don't even know who they are.
    I have a novel concept. Maybe I am out in the woods, and 
maybe you can steer me straight, Jeff. We know where there are 
over 10 million people in this country. Social Security service 
has the name, phone number, and probably shoe size of over 10 
million people that are working with an invalid Social Security 
number. What would be wrong with sending a letter to that 
employer saying, clarify the Social Security number, make sure 
it is valid so they are working legally, or you are going to be 
responsible for terminating that employee. That employee 
doesn't have a job, has no other means of support.
    Most of these folks didn't come to the country illegally 
because of our beaches. They came because of economic 
opportunity. Just like we have tens of millions waiting in line 
right now to come to this country legally for those 
opportunities.
    Explain to me what would be wrong with that concept of 
enforcing the law or, perhaps, give us your definition of the 
rule of law.
    Mr. Flake. Well, that, to a certain extent, is being done 
right now. And part of the issue is employers now only have a 
couple of programs to rely on. One is Basic Pilot. Basic Pilot 
does a decent job of telling the employer if a Social Security 
number is valid, but it can't tell the employer with great 
accuracy if it is being used 500 times. And so the employer has 
to wait for the Federal Government to go back and forth.
    And as Congressman Gutierrez said, right now, given the 
resources we have out there, it would take years and years and 
years--maybe not 60 years. Maybe we double it or maybe 40 
years. What is acceptable? And why is that any less of an 
amnesty for those who are here illegally now than a process by 
which they have to come forward, pay a fine, register in the 
program, go to the back of the line, go back to their home 
country, register, have 6 years of work and then qualify for a 
green card? I just don't see----
    Mr. Gallegly. Thank you very much, Madam Chairman.
    Don't quite put me to the maybe list yet.
    I yield back.
    Ms. Lofgren. The gentleman yields back.
    The gentlelady from Texas, Ms. Jackson Lee, is recognized 
for 5 minutes.
    Ms. Jackson Lee. I thank the gentlelady as well, and I 
thank her for moving forward.
    I agree with Congressman LaHood, that I believe the 
American people want this body to address this question.
    I was home in the district, and I can assure you that this 
whole question of immigration has not left the minds of the 
American people, and there are goodwill people on both sides of 
the aisles looking for a solution.
    And so I am delighted to be a cosponsor of the STRIVE Act. 
I look forward to this Committee moving on a hearing on the 
Save America Comprehensive Immigration Reform Bill, because I 
think it is important that we say to the American people that 
we are doing a thorough study.
    And I thank Congressman Gutierrez for his persistence, and 
I likewise add my real appreciation for his additional 
commitment to this body for another 2 years. We are going to 
get this done.
    I am holding a Constitution in my hands, and I know that 
the next questioner will probably use it in a different way. We 
are a country of laws. But we have been a country of 
immigrants. In fact, I think it is important that we take our 
history much further than the 20th century and the 21st 
century, for it was immigrants who came to this country who 
found or sought a better way, oppressed from political 
oppression, religious oppression.
    I am not sure whether they were legal or not. I don't know 
what kind of structure was here to give them their 
documentation, but they did come. And when they wrote the 
Constitution, there were a number of important comments. One of 
them is, ``The sacred rights of mankind are not to be hidden. 
They are written as with a sunbeam in the whole volume of human 
nature.''
    So I think what we have is a moral question as well. How do 
we address individuals who have come to this country, 
undocumented, but for an economic opportunity. And unlike other 
countries, where we bring people in as indentured servants and 
otherwise, and so it is an individual man or an individual 
woman, we have families here. I mean, that is the value system 
of America. We don't necessarily bring the man in or the woman 
in to bring a domestic and then tell them that there is no 
family part that can come in, that they can't access, if you 
will, their family members.
    Might I also say that some of the undocumented persons are 
overstays. Some of them are family members who have been 
begging for years to be reunited with their family.
    So I think we have to look at this question as a potpourri. 
Haitians, Africans, Indians from India, Pakistani, individuals 
in addition to those who come from the southern border.
    So I want to lay this groundwork and just ask one question. 
I don't think we can do a piecemeal response to immigration. 
That is what we have been doing. And so that is why we have 
raids on labor sites. And one day there is going to be a 
violent act. It is going to be violent because the ICE officers 
have their right to do their job. They are enforcing the law. 
But there are people who are frightened and may be put in a 
situation untoward, or the employer may be put in a situation 
that results in a violent action. Is that what we are trying to 
promote?
    And then now we are talking about the employer 
verification. I don't think we should be unsympathetic to small 
restaurants across America who are literally falling apart 
because they want to do right, they want to abide by the law, 
but you will close them down. You will close janitorial 
services down. You will close hotels down. You certainly have 
already begun to impinge upon the agricultural industry. You 
will close contractors down.
    And I am committed to full employment for America. I don't 
think we should put immigration reform in place without saying 
to America, every American that wants to work, you have the 
first choice of employment. That is the key.
    And I certainly don't want to be castigated as some have 
done for some of us, Congressman Baca, who believe in 
comprehensive immigration reform, that we are supporting 
criminals. The crime in New Jersey was horrific and we stand 
against it. And it is a shame that a convicted or a charged 
predator was not already incarcerated. I dare anyone to suggest 
to me that we affirm that. We mourn for those whose lives were 
lost.
    But my question to you, Congressman Baca, is how do we 
bridge this divisiveness? This is not the civil rights question 
of the 1960s. It was a different historical basis. But this is 
the human rights question of the 21st century. And the same 
divisiveness that was used to pit one America against another 
America in the race question of the 1960s and 1950s is now 
being used to divide those of us who want to join together, who 
want to work, with Anglos and Hispanics, African Americans, 
Asians and others. It is a divisive effort.
    Could you share with me how we can bridge that, making sure 
every American works, making sure criminals are incarcerated, 
and have us not be charged with supporting that when we talk 
about comprehensive immigration reform?
    Mr. Baca. Thank you very much for the question.
    First of all, Hispanics are very patriotic to this country. 
They are willing to serve this country, willing to fight for 
this country, willing to die for this country, and there is no 
way in the world that you can take 12 million people or above 
out of this country.
    People want a better way of life. They want to live in 
harmony, like other individuals who have come here, because if 
we really assess who are the true Americans, Native Americans 
are the true Americans who are here. The rest of us are all 
immigrants.
    We have a responsibility to live with our neighbors, an 
opportunity to give these individuals who come to this country 
and want a better way of life the same opportunities that 
others have had. If we truly are Christians, we truly believe 
in Christianity, we would allow individuals who want to come 
here whether it is for employment, education or family 
unification, and we want it for national security.
    It is important. When people said, wait a minute, this will 
be national security, we will know who is here legally and who 
is not legal and who has committed a crime. People want to 
comply with the law. They will not be breaking the laws. They 
will be given an opportunity to comply with those laws.
    And it is important that we bridge that gap, that we don't 
have hatred amongst one another, and what we will end up doing, 
if we don't do anything, we will ultimately get into profiling 
of individuals, whether you carry a document that says if you 
are brown or you are Black or you are a different kind of 
color, you may have to show ID while somebody else will not.
    It is important that we work together. I think the STRIVE 
Act goes in that direction and we have that opportunity, and we 
have all got to come together. And it is the responsibility of 
Congress to come up with legislation. That is why laws were 
made.
    When you talked about the Constitution, those were laws 
that were created. Those weren't laws that were there before. 
It allowed them. We have the same responsibility to create laws 
now, and we need to in addressing this issue.
    Ms. Jackson Lee. Thank you.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank you. Yield back.
    Ms. Lofgren. And all time has expired.
    I would like to thank these four Members of Congress for 
taking time out of days that I know are hectic and sharing 
their expertise and their thoughts with us.
    I know that we will continue to discuss these items and I 
just feel enormously blessed that you have given us this time 
this afternoon.
    Mr. Bilbray. Madam Chair, I appreciate the chance for us 
all to participate, and I would just encourage everyone here 
to, as we discuss this and it goes down, I just realize how few 
of us participate in things like parliamentary meetings with 
Mexico and the Latin American countries. And I encourage 
everyone to spend more time, talk to the people down there and 
see it from their perception. It really is eye opening.
    Ms. Lofgren. Mr. King and I just came back from Mexico and 
Mr. Berman, also.
    Thank you very much.
    We will now ask our next panel to come forward.
    As we have our next panel coming forward, I know that one 
of our witnesses has already told us that she has a plane to 
catch at 4:00 and is going to have to leave at that time, that 
is Cassandra Butts, who we have known for so many years when 
she worked here on the Hill.
    So I just wanted to announce that in advance. When the 
magic hour comes, Cassandra is heading for the airport.
    I am going to begin the introduction of our witnesses, and 
thank you again for taking time to be with us here today. 
People don't realize when they watch these hearings that these 
are individuals who, really, out of the goodness of their heart 
have come here to share their information, their experiences, 
to inform the Congress, and it is a great donation to your 
Government, and we appreciate it a great deal.
    Seated first on the panel we have Tony Wasilewski, a small 
business owner from suburban Chicago. Raised on his family's 
farm in Poland, Mr. Wasilewski fled Poland's Communist regime 
in 1989. He married his wife, Janina, here in the United States 
in 1993, and they are proud parents of their six-year-old son, 
Brian. The family has made their home in Schiller Park, IL, 
where they own a janitorial contracting business. After Janina 
was deported earlier this year, Mr. Wasilewski became active 
with several immigrant advocacy organizations. Later this 
month, on September 18 to be precise, Mr. Wasilewski will take 
the oath of allegiance and officially become a United States 
citizen.
    Next we are pleased to have Eduardo Gonzalez join us. 
Serving his fourth year in the U.S. Navy as a helicopter 
mechanic, born in Mexico in 1983, Mr. Gonzalez came to the 
United States as a child with his mother and two brothers. 
After participating in ROTC and graduating from high school in 
2001, Mr. Gonzalez earned an associatess degree in occupational 
studies. The proud father of 22-month-old Eduardo, Jr., Mr. 
Gonzalez became a U.S. citizen on July 21, 2005. He has 
completed two tours of duty in the Middle East and is in 
preparation for his third deployment. On behalf of Congress and 
the American people, Mr. Gonzalez, we owe you and your family 
our most genuine gratitude for your service.
    I am pleased next to introduce the Reverend Luis Cortes, 
Jr., the president and CEO of Esperanza USA. In addition to his 
work with Esperanza, Reverend Cortes serves on the board of the 
Federal Home Loan Bank in Pittsburg and was appointed to the 
Pennsylvania Minority Business Authority in Philadelphia, a 
workforce investment board. He is one of the founders of the 
United Bank, Pennsylvania's first African American-owned 
commercial bank. Raised in Spanish Harlem, Reverend Cortes 
graduated with honors from City College in New York with a 
master's of Divinity from Union Theology Seminary and with a 
master's degree from New Hampshire College.
    It is my pleasure to next introduce Joshua Hoyt, director 
of the Illinois Coalition for Immigrant & Refugee Rights. Mr. 
Hoyt has worked for nearly 30 years as a social justice 
advocate in both the United States and abroad. Before assuming 
the directorship of the Coalition in 2002, Mr. Hoyt served for 
4 years as the Executive Director of the Organization of the 
Northeast in Chicago, as President of Illinois' largest 
consumer organization--the Citizen's Utility Board, and as 
Associate Director of the United Power for Action and Justice 
in Chicago. Mr. Hoyt is a graduate of the University of 
Illinois and the Central University of Barcelona in Spain.
    I would also like to extend our welcome to Cassandra Q. 
Butts, the senior vice president for domestic policy at the 
Center for American Progress, or CAP. Prior to her work at CAP, 
Ms. Butts served as senior adviser to former Democratic leader 
and presidential candidate Richard Gephardt and as an adviser 
to Senator Barack Obama. She has practiced law as an assistant 
counsel for the NAACP's Legal Defense and Education Fund and 
she served as an international observer during Zimbabwe's 2000 
parliamentary elections. She earned her bachelor's degree from 
the University of North Carolina at Chapel Hill and her law 
degree from Harvard University.
    It is my pleasure next to introduce Michael Barrera, the 
president and CEO of the United States Hispanic Chamber of 
Commerce. Due to a last minute scheduling conflict, Mr. Barrera 
will be reading the testimony prepared by his colleague David 
Lizarraga, the chairman of the board of directors at the 
Hispanic Chamber. Prior to his selection as president, Mr. 
Barrera was appointed by President Bush in 2001 to serve as the 
National Ombudsman for the United States Small Business 
Administration. A native of Kansas City, Missouri, Mr. Barrera 
earned his bachelor's degree from Kansas State University and 
his law degree from the University of Texas. He co-founded two 
law firms in Kansas City and served as an assistant prosecutor 
in Jackson County, Missouri.
    Finally, I would like to welcome the minority's two 
witnesses, the first of whom is Julie Kirchner, the Drector of 
Government Relations at FAIR, the Federation for American 
Immigration Reform. Prior to joining FAIR, Ms. Kirchner worked 
as counsel at the Minnesota House of Representatives while she 
staffed the Judiciary and Civil Law Committees. In addition to 
her legislative experience, Ms. Kirchner has worked both as a 
private litigator and a criminal prosecutor. She earned her 
bachelor's degree from Yale University and her law degree with 
high distinction from the University of Iowa College of Law.
    And finally, I am pleased to welcome Corey Stewart, the 
chairman at-large for the Prince William County Board of 
Supervisors in Virginia. Chairman Stewart was elected in 2006 
after serving for 3 years on the Board as the District 
Supervisor from Occoquan. He earned his B.S. from Georgetown 
University School of Foreign Service and his law degree with 
honors from William Mitchell College of Law. He also practices 
law as an international trade attorney with the Washington firm 
of Foley and Lardner.
    Now, each of your statements will be made part of our 
record in their entirety, so we would ask that you testify, 
summarize if necessary, for 5 minutes.
    We have these little machines on the table. When the light 
turns yellow, it means you have got 1 minute left. I know, it 
always seems faster than possible. And when the red light goes 
on, it means you have actually used up your 5 minutes and we 
would ask you to please summarize and conclude, because we have 
a lot of witnesses and we want to hear from all of you.
    So that is how we will proceed, and we will start with Mr. 
Wasilewski, and I hope I am not mispronouncing your name too 
severely.

 TESTIMONY OF TONY WASILEWSKI, SMALL BUSINESS OWNER, SCHILLER 
                            PARK, IL

    Mr. Wasilewski. Thank you. Yes, that is correct.
    Hello. My name is Tony Wasilewski. I am an immigrant from 
Poland, a long-time resident of the Chicago area, and in 
another 2 weeks, a proud citizen of the United States. I am 
also a husband and father.
    I have been married to my wife Janina for 14 years and 
never had been separated from her. However, since June 8 of 
this year, I am living by myself because my wife was deported 
to Poland.
    Janina came to the United States in 1989. Fleeing communist 
Poland, she immediately applied for political asylum. In 1993, 
September 25, we got married. Later that year, she lost her 
asylum case and received an order for deportation instead.
    In 1995, during an immigration court hearing, Janina was 
ordered to voluntarily depart the United States. However, she 
did not understand what happened at the hearing. There was no 
one there to translate the proceedings and the judge never 
addressed her directly or explained to her the consequence of 
not going through with the voluntary departure.
    Not knowing what happened or was going to happen, we 
decided that Janina would stay with me. I was starting the 
process of getting my green card through work sponsorship, and 
hoped that Janina could get hers with me. Another reason why 
Janina did not leave the United States was that she was 
undergoing fertility treatment.
    Here, in the United States, my wife received adequate care, 
which would not have been available to her in Poland at that 
time. During this time we suffered three miscarriages. Finally, 
6 years ago, our son Brian was born.
    We tried to get Janina's case reopened and reviewed. In 
2005, the Seventh Circuit Court of Appeals ruled that it was 
unable to review her case under a law passed in 1996.
    Meanwhile, we became an example of a model immigrant 
family. We learned English, bought a house in suburban Chicago, 
and started our own business. We were living the American 
dream.
    On March 8 of this year, the dream turned into a nightmare 
when Janina received her final order of deportation. She was to 
report to the immigration office ready for deportation.
    We were able to postpone the deportation in hopes of 
finding a solution for this difficult situation. Janina was 
able to stay and see our son's kindergarten graduation, June 5, 
just 2 or 3 days before her deportation on June 8. But despite 
huge support from the community, our church, and local 
officials, we were not able to keep Janina in the United Sates 
for good.
    After 18 years in the United States, we have nothing in 
Poland. Janina had nothing to go back to and I would have 
nothing there, either.
    We decided that Brian, our son, would go with his mom to 
Poland, because a small child needs his mother. I stayed to 
wait for my citizenship interview, take care of our house, and 
run our business, which is the only source of my family income. 
This was the hardest decision of my life. I had to see my 
family go without me, and to let Brian think that he was just 
going on a vacation.
    We don't know what the future holds for us, and 
particularly for the child that Janina and I wanted with so 
much love for so many years.
    I feel like my life was destroyed. I am the father. I am 
the husband. Now, I feel lost. My only chance to get them back 
is to get a waiver for Janina; otherwise, she is barred from 
returning to the United States for 10 years.
    Our community and local officials have already offered 
their help with the complicated process of applying for this 
waiver. Will that support help? Will my pain be enough hardship 
for immigration officers to grant Janina a waiver? I can pray 
for it.
    I hope this hearing and my testimony will help all the 
separated families so they can be united again. I also hope 
that my testimony will move you, Members of this Committee, to 
fix our immigration laws so that no more families need to be 
torn apart.
    Thank you.
    [The prepared statement of Mr. Wasilewski follows:]
                 Prepared Statement of Tony Wasilewski
    My name is Tony Wasilewski. I am an immigrant from Poland, a long-
time resident of the Chicago area, and in another two weeks, a proud 
citizen of the United States.
    I am also a husband and father. Unfortunately, my family is one of 
the many families who suffer due to irrational immigration law in our 
country.
    I have been married to my wife Janina for 14 years and never had 
been separated from her. However, since June 8 of this year, I am 
living by myself because my wife was deported to Poland. Despite my 
legal status and the support of our community, I was not able to stop 
her deportation.
    Janina came to the United States in 1989 fleeing communist Poland. 
She immediately applied for political asylum. In 1993, we got married. 
Later that year, she lost her asylum case and received an order for 
deportation instead.
    In 1995, during an immigration court hearing, Janina was ordered to 
``voluntarily depart'' the United States. However, she did not 
understand what happened at the hearing. There was no one there to 
translate the proceedings. And the judge never addressed her directly 
or explained to her the consequence of not going through with the 
voluntary departure.
    Not knowing what happened or was going to happen, we decided that 
Janina would stay with me. I was starting the process of getting my 
green card through work sponsorship, and hoped that Janina could get 
hers with me. Another reason why Janina did not leave the United States 
was that she was undergoing fertility treatment. Here, in the United 
States, my wife received adequate care, which would not have been 
available to her in Poland at that time. During this time we suffered 
three miscarriages. Finally, six years ago, our son Brian was born.
    We tried to get Janina's case reopened and reviewed. In 2005, the 
Seventh Circuit Court of Appeals ruled that it was unable to review her 
case under a law passed in 1996.
    Meanwhile, we became an example of a model immigrant family. We 
learned English, bought a house in suburban Chicago, and started our 
own business. We were living the American dream.
    On March 8 of this year, the dream turned into a nightmare when 
Janina received her final order of deportation. She was to report to 
the immigration office ready for deportation. She could bring a maximum 
of 44 pounds of baggage with her. At that moment, we learned that after 
18 years of living the American dream, her life in this country would 
be reduced to 44 pounds.
    We were able to postpone the deportation in hope finding a solution 
for this difficult situation. Janina was able to stay and see our son's 
kindergarten graduation, just two days before her deportation. But 
despite huge support from the community, our church, and local 
officials, we were not able to keep Janina in the United Sates for 
good.
    Immigration officials said she broke the law. But my wife has never 
done anything wrong in here; she has no criminal record, not even a 
parking ticket. And it was because Janina tried to follow the legal 
procedures for staying in the US by applying for political asylum, she 
exposed herself to the immigration system and was deported.
    After 18 years in the United States, we have nothing in Poland. 
Janina had nothing to go back to. And I would have nothing there, 
either.
    We decided that Brain would go with his mom to Poland, because a 
small child needs his mother. I stayed to wait for my citizenship 
interview, take care of our house, and run our business, which is the 
only source of my family income.
    This was the hardest decision of my life. I had to see my family go 
without me, and to let Brian think that he was just going on a 
vacation. We don't know what the future holds for us, and particularly 
for the child that Janina and I wanted with so much love for so many 
years. Will Brian lose his country, his friends, and his school? Will 
he have to grow up to become a teenager in a country that is not his 
own, without his father by his side? Will I have to continue to 
struggle to travel back and forth in hopes of keeping my family united? 
This outcome has been devastating to Brian.
    I feel like my life was destroyed.
    I am the father. I am the husband. Now, I feel lost.
    My only chance to get them back is to get a waiver for Janina; 
otherwise, she is barred from returning to the United States for ten 
years. Our community and local officials have already offered their 
help with the complicated process of applying for this waiver. Will 
that support help? Will my pain be enough ``hardship'' for immigration 
officers to grant Janina a waiver? We can only pray for that.
    I feel obligated not only to share my story but also to be a voice 
of countless broken families who suffer due to our irrational 
immigration laws. I wonder whether our country any safer or any better 
now that Janina is gone. What good has been done from my family being 
broken up?
    I hope this hearing and my testimony will help all the separated 
families so they can be united again. I also hope that my testimony 
will move you, members of this committee, to fix our immigration laws 
so that no more families need to be torn apart. Thank you.

    Ms. Lofgren. Thank you very much for sharing that story.
    Mr. Gonzalez?

            TESTIMONY OF PETTY OFFICER SECOND CLASS 
         EDUARDO GONZALEZ, U.S. NAVY, JACKSONVILLE, FL

    Mr. Gonzalez. Chairwoman Lofgren, Ranking Member King, 
Members of the Committee, special guests, good afternoon. My 
name is Eduardo Gonzalez. I am enlisted in the United States 
Navy. My rank is Petty Officer Second Class.
    I enlisted in the Navy in 2003. I graduated high school in 
2001 and then continued my education by earning my Associate's 
degree in occupational studies. I had many choices, but after 
September 11, I decided to make this a better country for my 
family.
    Since my enlistment I have been deployed two times; the 
first, on June 7th, 2004, on board the USS John F. Kennedy in 
support of Operation Enduring Freedom. The second time was on 
November 28, 2005, when I was deployed to Camp Beuhring, Kuwait 
in support of Operation Iraqi Freedom.
    I am now preparing for my third deployment to begin this 
November on board the USS Harry Truman for a tour of the Gulf 
region.
    I am proud of the service that I provide to my country. I 
enjoy every second of it. In fact, I plan to reenlist.
    I met my wife, Mildred Gonzalez, in November 2001. On May 
28, 2004, we decided to get married. Mildred's mother had come 
to the United States----
    Ms. Lofgren. Mr. Gonzalez, just take a minute. We are not 
going to rush you. Just take a minute. Take a deep breath.
    Mr. Gonzalez. Mildred's mother had come to the United 
States from Guatemala in 1989, without documents, when Mildred 
was only 5 years old. Mildred's mother applied for asylum/
NACARA in September of 2000 and included Mildred on her 
application.
    Her mother was eventually granted legal status in July 
2004. Because Mildred was included on her mother's application, 
Mildred also should have been granted lawful status in July of 
2004. However we were unaware of the repercussions of our 
decision to get married 6 weeks earlier. Our marriage cancelled 
out Mildred's ability to obtain status through her mother, 
because she was no longer an unmarried daughter under 21 years 
old.
    At the time we got married, we did not know that Mildred 
and her mother would have an appointment with an immigration 
official in July of 2004. After all, they had been waiting for 
4 years.
    Mildred attended the immigration appointment, with her 
mother and brother, and Mildred was denied her request to 
obtain legal status, solely due to her change in marital 
status. At the time of her immigration interview, I was 
deployed and only being able to communicate once in a while. I 
found out that she was disapproved.
    Mildred's case was then sent to an immigration court for 
removal proceedings and her first court appearance was on 
September 16, 2004. The judge was generous because of our 
situation and decided to reset her court date to June 14, 2007.
    We were all hoping for immigration reform by that time, 
hoping that the law would change. However, that did not happen 
and on June 14, 2007, Mildred and I appeared in court, fully 
expecting that Mildred was going to have to leave the United 
Stated within 120 days.
    I was in uniform and the judge, knowing that I was about to 
deploy and knowing that we have a 22-month old son, gave 
Mildred a 12-month extension. We recognize that Mildred has 
been fortunate to get these extensions. However, these 
extensions do not solve our problem, they only prolong them.
    On June 8, 2008, if Mildred's legal status does not change, 
she will have 60 days to voluntarily depart the United States, 
or she will be deported.
    Since she has not been to Guatemala since she was 5 years 
old, she is not familiar with the culture, language, or 
society. She has no family there, and I feel that this would be 
very difficult for us and perhaps even dangerous for her.
    Mildred has spent 18 years of her life in this country, and 
to us and our child, the United States is her home.
    Our son, Eduardo Gonzalez, Jr., was born on December 9, 
2005, 2 weeks after I was deployed to Kuwait on my second tour. 
Missing my first-born child's birth, was a sacrifice in itself. 
Yet, I had to perform my duties as a member of a team of 
mechanics that I am a part of.
    I am about to go on deployment once again, and knowing that 
my wife might not be here when I return, or where my son might 
end up if I don't return before her court date. Sometimes I 
find it difficult to concentrate on my duties, but as a citizen 
of the United States of America, sometimes it makes me wonder. 
If I can die for my country, why can't I just be with my 
family?
    Every time I go somewhere, my wife worries about me not 
coming home one day, but now she also has to worry about 
leaving home, a country where she feels safe.
    I want to serve my country 100 percent, but with these 
issues in the back of my mind, I feel I can't do that.
    I am not asking for anything, I am just bringing these 
issue to your attention. As you may already know, my family is 
not the only one going through this situation. Many will not 
come forward and speak about it because they fear that they 
will have to pay the consequences.
    Mildred and I also worry that this might have a negative 
impact on us, but given this opportunity, we feel that if we 
tell our story we might be helping out others in this 
situation.
    I come before you not only as a United States Navy sailor, 
but as a husband, a father and an American citizen. I am hoping 
that my testimony helps and something positive comes out of it.
    Thank you very much.
    [The prepared statement of Mr. Gonzalez follows:]
                 Prepared Statement of Eduardo Gonzalez
    Chairwoman Lofgren, Ranking Member King, Members of the Committee, 
Special Guests: Good afternoon. My name is Eduardo Gonzalez. I am 
enlisted in the United States Navy and my rank is Petty Officer Second 
Class Air warfare. I enlisted in the Navy in 2003. I graduated high 
school in 2001, and then continued my education by earning my 
Associate's degree in occupational studies. I had many choices, but 
after September 11, 2001, I decided to make this a better country for 
my family. Since my enlistment, I have been deployed 2 times: first on 
June 7th, 2004 on board the U.S.S. John F. Kennedy, in support of 
Operation Enduring Freedom. The second time was on November 28, 2005, 
when I was deployed to Camp Beuhring Kuwait in support of Operation 
Iraqi Freedom. I am now preparing for my third deployment, to begin 
this November on board the U.S.S. Harry S. Truman for a tour of the 
Gulf region. I am proud of my service to this country and have enjoyed 
every second of my four-year enlistment. In fact, I plan to re-enlist 
when my current commitment is up.
    I met my wife, Mildred Gonzalez, in November 2001. On May 28, 2004, 
we decided to get married. Mildred's mother had come to the United 
States from Guatemala in 1989, without documents, when Mildred was only 
5 years old. Mildred's mother applied for asylum/NACARA in September of 
2000 and included Mildred on her application. Her mother was eventually 
granted legal status in July 2004. Because Mildred was included on her 
mother's application, Mildred also should have been granted lawful 
status in July of 2004. However we were unaware of the repercussions of 
our decision to get married six weeks earlier--our marriage cancelled 
out Mildred's ability to obtain status through her mother because she 
was no longer an unmarried daughter under 21 years old. At the time we 
got married, we did not know that Mildred and her mother would have an 
appointment with immigration in July of 2004. After all, they had 
already been waiting for 4 years for an appointment at that time.
    Mildred attended the immigration appointment, with her mother and 
brother. Mildred's was denied her request to obtain legal status, 
solely due to her change in marital status. At the time of her 
immigration interview, I was deployed and only being able to 
communicate once in a while, I found out that she didn't get approved.
    Mildred's case was then sent to an immigration court for removal 
proceedings and her first court appearance was on September 16, 2004. 
The judge was generous because of our situation and decided to reset 
her court date to June 14, 2007. We were all hoping for immigration 
reform by that time, hoping that the law would change. However, that 
did not happen and on June 14, 2007, Mildred and I appeared in court 
fully expecting that Mildred was going to have to leave the United 
Stated within 120 days, maximum. I was in uniform and the judge, 
knowing that I was about to deploy and knowing that we have a 20-month-
old son, gave Mildred a 12-month extension. We recognize that Mildred 
has been fortunate to get extensions. These extensions do not solve our 
problem, but only prolong it. On June 8, 2008, if Mildred's legal 
status does not change she will have 60 days to voluntarily depart the 
United States or she will be deported.
    Since she has not been to Guatemala since she was 5 years old, she 
is not familiar with the culture, language or society. She has no 
family there and I feel this would be very difficult for us and perhaps 
even dangerous for Mildred. Mildred has spent 18 years of her life in 
this country, and to us and our child, the United States is her home.
    Our son Eduardo Gonzalez, was born on December 9th, 2005, two weeks 
after I was deployed to Kuwait on my second tour. Missing my first-born 
child's birth, was a sacrifice in itself. Yet, I had to perform my 
duties as a member of a team of helicopter mechanics. We are in charge 
of maintaining and repairing a squadron of eight helicopters, whose 
mission is to transport personnel, cargo, and injured people. I 
consider my job very crucial in maintaining the Navy's mission 
readiness and I readily made the sacrifice.
    I am about to go on deployment once again, knowing that my wife 
might not be here when I return, or where my son might end up if 
Mildred has to leave before I return. Sometimes I find it difficult to 
concentrate on my duties. As a citizen of the United States of America, 
it makes me wonder ``If I can die for my country, then why am I not 
allowed to just be with my family?'' Every time I go somewhere with my 
squadron, my wife worries about me not coming home one day, but now she 
also has to worry about leaving a home, a country, where she feels 
safe.
    I want to serve my country one hundred percent. But with this issue 
in the back of my mind, I feel I can't do that. I am not asking for 
anything, I am just bringing this issue to your attention. As you may 
already know, my family is not the only one going through the same 
situation. Many will not come forward and speak about it because they 
fear they might have to pay the consequences. Mildred and I also worry 
that this might have a negative impact on us, but given this 
opportunity, we feel that if we tell our story we might be helping out 
others in same situation. I come before you not only as a United States 
Navy sailor, but as a husband, a father and an American citizen. I am 
hoping that my testimony helps, and something positive will come out of 
this. Thank you.

    Ms. Lofgren. Reverend Cortes?

            TESTIMONY OF REVEREND LUIS CORTES, JR., 
                    PRESIDENT, ESPERANZA USA

    Mr. Cortes. Thank you, Madam Chair, Mr. King and Members of 
the Subcommittee for the opportunity to appear before you 
today.
    Since immigration legislation failed in the Senate this 
summer, hundreds of State and local enforcement initiatives 
have been enacted and thousands more are pending.
    In these cities and States, a fundamental value of American 
jurisprudence, the presumption of innocence, is gone. For 
thousands of third, fourth, and even fifth generation American 
citizens, their skin color now defines the limit of their 
rights.
    The color of our skin or the sound of our accent now 
provides us the privilege of being detained, harassed, or 
accosted in an effort to determine our status. Even I wonder 
whether I need to carry my passport.
    Criminal elements are now beginning to prey upon innocent, 
law-abiding, hardworking members of our community. Many of 
them, in fact, are American citizens. American citizens are now 
afraid to call the police. American citizens are deciding it is 
easier to let certain crimes go, to not get involved as 
witnesses, than to fall victim to over-aggressive law 
enforcement when they have a family member who is undocumented.
    The country needs immigration reform legislation enacted 
now more than ever. With the Senate's failure, we look to the 
House for leadership. The House needs to show the same 
leadership and ability to resolve differences as was 
demonstrated 10 years ago when Congress passed comprehensive 
welfare reform. The welfare reform debate was heated and full 
of conflict and controversy, and yet this Congress and this 
country came together and solved one of the biggest domestic 
problems facing our country in the mid-Nineties.
    I have faith that Congress can rise to this similar 
challenge today. The House has an opportunity to show wisdom 
and courage and permanently fix our broken immigration system. 
Now is the time to lead, to educate constituencies influenced 
more by rhetoric than reality. Now is the time for leaders of 
both parties to teach their junior members by example.
    Faith leaders are called to ground their conduct in 
treatment of others in our reading and understanding of 
scripture. So too for guidance on immigration policy we turn 
first to scripture. Our support for comprehensive immigration 
reform comes from the Biblical mandate to advocate on behalf of 
the stranger in one's land, a practice that is noted in the Old 
Testament.
    As in Leviticus 19:33-34, when an alien resides with you in 
your land, you shall not repress the alien. The alien who 
resides with you shall be with you as the citizen among you.
    In Matthew 25:35, which is in the New Testament, Christ 
calls on all his followers to treat immigrants with fairness, 
justice, and hospitality. ``I was hungry, and you gave me 
something to eat. I was thirsty, and you gave me something to 
drink. I was a stranger, and you invited me in.''
    One of my continuing frustrations is the gross distortion 
of the word ``amnesty.'' As Christians, we understand amnesty. 
Amnesty is what Christ provided us as forgiveness for our sins 
when he paid for our sins with his life. This is true amnesty, 
unconditional and without penalty.
    The Merriam-Webster Dictionary defines amnesty as a pardon. 
A pardon is defined as the excusing of an offense without 
penalty.
    Amnesty is a free pass and a place in front of the line. 
The STRIVE Act, as well as recent Senate bills, are in fact not 
amnesty.
    I congratulate Congressman Gutierrez and Congressman Flake 
for their leadership and hard work that went into writing the 
STRIVE Act. I commend you on the rising above political 
rhetoric and polarization and working to bring a just solution 
to a current crisis. We believe today, as strongly as we did 
last year, that for an immigration proposal to permanently fix 
our immigration system, it must accomplish four objectives.
    First, it must be compassionate, just, and true to our 
heritage as a Nation of families built by immigrants and to our 
heritage as a welcoming Nation.
    Second, it must secure our borders.
    Third, it must secure our economy by providing safe, secure 
systems to meet current and future workforce requirements.
    And, fourth, it must be a permanent, lasting, sustainable 
fix, rather than one 20 years from now that will land us right 
back where we are today.
    We believe the STRIVE Act is a fair, workable, and just 
solution to our disastrous immigration system and meets these 
four objectives.
    In survey after survey, 65 percent of Republicans and 72 
percent of Democrats consistently support legal status with a 
path to citizenship for illegal immigrants who get in back of 
the line and pay penalties, learn English, et cetera.
    If the House could find the courage to have the debate, to 
educate their junior members and their constituencies, we might 
solve our biggest domestic issue of the decade.
    Most Americans and most Members of Congress recognize that 
the vast majority of the 12 million people who are here 
undocumented are good people caught in a bad system, victims of 
one of the worst public policy failures of our time.
    Forty percent who are currently in this country legally, 
4.8 million people, entered legally. They couldn't get through 
our system.
    We are a Nation of laws; 12 million people live here 
illegally and for that there should be penalties. But just as 
we are a Nation of laws, we are also a Nation that believes 
that the punishment should fit the crime. These are not violent 
crimes, these are not violent criminals. Don't take the easy 
road and pass pieces of legislation for which there is already 
consensus among members. Let us have the debate in a national 
discussion and let us take the vote.
    In the end, you are either those that work on behalf of the 
harassed and the helpless or those that refuse to set the law 
of the land that will direct its citizenry and show the moral 
fortitude that is so lacking today in our public discourse.
    Thank you, Madam Chair, and Members of the Subcommittee.
    [The prepared statement of Mr. Cortes follows:]
                 Prepared Statement of Luis Cortes, Jr.
    Thank you, Madam Chair, Mr. King and Members of the Subcommittee, 
for the opportunity to appear before you today. I am encouraged by this 
hearing and by information gathered in preparation for this hearing 
that the House and this Committee may actually move immigration 
legislation this fall.
    I appear before you today representing Esperanza's national network 
of over 10,000 Hispanic congregations, faith and community based 
agencies. As the nation's largest Hispanic faith-based organization, 
throughout the immigration debate and legislative process, we have 
engaged and informed our community, educating and activating our 
considerable constituency on the nuances of this most important issue.
    Since the President first announced his immigration policy in 
January 2004, Esperanza has worked closely with Members of Congress of 
both parties, the White House and the Administration to see 
comprehensive immigration reform become law. Every year before the 
National Hispanic Prayer Breakfast, Esperanza sends hundreds of 
Hispanic pastors and church leaders to Capitol Hill to meet with their 
Members of Congress. Since 2004, immigration has been a priority topic.
                     rule of law turned upside down
    Since comprehensive immigration reform legislation failed to pass 
the Senate this summer, hundreds of state and local enforcement 
initiatives have been enacted and thousands more are pending.
    In these cities and states, a fundamental value of American 
jurisprudence--the presumption of innocence--is gone. Law abiding 
residents simply thought to be illegal are being detained. For 
thousands of third, fourth and even fifth generation American citizens 
their color now defines the limits of their rights. The color of our 
skin or the sound of their accent now provides us the privilege of 
being detained, harassed or accosted in an effort to determine our 
status.
           even i wonder whether i need to carry my passport.
    Should the House fail as the Senate has failed, you will send our 
country back in time, back to the pre-1960's world of ``separate but 
equal.'' What of my parents who are a little darker, speak English less 
refined and may swallow an occasional vowel or letter? What happens to 
those tried and true American citizens that bleed red white and blue 
but look a little different and talk a little different--will they be 
afforded equal treatment under the law or will the law create a wedge, 
an opening that will lead to the mistreatment of those that don't fit 
the American ideal of citizenship?
    If unchecked, criminal elements will continue to prey on innocent, 
law abiding, hardworking residents of our communities, most of them 
American citizens, now afraid to call the police. American citizens now 
must consider the cost of police involvement for them and their 
families and now chose not to subject themselves to exploitation and 
abuse. It is easier to let certain crimes go, to not get involved as 
witnesses, than to fall victim to over aggressive law enforcement still 
learning the ropes of immigration enforcement.
                          call for leadership
    The country needs immigration reform legislation to become law now 
more than ever. With Senate failure, we look to the House for 
leadership. Our clergy looks to you, Madam Chair, your expertise and 
your ability to bring people together. We look to Mr. King to find 
areas of consensus, to find common ground and workable solutions.
    Our clergy calls on Speaker Pelosi, Judiciary Committee Chairman 
Conyers, Ranking Chairman Smith and Minority Leader Boehner to show the 
same leadership, commitment and ability to resolve differences as this 
Congress demonstrated 10 years ago when Congress passed comprehensive 
welfare reform. The welfare reform debate was heated and full of 
conflict and controversy. And yet this Congress and this country came 
together and solved one of the biggest problems facing our country in 
the mid 90's. All except Mr. King were here during the welfare reform 
debate. I have faith you can rise to this similar challenge today.
    The Senate has made their choice. Now the House has an opportunity 
to show wisdom and courage to fix our broken immigration system once 
and for all. Now is the time to lead--to educate constituencies 
influenced more by rhetoric than reality. Now is the time to do what is 
right, to stand up for what is right. Win the arguments and back down 
the bullies. Now is the time for leaders of both parties to teach their 
junior members by example.
    In the book of Matthew we are told that Jesus had compassion for 
the people of his day as they were ``harassed and helpless, like sheep 
without a shepherd,'' because their leaders abdicated their 
responsibility. Those called to set the law of the land and direct the 
citizenry did not have the moral fortitude to provide for their people. 
The people were worn out and tired. Constantly running up against a 
wall with no place to go, they were demoralized and helpless as their 
government failed to provide the most basic necessities of life. 
Because leaders abdicated their role as leaders, turned their back on 
the people of their day, Jesus' response was to heal them and make them 
whole.
    We stand ready to work with anyone and everyone with the strength 
and courage to lead this country toward a compassionate, merciful, 
workable solution.
                     theology & immigration policy
    You invited me here today in my role as a religious leader, to 
share thoughts and analysis of the STRIVE Act from our perspective as 
religious and community leaders. As faith leaders, we are called to 
ground our conduct and treatment of others in our reading and 
understanding of Scripture. So, too, for guidance on immigration policy 
we turn first to Scripture. Our support for comprehensive immigration 
reform comes from the biblical mandate to advocate on behalf of the 
stranger in one's land, a practice as ancient as the Old Testament.
    As written in Leviticus 19:33-34, ``When an alien resides with you 
in your land, you shall not oppress the alien. The alien who resides 
with you shall be to you as the citizen among you; you shall love the 
alien as yourself, for you were aliens in the land of Egypt: I am the 
Lord your God.'' In Matthew 25:35, Christ calls on all his followers to 
treat immigrants with fairness, justice and hospitality, ``For I was 
hungry and you gave me something to eat, I was thirsty and you gave me 
something to drink. I was a stranger and you invited me in.''
    Our call for Congress to pass comprehensive immigration reform is 
our call for Congress to recognize our history as a nation of justice, 
mercy, and compassion. These genuinely American principles must not be 
abandoned in any new immigration reform.
    One of the continuing distortions in this debate is the definition 
of ``amnesty.'' I am frustrated that we must continue to deal with 
those who choose to distort the real meaning of amnesty.
    As Christians we understand amnesty: Amnesty is what Christ 
provided for us as forgiveness for our sins when he paid for our sins 
with his life. This is true amnesty--unconditional and without penalty.
    The Merriam-Webster dictionary defines amnesty as ``the act of an 
authority (as a government) by which pardon is granted to a large group 
of individuals.'' A pardon is defined as ``the excusing of an offense 
without exacting a penalty'' (emphasis added).
    For politicians to distort the meaning of amnesty is a travesty. 
Those who persist should be ashamed. As religious leaders we call on 
the RNC and DNC to deal honestly and righteously with this issue. We 
ask the Chairmen of both parties to publicly ask their members to 
refrain from seeking political gain on the backs of the powerless and 
instead, work toward just solutions.
                             the strive act
    I congratulate Congressman Gutierrez and Congressman Flake for 
their leadership, dedication, commitment and all the hard work that 
went into developing the STRIVE Act. I commend you on rising above 
political rhetoric and polarization and working to bring a just 
solution to the current crisis.
    Esperanza evaluates all immigration legislation against Esperanza's 
Statement of Principles. Esperanza's Principles were released in March, 
2006 and still hold true today. They are included as an attachment to 
this testimony.
    We believe today as strongly as we did last year that for an 
immigration proposal to permanently fix our badly broken immigration 
system, it must accomplish four objectives: First, it must be 
compassionate, just and true to our heritage as a nation of families 
built by immigrants, to our heritage as a welcoming nation. Second, it 
must secure our borders. Third, it must secure our economy by providing 
safe, secure systems to meet current and future workforce requirements. 
And, fourth it must be a permanent, lasting, sustainable fix rather 
than one that, 20 years from now, will land us right back where we are 
today.
    We believe the STRIVE Act is a fair, workable and just solution to 
our disastrous immigration system. We also believe implementation of 
the STRIVE Act would be a permanent fix as it provides workable methods 
to secure our borders, to secure our economy with avenues for current 
and future workforce requirements. The STRIVE Act also keeps intact our 
nation's value on family unification. We would welcome the opportunity 
to work with you and your staff to see the STRIVE Act become the law of 
the land.
    We understand there is consideration being given about moving 
immigration legislation in pieces rather than one comprehensive bill. 
While our strong preference is to pass a comprehensive bill, we would 
also support and work closely towards passage of separate pieces of 
legislation. Since the American people understand and support in large 
majorities all the basic components of the STRIVE Act (see attachment), 
by debating each title separately, it just might be possible to avoid 
the rhetoric and distortion that ended with the collapse of the Senate 
bill.
    Should the decision be made to move legislative pieces rather than 
a comprehensive bill, I respectfully encourage you to include in the 
debate legislation, such as Title VI of the STRIVE Act, that provides 
legal status for the 12 million undocumented who get in the back of the 
line pass English and citizenship classes, pay fines and back taxes and 
whatever other requirements seem just penalty for entering or remaining 
in our country illegally.
    Border security alone ignores the plight of 12 million hard 
working, law abiding members of our communities. Border security alone 
does not address the needs of employers that often find themselves in 
moral and legal dilemmas unaddressed by the current direction provided 
in our current immigration system. This is the path to fix the problem 
we as Americans created with faulty policy, weak enforcement and no 
moral courage to make it right.
    Don't just take the easy road and pass the pieces for which there 
is already consensus among Members. Let's have the debate and a 
national discussion. Let's take a vote.
   for consideration: essential role for the hispanic faith community
    As the STRIVE Act moves forward, I encourage you to include 
language on the considerable role the Hispanic faith community can play 
implementing the legislation.
    In order to be successful, all proposals, regardless of specific 
details, will require massive education efforts in Hispanic communities 
across the nation to educate folks about the new legislation, to 
provide greatly expanded English as a Second Language and citizenship 
classes.
    The success of all proposals also depends on the willingness of the 
undocumented to come forward. Once we reach a just solution, the 
Hispanic faith community is prepared to partner with the federal 
government to serve as processing centers, the first place where the 
undocumented will come forward. All initial processing can take place 
at churches, faith and community-based agencies in coordination with 
other federal agencies, such as the FBI and Homeland Security, who will 
control all steps in processing background checks, employment 
verification, etc.
    So many undocumented simply will not go to Federal offices. As the 
trusted voice and primary social infrastructure, the Hispanic church 
can reach deep into the community and serve as safe harbors. We can 
work with the federal agencies not just on procedures and processes but 
also to ensure that those meeting with our people are culturally and 
linguistically sensitive, assuring smooth transitions from shadows and 
fear into the daylight of legal status.
            the people, once again, ahead of the politicians
    The American people understand immigration reform and the available 
options. Although public opinion research is all over the map on 
immigration reform, one set of questions, repeated by three different 
polling companies over an 8 moth period all yielded the same response--
65% of Republicans and 70% of Democrats support proposals that provide 
legal status with a path to citizenship for undocumented workers who 
pay fines and back taxes, learn English and pass citizenship classes.
    A Quinnipiac University poll taken last November 16th-19th found 66 
percent of Republicans and 72 percent of Democrats support allowing 
illegal immigrants into a guest worker program with a path to 
citizenship over a period of several years.
    In April, 2007, the bi-partisan polling team of The Tarrance Group 
and Lake Research survey found the American people of all parties, of 
all demographic groups continue to support proposals that allow illegal 
immigrants to come forward, register and receive temporary worker 
permits with a multi-year path to citizenship if they get to the back 
of the line, learn English, pay taxes, etc.
    In June, a Bloomberg/Los Angeles Times poll found a majority of 
Americans supported offering undocumented immigrants a path to 
citizenship and a program for temporary workers.
              business leaders & faith leaders join hands
    Immigration reform reaches far beyond Hispanic communities. 
American businesses need workers, and current American workforce 
projections fall significantly short of future requirements. American 
agriculture and landscape industries, building, trades, and 
construction, as well as the entire hotel, restaurant, resort, and most 
service industries are struggling today to find willing, capable 
workers. America's productivity tomorrow will be weakened without 
comprehensive immigration reform.
    America's free trade policy failed to recognize that the free flow 
of labor must accompany the free flow of goods and services. Failure to 
adjust our immigration system to meet increasing labor requirements has 
created this badly broken system and unjust situation. Ironically, it 
is the same free trade conservatives who, failing to understand this 
economic reality, call to deport 12 million undocumented workers.
    We are joined in our efforts by an impressive cross section of: 1> 
business and industry, 2> policy and 3> religious organizations. The US 
Chamber of Commerce, the National Restaurant Association, the American 
Hotel and Lodging Association, the American Farm Bureaus, the Catholic 
Bishops, the American Health Care Association, and the National 
Association of Home Builders are a few of the national organizations 
working with us in our efforts.
    When crafting categories of legal status for the undocumented as 
well as for temporary guest worker programs, we must take care not to 
create a closed, homogenous society that exploits the low-skilled and 
less-educated among us, treating them more as a disposable commodity 
than as brothers and sisters. Rather, for their willingness to serve us 
by doing jobs we would not want our children to do, they earn the 
opportunity to grow and become Americans. This is the American dream--
that the grandchild of today's avocado picker could someday be a member 
of Congress of the United States.
                           crime & punishment
    Most Americans--and most members of Congress--recognize that the 
vast majority of the 12 million are good people caught in a bad system, 
victims of one of the worst public-policy failures of our time. Forty 
percent (40%) of those currently in the country illegally--4.8 million 
people--entered legally. Millions await review for legal status and are 
simply caught up in a bureaucratic nightmare. The legal system views 
their ``crime'' as nothing more than a civil infraction, with penalties 
less severe than those for a misdemeanor.
    Families throughout our community are composed of a patchwork of 
immigration status. Around the family dinner table, American citizens 
sit with green card applicants, student visas and undocumented workers:

        <bullet>  In 6.6 million families either the head of household 
        or the spouse is undocumented.

        <bullet>  3.1 million American children live in families with 
        one undocumented parent.

        <bullet>  64 percent of the children living in undocumented 
        families were born here and are legal U.S. citizens. (Source: 
        Pew Hispanic Center)

    We are a nation of laws, and 12 million people live here illegally. 
For that there should be penalties. But just as we are a nation of 
laws, we are also a nation that believes the punishment should fit the 
crime.
    Entering the country illegally is a federal misdemeanor. Should the 
penalty for misdemeanors and civil infractions be ruptured families, 
destroyed businesses, and lost homes? Are we prepared for the father 
next door, for the mother of our child's best friend, for those who 
pray with us in church every Sunday to be deported?
    These are not violent crimes. These are not violent criminals. 
Their biggest ``crime'' is coming to America looking for available 
work. We should not inflict cruel and unusual punishment simply to 
rectify the policy failures of the past. At Esperanza, we suggest that 
the payment of fines and back taxes, together with background checks, 
English fluency and citizenship classes are rational responses to an 
emotional and difficult situation--responses that will meet our 
national security interests and workforce requirements while 
maintaining our
    history--as embodied in the Statue of Liberty--as a compassionate 
nation. These measures can work if their intention is to truly 
integrate our people into society and not to be hurdles created to 
intentionally trip individuals into deportation.
    As we move forward with this legislation let us recall the words of 
Jesus on the question of leadership. You are the leaders of today. You 
are called to move this country forward and make the hard moral 
choices. The choice on comprehensive immigration reform is morally 
right. It is good business and (begins to) creates the security 
American needs.
    In the end you are either those that work on behalf of the harassed 
and helpless or those that to refuse to set the law of the land that 
will direct the citizenry and show the moral fortitude that is so 
lacking in our public discourse. We commit to work on the higher road 
of morally good business and American security with you on behalf of 
all Americans. To fashion law that elevates our country and tells the 
world how we care for those that embrace our ideals of hard work, 
family and country.
    Thank you, Madam Chair and Members of the Sub-Committee, for the 
opportunity to appear before you today. I look forward to working with 
you and your staff in the days and weeks ahead.

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you.
    Mr. Hoyt?

    TESTIMONY OF JOSHUA HOYT, EXECUTIVE DIRECTOR, ILLINOIS 
           COALITION FOR IMMIGRANT AND REFUGEE RIGHTS

    Mr. Hoyt. Good afternoon. My name is Joshua Hoyt.
    As I begin my testimony on this polarized issue of 
immigration, I would like to quote the great statesman from the 
beautiful state of Illinois, Everett Dirksen, a Senate 
Republican who said, ``I have heard many a speech that changed 
my mind, but not one that changed my vote.''
    So thank you for the opportunity, and I will do my best to 
both change minds and votes.
    Our immigration system should reflect our Nation's values 
of family and hard work. And our elected officials should have 
the courage and wisdom to bring our laws in line with both our 
values and with economic and demographic reality. 
Unfortunately, neither has happened.
    Our country is now dealing with the consequences of more 
than 20 years of half-baked immigration policies from both 
parties. Whether we like it or not, our Nation relies heavily 
on immigrant workers, many from Mexico.
    Our workforce is aging. In 20 years, when I am 71, the 
ratio of seniors to workers in the United States will have 
jumped from the current 24 per 100 to 41 seniors per 100 
workers. The answer to the Beatle's existential question ``Who 
will still need me, who will still feed me, when I'm 64?'' is 
simple. It is immigrants.
    We offer few legal channels for these needed workers, 
especially for low skilled workers, to come to the United 
States. The laws of supply and demand ensure that immigrant 
workers will come and many stay.
    The half measures of the past have only made the problems 
worse. The 1986 reform did not account for future labor needs, 
employer sanctions were ignored, NAFTA increased trade but did 
not address the increased flow of workers. Border enforcement 
pushed immigrants into the desert, and as a result, those who 
are now here stayed put. And the 1996 reform makes it 
impossible for even productive, well-established undocumented 
immigrants to get legal status.
    So here we are in 2007. We have the untenable situation of 
an undocumented population of 12 million people, overwhelmingly 
productively working, yet vulnerable to exploitation. We have 
200 deaths on the border already this year, and we have no 
workable system for our future labor needs.
    Our immigration enforcement policies are severely out of 
alignment with our trade policies, our economic needs, and our 
Nation's values. The half steps have not worked. And that is 
why a solution to this mess must be a comprehensive reform, and 
ICIRR supports the STRIVE Act introduced by representatives 
Gutierrez and Flake.
    With legal status and earned citizenship for undocumented 
workers, increases in visa allocations to cut the long 
backlogs, temporary worker provisions with worker protections 
for our future labor needs and enforcement provisions that are 
generally reasonable and targeted. There are provisions we 
don't like, but we applaud Representative Gutierrez and 
Representative Flake for seeking a solid middle ground.
    Chest thumping, racially-charged get-tough enforcement, 
deportation and workforce enforcement strategies that do not 
address our underlying labor market demands are doomed to 
failure. Meanwhile, the human cost of breaking up families, 
like Tony's and Petty Officer Gonzalez's, are tragic, and the 
economic cost of churning our workforce are incalculable.
    The current political strategy of those who bully the 
vulnerable undocumented and pander to the most bigoted in their 
political base is both un-American and politically suicidal. 
President Bush proved that both parties can compete among 
Latino and immigrant voters, but in the current climate, they 
are just driven into the arms of the Democrats. And there are 
those in the majority party who seem to believe that if they 
just sit back and allow others to do the immigrant bashing, 
then Latinos will be satisfied with lip service.
    Shame on demagogues and opportunists and on political 
cynics. What we need are real reforms that will benefit, not 
just the immigrants and their families, but our whole Nation.
    We hope that this Committee, this Congress, and this 
Administration will take such leadership and pass the STRIVE 
Act. Thank you.
    [The prepared statement of Mr. Hoyt follows:]
                  Prepared Statement of Joshua W. Hoyt
    Good afternoon. My name is Joshua Hoyt. I am the executive director 
of the Illinois Coalition for Immigrant and Refugee Rights. ICIRR is a 
coalition of more than 100 member organizations through the state of 
Illinois that works to build the power and capacity of immigrant and 
refugee communities and to advocate for policies that will move 
immigrants and refugees toward full participation in our society. Thank 
you for the opportunity to speak before this subcommittee.
    Our nation's immigration system should reflect our nation's values 
of family, hard work, and fairness. And our elected officials should 
have the courage and wisdom to bring our laws in line with our values. 
Unfortunately, neither has been the case.
    Our country is now dealing with the consequences of more than 20 
years of half-baked immigration policies from Administrations and 
Congresses led by both parties. Whether we like to admit it or not, our 
nation relies heavily on immigrant workers, largely but not exclusively 
from Mexico. In Illinois alone, our workforce is aging and nearing 
retirement. Without new immigrant workers, our workforce would have 
shrunk from 2000 to 2005. Instead, our workforce grew by 2.7%, due to a 
23% increase in foreign-born workers. These workers filled 27.7% of the 
21,000 new health diagnosis jobs, 42.4% of the 53,000 new food 
preparation and serving jobs and 100% of the new managerial jobs in our 
state.
    Our workforce is aging and baby-boomers are retiring. After decades 
of stability, our senior ratio is poised to skyrocket. From roughly 24 
seniors per 100 working age residents, the ratio will surge in the 
coming decade to 32 and in the decade after that will hit 41. Absorbing 
this sudden 30% jump in the senior ratio in a single decade will be a 
terrific jolt. But the jump is repeated in TWO consecutive decades, 
testing America like never before. Who will replace our aging 
workforce? Immigrants.
    Yet we offer few legal channels for these workers to come to the 
United States. Permanent employment visas are limited to 140,000 per 
year, and involve employers going through an arduous, multi-year 
process with the Department of Labor and the Department of Homeland 
Security. Temporary worker programs involve similar hurdles that 
discourage farms and other employers from participating.
    But these workers still come, and many stay. Back in 1986, the 
Reagan Administration tried to address the unheard-of undocumented 
population of 3 million by enacting the Immigration Reform and Control 
Act. Many of the former undocumented immigrants who gained legal status 
under that law are leaders in their communities, and indeed throughout 
our coalition.
    But IRCA failed to provide any legal way for migrant workers to 
come to our country to work. Even worse, it outsourced immigration 
enforcement to employers, who now needed to check their workers' 
documents. The federal government, in both Democratic and Republican 
administrations, has paid only lip service to workplace enforcement. 
The number of employers prosecuted for unlawfully employing immigrants 
dropped from 182 in 1999 to four in 2003, and fines collected declined 
from $3.6 million to $212,000. In 1999, the United States initiated 
fines against 417 companies. In 2004, it issued fine notices to three. 
ICE fines on employers across the U.S. from FY02 to FY05 ranged between 
$6,00 and $73,000, hardly a serious enforcement plan. As the economic 
reality of our labor needs sank in and workforce enforcement tailed 
off, so did the incentives for employers to take immigration sanctions 
seriously.
    In the mid-1990s, the North American Free Trade Agreement and 
internal reforms in Mexico further drove Mexican migration northward. 
Farmers saw the market for their crops undercut by cheaper US corn were 
also displaced from the land by agricultural reforms. NAFTA sought to 
integrate economies of US, Canada, and Mexico, but did not integrate 
labor markets. At the same time, however, the Clinton Administration 
was cracking down on the Mexican border, massing resources in heavily-
trafficked areas like El Paso and San Diego in Operation Gate Keeper. 
These operations didn't stop people from coming; they only drove 
migrants to less patrolled, more remote, and more dangerous areas in 
the desert, especially in Arizona. The numbers of deaths on the border 
skyrocketed, as did the prices that smugglers could charge. And the 
incentives for those migrants who made it across to go back, only to 
endure another, still more dangerous crossing, evaporated. Instead, 
undocumented migrants settled in the US, and increasingly have brought 
their families with them.
    Further complicating the mix were such laws as the 1996 Illegal 
Immigration Reform and Immigrant Responsibility Act (IIRAIRA), which 
closed off many legal avenues for undocumented immigrants to gain legal 
status, such as suspension of deportation, even if they have been in 
the US for many years and have strong family ties here. IIRAIRA 
furthermore set up bars and traps that prevent many otherwise eligible 
immigrants from getting green cards, including the ten-year bar that 
now prevents Tony Wasilewski's wife from returning to the US.
    So here we are in 2007. As a result of failed policies on both 
sides of the border, our nation's undocumented population has ballooned 
to 12 million people. These are people who work hard in crucial sectors 
of our economy, who own homes and businesses, who are raising families 
and paying taxes. Yet for all their work and all their contributions, 
they cannot even get driver's licenses in most states and are under 
constant threat of deportation and separation.
    We have immigration policies that are severely out of alignment 
with our trade policies and economic needs. We have enforcement 
policies that clearly are not working and seemed designed to fail. As 
documented by Princeton Professor Douglas Massey, our border 
enforcement budget increased tenfold from 1987 to 2002, and our Border 
Patrol personnel tripled, yet the likelihood of someone getting caught 
at the border has plummeted. Yet Congress and the Bush Administration 
want to spend still more money on controlling the border and even build 
a border fence, fool's errands that will accomplish nothing without 
real reform of our immigration policies. And, in the absence of any 
real federal resolution to this situation, we have local communities 
trying to figure out what to do with their new immigrant populations--
all too often polarizing against them, to the detriment of the whole 
community.
    ICIRR supports a comprehensive approach to addressing our 
immigration crisis. For a complex issue like immigration, only 
comprehensive reform can meet our labor needs, enhance our national 
security, reunite our families, address the underlying motivations for 
migration, and uphold our nation's values. ICIRR worked with other 
immigrant advocacy groups throughout the nation on a series of 
principles for any real reform to our immigration crisis. These 
principles call for the following:

        <bullet>  Providing a Path to Permanent Resident Status and 
        Citizenship for All Members of Our Communities. Our immigration 
        policy needs to be consistent with reality. Most immigrants are 
        encouraged to come to the United States by economic forces they 
        do not control. Immigrants bring prosperity to this country, 
        yet many are kept in legal limbo. Legalization of the 
        undocumented members of our communities would benefit both 
        immigrants and their families and the U.S.-born, by raising the 
        floor for all and providing all with equal labor protections.

        <bullet>  Reuniting Families and Reduce Backlogs. Immigration 
        reform will not be successful until we harmonize public policy 
        with one of the main factors driving migration: family unity. 
        Currently families are separated by visa waiting periods and 
        processing delays that can last decades. Comprehensive 
        immigration reform must strengthen the family preference 
        system, by increasing both the number of visas available both 
        overall and within each category. In addition, the bars to 
        reentry must be eliminated, so that no one who is eligible for 
        an immigrant visa is punished by being separated from their 
        family for many years.

        <bullet>  Providing Opportunities for Safe Future Migration and 
        Maintaining Worker Protections. With respect to worker visas, 
        we need a ``break-the-mold'' program. Such a program must 
        include: legal visas for workers and their families; full labor 
        rights (such as the right to organize and independent 
        enforcement rights); the right to change jobs; and a path to 
        permanent residence and citizenship. A regulated worker visa 
        process must meet clearly defined labor market needs, and must 
        not resemble current or historic temporary worker programs. The 
        new system must create a legal and safe alternative for 
        migrants, facilitate and enforce equal rights for all workers, 
        and minimize the opportunities for abuse by unscrupulous 
        employers and others.

        <bullet>  Respecting the Safety and Security of All in 
        Immigration Law Enforcement. Fair enforcement practices are key 
        to rebuilding trust among immigrant communities and protecting 
        the security of all. Any immigration law enforcement should be 
        conducted with professionalism, accountability, and respect. 
        Furthermore, there should be effective enforcement of laws 
        against human trafficking and worker exploitation.

        <bullet>  Recognizing Immigrants' Full Humanity. Immigrants are 
        more than just workers. Immigrants are neighbors, family 
        members, students, members of our society, and an essential 
        part of the future of the United States. Our immigration 
        policies should provide immigrants with opportunities to learn 
        English, naturalize, lead prosperous lives, engage in cultural 
        expression, and receive equitable access to needed services and 
        higher education. Support for immigrants must also include 
        adequate resources to provide for decent, safe and affordable 
        housing to help meet the critical housing needs of the 2.2 
        million--one in five--immigrant families residing in the U.S.

        <bullet>  Restoring Fundamental Civil Rights of Immigrants. 
        Since September 11, 2001, implementation of sweeping law 
        enforcement policies have not only failed to make us safer from 
        future attacks, but undermined our security, while eroding 
        fundamental civil liberties. Failure to protect these 
        fundamental rights goes against the core values of a democracy, 
        and, therefore, the United States. For the benefit of everyone, 
        and not just immigrants, these basic rights must be restored 
        and protected.

        <bullet>  Protecting the Rights of Refugees and Asylees. The 
        United States has always been viewed as a safe haven for those 
        fleeing persecution. Yet, since September 11, 2001, 
        significantly fewer refugees have been admitted. The U.S. 
        government has an obligation to remove barriers to admission 
        and save the lives of thousands of people across the world who 
        are fleeing for their lives. In addition, our current policies 
        treat many asylees unequally based on their country of origin. 
        Our country must ensure fair and equal treatment of individuals 
        and their family members seeking asylum, and end the inhumane 
        detention and warehousing of asylum seekers.

    In the House, Rep. Luis Gutierrez, Rep. Jeff Flake, and former Rep. 
Jim Kolbe have worked with their Senate counterparts, Sen. Edward 
Kennedy and Sen. John McCain, to craft legislation that would 
incorporate these basic elements. During the last Congress they 
introduced the Secure America and Orderly Immigration Act.
    This past March, Reps. Gutierrez and Flake followed up by 
introducing H.R. 1645, the STRIVE Act. Like Secure America, STRIVE 
included many of the crucial provisions that must go into comprehensive 
reform:

        <bullet>  A pathway for undocumented immigrants who are 
        contributing to our economy and community to earn legal status 
        and eventually US citizenship--a pathway that would have 
        enabled Janina Wasilewski to apply, reopen her deportation 
        case, and gain legal status--as well as the DREAM Act for 
        undocumented students and the AgJOBS bill for agricultural 
        workers;

        <bullet>  Increases in visa allocations that would cut through 
        the long backlogs that many would-be legal immigrants now face;

        <bullet>  Temporary worker provisions that would enable those 
        who want to come to the US to work an orderly process to match 
        up with the employers who need them, but that would also 
        protect these workers and all workers in our country from abuse 
        and exploitation;

        <bullet>  Grant programs to assist immigrants in learning 
        English and preparing for citizenship, and to assist local 
        communities with the impact of new immigration;

        <bullet>  Enforcement provisions that are generally reasonable 
        and targeted at those who would do harm to our communities and 
        our nation.

    We would have preferred that several section not have been included 
in STRIVE, including the ``touch-back'' requirements for legalizing 
immigrants, the vast expansion of detention beds, and the authorization 
of local police to enforce federal criminal immigration laws. Still, we 
understand the need for compromise so that a comprehensive bill can 
gain broad support, and we applaud Rep. Gutierrez and Rep. Flake for 
seeking a solid middle ground for effective and humane immigration 
reform.
    But in addition to the right policies, we need our federal 
government to show true courage and, to quote Texas Governor Rick 
Perry, ``maturity'' in facing up to this issue and putting real 
solutions into place. Neither party can afford to continue on their 
current path.
    In my opinion, the fear-mongering and immigrant-bashing of last 
year contributed to the electoral disaster of Republicans last fall, 
and those who choose to pander to restrictionists and continue to 
alienate Latino and other immigrant voters will doom themselves to 
defeat. Last year, ICIRR and the Center for Community Change published 
a report, ``Today We March, Tomorrow We Vote,'' documenting the 
potential growth of immigrant voting populations all across the 
country. More than 14 million potential new citizens or children of 
immigrants reaching voting age could participate in next year's 
elections. In at least 11 swing states these potential voters are 
greater in number than the difference between President Bush and 
Senator Kerry's vote totals. And already USCIS saw record numbers of 
immigrants, buoyed by last year's marches, applying for US citizenship 
so that they can fully participate as voters.
    The Democratic Leadership can also not afford to just sit by, 
assume that the Minority will drive immigrant voters toward Democrats, 
and do nothing beyond paying lip service. Our votes cannot be taken for 
granted--we need real reforms that will benefit not just us and our 
families, but our whole nation.
    Now is time for both parties to show leadership and resolve our 
immigration crisis. We hope that this committee, this Congress, and 
this Administration, will take such leadership. Thank you.

                              ATTACHMENT 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Ms. Butts? Good to see you again.

  TESTIMONY OF CASSANDRA Q. BUTTS, SENIOR VICE PRESIDENT FOR 
         DOMESTIC POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Butts. Very good to see you again, Madam Chair, and 
thank you for the opportunity to come and speak with you on 
this important issue.
    My name is Cassandra Butts, and I am senior vice president 
for domestic policy of the Center for American Progress.
    When marchers took to the streets this past year in support 
of immigrant rights and the passage of comprehensive 
immigration reform in cities and towns across the country, 
images hearkened back to the civil rights movement and the 
struggle more than a half century ago against prejudice and 
discrimination. The struggle for immigrant rights and civil 
rights are as intertwined today as they have been at any time 
in the history of the United States.
    We stand tall as a Nation by welcoming more immigrants than 
any other country in the world. The welcoming torch of the 
Statute of Liberty, which beckoned ``huddled masses yearning to 
be free,'' or the U.S. Government motto ``E Pluribus Unum,'' 
``Out of Many, One,'' are more than symbols of our Nation. They 
embody the fundamental principles of our democracy.
    When we have honored these principles in the past, our 
immigration laws have reflected the best America has to offer. 
But too often that generosity was in conflict with our domestic 
struggle with race and our immigration policies were tainted 
with the same stains of discrimination and intolerance that 
divided the Nation.
    For almost a century beginning in the 1880s, U.S. 
immigration laws excluded or significantly limited groups of 
ethnic and racial minorities from entering the U.S. These 
increasingly restrictive immigration laws projected to the 
world increasingly intolerable conditions for ethnic and racial 
minorities in the U.S. who shared a common heritage with the 
disfavored immigrant groups.
    The 1960s represented a historic turning point that forever 
linked the fates of ethnic and racial minorities in the U.S. 
regardless of their immigration status. Heavily influenced by 
the fight for racial justice and equal opportunity represented 
by the civil rights movement, Congress passed the Immigration 
and Nationality Act Amendments of 1965, which eliminated the 
national origins quota system and racial exclusions. This new 
law became the third great pillar of civil rights laws of that 
era, joining the Civil Rights Act of 1964 and the Voting Rights 
Act of 1965 as beacons of freedom to the world, realizing 
America's founding principles.
    As a result of the 1965 Act, people of color now make up 
the majority of the approximately 24 million legal immigrants 
in the U.S. today. The growing diversity has reached every 
State and metro area in the Nation, and the Census projects the 
United States will become a ``majority minority'' country by 
2060 largely based on this growth.
    But as our immigration patterns have shifted to reflect 
greater diversity and the demands of a globalized economy, U.S. 
immigration laws have not been modernized to address these 
trends. One result has been the growth of a significant 
undocumented immigrant population estimated at 12 million.
    As a result, we have witnessed the resurfacing of historic 
hostilities toward immigrants and efforts to once again 
legislate intolerance and discrimination into our immigration 
laws. If this effort prevails and Congress fails to pass 
comprehensive immigration reform such as the STRIVE Act, the 
implications could be far reaching.
    The choice before us is one that would either define our 
society as clinging to the past in fear of changing 
demographics or as one prepared to take a progressive step 
forward toward a society rooted in the principles of racial 
equality and justice that has marked our progress since the 
1960s.
    We are once again at a historic crossroads and the path we 
choose to take could have as profound an impact on our future 
as the civil rights movement. Congressional inaction has 
already led to the patchwork of State and local anti-immigrant 
actions.
    Recent examples of such efforts provide few answers to the 
problems posed by our broken immigration system and raise more 
concerns about the safety of immigrant communities amid the 
specter of civil rights violations.
    The first case in point is Hazelton, Pa., which was in the 
forefront in enacting a local ordinance in 2006 that broadly 
defined ``illegal aliens'' to include lawful residents and 
naturalized citizens. The ordinance imposed a $1,000 fine on 
landlords who rented to illegal immigrants, and leveled a 5-
year ban on businesses that hired undocumented workers, and 
designated Hazleton as an English-only city.
    In a legal challenge by local immigrants and business 
owners represented by civil rights advocates, a Federal 
district court recently ruled Hazleton's ordinance 
unconstitutional. But the court's strong decision in the 
Hazleton case has not deterred other localities, such as Prince 
William County, Virginia, from taking similarly disturbing 
actions.
    In addition, State and local law enforcement have sought to 
fill the breech left by Federal inaction by enforcing Federal 
civil immigration Laws, and these efforts also run the risk of 
encouraging racial profiling and other civil rights violations.
    Today the link between immigrant rights and civil rights 
could not be racial profiling and other civil rights 
violations. Today, the link between immigrant rights and civil 
rights could not be more apparent. Supporters of comprehensive 
immigration reform like the STRIVE Act seek to restore a basic 
sense of justice and fairness to our immigration policy and 
recognize the common humanity of all the residents of the 
United States regardless of their immigration status.
    We, as a people, still believe in the principles that 
defined our fight for civil rights and the principles that have 
defined our American democracy. Congress should honor those 
principles by passing comprehensive immigration reform.
    Thank you.
    [The prepared statement of Ms. Butts follows:]
                Prepared Statement of Cassandra Q. Butts
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Mr. Barrera?

  TESTIMONY OF MICHAEL L. BARRERA, PRESIDENT AND CEO, UNITED 
  STATES HISPANIC CHAMBER OF COMMERCE, ON BEHALF OF MR. DAVID 
 LIZARRAGA, CHAIRMAN OF THE BOARD OF DIRECTORS, UNITED STATES 
                  HISPANIC CHAMBER OF COMMERCE

    Mr. Barrera. Good afternoon. It is late in the afternoon, 
and I appreciate everybody staying here.
    Chairman Lofgren, Ranking Member King, Members of the 
Subcommittee, fellow panelists, and, of course, the hardworking 
staff. My name is Michael Barrera, and I am president and CEO 
of the United States Hispanic Chamber of Commerce, which 
represents the interests of two million Hispanic-owned 
businesses in the U.S.
    I appreciate the opportunity to testify before the 
Subcommittee, on behalf of our Chairman, David Lizarraga, who 
could not with us here today.
    Chairman Lizarraga is the son of immigrants from Mexico, 
and I am the proud grandson of Mexican immigrants. We have been 
blessed with immigrant virtues of hard work and dedication to 
achieve the American dream. We owe our success in business and 
our commitment to the economic development of our communities, 
not just to the Hispanic community, but our communities and 
these same virtues.
    I dare say that most of us in this room owe much of their 
success to their immigrant roots and are immensely proud of 
their immigrant heritage. It is the strength of these immigrant 
roots that has made this country great.
    That is why I am deeply troubled that demonizing immigrants 
by closing our borders to them jeopardizes our economic future.
    Therefore, please accept the support of the United States 
Hispanic Chamber of Commerce for comprehensive immigration 
reform and for the STRIVE Act as a vehicle that accomplishes 
this goal.
    The employer community is fully committed to comprehensive 
reform, even more so due to the Administration's imposition of 
a proposed enforcement initiative that may displace as many as 
1.4 million workers in the coming months, and these just aren't 
illegal immigrant workers. These are overall workers in the 
U.S. economy.
    We also support a lawsuit filed by the AFL-CIO which seeks 
to freeze this enforcement initiative. In fact, the court 
issued a TRO on this. This lawsuit references a letter signed 
by the USHCC and other employer associations expressing strong 
reservations about these proposed regulations.
    It is not every day that I think I would ever be here 
proposing and supporting a lawsuit by the AFL-CIO, but right 
now we have labor unions and business joining together to fight 
bad policy, which arose in the vacuum left by Congress' 
inability to reform our broken immigration laws.
    The failure to pass immigration reform has also spurred, as 
many people have talked about, a flood of conflicting, 
fragmented, and often intolerant State and local ordinances on 
immigration.
    Comprehensive immigration reform is needed now if we are to 
put an end to the more than 1,400 State and local laws, which 
are being hostile to immigrants and also over-burdensome to 
small business, that have been introduced or past in the last 2 
years.
    The legal patchwork is creating havoc for residents, 
businesses and immigrants across the Nation.
    Global economic integration is a fact of life. Labor jobs 
go where labor is available, and that is why we need to allow a 
steady and regulated stream of immigrant labor into our 
country. The choice is between further offshoring of American 
industries and jobs or maintaining a productive and legal 
immigrant workforce that can fill the gaps of our labor supply.
    Immigrants fulfill a critical part of the U.S. labor force 
by performing jobs that Americans simply don't want to take or 
perform. The Cato Institute came to the same conclusion when it 
found that immigrant workers filled segments in the U.S. job 
market where Americans are either over or under qualified.
    But if you really want a great example, when is the last 
time you tried to get a teenager to mow your yard? It just 
doesn't happen anymore.
    As someone that works with both businesses and the Hispanic 
community, I call on Congress to pass comprehensive immigration 
reform for the sake of small businesses and the countless 
families that are being ripped apart with every workplace raid, 
with every misdemeanor that is being reclassified as an 
aggravated felony, and with the erosion of judicial review.
    I also urge reform for the sake of legal immigrant families 
that are being forced to pay steeper immigration fees and will 
soon be forced to navigate a bureaucratic maze of Government 
regulations to renew all green cards in 120 days. This also 
hurts business.
    Madam Chair, Ranking Member King, and Members of the 
Subcommittee, every person in this room owes their origins to 
our immigrant forefathers and mothers, many who weathered 
seemingly impossible odds in a strange land to come to the U.S. 
to achieve the American dream.
    This is not the time to close the door to others that dare 
to pursue the American dream. We must lend a hand to those 
immigrant families that are here contributing to this Nation's 
strength and our economy.
    We urge this Subcommittee to remain steadfast in passing 
comprehensive immigration reform.
    Please note that for the sake of brevity, I did not 
reference thoughts related to the STRIVE Act itself, but those 
can be found in the written testimony submitted for the record.
    Thank you once again for allowing me to serve as a witness 
today. I look forward to your questions.
    [The prepared statement of Mr. Lazarraga follows:]
                 Prepared Statement of David Lizarraga
Chairwoman Lofgren, Ranking Member King, members of the subcommittee, 
fellow panelists and staff,
    As Chairman of the U.S Hispanic Chamber of Commerce, I am very 
appreciative of having this opportunity to testify before the 
subcommittee.
    I am the son of immigrants from Mexico. I have been blessed with my 
immigrant family's virtue of hard work and dedication to achieve the 
American Dream. I owe my success as a businessman and my commitment to 
the economic development of my community to these same virtues. I dare 
say that most of those in this room owe much of their success to their 
immigrant roots and are immensely proud of their immigrant heritage. It 
is the strength of these immigrant roots that has made America a great 
nation.
    That is why I am deeply troubled that demonizing immigrants and 
closing our hearts and borders to them jeopardizes our own future. 
Therefore, please accept the support of the United States Hispanic 
Chamber of Commerce for comprehensive immigration reform, and for the 
STRIVE Act as a vehicle that accomplishes this goal.
    The STRIVE Act provides for increased border security and interior 
enforcement, revamping the employment verification system, a new worker 
program, a legalization program for undocumented workers, and reforming 
the current manner in which green cards are provided for both the 
family and employment-based categories so as to eliminate lengthy 
processing delays.
    Madam Chair, I would like to respectfully offer a few observations 
and recommendations on the STRIVE Act. We commend that the third title 
of the bill, which focuses on employment verification, is a vast 
improvement over current regulations, especially the ones currently 
being proposed through rulemaking. One of the highlights of Title III 
is how it rolls out the Electronic Employee Verification System over a 
period of 6 years based on the size of the employer--one year for 
critical employers; large employers at 2 years; mid-size employers at 3 
years; and small employers at 4 years. This is a fair approach given 
the difficulty that small businesses have in adjusting to new and 
complicated regulations.
    Moreover, this legislation recognizes the economic reality of 
shortages in labor and that we must establish an immigrant worker 
program. We are further encouraged that the program is structured in 
such a way that some immigrant workers can earn permanent residency in 
the United States.
    In addition, we recommend that the Subcommittee take into account 
that not all employers in a high unemployment area require the same 
type of workers. It is our position that the legislation should take 
into account the variances in education and skills required of certain 
jobs. We believe it is appropriate to allow for a waiver process for 
jobs deemed to be in shortage for a particular metropolitan statistical 
area. Therefore, on behalf of our membership, we ask you not to punish 
businesses that require workers with special skills or education in 
sectors where shortages exist.
    The employer community is fully committed to comprehensive reform, 
and even more so due to the Administration's imposition of a proposed 
enforcement initiative that may displace as many as 1.4 million workers 
in the coming months. We also support the lawsuit filed by the AFL-CIO, 
which seeks to freeze this enforcement initiative. This lawsuit 
references a letter signed by the USHCC and other employer associations 
expressing strong reservations about these proposed regulations. It is 
not everyday that labor unions and businesses join together to fight 
bad policy, which arose in the vacuum left by Congress' inability to 
reform our broken immigration laws.
    The failure to pass comprehensive reform has also spurred a flood 
of state and local conflicting, fragmented and often intolerant state 
and local ordinances on immigration. Comprehensive immigration reform 
is needed now if we are to put an end to the more than 1,400 state and 
local laws--most being hostile to immigrants--that have been introduced 
or passed in the last two years. This legal patchwork is creating havoc 
for residents, businesses and immigrants across the nation.
    For example, the recently passed amendment to the Illinois Human 
Rights Act will require businesses in Illinois to defy the proposed 
federal requirement to use the Basic Pilot verification system. In 
other cases, like Arizona's Fair and Legal Employment Act, businesses 
that are cited more than once for employing an undocumented immigrant 
are permanently barred from receiving a business license in the state. 
This Arizona law threatens entire business chains with penalties if a 
single location is cited and applies to hospitals and power plants.
    Thankfully the Lozano vs. Hazelton decision, wherein the court 
stopped local anti-immigrant ordinances in a Pennsylvania town, makes 
for good precedent to stop similar local laws. But, the legal costs of 
fighting each of these local ordinances constitute an enormous economic 
burden on employers.
    The USHCC believes that the weight of the economic and demographic 
evidence provides overwhelming support for comprehensive reform.
    Immigrants--legal and illegal--fill a vital role in the American 
economy comprising 14 percent of our workers.
    Immigrants hold 70 percent of agriculture jobs in the United 
States, 33 percent in building and grounds maintenance, 22 percent in 
food preparation and 22 percent in construction. The agriculture 
industry alone would suffer $12 billion in losses without immigrant 
labor, and as much as one-third of the production would shift to other 
countries.
    Global economic integration is a fact of life. Labor jobs go where 
labor is available, and that is why we need to allow a steady and 
regulated stream of immigrant labor into our country. The choice is 
between the further off-shoring of American industries and jobs or 
maintaining a productive and legal immigrant workforce that can fill 
the gaps in our labor supply.
    Immigrants fulfill a critical part of the U.S. labor force by 
performing jobs that Americans simply don't want to take or perform. 
The CATO institute came to this same conclusion when it found that 
immigrant workers fill segments in the U.S. job market where Americans 
are either over or under qualified.
    Furthermore, there are also very compelling demographic arguments 
for immigration reform. The current concern with the solvency of Social 
Security is based on a demographic problem--a high ratio of retirees to 
contributors. As such, we must assume that driving millions of workers 
out of the country or into the underground economy accelerates this 
insolvency to the tune of $500 billion by 2022 and takes billions more 
out of the national treasury that would have otherwise been collected 
in taxes.
    As someone that works with both businesses and the Hispanic 
community, I also call on Congress to pass comprehensive immigration 
reform for the sake of the countless families that are being ripped 
apart with every workplace raid, with every misdemeanor that is 
reclassified as an aggravated felony, and with the erosion of judicial 
review. I also urge reform for the sake of legal immigrant families 
that are being forced to pay steeper immigration fees, and will be soon 
be forced to navigate the bureaucratic maze of our government to renew 
all greencards in 120 days.
    It is unfortunate that we have once again as a nation fallen into 
an unreasoned nativist response to addressing the status of immigrants. 
As you may be aware, as far back as the birth of our nation, Benjamin 
Franklin himself spoke against allowing German immigrants into the 
United States and how their lack of education, sanitation and 
assimilation would doom our nation.
    The language and arguments that were used in the past have changed 
very little, and it is our hope that we, as a nation, can rise above 
the rhetoric to see the facts and weigh the national interest. 
Comprehensive immigration reform is necessary for our economy, our 
communities and our future prosperity.
    Madam Chair, Ranking Member King, and members of the subcommittee, 
every person in this room owes their origin to our immigrant 
forefathers, many who weathered seemingly impossible odds in a strange 
land, and came to the U.S. to achieve the American Dream.
    This is not the time to close the door to others that dare to 
pursue the American Dream, and we must lend a hand to the immigrant 
families that are here contributing to this nation's strength and 
economy.
    We urge this subcommittee to remain steadfast in passing 
comprehensive immigration reform.
    Thank you once again for allowing me to serve as a witness today.

    Ms. Lofgren. Thank you very much.
    Ms. Kirchner?

TESTIMONY OF JULIE KIRCHNER, DIRECTOR OF GOVERNMENT RELATIONS, 
           FEDERATION FOR AMERICAN IMMIGRATION REFORM

    Ms. Kirchner. Thank you very much, Madam Chair, Ranking 
Member King, and Members of the Subcommittee. Thank you for 
this opportunity to present the position of the Federation for 
American Immigration Reform with respect to the STRIVE Act and 
the policy considerations behind it.
    My name is Julie Kirchner, and I am FAIR's Government 
Relations Director.
    FAIR is a nonprofit, public interest organization 
advocating an immigrant policy that best serves the national 
interest. Our organization has over 300,000 members and 
activists in 49 States and is affiliated with over 50 
immigration reform organizations across the country.
    Madam Chair, on June 28 of this year, after an extensive 
national debate, the motion to invoke cloture on the Senate 
comprehensive immigration reform bill failed. It failed because 
the American people recognized that the legislation did not 
embody meaningful reform. Instead, they saw that through 
amnesties and guest worker programs, the legislation rewarded 
illegal activity, undermined the American worker, and only made 
a bad situation worse. And the American people said ``no'' with 
a voice that is rarely heard in politics.
    Madam Chair, one of the most compelling lessons we learned 
from the Senate debate is that before the American public will 
even consider amnesty or guest worker legislation, the 
Government must restore credibility to an immigration system 
that has long lost the confidence of the American people.
    However, upon examination of the STRIVE Act, it is clear 
that H.R. 1645 does not restore credibility to our immigration 
system, but instead only replicates and, in many cases, 
exacerbates the very same problems in the Senate bill.
    Madam Chair, Members, there have been several Members, 
honorable, distinguished Members who have testified today that 
they consider the STRIVE Act to be the solution, the best 
solution. I most respectfully disagree, FAIR disagrees.
    FAIR believes that the STRIVE Act really, in fact, fails to 
fulfill its purposed policy goals.
    First, the STRIVE Act will not end illegal immigration. On 
the contrary, by granting amnesty through so-called 
conditional, non-immigrant status, blue cards and the DREAM 
Act, the legislation rewards those who break the law and only 
encourages more illegal immigration.
    Second, the STRIVE Act will not improve the economic 
standing of the American worker. Instead, by creating a massive 
new H-2C guest worker program, and more than doubling the 
employment-based immigrant visas, the legislation floods the 
market with foreign workers willing to work for less and eager 
to compete with U.S. workers.
    The STRIVE Act does not guarantee a crackdown on employers 
who hire illegal aliens. The STRIVE Act does require that 
employers use an employment eligibility verification system and 
does increase civil and criminal penalties for employers who 
hire illegal aliens.
    However, all of this is undercut by provisions permitting 
the Department of Homeland Security to delay implementation of 
the verification system and to exercise its discretion to 
exempt entire classes of employers from its use.
    In addition, employees who hire independent contractors do 
not have to participate, and homeland security has the 
discretion to reduce penalties for illegal hiring practices.
    Fourth, the STRIVE Act will not improve the quality of life 
in the United States. Indeed, it may improve the plight of 
individual immigrants, but this comes at a cost to society in 
the form of increased public services, often borne by State and 
local governments, increased strain on the environment, and 
staggering population growth.
    FAIR estimates that the passage of the STRIVE Act would 
result in an additional 50 million people being added to the 
2050 population projection. This means that instead of the U.S. 
population growing to 461 million by the year 2050, it will 
soar to approximately 513 million.
    Finally, the STRIVE Act will not satisfy the American 
public's demand for meaningful immigration reform. Indeed, in 
poll after poll, the American people have shown that they 
overwhelmingly oppose such legislation.
    For example, a June Rasmussen poll of over 800 voters found 
that only 22 percent of Americans supported the bill considered 
by the Senate earlier this summer.
    Madam Chair, like the Senate amnesty bill, the STRIVE Act 
promises only to compound rather than ease our immigration 
crisis. Moreover, granting amnesty that rewards illegal 
activity and creating massive new guest worker programs that 
hurt the American worker simply does not make sense when there 
are other viable alternatives out there.
    One need only look to the Jordan Commission of the mid-
1990s, the bipartisan Jordan Commission, may I add, to see that 
many sound reforms have yet to be implemented. These reforms 
should not be held hostage to amnesty and guest worker 
programs.
    And, Madam Chair, I would just like to say, in closing, 
today there have been many comments on the issues of fairness 
and justice, and FAIR does believe that immigration policy 
should not discriminate on race, color, religion, or any 
particular background. It should be fair to all immigrants and 
there many hundreds of millions of immigrants all over the 
world, who I believe would probably like to participate in the 
American dream.
    And to reward those who come illegally rather than reward 
those who play by the rules, who wait their turn in line, is, 
in our opinion, unfair and unjust. And while there are some who 
say, ``Well, there are the people who would participate in this 
conditional non-immigrant status,'' this amnesty, as we call 
it, are penalized for paying some money, the difference is that 
the slate is wiped clean.
    Unlike people who are prosecuted and convicted of crimes in 
the U.S., there is no conviction on their record. It has never 
happened, and I think, Madam Chair, there is a very important 
difference.
    They get to start over. They get to act like it has never 
happened. Immigrants from all over the world, from Asia, 
Africa, South America, you name it, there are many, many who 
want to come and we should be fair to all of them.
    Thank you, Madam Chair.
    [The prepared statement of Ms. Kirchner follows:]
                  Prepared Statement of Julie Kirchner
    This statement addresses the effectiveness of the STRIVE Act as a 
legislative response to illegal immigration and border security in the 
United States.
                              introduction
    Madam Chair and members of the Committee, thank you for this 
opportunity to present the position of the Federation for American 
Immigration Reform with respect to the STRIVE Act and the policy 
considerations behind it. My name is Julie Kirchner, and I am FAIR's 
Government Relations Director. FAIR is a public interest organization 
advocating a just immigration policy that takes as paramount the 
national interest and the interests of American citizens. Our 
organization has over 300,000 members and activists in 49 states and is 
affiliated with over 50 immigration reform organizations across the 
country. FAIR does not receive any federal grants, contracts or 
subcontracts.
    Madam Chair, on June 28, 2007, the motion to invoke cloture on the 
Senate's comprehensive immigration reform legislation failed. It failed 
because the American public saw that it was created to serve special 
interests by perpetuating the status quo. They saw the unrelenting 
violation of the nation's borders, the skyrocketing illegal alien 
population, and the disappearance of jobs and depression of wages as 
employers exploited low-paid guest workers or simply used illegal alien 
labor. They then saw the Bush Administration join with a handful of 
Senators to offer legislation that granted amnesty and created massive 
new guest worker programs to appease big business. They realized that 
this legislation rewarded law breakers, undermined the American worker, 
and only made a bad situation worse. And the American people said 
``no.'' \1\
---------------------------------------------------------------------------
    \1\ According a Rasmussen poll, only 22 percent of Americans 
supported the comprehensive immigration reform bill considered by the 
Senate earlier this summer. This lack of support was bi-partisan, with 
only 22 percent of Democrats and 22 percent of Republicans favoring it 
(www.rasmussenreports.com, June 25, 2007).
---------------------------------------------------------------------------
    Madam Chair, the American people not only said ``no'' to the Bush-
Kennedy amnesty bill (S.1639), they said ``no'' with a voice rarely 
heard in politics. And, as Senators of both parties listened to why 
ordinary Americans overwhelmingly opposed the bill, they began to 
realize that before them was an immigration bill with so many flaws and 
failings, no political compromise could save it. Indeed, on the day of 
the final cloture vote the volume of phone calls from those who opposed 
the bill was so great, it shut down the Capitol switchboard. Within 
hours, 37 Republicans joined with 16 Democrats (including one 
Independent) to vote against the Bush-Kennedy Amnesty Bill and the 
cloture motion failed, 46-53.
    Turning our attention today to the STRIVE Act (H.R. 1645), it is 
clear that H.R. 1645 only replicates, and in many cases exacerbates, 
the problems in the Senate bill. It grants mass amnesty in multiple 
forms, creates huge new guest worker programs, increases the annual 
number of foreign workers who may permanently stay in the U.S. The 
effects of such legislation, if passed, would have devastating effects 
on U.S. taxpayers, the American worker, the environment and, most 
importantly, the rule of law.
                                amnesty
    The STRIVE Act contains not one, but three amnesty programs. First, 
the bill allows an illegal alien--and an illegal alien only--to apply 
for ``conditional nonimmigrant status'' if he can establish continuous 
physical presence in the U.S. since June 1, 2006. The alien must also 
submit fingerprints, undergo a background check, and pay a $500 fine. 
After six years, the conditional nonimmigrant can obtain lawful 
permanent residence by establishing employment; paying taxes; paying 
$2000 in fees and fines; passing a background check; meeting a minimal 
English course study requirement; and touching the border. This last 
requirement, called a ``touchback'' provision, only requires that 
during the six-year period, the alien return to the border and reenter 
the United States as a conditional nonimmigrant--the status he or she 
already has. There is no requirement that the alien actually return to 
his or her home country, undergo any new scrutiny, obtain any new 
documentation, or spend any meaningful time outside of the U.S.
    The second amnesty provision is in the AgJOBS section of the bill 
which gives ``blue cards'' to agricultural workers. This provision 
allows nearly 1.5 million illegal alien agricultural workers, plus 
their spouses and children, to obtain legal status so long as they have 
been engaged in regular agricultural employment for the two years 
ending December 31, 2006. Three years after receiving a blue card, the 
alien can adjust to lawful permanent resident status and then obtain 
U.S. citizenship. This provision is reminiscent of the Seasonal 
Agricultural Worker amnesty provision enacted in 1986 that is now 
considered one of the most fraud-ridden immigration provisions ever 
adopted.
    The third amnesty program is contained in the DREAM Act portion of 
the legislation. Under the DREAM Act, any individual who entered the 
U.S. before turning 16 years old, remained in the country five years, 
and has enrolled in primary or secondary school will receive a stay of 
removal and work authorization. An illegal alien who finishes high 
school will receive conditional immigrant status and may adjust to 
lawful permanent resident status upon completion of a two-year degree 
program.
                         guest worker programs
    The STRIVE Act increases the ease with which employers can import 
guest workers into the country by creating a massive new guest worker 
program and expanding existing guest worker programs. First, the STRIVE 
Act creates a new H-2C guest worker program that allows illegal aliens 
to stay and work in the U.S. for up to 6 years as long as they can show 
employment; pass a background check; pass a medical examination; and 
pay a $500 fee. Under the H-2C program, these ``guest workers'' and 
their dependents are permitted to apply for permanent residency status 
and eventual citizenship. The program has an annual cap of 400,000 
guest workers with an automatic escalator that can inflate the number 
to as many as 600,000 guest workers per year. This will permit 
employers to import up to a total of 3.6 million additional foreign 
workers into the U.S. at any one time--not counting their immediate 
relatives--to compete for American jobs in construction, service or 
other areas of the economy at lower wages and with arguably fewer 
protections.
    In addition, the STRIVE Act dramatically increases the number of H-
1B visas from 65,000 to 115,000 for 2007, with possible yearly 
increases of 20 percent until a ceiling of 180,000 is reached. It also 
exempts from the H-1B cap aliens with graduate degrees in science, 
engineering, math, etc. and broadens the exemption from the cap for 
aliens who earned graduate degrees in the U.S. These provisions are a 
serious threat to high-tech workers in the U.S., including legal 
immigrants who have patiently waited their turn to take part in the 
American dream.
                           legal immigration
    In addition to importing up to 600,000 guest workers annually (plus 
family members) who will be put on a path to citizenship, the STRIVE 
Act more than doubles the annual number of employment-based immigrants 
allowed into the U.S. by raising the cap from 140,000 to 290,000. The 
legislation also reverses current law by exempting spouses and 
children-up to 800,000 annually--from the employment-based cap. This 
provision further doubles admissions since currently about half of the 
quota is used for family members. Finally, the bill exempts from the 
cap aliens who come to take positions in what the Department of Labor 
certifies as ``shortage occupations.'' This last provision in 
particular will do nothing more than create an ongoing incentive for 
big business to lobby Washington to classify every imaginable sector of 
the workforce to as a ``shortage occupation.''
                              enforcement
    Finally, Madam Chair, the STRIVE Act has some positive enforcement 
provisions. However, these enforcement provisions, much like the 1986 
amnesty, are designed to fail as they are undermined by numerous 
loopholes.
    First, the STRIVE Act mandates that employers use an employment 
eligibility verification system set up by the Department of Homeland 
Security and the Social Security Administration (SSA) within five years 
and requires SSA to share information with the Department of Homeland 
Security (DHS). It increases the civil and criminal penalties for 
employers who knowingly hire illegal aliens. However, all of this is 
undercut by provisions permitting DHS to delay implementation of the 
employment eligibility verification system and exercise its discretion 
to excuse classes of employers from its use. In addition, employers who 
hire ``independent contractors'' do not have to participate and DHS has 
the discretion to reduce penalties for illegal hiring practices.
    With respect to border security, the STRIVE Act increases the 
number of Border Patrol agents and Immigration and Customs Enforcement 
(ICE) agents. It affirms the power of state and local law enforcement 
to carry out criminal (but not civil) immigration laws and increases 
the number of detention beds available. Increasing resources for border 
security requires funding, however, and the STRIVE Act provides none. 
But even if it did, increasing law enforcement capabilities is 
meaningless if the federal government continues to turn a blind eye to 
violations of the law and amnesty is to be the new immigration policy 
of the United States.
                         policy considerations
    Madam Chair, both supporters and opponents of recent mass-
legalization and border enforcement efforts can agree on many of the 
facts that have recently brought issues of immigration and border 
security to the fore. A conservative estimate of the number of aliens 
illegally in the United States is around 12 million according to a 
recent Department of Homeland Security study.\2\ Other estimates put 
the population figure as high as 20 million.
---------------------------------------------------------------------------
    \2\ Department of Homeland Security, Office of Immigration 
Statistics, Estimates of the Unauthorized Immigrant Populations 
Residing in the United States: January 2006 at 2 (August 2007).
---------------------------------------------------------------------------
    These individuals do not just happen to be here; they did not wake 
up one morning on the wrong side of the border. They intentionally 
break the law by illegally crossing the border or overstaying their 
visas. And while most of those who enter the U.S. illegally do so to 
improve their economic situation, they do so at the expense of others--
citizens and legal immigrants--clogging the court systems, straining 
government services, depressing wages of workers and exacerbating the 
strain on the environment. Most disheartening, illegal aliens by 
definition benefit from undermining the rule of law. Yet, despite the 
fact that illegal immigration impacts virtually every American and our 
quality of life, these effects are rarely discussed in policy debates 
on Capitol Hill.
    Madam Chair, while some in Congress feel that the best course of 
action is to grant amnesty and otherwise adjust the law to accommodate 
illegal activity, FAIR believes there are many other alternatives that 
uphold the rule of law and better serve the long-term interests of our 
nation. During the 1990s, for example, the bi-partisan U.S. Commission 
on Immigration Reform (commonly known as the Jordan Commission) 
released at least three reports full of sound recommendations for 
reforming of our immigration system.
    With respect to illegal immigration, the Jordan Commission 
recommended improving border security, eliminating the jobs magnet, 
including a computerized registry to verify work eligibility, and 
mitigating the costs to state and local governments. With respect to 
legal immigration, the Jordan Commission recommended simplifying 
immigration categories; reducing legal immigration (with overall annual 
cap of 550,000); prioritizing immediate family members over extended 
family; prioritizing skilled workers over unskilled workers; reducing 
the ceiling for employment-sponsored immigration; and increasing 
interior enforcement. The Commission also stressed enforcement of 
immigration limits, enforcement of sponsor responsibility, and 
protection of American workers as basic principles essential to an 
effective immigration policy.
    Madam Chair, the Jordan Commission recommended these reforms to our 
immigration system over a decade ago and yet few of them have been 
implemented. It seems that the Bush Administration and many in Congress 
prefer to ignore them and skip straight to the politically expedient 
alternatives--amnesty and guest worker programs. But traveling this 
course will only perpetuate the status quo and lead to the further 
deterioration of our immigration system. FAIR believes that the reforms 
recommended by the Jordan Commission offer an exponentially better and 
genuine solution to our immigration crisis.
                               conclusion
    Madam Chair, for all of the reasons above, FAIR believes that the 
STRIVE Act compounds, rather than eases, the problems of our broken 
immigration system. By granting amnesty to illegal aliens, Congress 
rewards those who openly break our immigration laws and encourages more 
illegal immigration. Furthermore, the creation of massive new guest 
worker programs coupled with the expansion of existing programs serves 
only to subsidize corporate greed and undermine the status of the 
American worker. Finally, when the amnesties, guest worker programs, 
and special loopholes and exceptions of the STRIVE Act are combined, 
the resulting increase to the U.S. population is staggering. FAIR 
estimates that the passage of the STRIVE Act would result in an 
additional 50 million people being added to the 2050 population 
projection. This means that instead of the U.S. population growing to 
461 million by 2050, it will soar to approximately 513 million.\3\ 
Looking at these devastating effects, FAIR believes passage of the 
STRIVE Act would be a mistake of historic proportions.
---------------------------------------------------------------------------
    \3\ Federation for American Immigration Reform, Report: Assessing 
the Population and Environmental Impact of the Gutierrez-Flake Bill 
(H.R. 1645) (May 2007), see attachment.
---------------------------------------------------------------------------

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you.
    And last, but certainly not least, Mr. Stewart.

 TESTIMONY OF THE HONORABLE COREY STEWART, CHAIRMAN AT-LARGE, 
           PRINCE WILLIAM COUNTY BOARD OF SUPERVISORS

    Mr. Stewart. Thank you, Madam Chair, Ranking Member King, 
Members of the Subcommittee.
    I am Corey Stewart, chairman of the Board of County 
Supervisors, Prince William County, VA.
    As I am sure some of you know, Prince William County is 
located approximately 25 miles south of here. At 400,000 
residents, we are the second largest county in the Commonwealth 
of Virginia. We are also the seventh wealthiest county in the 
United States.
    This economic prosperity and economic opportunity and high 
quality of life in Prince William has drawn talent from all 
over the United States and, in fact, the world. We welcome the 
increasing diversity in our community. We welcome legal 
immigration in our community, and I better say that, since my 
own wife is a legal immigrant from Sweden.
    What we do not welcome is unlawful, illegal immigration in 
our community. Illegal immigration is degrading the quality of 
life in our community.
    According to Immigration and Customs Enforcement, 
approximately one-third of the gang members in Northern 
Virginia are illegal immigrants, people that should not have 
been here in the first place. At last check, fully one-fifth of 
our inmates in our local adult detention center were illegal 
immigrants.
    In a sick twist of fate, one of the suspects in the brutal 
execution-style murders of three American college students in 
New Jersey is, in fact, a resident of Prince William County, 
Virginia. And just this morning, Madam Chair, if you will allow 
me, a murder committed by an illegal immigrant, twice deported 
from the United States, another murder by an illegal immigrant 
in Prince William County. The suspect here was twice deported 
and allowed to come back to the United States.
    We are on the front line of this problem. The localities 
and the citizens and the local taxpayers have to pay for the 
problem. But what caused the problem was you, the Federal 
Government failing to enforce the law, and this is the problem.
    We are asking for your support to crack down on illegal 
immigration. The Federal Government has failed to secure the 
border. The Federal Government has also failed to support 
communities such as Prince William County that are dealing with 
the effects of illegal immigration.
    So what do we do as a community? We use our limited 
resources and our limited legal authority to crack down 
locally. We have successfully teamed with Immigration and 
Customs Enforcement to implement the 287(g) program. And I want 
to thank certain Members of this Committee who supported that 
in 1996.
    In the first month of implementation this past July, we 
initiated deportation proceedings on 52 illegal immigrant 
criminals--illegal immigrants who, on top of being illegal, 
entered our community and committed crimes. Those 52, at least 
for the time being, will not be committing crimes such as this 
and threatening the lives and the property of Prince William 
County residents.
    What we would ask, however, is that you enforce the laws at 
the Federal level. Failing that, we ask that you give us more 
authority to do so at the local level. We ask that you give us 
the authority to detain and arrest suspected illegal immigrants 
based solely upon a civil detainer.
    We also ask that you give us the authority to, as Hazelton, 
Pennsylvania did, fine landlords who house and harbor illegal 
immigrants.
    We also ask that you give us the authority to fine 
employers who hire and exploit illegal immigrants.
    The law must be enforced. It is degrading our quality of 
life. If you are not going to enforce them at the Federal 
level, we ask that you give us the tools at the local level to 
do so, and we will.
    Thank you.
    [The prepared statement of Mr. Stewart follows:]
            Prepared Statement of Honorable Corey A. Stewart
    Madam Chair, Ranking Member King and members of the Subcommittee, I 
am Corey A. Stewart, Chairman of the Prince William, Virginia Board of 
County Supervisors. I have served in this Countywide elected position 
since November 2006. Previously, I served as the Occoquan Magisterial 
District Supervisor starting in January 2004 until assuming my current 
position.
    Prince William County is located in Northern Virginia approximately 
25 miles south of Capitol Hill on 1-95 or 30 miles west on I-66. 
Approximately two-thirds of our employed residents commute to jobs 
outside the County in the District of Columbia, Maryland, or Northern 
Virginia. The major job centers in the County include Marine Corps Base 
Quantico, Potomac Mills, and the Innovation Technology Park which 
includes a campus of George Mason University.
    Prince William County has a population of approximately 400,000 and 
has grown by nearly 100,000 residents in the last 7 years. The County 
is the seventh wealthiest large locality in the United States. We are 
also a diverse and cosmopolitan community. Among the fastest growing 
groups in the County is the foreign born population. From 2000 to 2005, 
according to the US Census Bureau, the percentage of our population 
that is foreign born rose from 6.2% to 19.4%. Approximately one-third 
of this group is naturalized.
    Prince William's high quality of life and economic opportunity has 
drawn talent from around the world, and legal immigration has been a 
tremendous asset to Prince William County. Many businesses are owned 
and operated by naturalized citizens and legal immigrants. One research 
institution located in the county specializing in the life sciences 
employs scientists of the former Soviet Union in an effort to prevent 
the spread of deadly bio-terror toxins. A local chain of supermarkets 
catering to the Hispanic population was recently honored by the 
Virginia Chamber of Commerce as one of the ``Fantastic 50'' Companies. 
We are very proud of the contribution they have made to our community 
and to our nation.
    Like a lot of other communities throughout the country, the County 
has been facing the issue of illegal immigration and its secondary 
impacts upon our community. A serious problem the County is facing is 
the presence of criminal street gangs. The County has been partnering 
with Immigration and Customs Enforcement (ICE) and other local law 
enforcement agencies through the Northern Virginia Regional Gang Task 
Force to combat this problem. The Congress has appropriated federal 
funds for this task force due to the efforts of Congressmen Frank R. 
Wolf, Tom Davis and Jim Moran. Our law enforcement partners at ICE 
estimate that 18% to 30% of criminal gang members in Northern Virginia 
are illegal aliens. Over the three and a half years of the task force 
368 gang members who are illegal aliens have been placed in deportation 
proceedings.
    At last count, the percentage of inmates in our regional jail who 
are here illegally was 21%. These inmates are incarcerated for a 
variety of crimes ranging from murder and rape to drunken driving and 
drunk in public. While the jail receives some reimbursement from the 
Federal Government through the State Criminal Alien Assistance Program, 
it only accounts for 10% of those costs.
    The number of informal ``day laborer'' sites around the County in 
parking lots and convenience stores has grown over the last several 
years. We have received many complaints from store owners and residents 
about these sites. Oftentimes, customers have to navigate among crowds 
of men seeking work or drinking in public to get into the stores. Many 
such stores have lost business. After one enforcement action to close 
down one of these sites, some of those arrested were found to be in the 
country illegally.
    As a result of these issues--as well as residential overcrowding 
and crowded schools and emergency rooms--citizens in our community have 
become enraged about the impact of illegal immigration and the effect 
that it is having on the County and their quality of life. My 
constituents believe that the Administration should enforce U.S. 
immigration laws. Because the Federal Government has failed to do this, 
the Board of County Supervisors has been forced to take bolder action 
on what is essentially a federal responsibility.
    Locally, the County has taken a number of steps to address illegal 
immigration. The Prince William-Manassas Regional Jail Board, with the 
express urging of the Board of County Supervisors and the Manassas City 
Council, entered into a 287 (g) agreement with Immigration and Customs 
Enforcement (ICE) to turn over inmates who had been determined to be in 
this country illegally and completed their sentences to ICE for 
deportation proceedings. Since entering this agreement in mid-July, the 
jail has turned over 52 inmates to ICE. Another 59 inmates will be 
turned over once their sentences are complete while 47 others are under 
investigation for possible immigration violations. The Board of County 
Supervisors recently budgeted and appropriated $1.4 million for this 
local effort. Most of these funds will be used to secure additional 
jail space and the remainder for training.
    The County is also examining whether the County can lawfully 
prevent illegal aliens from receiving County services. There are some 
services that the federal government and Commonwealth of Virginia have 
already legislated that illegal aliens cannot receive such as Food 
Stamps. Other services must be provided to all regardless of their 
immigration status such as those provided through the Older Americans 
Act. Then there are a group of services that the County may have the 
option of restricting to legal residents. The Board will be considering 
whether to require those who receive this last group of services to 
provide documentation they are in this country legally.
    We respectfully request that Congress broaden the powers of local 
governments to enforce federal immigration law. Federal legislation 
needs to clearly enunciate our roles and the relevant authority. The 
following policy issues should be addressed:
    Authority to enforce federal immigration law: The federal 
government must clearly state to what extent state and local 
governments may enforce federal immigration law. In particular, we 
request that Congress state explicitly that local law enforcement 
personnel may arrest persons based solely upon an immigration 
violation, whether civil or criminal. Local governments and law 
enforcement agencies need the greatest level of immunity afforded by 
both the federal and State governments to enforce federal immigration 
law.
    State Criminal Alien Assistance Program (SCAAP): The federal 
government needs to budget and appropriate a greater level of resources 
for SCAAP so that more than 10% of local government costs incurred in 
housing illegal aliens may be recovered.
    ICE 287 (g) Program: Congress needs to budget and appropriate a 
greater level of resources, both human and otherwise, so that ICE may 
receive inmates identified as illegal aliens immediately upon the 
completion of local detention. ICE's limited detention capacity has 
resulted in severe limitations on this County's access to deportation 
resources. If this continues, the County will continue to incur 
tremendous costs to house illegal aliens. Furthermore, resources should 
be provided to deport illegal aliens who have completed local detention 
but whose crimes are not deemed to be among the ``worst of the worst.'' 
These individuals are returned to the community upon completion of 
detention. Funding also needs to be provided for training of local law 
enforcement agencies.
    Northern Virginia Gang Task Force: Federal funding for this and 
similar programs should increase substantially. The proposed FY 2008 
budget passed by the House of Representatives in July provides $1.5 
million. This is $1 million less than what was appropriated for FY 
2006.
    Madam Chair, thank you for inviting me to provide a local 
perspective on federal immigration issues and how these affect our 
community. I would be glad to stand for questions.

    Ms. Lofgren. Thank you, and thank you all for your 
testimony.
    It has been a long afternoon, but I think it has been an 
instructive one. We will have just a set of questions and then 
we will adjourn, and I will begin, if I may.
    Mr. Wasilewski and Petty Officer Gonzalez, it seems to me, 
if I am hearing you correctly, that you are both in the case--
you are a U.S. citizen, you are a legal resident about to 
become a U.S. citizen, and that your wives would have been 
permitted under existing immigration law to get a legal visa, 
except for a change we made in the law in 1996 on this 3 and 
10-year bar.
    Is that your understanding, that that is the only thing 
that is really standing in the way at this point?
    Mr. Wasilewski. Yes, Chairwoman. Immigration officers said 
she broke the law. But my wife has never done anything wrong 
here in the United States. She has no criminal record, not even 
a parking ticket.
    And it was because Janina, she tried to follow the legal 
procedures for staying in the United States by applying for 
political asylum. She exposed herself to the immigration system 
and was deported.
    Ms. Lofgren. So she thought she was trying to follow the 
rules and got caught in this trap.
    Mr. Wasilewski. Yes.
    Ms. Lofgren. Petty Officer Gonzalez, this 3 and 10-year 
bar, is that really what is the issue? Because you are an 
American--I mean, not only an American, but we thank you once 
again for your service to our country.
    The rule is that if you are an American citizen, you can 
apply for your spouse. I mean, we are not trying to choose who 
Americans marry, but it is this 3 and 10-year bar issue, isn't 
it?
    Mr. Gonzalez. No, ma'am. When we got together, me and my 
wife, she had already applied for asylum under NACARA.
    Ms. Lofgren. Under the NACARA.
    Mr. Gonzalez. Right. And she was already in her process. 
Now, when we got married, that changed her status and she could 
no longer be granted status under those set of rules.
    Ms. Lofgren. Under the NACARA, right.
    Mr. Gonzalez. Right. And so now since she didn't get it, so 
now she got sent to removal proceedings because she was 
exposed, also.
    Ms. Lofgren. Well, I just think, if I can, the old 
immigration lawyer in me and old immigration law professor in 
me tells me that this is a massive bill, and a lot of the 
attention has been focused on the 12 million undocumented, and 
that is appropriate. It is an enormously important challenge 
for those individuals, for our country and for the economy and 
the like.
    But, also, within it are elements of--it is an intricate 
law and under ordinary principles, I mean, the rule has always 
been in modern history that the Federal Government doesn't tell 
Americans who they get to marry. I mean, we are not going to 
make that selection and Americans get to--you are an American 
citizen. You get to have your spouse stay here with you.
    We changed the rules on that, well, 11 years ago. And in 
the STRIVE Act, that is made an issue and maybe that is one of 
the things that we should be attending to in addition to some 
of the issues that have gotten more attention.
    I am just wondering, Mr. Gonzalez, or Petty Officer 
Gonzalez, I mean, you are in service to our country and you are 
in this situation. I don't think most Americans would think 
that is a very good situation. I don't think most people 
would--they would be surprised that an American serviceman 
would be in this situation.
    Have you run into other people in military service who have 
a similar problem?
    Mr. Gonzalez. Yes, ma'am, I have countless people that are 
in the same situation as I am, to where they try to play by the 
rules and when we play by the rules and we no longer qualify by 
the rules, we get exposed and then we have to go to the next 
step, which is removal proceedings.
    And there are many people in my shoes and I am speaking for 
a lot of them and they are in the same situation I am. They 
just don't want to say anything about it.
    Ms. Lofgren. I guess, I thank you, because I understand we 
announced that earlier.
    I would like to ask, Reverend Cortes, you have been here 
before to testify, and we always look forward to listening to 
your wonderful voice. But in your written testimony, you talk 
about law abiding individuals living in fear, and I know that 
that is the case.
    What can we do to eliminate this climate of fear that is 
occurring in our neighborhoods that you described?
    Mr. Cortes. Well, law abiding people, by that, I include 
both clergy, of which we are an association of clergy, a 
national network, clergy and individual families who are 
citizens, but they all know someone who is undocumented.
    So the climate of fear that has been created is on two 
sides. On one side, you have racial profiling, and we know of 
the cases now where American citizens who happen to have 
Hispanic surnames and happen to be working in a place that has 
a raid are being arrested legally.
    So on one side, you have that issue of fear. On the other 
side, you have the fear that if you call a police officer and 
they are empowered and one cousin or an uncle or someone in the 
neighborhood is undocumented, clergy now, for the first time, 
have to make a decision whether we work with the police, which 
traditionally, in inner city communities, ministers have been 
at the forefront with police departments fighting issues of--
fighting all the issues of crime, specifically drug 
interdiction and others.
    On June 23, I participated in a process where 56 police 
chiefs were represented by Sylvester Johnson, the Philadelphia 
Chief of Police, and all of them said that they did not want 
their officers to begin to track down undocumented immigrants, 
because in Hispanic communities, as well as in Middle Eastern 
communities and African communities, it was going to raise 
havoc between good citizens, good law abiding citizens, and the 
police department when they have a family member or a friend 
who was undocumented.
    Ms. Lofgren. Thank you. My time has expired.
    So I will turn to the Ranking Member for his questions.
    Mr. King. Thank you, Madam Chair. I do appreciate the 
testimony of the witnesses.
    First, I would ask, as I looked through your testimony and 
listened, Petty Officer Gonzalez, I didn't hear you testify as 
to your place of birth and your status as to citizenship.
    Mr. Gonzalez. As you can tell, I am real shaky. I was born 
in Mexico City in 1983 and my mother, who followed the rules, 
came over here with the working permit, and then she applied 
for residency. She got her residency and she applied with us as 
minors, and we got our residency, and I feel that I owe 
something to this country. So I enlisted in the Navy.
    My brother, who is 1 year younger than me, enlisted in the 
Marine Corps. And we are a good family.
    Mr. King. And you have a rivalry between brothers.
    Mr. Gonzalez. Sometimes.
    Mr. King. Then you received your citizenship when?
    Mr. Gonzalez. 2005, February, I believe.
    Mr. King. Congratulations.
    Mr. Gonzalez. Thank you.
    Mr. King. And I want to also say that as I listen to the 
cases of Mr. Wasilewski and yourself, Petty Officer Gonzalez, I 
am not going to be specific about the paths that I think you 
have under current law, but I believe a year from today, if you 
follow current law, both of you will have a lot better 
expression on your face than you have today. And I believe your 
families will be united and they will stay united without fear 
of being divided, and I believe that can happen under current 
law.
    And so I encourage you to follow that, and I congratulate 
you for the paths that you have followed down the legal path.
    Then I wanted to say to Mr. Barrera, Congressman LaHood sat 
in the chair next to you in the previous panel and testified 
that his grandparents came here from Lebanon in 1896. And you 
are a third generation and I am a third generation, too, but I 
don't get any credit for that. I am kind of missing out here.
    I would say that my father's family, they were raised on a 
different path and it was a path of throwing themselves into 
this greater overall American culture, and I don't hear that 
coming out of the witnesses on the panel about how valuable it 
is that we have a greater American culture.
    It is an umbrella that sits over the top of everything 
within this country, and it is tied together by a common 
history, which we share, all of us today share this, and a 
common language and a common sense of destiny and a common 
sense of purpose.
    And I would like to hear that reiterated more and more 
rather than less and less, and I would like to see us 
identified more as Americans first. I point that out because it 
seems to be missing in this testimony that is here. I know it 
probably isn't missing in your heart, certainly not with our 
gentleman in the Navy uniform.
    But I make that point because I think it needs to be made. 
And the another point, another distinction that if there were, 
let me say, an abstract anthropologist that were sitting here 
listening to this that didn't have their memory clouded with 
all of this debate that we have had, they were trying to 
determine the difference between legal and illegal immigration, 
they would also have a nearly impossible time defining that 
difference. Because many of the witnesses don't want to talk 
about the difference between the two, and I want to emphasize 
the difference.
    And I want to point out, also, that a Nation, to be a 
Nation, has to have borders, and it has to have the rule of 
law, and that is the most essential pillar of this Nation of 
American exceptionalism. And I saw you raise your hand, 
Reverend Cortes, but you quoted from the Bible and I am going 
to quote back to you, and it is about Nations.
    This is Act 17, Verse 26, and I will quote it this way, 
``God made all nations who live on Earth and he decided when 
and where every nation would be.''
    Yes, I think our destiny is directed in that fashion and I 
would believe that you would, too. And as I listened to your 
testimony, I can't help but conclude that borders mean less to 
you than they do to me.
    Mr. Cortes. No, sir, you are wrong.
    Mr. King. And I am drawing this conclusion now and I am 
getting ready to ask my question----
    Mr. Cortes. Read my testimony.
    Mr. King [continuing]. Here in a minute. And I listened 
carefully to your testimony, and I hope that you would respect 
my statement, as well.
    But I can't draw a conclusion to anything otherwise. If we 
are going to grant a path to citizenship for almost all of 12 
to 20 million people and reward that violation of the law and 
wipe the slate clean, as Ms. Kirchner said, then what will 
those descendents have to say about the rule of law? What will 
they have to say about that essential pillar, that central 
pillar of American exceptualism?
    And I think rather than go to hear more of this, I would 
turn it over to the supervisor, Chairman Stewart, and ask him, 
can you list for us again the tools you would like to have to 
enforce the rule of law?
    Mr. Stewart. Sure. Thank you very much, Congressman. First 
of all, I wanted to thank you again for the 287(g) authority 
which passed in 1996. And I understand, I believe it is Mr. 
Smith that authored that bill.
    What we would like is greater authority. We are willing to 
do it. We ask for three specific things at this point. First, 
we would ask that our law enforcement officials be allowed to 
detain and arrest illegal immigrants based solely upon the 
immigration charge. Right now, we cannot do that, unless they 
have committed some other underlying crime.
    Secondly, we would like the authority to fine landlords who 
house illegal immigrants and, third and more important, the 
ability to fine employers who are hiring illegal immigrants.
    And I have listened to some of the testimony here today 
from other Members and they mentioned that these are jobs that 
Americans don't want to do. That is just simply not the case. 
These are skilled and unskilled jobs, especially in the 
construction industry.
    And if you are a contractor and you are trying to obey the 
rules and do the right thing, it is very difficult to compete 
when you have got unethical, unscrupulous contractors who are 
hiring illegal immigrants, not paying them any benefits, paying 
them below wage.
    And when those illegal immigrants become sick, as most of 
us eventually do, where do they go? When they don't have 
benefits, they go to our emergency rooms and our hospitals, and 
that has been a problem, as well.
    So those are the three things we would actually ask for.
    Mr. King. Thank you. Thank you, Madam Chair. I yield back.
    Mr. Cortes. Madam Chair? Madam Chair, may I have a 
statement? May I make a statement, please?
    Ms. Lofgren. I think what we need to do is go to Mr. 
Gutierrez, under the 5-minute rule, and he may want to let you 
speak first as part of his questioning.
    Mr. Gutierrez?
    Mr. Gutierrez. I was immediately going to go to Reverend 
Cortes because I think it is unfair to make an accusation of a 
panel member and then not allow that panel member to respond to 
the accusation. I think that is fundamentally un-American, as 
far as I am concerned.
    And while my parents only spoke Spanish, I was blessed with 
some use of the English language, limited as it might be.
    So, Reverend Cortes, please feel free to answer.
    Mr. Cortes. Thank you.
    Mr. King, I want to raise the fact that if you would have 
read my testimony, you would have seen that in the testimony, I 
stated clearly that we need to close the border and that the 
United States, as a sovereign Nation, has a right to do on its 
border what it pleases.
    So I never said that we were one country or open borders. 
That has never been the position of the clergy in this country.
    Secondly, I want to raise a question about the issue of 
rule of law. Rule of law, under the rule of law, Jesus Christ 
was crucified. It was the law of the land at the time. Separate 
and equal was also part of the law in this country. It didn't 
mean it was a stupid law. It just meant it was the law.
    We have 12 million who are here. They are here, and unless 
you want to start a program of some sort and trace them down 
and chase 12 million people with their three million American 
children, if you want to do that, then you just say it.
    But to hide behind the statement of rule of law is wrong.
    Mr. King. Madam Chair, this is going beyond the bounds.
    Ms. Lofgren. The gentleman from Illinois controls the time.
    Mr. Gutierrez. Thank you.
    Thank you very much for your answer.
    Let me just say that I think that when we have a debate and 
we have people come here, like Mr. Wasilewski, who has come 
here, who has talked about--you are going to become an American 
citizen.
    He speaks English. He came here to this country, developed 
a business, he speaks English. He is going to become an 
American citizen.
    And then we have Petty Officer Gonzalez, who is going to 
give his third term, his third time, his third deployment back 
to Iraq.
    And then to come to question and to say to the panelists, 
``By god, you didn't mention that you love America, you didn't 
mention that you want to learn English, you didn't mention how 
great this country is.'' What greater sacrifice and what 
greater tax can a citizen pay than the tax of their body and 
the tax of their blood, as Petty Officer Gonzalez has done and 
continues to do for each and every one of us?
    Shame on any institution that has a panel such as this and 
then questions their Americanism, questions the kinds of right 
to say ``I love this country.'' We say that each and every day.
    Mr. Wasilewski, I look forward to when you raise your hand 
up. I want you to raise your hand up with your wife. I want her 
to be there with you, with your American citizen children.
    Petty Officer Gonzalez, I want you to do it. Yes, there are 
more. I remember and I have the name of Army Specialist Alex 
Jimenez. Do you know how many hundreds of his comrades went out 
there in harm's way to find him when he was taken prisoner? And 
he hasn't shown up yet.
    And while he is taken prisoner, what does his wife in 
Massachusetts get? An order for deportation from the United 
States of America.
    So these aren't isolated cases. So when you are looking for 
the undocumented, remember, when a county, a municipality, a 
village goes out hunting for the undocumented, saying they 
shouldn't have housing, saying they shouldn't have healthcare, 
remember, you are going to come across the wives of servicemen 
who are out in Iraq.
    Be careful what you wish for, because it will truly be an 
un-American experience to have such an individual as Mr. 
Gonzalez, Petty Officer Gonzalez come here and then, all of a 
sudden, he decides, well, he is going to live in this county 
and this county wants to enforce a certain law and you don't 
have papers, ``Out of my county, arrested, I am sending you to 
deportation.''
    Be careful. The community is an interwoven community. Truly 
they are my neighbors. Their children play with my children. 
And I want to know that if harm comes to my child, that that 
undocumented child will feel the freedom to call the police so 
that we can get rid of the criminals together.
    We are not for criminals here on this Committee or those 
who support comprehensive immigration reform.
    And I would like to go lastly to my friend from Illinois. 
What do you think we need to do, Josh, politically? Where do 
you think we are politically right now and what steps do you 
think we need to take here in the Congress of the United 
States?
    Mr. Hoyt. I think there needs to be a decision by both 
parties that we have to look for solutions. The idea that we 
can scapegoat people and use racially charged political 
organizing tactics to try and save our political skins I think 
is repugnant, and the idea that we can hide behind lip service 
and not address this issue I think is cowardly.
    I think we really need Congress to put on its long pants 
and act like grownups and fix a problem that is crisis for this 
country.
    Mr. Gutierrez. And I would just like to say that, look, 
people are going to die in the desert, they are going to 
continue to die in the desert. Servicemen are going to continue 
to be separated from their spouses. There is going to continue 
to be pain in this country.
    And I would just like to say, from my side of the aisle, 
Democrats, we are in the majority. We got elected to lead. Let 
us lead on this issue, and let us figure out comprehensive 
immigration reform.
    And I just want everybody to understand, the first panel, 
there were three Republicans and one Democrat on the first 
panel. We invited them to come forward.
    I understand this needs to be done in a comprehensive and 
in a bipartisan manner.
    And I thank, Reverend Cortes, thank you for the work. I am 
sorry you didn't get to answer your question. I am happy I had 
the time to give you.
    Thank you so much to all of the panel.
    Ms. Lofgren. The gentleman's time has expired.
    The gentlelady from Texas, Ms. Sheila Jackson Lee, is 
recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Madam Chair. And let 
me thank the witnesses.
    The work we do in this Congress warrants overlapping 
hearings and meetings and Rules Committee, and so to those who 
have given their testimony, let me offer an apology for not 
hearing all of your testimony. But I would almost say, without 
any effort at providing any greater knowledge than others, you 
know that I have been around this barn before.
    And I think it is extremely important that we take the 
challenge that was given to us by the previous panel, that this 
House can move forward. This House can move in a bipartisan 
manner. This House, the people's House, can move and be 
responsive to a number of issues that rarely generate, I think, 
the divisiveness immigration reform has generated.
    I remember last August we were on a round robin visiting 
all over the country, and there was an attempt to bring us back 
in September with the divide of the country even wider than we 
have ever seen it before.
    Interestingly enough, the proponents of immigration reform 
were not to be daunted. They were there and they were a wide 
range of individuals, a wide range of Americans, strongly, the 
faith community, businesspersons, average citizens, people of 
goodwill, small businesses, and people who look at this from a 
practical perspective.
    Just a few weeks ago, I had to intervene on two religious 
workers who were getting ready to be deported because of an 
inconsistency in understanding whether or not the Assemblies of 
God equaled a nondenominational church. They were religious 
workers, they were legitimate, but they were on the road of 
deportation because of a fine line of inconsistency in the law.
    So I am troubled by people who don't think that we need to 
fix the law in order for people to abide by the law.
    And I want to go after this issue of whether or not this is 
amnesty. Go back to the 1980s and you will know what amnesty 
was all about.
    This is, in fact, an earned access to legalization--I want 
to go back to the old terminology--which means that you have 
several hurdles to cross over before you can be, in essence, on 
the pathway to earning access to legalization. And I think we 
divide if we continue to use that term, because it is, in 
essence, a word of divisiveness.
    No one likes to see someone get something for nothing. But 
when you take an American on an individual basis, they 
understand equity and they understand fairness.
    Let me quickly pose questions and I would appreciate it.
    Mr. Wasilewski, you have experienced the fear and the 
fright of deportation, is that not----
    Mr. Wasilewski. Yes.
    Ms. Jackson Lee. Do you expect it to be reasonable to 
divide families and to expect the deportation minimally of 
seven million people?
    Mr. Wasilewski. I have experience with deportation. I feel 
we lost with the system. The immigration system now is sick. 
What is really important is my goal, what I would change is--if 
a family is together, our accounts were overthrown.
    We can't just separate the family. I am from the country, 
from Poland, where we had communism for 45 years. We had the 
second World War. It was war, but for me, in America, we need 
those people. We need those people. We need to let people just 
to work in restaurants and hotels and we need to document them, 
not amnesty, not green cards, but documents.
    Ms. Jackson Lee. Something to fix the system.
    Mr. Wasilewski. Yes.
    Ms. Jackson Lee. So you are not here sitting here saying 
let us flaunt against the law, let us break the law forever. 
You are asking for the Congress to accept its duty of fixing 
the system. Is that what you are saying?
    Mr. Wasilewski. Yes, begging the Congress.
    Ms. Jackson Lee. And will you adhere to a fixed system? 
Will you get in line and make the new laws work by giving you 
an opportunity to earn access to legalization?
    Mr. Wasilewski. Yes.
    Ms. Jackson Lee. I thank you. I thank you.
    Ensign, is it correct? Petty Officer Second Class Gonzalez, 
let me thank you for your service. And I did not hear your 
testimony, but let me not go directly to your testimony, sir, 
and to say you are wearing a uniform. And I imagine, in that 
uniform, you took an oath to adhere to the laws of the United 
States.
    Mr. Gonzalez. Yes, ma'am.
    Ms. Jackson Lee. And you would not openly violate those 
laws.
    Mr. Gonzalez. Under the United States Code of Military 
Justice, I am not allowed to answer that question.
    Ms. Jackson Lee. All right. Then I will simply say that you 
want to abide by laws as much as you can, is that true?
    Mr. Gonzalez. Yes.
    Ms. Jackson Lee. And in thanking you for your service, 
would you view a fixed immigration system to be helpful to you 
and your family members and others?
    Mr. Gonzalez. Yes, ma'am.
    Ms. Jackson Lee. And you would look forward to that reform.
    Mr. Gonzalez. Yes, as promptly as possible.
    Ms. Jackson Lee. I thank the distinguished members of the 
panel.
    Ms. Lofgren. Thank you. The gentlelady's time has expired.
    Without objection, I will place into the record a statement 
from Congresswoman Hilda Solis that she has asked to be made a 
part of the record.
    [The statement of Ms. Solis is inserted in the Appendix.]
    And I would like to thank all of you for sticking with us 
on this lengthy day. I think that the testimony we have heard 
today is significant and important. I believe that we need to 
reform our laws from A to Z and maybe we start at M, but we 
have got to get this job done at some point and how we tackle 
it is a challenge, but I think having this hearing is going to 
help us.
    It will be a foundation for moving forward and your 
testimony will help, as well.
    So thank you all very, very much.
    This hearing is adjourned. We have 5 legislative days to 
submit additional questions and if we do have additional 
questions, we ask that you answer them as promptly as possible.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Hilda L. Solis, a Representative in 
                 Congress from the State of California
    I am pleased that the Subcommittee is holding this hearing on H.R. 
1645, the STRIVE Act. The United States needs effective, comprehensive 
immigration reform that strikes a balance between national security and 
a path to legal permanency for hard-working immigrants. This 
legislation provides the important framework to begin overhauling our 
broken immigration system by protecting and enforcing our borders while 
respecting the hard work and contributions of immigrants to our 
country.
    Throughout our nation's history, our country has welcomed 
immigrants, recognizing the enormous economic and cultural 
contributions that immigrants have made to this nation. It is important 
that we continue to honor this tradition. Unfortunately, our 
immigration system is broken, leaving hard working and law abiding 
individuals in the shadows of society. For this reason, I strongly 
support comprehensive immigration reform which provides for family 
reunification, earned legalization, educational opportunities, and 
honors our tradition as a nation of immigrants.
    Whether it is a family member, a friend, the person who sits next 
to us in church, or the person who picks the fruits and vegetables we 
eat everyday, we are all touched by immigrants and affected by the lack 
of comprehensive and realistic immigration reform.
    I am hopeful that this Congress will have the opportunity to 
consider the Strive Act, as it represents a critical first step to 
fixing our fragile immigration system in a comprehensive manner.
         Prepared Statement of the United States Commission on 
                    International Religious Freedom
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Prepared Statement of the National Council of La Raza (NCLR)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
